Petition
Appendix

Case: 18-11630

Date Filed: 08/27/2020

Page: 1 of 29

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-11630
________________________
D.C. Docket No. 2:13-cv-00154-KOB

ALAN EUGENE MILLER,
Petitioner - Appellant,
versus
COMMISSIONER, ALABAMA
DEPARTMENT OF CORRECTIONS,
Respondent - Appellee.
________________________
Appeal from the United States District Court
for the Northern District of Alabama
________________________
(August 27, 2020)

Before JORDAN, ROSENBAUM, and LUCK, Circuit Judges.
PER CURIAM:

1a

Case: 18-11630

Date Filed: 08/27/2020

Page: 2 of 29

An Alabama jury found Alan Miller guilty of murdering three men and,
following a sentencing hearing, recommended by a vote of 10-2 that he be sentenced
to death. The trial court agreed with the jury’s recommendation and sentenced Mr.
Miller to death. The Alabama Court of Criminal Appeals, after a remand to the trial
court, affirmed his conviction and sentence on direct appeal, and later affirmed the
trial court’s denial of his motion for post-conviction relief. See Miller v. State, 913
So. 2d 1148 (Ala. Crim. App. 2004) (Miller I); Miller v. State, 99 So. 3d 349 (Ala.
Crim. App. 2011) (Miller II).
Mr. Miller then filed a federal habeas corpus petition. The district court
denied relief, and we granted a certificate of appealability on a number of claims.
With the benefit of oral argument, and following a review of the record, we affirm
the district court’s denial of habeas relief.
I
The facts set out below are taken from the opinion of the Alabama Court of
Criminal Appeals in Miller I, 913 So. 2d at 1154–56.1
Mr. Miller worked as a delivery truck driver at Ferguson Enterprises in
Pelham, Alabama. Around 7:00 a.m. on August 5, 1999, Johnny Cobb, Ferguson’s
vice president of operations, was about to enter the company building when he heard

1

We provide more details later in our discussion of Mr. Miller’s ineffective assistance of
counsel claim.

2a

Case: 18-11630

Date Filed: 08/27/2020

Page: 3 of 29

some loud noises and what sounded like someone screaming. As he opened the
door, Mr. Cobb saw Mr. Miller—armed with a pistol—walk towards him and say,
“I’m tired of people starting rumors on me.” Mr. Cobb tried to get Mr. Miller to put
the pistol down, but Mr. Miller told him to get out of the way. Mr. Cobb ran out the
front door and around the side of the building. Mr. Miller then left the building, got
into his personal truck, and drove away.
When Mr. Cobb went back into the building, he found Christopher Yancy
underneath a desk in the sales office and Lee Holdbrooks on the floor in the hallway.
Both men were dead; they had been shot several times and were covered in blood.
Mr. Holdbrooks had crawled 20-25 feet in an attempt to escape his assailant, as
evidenced by the trail of blood he had left behind. Evidence technicians recovered
nine .40-caliber shell casings from the scene. Mr. Cobb, who had called the police,
gave officers a description of Mr. Miller’s clothing and truck.
While officers conducted their investigation at Ferguson Enterprises, Andy
Adderhold and Terry Jarvis were beginning their day at work at Post Airgas in
Pelham. Mr. Adderhold noticed Mr. Miller, a former Post Airgas employee, enter
the building. Mr. Miller walked toward the sales counter and called out to Mr. Jarvis:
“Hey, I hear you’ve been spreading rumors about me.” Mr. Jarvis walked out to the
sales counter and replied, “I have not.”

3a

Case: 18-11630

Date Filed: 08/27/2020

Page: 4 of 29

Mr. Miller then shot Mr. Jarvis a number of times, and pointed the pistol at
Mr. Adderhold, who had crouched behind the counter. Mr. Adderhold begged for
his life, and Mr. Miller paused, pointed at a door, and told him to get out. As Mr.
Adderhold was leaving, he heard a sound from Mr. Jarvis and looked back. Mr.
Miller, however, repeated his order to Mr. Adderhold and told him to “get out—right
now.” When exiting the building, Mr. Adderhold heard another gunshot. He
climbed a fence to a neighboring building and called the police. When the authorities
arrived, Mr. Adderhold told them what had happened and provided a description of
Mr. Miller.
Officers later stopped Mr. Miller on the highway. In his truck they found a
Glock pistol with one round in the chamber and 11 rounds in the ammunition
magazine. They also located an empty ammunition magazine on the passenger seat.
At trial, a medical examiner testified that Mr. Holdbrooks was shot six times
in the head and chest, with one of the shots to the head being fired at very close
range. The medical examiner opined that Mr. Holdbrooks was turning his head and
looking up when he was hit with the fatal shot to the head. Mr. Yancy was shot three
times. One of the shots caused paralysis and another struck the aorta, resulting in
Mr. Yancy dying from loss of blood within 15-20 minutes. Mr. Jarvis was shot five
times, with one shot striking his heart. According to the medical examiner, Mr.

4a

Case: 18-11630

Date Filed: 08/27/2020

Page: 5 of 29

Miller was standing over Mr. Jarvis as he shot him in the heart. Mr. Jarvis could
have lived anywhere from several minutes to 15 minutes after being shot.
II
The district court’s denial of Mr. Miller’s habeas corpus petition is subject to
plenary review. See Fults v. GDCP Warden, 764 F.3d 1311, 1313 (11th Cir. 2014).
But because his habeas corpus petition is governed by the provisions of the
Antiterrorism and Effective Death Penalty Act (“AEDPA”), Pub. L. No. 104–132,
110 Stat. 1214 (1996), Mr. Miller can obtain relief only if the state court’s
adjudication of a claim was “contrary to, or involved an unreasonable application of,
clearly established federal law, as determined by the Supreme Court,” or was “based
on an unreasonable determination of the facts in light of the evidence presented in
the State court proceeding.” 28 U.S.C. § 2254(d)(1)–(2). AEDPA “imposes a highly
deferential standard for evaluating state-court rulings and demands that state-court
decisions be given the benefit of the doubt.” Trepal v. Sec’y, Fla. Dep’t of Corr.,
684 F.3d 1088, 1107 (11th Cir. 2012) (quoting Hardy v. Cross, 565 U.S. 65, 66
(2011)). This standard is “difficult to meet.” Harrington v. Richter, 562 U.S. 86,
102 (2011).
A state court decision is “contrary to” clearly established federal law when “it
arrives at an opposite result from the Supreme Court on a question of law, or when
it arrives at a different result from the Supreme Court on ‘materially

5a

Case: 18-11630

Date Filed: 08/27/2020

Page: 6 of 29

indistinguishable’ facts.” Owens v. McLaughlin, 733 F.3d 320, 324 (11th Cir.
2013) (quoting Williams v. Taylor, 529 U.S. 362, 405 (2000)). See, e.g., Premo v.
Moore, 562 U.S. 115, 128 (2011) (“A state-court adjudication of the performance of
counsel under the Sixth Amendment cannot be ‘contrary to’ Fulminante,
for Fulminante—which involved the admission of an involuntary confession in
violation of the Fifth Amendment—says nothing about the Strickland standard of
effectiveness.”). A state court decision cannot be contrary to clearly established
federal law “where no Supreme Court precedent is on point.” Washington v. Crosby,
324 F.3d 1263, 1265 (11th Cir. 2003).
“[A]n unreasonable application of federal law is different from an incorrect
application of federal law.” Richter, 562 U.S. at 101 (emphasis in original and
internal quotation marks and citation omitted). As the Supreme Court has put it:
An unreasonable application [of clearly established federal law] must
be objectively unreasonable, not merely wrong; even clear error will
not suffice. Rather, as a condition for obtaining habeas corpus from a
federal court, a state prisoner must show that the state court’s ruling on
the claim . . . was so lacking in justification that there was an error well
understood and comprehended in existing law beyond any possibility
for fairminded disagreement.
White v. Woodall, 572 U.S. 415, 419–20 (2014) (internal quotation marks and
citations omitted).
With these standards in mind, we address Mr. Miller’s claims.

6a

Case: 18-11630

Date Filed: 08/27/2020

Page: 7 of 29

III
Mr. Miller argues that his death sentence is unconstitutional under Ring v.
Arizona, 536 U.S. 584 (2002), and Hurst v. Florida, 136 S. Ct. 616 (2016), because
the jury did not find the facts that made him eligible for the death penalty. Because
the Alabama Court of Criminal Appeals reasonably concluded that the jury did find
the statutory aggravating circumstance necessary to make Mr. Miller death-eligible,
we reject his argument.
Ring, which applies here because it was decided while Mr. Miller’s direct
appeal was pending in the Court of Criminal Appeals, holds that the Sixth
Amendment requires a jury to find an aggravating circumstance that makes a
defendant eligible for the death penalty. See Ring, 536 U.S. at 609. The only
statutory aggravating circumstance submitted to Mr. Miller’s jury was that the
offense was “especially heinous, atrocious, or cruel compared to other capital
offenses.” Ala. Code § 13A-5-49(8). The trial court instructed the jury that it could
not vote on the death penalty unless it first found beyond a reasonable doubt the
existence of at least one aggravating circumstance.
Because the jury recommended a death sentence by a vote of 10-2, the Court
of Criminal Appeals found that the jury must have determined the existence of the
“heinous, atrocious, or cruel” aggravating circumstance—the only one submitted to
it for consideration. See Miller I, 913 So. 2d at 1169. Given our general presumption

7a

Case: 18-11630

Date Filed: 08/27/2020

Page: 8 of 29

that juries follow the instructions given to them, see Penry v. Johnson, 532 U.S. 782,
799 (2001), and applying AEDPA deference, we cannot say that the factual finding
of the Court of Criminal Appeals was unreasonable. Cf. Nichols v. Heidle, 725 F.3d
516, 546–49 (6th Cir. 2013) (holding that the finding of the Tennessee Supreme
Court—that jurors in a capital case had found the existence of the two aggravating
factors submitted to them even though they listed aggravating factors of their own
creation on the verdict form—was not an unreasonable finding of fact because the
jurors never rejected the two relevant aggravating factors and, when polled, said that
they had found the existence of the two aggravating factors).
We also reject Mr. Miller’s argument that the remand by the Court of Criminal
Appeals demonstrated that the trial court had exclusive authority to make the
findings of fact necessary to make Mr. Miller death-eligible. See Br. for Appellant
at 25–26 (citing and quoting Miller I, 913 So. 2d at 1152, 1167). We do so for two
reasons.
To begin, Mr. Miller did not raise this argument in the district court until he
filed his motion to alter the judgment under Rule 59(e). See Reply Br. for Appellant
at 3. We review a district court’s denial of a Rule 59(e) motion for an abuse of
discretion. See Drago v. Jenne, 453 F.3d 1301, 1305 (11th Cir. 2006). In denying
Mr. Miller’s Rule 59(e) motion, the district court did not address the remand
argument or whether it had been forfeited. See generally D.E. 63. But the district

8a

Case: 18-11630

Date Filed: 08/27/2020

Page: 9 of 29

court’s denial of the motion was not an abuse of discretion in any event because a
motion to alter a judgment cannot be used to raise new arguments that could have
been raised prior to entry of the judgment. See, e.g., Wilchombe v. TeeVee Toons,
Inc., 555 F.3d 949, 957 (11th Cir. 2009).
Mr. Miller’s argument also fails on the merits. When the Court of Criminal
Appeals remanded to the trial court, it did so to ensure compliance with Ex parte
Kyzer, 399 So. 2d 330, 334 (Ala. 1981), abrogated by Ex parte Stephens, 982 So. 2d
1148 (Ala. 2006), which had held that for capital offenses to be “especially heinous,
atrocious or cruel,” there must be a more specific finding that they were
“conscienceless or pitiless homicides which [were] unnecessarily torturous to the
victim.” Miller I, 913 So. 2d at 1152. The trial court’s original order failed to
comply with Kyzer because it merely recited the “especially heinous, atrocious or
cruel” language from the Alabama statute. See id. But the sentencing jury had been
properly instructed under the Kyzer standard. See Miller II, 99 So. 3d at 422 (quoting
the jury instructions). As explained above, the Court of Criminal Appeals could
have reasonably concluded that the jury, by recommending death in a 10-2 vote,
found that the offenses were “especially heinous, atrocious or cruel,” as well as the
more specific requirement necessary under Kyzer that the offenses were
“conscienceless or pitiless homicides which [were] unnecessarily torturous to the

9a

Case: 18-11630

Date Filed: 08/27/2020

Page: 10 of 29

victim[s].” Because the jury made this finding, Mr. Miller’s sentence does not
violate Ring.
Mr. Miller also makes a broader argument. He contends that under Alabama
law at the time, the jury performed only an advisory role in the sentencing process,
see Ala. Code §§ 13A-5-46(a) & 13A-5-47(e) (2000), and as a result, the trial court
had to make the necessary factual finding about the existence of the “heinous,
atrocious, or cruel” aggravating circumstance. And that, he says, renders his
situation indistinguishable from the Florida system the Supreme Court held
unconstitutional in Hurst. See Br. for Appellant at 23–26 (comparing, in a chart, the
similarities between the Florida scheme at issue in Hurst and the Alabama scheme
under which he was sentenced). See also Brooks v. Alabama, 136 S. Ct. 708 (2016)
(Sotomayor & Ginsburg, J.J., concurring in the denial of certiorari and Breyer, J.,
dissenting from the denial of a stay of execution and of certiorari).
We understand Mr. Miller’s comparison of the Florida and Alabama schemes.
For several reasons, however, we cannot grant Mr. Miller habeas relief.
First, the Supreme Court has upheld the Alabama capital scheme under which
Mr. Miller was sentenced, including its use of a purely advisory jury. See Harris v.
Alabama, 513 U.S. 504, 515 (1995) (“The Constitution permits the trial judge, acting
alone, to impose a capital sentence. It is thus not offended when a State further
requires the sentencing judge to consider a jury’s recommendation and trusts the

10a

Case: 18-11630

Date Filed: 08/27/2020

Page: 11 of 29

judge to give it the proper weight.”). Some of the cases Harris relied on, such as
Spaziano v. Florida, 468 U.S. 447, 465 (1984), were overruled in Hurst. But as a
lower court we must follow an on-point Supreme Court decision even if we believe
that later cases have eroded or even abrogated it. See, e.g., Hohn v. United States,
524 U.S. 236, 252–53 (1998) (explaining that the Supreme Court’s “decisions
remain binding precedent until [the Court] see[s] fit to reconsider them, regardless
of whether subsequent cases have raised doubts about their continued vitality”).
Given Harris, which remains binding precedent, we cannot hold that Alabama’s use
of an advisory jury to recommend punishment in Mr. Miller’s case was
unconstitutional.
Second, Mr. Miller’s argument relies heavily on the holding and rationale of
Hurst. But we have held that Hurst announced a new rule of constitutional law that
is not retroactive on collateral review. See Knight v. Fla. Dep’t of Corr., 936 F.3d
1322, 1335–37 (11th Cir. 2019) (applying retroactivity analysis of Teague v. Lane,
489 U.S. 288 (1989)). And the Supreme Court has come to the same conclusion.
See McKinney v. Arizona, 140 S. Ct. 702, 708 (2020). We are therefore unable to
apply Hurst in Mr. Miller’s case. See id. Furthermore, because the sentencing jury
made the necessary death-eligibility finding, it would not matter whether the trial
court had ultimate sentencing authority. See id. (holding that, under Ring, any states

11a

Case: 18-11630

Date Filed: 08/27/2020

Page: 12 of 29

“‘that leave the ultimate life-or-death decision to the judge may continue to do so’”)
(quoting Ring, 536 U.S. at 612 (Scalia, J., concurring)).
IV
Mr. Miller contends that the trial court’s jury instructions violated Caldwell v.
Mississippi, 472 U.S. 320 (1985). We disagree.
The trial court instructed the jury that it had to unanimously find a statutory
aggravating circumstance before it could consider the death penalty.

It also

instructed the jury that its role at sentencing was to make a “recommendation” as to
the appropriate punishment.
Caldwell requires that a jury in a capital case be correctly instructed as to its
role under state law. “Thus, ‘[t]o establish a Caldwell violation, a defendant
necessarily must show that the remarks to the jury improperly described the role
assigned to the jury by local law.’” Romano v. Oklahoma, 512 U.S. 1, 9 (1994)
(quoting Dugger v. Adams, 489 U.S. 401, 407 (1989)). The jury instructions here
accurately described the jury’s advisory role in Alabama’s capital sentencing
scheme. Indeed, Mr. Miller does not claim otherwise. His argument, instead, is that
the jury instructions violated Caldwell because—as a matter of federal constitutional
law under Ring and its progeny, including Hurst—the jury’s finding of an
aggravating circumstance had to be binding on the trial court.

12a

Case: 18-11630

Date Filed: 08/27/2020

Page: 13 of 29

The argument is an interesting one, but at the end of the day it fails because
the jury instructions accurately characterized the jury’s role under Alabama law. Mr.
Miller cannot use Caldwell as an end run around federal retroactivity law to apply
Hurst to the Alabama capital sentencing scheme and then argue that, because of
Hurst, the instructions were incorrect. See Carr v. Schofield, 364 F.3d 1246, 1258
(11th Cir. 2004) (“We have . . . held that ‘references to and descriptions of the jury’s
sentencing verdict as an advisory one [or] as a recommendation to the judge’ . . . do
not constitute Caldwell violations where they ‘accurately characterize the jury’s and
judge’s sentencing roles under [state] law.’”) (quoting Davis v. Singletary, 119 F.3d
1471, 1482 (11th Cir. 1997)).
V
Mr. Miller asserts that his trial counsel rendered ineffective assistance of
counsel, in violation of the Sixth Amendment, when he “sabotaged” the evaluation
of his sanity by his medical expert and then withdrew his insanity defense. We are
not persuaded. 2

2

The district court concluded that because Mr. Miller did not argue on direct appeal that
trial counsel was ineffective for failing to provide documents to Dr. Scott, that this part of his
ineffective assistance of trial counsel claim was procedurally defaulted. See D.E. 53 at 43.
Because we are denying relief on the merits, we need not address procedural bar issues. See 28
U.S.C. § 2254(b)(2); Loggins v. Thomas, 654 F.3d 1204, 1215 (11th Cir. 2011).

13a

Case: 18-11630

Date Filed: 08/27/2020

Page: 14 of 29

A
Through counsel, Mr. Miller initially entered a plea of not guilty by reason of
mental disease or defect. Two medical professionals employed by the state, Drs.
James Hooper and Harry McClaren—one a psychologist and the other a
psychiatrist—evaluated Mr. Miller. Dr. Hooper, who spent only 30 minutes with
Mr. Miller and did not conduct any psychological tests, concluded that he did not
find any mental illness that would rise to the level of an insanity defense. Dr.
McClaren concluded that Mr. Miller gave the impression of suffering from a
personality disorder with schizoid and paranoid features, and he could not rule out
the possibility of a brief period of dissociation because Mr. Miller reported
experiencing a sort of “tunnel vision” near the time of his arrest.
Counsel retained a forensic psychiatrist, Dr. Charles Scott, to evaluate Mr.
Miller and determine whether he had been insane at the time of the murders. Dr.
Scott requested that he be provided all of Mr. Miller’s psychological evaluations,
including reports, tests, notes, and raw data. But counsel failed to give Dr. Scott (a)
the work file of Dr. Hooper (which included notes of his interview with Mr. Miller
shortly after the shooting and which stated that Mr. Miller denied “any memory” of
the offense); (b) Dr. McClaren’s report and file, which suggested at times that Mr.
Miller was not aware of his actions; (c) the recordings of the questioning of Mr.
Miller on the day of his arrest, in which he asked, “I’m being charged with

14a

Case: 18-11630

Date Filed: 08/27/2020

Page: 15 of 29

something?”; and (d) a form prepared by counsel shortly after the murders indicating
that Mr. Miller was suffering from the “apparent loss of some memory surrounding
the events.”
Despite not having these materials, Dr. Scott concluded in his preliminary
assessment that Mr. Miller suffered from a severe mental illness, and that there was
evidence both for and against a determination of insanity. But as things stood, Dr.
Scott opined that Mr. Miller did not meet the definition of insanity under Alabama
law. In reaching his conclusion, Dr. Scott consulted with Dr. Barbara McDermott,
a psychologist who had administered certain tests to Mr. Miller.
At trial, counsel withdrew Mr. Miller’s insanity defense, entered a plea of not
guilty, and presented no defense during the guilt phase. Counsel later explained that
he believed that jurors in Shelby County were “solid” and “hard working” people
who “don’t believe a lot of hullabaloo about these things they can’t see,” and they
would have regarded the assertion of an insanity defense as “whiny.” Counsel told
the jury that he was not proud of representing Mr. Miller and that there was “fairly
convincing” evidence that he had done what he was charged with. The jury returned
a guilty verdict after 20 minutes of deliberation.
In the penalty phase, counsel put on Dr. Scott as Mr. Miller’s only witness.
Dr. Scott testified that Mr. Miller was mentally ill at the time of the murders because
he suffered from a “delusional disorder that substantially impaired his rational

15a

Case: 18-11630

Date Filed: 08/27/2020

Page: 16 of 29

ability,” and that the disorder, together with his history as a loner, resulted in his
belief that his co-workers were spreading rumors that he was homosexual. Dr. Scott
also testified, however, that the mental illness did not rise to the level of insanity
under Alabama law because Mr. Miller was able to appreciate the nature and
consequences of his actions. See Ala. Code § 13A-3-1(a) (defining insanity as when,
as a “result of a severe mental disease or defect,” the defendant “was unable to
appreciate the nature and quality or wrongfulness of his acts”). For example, Mr.
Miller returned to shoot Mr. Holdbrooks before driving to another location and
shooting Mr. Jarvis.
B
On direct appeal, the Alabama Court of Criminal Appeals stated that counsel’s
withdrawal of the insanity defense was a “well-reasoned decision,” which was a part
of a strategy to try to save Mr. Miller’s life given the overwhelming evidence of
guilt. See Miller I, 913 So. 2d at 1159–61. On post-conviction review, the Court of
Criminal Appeals concluded that counsel’s withdrawal of the insanity defense was
a reasonable strategic decision, explaining that all of the medical professionals who
had evaluated Mr. Miller had concluded that he did not meet Alabama’s definition
of insanity at the time of the murders. See Miller II, 99 So. 3d at 377.
The district court, applying AEDPA deference, ruled that Mr. Miller had not
carried his heavy burden of demonstrating that counsel “performed unreasonably”

16a

Case: 18-11630

Date Filed: 08/27/2020

Page: 17 of 29

in withdrawing the insanity defense. See D.E. 53 at 45. First, Dr. Scott had
concluded that Mr. Miller did not meet the definition of insanity under Alabama law.
Second, Drs. Hooper and McClaren had agreed with Dr. Scott’s conclusion. See id.
at 46.3
Mr. Miller argues that the Court of Criminal Appeals and the district court
erred with respect to the matter of performance. He points out that insanity was his
only defense, and he contends that, in such a circumstance, counsel’s decision cannot
be presumed to be a reasonable strategic choice. See, e.g., Profitt v. Waldron, 831
F.2d 1245, 1248–49 (5th Cir. 1987). He also asserts that, under Alabama law, an
expert opinion is not required to send the question of insanity to the jury. See, e.g.,
Harkey v. State, 549 So. 2d 631, 634–35 (Ala. Crim. App. 1989) (concluding that
the insanity defense was properly presented to the jury even though counsel did not
proffer expert evidence, and quoting Young v. State, 428 So. 2d 155, 161 (Ala. Crim.
App. 1982), for the general rule that “only slight evidence of insanity at the time of
the commission of the crime is required to raise the issue for submission to the jury”).
And he cites to Wheeler v. State, 659 So. 2d 1032, 1035 (Ala. Crim. App. 1995), in
which the Court of Criminal Appeals said that the matter of insanity was for the jury,
even though in that case the defense expert testified only that the defendant had

3

Given its ruling on performance, the district court did not address prejudice. See D.E. 53
at 45–46.

17a

Case: 18-11630

Date Filed: 08/27/2020

Page: 18 of 29

major depression with psychotic features and experienced some depersonalization
at the time of the murder.
We need not address the performance prong of Strickland. Assuming without
deciding that counsel’s performance as to the insanity defense was constitutionally
deficient, Mr. Miller has not demonstrated prejudice.
C
Under Strickland v. Washington, 466 U.S. 668, 696 (1984), Mr. Miller has the
burden of showing that, but for counsel’s errors concerning the insanity defense (i.e.,
the failure to provide Dr. Scott with all of the information he requested and the
withdrawal of the insanity defense), there is a “reasonable probability” of a different
outcome, i.e., a reasonable probability that the jury would have found him to be
insane under Alabama law at the time of the murders. See Roberts v. Comm’r, Ala.
Dep’t of Corr., 677 F.3d 1086, 1092 (11th Cir. 2012) (per curiam) (“The appropriate
prejudice analysis for this [ineffectiveness] claim would require . . . consider[ing]
whether there is a reasonable probability that Roberts’ trial would have resulted in
his being found not guilty by reason of insanity had his trial counsel properly
investigated and presented an insanity defense.”); Weeks v. Jones, 26 F.3d 1030,
1038 (11th Cir. 1994) (“Weeks would have to establish a reasonable probability that
his trial counsel’s failure to discover and review his mental history . . . and, thus, to

18a

Case: 18-11630

Date Filed: 08/27/2020

Page: 19 of 29

present an insanity defense, would have resulted in his being found not guilty by
reason of insanity.”).
The reasonable probability standard does not impose a “more likely than not”
burden, but instead requires a defendant to demonstrate a probability “sufficient to
undermine confidence in the outcome.”

Strickland, 466 U.S. at 693, 694.

Nevertheless, the likelihood of a different result must be “substantial, not just
conceivable.” Richter, 562 U.S. at 112.
On post-conviction review, the Alabama Court of Criminal Appeals affirmed
the trial court’s ruling that Mr. Miller had not shown prejudice from his counsel’s
alleged errors. It separately analyzed the two purported errors—the failure to
provide Dr. Scott with all the information and materials he needed, and the
withdrawal of the insanity defense. See Miller II, 99 So. 3d at 384–86, 389–90.
With respect to counsel’s failure to give Dr. Scott what he had requested, the
Court of Criminal Appeals explained that none of the experts who evaluated Mr.
Miller—either at trial or in the post-conviction proceedings—concluded that he was
legally insane at the time of the murders. For example, Dr. Catherine Boyer, a
psychologist retained by Mr. Miller for the post-conviction proceedings, reviewed
all of the materials which Mr. Miller says should have been provided to Dr. Scott
and also administered several other tests. Although she concluded that Mr. Miller
suffered from post-traumatic stress disorder with dissociative features, and believed

19a

Case: 18-11630

Date Filed: 08/27/2020

Page: 20 of 29

that he had experienced a dissociative episode during the shootings that “impaired
his ability to appreciate the nature and quality or wrongfulness of his acts,” she never
testified that he was legally insane at the time of the murders. See id. at 385. When
asked if she had an opinion about Mr. Miller’s sanity, Dr. Boyer said she had none.
See id. Furthermore, at the post-conviction hearing Dr. Scott did not say that his
opinion about Mr. Miller being legally sane had changed since the time of trial and
after he had been informed of the previously omitted materials. See id.
Turning to counsel’s withdrawal of the insanity defense, the Court of Criminal
Appeals similarly affirmed the trial court’s ruling that Mr. Miller had not shown
prejudice. See id. at 389–90. First, Dr. Scott testified that Mr. Miller was not unable
to appreciate the wrongfulness of his actions, and therefore did not meet the legal
definition of insanity under Alabama law. Second, any attempt by counsel to argue
lack of intent would have “run contrary to the overwhelming evidence” of Mr.
Miller’s intent to commit murder (e.g., the number of times Mr. Yancy and Mr.
Holdbrooks were shot, the fact that Mr. Miller—after killing those two men—drove
to another location to find and shoot Mr. Jarvis multiple times). See id. at 389.
Third, the failure to introduce mental health evidence during the guilt phase did not
prejudice Mr. Miller because Alabama does not recognize a diminished capacity
defense. See id. at 390.

20a

Case: 18-11630

Date Filed: 08/27/2020

Page: 21 of 29

Applying AEDPA deference, we conclude that the Court of Criminal
Appeals’ prejudice determination was not unreasonable. Mr. Miller shot and killed
two men, and then got in his vehicle and drove to another location where he shot and
killed a third man. Given that no medical expert could say that Mr. Miller was
legally insane under Alabama law at the time of the murders, the Court of Criminal
Appeals did not unreasonably conclude that his counsel’s alleged errors with respect
to the insanity defense did not prejudice him under Strickland.
Our decision in Roberts is instructive. In that case the defendant, who had
been convicted of capital murder in Alabama and sentenced to death, alleged in part
that his trial counsel rendered ineffective assistance by not investigating and
pursuing an insanity defense. We declined to address counsel’s performance and
analyzed the matter of Strickland prejudice without AEDPA deference because the
Alabama courts had not ruled on prejudice. See Roberts, 677 F.3d at 1092. We held
that the defendant had failed to show prejudice resulting from his counsel’s allegedly
deficient performance even though there was evidence that he had a personality
disorder, suffered from alcohol abuse and was intoxicated at the time of the murder,
may have had memory lapses around the time of the murder, and may not have
remembered what happened at the time of the murder. See id. at 1092–93. Two
facts were critical to our holding on prejudice. First, we understood Alabama law to
require a mental disease, and the defendant had no history of a “major debilitating

21a

Case: 18-11630

Date Filed: 08/27/2020

Page: 22 of 29

mental illness.” Id. at 1093. Second, no medical expert could testify that the
defendant was legally insane under Alabama law at the time of the murder. Id. There
was therefore no basis to conclude that, as a result of a severe mental illness, the
defendant could not appreciate the wrongfulness of his actions. See id. at 1093–94.
A similar result is appropriate here. As in Roberts, no medical professional
has ever concluded that Mr. Miller was legally insane under Alabama law at the time
of the murders. See also Smith v. Mullin, 379 F.3d 919, 935 (10th Cir. 2004)
(holding that the defendant, who had been convicted of murdering his wife and
stepchildren, was not prejudiced by his counsel’s failure to present an insanity
defense under Oklahoma law: “Even on the [mental health] evidence available to
[counsel], should he have obtained it and presented it, an acquittal [on insanity
grounds] was highly unlikely.”); Sandgathe v. Maass, 314 F.3d 371, 382 (9th Cir.
2002) (holding that counsel’s failure to investigate and present an insanity defense
did not prejudice the defendant because there was “no evidence anywhere in the
record . . . establishing that if counsel had properly investigated, he could have
shown that [the defendant’s] mental state at the time of the crime met the [Oregon
insanity] standard”).
VI
Mr. Miller argues that his trial counsel also rendered ineffective assistance of
counsel during the penalty phase by failing to present compelling and readily

22a

Case: 18-11630

Date Filed: 08/27/2020

Page: 23 of 29

available mitigating evidence. And he says that his appellate counsel also performed
deficiently (at the new trial stage and on appeal) by failing to investigate and
preserve trial counsel’s errors with respect to mitigating evidence. We conclude that
the Alabama Court of Criminal Appeals reasonably determined that Mr. Miller failed
to show prejudice resulting from these alleged errors.4
A
During the penalty phase, counsel called only one witness—Dr. Scott. As
explained earlier, Dr. Scott was a psychiatrist who had been retained to evaluate Mr.
Miller’s sanity. He testified about Mr. Miller’s mental disorder, but he was not a
mitigation expert or specialist, and had only obtained limited information about Mr.
Miller’s background, family life, and employment.
According to Mr. Miller, his counsel could have and should have obtained and
presented the following mitigating evidence: (1) Mr. Miller’s parents were poor and
frequently unemployed, and lived in a rat- and rodent-infested home; (2) Mr.
Miller’s father used the money the family had to buy drugs; (3) three generations of
the Miller family suffered from severe and well-documented mental illnesses (e.g.,
his paternal great-grandmother suffered from insanity and was hospitalized and his
father and uncles had severe mental illnesses); (4) Mr. Miller’s father physically

4

The district court found the ineffective assistance of trial counsel claim to be procedurally
barred, but we choose to deny relief on the merits, as AEDPA allows us to do. See Loggins, 654
F.3d at 1215.

23a

Case: 18-11630

Date Filed: 08/27/2020

Page: 24 of 29

abused and threatened Mr. Miller on a regular basis, treated him harshly (e.g., calling
him names like “little bastard,” “retarded,” and “moron”), and told him he was a
homosexual; (5) Mr. Miller was an excellent employee; (6) Mr. Miller had a close
and loving relationship with his siblings, was a great uncle to his nieces and
nephews, and provided financial support to them; and (7) Mr. Miller had behaved
strangely in the weeks before the shootings. See Br. for Appellant at 11–13.
After he was sentenced to death, Mr. Miller (now represented by new
appellate counsel) filed a motion for a new trial alleging in part that trial counsel had
rendered ineffective assistance. The trial court held an evidentiary hearing, and then
summarily denied the motion. See Miller I, 913 So. 2d at 1151.
On direct appeal, the Court of Criminal Appeals rejected Mr. Miller’s
argument that trial counsel had failed to “adequately explore all possible mitigating
routes,” which left him “unable to make well-informed decisions on the question of
mitigation.” Id. at 1163. It recounted that trial counsel had testified about why he
chose to present Mr. Miller’s family and social history through Dr. Scott instead of
through relatives, and held that it “fail[ed] to see what other mitigating evidence
counsel could have offered. Moreover, despite [Mr.] Miller’s allegations, he offers

24a

Case: 18-11630

Date Filed: 08/27/2020

Page: 25 of 29

no additional mitigating evidence that counsel did not discover during his
investigation or that counsel failed to consider in formulating his trial strategy.” Id.5
On Mr. Miller’s post-conviction appeal, the Court of Criminal Appeals again
addressed the claims that trial counsel and appellate counsel were ineffective with
respect to the investigation and presentation of mitigating evidence at sentencing. It
rejected both claims.
The Court of Criminal Appeals affirmed the trial court’s conclusions that trial
counsel had performed adequately: trial counsel had presented a “competent
mitigating case” (including Mr. Miller’s mental health and background) through Dr.
Scott; “the fact that . . . trial counsel could have presented more mitigation evidence
. . . does not establish deficient performance under Strickland”; and Mr. Miller had
failed to ask trial counsel during the post-conviction hearing why he did not present
other witnesses or evidence at the post-conviction hearing (and therefore trial
counsel’s performance was “presumed to be reasonable”). See Miller II, 99 So. 3d
at 424.
With respect to prejudice, the Court of Criminal Appeals agreed with the trial
court that Mr. Miller had failed to carry his burden. First, Mr. Miller had failed to
establish what additional mitigating evidence could have been presented. Second,

5

At the penalty phase, Dr. Scott testified to the jury about Mr. Miller’s father’s verbal
abuse, his impoverished childhood, and the history of mental illness in his family. See D.E. 53 at
104– 07 (citing R. Vol. 8, Tab 22, at 1349, 1350-51, 1362).

25a

Case: 18-11630

Date Filed: 08/27/2020

Page: 26 of 29

the substance of the reports of Dr. Scott and Dr. McDermott were presented during
the penalty phase.

Third, the trial court found three statutory mitigating

circumstances—that Mr. Miller had no significant history of prior criminal activity,
that Mr. Miller committed the murders while “under the influence of extreme mental
or emotional disturbance,” and that Mr. Miller’s capacity to appreciate the
criminality of his conduct or to conform his conduct to the requirements of the law
“was substantially impaired”—and Mr. Miller failed to show what additional
mitigating circumstances could have been proven. See id. at 411, 424. The Court
of Criminal Appeals was “confident that there would be no change in the result in
this case.” Id. at 415.
The district court addressed only the matter of prejudice. See D.E. 53 at 102.
It recounted the additional mitigating evidence Mr. Miller claimed should have been
presented, see id. at 103–09, and compared that evidence to what was actually
presented at the sentencing hearing. Applying AEDPA deference, it determined that
a reasonable jurist could conclude that there was no reasonable probability of a
different outcome had the additional mitigating evidence been presented. See id. at
109. The district court noted that some of Mr. Miller’s new evidence was cumulative
of the information presented by Dr. Scott and explained that “the value of the
additional mitigating evidence . . . is minimal when weighed against the brutal
nature” of Mr. Miller’s crimes. See id. at 111.

26a

Case: 18-11630

Date Filed: 08/27/2020

Page: 27 of 29

B
As explained above, the reasonable probability standard requires a defendant
to demonstrate a probability “sufficient to undermine confidence in the outcome.”
Strickland, 466 U.S. at 694. The likelihood of a different result must be “substantial,
not just conceivable.” Richter, 562 U.S. at 112. The question is “whether there is a
reasonable probability that, absent the errors, the sentencer . . . would have
concluded that the balance of aggravating and mitigating circumstances did not
warrant death.” Evans v. Sec’y, Dep’t of Corr., 703 F.3d 1316, 1326 (11th Cir. 2013)
(en banc) (internal quotation marks and citation omitted).

In answering this

question, we must reweigh the aggravating evidence against the totality of the
available mitigating evidence. See Ferrell v. Hall, 640 F.3d 1199, 1234 (11th Cir.
2011).
But because we must apply AEDPA deference, we do not analyze the
prejudice issue de novo. Instead, we ask whether the prejudice ruling of the Court
of Criminal Appeals was reasonable. See Pittman v. Sec’y, Fla. Dep’t of Corr., 871
F.3d 1231, 1253 (11th Cir. 2017). Like the district court, we conclude that the Court
of Criminal Appeals reasonably held that Mr. Miller failed to show prejudice from
his trial counsel’s failure to present additional mitigating evidence and his appellate
counsel’s failure to investigate and preserve the issue of trial counsel’s alleged
ineffectiveness. See id. at 1252–54 (holding that state court reasonably concluded

27a

Case: 18-11630

Date Filed: 08/27/2020

Page: 28 of 29

that defendant—who had committed a violent triple murder with indicia of
premeditation—failed to show prejudice resulting from his counsel’s alleged failure
to present additional mitigating evidence of sexual abuse, drug use, and mental
health at sentencing).
Based on the testimony that Dr. Scott provided at the sentencing hearing, the
trial court found three statutory mitigating factors. Applying AEDPA deference, the
additional mitigating evidence that Mr. Miller presented in post-conviction
proceedings (some of which was cumulative) is not strong enough to overcome the
three murders he committed and the way in which he carried them out. See D.E. 53
at 111–12 (recounting the trial court’s factual findings about the murders).
At the first location, Mr. Miller first shot Mr. Yancy in the leg, and the bullet
entered his spine and paralyzed him. Mr. Yancy, unable to move, tried to hide from
Mr. Miller under a desk but could not reach a cell phone that was inches away from
his hand. He must have been afraid he was going to be killed before Mr. Miller fired
the final two shots into him. Mr. Miller shot Mr. Holdbrooks several times, and Mr.
Holdbrooks crawled down a hallway for about 25 feet before Mr. Miller put the gun
to his head and fired the final bullet that killed him. At the second location, Mr.
Miller shot Mr. Jarvis five times after he denied spreading rumors about Mr. Miller’s
sexuality. In the words of the trial court, “[i]t appears all three of [Mr. Miller’s]
victims suffered for a while not only physically, but psychologically. In each

28a

Case: 18-11630

Date Filed: 08/27/2020

Page: 29 of 29

instance, there appeared to have been hope for life while they were hurting, only to
have their fate sealed by a final shot, execution style.” Id. at 112 (quoting Rule 32
C.R. Vol. 43, Tab 72 at 1–3). On this record, we cannot say that the Court of
Criminal Appeals’ prejudice determination was unreasonable.

Cf. Brooks v.

Comm’r, Ala. Dep’t of Corr., 719 F.3d 1292, 1302 (11th Cir. 2013) (“In light of the
extensive evidence regarding the horrific nature of the crime, it was reasonable for
the Alabama Court of Criminal Appeals to conclude that the penalty phase outcome
would not be affected by Brooks’s acquaintances’ and relatives’ impression of him
as a nice and polite young man[.]”).
VII
The district court’s denial of Mr. Miller’s habeas corpus petition is affirmed.
AFFIRMED.

29a

Case: 18-11630

Date Filed: 08/27/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303

David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

August 27, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 18-11630-P
Case Style: Alan Eugene Miller v. Commissioner, Alabama DOC
District Court Docket No: 2:13-cv-00154-KOB
This Court requires all counsel to file documents electronically using the Electronic Case Files ("ECF") system,
unless exempted for good cause. Non-incarcerated pro se parties are permitted to use the ECF system by
registering for an account at www.pacer.gov. Information and training materials related to electronic filing, are
available at www.ca11.uscourts.gov.
Enclosed is a copy of the court's decision filed today in this appeal. Judgment has this day been entered pursuant to FRAP
36. The court's mandate will issue at a later date in accordance with FRAP 41(b).
The time for filing a petition for rehearing is governed by 11th Cir. R. 40-3, and the time for filing a petition for rehearing
en banc is governed by 11th Cir. R. 35-2. Except as otherwise provided by FRAP 25(a) for inmate filings, a petition for
rehearing or for rehearing en banc is timely only if received in the clerk's office within the time specified in the rules.
Costs are governed by FRAP 39 and 11th Cir.R. 39-1. The timing, format, and content of a motion for attorney's fees and
an objection thereto is governed by 11th Cir. R. 39-2 and 39-3.
Please note that a petition for rehearing en banc must include in the Certificate of Interested Persons a complete list of all
persons and entities listed on all certificates previously filed by any party in the appeal. See 11th Cir. R. 26.1-1. In
addition, a copy of the opinion sought to be reheard must be included in any petition for rehearing or petition for
rehearing en banc. See 11th Cir. R. 35-5(k) and 40-1 .
Counsel appointed under the Criminal Justice Act (CJA) must submit a voucher claiming compensation for time spent on
the appeal no later than 60 days after either issuance of mandate or filing with the U.S. Supreme Court of a petition for
writ of certiorari (whichever is later) via the eVoucher system. Please contact the CJA Team at (404) 335-6167 or
cja_evoucher@ca11.uscourts.gov for questions regarding CJA vouchers or the eVoucher system.
For questions concerning the issuance of the decision of this court, please call the number referenced in the signature
block below. For all other questions, please call David L. Thomas at (404) 335-6171.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: David L. Thomas
Phone #: 404-335-6151
OPIN-1 Ntc of Issuance of Opinion

30a

FILED

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 1 of 189

2017 Mar-29 AM 11:30
U.S. DISTRICT COURT
N.D. OF ALABAMA

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
ALAN EUGENE MILLER,
Petitioner,
v.
JEFFERSON S. DUNN,
Commissioner of the Alabama
Department of Corrections,
Respondent.

)
)
)
)
)
)
)
)
)
)
)

CIVIL ACTION NO.
2:13-00154-KOB

MEMORANDUM OPINION
This case is again before the court upon the petitioner Alan Eugene Miller’s
“Petition for Writ of Habeas Corpus By Prisoner In State Custody Under Sentence of
Death,” pursuant to 28 U.S.C. § 2254.1 (Doc. 1). Miller alleges that he was denied
effective assistance of counsel both at trial and on appeal, and that his death sentence
violates the United States Constitution.

1

The court’s original Memorandum Opinion and Final Judgment, entered August 4, 2015,
were withdrawn on September 4, 2015, upon Miller’s unopposed motion to supplement the record
with exhibits from the Rule 32 proceedings in state court, that were not previously made part of the
record in this case. This Memorandum Opinion considers those exhibits. Additionally, it addresses
the arguments made by the parties subsequent to the original Memorandum Opinion, pertaining to
Hardwick v. Sec’y, Fla. Dep’t of Corr., 803 F.3d 541 (11th Cir. 2015); Hurst v. Florida, 136 S. Ct.
616 (2016); Daniel v. Comm’r, Ala. Dep’t of Corr., 822 F.3d 1248, 1255 (11th Cir. 2016); and In
re Bohannon v. State, No. 1150640, 2016 WL 5817692, at *5 (Ala. Sept. 30, 2016).
1

31a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 2 of 189

Table of Contents
I.

The Offense Conduct. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

II.

Trial: Guilt and Penalty Phases.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

III.

Sentencing Hearing. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

IV.

Procedural History.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

V.

A.

Motion for a New Trial.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

B.

Direct Appeal. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

C.

Rule 32 Proceedings in Shelby County Circuit Court. . . . . . . . . . . . 21

Legal Standard.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
A.

Exhaustion of State Court Remedies: The First Condition Precedent to
Federal Habeas Review. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

B.

The Procedural Default Doctrine: The Second Condition Precedent to
Federal Habeas Review. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

C.

Overcoming Procedural Default: The Cause and Prejudice Analysis.27

D.

The Statutory Overlay: The Effect of “the Antiterrorism and Effective
Death Penalty Act of 1996” on Habeas Review . . . . . . . . . . . . . . . . 28

E.

1.

Title 28 U.S.C. § 2254(e)(1).. . . . . . . . . . . . . . . . . . . . . . . . . . 29

2.

28 U.S.C. § 2254(d). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

An Introduction to Ineffective Assistance of Counsel Claims.. . . . . 32
1.

The performance prong. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

2

32a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 3 of 189

VI.

2.

The prejudice prong. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

3.

Deference accorded state court findings of historical fact, and
decisions on the merits, when evaluating ineffective assistance of
counsel claims.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

Miller’s Claims. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
A.

Miller’s Ineffective Assistance of Trial Counsel Claims. . . . . . . . . . 41
1.

B.

Claims Raised and Exhausted On Direct Appeal.. . . . . . . . . . 41
a)

Claim A(ii): Miller's Claim That Trial Counsel Was
Ineffective For Sabotaging the Work of the Defense
Psychiatric Expert and For Withdrawing the Plea of Not
Guilty by Reason of Mental Disease or Defect. . . . . . . 43

b)

Claim A(v): Miller’s Claim That Trial Counsel Was
Ineffective In His Guilt phase Opening Statement. . . . 46

c)

Claim A(vi): Miller’s Claim That Trial Counsel Was
Ineffective During The Presentation of The State's Guilt
phase Evidence . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

d)

Claim A(vii): Miller’s Claim That Trial Counsel was
Ineffective for Failing to Present Mental Health Evidence
During the Guilt Phase . . .. . . . . . . . . . . . . . . . . . . . . . 53

e)

Claim A(xii): Miller’s Claim That Trial Counsel Denied
Miller Effective Assistance in His Penalty phase Opening
Statement. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 56

2.

Claims Raised For the First Time On Collateral Appeal. . . . . 64

3.

Claims Raised For the First Time Before This Court. . . . . . . 67

Miller’s Ineffective Assistance of Appellate Counsel Claims. . . . . . 68
3

33a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 4 of 189

1.

2.

3.

Claim B(i): Miller’s Claim That Miller’s Claim That Appellate
Counsel was Ineffective for Raising the Issue of Ineffective
Assistance of Trial Counsel In the Motion for New Trial. . . . 71
a)

No Procedural Default. . . . . . . . . . . . . . . . . . . . . . . . . . 72

b)

Merits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 72

Claim B(ii & iii): Miller’s Claim That Appellate Counsel Was
Ineffective for Failing to Conduct an Adequate Investigation
Concerning the Ineffective Assistance Miller Received from Trial
Counsel AND Failing to Present Sufficient Evidence During the
Hearing on the Motion for New Trial to Establish That Miller
Suffered Prejudice as a Result of Trial Counsel's Performance. .
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 74
a)

No Procedural Default. . . . . . . . . . . . . . . . . . . . . . . . . . 75

b)

Merits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 75

Claim B(iv): Miller’s Claim That Appellate Counsel was
Ineffective for Failing to Adequately Present the Claims of
Ineffective Assistance of Trial Counsel That Were Raised in
Miller's Motion for New Trial. . . . . . . . . . . . . . . . . . . . . . . . . 79
a)

b)

Miller’s claim that trial counsel's opening statement during
the guilt phase was ineffective.. . . . . . . . . . . . . . . . . . . 80
(1)

No Procedural Default. . . . . . . . . . . . . . . . . . . . . 81

(2)

Merits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 81

Miller’s claim that trial counsel was ineffective for
withdrawing the insanity defense. . . . . . . . . . . . . . . . . 83
(1)

No Procedural Default. . . . . . . . . . . . . . . . . . . . . 84

4

34a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 5 of 189

(2)
c)

d)

e)

Merits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 84

Miller’s claim that trial counsel was ineffective for failing
to present mental health evidence during the guilt phase of
trial. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 93
(1)

No Procedural Default. . . . . . . . . . . . . . . . . . . . . 94

(2)

Merits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 94

Miller’s claim that trial counsel's penalty phase opening
statement was ineffective. . . . . . . . . . . . . . . . . . . . . . . . 98
(1)

No Procedural Default. . . . . . . . . . . . . . . . . . . . . 98

(2)

Merits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 99

Miller’s claim that trial counsel failed to adequately
investigate and present mitigation evidence during the
penalty phase. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 101
(1)

No Procedural Default. . . . . . . . . . . . . . . . . . . . 102

(2)

Merits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 102
(a)

The abuse Miller suffered at the hands of his
father. . . . . . . . . . . . . . . . . . . . . . . . . . . . 104

(b)

Miller’s impoverished childhood and
exposure to the criminal behavior of his
family members. . . . . . . . . . . . . . . . . . . . 105

(c)

The Miller family history of mental illness. .
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 106

(d)

Miller’s good employment history and
relationship with his family.. . . . . . . . . . 108
5

35a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 6 of 189

(3)
4.

(e)

Miller’s behavior prior to the shootings. . . .
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 109

(f)

Miller’s behavior on the day of the shootings.
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 109

Prejudice analysis. . . . . . . . . . . . . . . . . . . . . . . 109

Claim B(v): Miller’s Claim That Appellate Counsel was
Ineffective for Failing to Raise Other Claims of Ineffective
Assistance of Trial Counsel . .. . . . . . . . . . . . . . . . . . . . . . . . 118
a)

b)

c)

d)

Trial Counsel's performance during jury voir dire. . . 119
(1)

No Procedural Default. . . . . . . . . . . . . . . . . . . . 120

(2)

Merits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 120

Failure to object to the admission of testimony and
photographs during the guilt phase of trial .. . . . . . . . 127
(1)

Procedural Default. . . . . . . . . . . . . . . . . . . . . . . 128

(2)

Merits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 129

Ineffective cross-examination of crucial prosecution
witnesses.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 131
(1)

Procedural Default. . . . . . . . . . . . . . . . . . . . . . . 132

(2)

Merits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 133

Failure to object to portions of the state's guilt phase
closing argument. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 134
(1)

Procedural Default. . . . . . . . . . . . . . . . . . . . . . . 135

6

36a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 7 of 189

(2)
e)

f)

g)

h)

i)

j)

Merits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 135

Ineffective guilt phase closing argument.. . . . . . . . . . 136
(1)

No Procedural Default. . . . . . . . . . . . . . . . . . . . 136

(2)

Merits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 136

Failure to request jury instructions to protect Miller's rights
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 140
(1)

Procedural Default. . . . . . . . . . . . . . . . . . . . . . . 141

(2)

Merits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 141

Relying on Dr. Scott as the sole mitigation witness during
the penalty phase of trial. . . . . . . . . . . . . . . . . . . . . . . 144
(1)

No Procedural Default. . . . . . . . . . . . . . . . . . . . 145

(2)

Merits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 145

Failure to move for a directed verdict during the penalty
phase.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 146
(1)

Procedural Default. . . . . . . . . . . . . . . . . . . . . . . 147

(2)

Merits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 148

Inadequate penalty phase closing argument. . . . . . . . 151
(1)

Procedural Default. . . . . . . . . . . . . . . . . . . . . . . 152

(2)

Merits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 153

Failure to object to the court's penalty phase jury
instructions. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 159
7

37a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 8 of 189

k)

l)

m)

5.

C.
VII.

(1)

Procedural Default. . . . . . . . . . . . . . . . . . . . . . . 160

(2)

Merits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 160

Failure to request a special verdict form. . . . . . . . . . . 164
(1)

Procedural Default. . . . . . . . . . . . . . . . . . . . . . . 165

(2)

Merits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 165

Inadequate representation at the sentencing hearing.. 168
(1)

No Procedural Default. . . . . . . . . . . . . . . . . . . . 169

(2)

Merits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 169

Failure to bring the Supreme Court's decision in Apprendi
v. New Jersey to the trial court's attention. . . . . . . . . . 173
(1)

Procedural Default. . . . . . . . . . . . . . . . . . . . . . . 174

(2)

Merits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 175

Claim B(vi): Miller’s Claim That Appellate Counsel was
Ineffective in the Appeal to the Alabama Court of Criminal
Appeals. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 176
a)

Procedural Default. . . . . . . . . . . . . . . . . . . . . . . . . . . . 177

b)

Merits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 177

Validity of the Death Sentence. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 178

Conclusion. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 188

8

38a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 9 of 189

I. THE OFFENSE CONDUCT
The Alabama Court of Criminal Appeals provided the following summary of
the evidence of the offense when it considered Miller’s direct appeal. The state has
adopted this summary for the purpose of answering Miller’s petition. (Doc. 15, at 2).
The evidence presented at trial tended to establish the following.
Around 7:00 a.m. on August 5, 1999, Johnny Cobb arrived at his place
of employment, Ferguson Enterprises in Pelham. Cobb, the vice
president of operations, recognized several other vehicles in the
company’s parking lot as belonging to sales manager Scott Yancy and
delivery truck drivers Lee Holdbrooks and Alan Miller. As Cobb
prepared to enter the building, he heard some loud noises and what
sounded like someone screaming. Cobb opened the front door and saw
Miller walking toward him. Miller, who was armed with a pistol,
pointed the pistol in the general direction of Cobb and stated, “I’m tired
of people starting rumors on me.” Cobb tried to get Miller to put the
pistol down, but Miller told him to get out of his way. Cobb ran out the
front door and around the side of the building. Miller then left the
building, walked over to his personal truck, and drove away.
After Cobb heard Miller drive away, he went back inside the
building. He saw Christopher Yancy on the floor in the sales office and
Lee Holdbrooks on the floor in the hallway. Both men were covered in
blood and showed no signs of life. They appeared to have been shot
multiple times. Cobb used his cellular telephone to summon the police,
who were dispatched at 7:04 a.m. Minutes later, officers from the
Pelham Police Department arrived to investigate the shooting.
After Cobb told the police officers what he had seen, the officers
entered the building. There, they found the body of Christopher Yancy
slumped to the floor, underneath a desk in the sales office. Lee
Holdbrooks was lying face down in the hallway at the end of a bloody
“crawl trail,” indicating that he had crawled 20-25 feet down the hall in
an attempt to escape his assailant. The officers secured the scene and
9

39a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 10 of 189

waited for evidence technicians to arrive. Cobb provided a description
of Miller’s clothing and the truck he was driving. This description was
transmitted to police headquarters and sent out over the police radio by
the police dispatcher. Evidence technicians recovered nine .40-caliber
shell casings from the scene.
While officers began investigating the crime scene at Ferguson
Enterprises, Andy Adderhold was arriving for work at Post Airgas in
Pelham. Adderhold, the manager of the Pelham store, arrived shortly
after 7:00 a.m. Adderhold entered the office and talked with Terry
Jarvis, another employee, for a few minutes before continuing to another
office. At this point, Adderhold noticed Miller—a former employee of
Post Airgas—enter the building. Miller walked toward the sales counter
and called out to Jarvis: “Hey, I hear you’ve been spreading rumors
about me.” As Jarvis walked out of his office and walked into the area
behind the sales counter, he replied, “I have not.” Miller fired several
shots at Jarvis. As Jarvis fell to the floor, Adderhold crouched behind
the counter. Miller then walked behind the counter and pointed the
pistol at Adderhold’s face. Adderhold begged for his life. Miller paused,
then pointed to a door, and told him to get out. Adderhold stood up and,
as he began to move toward the door, heard a sound from Jarvis. When
Adderhold paused and looked back at Jarvis, Miller repeated his order
to “get out-right now.” At this Adderhold left the sales area. As
Adderhold was leaving the building, he heard another gunshot.
Adderhold proceeded out of the back of the building, climbed over a
fence to a neighboring building, where he used someone’s cellular
telephone to summon the police.
The second emergency call came in to the Pelham Police
Department at approximately 7:18 a.m. Upon arrival, officers entered
the building housing Post Airgas and found Jarvis’s body on the floor
behind the sales counter. Jarvis had sustained several gunshot wounds
to his chest and abdomen. After securing the scene, officers recovered
six .40-caliber spent shell casings from the floor of the sales area.
Adderhold was interviewed, and he recounted the events surrounding
Jarvis’s murder.

10

40a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 11 of 189

After a description of Miller and the vehicle he was driving was
transmitted over the police radio, law-enforcement officers combed the
area in search of Miller. Pelham police sergeant Stuart Davidson and his
partner were patrolling Interstate 65 near Alabaster when word of the
second shooting was broadcast. Upon hearing that Miller was still in the
vicinity of Pelham, Davidson exited I-65 to head back to Pelham. As
Davidson turned back toward Pelham, he spotted a truck matching the
description of Miller’s entering I-65 from Highway 31 in Alabaster.
Davidson radioed for backup and followed the truck south on I-65 into
Chilton County. Once additional officers were in place as backup, lawenforcement officers initiated a traffic stop of the truck. Following the
traffic stop, officers were able to positively identify the driver as Miller.
Miller was ordered to get out of the truck, and he was forcibly subdued
and handcuffed after resisting efforts to place him in custody. After
placing Miller in the back of a patrol car, officers secured his truck.
Inside the truck, they found a Glock brand pistol lying on the driver’s
seat. The pistol contained 1 round in the chamber and 11 rounds in the
magazine. An empty Glock ammunition magazine was found on the
passenger seat. Miller was transported to the Pelham Police Department
where he was charged with murder.
At trial, the State called various witnesses who testified
concerning the events of August 5, 1999. Evidence was also introduced
regarding ballistics testing of the spent shell casings found at both
murder sites; the testing matched all of the shell casings to the .40caliber Glock pistol found on Miller. Dr. Stephen Pustilnik, a state
medical examiner with the Alabama Department of Forensic Sciences,
testified that the cause of death for all three victims was multiple
gunshot wounds. Lee Holdbrooks - whose body was found in the
hallway - was shot six times in the head and chest; although several of
the wounds were nonfatal, one of the head wounds was fired at very
close range and would have been immediately incapacitating and fatal.
Based on “blood splatter” analysis and the positioning of the body, Dr.
Pustilnik concluded that Holdbrooks was turning his head and looking
up when the fatal shot was fired.

11

41a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 12 of 189

Scott Yancy was shot three times; one of the shots struck the
aorta, which would have caused Yancy to “bleed out” within 15-20
minutes, while another wound would have caused paralysis. At the time
he was shot, Yancy was underneath a metal desk; there was no
indication that he ever moved from this position.
Terry Jarvis was shot five times; one of the shots struck Jarvis’s
liver and another his heart. Jarvis had already fallen to the floor when he
was shot in the heart. Based on “blood splatter” analysis, Dr. Pustilnik
concluded that Miller was standing over Jarvis as he shot him in the
heart. Despite the nature of this wound, Jarvis could have lived
anywhere from several minutes to 15 minutes after being shot.
Miller v. State, 913 So. 2d 1148, 1154-56 (Ala. Crim. App. 2004).
II. TRIAL: GUILT AND PENALTY PHASES
In August, 1999, a Shelby County Grand Jury indicted Miller on one count of
capital murder under § 13A-5-40(a)(10) of the Code of Alabama, for murdering two
or more persons by one act or pursuant to one scheme or course of conduct. (C.R.
Vol. 1, Tab 1, at 18).2 The Circuit Court of Shelby County appointed Mickey L.
Johnson and Rodger D. Bass to represent Miller. (C.R. Vol. 1, Tab 1, at 1).
On August 17, 1999, Miller entered pleas of not guilty and not guilty by reason
of mental disease or defect. (C.R. Vol. 1, Tab 1, at 1). Accordingly, the court ordered
Miller to undergo a mental evaluation. (C.R. Vol. 1, Tab 1, at 19). Miller was

2

References to the record appear as follows: “C.R” refers to the Miller’s trial and Motion for
New Trial. “R.” refers to Miller’s direct appeal. “Rule 32 C.R.” refers to the Rule 32 collateral
proceedings. “Rule 32 R.” refers to the Appeal of the Rule 32 collateral proceedings.
12

42a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 13 of 189

evaluated by Dr. James Hooper at the Taylor Hardin Secure Medical Facility on
October 4, 1999, for the purpose of assessing his competence to stand trial and his
mental state at the time of the murders. Miller v. State, 99 So. 3d at 379. Dr. Hooper
reportedly spent approximately thirty minutes with Miller in conducting his
evaluation (Rule 32 C.R. Vol. 33, Tab 59, at 681), ultimately concluding that Miller
was competent to stand trial and that he did not meet the legal standard for insanity.
(See Doc. 47-33 at 47-52). The state subsequently hired Dr. Harry McClaren, a
forensic psychologist, to evaluate Miller’s competency to stand trial and his mental
state at the time of the shooting. Miller, 99 So. 3d at 379. In late 1999, Dr. McClaren
conducted a three-day evaluation of Miller, concluding that he was competent to
stand trial and that he was sane at the time of the crime. (See Doc. 47-25 at 29-33;
Rule 32 C.R. Vol. 33, Tab 59, at 774-82).
On March 16, 2000, Miller’s trial counsel applied for funds to hire an expert
psychiatrist and an expert psychologist to assist in Miller’s defense. (C.R. Vol. 1, Tab
1, at 50-55). On April 4, 2000, the trial court granted Miller’s request. (Id. at 57).
Trial counsel hired Dr. Charles Scott, a forensic psychiatrist from the University of
California Davis, to evaluate Miller’s sanity at the time of the shooting. (Doc. 47-31
at 1; R. Vol. 8, Tab 22, at 1343). Dr. Scott began his three-day psychiatric evaluation
of Miller in late April of 2000, approximately eight-and-a-half months after the
13

43a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 14 of 189

August 5, 1999 shooting. (See Doc. 47-31, at 1-23; R. Vol. 8, Tab 22, at 1347). In
conducting his evaluation, Dr. Scott consulted with Dr. Barbara McDermott, a
psychologist, who conducted psychological testing on Miller and prepared a report
dated May 11, 2000. (Doc. 47-31, at 1-2; R. Vol. 8, Tab 22, at 1346; Rule 32 C.R.
Vol. 31, Tab 59, at 316-18). Dr. Scott asked Dr. McDermott to conduct psychological
tests focusing on assessing Miller’s IQ and to assist Dr. Scott in determining whether
Miller was malingering when recollecting what happened on the day of the shooting.
(Doc. 47-28, at 15; R. Vol. 8, Tab 22, at 1357-58; Rule 32 C.R. Vol. 31, Tab 59, at
317)3. Based on the information provided to Dr. Scott and his independent evaluation
of Miller, Dr. Scott determined that Miller was not insane at the time of the shooting.
(Doc. 47-31, at 23; R. Vol. 8, Tab 22, at 1383-88; Rule 32 C.R. Vol. 31, Tab 59, at
380).
After receiving the report of Dr. Scott’s evaluation, Miller withdrew his
insanity plea and entered a simple plea of not guilty on May 24, 2000, less than a
month before the scheduled trial. (C.R. Vol. 1, Tab 6, at 66-67). On June 1, 2000,
less than two weeks before trial, the court granted Mr. Bass’s oral motion to withdraw

3

Dr. McDermott concluded that Miller was not malingering, but was, at the time, suffering
from a “Major Depressive Disorder,” and throughout his life, had suffered from a “Schizoid
Personality Disorder.” (Doc. 47-28 at 16).
14

44a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 15 of 189

as defense counsel, and appointed Ronnie Blackwood as co-counsel to Mr. Johnson.4
(C.R. Vol. 1, Tab 1, at 4).
Miller’s trial began as scheduled on June 12, 2000. (C.R. Vol. 1, Tab 7, at 69).
Five days later, on June 17, 2000, the jury returned its verdict finding Miller guilty
of capital murder as charged in the indictment. (C.R. Vol. 1, Tab 1, at 4, 73).
Immediately after the jury returned its guilty verdict, the trial transitioned to the
penalty phase. The only aggravating circumstance argued by the state was that the
capital offense was “especially heinous, atrocious, or cruel compared to other capital
offenses.” Ala. Code. § 13A-5-49(8). The state relied largely on the evidence
presented during the guilt phase and only introduced victim impact testimony from
one survivor of each victim. (R. Vol. 8, Tab 21, at 1335-41).
Trial counsel’s penalty phase defense was limited to a single witness, Dr. Scott.
(R. Vol. 8, Tab 21, at 1341-1403). Dr. Scott’s testimony, although addressing
Miller’s background, focused on establishing the existence of two mitigating factors.
First, Dr. Scott testified that despite his conclusion that Miller was sane at the time
of the shootings, he believed Miller’s capacity to appreciate the criminality of his
conduct or to conform his conduct to the requirements of law was substantially

4

Because Mr. Bass withdrew before trial and Mr. Blackwood did not play an active role in
the trial, (Rule 32 C.R., Vol. 30, Tab 59, at 111-12), when the court refers to “trial counsel,” it refers
to Mr. Johnson, unless otherwise specified.
15

45a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 16 of 189

impaired. (R. Vol. 8, Tab 22, at 1383-91). Second, Dr. Scott testified that Miller
committed the offense while “under the influence of an extreme mental or emotional
disturbance.” (R. Vol. 8, Tab 22, at 1391). The state stipulated to the existence of
a third mitigating circumstance – that Miller had no significant prior criminal history.
(R. Vol. 8, Tab 19, at 1317).
At the end of penalty phase, the jury rendered a 10-2 verdict, with ten jurors
voting for the death penalty and two voting for life imprisonment without the
possibility of parole. (C.R. Vol. 1, Tab 1, at 73-74). The verdict form only allowed
the jurors to indicate the number of votes for the death sentence and the number of
votes for a life sentence. (C.R. Vol. 1, Tab 1, at 74-75). The form did not require the
jury to indicate the number of jurors who found that the state met its burden of
proving an aggravating factor beyond a reasonable doubt, as is now required under
Ex Parte McGriff, 908 So. 2d 1024, 1039 (Ala. 2004).
III. SENTENCING HEARING
At the July 31, 2000 sentencing hearing, the trial court accepted the jury’s
recommendation and sentenced Miller to death. (R. Vol 8, Tab 28, at 1453-75). On
August 24, 2000, the court issued its sentencing order. (C.R. Vol. 43, Tab 71 at 105-

16

46a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 17 of 189

07).5 The court determined that three mitigating factors applied in Miller’s case: (1)
Miller had no significant history of prior criminal activity; (2) Miller committed the
crime while “under the influence of extreme mental or emotional disturbance”; and
(3) Miller’s capacity to “appreciate the criminality of his conduct or to conform his
conduct to the requirements of the law was substantially impaired.” (Id. at 106-07).
Although the only aggravating factor the court found applicable was that the
offense was especially heinous, atrocious, or cruel, the court ultimately determined
that the defendant “should suffer the punishment of death by electrocution as
provided for by law.” (Id. at 106-07). The court stated that prior to rendering a
decision, it examined the presentence report, Dr. Scott’s testimony, and the mental
evaluation performed, as well as “a non-statutory mitigating circumstance,
Defendant’s background and family history . . . includ[ing] but . . . not limited to, that
as a child, Defendant moved to a number of locations and had an estranged and
difficult relationship with his father.” (Id. at 107).
IV. PROCEDURAL HISTORY
On July 31, 2000, the same day Miller was sentenced to death, the trial court
appointed William R. Hill to represent Miller on direct appeal. (C.R. Vol. 1, Tab 1,

5

The court also issued separate written findings of fact from the evidence and testimony
presented during the trial phase and the punishment phase of the trial. (Id. at 98-104).
17

47a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 18 of 189

at 90). Later, on August, 2, 2000, the court appointed Haran Lowe as co-counsel for
Miller.
A.

Motion for a New Trial
Appellate counsel immediately filed a motion for the state to provide a

transcript of the trial record because appellate counsel did not witness the trial
proceedings and could not “adequately represent the Defendant in his Motion for
New Trial or on appeal without a transcription of the trial record.” (Id. at 91). On
August 3, 2000, Miller moved for a new trial based solely on the ground that the
verdict was “contrary to law and the weight of the evidence.” (Id. at 93). On August
25, 2000, Miller filed an amendment to the motion for new trial, outlining twenty-five
new grounds for relief. (Id. at 95-97). Although appellate counsel did not yet have
the trial transcript, ground 24 of the amended motion for new trial alleged that
Miller’s “due process rights under the United States and Alabama Constitution were
denied because his trial counsel was ineffective.” (Id. at 96).
The hearing on the motion for a new trial was originally scheduled to take
place on September 5, 2000. (Id. at 108). However, because the trial transcript was
not yet available, appellate counsel moved on August 30, 2000, to continue the
hearing until after the transcript had been prepared. (Id. at 108-09). The court

18

48a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 19 of 189

granted the motion, ultimately holding a two-day hearing on the motion for new trial
on December 7, 2000, and January 31, 2001. (C.R. Vol. 1, Tab 1, at 7A-7B).
Miller’s trial counsel, Mickey Johnson, was the sole witness on December 7,
2000. (C.R. Vol. 9, Tab 30, at 1-110). On January 31, 2001, Miller elicited
testimony from Dr. Bob Wendorf, a clinical psychologist, and Aaron McCall from the
Alabama Prison Project. (C.R. Vol. 9, Tab 31, at 111-176). Dr. Wendorf testified
regarding the sufficiency of Dr. Scott’s testimony during Miller’s penalty phase. (Id.
at 111-56). Mr. McCall testified to the role and availability of mitigation expert
assistance in capital cases. (Id. at 157-74). After the hearing, the court gave the
parties the opportunity to brief the issues discussed at the hearing. (Id. at 175-76).
On February 13, 2001, Miller filed a brief supporting his motion for new trial,
arguing in support of his ineffective assistance of counsel claims. (C.R. Vol. 1, Tab
1, at 114-25). The state filed a reply brief on February 20, 2001. (Id. at 126-31). On
February 21, 2001, the court summarily denied the motion for new trial without
entering a written order or making specific findings of fact regarding the evidence
presented during the hearing. (Id. at 7B).
B.

Direct Appeal
On May 7, 2001, Miller filed his appellate brief in the Alabama Court of

Criminal Appeals. (R. Vol. 16, Tab 32). The state filed its brief on June 26, 2001.
19

49a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 20 of 189

(R. Vol. 16, Tab 33). On June 24, 2002, while Miller’s direct appeal was pending,
the United States Supreme Court issued its decision in Ring v. Arizona, 536 U.S. 584
(2002). In Ring, the Court held that an Arizona statute allowing a trial judge – acting
alone – to determine the presence or absence of an aggravating factor required to
impose the death penalty, violated a defendant’s Sixth Amendment right to a jury
trial. Miller and the state each filed supplemental briefs on August 15, 2002,
addressing the impact of Ring on Miller’s death sentence. (R. Vol. 16, Tabs 34 and
35).
On January 6, 2004, the Alabama Court of Criminal Appeals remanded the case
for the trial court to “make specific written findings of fact as to the claims that Miller
raised during the hearing on his motion for a new trial,” and to “correct its sentencing
order and make specific findings of fact regarding the existence of the aggravating
circumstance that this offense was especially heinous, atrocious, or cruel when
compared to other capital offenses.” Miller v. State, 913 So. 2d 1148, 1153 (Ala.
Crim. App. 2004). The trial court made the required findings and denied the

20

50a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 21 of 189

ineffective assistance of trial counsel claims as meritless.6 (R. Vol. 43, Tab 72, at 123).
On October 29, 2004, on return to remand, the Alabama Court of Criminal
Appeals affirmed the trial court’s sentencing decision. Miller, 913 So. 2d at 1154-71.
Miller’s application for rehearing (R. Vol. 16, Tab 37) was denied by the Alabama
Court of Criminal Appeals on January 7, 2005, and his petition for writ of certiorari
(R. Vol. 17, Tab 38) was denied by the Alabama Supreme Court on May 27, 2005.
Miller, 913 So. 3d 1148. The United States Supreme Court likewise denied certiorari
on January 9, 2006. Miller v. Alabama, 546 U.S. 1097 (2006).
C.

Rule 32 Proceedings in Shelby County Circuit Court
Having exhausted his appeals and obtained a final conviction, Miller obtained

new counsel and timely filed a petition under Rule 32 of the Alabama Rules of
Criminal Procedure on May 19, 2006. (Rule 32 C.R. Vol. 19, Tab 44, at 1-93).
Miller’s Rule 32 petition alleged ineffective assistance of trial counsel, ineffective
assistance of appellate counsel, and various violations of Miller’s constitutional
6

The trial court addressed each of the eight ineffective assistance of counsel claims Miller
alleged individually: that trial counsel (1) admitted Miller’s guilt during his guilt phase opening
remarks; (2) failed to present an insanity defense during the guilt phase of trial; (3) failed to move
for a change of venue; (4) failed to present a defense during the guilt phase of trial; (5) undermined
the mitigation case during his penalty phase opening argument; (6) failed to object to victim impact
testimony during the penalty phase; (7) failed to adequately investigate and present a penalty phase
defense; and (8) failed to challenge the constitutionality of the heinous, atrocious, or cruel
aggravating circumstance. (C.R. Vol. 43, Tab 72, at 9-10).
21

51a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 22 of 189

rights. (Id.). The state answered Miller’s petition on August 18, 2006, arguing that
the ineffective assistance of trial counsel claims were barred from review and all of
Miller’s claims should be rejected on the merits. (Rule 32 C.R. Vol. 19, Tab 45, at
1-34, Rule 32 C.R. Vol. 20, at 35-59). On April 4, 2007, Miller filed his First
Amended Petition, responding to some of the state’s criticisms of his original petition.
(Rule 32 C.R. Vol. 20, Tab 46, at 1-100). On April 18, 2007, the state answered
Miller’s amended petition and moved to dismiss his claims. (Rule 32 C.R. Vol. 23,
Tab 49, at 1-75). On June 25, 2007, the trial court held a hearing on the state’s
motion to dismiss and some outstanding discovery disputes. (Rule 32. C.R. Vol. 36,
Tab 62, at 1-83, Rule 32 C.R. Vol. 37, at 84-104).
On July 31, 2007, the court issued a preliminary ruling on Miller’s Rule 32
petition, summarily dismissing his ineffective assistance of trial counsel claim, his
claim that his death sentence violated Ring v. Arizona, 536 U.S. 584 (2002), and his
claim that lethal injection is unconstitutional. (Rule 32 C.R. Vol. 25, Tab 55, at 132728). In its order, the trial court also held that Miller’s Brady and juror misconduct
claims had not been pleaded with specificity, and ordered that they be summarily
dismissed unless Miller amended the claims with sufficient specificity, within sixty
days. (Id. at 1328). The parties were allowed to conduct discovery prior to an

22

52a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 23 of 189

evidentiary hearing on Miller’s claim of ineffective assistance of appellate counsel.
(Id. at 1328-29).
The trial court held the evidentiary hearing on February 11-14, 2008, then
continued and completed the hearing on August 6, 2008. (Rule 32 C.R. Vols. 29-34,
Tab 59, at 1-892; Rule 32 C.R. Vol. 34, Tab 60, at 1-107). Following the hearing,
both parties submitted extensive briefing to the court.7 On May 5, 2009, the trial
court issued its final order denying Miller’s Amended 32 Petition and summarily
dismissing all of Miller’s claims with the exception of his claim that he was denied
effective assistance of appellate counsel. (Rule 32 C.R. Vols. 28-29, Tab 58, at 19512107). As to the ineffective assistance of appellate counsel claim, the court
considered the evidence presented at the evidentiary hearing and denied relief on the
merits. (Id. at 1973-2107).
The court adopted the state’s proposed order, which was itself almost a
verbatim copy of the state’s post Rule 32 hearing response brief. (Compare Rule 32
C.R. Vols. 27-28, Tab 57, at 1702-1800 (state’s post Rule 32 hearing response brief),
and Rule 32 C.R. Vol. 35, at 29-185 (state’s proposed order), with Rule 32 C.R. Vols.

7

On October 9, 2008, Miller filed a post-hearing brief in support of his First Amended
Petition for Relief from Judgment pursuant to Rule 32 of the Alabama Rules of Criminal Procedure.
(Rule 32 C.R. Vols. 26-27, Tab 56, at 1520-1695). The state filed its response to Miller’s brief on
December 8, 2008. (Rule 32 C.R. Vols. 27-28, Tab 57, at 1702-1800). On February 10, 2009,
Miller filed his reply brief. (Rule 32 C.R. Vol. 28, Tab 58, at 1895-1950).
23

53a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 24 of 189

28–29, Tab 58, at 1951–2107 (Rule 32 court’s Final Judgment)). On May 18, 2009,
Miller objected to the court’s adoption of the state’s proposed final order denying
Rule 32 relief. (Rule 32 C.R. Vol. 29, at 2108). On June 4, 2009, the court denied
the objection, pointing out that it had authority to adopt a proposed order in whole.
(Id. at 2117).
Miller appealed both the final order denying Rule 32 relief, and the order
denying his objection to adopting the proposed order nearly verbatim. (Id. at 2119;
Rule 32 R. Vol. 38, Tab 63). The Alabama Court of Criminal Appeals denied his
appeal on July 8, 2011. Miller v. State, 99 So. 3d 349 (Ala. Crim. App. 2011). Miller
subsequently filed an application for rehearing on August 17, 2011 (Rule 32 R. Vol.
40, Tab 66), which was denied by the Alabama Court of Criminal Appeals on October
21, 2011. Miller, 99 So. 3d 349.
On November 30, 2011, Miller filed a petition for a writ of certiorari in the
Alabama Supreme Court, challenging the appellate court’s rejection of his claim
regarding the verbatim adoption of the state’s proposed order, and his claim that he
was denied effective assistance of counsel on direct appeal. (Rule 32 R. Vols. 40-42,
Tab 67). After initially granting review on Miller’s first claim, the Alabama Supreme
Court quashed the writ and denied certiorari on his second claim on June 22, 2012.
Miller, 99 So. 3d 349; see also Rule 32 R. Vol. 43, Tab 77.
24

54a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 25 of 189

V. LEGAL STANDARD
“The habeas statute unambiguously provides that a federal court may issue the
writ to a state prisoner ‘only on the ground that he is in custody in violation of the
Constitution or law or treaties of the United States.’” Wilson v. Corcoran, 526 U.S.
1, 5 (2010) (quoting 28 U.S.C. § 2254(a)). As such, this court’s review of claims
seeking habeas relief is limited to questions of federal constitutional and statutory
law. Claims that turn solely upon state law principles fall outside the ambit of this
court’s authority to provide relief under § 2254. See Alston v. Dep’t of Corr., 610 F.
3d 1318, 1326 (11th Cir. 2010).
A.

Exhaustion of State Court Remedies: The First Condition Precedent to
Federal Habeas Review
A habeas petitioner must present his federal claims to the state court, and

exhaust all of the procedures available in the state court system, before seeking relief
in federal court. 28 U.S.C. § 2254(b)(1); Medellin v. Dretke, 544 U.S. 660, 666
(2005) (holding that a petitioner “can seek federal habeas relief only on claims that
have been exhausted in state court”). This requirement serves the purpose of ensuring
that state courts are afforded the first opportunity to address federal questions
affecting the validity of state court convictions and, if necessary, correct violations

25

55a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 26 of 189

of a state prisoner’s federal constitutional rights. Snowden v. Singletary, 135 F.3d
732, 735 (11th Cir. 1998).
In determining whether a claim is properly exhausted, the Supreme Court has
stated that “[i]t is not enough that all the facts necessary to support the federal claim
were before the state courts or that a somewhat similar state-law claim was made.”
Anderson v. Harless, 459 U.S. 4, 5-6 (1982) (citations omitted). Instead, “an issue
is exhausted if ‘the reasonable reader would understand [the] claim’s particular legal
basis and specific factual foundation’ to be the same as it was presented in state
court.” Pope v. Sec’y for Dep’t Of Corr., 680 F.3d 1271, 1286-87 (11th Cir. 2012)
(quoting Kelley v. Sec’y, Dep’t of Corr., 377 F.3d 1317, 1344-45 (11th Cir. 2004)).
B.

The Procedural Default Doctrine: The Second Condition Precedent to
Federal Habeas Review
Under the procedural default doctrine, federal review of a habeas petitioner’s

claim is barred if the last state court to examine the claim states clearly and explicitly
that the claim is barred because the petitioner failed to follow state procedural rules,
and that procedural bar provides an adequate and independent state ground for
denying relief. See Cone v. Bell, 556 U.S. 449, 465 (2009); Coleman v. Thompson,
501 U.S. 722, 731 (1991).

The Supreme Court defines an “adequate and

independent” state court decision as one that “rests on a state law ground that is

26

56a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 27 of 189

independent of the federal question and adequate to support the judgment.” Lee v.
Kemna, 534 U.S. 362, 375 (2002) (quoting Coleman v. Thompson, 501 U.S. 722, 729
(1991)).
To be considered “independent,” the state court’s decision “must rest solidly
on state law grounds, and may not be ‘intertwined with an interpretation of federal
law.’” Judd v. Haley, 250 F.3d 1308, 1313 (11th Cir. 2001) (quoting Card v. Dugger,
911 F.2d 1494, 1516 (11th Cir. 1990)). To be considered “adequate” to support the
state court’s judgment, the state procedural rule must be both “firmly established and
regularly followed.” Lee v. Kemna, 534 U.S. at 375 (quoting James v. Kentucky, 466
U.S. 341, 348 (1984)).
C.

Overcoming procedural default: The Cause and Prejudice Analysis
“A federal court may still address the merits of a procedurally defaulted claim

if the petitioner can show cause for the default and actual prejudice resulting from the
alleged constitutional violation.” Ward v. Hall, 592 F.3d 1144, 1157 (11th Cir. 2010)
(citing Wainwright v. Sykes, 433 U.S. 72, 84-85 (1977)) (emphasis added). The
Supreme Court has recognized that constitutionally ineffective assistance of counsel
on direct appeal can constitute “cause” to excuse procedural default. McCleskey v.
Zant, 499 U.S. 467, 493-94 (1991).

However, any attorney error short of

27

57a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 28 of 189

constitutionally ineffective assistance of counsel does not constitute cause, and will
not excuse a procedural default. Id.
In addition to proving the existence of “cause” for a procedural default, a
habeas petitioner must show that he was actually “prejudiced” by the alleged
constitutional violation. To show prejudice, a petitioner must show “not merely that
the errors at his trial created a possibility of prejudice, but that they worked to his
actual and substantial disadvantage, infecting his entire trial with error of
constitutional dimensions.” United States v. Frady, 456 U.S. 152, 170 (1982)
(emphasis added); see also McCoy v. Newsome, 953 F.2d 1252, 1261 (11th Cir. 1992)
(per curiam). In the context of a defaulted ineffective assistance of trial counsel
claim, a petitioner must show not only “cause,” but also “that the underlying
ineffective assistance of trial counsel claim is a substantial one, which is to say that
the prisoner must demonstrate that the claim has some merit.” Martinez v. Ryan, 132
S. Ct. 1309, 1318-19 (2012).
D.

The Statutory Overlay: The Effect of “the Antiterrorism and Effective
Death Penalty Act of 1996” on Habeas Review
Miller’s case is governed by 28 U.S.C. § 2254, as amended by the

Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”). To “prevent
federal habeas ‘retrials’ and to ensure that state-court convictions are given effect to

28

58a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 29 of 189

the extent possible under the law,” the AEDPA establishes a deferential standard of
review of state habeas judgments. Bell v. Cone, 535 U.S. 685, 693 (2002).
1.

Title 28 U.S.C. § 2254(e)(1)

Section 2254(e)(1) requires district courts to presume that a state court’s factual
determinations are correct, unless the habeas petitioner rebuts the presumption of
correctness with clear and convincing evidence. See 28 U.S.C. § 2254(e)(1); see also,
e.g., Fugate v. Head, 261 F.3d 1206, 1215 (11th Cir. 2001) (observing that §
2254(e)(1) provides “a highly deferential standard of review for factual
determinations made by a state court”). The deference that attends state court
findings of fact pursuant to § 2254(e)(1) applies to all habeas claims, regardless of
their procedural stance. Thus, a presumption of correctness must be afforded to a
state court’s factual findings, even when the habeas claim is being examined de novo.
See Mansfield v. Secretary, Department of Corrections, 679 F.3d 1301, 1313 (11th
Cir. 2012).
2.

28 U.S.C. § 2254(d)

The presumption of correctness also applies to habeas claims that were
adjudicated on the merits by the state court and, therefore, are claims subject to the
standards of review set out in 28 U.S.C. § 2254(d)(1) or (d)(2). “By its terms §
2254(d) bars relitigation of any claim ‘adjudicated on the merits’ in state court,
29

59a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 30 of 189

subject only to the exceptions in §§ 2254(d)(1) and (d)(2).” Harrington v. Richter,
562 U.S. 86, 98 (2011).
The provisions of 28 U.S.C. § 2254(d)(1) and (d)(2) provide that when a state
court has made a decision on a petitioner’s constitutional claim, habeas relief cannot
be granted, unless the federal court determines that the state court’s adjudication of
the claim either:
(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State
court proceeding.
28 U.S.C. § 2254(d) (emphasis added).
The Supreme Court has explained the deferential review of a state court’s
findings:
Under the “contrary to” clause, a federal habeas court may grant the writ
if the state court arrives at a conclusion opposite to that reached by this
Court on a question of law or if the state court decides a case differently
than this Court has on a set of materially indistinguishable facts. Under
the “unreasonable application” clause, a federal habeas court may grant
the writ if the state court identifies the correct governing legal principle
from this Court’s decisions but unreasonably applies that principle to the
facts of the prisoner’s case.
Williams v. Taylor, 529 U.S. 362, 412-13 (2000).

30

60a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 31 of 189

The court should remember that “an unreasonable application of federal law
is different from an incorrect application.” Id. at 410. A federal habeas court “may
not issue the writ simply because that court concludes in its independent judgment
that the relevant state-court decision applied clearly established federal law
erroneously or incorrectly. Rather, that application must also be unreasonable.” Id.
at 411 (emphasis added).8 To demonstrate that a state court’s application of clearly
established federal law was “objectively unreasonable,” the habeas petitioner “must
show that the state court’s ruling on the claim being presented in federal court was
so lacking in justification that there was an error well understood and comprehended
in existing law beyond any possibility for fairminded disagreement.” Harrington v.
Richter, 562 U.S. at 786-87 (emphasis added).

8

The Eleventh Circuit has observed that § 2254(d)(1)’s “unreasonable application” provision
is the proper statutory lens for viewing the “run-of-the-mill state-court decision applying the correct
legal rule.” Alderman v. Terry, 468 F.3d 775, 791 (11th Cir. 2006).
In other words, if the state court identified the correct legal principle but
unreasonably applied it to the facts of a petitioner’s case, then the federal court
should look to § 2254(d)(1)’s “unreasonable application” clause for guidance. “A
federal habeas court making the ‘unreasonable application’ inquiry should ask
whether the state court’s application of clearly established federal law was objectively
unreasonable.”
Id. (quoting Williams, 529 U.S. at 409).
31

61a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 32 of 189

E.

An Introduction to Ineffective Assistance of Counsel Claims
An introduction to ineffective assistance of counsel claims is included here

because of the relationship between such claims – which are governed by a highly
deferential standard of constitutional law – and 28 U.S.C. § 2254(d), which is itself
an extremely deferential standard of review. Additionally, because the majority of
Miller’s petition is based on allegations of ineffective assistance of counsel, a general
discussion also provides a central reference point.
In Strickland v. Washington, 466 U.S. 668 (1984), the Supreme Court
established a two-pronged analysis for determining whether counsel’s performance
was ineffective. “First, the defendant must show that counsel’s performance was
deficient. . . . Second, the defendant must show that the deficient performance
prejudiced the defense.” Id. at 687. Both parts of the Strickland standard must be
satisfied: that is, a habeas petitioner bears the burden of proving, by “a preponderance
of competent evidence,” that the performance of his trial or appellate attorney was
deficient; and, that the deficient performance prejudiced his defense. Chandler v.
United States, 218 F.3d 1305, 1313 (11th Cir. 2000) (en banc). Thus, a federal court
is not required to address both parts of the Strickland standard when the habeas
petitioner makes an insufficient showing on either one of the prongs. See, e.g.,
Holladay v. Haley, 209 F.3d 1243, 1248 (11th Cir. 2000) (“Because both parts of the
32

62a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 33 of 189

test must be satisfied to show a violation of the Sixth Amendment, the court need not
address the performance prong if the defendant cannot meet the prejudice prong, or
vice versa.”) (citation to Strickland omitted).
1.

The performance prong

To satisfy the performance prong, the petitioner must “prove by a
preponderance of the evidence that counsel’s performance was unreasonable.”
Stewart v. Secretary, Department of Corrections, 476 F.3d 1193, 1209 (11th Cir.
2007) (citing Chandler v. United States, 218 F.3d 1305, 1313 (11th Cir. 2000)). The
Sixth Amendment does not guarantee a defendant the very best counsel or the most
skilled attorney, but only an attorney who performed reasonably well within the broad
range of professional norms. Stewart, 476 F.3d at 1209. “The test has nothing to do
with what the best lawyers would have done. Nor is the test even what most good
lawyers would have done. We ask only whether some reasonable lawyer at the trial
could have acted, in the circumstances, as defense counsel acted at trial.” White v.
Singletary, 972 F.2d 1218, 1220 (11th Cir. 1992). Judicial scrutiny of counsel’s
performance must be highly deferential, because “[r]epresentation is an art, and an act
or omission that is unprofessional in one case may be sound or even brilliant in
another.” Strickland, 466 U.S. at 693.

33

63a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 34 of 189

Indeed, reviewing courts “must indulge a strong presumption that counsel’s
conduct falls within the wide range of reasonable professional assistance.” Id. at 689.
“Based on this strong presumption of competent assistance, the petitioner’s burden
of persuasion is a heavy one: ‘petitioner must establish that no competent counsel
would have taken the action that his counsel did take.’” Stewart, 476 F.3d at 1209
(quoting Chandler, 218 F.3d at 1315) (emphasis added). “Even if many reasonable
lawyers would not have done as defense counsel did at trial, no relief can be granted
on ineffectiveness grounds unless it is shown that no reasonable lawyer, in the
circumstances, would have done so.” Rogers v. Zant, 13 F.3d 384, 386 (11th Cir.
1994) (emphasis added).
2.

The prejudice prong

“A petitioner’s burden of establishing that his lawyer’s deficient performance
prejudiced his case is also high.” Van Poyck v. Fla. Dep’t of Corr., 290 F.3d 1318,
1322 (11th Cir. 2002). “It is not enough for the [petitioner] to show that the errors
had some conceivable effect on the outcome of the proceeding.” Id. (quoting
Strickland, 466 U.S. at 693) (alteration in original). Instead, to prove prejudice, the
habeas petitioner “must show that there is a reasonable probability that, but for
counsel’s unprofessional errors, the results of the proceeding would have been
different.

A reasonable probability is a probability sufficient to undermine
34

64a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 35 of 189

confidence in the outcome.” Strickland, 466 U.S. at 694. “[W]hen a petitioner
challenges a death sentence, ‘the question is whether there is a reasonable probability
that, absent the errors, the sentencer . . . would have concluded that the balance of
aggravating and mitigating circumstances did not warrant death.’” Stewart, 476 F.3d
1193, 1209 (11th Cir. 2007) (quoting Strickland, 466 U.S. at 695). The standard is
high, and to satisfy it, a petitioner must present “proof of “‘unprofessional errors” so
egregious “that the trial was rendered unfair and the verdict rendered suspect.”’”
Johnson v. Alabama, 256 F.3d 1156, 1177 (11th Cir. 2001) (quoting Eddmonds v.
Peters, 93 F.3d 1307, 1313 (7th Cir. 1996)).
3.

Deference accorded state court findings of historical fact, and decisions on
the merits, when evaluating ineffective assistance of counsel claims
A reviewing court must give state court findings of historical fact made in the

course of evaluating a claim of ineffective assistance of counsel a presumption of
correctness under 28 U.S.C. §§ 2254(d)(2) and (e)(1). See, e.g., Thompson v. Haley,
255 F.3d 1292, 1297 (11th Cir. 2001). To overcome a state court finding of fact, the
petitioner bears a burden of proving contrary facts by clear and convincing evidence.
Additionally, under the AEDPA, a federal habeas court may grant relief based
on a claim of ineffective assistance of counsel only if the state court determination
involved an “unreasonable application” of the Strickland standard to the facts of the

35

65a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 36 of 189

case. Strickland itself, of course, also requires an assessment of whether counsel’s
conduct was professionally unreasonable.

Those two assessments cannot be

conflated into one. See Harrington v. Richter, 562 U.S. 86, 101-02. Thus, habeas
relief on a claim of ineffective assistance of counsel can be granted with respect to
a claim actually decided by the state courts only if the habeas court determines that
it was “objectively unreasonable” for the state courts to find that counsel’s conduct
was not “professionally unreasonable.” “The standards created by Strickland and §
2254(d) are ‘highly deferential,’ . . . and when the two apply in tandem, review is
‘doubly’ so.” Id. at 105.
VI. MILLER’S CLAIMS
Miller’s habeas petition alleges the following grounds for relief:
A.

Ineffective Assistance of Trial Counsel
i.

Failure to Conduct an Adequate Investigation and
Failure to Uncover Mitigating Evidence
a.

Impoverished and Unstable Upbringing

b.

Miller Family History of Mental
Illnesses

c.

Physical and Emotional Abuse by
Miller’s Father

d.

Exposure to Criminal and Antiosocial
Behavior of Family Members
36

66a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 37 of 189

e.

Miller’s Good Employment History

f.

Loving Relationships with Family
Members

g.

Changes in Miller’s Behavior Prior to
the Shootings

h.

Behavior in Connection with Shootings
at Ferguson Enterprises and Post
Airgas

ii.

Counsel Sabotaged the Work of the Defense
Psychiatric Expert, Dr. Scott, then withdrew Miller’s
Insanity Defense

iii.

Failure to Investigate or Develop Mitigating
Evidence Following the Withdrawal of the Insanity
Defense

iv.

Failure to Conduct Adequate Voir Dire

v.

Failure to Give an Effective Opening Statement

vi.

Deficient Performance During the Presentation of
the State’s Guilt Phase Evidence

vii.

Failure to Present Available Mental Health Evidence
During the Guilt Phase

viii. Failure to Object to Improper Statements in the
State’s Guilt Phase Closing Argument
ix.

Effectively Conceding Miller’s Guilt During the
Guilt Phase Closing Argument

37

67a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 38 of 189

x.

Failure to Request Appropriate Guilt Phase Jury
Instructions

xi.

Failure to Prepare for the Penalty Phase until the
Last Minute

xii.

Failure to Present an Effective Opening Statement
During the Penalty Phase

xiii. Failure to Present Readily Available Mitigating
Evidence during the Penalty Phase
iv.

Failure to Adequately Argue the Directed Verdict
Motion at the End of the Penalty Phase

xv.

Ineffective Closing Argument in the Penalty Phase

xvi.

Failure to Object to Improper Penalty Phase Jury
Instructions

xvii. Failure to Request a Special Verdict Form to
Establish that the Jury had Unanimously Found the
Sole Alleged Aggravating Circumstance
xviii. Deficient Performance at the Sentencing Hearing
B.

Ineffective Assistance of Appellate Counsel
i.

Presentation of the Issue of Trial Counsel’s
Ineffectiveness in the Motion for New Trial,
Precluded Miller from Raising the Issue in His Rule
32 Proceedings

ii.

Failure to Conduct an Adequate Investigation into
the Ineffective Assistance of Counsel at Trial

38

68a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 39 of 189

9

iii.

Failure to Present Evidence at the Hearing on the
Motion for New Trial Establishing the Prejudice He
Suffered as a Result of Trial Counsel’s
Ineffectiveness

iv.

Deficient Arguments to the Trial Court in Support of
the Few Aspects of Trial Counsel Ineffectiveness
Counsel Had Identified

v.9

Failure to Raise and Argue in the Motion for New
Trial, the Many Other Ways Trial Counsel
Ineffectively Represented Miller
a.

Failure to Conduct Adequate Voir Dire
(Claim A(iv))

b.

Failure to Object to the Admission of
Irrelevant and Prejudicial Testimony
and Photographs During the Guilt
Phase (Claim A(vi))

c.

Failure to Effectively Cross-examine
Crucial Prosecution Witnesses (Claim
A(vi))

d.

Failure to Object to Misleading
Portions of the State’s Guilt Phase
Closing Argument (Claim A(viii))

e.

Failure to Make an Effective Guilt
Phase Closing Argument (Claim A(ix))

f.

Failure to Request Appropriate Guilt
Phase Jury Instructions (Claim A(x))

The petitioner incorrectly numbered this claim in the petition as claim B(iv).
39

69a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 40 of 189

vi.

g.

Ineffective Reliance on Dr. Scott as the
Sole Mitigation Witness During the
Penalty Phase (Claim A(xiii))

h.

Failure to Adequately Argue the
Directed Verdict Motion at the End of
the Penalty Phase (Claim A(xiv))

i.

Ineffective Closing Argument in the
Penalty Phase (Claim A(xv))

j.

Failure to Object to Improper Penalty
Phase Jury Instructions (Claim A(xvi))

k.

Failure to Request a Special Verdict
Form to Establish that the Jury had
Unanimously Found the Sole Alleged
Aggravating Circumstance (Claim
A(xvii))

l.

Failure to Offer Evidence, Call
Witnesses or Arrange for Anyone to
Appear on Miller’s Behalf at the
Sentencing Hearing (Claim A(xviii))

m.

Failure to Argue at the Sentencing
Hearing That Pursuant to Apprendi v.
New Jersey, 530 U.S. 466 (2000),
Miller Was Entitled to a New Penalty
Phase Trial Before a Jury That Was
Not Advised That its Decision with
Respect to the Aggravating Factor Was
Merely a “Recommendation” (Claim
A(xviii))

Ineffective Assistance of Counsel on Appeal to the
Alabama Court of Criminal Appeals
40

70a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 41 of 189

C.10

A.

Miller’s Death Sentence Violates the Sixth, Eighth, and
Fourteenth Amendments to the United States Constitution

MILLER’S INEFFECTIVE ASSISTANCE OF TRIAL COUNSEL
CLAIMS
Miller’s ineffective assistance of trial counsel claims can be divided into three

distinct categories. First, Miller presents claims that were properly exhausted before
the Alabama state courts on direct appeal. Second, Miller presents claims that he
raised for the first time on collateral appeal. Finally, Miller presents claims that he
failed to raise before the state courts on either direct appeal or collateral appeal. This
court will address each group of claims in turn.
1.

Claims Raised and Exhausted On Direct Appeal

Five of Miller’s ineffective assistance of trial counsel claims are properly
before this court because he fully exhausted the claims on direct appeal. Miller
asserted these claims before the trial court in his motion for new trial. The court
conducted a hearing on these claims and subsequently denied all of the claims on the
merits. (C.R. Vol. 43, Tab 72). Miller then appealed to the Alabama Court of
Criminal Appeals, which upheld the lower court’s determination. Miller, 913 So. 2d
1148. Finally, Miller sought review of these claims before the Alabama Supreme
Court, which denied certiorari. Id. Because these claims were fully exhausted on
10

The petitioner numbered this claim in the petition as claim II.
41

71a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 42 of 189

direct appeal, this court will review the state court’s determination under AEDPA
deference. See Wilwording v. Swenson, 404 U.S. 249, 250 (1971) (recognizing that
a petitioner need only present a claim through a single state proceeding to properly
exhaust it).
In reviewing the state court’s decision, this court is limited to consideration of
the record as it was before the state court on direct review. See Cullen v. Pinholster,
131 S. Ct. 1388, 1400 (2011) (“If a claim has been adjudicated on the merits by a
state court, a federal habeas petitioner must overcome the limitation of § 2254(d)(1)
on the record that was before that state court.”). Miller presented a large amount of
evidence at the Rule 32 hearings, and Miller’s habeas petition relies heavily on this
evidence. Nevertheless, this court must limit its review of Miller’s fully exhausted
ineffective assistance of trial counsel claims to the record before the state court on
direct appeal.11

11

For Miller to prevail on an ineffective assistance of appellate counsel claim, he must
demonstrate that his underlying ineffective assistance of trial counsel claims have merit. Because
the state court reviewed Miller’s ineffective assistance of appellate counsel claims on collateral
appeal, this court will consider the fully developed record that was before the Rule 32 court in
reviewing Mr. Miller’s ineffective assistance of appellate counsel claims. Further, because review
of Mr. Miller’s ineffective assistance of appellate counsel claims will require this court to review
his underlying ineffective assistance of trial counsel claims, the court will then review Miller’s
ineffective assistance of trial counsel claims in light of the record before the Rule 32 court.
42

72a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 43 of 189

a)

Claim A(ii): Miller’s Claim That Trial Counsel Was
Ineffective For Sabotaging the Work of the Defense
Psychiatric Expert and For Withdrawing the Plea of Not
Guilty by Reason of Mental Disease or Defect

Within this claim, Miller combines two different instances in which he alleges
trial counsel was ineffective. First, Miller alleges that trial counsel was ineffective
for failing to provide sufficient evidence to the defense psychiatric expert, Dr. Scott,
to allow Dr. Scott to determine whether Miller was sane at the time of the shootings.
(Doc. 1, at 48-66). Second, Miller alleges that trial counsel was ineffective for
subsequently withdrawing Miller’s insanity defense. (Id. at 66).
On direct appeal, Miller only asserted that trial counsel, Mickey Johnson, was
ineffective for withdrawing Miller’s insanity defense and did not allege that trial
counsel was ineffective for failing to provide specific documents to defense expert,
Dr. Scott. (C.R. Vol. 16, Tab 32, at 20-21). Not until collateral appeal did Miller add
within this claim, the argument that trial counsel should have provided additional
information to Dr. Scott. (Rule 32 C.R. Vol. 19, Tab 44, at 38-41). Because Miller
failed to argue on direct appeal that trial counsel was ineffective for failing to provide
documents to Dr. Scott, this portion of the claim is procedurally defaulted.12 See

12

Alternatively, this court finds this claim due to be denied on the merits. This court will
address the underlying merits of the claim in connection with Miller’s ineffective assistance of
appellate counsel claims. See Part VI(B).
43

73a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 44 of 189

Baldwin v. Johnson, 152 F.3d 1304, 1311 (11th Cir. 1998) (“A habeas corpus
petitioner may not present instances of ineffective assistance of counsel in his federal
petition that the state court has not evaluated previously.”); Hunt v. Commissioner,
Ala. Dep’t of Corr., 666 F.3d 708, 730–31 (11th Cir.2012) (holding that “[t]o satisfy
the exhaustion requirement, petitioners must present their claims to the state courts
such that the reasonable reader would understand each claim’s particular legal basis
and specific factual foundation”); Johnson v. Alabama, 256 F.3d 1156, 1170 (11th
Cir. 2001).
To the extent that Miller did raise this claim on direct appeal, this court finds
that the state court’s rejection of the claim was reasonable under Strickland. In
addressing this claim, the Alabama Court of Criminal Appeals found that:
Johnson met with Miller on a number of occasions before trial.
Before forming a strategy for Miller’s case, Johnson reviewed all of the
investigative reports, diagrams, statements, photographs, videotapes,
and scientific reports; he also talked with his client. Johnson filed a
motion requesting funds for an independent psychological evaluation of
Miller. The trial court granted his motion, and Johnson retained Dr.
Charles Scott from the University of California to evaluate Miller. After
talking with Dr. Scott and reviewing Dr. Scott’s written report, Johnson
determined that there was insufficient evidence to raise an insanity
defense during the guilt phase. In his opinion, it was better to present
Dr. Scott’s testimony at the penalty phase because presenting his
testimony during the guilt phase would have negated Dr. Scott’s
credibility and lessened the impact of the evidence during the penalty
phase. Johnson made this decision after reviewing the reports from other

44

74a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 45 of 189

mental-health evaluations of Miller, which were consistent with Dr.
Scott’s findings.
After reviewing the evidence, Johnson made a strategic decision
to concentrate his efforts and defense on the penalty phase of the trial.
In his opinion, the State’s evidence of Miller’s guilt “was too
overwhelming to seriously contest,” given that he had no valid legal
defense for the guilt phase. Accordingly, Johnson decided to concentrate
on saving Miller’s life.
Johnson focused his efforts during the guilt phase on maintaining
credibility with the jury. In accordance with this strategy, he admitted to
the jury early on in the proceedings that the evidence of Miller’s guilt
was strong because he wanted to lessen the impact of the evidence
against Miller. Johnson felt that his duty during the guilt phase was to
make the State meet its burden of proof.
Miller, 913 So. 2d at 1159-60. The court determined that trial counsel’s decision to
withdraw the insanity defense was a “well-reasoned decision,” part of a strategy to
spare Miller’s life, made after a “thorough investigation of the relevant law and facts
of Miller’s case.” Id. at 1161.
Miller fails to meet his heavy burden of proving that his trial counsel
performed unreasonably by pursuing this strategy. On the record before the state
court, the strategic choices made by trial counsel were reasonable and constitutionally
adequate in the circumstances. In preparation for Miller’s trial, counsel hired Dr.
Scott to conduct an evaluation of Miller to determine whether Miller was legally
insane at the time of the murders. (C.R. Vol. 9, Tab 30, at 17-18). After evaluating

45

75a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 46 of 189

Miller, Dr. Scott concluded that Miller did not meet the definition of insanity under
Alabama law. (C.R. Vol. 9, Tab 30, at 28-29). Trial counsel also reviewed the
reports of a state psychologist and state psychiatrist, both of which were consistent
with Dr. Scott’s determination. (C.R. Vol. 9, Tab 30, at 93-94). Given that no mental
health expert determined Miller to meet the definition of insanity, trial counsel’s
decision to withdraw the insanity defense was reasonable.

See Knowles v.

Mirzayance, 556 U.S. 111, 123 (2009) (“[T]his court has never required defense
counsel to pursue every claim or defense, regardless of its merit, viability, or realistic
chance for success.”). Likewise, the state court’s determination that trial counsel was
not ineffective for withdrawing the insanity defense was also reasonable.
b)

Claim A(v): Miller’s Claim That Trial Counsel Was
Ineffective In His Guilt phase Opening Statement

Miller alleges that trial counsel was ineffective in his opening statement and
“did little more than act as a second prosecutor.” (Doc. 1, at 78). Specifically, Miller
alleges that trial counsel was ineffective because he failed to challenge the facts as
presented by the state and failed to present any defense theory to the jury. (Id. at 7880; Doc 22, at 152-53). Miller also claims that trial counsel encouraged the jury to
feel contempt for Miller by describing the killings as “brutal” and “inhumane.” (Doc.
1, at 80).

46

76a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 47 of 189

In his opening statement, trial counsel said:
We are at a part of a process here that the law says is necessary.
We all, at this point, have been assigned responsibilities. My
responsibility and Mr. Blackwood’s responsibility is to make sure that
in this case, as in any other case, that we keep the burdens where the law
says the burdens belong, that we challenge any evidence or any
statement that is made that we think is wrong.
Our responsibility, however, is not – and is not ever the
responsibility of a lawyer to do things frivolous. And we will not do
that in this case.
Since August the 5th of 1999, I have probably had dozens, if not
hundreds, of cameras and microphones and tape recorders stuck in my
face asking me what happened here, I guess presumably on the theory
that I would disclose something that would make all of this seem logical.
I have not said anything that makes this seem logical and
reasonable because I don’t know anything. You won’t hear anything
coming from the defense that makes this seem logical and reasonable.
To present anything in that regard would be frivolous. We will not
engage in frivolity.
The responsibility that Mr. Blackwood and I have we accept and
we will do what our responsibility is, but we will not do anything
frivolous. That would be irresponsible.
I will not offer you any evidence in this case that would make this
act seem any less brutal and any less inhumane than it was. If you want
to know what happened in this case, I think you just got a pretty good
recitation of what happened in this case. I think [the prosecutor] got
most of it right. Some of it seems to me to be a little embellished, but
so what. Fundamentally, you heard what happened.

47

77a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 48 of 189

Now, the most serious responsibility in this case is placed on you.
And you have gone through the process of jury selection and you are the
ones who survived the process of jury selection.
And you did not survive because you don’t have opinions about
this case. You would be – it would be unnatural, from what most of you
have seen and heard, not to have an opinion in this case. You survived
because you have said we will not let our opinions affect the
responsibility that is placed on us in this case.
The responsibility that is placed on you in this case will be an
awesome one, but I suggest this to you, at the end of this case – you will
have to make at least two decisions in this case that places more
responsibility on you than I will ever have in any case I will ever stand
for in a courtroom.
But at the end, if you accept your responsibility in the same way
I – that everyone else, not just me, that everyone else in this courtroom
is accepting theirs, then at the end of this, when this is all over, you will
be proud. You won’t be ashamed, you will be proud of at least what you
have done.
I don’t expect that at any point in this case you will ever be
anything but ashamed of what happened that caused us to be here. I’m
not going to ask – for me to suggest anything to the contrary would be
frivolous. You won’t see anything frivolous done in this case.
You will see a lot of meaningful things, though, presented to you.
There will be a lot of meaningful evidence and a lot of meaningful
arguments made to you. The only thing I ask at this point is that you
accept your responsibility as jurors and then we will all be proud that we
participated in this. Thank you.
(R. Vol. 5, Tab 10, at 813-16).

48

78a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 49 of 189

In reviewing trial counsel’s opening statement, the Alabama Court of Criminal
Appeals found that trial counsel “focused his efforts during the guilt phase on
maintaining credibility with the jury,” strategically “admitt[ing] to the jury early on
in the proceedings that the evidence of Miller’s guilt was strong because he wanted
to lessen the impact of the evidence against Miller.” Miller, 913 So. 3d at 1159. The
court described this strategy as “well-reasoned.” Id. at 1161.
After reviewing the record, this court finds the state court’s determination
reasonable under Strickland.

Trial counsel faced the significant challenge of

defending a client who had murdered three individuals at two different locations, was
observed by eye-witnesses at both locations, and was determined to be sane by every
expert who examined him. Under the circumstances, trial counsel’s decision to
acknowledge the evidence against his client to save credibility for the penalty phase
does not constitute deficient performance. See Parker v. Head, 244 F.3d 831, 840
(11th Cir. 2001) (recognizing that counsel’s strategic decision to concede the
defendant’s guilt during opening statement to maintain credibility with the jury was
reasonable in light of the substantial evidence against the defendant); Florida v.
Nixon, 543 U.S. 175, 191-92 (2004) (recognizing that in light of substantial evidence
of guilt in a capital trial, “counsel cannot be deemed ineffective for attempting to

49

79a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 50 of 189

impress the jury with his candor and his unwillingness to engage in ‘a useless
charade’”).
Additionally, even if trial counsel’s opening statement was unreasonable,
Miller cannot show prejudice. In view of the entire record, Miller has not shown a
reasonable probability that trial counsel’s opening statement affected the jury’s guilty
verdict. See United States v. Hatcher, 541 F. App’x 951, 953 (11th Cir. 2013)
(holding that a petitioner’s ineffective assistance claim failed because petitioner failed
to prove prejudice in light of overwhelming evidence of guilt). The evidence of
Miller’s guilt is simply overwhelming. One eye-witness saw Miller with a pistol at
the location where the bodies of the first two victims were discovered. At the second
location, an eye-witness saw Miller shoot the third victim. Finally, police found a
firearm in Miller’s truck that matched the spent shell casings found at the crime
scenes. In light of the strong evidence of his guilt, Miller cannot establish any
prejudice resulting from trial counsel’s opening statement.
Miller fails to demonstrate that the state court’s adjudication of the claim
resulted in a decision that was contrary to, or involved an unreasonable application
of, clearly established federal law or that it resulted in a decision that was based on
an unreasonable determination of facts in light of the evidence presented in the state

50

80a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 51 of 189

court proceedings. See 28 U.S.C. § 2254(d). Thus, Miller is not entitled to habeas
relief on this claim.
c)

Claim A(vi): Miller’s Claim That Trial Counsel Was
Ineffective During The Presentation of The State’s Guilt
phase Evidence

Within this claim, Miller asserts two different instances in which he alleges
trial counsel was ineffective. First, Miller alleges that counsel was ineffective for
failing to object to the admission of crime scene photographs as well as to testimony
from state experts Dr. Stephen Pustilnik and Dr. Angello Della Manna. (Doc. 1, at
81). Miller alleges that such evidence was irrelevant, inadmissible and “served no
purpose other than to inflame the jury against Mr. Miller.” (Id. at 81). Second, Miller
alleges that his trial attorney failed to adequately cross-examine numerous state
witnesses. (Id. at 80-87)
In his motion for new trial and on direct appeal, Miller raised only the claim
that trial counsel was ineffective for failing to effectively cross-examine the state’s
witnesses. (R. Vol. 16, Tab 32, at 22-23). Miller’s direct appeal briefs contain no
mention of trial counsel’s failure to object to any of the state’s evidence. Therefore,

51

81a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 52 of 189

to the extent that Miller asserts that his trial counsel was ineffective for failing to
object to the state’s evidence, this court finds the claim procedurally barred.13 See
Johnson v. Alabama, 256 F.3d 1156, 1170 (11th Cir. 2001).
Turning then to Miller’s contention that trial counsel was ineffective for failing
to adequately cross-examine the state’s witnesses, this court finds that the state
court’s rejection of this claim was reasonable under Strickland. In rejecting the claim,
the Alabama Court of Criminal Appeals stated that trial counsel realized that the
evidence of guilt in Miller’s case was “too overwhelming to seriously contest,” and
therefore, trial counsel made the strategic decision to concede guilt early on and focus
on the penalty phase of trial. Miller, 913 So. 3d at 1159-61.

The court’s

determinations are supported by the record. Additionally, even assuming that trial
counsel was ineffective in his cross-examination of the State’s witnesses, the claim
is due to be denied because he has not shown a reasonable probability that the
outcome of the proceeding would have been different if trial counsel had conducted
a more thorough cross-examination. The evidence leaves no doubt of Miller’s guilt
in the case. See United States v. Hatcher, 541 Fed. App’x 951, 953 (11th Cir. 2013).

13

Alternatively, this court finds this claim due to be denied on the merits. This court will
address the underlying merits of the claim in connection with Miller’s ineffective assistance of
appellate counsel claims. See Part VI(B).
52

82a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 53 of 189

Therefore, the state court’s rejection of this claim was reasonable, and Miller is not
entitled to habeas relief on this claim.
d)

Claim A(vii): Miller’s Claim That Trial Counsel was
Ineffective for Failing to Present Mental Health Evidence
During the Guilt Phase

Miller claims that trial counsel was ineffective for failing to present evidence
during the guilt phase to allow the jury to convict Miller of anything less than capital
murder. (Doc. 1, at 87-90). The capital murder offense with which Miller was
charged required the jury to find that Miller had the specific intent to cause the death
of at least two of his three victims pursuant to one scheme or course of conduct. Ala.
Code § 13A-3-1. Miller contends that his trial counsel should have called Dr. Scott
to testify that Miller suffered from a severe mental illness that prevented him from
appreciating the nature and quality of his actions during the first two shootings.14
(Doc. 1, at 87-88). Miller argues that Dr. Scott’s testimony could have shown that
Miller lacked the specific intent to cause the death of at least two of his three victims.
(Id. at 88).

14

Dr. Scott stated in his report that, “It is also my opinion that at the moment of the first
shooting, Mr. Miller may not have appreciated the nature and quality of his actions as he expressed
that he suddenly found himself shooting without the intention of doing so.” (Doc. 47-31, at 22). Dr.
Scott’s report also stated that Miller heard “noises” and experienced tunnel vision at the time of the
first two shootings. (Id. at 9-10).
53

83a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 54 of 189

The Alabama Court of Criminal Appeals rejected this claim, finding that Miller
failed to show that trial counsel was ineffective for failing to present a guilt phase
defense, and finding that Miller suffered no resulting prejudice. Miller, 913 So. 3d
at 1161. For the reasons discussed below, the state court’s rejection of this claim is
reasonable.
A review of the record shows that trial counsel chose not to present the
testimony of Dr. Scott or challenge the mens rea element of the murders for sound
strategic reasons. During the hearing on the motion for new trial, Miller asked trial
counsel why he did not present Dr. Scott’s testimony during the guilt phase of trial:
Q.

Let me ask you this. Was there a particular reason why you
decided to introduce Dr. Scott’s testimony only in the mitigation
phase and not in the trial in chief?

A.

Yes, sir.

Q.

Why is that?

A.

Actually I discussed it with Dr. Scott as to what my thinking was.
What my thinking was was that I did not want him to lose his
credibility in the guilt phase when I did not think that that
testimony would have any particular bearing at that point in time.
If the jury heard it in the guilt phase at a time when I believed that
the evidence would have been pretty much conclusory at that
point, then I thought it would have lost its impact for whatever
benefit I could get out of it in the sentencing phase.

(C.R. Vol. 9, at 21).

54

84a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 55 of 189

Based on these concerns, as well as the strong evidence that the shootings were
part of a single course of conduct, Miller’s trial counsel chose to forego a guilt phase
defense to focus on saving Miller’s life during the penalty phase. As recognized by
the Alabama Court of Criminal Appeals, this decision was “made only after a
thorough investigation of the relevant law and facts of Miller’s case.” Miller, 913 So.
3d at 1161. The Supreme Court has recognized this exact type of strategic trial
decision to be “virtually unchallengeable.” Strickland, 466 U.S. at 690-91. Because
Miller has failed to show that no reasonable attorney would have chosen to defer Dr.
Scott’s testimony to the penalty phase of trial, Miller cannot show that his trial
counsel’s performance was deficient in this regard.
Miller also fails to show that he suffered prejudice as a result of trial counsel’s
decision to not present mental health evidence during the guilt phase. Significant
evidence shows that Miller intended to commit at least two of the three murders
pursuant to a single course of conduct. Miller specifically sought out Christopher
Yancy and Lee Holdbrooks and shot them multiple times. He then drove to a second
location where he specifically sought out Terry Jarvis and shot him multiple times.
A reasonable jurist could conclude that a different outcome of the trial was not a
reasonable probability had trial counsel argued that Miller lacked the mens rea for

55

85a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 56 of 189

capital murder. Therefore, the state court’s rejection of this claim was not an
unreasonable application of Strickland.
e)

Claim A(xii): Miller’s Claim that Trial Counsel Denied Miller
Effective Assistance in His Penalty phase Opening Statement

Miller next alleges that trial counsel failed to present an effective penalty phase
opening statement by failing to present a coherent preview of the mitigation case,
undermining Dr. Scott’s credibility, and effectively conceding the aggravating
circumstance required for Miller to be eligible for the death penalty. (Doc. 1, at 96).
In support of his argument, Miller points to trial counsel’s statement made in response
to the state’s query regarding what was in Miller’s heart at the time of the shooting:
“I think I can answer what was in Mr. Miller’s heart . . . the overwhelming desire to
take a life, that’s what was in Alan Miller’s heart. R 1232.” (Doc. 22, at 158). Miller
also faults trial counsel for stating that Miller “believed in the death penalty,” despite
the lack of evidence to support this assertion. (Id. at 159). Finally, Miller argues that
trial counsel described Miller as “atrocious” and “vile” by telling the jurors he wanted
them to “be able to say . . . what my vote meant was no matter what anybody does,
no matter how vial [sic] they are, they don’t deserve to die. R 1332.” (Doc. 22, at
160).
Trial counsel offered the following opening statement in the penalty phase:

56

86a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 57 of 189

Ladies and gentlemen, let me see if I can help the state in one
respect and that is I think I can answer what was in Mr. Miller’s heart.
Same thing that this kind of impassion the argument was designed to put
in your heart and that is the desire, the overwhelming desire to take a
life, that’s what was in Alan Miller’s heart.
I don’t think we need any experts up here to tell us that, I think
every one of you will come to that conclusion and it would be a very
logical one.
But there are a couple of words that have been used here too that
I just want to talk about briefly. First one being, first question that was
posed is what is justice?
Well, I really think that there is only one way to get real justice
out of this and that would be the taking Alan Miller’s life would restore
those other three, that would be real justice. And if you had - - if there
was some option, some verdict form that could be given to you that
would bring that back, make that happen, then I would sit here and beg
you to sign that and not even go back to the room before you did, that
all twelve of you do that and if you needed thirteen, I would sign it with
you because that would be real justice. Anything else that comes out of
this case is going to be imperfect justice.
Mr. Bostick talked about mercy. Now, there is no secret to you
that the State of Alabama is asking you to recommend that the state take
the life of Alan Miller.
I am asking you to recommend that the state not take his life, that
is not mercy because I will never stand here and define merciful with
locking someone up in a cage for the rest of their life. I see nothing
merciful about that. This is not about mercy. It’s about some form of
imperfect justice that we have in our - - in the wisdom of those minds
that we have elected to send to our legislatures, they have decided that
this is our system of justice.

57

87a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 58 of 189

Now, it is no great surprise to me what your verdict was going to
be in this case, but still when I hear it it hurts me, shocks me because
your verdict is already decided, you have already decided by your
verdict that Mr. Miller will die in prison. It’s just a question now of
whose hands will it be at, will it be at your hands or at the hands of
someone who I think wants to withhold - - to keep those decisions for
themselves.
So that’s the decision that you have to make now, not whether Mr.
Miller dies in prison because he will, you’ve already - - you’ve dictated
that by your verdict.
What we have now, though, is that part of the trial that has been
what this trial has been about from the start, and that is what do we do
about this man, what do we do in our service here for an imperfect
justice.
And at this point we will be a little more active than we have been
until now. We will put on a witness, Dr. Scott, who is a psychiatrist.
Dr. Scott was employed to be perfectly frank with you in the hope that
he would find that Alan Miller met the legal definition of being insane,
because had he done that, and had we been able to prevail, none of this
would have happened, he wouldn’t be dying in prison, that’s why he was
brought here.
But Dr. Scott enjoys a very good reputation of being thorough and
being objective. And despite what I know his efforts were to try to get
there, he couldn’t, he just couldn’t be objective about it.
Because of that - - but he did learn a lot of things and this is where
this case rests at this point and that is, why did all of this happen and
what meaning can we make of any of this?
And Alan Miller has shared with Dr. Scott and he will share with
you what was on his mind that day and he will tell you that despite all
of these things that were on his mind and despite the rather significant
emotional and psychological problems that disturb Alan Miller, he
58

88a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 59 of 189

wasn’t insane but he was suffering from a personality disorder and that
personality disorder is one that the law recognizes not as a defense to
doing what Alan Miller did, there is no defense to that, but as a
mitigating circumstance.
Now, Mr. Bostick challenged me to explain to you why this was
not atrocious, especially atrocious, cruel, heinous and I really don’t - I mean, I will accept that challenge by saying this, I’ve never seen a
murder that wasn’t. And I don’t think that Mr. Bostick or any
prosecutor that I have ever known has ever stood up in a trial where
their job was to prosecute someone who murdered someone and say,
well, this one is not too bad; as murders go, this one is on the light side.
You’re not going to see that in any case. Murder is just not that way.
What you have been failed - - or what you have failed to be
informed of at this point is, that in a capital sentence, the type of
exceptional cruelty, heinousness, atrocity that we’re talking about is
something that goes above and beyond those facts which simply amount
to capital murder. Because we continue here to strain in trying to reach
some balance, we continue to strain, we’re trying to quantify which type
of murder is heinous, which type - - I guess contrary that, well, which
type is just okay, as if there is such a thing. I don’t even know how you
explain all of that. I don’t know how the law explains that in all
honesty.
Nonetheless, we sit here with this to face in our system of justice.
If anyone, Alan Miller or anyone else, had shot one of these victims on
Monday, come back the next day and for a completely different reason
shot another one, and come back the next day and for a completely
different reason shot another one, we wouldn’t be in this part of the trial
because that wouldn’t be capital murder.
Now, somebody explain to me what sense that makes. Somebody
explain to me you leave the same number of victims out there, the same
number of victims’ families out there but by some definition of justice
those victims and those families don’t deserve the same treatment.

59

89a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 60 of 189

So I am saying that any effort we make to quantify what is
atrocious and cruel and heinous is a folie, it all leaves.
What Dr. Scott will tell you, though, is that on August the 5th and
probably for many years prior to August the 5th that Alan Miller was
just a tortured soul. You’ve heard the testimony about Alan Miller’s
belief, and I think Dr. Scott’s opinion will be that to a great extent Alan
Miller’s belief was on perceived events and probably not even real
events, but you will hear him talk about how Alan believed and you’ve
heard the testimony that people were spreading rumors about him,
people were picking on him, that type of thing. Because of that belief,
whether it’s a fact or not, it was a belief, and based on that belief his
tortured soul took the lives of three people that day.
And this is - - this is where - - I don’t know any other fact that
demonstrates the falling [sic] of this part of the law in this, if Alan
Miller were not sitting at that table right there, it’s been stated that Alan
Miller had been called here like he might have been on August the 4th
of last year to be a juror because he would have been the state’s ideal
pick. He would have been the foreman of a capital murder jury because
he believed in the death penalty. He just decided that he couldn’t
impose it.
And we can labor all we want to in this courtroom, he’d be ideal,
because that’s the right that is reserved to the state and I will reject that
today, I reject it out, I will reject if for the rest of my life. I don’t believe
that that is a decision that can be made by anyone and still justify a value
system that we want everybody out there to have. We want our children
to have it. But more than that, we want everybody else’s children to
have it because if all children had that, we wouldn’t see children killing
other children, it would just make no sense.
Because a couple of years ago I would have been - - I know how
all of you feel about the death penalty because we asked questions about
it and you answered the questions about it.

60

90a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 61 of 189

A couple of years ago I would have been one of those that said I
was strongly in favor of that and I would not be sitting here today saying
things that I’m saying. But today I am opposed to it and not because I’m
representing Alan Miller, it wasn’t that at all, it hasn’t been this event
that caused me to change my mind. It is because I come to the
realization of something when I watched children killing children
because they were tortured souls.
And there is one fundamental notion that is necessary to explain
what all of this is about and that is that we all, there are always going to
be people out there, always going to be tortured souls out there who
agree with the notion that the death penalty is appropriate. And we can
sit here and try to make - - define that to a sophisticated system, if we
want to, but we won’t. Unless we live in a world where everyone has
one value in their value system and that is no matter how atrocious, no
matter how vial [sic] a person is, they don’t deserve to die, they deserve
to live.
As long as we attempt to try to quantify the way that you will
have to try to quantify in your deliberations whether this is a person who
deserves to live, then we will always have that. We can’t eliminate that
idea from our system of values. We can’t eliminate it from our national
conscience, it seems to me. And we can believe that, well, it might work
out fine if we could confine it to a courtroom but we can’t.
So we will put on one witness. We’ll put on Dr. Scott who will
take you through, and I think you will find his testimony most
interesting because of the openness of which Alan talked to him about
what was on his mind, about why. And I just know you’ve got to be
sitting here in puzzlement like I am, how can something like this
happen.
Well, explanation is not a justification, is not an excuse, it’s not
to arouse sympathy for Alan Miller. It is to try to explain to you that
yes, there are tortured souls out there that believe in the death penalty
and they are willing everyday to administer that somebody does not
satisfy their definition of a good person. Once you cross that line of
61

91a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 62 of 189

being violent, once you cross that line of being mean and cruel, then it’s
time to invoke the death penalty.
And at the end I will ask you to consider that your verdict would
be most meaningful in this case. And you’re on stage, you know that.
The media is out here. When you get through, they will probably want
to ask you questions and you can answer their questions, if you want to,
of whatever your verdict is.
But the question that you will have - - in my heart of hearts I
believe the only question that really matters that you will have to answer
is to your children or your grandchildren what did you do, what did your
vote say, not what you selectively do as a jury but what you, every one
of you, what your vote meant.
And I want you to be able to say and this is what I’m asking you
to say, to go home and you say, what my vote meant was no matter what
anybody does, no matter how vial [sic] they are, they don’t deserve to
die. And that I suggest to you is what this part of the case is about and
what this case have been about from the start.
Thank you very much.
(R. Vol. 8, Tab 20, at 1323-34).
In denying this claim, the Alabama Court of Criminal Appeals stated:
We have reviewed trial counsel’s opening statement in its entirety.
Consistent with counsel’s trial strategy - as testified to during the
hearing on Miller’s new-trial motion - counsel elected to acknowledge
Dr. Scott’s conclusion that there was no basis under Alabama law to
support an insanity defense in an effort to retain his credibility before
the jury and to secure an advisory verdict of life imprisonment without
parole, rather than the death sentence. Given the overwhelming evidence
of Miller’s guilt-including eyewitness testimony identifying Miller as
the shooter - counsel had little choice but to acknowledge Miller’s guilt.
Accordingly, counsel attempted to gain the jury’s sympathy by using Dr.
62

92a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 63 of 189

Scott’s testimony to portray Miller as a “tortured soul” whose delusions
drove him to commit a series of horrific acts. Indeed, our review of
counsel’s argument reveals it to be an impassioned plea that the jury
spare Miller’s life.
Miller, 913 So. 3d at 1162-63.
This court finds that, although trial counsel’s opening statement may not have
been perfect, a reasonable jurist could conclude that trial counsel’s statement was not
professionally unreasonable. In his opening statement, trial counsel argued the
absence of any good reason for the jury to recommend the death penalty in Miller’s
case. Trial counsel pointed out that taking Miller’s life could not bring back the lives
of any of the three victims and that the jury, by finding Miller guilty, had already
sentenced Miller to life in prison. (R. Vol. 8, Tab 20, at 1323-26). Trial counsel then
argued that, regardless of what the jury might think of Miller personally, he did not
deserve the death penalty. (R. Vol. 8, Tab 20, at 1327-32). Finally, trial counsel
previewed Dr. Scott’s testimony and stated that, although Dr. Scott was hired by the
defense to determine whether Miller was sane, Dr. Scott ultimately concluded that
Miller did not meet the definition of insanity under Alabama law. (Id. at 1332-33).
Although some of trial counsel’s statements seem odd when viewed individually, the
statements are reasonable when placed in the context of trial counsel’s entire
statement. See Harvey v. Warden, Union Corr. Inst., 629 F.3d 1228, 1253 (11th Cir.

63

93a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 64 of 189

2011) (holding that counsel’s individual statements were not unreasonable when
placed in context).
Having reviewed the transcript, this court finds that a reasonable jurist could
conclude that trial counsel’s penalty phase opening statement was not unreasonable.
Additionally, this court concludes that given the brutal nature of this crime, a
reasonable jurist could conclude that the outcome of the penalty phase would not
have been different but for trial counsel’s statement. Therefore, Miller fails to
demonstrate that the state court’s adjudication of this claim was unreasonable.
2.

Claims Raised For the First Time On Collateral Appeal

Miller raised eleven of his ineffective assistance of trial counsel claims for the
first time on collateral review. In reviewing these claims, the Rule 32 court
determined that the claims were procedurally barred under Rule 32.2(a) of the
Alabama Rules of Criminal Procedure because Miller could have raised the claims
on direct appeal but failed to do so. (C.R. Vol. 43, Tab 75, at 1968-70). Miller
abandoned the claims on appeal from the denial of his Rule 32 petition, never raising
them in the appellate courts.
Federal review of a habeas petitioner’s claim is barred by the procedural
default doctrine if the last state court to review the claim states clearly and expressly
that its judgment rests on a procedural bar. Harris v. Reed, 489 U.S. 255, 263 (1989).
64

94a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 65 of 189

Because the Rule 32 court was the last state court to address these claims and because
it determined that the claims were procedurally barred under Rule 32.2(a), this court
finds the claims are barred from federal habeas review.15 See Brownlee v. Haley, 306
F.3d 1043, 1065–66 (11th Cir. 2002) (holding that Rule 32.2(a) of the Alabama Rules
of Criminal Procedure is an independent and adequate state law ground); Borden v.
Allen, 646 F.3d 785, 814 (11th Cir. 2011).
With this backdrop, the court finds the following of Miller’s ineffective
assistance of trial counsel claims are procedurally barred:
1.

Claim A(i): Miller’s Claim That Trial Counsel Failed to Conduct an
Adequate Investigation and Failed to Uncover Evidence That Would
Have Led the Jury to Find Him not Guilty of Capital Murder or Would
Have led the Trial Court to Sentence Him to Life Without Parole

2.

Claim A(iv): Miller’s Claim That Trial Counsel Was Ineffective During
Jury Voir Dire.

15

Miller argues in his reply brief that the Alabama Court of Criminal Appeals addressed
Miller’s ineffective assistance of trial counsel claims on the merits, and, therefore, the claims are not
procedurally barred. (Doc. 22, at 100-01). However, this argument lacks merit. The Alabama Court
of Criminal Appeals examined Miller’s ineffective assistance of trial counsel claims, but did so for
the limited purpose of reviewing Miller’s ineffective assistance of appellate counsel claims. (Rule
32 C.R. Vol. 38, Tab 63, at 1-148). The Alabama Court of Criminal Appeals never addressed
Miller’s trial counsel claims independently because Miller abandoned his ineffective assistance of
trial counsel claims following the Rule 32 court’s determination that the claims were procedurally
barred. Miller only raised claims of ineffective assistance of appellate counsel in his brief to the
Alabama Court of Criminal Appeals. (Rule 32 C.R. Vol. 38, Tab 63, at 1-148). Therefore, the Rule
32 court was the last court to address these claims, and that court’s express invocation of a state
procedural bar is sufficient to preclude habeas review. See Johnson v. Singletary, 938 F.2d 1166,
1173 (11th Cir. 1991). Additionally, as will be discussed in connection with Miller’s ineffective
assistance of appellate counsel claims, these ineffective assistance of trial counsel claims would be
due to be denied on the merits even if they were not procedurally barred.
65

95a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 66 of 189

3.

Claim A(viii): Miller’s Claim That Trial Counsel was Ineffective for
Failing to Object to Improper Statements Made in the State’s Guilt
phase Closing Argument

4.

Claim A(ix): Miller’s Claim That Trial Counsel was Ineffective During
the Guilt phase Closing Arguments

5.

Claim A(x): Miller’s Claim That Trial Counsel was Ineffective During
the Guilt phase Closing Arguments

6.

Claim A(xi): Miller’s Claim That Trial Counsel was Ineffective in
Preparing for the Penalty Phase

7.

Claim A(xiii): Miller’s Claim that Trial Counsel Failed to Present
Readily Available Evidence During the Penalty Phase

8.

Claim A(xv): Miller’s Claim that Trial Counsel was Ineffective during
Penalty phase Closing Arguments

9.

Claim A(xvi): Miller’s Claim that Trial Counsel was Ineffective for
Failing to Object to Improper Penalty phase Jury Instructions

10.

Claim A(xvii): Miller’s Claim that Trial Counsel was Ineffective for
Failing to Request a Special Verdict Form

11.

Claim A(xviii): Miller’s Claim that Trial Counsel was Ineffective in
Connection with the Sentencing Hearing

Miller argues in his reply brief that the procedural default is excused because
his appellate counsel’s performance constitutes cause and prejudice. (Doc. 22, at
101–04); see Fortenberry v. Haley, 297 F.3d 1213, 1222 (11th Cir. 2002) (“A
petitioner can establish cause by showing that a procedural default was caused by
constitutionally ineffective assistance of counsel under Strickland v. Washington, 466
66

96a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 67 of 189

U.S. 668, 690 . . . (1984).”). However, as will be discussed in Part VI(B), Miller does
not have any meritorious ineffective assistance of appellate counsel claims.
Therefore, he cannot show cause and prejudice to excuse the procedural default.16
Alternatively, these ineffective assistance of trial counsel claims would be due to be
denied, notwithstanding the procedural bar, because the claims lack merit.17
3.

Claims Raised For the First Time Before This Court

Miller asserts two ineffective assistance of trial counsel claims in his petition
that he failed to raise either on direct or collateral appeal. Miller’s failure to present
these claims to the state courts precludes Miller from now raising these claims for the
first time before this court. See Footman v. Singletary, 978 F.2d 1207, 1211 (11th
Cir. 1992) (“[A] habeas petitioner may not present instances of ineffective assistance
of counsel in his federal petition that the state court has not evaluated previously.”).

16

Analysis of Miller’s ineffective assistance of appellate counsel claims will be identical to
the cause and prejudice analysis. To determine whether Miller is correct that cause and prejudice
exists, this court must determine whether appellate counsel’s performance was ineffective. Payne
v. Allen, 539 F.3d 1297, 1314 (11th Cir. 2008). To determine whether appellate counsel was
ineffective in raising issues concerning trial counsel’s performance, this court must determine
whether Miller’s ineffective assistance of trial counsel claims are meritorious. Id. Thus, this court’s
review, whether for the purposes of establishing cause and prejudice or for the purpose of analyzing
Miller’s independent ineffective assistance of appellate counsel claims, ultimately turns on whether
Miller’s underlying ineffective assistance of trial counsel claims are meritorious. Id. Because the
review will be the same, this court will not address the cause and prejudice analysis at this time but,
instead, will do so in connection with Miller’s ineffective assistance of appellate counsel claims.
See Part VI(B).
17

See Part VI(B).
67

97a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 68 of 189

This court finds the following of Miller’s claims to be procedurally barred for failure
to exhaust them:
1.

Claim A(iii): Miller’s Claim That Trial Counsel Was Ineffective For
Failing to Investigate or Develop Mitigation Evidence Following the
Withdrawal of the Insanity Defense

2.

Claim A(xiv): Miller’s Claim that Trial Counsel was Ineffective in
Connection with His Penalty phase Directed Verdict Motion18

Although these claims are procedurally barred, this court will nevertheless
address the underlying merits of these claims below, in connection with Miller’s
ineffective assistance of appellate counsel claims.
B.

MILLER’S INEFFECTIVE ASSISTANCE OF APPELLATE
COUNSEL CLAIMS

Before reviewing Miller’s ineffective assistance of appellate counsel claims,
this court will address Miller’s contention that the determinations of the Alabama
Court of Criminal Appeals in the Rule 32 proceeding do not deserve deference under
the AEDPA because the decision does not constitute an adjudication on the merits.
(Doc. 22, at 104-05). Miller asserts that the decision of the Alabama Court of
Appeals was not an adjudication on the merits because the court adopted large

18

In his brief to the Alabama Court of Criminal Appeals on collateral appeal, Miller argued
that appellate counsel was ineffective for failing to raise this claim. (Rule 32 R. Vol. 38, Tab 63,
at 139-42). However, Miller never presented this claim as an independent ineffective assistance of
trial counsel claim before any of the state courts. Thus, the claim is not exhausted.
68

98a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 69 of 189

portions of the Rule 32 court’s opinion, which was itself, almost a verbatim adoption
of the state’s proposed order. (Id. at 104). However, the Eleventh Circuit has held
that a state court’s verbatim adoption of a state’s proposed order is an “adjudication
on the merits” and is entitled to AEDPA deference when both the petitioner and the
State had an opportunity to present their version of facts to the court. See Jones v.
GDCP Warden, 746 F.3d 1170, 1183–84 (11th Cir. 2014) (“Considering that a
summary disposition of a Strickland claim qualifies as an adjudication on the merits,
. . . , we can discern no basis for saying that a state court’s fuller explanation of its
reasons – albeit reasons drafted for the court by the State – is not entitled to AEDPA
deference.”); Brownlee v. Haley, 306 F.3d 1043, 1067 n.19 (11th Cir. 2002)
(upholding the use of proposed orders adopted verbatim by trial judges “as long as
they were adopted after adequate evidentiary proceedings and are fully supported by
the evidence”) (citations omitted); Rhodes v. Hall, 582 F.3d 1273, 1281-82 (11th Cir.
2009).
In the case at hand, the determinations of the Rule 32 court were made after
conducting multiple days of hearings and allowing the parties to submit extensive
briefing on all of Miller’s claims. Likewise, the determinations of the Alabama Court
of Criminal Appeals were made after each party submitted extensive briefing.
Therefore, the Alabama Court of Criminal Appeals’ determinations are entitled to
69

99a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 70 of 189

AEDPA deference. Having concluded that the determinations of the state court are
entitled to deference, this court turns to the applicable standard of review for Miller’s
ineffective assistance of appellate counsel claims.
Claims of ineffective assistance of appellate counsel are analyzed under the
same Strickland standard that is applicable to ineffective assistance of trial counsel
claims. Johnson v. Alabama, 256 F.3d 1156, 1188 (11th Cir. 2001). To show
entitlement to relief for his ineffective assistance of appellate counsel claims, Miller
must demonstrate both that appellate counsel performed deficiently and that the
deficient performance resulted in prejudice. Heath v. Jones, 941 F.2d 1126, 1130
(11th Cir. 1991).

To demonstrate prejudice, Miller must show a reasonable

probability that, but for his appellate counsel’s performance, Miller would have
prevailed on appeal.

See Smith v. Robbins, 528 U.S. 259, 285 (2000).

To

demonstrate a reasonable probability that Miller would have prevailed on appeal, he
must demonstrate that at least one of his ineffective assistance of trial counsel claims
is meritorious. See Payne v. Allen, 539 F.3d 1297, 1314-15 (11th Cir. 2008) (“[T]o
determine whether [petitioner] has shown ineffective appellate counsel, we must
determine whether [petitioner] has shown underlying meritorious ineffective-trialcounsel claims.”). Because Miller’s ineffective assistance of appellate counsel claims
require this court to determine whether Miller’s ineffective assistance of trial counsel
70

100a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 71 of 189

claims are meritorious, much of this court’s review will focus on Miller’s ineffective
assistance of trial counsel claims. With this introduction, the court turns to Miller’s
ineffective assistance of appellate counsel claims.
1.

Claim B(i): Miller’s Claim that Appellate Counsel was Ineffective
for Raising the Issue of Ineffective Assistance of Trial Counsel In
the Motion for New Trial

Miller claims that appellate counsel acted unreasonably by presenting Miller’s
ineffective assistance of trial counsel claims in motion for new trial, thereby
precluding counsel from raising those ineffective assistance of trial counsel claims
before the Rule 32 court. (Doc. 1, at 124-28). Miller argues that under the Alabama
Supreme Court decision in Ex parte Ingram, 675 So. 2d 863 (Ala. 1996), the proper
procedure for presenting claims of ineffective assistance of trial counsel for review
was to present the claims on collateral review. Miller alleges that as a result of
appellate counsel’s decision to raise the ineffective assistance of trial counsel claims
at the motion for new trial stage, the claims were found to be procedurally barred
under Ala. R. Crim. P. 32.2(a)(2) and (a)(4) at the Rule 32 proceeding. (Doc. 1, at
126-27). Miller contends that appellate counsel’s decision was especially egregious
given the fact that appellate counsel did not have a copy of the trial transcript when
they raised the issue of trial counsel’s ineffectiveness. (Id. at 125).

71

101a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 72 of 189

a)

No Procedural Default

Respondent contends that this claim is procedurally defaulted because Miller
did not raise the claim in his Rule 32 petition. (Doc. 16, at 63). However, as
Respondent concedes, the Alabama Court of Criminal Appeals addressed the merits
of the claim because the “claim was addressed in the evidentiary hearing and in the
circuit court’s order denying the petition.” Miller v. State, 99 So. 3d 349, 362-66
(Ala. Crim. App. 2011). Because the Alabama Court of Criminal Appeals did not rely
on a state procedural bar in addressing this claim, but addressed this claim on the
underlying merits, the claim is not procedurally defaulted. This court will review the
Alabama Court of Criminal Appeals’ decision under AEDPA deference. See Judd v.
Haley, 250 F.3d 1308, 1313 (11th Cir. 2001).
b)

Merits

The last state court to issue a reasoned opinion on this claim was the Alabama
Court of Criminal Appeals, which found that appellate counsel could properly assert
the ineffective assistance of trial counsel claims on direct appeal. Miller v. State, 99
So. 3d 349, 362-66 (Ala. Crim. App. 2011). The court pointed to Rule 32.2(d) of the
Alabama Rules of Criminal Procedure, which states that “[a]ny claim that counsel
was ineffective must be raised as soon as practicable, either at trial, on direct appeal,
or in the first Rule 32 petition, whichever is applicable.” Id. at 363. The court also
72

102a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 73 of 189

concluded that regardless of whether appellate counsel’s performance was defective,
Miller suffered no prejudice because none of his ineffective assistance of trial counsel
claims was meritorious. Id. at 365. Because this court finds that Miller did not suffer
any prejudice, this court will not address whether appellate counsel performed
unreasonably by raising the ineffective assistance of trial counsel claims at the motion
for new trial stage. See Duren v. Hopper, 161 F.3d 655, 660 (11th Cir. 1998) (“[I]f
a defendant cannot satisfy the prejudice prong, the court need not address the
performance prong.”).
Although the Rule 32 court found that Miller’s claims of ineffective assistance
of trial counsel were procedurally barred, the court nevertheless heard evidence
regarding trial counsel’s performance because Miller incorporated all of his
ineffective assistance of trial counsel claims into his ineffective assistance of
appellate counsel claims. Indeed, the majority of the evidence presented at the Rule
32 hearing was related to trial counsel’s performance. After hearing evidence
regarding the trial counsel claims, the court reviewed and denied all of Miller’s trial
counsel claims for the purpose of establishing that Miller was not prejudiced by his
appellate counsel’s performance.
Because Miller had the opportunity to present evidence related to the
ineffective assistance of trial counsel claims, and because the Rule 32 court reviewed
73

103a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 74 of 189

Miller’s ineffective assistance of trial counsel claims and found the claims to be
without merit, Miller suffered no prejudice. Whether the Rule 32 court denied the
trial counsel claims in connection with Miller’s appellate counsel claims or denied
the trial counsel claims outright, the result of the proceeding would have been the
same – Miller’s appeal would have been denied. Thus, Miller suffered no prejudice
and is not entitled to habeas relief on this claim.
2.

Claim B(ii & iii): Miller’s Claim That Appellate Counsel Was
Ineffective for Failing to Conduct an Adequate Investigation
Concerning the Ineffective Assistance Miller Received from Trial
Counsel AND Failing to Present Sufficient Evidence During the
Hearing on the Motion for New Trial to Establish That Miller
Suffered Prejudice as a Result of Trial Counsel’s Performance19

Miller contends that appellate counsel, having raised the issue of ineffective
assistance of trial counsel during the motion for new trial, was ineffective in
investigating and presenting the ineffective assistance of trial counsel claims.20 (Doc.
19

Miller’s brief to the Alabama Court of Criminal Appeals did not discuss appellate
counsel’s presentation at the hearing, but the court nevertheless addressed the issue because it was
raised before the Rule 32 Circuit Court. (C.R. Vol 43, Tab. 76, at 21–22). Miller now separates
appellate counsel’s investigation and presentation into two separate claims, Claim (B)(ii) and Claim
(B)(iii). Because the state court’s decision does not lend itself to piecemeal review and the analysis
of the claims is similar, this court will address the two claims together.
20

Miller alleges that appellate counsel was deficient in the following ways: (1) appellate
counsel only spent one hour with Miller prior to the hearing on the motion for new trial; (2) appellate
counsel did not conduct sufficient legal research to prepare for the case; (3) appellate counsel did not
interview trial counsel or any of Miller’s family or friends and thus did not learn of possible
mitigating evidence that trial counsel failed to present at trial; (4) appellate counsel failed to speak
with Dr. Scott and thus did not learn that trial counsel had retained Dr. Scott only to evaluate Mr.
Miller’s sanity; (5) appellate counsel failed to gather any records, mitigation information, or
74

104a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 75 of 189

1, at 128). Specifically, Miller contends that appellate counsel was ineffective for
failing to adequately investigate and present evidence related to any prejudice that
Miller suffered as a result of trial counsel’s performance. Miller contends that but for
these deficiencies, appellate counsel would have been able to show that trial counsel
was ineffective under Strickland. (Doc. 1, at 131-32).
a)

No Procedural Default

Miller properly raised this claim on collateral appeal, and the Alabama Court
of Criminal Appeals denied the claim on the merits. Miller, 99 So. 3d at 366-71.
Therefore, this court will review the determinations of the state court under AEDPA
deference.
b)

Merits

The Rule 32 court rejected this claim, holding that Miller failed to demonstrate
that appellate counsel’s performance was deficient or that Miller suffered any
prejudice. (C.R. Vol. 43, Tab 75, at 2740). The Alabama Court of Criminal Appeals
affirmed the Rule 32 court, finding both that appellate counsel was not ineffective
and that, even if appellate counsel were ineffective, Miller suffered no prejudice.
Miller, 99 So. 3d at 366-71.

materials that trial counsel should have gathered but did not; (6) appellate counsel did not effectively
evaluate trial counsel’s performance; and (7) appellate counsel failed to present evidence at the
hearing to demonstrate that trial counsel’s performance prejudiced Miller. (Doc. 1, at 128-32).
75

105a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 76 of 189

Although the state court found that appellate counsel reasonably investigated
and presented Miller’s ineffective assistance of trial counsel claims on appeal, serious
questions remain regarding appellate counsel’s performance. One of the main
arguments that appellate counsel presented on appeal was that trial counsel was
ineffective for failing to adequately investigate and present mitigating evidence. (See
R. Vol. 16, Tab 32, at 22). However, appellate counsel did not attempt to investigate
or present evidence demonstrating any prejudice Miller might have suffered as a
result of trial counsel’s performance. Miller contends that appellate counsel’s failure
to “investigate thoroughly the various ways in which his Trial Counsel had performed
ineffectively and to gather and present evidence of the prejudice Miller had suffered
as a result – solely because of a lack of time and not for any strategic reasons –
violated his Constitutional rights.” (Doc. 24 at 5).

76

106a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 77 of 189

Miller argues that the “Eleventh Circuit’s ruling in DeBruce [v. Commissioner,
758 F.3d 1263 (11th Cir. 2014)21] strongly supports” this argument.

(Id.).

Specifically, he claims that:
The Eleventh Circuit’s rulings in DeBruce that trial counsel had
unreasonably and ineffectively investigated available mitigating
evidence and that DeBruce had been prejudiced thereby strongly support
[his] arguments that his Trial Counsel’s inexcusably inadequate
investigation and presentation of mitigating evidence – in particular
evidence of the horrific physical and emotional abuse he had suffered
from his father, which the sentencing jury never heard – violated his
Constitutional rights. See pp. 40, 43-44, 56-62, and 114-134 of Miller’s
Reply Brief.
(Id. at 4).22

21

In DeBruce, the petitioner alleged that trial counsel was ineffective for failing to investigate
several issues that would have led counsel to uncover mitigating evidence that was not presented at
his sentencing, “including that DeBruce experienced violence in his neighborhood and severe abuse
at the hands of his sister, that he dropped out of school in the seventh grade, suffer[ed] from mental
impairments and low intellectual functioning, and ha[d] a painful intestinal disorder.” DeBruce, 758
F.3d at 1270. DeBruce argued that a pretrial report created for the defense by a social worker, noting
that he had attempted suicide several times, had refused special education, dropped out of school at
the age of sixteen, had a history of drug and alcohol abuse, and was in the low average range on
intelligence, should have alerted counsel to the need to make further investigation into his mental
health and background. Id. at 1271. The Eleventh Circuit Court of Appeals found that counsel’s
failure to “develop the troubling leads in DeBruce’s competency report” was deficient. Id. at 1275.
Further, the Court found that DeBruce suffered prejudice because the omitted mitigation evidence,
when compared to the little evidence actually introduced at trial, undermined confidence in the
sentencing phase of the trial. Id. at 1275-79.
22

The court acknowledges that DeBruce does support Miller’s claim that appellate counsel’s
performance in this regard was deficient. However, as discussed below, Miller is unable to establish
that he was prejudiced by appellate counsel’s deficient performance because his underlying
ineffective assistance of trial counsel claims lack merit.
77

107a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 78 of 189

At the hearing on the motion for new trial, appellate counsel called Aaron
McCall of the Alabama Prison Project to testify that he had been available to conduct
a mitigating investigation for Miller’s case and had offered his services to trial
counsel. (Rule 32 C.R. Vol. 34, Tab 60, at 36-37). Appellate counsel, however,
never requested that McCall conduct an investigation into what mitigating evidence
could have been presented. (Rule 32 C.R. Vol. 34, Tab 60, at 48-49). Appellate
counsel also called clinical psychologist Dr. Bob Wendorf, who reviewed Dr. Scott’s
report and testified about a “distinct possibility” that Miller and his father suffered
from schizophrenia. (C.R. Vol. 9, Tab 31, at 122). Dr. Wendorf also testified that
Miller might have had some other mental illnesses. (Id. at 114-21). However,
appellate counsel never asked Dr. Wendorf to perform an independent assessment of
Miller to diagnose whether he did in fact have a mental illness. (Rule 32 C.R. Vol.
34, Tab 60, at 48-50). When asked about his strategy, appellate counsel Hill testified
that, “[i]n retrospect[,] . . . it would have probably been a better practice” to have had
Dr. Wendorf actually perform an assessment of Miller. (Rule 32 C.R. Vol. 34, Tab
60, at 48). This court agrees.
Because appellate counsel failed to investigate any of the mitigating evidence
they argued should have been presented, appellate counsel could not show that Miller
suffered any prejudice – one of the two prongs required to demonstrate ineffective
78

108a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 79 of 189

assistance of counsel. The court questions whether any reasonable jurist could
conclude that appellate counsel’s failure in this regard would constitute reasonable
performance under Strickland. See DeBruce, 758 F.3d at 1269-75. See also Ferrell
v. Hall, 640 F.3d 1199, 1236-39 (holding appellate counsel’s performance
unreasonable when counsel failed to sufficiently investigate the petitioner’s
background and mental health). However, this claim is still due to be denied because,
as discussed below, none of Miller’s ineffective assistance of trial counsel claims is
meritorious. Therefore, Miller cannot demonstrate any resulting prejudice.
3.

Claim B(iv): Miller’s Claim that Appellate Counsel was Ineffective
for Failing to Adequately Present the Claims of Ineffective
Assistance of Trial Counsel That Were Raised in Miller’s Motion
for New Trial

Miller alleges that appellate counsel ineffectively presented and argued the
following claims in his motion for new trial: (a) trial counsel was ineffective in his
guilt phase opening statement; (b) trial counsel was ineffective for withdrawing the
insanity defense; (c) trial counsel was ineffective for failing to present mental health
evidence during the guilt phase; (d) trial counsel was ineffective in his penalty phase
opening statement; and (e) trial counsel was ineffective in failing to adequately
investigate and present mitigation evidence during the penalty phase. (Doc. 1, at 13442). Miller presented this same claim before the state court; therefore, this court must

79

109a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 80 of 189

determine whether the state court’s rejection of this claim was reasonable under
AEDPA deference.
In reviewing this claim, the Alabama Court of Criminal Appeals recognized
that “[i]n order to establish that his appellate counsel were ineffective in the manner
in which they presented the claims of ineffective assistance of trial counsel in the
new-trial proceedings and on appeal, Miller had to first establish that his underlying
claims of ineffective assistance of trial counsel had merit.” Miller, 99 So. 3d at 373
(citation omitted). Thus, the Alabama Court of Criminal Appeals turned its attention
to Miller’s ineffective assistance of trial counsel claims. This court will do the same,
giving AEDPA deference to the appellate court’s determinations.
a)

Miller’s claim that trial counsel’s opening statement during
the guilt phase was ineffective

Miller alleges that trial counsel was ineffective in his opening statement and
“did little more than act as a second prosecutor.” (Doc. 1, at 78). Miller contends
that trial counsel was ineffective because he failed to challenge the facts as presented
by the state, and failed to present any defense theory to the jury. (Id. at 78-80; Doc
22, at 152-53). Miller also asserts that trial counsel encouraged the jury to feel
contempt for Miller by describing the killings as “brutal” and “inhumane,” and telling

80

110a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 81 of 189

the jurors he did not believe they would feel “anything but ashamed of what happened
that caused all of us to be here.” (Doc. 1, at 80).23
(1)

No Procedural Default

Miller properly raised this claim on collateral appeal, and the Alabama Court
of Criminal Appeals addressed the claim on the merits. Miller, 99 So. 2d at 392-95.
Therefore, this court will review the determinations of the state court under AEDPA
deference.
(2)

Merits

The Rule 32 court denied this claim, holding that trial counsel’s opening
statement was “the product of a reasonable, strategic decision to win favor with the
jury by not presenting frivolous arguments in order to spare Miller’s life.” (C.R. Vol.
43, Tab 75, at 98). The trial court also held that Miller failed to establish prejudice
because he did not point to any evidence that the outcome of the trial would have
been different but for trial counsel’s opening statements. (Id.) The Alabama Court
of Criminal Appeals affirmed the determinations of the Rule 32 court, emphasizing
the difficult task trial counsel faced in defending a case in which the evidence clearly
established Miller’s guilt. Miller, 99 So. 3d at 392-95.

23

For the full text of trial counsel’s guilt phase opening statement, see supra Part
VI(A)(1)(b).
81

111a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 82 of 189

After reviewing trial counsel’s opening statement, this court cannot say that the
state court’s decision was unreasonable. At the Rule 32 hearing, trial counsel
explained that his trial strategy throughout the trial was to focus on the penalty phase
of trial and to avoid presenting to the jury frivolous arguments that would diminish
his credibility. (Rule 32 C.R. Vol. 30, Tab 59, at 220-21). This strategy was based
in part on the fact that a veniremember told the trial court that he had overheard
another veniremember expressing his opinion that the trial was a waste of time
because the evidence in the case was overwhelming. (Rule 32 C.R. Vol. 30, Tab 59,
at 236). Trial counsel stated that his purpose in making his opening statement was
to emphasize to the jury that although the evidence of Miller’s guilt was “largely
uncontradicted,” the jury process was not a waste of time. (C.R. Vol. 9, Tab 30, at
63).
Trial counsel’s opening statement followed this strategy. He emphasized the
important role the jury played in the trial, and reassured the jury that he would not
present any “frivolous” arguments. (C.R. Vol. 5, Tab 9, at 813-16). Trial counsel’s
decision not to contest guilt to maintain credibility with the jury and focus on the
penalty phase of trial was not unreasonable. See Harvey. v. Warden, Union Corr.
Inst., 629 F.3d 1228, 1243 (11th Cir. 2011) (holding that “conceding guilt and
focusing on the penalty phase is a valid trial strategy for Strickland analysis”).
82

112a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 83 of 189

To the extent that Miller faults trial counsel for stating that, “I will not offer
you any evidence in this case that would make this act seem any less brutal and any
less inhumane than it was,” this court finds trial counsel’s statement not to be
unreasonable when viewed in context of trial counsel’s full opening statement. At
the hearing on the motion for new trial, trial counsel testified that his purpose in
making this statement was to communicate to the jury that he was not contesting the
terrible nature of the crime. (C.R. Vol. 9, at 60). This theme was in keeping with that
of trial counsel’s opening statement as a whole.
Additionally, even if trial counsel’s performance in connection with his guilt
phase opening statement was defective, Miller cannot show that the outcome of the
guilt phase would have been different but for trial counsel’s statements. As this court
has stated repeatedly, the evidence of Miller’s guilt was overwhelming. Therefore,
this claim lacks merit.
b)

Miller’s claim that trial counsel was ineffective for
withdrawing the insanity defense

Miler next alleges that trial counsel was ineffective for failing to present an
insanity defense during the guilt phase of trial. (Doc. 1, at 135).

83

113a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 84 of 189

(1)

No Procedural Default

Miller properly raised this claim on collateral appeal, and the Alabama Court
of Criminal Appeals addressed the claim on the merits. Miller, 99 So. 3d at 373-92.
Therefore, this court will review the determinations of the state court under AEDPA
deference.
(2)

Merits

The Rule 32 court denied this claim, finding that Miller failed to show that trial
counsel’s withdrawal of the insanity defense was unreasonable or that withdrawal of
the insanity defense prejudiced Miller. (C.R. Vol. 43, Tab 75, at 97-99). In
determining that trial counsel was not ineffective for withdrawing the insanity
defense, the Rule 32 court stated:
Miller’s trial counsel could not be deficient for withdrawing the insanity
defense because none of the psychological or psychiatric experts who
evaluated Miller before trial concluded that Miller met the legal
definition for insanity.
Miller, through counsel, originally pled not guilty by reason of
mental disease or defect. (C. 1) To qualify under the legal definition of
insanity, Miller bore the burden [of] demonstrating that he “was unable
to appreciate the nature and quality or wrongfulness of his acts.” Ala.
Code § 13A-3-1. However, as demonstrated during trial and the
evidentiary hearing, none of the four mental health experts who
examined Miller concluded that he was unable to appreciate the nature
and quality of his actions. (R. 1384, R2. 72-74, Rule 32 R. 248)
....
84

114a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 85 of 189

Thus, trial counsel could not have provided any expert opinion
testimony to credibly argue to the jury that Miller was legally insane.
Any argument that Miller was legally insane could have been effectively
rebutted from Miller’s own expert’s conclusion that he was not insane.
(R. 1384) Johnson testified that he was aware of each of these reports
and that neither Dr. Hooper’s, nor Dr. McClaren’s, nor Dr. Scott’s
reports conflicted on the issue of Miller’s sanity at the time of the
offense. (R2. 73-74, Rule 32 R. 251) Johnson testified that after
receiving Dr. Scott’s report, he discussed the findings with Dr. Scott and
ultimately decided to withdraw the insanity defense on May 24, 2000.
(Rule 32 R. 91-92) Johnson stated during the evidentiary hearing that if
any of the four doctors who evaluated Miller had declared that Miller
was insane at the time of the offense, such a finding would have altered
his strategy and that he would have used that opinion as part of his
defense. (Rule 32 R. 248)
(C.R. Vol. 43, Tab 75, at 80-82).
The Rule 32 court also found that Miller failed to establish any resulting
prejudice:
Although Miller now claims that his trial counsel should have
presented more information to Dr. Scott or obtained additional expert
opinion regarding Miller’s sanity, the record indicates that even if such
additional measures were taken, the result would be the same: that
Miller does not meet the requirements for insanity under Alabama law.
At the evidentiary hearing, Dr. [Catherine] Boyer [Miller’s Rule 32
psychologist] testified that in her opinion, Miller experienced a
dissociative episode at the time of the shootings and that this opinion
would be important as a mental health professional in determining
whether Miller was sane or insane at the time of the shootings. (Rule 32
R. 719-20)
However, incredibly, Dr. Boyer never testified that in her opinion,
Miller was legally insane at the time of the shootings. When pressed on
this crucial question by counsel for the State, Dr. Boyer stated “I really
85

115a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 86 of 189

don’t know if I can answer it.” (Rule 32 R. 757) Most importantly, Dr.
Boyer testified that after her complete investigation, if she had been
called to testify as to Miller’s sanity at the time of trial, she would have
had no opinion. (Rule 32 R. 758) Therefore, Miller has failed to present
any evidence that a mental health expert would have been available to
testify at trial that Miller was insane at the time of the shootings.
Miller also failed to present any evidence during the evidentiary
hearing that conflicts with the evidence and expert opinion regarding
Miller’s sanity at the time of trial. Dr. Scott never testified that his
opinion at the time of trial that Miller was not unable to appreciate the
nature and quality or wrongfulness of his actions had changed. Although
Dr. Scott stated that it was “possible” that had he obtained additional
information and conducted additional testing relating to a dissociated
disorder his diagnosis could have changed, he failed to testify that such
information did in fact change his opinion. (Rule 32 R. 364) Like Dr.
Boyer, Dr. Scott never testified that in his opinion, Miller met the
requirements for insanity under Alabama law.
Equally as important in determining that Miller was not
prejudiced by the withdrawal of the insanity plea was the testimony of
Dr. McClaren during the evidentiary hearing. Before trial in the fall of
1999, Dr. McClaren was hired to conduct a forensic psychological
evaluation of Miller. (Rule 32 R. 773) After conducting his evaluation,
Dr. McClaren concluded that Miller was a “non psychotic man of
average intelligence.” (Rule 32 R. 778) Dr. McClaren also concluded
that Miller was not insane under Alabama law at the time of the offense.
(Rule 32 R. 780)
After becoming involved in the case again for purposes of this
Rule 32 proceeding, Dr. McClaren testified that he reviewed additional
testimony, the reports of Dr. Scott and Dr. McDermott, additional
psychological testing, school records as well as the testimony during the
evidentiary hearing. (Rule 32 R. 783-84) Dr. McClaren then testified
that after his review of this new information, nothing had changed his
opinion that Miller was not legally insane at the time of the shootings.

86

116a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 87 of 189

(Rule 32 R. 784) In Dr. McLaren’s opinion, Miller functioned as a non
psychotic man at the time of the shootings. (Rule 32 R. 792)
The testimony of all three mental health experts during the
evidentiary hearing as well as the evidence contained in the mental
health reports issued during the trial and the trial record itself are
consistent: all indicate that Miller was not unable to appreciate the
nature and quality or wrongfulness of his actions. No testimony has even
been presented during trial or in this Rule 32 proceeding that Miller was
insane at the time of the shootings under Alabama law. Therefore, Miller
has failed to demonstrate a reasonable probability that the outcome of
his proceeding would have been different had trial counsel not
withdrawn the insanity plea because the record resoundingly evidences
that Miller was in fact not insane at the time of the shootings.
Accordingly, because Miller has failed to demonstrate prejudice under
Strickland, this claim is denied.
(C.R. Vol. 43, Tab 75, at 84-87). The Alabama Court of Criminal Appeals affirmed
the Rule 32 court’s determinations:
The record supports the circuit court’s conclusion that trial
counsel made a strategic decision to withdraw the plea of not guilty by
reason of mental disease or defect after consulting with a psychiatrist
who evaluated Miller for the express purpose of determining whether
Miller suffered from a mental disease or defect at the time of the
shootings and after also considering the results of evaluations by three
other mental-health experts, each of whom concluded that Miller did not
meet Alabama’s definition of “insanity” at the time of the shootings.
“This is precisely the type of strategic choice, based on counsel’s
examination of the relevant facts and legal principles, that our cases
have deemed to be virtually unchallengeable.” Key v. State, 891 So.2d
353, 376 (Ala. Crim. App. 2002). As the circuit court in Key aptly noted:
[T]he day a lawyer is supposed to come in here and make
motions and enter pleas for which he or she has no basis
and in fact their education, training, experience, and their
87

117a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 88 of 189

life’s experience and their discussions with their [expert]
provide them with no basis and you can say that that’s
incompetency[,] that’s going to be a dark day in our legal
system.
891 So.2d at 376.
Miller, 99 So. 3d at 377 (alterations in original).
After reviewing the record, this court finds that the state court’s determination
was reasonable under Strickland. The record reflects that trial counsel considered
presenting an insanity defense and retained Dr. Scott for the express purpose of
determining whether Miller met the legal definition of insanity at the time of the
shootings. However, Dr. Scott determined that Miller did not meet the legal
definition of insanity under Alabama law. Dr. Scott’s determinations were the same
as those of the three other mental health experts who examined Miller prior to the
trial. Trial counsel’s decision to withdraw the insanity defense after reviewing the
opinions of four experts is by no means an unreasonable decision. See Brownlee v.
Haley, 306 F.3d 1043, 1061 (11th Cir. 2002) (finding that a defense attorney’s
decision not to pursue an alibi defense he deemed to be implausible and unlikely to
succeed to be the type of strategic decision on which a court should defer to the
judgment of counsel); Williams v. Head, 185 F.3d 1223, 1237 (11th Cir. 1999) (“[T]o

88

118a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 89 of 189

be effective a lawyer is not required to pursue every path until it bears fruit or until
all hope withers.”)(internal quotations omitted).
Further, as highlighted by the court, Miller cannot demonstrate any prejudice
resulting from trial counsel’s decision to withdraw the insanity defense. Miller failed
to produce a single expert willing to testify that he was legally insane at the time of
the shootings. No evidence was ever presented that would demonstrate that Miller
met the legal definition of insanity at the time of the murders. Thus, the court finds
no reasonable probability that the jury would have found Miller to be legally insane,
and he cannot show a reasonable probability that the outcome of the proceeding
would have been different but for trial counsel’s decision to withdraw the insanity
defense.
Within Miller’s claim that trial counsel was ineffective for failing to present an
insanity defense, Miller alleges that trial counsel was ineffective for failing to provide
Dr. Scott with various documents that Miller claims were necessary to determine
Miller’s sanity. Miller contends that trial counsel should have provided Dr. Scott
with the following: (1) a file created by Dr. Hooper following his evaluation of
Miller; (2) Dr. McClaren’s report of his evaluation of Miller; (3) the recording of
Miller’s post-arrest police interrogation; (4) records of Miller’s medical/psychological

89

119a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 90 of 189

records and those of his family; and (5) information concerning the abuse Miller
suffered at the hands of his father. (Doc. 1, 48-66).
The Rule 32 court rejected this argument and found that Miller failed to show
that trial counsel was deficient or that Miller suffered any prejudice as a result. (C.R.
Vol. 43, Tab 75, at 59–73). Although the Rule 32 court and the Alabama Court of
Criminal Appeals discussed the performance prong of Strickland at length in relation
to this ineffective assistance of trial counsel claim, this court will limit its discussion
of the claim to the prejudice prong, since Miller clearly failed to meet this prong. See
Duren v. Hopper, 161 F.3d 655, 660 (11th Cir. 1998) (“[I]f a defendant cannot satisfy
the prejudice prong, the court need not address the performance prong.”).
In discussing the prejudice prong, the Rule 32 court stated:
Miller has failed to demonstrate a reasonable probability that the
outcome of his proceeding would have been different had his trial
counsel investigated more mental health evidence because he has failed
to prove that he met the legal definition of insanity under Ala. Code §
15-16-1. None of the five psychological and psychiatric experts who
evaluated Miller during the course of his trial or his Rule 32
proceedings, including Drs. Hooper, Scott, McDermott, McClaren, and
Boyer concluded that Miller was legally insane. Therefore, even if trial
counsel had conducted a more thorough mental health investigation, the
result would be the same: Miller could not have proven that he did not
appreciate the wrongfulness of his actions and thus could not have
sustained a not-guilty by reason of insanity defense.
Miller’s failure to demonstrate prejudice is highlighted by the
testimony of Miller’s own expert, Dr. Boyer, during the evidentiary
90

120a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 91 of 189

hearing. Despite her opinion that Miller suffered from post-traumatic
stress disorder, incredibly, Dr. Boyer failed to testify that Miller was
legally insane. (Rule 32 R. 757–58) Notably, Dr. Boyer failed to even
provide an opinion. Clearly evading the issue of Miller’s sanity, in
response to a question regarding whether she disagreed with Dr. Scott’s
testimony during trial that Miller was not insane, Dr. Boyer testified “I
really don’t know if I can answer it.” (Rule 32 R. 757)
As Dr. Boyer stated in response to a question from counsel for the
State, if she had been called to testify on Miller’s behalf during trial, she
would have had no opinion as to whether he could appreciate the
wrongfulness of his conduct at the time of the shootings:
Q: So in this case it’s fair to say that had you been there
you would have said I have no opinion [as to Miller’s
sanity] one way or the other?
A: Yes.
(Rule 32 R. 758) Without offering an opinion, let alone an opinion that
conflicted with the evaluations performed during trial, even if a mental
health investigation was performed in the manner in which Miller now
alleges it should have been conducted, Miller has failed to demonstrate
a reasonable probability that additional mental health evidence would
have been uncovered that would have affected the outcome of his trial.
It is also significant that Dr. Scott failed to state during the evidentiary
hearing that his opinion that Miller was not insane at the time of the
shootings had changed. No evidence has been presented that Miller was
legally insane and ample mental health evidence was already available
for trial counsel to effectively argue during the penalty phase that Miller
satisfied the requirements for the statutory mitigating circumstances
under Ala.Code §§ 13A–5–51(2), (6).
Three psychologists and one psychiatrist evaluated Miller at the
time of trial; none of these four doctors, whether hired by the defense or
appointed by the trial court, found that Miller was insane. (Rule 32 R.
248) Miller has offered nothing in the testimony of either Dr. Boyer or
91

121a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 92 of 189

Dr. Scott to call these evaluations into question. There is no evidence
that Dr. Boyer’s testimony would have benefitted Miller’s defense, nor
would it have impacted the outcome of the proceedings. Miller has
failed to meet his burden of proof of demonstrating how he was
prejudiced under Strickland by his trial counsel’s investigation into his
mental health. Therefore, Miller cannot demonstrate that his trial
counsel’s performance in this regard was constitutionally ineffective and
thus, this claim is denied.
(C.R. Vol. 43, Tab 75, at 73-76). The Alabama Court of Criminal Appeals affirmed
the Rule 32 court’s determination:
The circuit court’s findings are supported by the record. As noted
above, to have been entitled to relief, Miller not only had to show that
his trial counsel rendered deficient performance by not providing the
additional information to Dr. Scott for his consideration in assessing
Miller’s sanity at the time of the offenses, but also had to prove that he
was prejudiced as a result of his trial counsel’s failure to provide the
information to Dr. Scott. The fact that Dr. Scott might have changed his
conclusion regarding Miller’s sanity at the time of the offenses had he
received the information is not sufficient to establish the requisite
prejudice.
Miller, 99 So. 3d at 385-86.
This court agrees with the state court’s conclusion. As noted previously, Miller
fails to point to a single expert who determined that he was unable to appreciate the
nature and quality or wrongfulness of his acts at the time of the shootings. Dr. Boyer
conducted an extensive review of Miller’s record, including the items that Miller
alleges trial counsel should have provided to Dr. Scott. (Rule 32 R. Vol. 32, Tab 59,
at 599-630). Based on her investigation, Dr. Boyer concluded that Miller suffered
92

122a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 93 of 189

from a post-traumatic stress disorder. (Id. at 757-58). However, Dr. Boyer refused
to testify that Miller was unable to appreciate the nature and quality or wrongfulness
of his acts at the time of the shootings. (Id. at 757-58). Miller also called Dr. Scott
at the Rule 32 hearing, and he likewise, failed to state that he believed Miller was
unable to appreciate the nature and quality or wrongfulness of his acts at the time of
the shootings. In total, Miller was examined by five different mental health experts
in the course of his trial and the Rule 32 proceedings. None of these experts testified
that Miller was unable to appreciate the nature and quality or wrongfulness of his acts
at the time of the shootings.
Because Miller fails to point to any evidence that he met the legal definition
of insanity, he has failed to establish a reasonable probability that the outcome of his
trial would have been different had trial counsel provided Dr. Scott with additional
evidence and decided not to withdraw the insanity defense. Therefore, Miller has
failed to show that his trial counsel was ineffective and cannot show that his appellate
counsel was ineffective in presenting this claim on direct appeal.
c)

Miller’s claim that trial counsel was ineffective for failing to
present mental health evidence during the guilt phase of trial

Miller alleges that trial counsel was ineffective for failing to present mental
health evidence to the jury that would have allowed them to find that Miller lacked

93

123a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 94 of 189

the mens rea required for a conviction of capital murder. (Doc. 1, at 87-90, 138).
Miller maintains that trial counsel should have presented Dr. Scott’s finding that
Miller, although not legally insane, suffered from a mental illness, experienced tunnel
vision, and heard “noises” at the time of the first two shootings. Miller argues that
had this testimony been presented at the guilt phase of trial, trial counsel could have
argued that Miller lacked the necessary mens rea to be found guilty of capital murder.
(1)

No Procedural Default

Miller properly raised this claim on collateral appeal, and the Alabama Court
of Criminal Appeals addressed the claim on the merits. Miller, 99 So. 3d at 386-92.
Therefore, this court will review the determinations of the state court under AEDPA
deference.
(2)

Merits

The Rule 32 court rejected Miller’s argument that trial counsel should have
presented a defense during the guilt phase. The court stated:
Trial counsel Johnson had reasonable strategic reasons for not
presenting evidence during the guilt phase of trial. Johnson testified that
his trial strategy focused on presenting the best evidence and testimony
that would save Miller’s life. (R2. 80.) Based on the facts and
circumstances of his case, Johnson determined that his best opportunity
and most effective method of presenting such testimony would be during
the penalty phase. (R2. 80; Rule 32 R. 219) Part of this strategy also
involved gaining credibility and favor with the jury by not presenting

94

124a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 95 of 189

frivolous arguments during the guilt phase such as challenging the blood
spatter expert’s testimony. (Rule 32 R. 219–26)
....
As the Court of Criminal Appeals noted, this decision was made
“after a thorough investigation of the relevant law and facts of Miller’s
case’ and Johnson’s focus on the penalty phase ‘was part of his strategy
to spare Miller’s life.” Miller, 913 So.2d at 1161 (holding that “[u]nder
the circumstances of this case, defense counsel made a well-reasoned
decision to focus his efforts on that part of the trial that he believed
offered the greatest chance of success. We see no reason to
second-guess defense counsel’s decisions regarding this strategy.”).
Miller has failed to offer any proof that this trial strategy was not the
product of a reasonably competent attorney.
(C.R. Vol. 43, Tab 75, at 99-102).
The Rule 32 court also held that Miller suffered no prejudice as a result of trial
counsel’s decision to not present a defense during the guilt phase, reasoning that any
argument that Miller lacked the intent to commit capital murder “would have run
contrary to the overwhelming evidence indicating Miller’s intent to commit murder.”
(Id. at 104-05). In support of this conclusion, the Rule 32 court noted that Miller
“specifically sought out two victims, shot them multiple times, proceeded to another
location, specifically sought out another victim, and shot him multiple times.” (Id.
at 105-06). Based on the significant amount of evidence supporting Miller’s
conviction of capital murder, the Rule 32 court found that Miller failed to
demonstrate a reasonable probability that the jury would have found him not guilty
95

125a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 96 of 189

of capital murder. (Id. at 106). The court, therefore, concluded that Miller failed to
establish prejudice under Strickland. (Id.). The Alabama Court of Criminal Appeals
affirmed the lower court’s rejection of this claim. Miller, 99 So. 3d at 386-92.
This court cannot say that the determination of the Alabama Court of Criminal
Appeals as to either prong of the Strickland analysis is unreasonable. In this case,
trial counsel made a strategic decision not to contest Miller’s guilt and to limit Dr.
Scott’s testimony to the penalty phase portion of the trial. Trial counsel had sound
reasoning for adopting this approach. At the Rule 32 hearing, trial counsel Johnson
testified that he decided not to present mental health evidence during the guilt phase
because he believed it would have had less of an impact on the jury than if it was
presented during the penalty phase. (Rule 32 C.R. Vol. 30, at 225). He also testified
that he was concerned that contesting Miller’s guilt could have appeared to be
frivolous to the jury in light of the great weight of the evidence establishing Miller’s
guilt. (Id. at 220). Finally, trial counsel Johnson testified that he believed Dr. Scott’s
testimony was more valuable at the penalty phase because Dr. Scott would have been
allowed to testify more freely and would be subject to a less rigorous crossexamination, and that he chose to limit Dr. Scott’s testimony to the penalty phase
because much of Dr. Scott’s testimony was based on hearsay, which was only
admissible during the penalty phase. (Rule 32 C.R. Vol. 31, at 285). Additionally,
96

126a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 97 of 189

trial counsel Blackwood testified that he did not want to raise mental health evidence
during the guilt phase because “Shelby County jurors are very tough, they are very
solid people, hard working, that don’t believe a lot of hullabaloo about these things
they can’t see. . . . we thought that it would be best presented at the penalty phase.”
(Rule 32 C.R. Vol 34, at 892-93).
These concerns are all valid. Recognizing that the evidence of his client’s guilt
was significant, trial counsel made a strategic decision not to pursue the ill-supported
argument that Miller was not guilty of capital murder. This strategy was by no means
unreasonable. See Bell v. Cone, 535 U.S. 685, 702 (2002) (holding that a “tactical
decision about which competent lawyers might disagree” does not qualify as
objectively unreasonable).
Miller also fails to prove that he was prejudiced as a result of trial counsel’s
decision to not present any mental health evidence at the guilt phase. Even looking
to Dr. Scott’s testimony that Miller experienced tunnel vision and heard “noises”
during the first two shootings, the evidence fails to establish a reasonable probability
that the jury would not have found Miller guilty of capital murder. The evidence in
this case establishes that Miller entered Ferguson Enterprises and shot Christopher
Yancy and Lee Holdbrooks multiple times at close range. Miller then got into his
vehicle, drove to another location, sought out Terry Jarvis and shot Mr. Jarvis
97

127a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 98 of 189

multiple times. Given the factual circumstances of this case, Miller has not shown
a reasonable probability that the outcome of the guilt phase would have been different
if trial counsel had presented Dr. Scott’s testimony during the guilt phase.
Therefore, because Miller’s ineffective assistance of trial counsel claim is
without merit, he cannot show that his appellate counsel was ineffective in the
manner in which they presented this claim in the post-sentencing proceedings.
d)

Miller’s claim that trial counsel’s penalty phase opening
statement was ineffective

Miller alleges that trial counsel rendered ineffective assistance during his
penalty phase opening statement. (Doc. 1, at 96-101, 138-39). Miller contends that
trial counsel “vilified Mr. Miller, undermined the credibility of Dr. Scott, and
effectively conceded the only aggravating factor on which the State relied.” (Id. at
138-39).24
(1)

No Procedural Default

Miller properly raised this claim on collateral appeal, and the Alabama Court
of Criminal Appeals denied the claim on the merits. Miller, 99 So. 3d at 415-16.
Therefore, this court will review the determinations of the state court under AEDPA
deference.

24

For the full text of trial counsel’s opening statement, see Section VI(A)(1)(b).
98

128a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 99 of 189

(2)

Merits

The Rule 32 court rejected this claim, finding that trial counsel’s penalty phase
opening statement was an “impassioned plea that the jury spare Miller’s life.” (C.R.
Vol 43, Tab 75, at 120). The Rule 32 court noted that the purpose of trial counsel’s
opening statement was to convey to the jury that Miller did not deserve the death
penalty regardless of whether they thought he was atrocious or not, and that Miller
did not deserve death regardless of how the jurors might feel about him. (Id. at 118).
The court also found that trial counsel attempted to portray Miller as a “‘tortured
soul’ whose delusions drove him to commit a series of horrific acts.” (Id. at 120).
The court concluded that Miller failed to meet his burden of establishing that no
reasonable attorney would have pursued this course of action, and that Miller failed
to show that the outcome of the penalty phase would have been different but for trial
counsel’s opening penalty phase statement. (Id. at 122).
The Alabama Court of Criminal Appeals affirmed the Rule 32 court’s
determination:
Miller contends that had his appellate counsel properly presented
and argued this claim in the motion-for-new-trial proceedings and on
appeal, he would have been entitled to relief. In arguing this claim,
Miller merely rehashes his argument that his trial counsel rendered
ineffective assistance in his opening statement at the penalty phase of
the trial. The circuit court thoroughly addressed the rationale behind
Miller’s trial counsel’s opening statement, which “was to convey that no
99

129a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 100 of 189

matter what Miller had done, ‘whether [the jury] thought he was
atrocious or not’ and ‘whatever their feelings [were] about Mr. Miller’
that Miller did not deserve the death penalty.” (C. 2068, citing February
2008 Rule 32 Hearing, R. 151, 156.) The circuit court concluded that
Miller failed to prove that his trial counsel’s strategy was deficient or
that he was prejudiced by his counsel’s opening statement. (C. 2067-73.)
The circuit court’s findings are supported by the record.
Accordingly, it follows that Miller has also failed to prove by a
preponderance of the evidence that his appellate counsel were
ineffective in the manner in which they presented this claim of
ineffective assistance of trial counsel in the post-sentencing proceedings.
Payne, 791 So.2d at 401.
Miller, 99 So. 3d at 416 (alterations in original).
After reviewing the record, this court finds the state court’s determination to
be reasonable under Strickland. The record reflects that trial counsel argued in his
opening statement that Miller should not be put to death regardless of the jurors’
personal feelings about Miller. Trial counsel pointed out that Miller’s execution
could not bring back the lives of his three victims, and that Miller would already
receive punishment for his actions by spending the remainder of his life in prison.
Contrary to Miller’s contentions, trial counsel did not undermine Dr. Scott’s
credibility, but presented him as a competent, neutral expert. Trial counsel stated
that, although Dr. Scott had been hired to determine whether Miller was insane, he
ultimately concluded that Miller did not meet the legal definition of insanity. Trial

100

130a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 101 of 189

counsel then previewed to the jury Dr. Scott’s testimony that Miller suffered from a
mental and emotional disturbance on the day of the shootings.
After reviewing the entirety of trial counsel’s opening statement, this court
finds that the Alabama Court of Criminal Appeals’ determination that Miller failed
to establish that trial counsel was ineffective was a reasonable application of
Strickland. Thus, appellate counsel could not have been ineffective in the manner in
which they presented this ineffective assistance of trial counsel claim.
e)

Miller’s claim that trial counsel failed to adequately
investigate and present mitigation evidence during the penalty
phase

Miller alleges that trial counsel should have investigated and presented a
“veritable mountain of mitigating evidence” during the penalty phase of the trial.
(Doc. 1, at 139). In particular, Miller alleges that trial counsel’s investigation was
ineffective because counsel failed to: 1) adequately interview Miller and his close
relatives, and 2) collect Miller’s “employment, education, and medical records, and
medical records of his numerous family members with documented serious mental
illness.” (Id. at 17). Miller alleges that as a result of this inadequate investigation,
trial counsel did not learn about the following evidence:
(i) the extent of instability, poverty and hardship Mr. Miller suffered in
childhood as a result of his father’s constant uprooting of the family and
erratic employment history; (ii) the well-documented history of mental
101

131a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 102 of 189

illness that traced back through at least four generations of the Miller
family; (iii) the extreme physical and psychological abuse Ivan [Miller’s
father] inflicted on the family, including the particular wrath he reserved
for Mr. Miller; (iv) the criminal behaviors to which Mr. Miller was
exposed during his formative years; (v) notwithstanding this adversity,
Mr. Miller’s strong work ethic and good employment history; (vi) the
financial support he provided his family and the loving relationships he
had with his brothers, sisters, nieces and nephews; (vii) the radical
changes in Mr. Miller’s behavior in the days leading up to the shootings;
and (viii) Mr. Miller’s bizarre behavior at the time of the shootings.
(Id. at 24) (alteration added). According to Miller, he would not have been sentenced
to death if trial counsel had presented this mitigating evidence during the penalty
phase. (Id. at 101-08).
(1)

No Procedural Default

Miller properly raised this claim on collateral appeal, and the Alabama Court
of Criminal Appeals addressed the claim on the merits. Miller, 99 So. 3d at 395-415.
Therefore, this court will review the determinations of the state court under AEDPA
deference.
(2)

Merits

This court begins and ends its analysis of this claim with the prejudice prong
of Strickland. Both Miller’s contention that trial counsel failed to conduct an
adequate investigation and his contention that trial counsel failed to adequately
present mitigating evidence require this court to reweigh the aggravating and

102

132a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 103 of 189

mitigating evidence to determine whether Miller suffered prejudice. See Brooks v.
Comm’r, Ala. Dep’t of Corr., 719 F.3d 1292, 1301 (11th Cir. 2013). Therefore, this
court will address these claims together. Since Miller fails to establish prejudice, this
court need not determine whether trial counsel’s performance in connection with his
investigation and presentation of mitigating evidence was deficient. See Holladay v.
Haley, 209 F.3d 1242, 1248 (11th Cir. 2000).
“When a [petitioner] challenges a death sentence. . ., the question is whether
there is a reasonable probability that, absent the errors, the sentencer . . . would have
concluded that the balance of the aggravating and mitigating circumstances did not
warrant death.” Evans v. Sec’y, Dep’t of Corr., 703 F.3d 1316, 1326 (11th Cir. 2013)
(alteration in original) (quoting Strickland, 466 U.S. at 695). The Alabama Court of
Criminal Appeals held that even if Miller had presented all of the additional
mitigating evidence he alleges should have been presented, “there would be no
change in the result in this case.” Miller, 99 So. 3d at 415. In reviewing the opinion
of the Alabama Court of Criminal Appeals, this court must determine whether a
reasonable jurist could conclude that no reasonable probability existed that the
totality of Miller’s mitigating evidence would have altered the outcome of the penalty
phase. See Cummings v. Sec’y of Dep’t of Corr., 588 F.3d 1331, 1367 (11th Cir.
2009) (“Given the strength of the . . . aggravating circumstances, the proposed
103

133a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 104 of 189

mitigation evidence must be strong enough to outweigh them, and therefore to raise
a reasonable probability that the balance of aggravating and mitigating circumstances
did not warrant death.”). Thus, this court will compare the evidence elicited during
the Rule 32 hearings that Miller alleges should have been presented at trial with the
evidence that was actually presented at trial.
(a)

The abuse Miller suffered at the hands of his
father

Testimony from the Rule 32 hearings showed that Miller suffered extensive
abuse at the hands of his father, Ivan. Ivan frequently hit his wife and children for no
reason and was especially abusive towards Miller. (Rule 32 C.R. Vol. 32, at 546).
Ivan also threatened his children with guns and knives; on one occasion he threatened
Miller and his siblings with a gun, telling them that he did not know which of them
he wanted to kill. (Rule 32 C.R. Vol. 31, at 405). Ivan was also verbally abusive,
calling Miller a “little bastard” and a “little son of a bitch.” (Id. at 406). He also
abused Miller’s mother, Barbara, frequently calling her a “fucking whore, a fucking
slut, tramp, anything.” (Id. at 394).
During the penalty phase of the trial, Dr. Scott presented the following
testimony to the jury regarding the abuse Miller suffered:
To try to understand a little bit more about his relationship with
his father, I asked [Miller] to describe his dad, what was it like growing
104

134a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 105 of 189

up with his father. And rather kind of quietly, reluctantly but in a
straight forward manner he described him as verbally abusive. I said,
give me an example. He would frequently, even at a very young age,
say things like you’re no good, you’ll never amount to nothing, you’re
a God damn son of a bitch. He was very physically abusive to him, hit
him on various areas of his body and he was frequently bullied and left
bruises on him.
....
. . . [Miller] described that when he was a junior in high school
one time his father came home and had a large butcher knife from the
kitchen and began lounging [sic] at him and he would say things like,
it’s only God’s will that is keeping me from cutting you now.
....
His father was also described as very verbally abusive to his mom,
frequently called her a whore. And he witnessed his father physically
abusing his mom and hitting her very hard.
(R. Vol. 8, Tab 22, at 1350-51).
(b)

Miller’s impoverished childhood and exposure to
the criminal behavior of his family members

Testimony from the Rule 32 hearings showed that Miller grew up in an
impoverished environment and the family lived in a rent-controlled community.
(Rule 32 C.R. Vol. 31, at 398-99). Barbara Miller and her children were on welfare,
received food stamps, and Barbara’s father and brother had to provide necessities to
the family. (Id. at 415, 460-62). Barbara Miller described the family homes as
“junky, rat infested, roach infested, just falling in.” (Id. at 416). Ivan provided little
105

135a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 106 of 189

support to the family, moving from job to job with periods of unemployment. (Id. at
413). He also pawned valuables from the house to pay for drugs. (Id. at 414-15).
Ivan had a criminal record, was charged with crimes such as murder, grand larceny,
robbery, and unlawful flight to avoid prosecution, and was often in and out of jail for
“drunken disorderly conduct.” (Id. at 420-21). As a child, Miller observed his father
and uncles using marijuana, cocaine, and intravenous drugs. (Id. at 419-20).
At the penalty phase of trial, Dr. Scott presented testimony relating to the
poverty Miller suffered as a child. Dr. Scott testified that Ivan frequently quit jobs
and that the family was often on the “edge of poverty.” (R. Vol. 8, Tab 22, at 1349).
He also stated that at one point, Miller “actually quit the eleventh grade” to support
the family since his father was not working at the time and the family needed to pay
the bills. (Id. at 1349-50). Additionally, Dr. Scott testified that Ivan “abused
marijuana quite heavily,” and that on one occasion, Miller witnessed his father inject
a substance into his arm intravenously. (Id. at 1350).
(c)

The Miller family history of mental illness

During the Rule 32 hearings, Miller presented evidence that numerous
members of his family suffered from mental illness, including his great-grandmother,
his grandfather, and two of Miller’s uncles. (Rule 32 C.R. Vol. 32, Tab 59, at 64454). Ivan Miller, although not diagnosed with a mental illness, was often suspicious
106

136a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 107 of 189

that people were plotting again him. (Rule 32 C.R. Vol. 31, Tab 59, at 403). Ivan
accused his wife of having extra-marital affairs, and believed that she had tried to
poison him. (Id. at 392-93, 403). He also believed that he had the power to heal,
often trying to “heal” his children’s illnesses. (Id. at 410-11; C.R. Vol. 32, at 549).
Ivan Miller also told his children that God had told him to kill them, but he hoped
God would tell him to stop. (C.R. Vol. 32, at 550-51).
At the penalty phase of trial, Dr. Scott presented testimony regarding the
history of mental illness present in Miller’s family. Dr. Scott testified that, although
Ivan had “never had a psychiatric evaluation or diagnosis,” he had some “unusual
behaviors,” including the belief that Miller’s mother had tried to poison him, and the
suspicion that “people around the neighborhood were spying on him.” (R. Vol. 8,
Tab 22, at 1362). Additionally, Dr. Scott testified that Miller’s grandfather was
committed to a psychiatric institution and that Miller’s younger brother, Richard, was
“slow.” (Id. at 1363).

Dr. Scott also told the jury that Ivan Miller had an

“interesting” take on religion:
In some ways [Miller’s] father was a preacher of sorts and he would say
that he had the power to heal, for example. [Miller] described his – one
of his brothers had psoriasis and his father would go and lay hands on
him and when the brother didn’t heal, [Ivan] would tell the brother he
was the devil. And oftentimes [Ivan] would walk around the home sort
of spraying holy water around the house.

107

137a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 108 of 189

(Id. at 1350-51).
(d)

Miller’s good employment
relationship with his family

history

and

The evidence presented during the Rule 32 hearings showed that Miller was
a hard worker who went to work at an early age to support his family, and typically
only left a job when he found a better paying position. (Rule 32 C.R. Vol. 31, at 424;
Rule 32 C.R. Vol. 32, at 560). The evidence also showed that Miller had a close
relationship with his siblings and provided financial assistance when a family member
was in need. (Rule 32 C.R. Vol. 32, at 511, 560). Miller had a strong relationship
with his niece, Alicia Sanford, and his nephew, Jake Connell. Alicia Sanford testified
that she considered Miller to be like a father to her, and felt that he had raised her.
(Id. at 474-75). Jake Connell testified that he spent a great deal of time around
Miller, who was like an older brother to him. (Id. at 579).
Regarding Miller’s employment history, Dr. Scott testified that “prior to this
episode,” Miller had been fired from a couple of jobs for fighting at work, but he
usually left jobs to take a better paying position elsewhere. (R. Vol. 8, Tab 22, at
1363). Dr. Scott’s testimony relating to Miller’s relationship with his family
members was limited to discussing Miller’s strong relationship with his mother. (Id.
at 1351-52).

108

138a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 109 of 189

(e)

Miller’s behavior prior to the shootings

At the Rule 32 hearing, Miller’s niece, Alicia Sanford, testified that in the
weeks leading up to the shooting, Miller let his beard grow long, complained of
ringing in his ears, and often seemed to be daydreaming. (Rule 32 C.R. Vol. 32, at
511-13, 562). She further testified that during this time he was “taking Goody
Powders like something crazy” for his more frequent headaches. (Id.).
Dr. Scott did not present testimony at trial related to any of these specific facts.
(f)

Miller’s behavior on the day of the shootings

Although Miller alleges that trial counsel should have presented additional
evidence related to Miller’s behavior on the day of the shootings, he does not point
to any new information in his petition that was not addressed by Dr. Scott in his
penalty phase testimony.
(3)

Prejudice analysis

After comparing the evidence that was presented at the Rule 32 hearings with
the evidence actually presented at trial, this court finds that a reasonable jurist could
conclude that no reasonable probability suggested the outcome of the penalty phase
would have been different if the additional mitigating evidence had been presented.
The only additional information that could have been presented at trial was additional
instances of abuse Miller suffered, additional information relating to the history of
109

139a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 110 of 189

mental illness present in some of Miller’s extended family members, additional
evidence relating to Miller’s employment history (including that he had been fired
numerous times), and additional information relating to Miller’s close relationship
with his family. Because Dr. Scott, in his penalty phase testimony, presented similar
information regarding Miller’s background, those additional accounts would have
been merely cumulative of the testimony already presented, and insufficient to
establish prejudice. See, e.g., Rose v. McNeil, 634 F.3d 1224, 1243 (11th Cir. 2011)
(“Obviously, a petitioner cannot satisfy the prejudice prong of the Strickland test with
evidence that is merely cumulative of evidence already presented at trial.”); Holsey
v. Warden, Georgia Diagnostic Prison, 694 F.3d 1230, 1260-61 (11th Cir. 2012)
(recognizing that “evidence presented in postconviction proceedings is ‘cumulative’
or ‘largely cumulative’ to or ‘duplicative’ of that presented at trial when it tells a
more detailed version of the same story told at trial or provides more or better
examples or amplifies the themes presented to the jury”); Boyd v. Allen, 592 F.3d
1274, 1297-98 (11th Cir. 2010) (finding that much of the evidence presented by the
petitioner during postconviction proceedings “was in some measure cumulative” of
the trial evidence because “much (although not all) of the ‘new’ testimony introduced
at the post-conviction hearing would simply have amplified the themes already raised
at trial”) (emphasis added).
110

140a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 111 of 189

Furthermore, the value of the additional mitigating evidence Miller alleges
should have been presented at trial is minimal when weighed against the brutal nature
of Miller’s crime. In its order denying Miller’s motion for new trial, the trial court
provided the following description of the crime in support of its determination that
the murders were “especially heinous, atrocious, or cruel”:
On the morning of August 5, 1999, [Miller] shot and killed three
men, namely, Christopher Yancy (“Yancy”), age 28 years; Lee
Holdbrooks (“Holdbrooks”), age 32; and Terry Jarvis (“Jarvis”), age 39
years. Yancy and Holdbrooks were both shot at one location and
thereafter Jarvis was shot at another location. Each of those victims
sustained multiple wounds.
Yancy suffered three wounds to his body. It appears the first shot
entered his leg and traveled through his groin and into his spine,
paralyzing him. He was unable to move, unable to defend himself and
was trying to hide from [Miller] under a desk. Yancy had a cell phone
an inch or two from his hand, but because of his paralysis was unable to
reach it and call for help. Yancy had to have been afraid his life was
about to be taken. Moments elapsed. [Miller] appeared to have then
stooped under the desk and have made eye contact with Yancy before
shooting him twice more causing his death.
Holdbrooks suffered six wounds to his body. [Miller] shot
Holdbrooks several times. Holdbrooks crawled down a hallway for
about twenty-five feet. Holdbrooks was uncertain whether he would live
or die as he crawled down the hallway and quite possibly his life was
flashing by in his mind. [Miller] took his gun and within two inches of
Holdbrooks’ head, pulled the trigger for the sixth and final time, the
bullet entering Holdbrooks’ head causing him to die in a pool of blood.
Jarvis was shot five times, the last shot being no more than 46
inches away from his body. Before Jarvis was shot, [Miller] had pointed
111

141a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 112 of 189

a gun at him in the presence of a witness. [Miller] had accused Jarvis of
spreading rumors about him which Jarvis had denied. [Miller] shot
Jarvis four times in the chest. [Miller] allowed the witness to leave. No
one knows at that point what went through Jarvis’ mind. Having denied
he spread any rumors, he must have wondered why [Miller] had not
believed him and as the witness was allowed to leave that maybe there
would be no more shooting and his life would be spared. [Miller] then
shot Jarvis through his heart ending Jarvis’ life.
It appears all three of [Miller’s] victims suffered for a while not
only physically, but psychologically. In each instance, there appeared to
have been hope for life while they were hurting, only to have their fate
sealed by a final shot, execution style.
Based upon the facts presented at this trial, these murders were
calculated, premeditated and callous, with utter disregard of human life.
The taking of these lives was among the worst in the memory of this
Court and was well beyond the level of being especially heinous,
atrocious or cruel.
(Rule 32 C.R. Vol. 43, Tab 72, at 1-3) (alterations added).
In light of the extensive evidence presented regarding the brutal nature of this
crime, the Alabama Court of Criminal Appeals reasonably concluded that no
reasonable probability existed that the outcome of the penalty phase would have been
different if trial counsel had presented additional mitigating evidence. See, e.g.,
Brooks v. Comm’r Ala. Dep’t of Corr., 719 F.3d 1292, 1302–03) (finding no
prejudice from counsel’s failure to present evidence showing that defendant was nice,
good natured, and nonviolent, in light of the heinousness of the defendant’s crime);
Boyd v. Allen, 592 F.3d 1274, 1303 (11th Cir. 2010) (finding no showing of prejudice
112

142a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 113 of 189

“given the overwhelming power of the aggravating evidence,” when compared to the
totality of mitigating evidence); Dill v. Allen, 488 F.3d 1344, 1360 (11th Cir. 2007)
(finding that testimony that defendant was a “good person until he began to use
drugs” would not have changed the balance of mitigating and aggravating
circumstances or the outcome of the sentencing proceeding). Thus, this ineffective
assistance of trial counsel claim lacks merit, and appellate counsel could not be
ineffective in the manner in which they presented this claim.
Miller adds that Daniel v. Comm’r, Ala. Dep’t of Corr., 822 F.3d 1248, 1255
(11th Cir. 2016) strongly supports his arguments “because the ineffective assistance
he received from his Trial Counsel in connection with the penalty phase of his trial
is strikingly similar to the ineffective assistance outlined in Daniel.” (Doc. 44, at 2).
In Daniel, the petitioner argued that he received ineffective assistance of counsel
because of trial counsel’s failure to investigate and present mitigation evidence during
the penalty phase of his trial. Daniel, 822 F.3d at 1254.
Daniel’s mother, Carolyn Daniel, the sole witness called by the defense, briefly
testified as to “some of the low points” in Daniel’s life:
She told the jury that Mr. Daniel had Attention Deficit Hyperactivity
Disorder (ADHD) and dyslexia; that he dropped out of school in the
tenth grade; and that Mr. Daniel’s biological father died when Mr.
Daniel was three. Mrs. Daniel also testified that Mr. Daniel’s stepfather,
Earnest Western, “abused [him] and I didn’t know about it for a long
113

143a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 114 of 189

time.” She described only one specific instance of abuse. When Mr.
Daniel was about twelve years old Mrs. Daniel said she left him “[o]ne
night” with his stepfather and, when she got home, Mr. Daniel told her
“that he had gotten a beating by his stepdad” and that he had blood in
his urine. When she took Mr. Daniel to the hospital, “[i]t was discovered
that one of his kidneys had been damaged from the beating.” As a result,
protective services removed Mr. Daniel and his two sisters from the
home for about ten months, and Mr. Daniel was placed in a group home.
When the family reunited, Mrs. Daniel says Mr. Daniel was
“withdrawn” and “always seem[ed] like he was hurting on the inside.”
Mr. Daniel started drinking beer at about age sixteen, and “on one
occasion” Mrs. Daniel found marijuana in his room. Finally, Mrs. Daniel
pleaded to the jury for her son’s life.
Id. at 1256 (alterations in original). Less than three hours after the penalty phase
began, the jury returned a 10-2 verdict for death. Id. Following a sentencing hearing,
Daniel was sentenced to death by the trial court.25 Id. Daniel’s convictions and death
sentence were ultimately upheld in the appellate courts. Daniel v. State, 906 So. 2d
991 (Ala. Crim. App. 2004), cert. denied, Id. (Ala. 2005), cert. denied, sub nom.
Daniel v. Alabama, 546 U.S. 405 (2005).
Through new counsel, Daniel timely filed a Rule 32 petition in the trial court.
Daniel’s second amended petition was accompanied by twenty-one exhibits,
“including school, mental health, and social service records, along with other
documentary evidence, all in support of Mr. Daniel’s allegations that if trial counsel

25

Daniel’s mother and sister testified at the sentencing hearing, asking the court to spare
Daniel’s life. Id.
114

144a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 115 of 189

had conducted even a cursory investigation of his background, they would have
discovered compelling mitigating evidence.” Id. at 1257. The trial court summarily
dismissed the petition without allowing any discovery or conducting an evidentiary
hearing.26 Id. The Alabama Court of Criminal Appeals affirmed the trial court’s
summary dismissal of the petition at the pleading stage because Daniel failed to
sufficiently and specifically plead his claims under Alabama law. Id. at 1258. The
Alabama Supreme Court denied certiorari in a summary fashion. Id.
Daniel timely filed a petition for a writ of habeas corpus in federal court. Id.
The petition was accompanied by motions for discovery and an evidentiary hearing.
Id. The district court denied relief without an evidentiary hearing or discovery,
finding that Daniel’s claim was properly dismissed for failure to plead the claim with
sufficient specificity or failure to state a claim. Id. at 1258, 1260.
On appeal, the Eleventh Circuit Court of Appeals first found that Daniel’s
“second amended Rule 32 petition pleaded more than sufficient specific facts about

26

The trial court’s order denying the petition stated:

This Court finds that Petitioner’s allegations of ineffective assistance of trial
counsel either do not meet the specificity requirements of Rule 32.6(b), raise grounds
that were raised at trial in violation of Rule 32.2(a)(3), raise grounds that were raised
by Petitioner on direct appeal in violation of Rule 32.2(a)(4), raise grounds which
could have been but were not raised on direct appeal in violation of Rule 32.2(a)(5),
are without merit, or fail to state an issue of fact or law.
Id. at 1257 n.3.
115

145a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 116 of 189

trial counsel’s acts and omissions to show their penalty phase investigation ‘fell
below an objective standard of reasonableness.’” Id. at 1263 (quoting Strickland, 466
U.S. at 688).27 Daniel had alleged that trial counsel had “almost no meaningful
contact with him or his family prior to trial,” despite Daniel’s repeated attempts to
contact counsel, including Daniel’s bar complaint regarding counsel’s lack of contact
with him, and that trial counsel also ignored efforts by Daniel’s mother and sister to
provide counsel with relevant background information. Id. at 1263-65. Daniel had
also specifically detailed the chronic physical, emotional, and sexual abuse that the
jury never heard and that trial counsel could have obtained from Daniel’s family. Id.
at 1265-66. The Court also noted that the information uncovered by counsel during
their “cursory investigation” should have alerted counsel to the need for more
investigation into Daniel’s school records. Id. at 1266-67.
Second, the Court found that the second amended Rule 32 petition pleaded
sufficient facts to show prejudice under Strickland. Id. at 1274-77. The Court
explained that allegations of Daniel’s excruciating life history, that were never
presented to the jury, were sufficient to establish a reasonable probability that but for

27

The Court noted that “‘at the pleading stage of Rule 32 proceedings [in Alabama], a Rule
32 petitioner does not have the burden of proving his claims,’ Ford v. State, 831 So.2d 641, 644
(Ala.Crim.App. 2001), and that facts Mr. Daniel alleged in his Amended Rule 32 petition and
supporting exhibits are assumed to be true under Alabama law, see Ex parte Williams, 651 So.2d
569, 572-73 (Ala. 1992).” Id. at 1261.
116

146a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 117 of 189

counsel’s failure to present the evidence to the jury, he would have been sentenced
to life without parole instead of death. Id.
The Eleventh Circuit Court of Appeals concluded that the Alabama Court of
Criminal Appeals’ adjudication of the merits of Daniel’s ineffective assistance of
counsel claim was unreasonable and that the claim should be reviewed de novo. Id.
at 1280. The Court remanded the case to the district court to reconsider Daniel’s
discovery motion, to conduct an evidentiary hearing on his claim, and to reconsider
the merits of the claim de novo. Id. at 1281-82.
Miller claims that the “ineffective assistance Mr. Miller received from his Trial
Counsel in connection with the investigation and presentation of mitigating evidence
during the penalty phase of his trial is strikingly similar to the ineffective
representation alleged by Mr. Daniel that the Eleventh Circuit found to violate his
Constitutional rights.” (Doc. 44 at 7). However, as explained above, Miller’s case
differs from Daniel in that Miller’s claims were addressed and denied on the merits
by the Rule 32 court following a thorough evidentiary hearing at which Miller’s
witnesses’ testimony closely mirrored the testimony the jury heard from Dr. Scott in
the penalty phase of Miller’s trial. Because the evidence Miller alleges should have

117

147a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 118 of 189

been presented at trial was basically the same evidence the jury heard from Dr. Scott,
Miller simply did not suffer the prejudice suffered by the petitioner in Daniel.28
4.

Claim B(v): Miller’s Claim that Appellate Counsel was Ineffective
for Failing to Raise Other Claims of Ineffective Assistance of Trial
Counsel

Miller alleges that appellate counsel were ineffective for failing to raise the
following claims of ineffective assistance of trial counsel: (a) trial counsel’s
ineffective performance during the jury voir dire; (b) trial counsel’s ineffective
performance in failing to object to the admission of irrelevant and prejudicial
testimony and photographs during the guilt phase of trial; (c) trial counsel’s
ineffective cross-examination of crucial prosecution witnesses; (d) trial counsel’s
failure to object to misleading portions of the State’s guilt phase closing argument;
(e) trial counsel’s ineffective guilt phase closing argument; (f) trial counsel’s failure
to request guilt phase jury instructions necessary to protect Miller’s rights; (g) trial
counsel’s reliance on Dr. Scott as the sole mitigation witness during the penalty phase

28

Miller also contends that Hardwick v. Sec’y, Fla. Dep’t of Corr., 803 F.3d 541 (11th Cir.
2015) supports this claim. (Doc. 38). In Hardwick, The Eleventh Circuit Court of Appeals held that
the petitioner made a showing of ineffective assistance of counsel regarding counsel’s investigation
in a capital case, when counsel, who presented no mitigating evidence, “was aware of a number of
red flags” concerning the defendant’s life circumstances yet “did not conduct a life-history
investigation or follow up on any leads” or attempt to undertake “even a rudimentary mitigation
investigation.” 803 F.3d 541, 552-54 (11th Cir. 2015). Unlike the petitioner in Hardwick, Miller’s
jury heard basically the same evidence from Dr. Scott that he contends should have been provided
by other witnesses. Thus, as previously discussed, Miller did not suffer the prejudice suffered by the
petitioner in Hardwick.
118

148a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 119 of 189

of trial; (h) trial counsel’s failure to move for a directed verdict based on the state’s
failure to present comparative evidence necessary for the jury to determine that the
killings were “especially heinous, atrocious, or cruel compared to other crimes;” (i)
trial counsel’s penalty phase closing argument; (j) trial counsel’s failure to object to
the court’s penalty phase jury instructions; (k) trial counsel’s failure to request a
special verdict form to establish that the jury had unanimously found the sole alleged
aggravating circumstance; (l) trial counsel’s ineffectiveness at the sentencing hearing;
and (m) trial counsel’s failure to bring the Supreme Court’s decision in Apprendi v.
New Jersey to the attention of the court prior to the sentencing phase.
The Alabama Court of Criminal Appeals rejected this claim, holding that
appellate counsel could not have been deficient for failing to raise these claims
because none of Miller’s claims of ineffective assistance of trial counsel was
meritorious. This court, therefore, will examine the state court’s determinations
regarding each of Miller’s ineffective assistance of trial counsel claims with
deference.
(a)

Trial Counsel’s performance during jury voir dire

Miller claims that appellate counsel should have argued that trial counsel’s voir
dire was inadequate and that trial counsel was ineffective for failing to ask questions
related to the jurors’ exposure to media coverage of the trial. Miller also contends
119

149a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 120 of 189

that trial counsel did not effectively ask questions designed to uncover potential bias
against Miller.
(1)

No Procedural Default

This claim was properly raised on collateral appeal and fully exhausted.
Therefore, this court will review the determinations of the state court under AEDPA
deference.
(2)

Merits

In addressing the underlying ineffective assistance of trial counsel claim, the
Rule 32 Court held:
This Court denies Miller’s claim because he has failed to meet his
burden of proof of demonstrating that his trial counsel’s performance
was deficient under Strickland, 466 U.S. at 687. Ala. R. Crim. P.,
32.7(d). Because of the extensive publicity in this case, Johnson, along
with the District Attorney’s office, developed a written questionnaire
that was provided to the entire jury panel. (Rule 32 R. 236) Within the
questionnaire, question # 68 specifically asked the jurors to answer
whether they had seen anything about the case in any newspaper. (Rule
32 R. 237) Additional questions were included in the questionnaire to
determine whether a particular juror had such strong fixed opinions
about the case or could not be fair or impartial as a juror. (Rule 32 R.
238)
Johnson testified that he had an opportunity to review the
responses to the questionnaires for all members of the jury panel and
that he knew the jurors’ responses identifying what they saw in the
newspapers about the case. (Rule 32 R. 237-38) During trial, the trial
court and counsel for both parties conducted an extensive individual
voir dire of the jury panel. (R. 130-763)
120

150a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 121 of 189

As the record indicates, Johnson strategically conducted voir dire
to determine whether any juror had a fixed opinion, for any reason, of
the case. Johnson alerted the trial court to questions # 68, # 69 and # 70
of the juror questionnaire that pertained to the juror’s opinions of the
case and implored the trial court to focus its questions on whether the
jurors had ‘fixed opinions’ of the case. (R. 146-47) As a result, the trial
court determined that it would examine each juror’s response to question
# 68 and if the juror indicated they had heard something about the case,
the trial court would inquire what the juror heard and whether the juror
could set aside what they had heard. (R. 148)
During the evidentiary hearing, Miller’s counsel questioned
Johnson about specific newspaper articles and then questioned Johnson
on whether he asked eight jurors about what they had read about the
case in the newspaper. (Rule 32 R. 127–34) However, as the record
indicates, as a result of Johnson’s effort, during individual voir dire, the
trial court noted each of the eight juror’s responses to question # 68
indicating that the juror had seen or read something about the case and
then asked each juror whether they could set what they had learned aside
and base their verdict solely on the evidence presented. (R. 337-38, 34546, 376-77, 446-47, 449-50, 625-26, 638-39, 666-67) All eight jurors
indicated that they could set aside what they had learned and sit as a fair
and impartial juror. Id.
Therefore, information about the jurors’ opinions about the case
was brought out during the voir dire and Miller has failed to demonstrate
that Johnson’s method of conducting voir dire was deficient. Miller has
failed to present any evidence that a reasonable attorney would have
asked these eight jurors about specific newspaper articles. Furthermore,
Miller failed to ask Johnson why he did not strike these eight jurors from
the panel, nor did Miller ask any specific question regarding Johnson’s
strategy for using the defense’s peremptory strikes. Therefore, because
the record is silent, trial counsel’s questioning of the jury panel and the
subsequent peremptory strikes is presumed to be reasonable. See
Chandler, 218 F.3d 1305, 1315 n. 15.

121

151a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 122 of 189

In paragraph 162 of his amended petition, Miller claims that his
trial counsel failed to question and remove Juror Gregory Johnson who
Miller alleges was biased because Juror Johnson favored the death
penalty. (Pet. at 47) However, trial counsel’s questioning of Juror
Johnson was not deficient and the record directly refutes Miller’s claim
that Juror Johnson was biased. Juror Johnson stated during voir dire that
he could follow the trial court’s instructions and listen to the evidence
in recommending a sentence in Miller’s case. (R. 377-78) Juror Johnson
also stated that where it was appropriate under the law and evidence he
could vote for either life imprisonment or the death penalty. (R. 378)
Furthermore, trial counsel Johnson specifically questioned Juror
Johnson about his views on the death penalty and elicited from Juror
Johnson that he had no fixed opinions about what an appropriate
punishment should be. (R. 387–90) Accordingly, Miller’s claim is
directly refuted by the record and is denied. See Gaddy v. State, 952
So.2d 1149, 1161 (Ala. Crim. App. 2006).
....
This claim is also denied because Miller has utterly failed to meet
his burden or proof of demonstrating that he was prejudiced by his trial
counsel’s performance during voir dire. See Strickland, 466 U.S. at 695;
Ala. R. Crim. P., 32.7(d). Although Miller claims that trial counsel was
ineffective for failing to ask eight of the fourteen jurors seated in his
case about what they read or remembered about Miller’s case, Miller has
failed to present any evidence whatsoever about what these eight jurors
actually read or remembered about Miller’s case prior to trial. (Rule 32
R. 134) None of the jurors who sat at Miller’s trial testified during the
evidentiary hearing. Therefore, no evidence was presented that the eight
jurors actually read or were exposed to the newspaper articles
introduced into evidence by Miller during the evidentiary hearing. (Rule
32 R. 127–34, 289–95) Even if the eight jurors had read these
newspaper articles, no evidence was presented that the jurors considered
these articles harmful to Miller or that they had fixed opinions about
Miller because of these articles.

122

152a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 123 of 189

There is nothing in the record regarding what the jurors read
about Miller’s case; accordingly, “[t]he mere fact that some of the jurors
that sat for [Miller’s] trial had pretrial knowledge of his case is not
enough to establish they were biased against him.” Duncan v. State, 925
So.2d 245, 267 (Ala. Crim. App. 2005). Therefore, because there is no
evidence about what the jurors read and whether they were actually
biased against Miller because of what they read, Miller has failed to
demonstrate that he was prejudiced by this trial counsel’s performance
during voir dire. Miller’s claim is denied.
(C.R. Vol. 43, Tab 75, at 2040-45) (alterations in original).
The Alabama Court of Criminal Appeals affirmed the Rule 32 court’s
determination that trial counsel was not ineffective:
The circuit court’s findings are supported by the record and
Alabama law. As we stated on direct appeal:
[T]he potential for actual juror prejudice was addressed
through voir dire during the selection of the jury. Through
the use of juror questionnaires and individual voir dire, any
potential jurors who may have had fixed opinions
regarding Miller’s guilt were excused from service. Nor
was there any showing that media coverage created a
presumption of actual prejudice. See Ex parte Travis, 776
So.2d 874, 879 (Ala. 2000).
Miller, 913 So.2d at 1162.
Accordingly, “[b]ecause [Miller] failed to establish that his claim
of ineffective assistance of trial counsel is meritorious, he has failed to
prove by a preponderance of the evidence that his appellate counsel was
ineffective for failing to present this claim.” Payne, 791 So.2d at 401-02.
Miller, 99 So. 3d at 419 (alterations in original).

123

153a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 124 of 189

The record supports the determinations of the Alabama Court of Criminal
Appeals. In examining an attorney’s performance during jury selection, this court
must begin with the strong presumption that trial counsel acted properly and that his
jury selection decisions were sound trial strategy. See, e.g., Harvey v. Warden, Union
Corr. Inst., 629 F.3d 1228, 1245 (11th Cir. 2011) (recognizing that trial counsel’s
actions during voir dire are presumed to be reasonable); Manning v. State, 373 F.
App’x 933, 935 (11th Cir. 2010) (affirming dismissal of ineffective assistance of
counsel claim when counsel failed to strike juror who did in fact express a bias on
ground that petition failed to establish prejudice). To overcome this presumption,
Miller bears the burden of demonstrating that trial counsel’s actions were so
unreasonable that no competent attorney would have taken the actions that trial
counsel took. See Chandler v. United States, 218 F.3d 1305, 1315 (11th Cir. 2000).
Miller cannot meet this burden.
The record reflects that trial counsel took steps to insure that the jurors selected
could be fair and impartial. Each potential juror was first required to fill out an
extensive juror questionnaire created by trial counsel and the District Attorney’s
Office. (Rule 32 C.R. Vol. 30, at 236-37). Trial counsel reviewed the jurors’
completed questionnaires prior to individual juror voir dire and considered the

124

154a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 125 of 189

information that he learned from the questionnaire in making his decision to strike
jurors. (Id. at 239-40).
After reviewing the jury questionnaire, trial counsel engaged in the voir dire
process. Counsel understood that many of the jurors likely had been exposed to some
media coverage. Because of this concern, trial counsel asked the court to focus on
whether the specific juror had developed a “fixed opinion” about the case. (C.R. Vol.
2, at 146-48). The court agreed to do so, and stated that it would specifically examine
each potential juror on whether the juror had heard anything regarding Miller’s case,
and if so, whether the juror had formed any opinion as a result. (Id. at 148-49).
Although Miller alleges that trial counsel should have asked the jurors
additional questions, Strickland does not ask whether an attorney could have done
more, but only whether the attorney’s performance was so unreasonable that no
competent attorney would have performed as trial counsel did. See Chandler, 218
F.3d 1305, 1313 (11th Cir. 2000) (“To state the obvious: the trial lawyers, in every
case, could have done something more or something different. . . . But, the issue is
not what is possible or ‘what is prudent or appropriate, but only what is
constitutionally compelled.’”) (quoting Burger v. Kemp, 483 U.S. 776, 794 (1987)).
After reviewing the record, this court concludes that no evidence shows that trial

125

155a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 126 of 189

counsel’s performance during voir dire was such that no reasonable attorney would
have approached voir dire in this manner.
Further, Miller fails to establish the prejudice prong of Strickland. To establish
prejudice resulting from counsel’s performance during voir dire, a petitioner “must
show that at least one juror was biased” because “if no juror were biased, then there
is no ‘reasonable probability that . . . the result of the proceeding would have been
different.’” Owen v. Florida Dep’t of Corr., 686 F.3d 1181, 1201 (11th Cir. 2012)
(quoting Strickland, 466 U.S. at 694). All eight of the jurors who were exposed to
pretrial publicity were questioned regarding whether they could put aside anything
they had learned from the publicity the case received, and all eight jurors responded
that they could be impartial.29 (C.R. Vol. 3, at 337-38, 345-46, 376-77, 446-47, 44950; C.R. Vol. 4, at 625-26, 638-39, 666-67). Miller fails to offer any evidence that
any juror was biased against him. Instead, he simply points out that some of the
jurors were exposed to pretrial publicity about the case. However, the mere fact that
some jurors were exposed to pretrial publicity about Miller’s case does not establish
29

Juror E.H. indicated in his juror questionnaire that he had formed an opinion as to who was
responsible for the deaths of Holdbrooks, Yancy, and Jarvis. (C.R. Vol. 3, at 337). When asked by
the court whether he could put aside any pre-existing opinions or impressions and base his decision
solely on the evidence presented in court, Juror E.H. responded that he could do so. The Eleventh
Circuit has held that “‘the mere existence of any preconceived notion [by a juror] as to . . . guilt or
innocence, without more’ is insufficient to establish a claim of prejudicial pretrial publicity.” Devier
v. Zant, 3 F.3d 1445, 1462 (11th Cir. 1993) (alterations in original) (quoting Irvin v. Dowd, 366 U.S.
717, 723 (1961).
126

156a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 127 of 189

that any juror was actually biased again him. See Bertolotti v. Dugger, 883 F.2d
1503, 1521 (11th Cir. 1989) (holding that “if jurors can lay aside preconceptions and
base their verdict on the evidence adduced at trial, they need not be completely
unaware of the facts of a given case”) (citing Murphy v. Florida, 421 U.S. 794, 799800 (1975)).
Based on the lack of evidence demonstrating bias, this court concludes that the
state court reasonably determined that trial counsel’s performance during voir dire did
not prejudice Miller. See, e.g., Brown v. Jones, 255 F.3d 1273, 1280 (11th Cir. 2001)
(holding that petitioner did not establish prejudice when he failed to adduce any
evidence that a juror was biased in favor of the death penalty); Van Poyck v. Fla.
Dep’t of Corr., 290 F.3d 1318, 1328–29 (11th Cir. 2002) (finding no prejudice when
each juror unequivocally stated that he or she could render a verdict based solely on
the evidence and instructions given by the trial judge). Likewise, the state court
reasonably determined that appellate counsel was not ineffective for failing to present
this claim.
b)

Miller’s claim that trial counsel was ineffective in failing to
object to the admission of testimony and photographs during
the guilt phase of trial

Miller alleges that appellate counsel should have argued that trial counsel was
ineffective for failing to object to gruesome testimony and photographs of the victims
127

157a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 128 of 189

introduced during the testimony of the state’s forensic scientists, Dr. Angello Della
Manna and Dr. Stephen Pustilnik. (Doc. 1, at 80-87, 143). During the guilt phase of
the trial, Dr. Della Manna presented testimony concerning blood patterns at the crime
scene. (Id. at 81). The state used Dr. Della Manna’s testimony to introduce graphic
photographs of the victims and the crime scenes. (Id.). Similarly, Dr. Pustilnik
analyzed photos of the gunshot wounds and testified as to the pain the victims would
have suffered prior to death. (Id. at 82). Miller argues that the evidence admitted
through the testimony of Dr. Della Manna and Dr. Pustilnik was irrelevant to the
issue of Miller’s guilt and only served to inflame the jury against Miller. (Id.).
(1)

Procedural Default

The respondent correctly contends that this claim is procedurally defaulted
from habeas review because the last state court to review the claim determined that
Miller failed to comply with state procedural rules by abandoning the claim in his
Rule 32 petition.30 The Rule 32 court observed:
Miller failed to present any evidence whatsoever during the evidentiary
hearing in pursuit of this claim. In fact, Miller failed to ask trial counsel
a single question regarding why trial counsel did not object to certain
testimony or allegedly prejudicial photographs. Nor did Miller offer any
evidence that would establish that the testimony and photographs of the
victims and crime scene were actually irrelevant and inflammatory in

30

Additionally, the claim is procedurally defaulted because Miller did not raise the claim on
appeal from the denial of his Rule 32 petition.
128

158a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 129 of 189

this case. Therefore, this Court denies this claim because Miller has
abandoned the claim.
(C.R. Vol. 43, Tab 75, at 2057) (citing Brooks v. State, 929 So. 2d 491, 498 (Ala.
Crim. App. 2008) (holding that a Rule 32 petitioner’s failure to ask counsel “any
questions concerning her reasons for not pursuing any of the claims” in the Rule 32
petition constituted an abandonment of those issues)). See also, e.g., Hooks v. State,
21 So. 3d 772, 788 (Ala. Crim. App. 2008) (holding that when an appellant does not
present evidence addressing certain claims at an evidentiary hearing on a Rule 32
petition, the state court can conclude that he has abandoned the claims, and is not
required to review them). Because the Rule 32 court determined that Miller
abandoned this claim, the claim is procedurally defaulted from habeas review. See
Brownlee v. Haley, 306 F.3d 1043, 1066–67 (11th Cir. 2002) (finding that state
court’s determination that a claim was abandoned barred federal habeas review).
(2)

Merits

Alternatively, even if the claim were properly before this court, it would be due
to be denied because it is without merit.

Although finding the claim to be

procedurally barred, the Rule 32 court went on to find that the claim lacked merit
because the testimony and photographs relating to the crime scene were properly

129

159a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 130 of 189

admissible under Alabama law” (C.R. Vol. 43, Tab 75, at 2058-59). The court
pointed out that under Alabama law:
photographs which show external wounds in the body of a deceased
victim, even though they are cumulative and based on undisputed
matters, are admissible. The fact that they are gruesome is not grounds
to exclude them so long as they shed some light on the issues being
tried. The fact that a photograph is gruesome and ghastly is no reason
to exclude it form evidence, so long as the photograph has some
relevancy to the proceedings, even if the photograph may tend to
inflame the jury.

(Id. at 2058) (quoting Sneed v. State, 1 So. 3d 104, 132 (Ala. Crim. App. 2007)). The
court found that the “testimony and photographs of both the crime scene as well as
the gunshot wounds of the victims were relevant and necessary to prove that Miller
intended to kill each victim in this case. (R. 1271-75).” (Id.). Therefore, the court
concluded that because the evidence would have been admissible notwithstanding an
objection by trial counsel, counsel could not be ineffective for failing to make such
an objection. (Id. at 2058-59).
This court agrees with the state court’s reasoning. Because counsel had no
basis for objecting to the admission of the photographs and testimony under Alabama
law, trial counsel could not have been ineffective for failing to object. See Chandler
v. Moore, 240 F.3d 907, 917 (11th Cir. 2001) (holding that counsel was not
ineffective for failing to raise a non-meritorious objection). Because an objection
130

160a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 131 of 189

would not have succeeded, Miller was not prejudiced by trial counsel’s failure to
object. Therefore, this ineffective assistance of trial counsel claim is without merit,
and appellate counsel was not ineffective for failing to raise it.
c)

Miller’s claim that trial counsel conducted an ineffective
cross-examination of crucial prosecution witnesses

Miller alleges that appellate counsel should have argued that trial counsel was
ineffective for failing to effectively cross-examine crucial prosecution witnesses.
(Doc. 1, at 83-87, 144). Specifically, Miller argues that trial counsel should have
cross-examined: (1) Dr. Angello Della Manna; (2) Dr. Steven Pustilnik regarding his
foundation for asserting that the victims felt severe pain as result of the gunshot
wounds they suffered; (3) Johnny Cobb regarding the fact that neither Holdbrooks nor
Yancy had been spreading rumors about Miller; (4) David Andrew Adderhold
regarding, the fact that Miller allowed Adderhold to leave the scene of the shootings
unharmed, and Miller’s good work performance at Post Airgas prior to the shootings;
and (5) Sergeant Stuart Davidson regarding the fact that Miller did not attempt to
escape during the lengthy time period that police pursued him down the interstate
after he committed the shootings. (Id.).

131

161a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 132 of 189

(1)

Procedural Default

Respondent correctly contends that this claim is procedurally defaulted because
the state court determined that Miller abandoned the claim. (Doc. 16, at 96-100).
The Rule 32 court observed that Miller failed to present any evidence whatsoever in
pursuit of this claim during the evidentiary hearing. (C.R. Vol. 43, Tab 75, at 2059).
The court noted that Miller failed to ask trial counsel a single question regarding his
strategy in cross-examining the prosecution’s witnesses, failed to identify any specific
questions trial counsel could have asked each witness or elicited during crossexamination, and failed to offer any evidence as to how he was prejudiced by trial
counsel’s lack of a cross-examination of the state’s witnesses. (Id.). The court
concluded that Miller had abandoned the claim. (Id. at 2059-60). The Alabama
Court of Criminal Appeals followed suit, declining to review the claim because Miller
had abandoned it. Miller, 99 So. 3d at 425.
As discussed previously, the state court’s determination that a petitioner
abandoned a claim on appeal bars habeas review. See Brownlee v. Haley, 306 F.3d
1043, 1066-67 (11th Cir. 2002). Thus, to the extent that Miller alleges that appellate
counsel was ineffective for failing to assert that trial counsel was ineffective in the
manner in which he cross-examined the state’s witnesses, the claim is procedurally
barred from review in this court.
132

162a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 133 of 189

(2)

Merits

Additionally, even if the claim were not procedurally barred, it would be due
to be denied on the merits. The record reflects that during the hearing on the motion
for new trial, Miller questioned trial counsel regarding his performance in crossexamining the state’s witnesses. (C.R. Vol. 9, Tab 30, at 40-46). However, Miller
only asked trial counsel about his decision not to cross-examine Dr. Della Manna, and
his decision not to question Dr. Pustilnik about Dr. Pustilnik’s testimony that Miller
shot Holdbrooks at close range. (Id.).
When asked about his decision to not cross-examine Dr. Della Manna, trial
counsel stated that he believed Dr. Della Manna’s testimony was frivolous, and that
the best approach to countering Dr. Della Manna’s testimony was to “mock” his
testimony before the jury in trial counsel’s closing statement. (Id. at 41). When
asked about his decision not to challenge Dr. Pustilnik’s testimony regarding the
distance from which Miller shot Holdbrooks, trial counsel stated that he believed the
important thing to the jury was that Miller shot Holdbrooks a second time while
Holdbrooks was struggling for his life, not the distance from which Miller fired the
final shot.31 (Id. at 43-45).

31

Appellate counsel could not remember Holdbrooks’ name during his questioning of trial
counsel, instead referring to him as “the gentleman that was crawling up the hall.” (C.R. Vol. 9, Tab
30, at 42).
133

163a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 134 of 189

Thus, to the extent that Miller questioned trial counsel about his performance
in connection with cross-examination, the record reflects that trial counsel made a
strategic decision to limit his cross-examination of the state’s witnesses.
Additionally, because the record is silent as to trial counsel’s strategy in not
questioning the remainder of the state’s witnesses, this court must assume that trial
counsel had sound reasons for limiting his cross-examination of them. See Chandler
v. United States, 218 F.3d 1305, 1314 n.15 (11th Cir. 2000) (“An ambiguous or silent
record is not sufficient to disprove the strong and continuing presumption [of
effective representation.]”).
Finally, the claim is due to be denied because Miller cannot show any resulting
prejudice. Considering the overwhelming evidence of Miller’s guilt, it is unlikely
that cross-examination of these witnesses could have overcome that evidence. See
Waters v. Thomas, 46 F.3d 1506, 1510 (11th Cir. 1995). Because this ineffective
assistance of trial counsel claim is without merit, appellate counsel cannot be
ineffective for failing to raise it.
d)

Miller’s claim that trial counsel was ineffective for failing to
object to portions of the state’s guilt phase closing argument

Miller alleges that his appellate counsel should have argued that trial counsel
was ineffective for failing to object to the prosecution’s statements in the guilt phase

134

164a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 135 of 189

closing argument, that Miller made eye contact with Yancy and Holdbrooks at the
time that he fatally shot each of them. (Doc. 1, at 90).
(1)

Procedural Default

Respondent again contends that this claim is procedurally barred because the
Rule 32 court found the claim to be abandoned. (Doc. 16, at 96-100). Respondent
is again correct. The Rule 32 court observed that Miller failed to present any
evidence regarding this claim at the Rule 32 hearings:
Miller failed to ask trial counsel a single question regarding why [trial
counsel] did not object to the prosecution’s closing argument. During
the evidentiary hearing, Miller did not identify any specific statement
made by the prosecutor in closing arguments to which Miller should
have objected. Miller did not ask what trial counsel’s strategy was
during the prosecution’s closing arguments. Nor did Miller offer any
evidence that would establish how he was prejudiced by his trial
counsel’s decision not to object.
(C.R. Vol. 43, Tab 75, at 2064-65). The Rule 32 court found that Miller had
abandoned the claim. (Id. at 2065). Therefore, habeas review of this claim is
barred.32
(2)

Merits

Alternatively, this claim would also be due to be dismissed on the merits
because, even assuming that the state’s guilt phase argument was improper, Miller

32

Additionally, the claim is procedurally defaulted because Miller did not raise the claim on
appeal from the denial of his Rule 32 petition.
135

165a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 136 of 189

fails to allege any prejudice stemming from trial counsel’s decision not to object.
Indeed, Miller cannot establish any resulting prejudice as the outcome of the guilt
phase would not have been different even if trial counsel had objected to the state’s
closing argument. Because Miller cannot show the requisite prejudice to establish his
underlying ineffective assistance of trial counsel claim, he cannot show prejudice
resulting from appellate counsel’s failure to present this claim.
e)

Miller’s claim that trial counsel was ineffective in his guilt
phase closing argument

Miller alleges that his appellate counsel should have argued that his trial
counsel was ineffective in his guilt phase closing argument. (Doc. 1, at 143).
Specifically, Miller contends that his trial counsel was ineffective for failing to argue
that Miller lacked the mens rea to commit capital murder, for essentially conceding
that Miller was responsible for the killings, and for distancing himself from Miller by
stating that he was not proud to represent Miller. (Id. at 91-92).
(1)

No Procedural Default

This claim was properly raised on collateral appeal and fully exhausted.
Therefore, this court will review the state court’s decision under AEDPA deference.
(2)

Merits

In denying this claim, the Rule 32 court held:

136

166a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 137 of 189

This Court denies Miller’s claim because he has failed to meet his
burden of proof of demonstrating that his trial counsel’s performance
was deficient under Strickland, 466 U.S. at 687. Ala. R. Crim. P.,
32.7(d). Johnson’s closing argument was reasonable based both on the
tactical decision to focus on the penalty phase of trial and his overall
strategy of not presenting frivolous arguments in order to win credibility
with the jury. (R. 1261-64) As noted above, Johnson continually
testified that he strategically chose to focus on the penalty phase of
Miller’s trial in order to save Miller’s life. (R2. 80, Rule 32 R. 219) In
an attempt to bolster his chances of success during the penalty phase,
Johnson made a tactical decision to emphasize to the jury that he would
not be presenting frivolous evidence or arguments during the guilt
phase. (Rule 32 R. 143, 219)
Similar to his comments during opening statements, Johnson
echoed to the jury during closing arguments that he was not going to
present a frivolous defense such as arguing a second gunman existed or
challenging the fact that the prosecution could not match the bullets
taken from the victims to Miller’s gun. (R. 1261–62) Johnson reminded
the jury of the State’s burden and implored the jury to listen to the
judge’s instructions on the law and render a verdict based on the facts
and consistent with their oath. (R. 1263) Miller has failed to present any
evidence which would establish that [Johnson’s] continual effort during
closing arguments to gain credibility with the jury in order to make an
effective penalty phase argument was unreasonable.
Johnson’s decision to not argue that Miller did not have intent to
commit capital murder during closing arguments was consistent with his
overall trial strategy of focusing on the penalty phase of the trial. (Rule
32 R. 219) Moreover, Johnson’s comments about his representation of
Miller were consistent with this strategy as well. Johnson told the jury
that he was proud of his representation of Miller, but in an effort to win
favor with the jury, also stated he was still not proud of what happened
during the shootings:
And I at least am proud at this point that I have participated
in this. It does not remove any degree the shame of what
137

167a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 138 of 189

happened. It does not make me proud that I’m representing
someone who the evidence is fairly convincing, I must
concede to you, did what he did.
(R. 1263-64) During the evidentiary hearing, Johnson explained that
this statement could not be viewed in isolation, but as part of a larger
goal of not alienating the jury during the guilt phase to attempt to win
favor with the jury. (Rule 32 R. 142-43)
When viewed in the context of Johnson’s entire trial strategy,
Johnson’s closing argument was reasonable attempt to gain credibility
with the jury during the guilt phase in order to attempt to get a favorable
result in the penalty phase – the focus of Johnson’s strategy. Based on
this approach, Miller has failed to demonstrate that trial counsel’s
decision was unreasonable or that his performance during closing
arguments was deficient under Strickland. Therefore, this claim is
denied.
This claim is also denied because Miller failed to meet his burden
of proof of demonstrating that he was prejudiced by his trial counsel’s
closing argument. See Strickland, 466 U.S. at 695; Ala. R. Crim. P;
32.7(d). Miller has presented no evidence concerning the impact of
Johnson’s statements on the jury, nor has Miller demonstrated a
reasonable probability that the outcome of the guilt phase of his trial
would have been different had Johnson not conducted his closing
argument in this manner. In general, statements of counsel “are usually
valued by the jury at their true worth and are not expected to become
factors in the formation of the verdict.” Minor, 914 So.2d at 417. Miller
offered nothing more in support of his claim of ineffectiveness than the
bare, conclusory allegation that Johnson’s closing argument was
improper and that it prejudiced the jury, without proving specific facts
that demonstrate prejudice. Accordingly, Miller has not met his burden
of demonstrating prejudice under Strickland and therefore, this claim is
denied.
(C.R. Vol. 43, Tab 75, at 2061-2064).

138

168a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 139 of 189

The Alabama Court of Criminal Appeals affirmed the Rule 32 court’s ruling,
holding that “[b]ecause [Miller] failed to establish that his ineffective-assistance-oftrial-counsel claim is meritorious, he has failed to prove by a preponderance of the
evidence that his appellate counsel was ineffective for failing to present this claim.”
Miller, 99 So. 3d at 421 (alterations in original)(internal citation omitted).
After reviewing the record, this court concludes that the state court’s
determination was reasonable. Trial counsel’s guilt phase closing argument was
consistent with trial counsel’s overall strategy of maintaining credibility with the jury
for the penalty phase of trial. This court has already stated that this approach to
trying the case was not unreasonable, and Miller fails to demonstrate that trial
counsel’s performance was a professionally unreasonable error under Strickland.
Moreover, as the Rule 32 court found, Miller failed to demonstrate that the
outcome of the proceeding would have been different but for trial counsel’s closing
statement. The evidence of Miller’s guilt is overwhelming, and he has offered
nothing to establish a reasonable probability that the outcome of the proceeding
would have been different but for trial counsel’s statement.
Because the underlying ineffective assistance of trial counsel claim is not
meritorious, appellate counsel could not have been ineffective for failing to raise the

139

169a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 140 of 189

claim. Therefore, the state court’s determination was reasonable, and Miller is not
entitled to habeas relief.
f)

Miller’s claim that trial counsel was ineffective for failing to
request jury instructions to protect Miller’s rights

Miller claims that appellate counsel should have argued that trial counsel was
ineffective for requesting certain jury instructions and failing to request others. (Doc.
1, 92-94, 144). First, Miller faults trial counsel for requesting that the court instruct
the jury that even if a defendant pleads guilty to capital murder, the state must prove
the defendant’s guilt beyond a reasonable doubt. (Id. at 93). Miller contends that this
instruction implied that Miller was not contesting his guilt of capital murder. (Id.).
Next, Miller argues that trial counsel was ineffective for asking the court not to
instruct the jury on the impermissibility of drawing an adverse inference from
Miller’s decision not to take the stand. (Id.). Miller argues that the court’s failure to
provide this instruction would also have misled the jury into believing that Miller was
not contesting his guilt. (Id.). Finally, Miller argues that trial counsel was ineffective
for failing to request a clarifying instruction on the heightened mens rea requirement
for the offense of capital murder, which Miller argues was necessary for the court to
distinguish between capital and non-capital intentional murder. (Id.).

140

170a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 141 of 189

(1)

Procedural Default

The Rule 32 court denied this claim, holding that Miller had abandoned this
claim because he failed to present any evidence relating to this claim during the Rule
32 hearings. (C.R. Vol. 43, Tab 75, at 2066-67). The Alabama Court of Criminal
Appeals also denied the claim because Miller failed to comply with state procedural
rules. Miller, 99 So. 3d at 425. Therefore, this court finds that this claim is barred
from habeas review. See Brownlee v. Haley, 306 F.3d 1043, 1066-67 (11th Cir.
2002).
(2)

Merits

Even assuming this claim is not procedurally defaulted, and reviewing the
claims de novo, Miller still has failed to demonstrate that he is entitled to habeas relief
because he has failed to produce evidence sufficient to meet either prong of
Strickland. As the Rule 32 court pointed out, Miller failed to present any evidence
at the Rule 32 hearing regarding trial counsel’s strategy in requesting or failing to
request specific jury instructions, and did not identify any specific instructions he
believes counsel should have requested. (C.R. Vol. 43, Tab 75, at 2066). A silent
record as to an attorney’s motives for taking a particular action is insufficient to
overcome the presumption that the attorney had good reasons for acting as he did.
See Massaro v. United States, 538 U.S. 500, 505 (2003) (“The appellate court may

141

171a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 142 of 189

have no way of knowing whether a seemingly unusual or misguided action by counsel
had a sound strategic motive or was taken because the counsel’s alternatives were
even worse.”). Thus, this court must assume that trial counsel pursued a reasonable
strategy in the absence of any evidence to the contrary.
Additionally, Miller fails to demonstrate a reasonable probability that the
outcome of the proceeding would have been different but for trial counsel’s strategy
in proposing jury instructions. The jury instructions clearly stated that Miller was not
pleading guilty to the charged offenses and that the jury was required to determine
Miller’s guilt beyond a reasonable doubt.

The court provided the following

instruction:
Now, to the charge of capital murder, the defendant has entered
a plea of not guilty. And, of course, that applies to the charge of capital
murder and any lesser included offenses.
The plea of not guilty casts the burden of proof on the State of
Alabama to convince you, the jury, beyond a reasonable doubt . . . that
the defendant is guilty as charged in the indictment.
The defendant does not have a burden of proof whatsoever. He
does not have to prove that he’s innocent. He comes in to court with the
presumption of innocence which surrounds him throughout the trial in
this case and attends him or goes with him into the jury room until the
jury and each and every member of the jury, after considering all the
evidence, are convinced beyond a reasonable doubt that the defendant
is guilty as charged in the indictment. And then at that time, and at that
time only, does eh shed that presumption of innocence, sometimes called
a cloak of innocence.

142

172a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 143 of 189

(C.R. Vol. 7, Tab 16, at 1287-88) (emphasis added).
The court also distinguished between the elements of capital murder and the
elements of the lesser offense of intentional murder:
Now, in order to find the defendant guilty of this lesser included
offense of intentional murder, you must find the defendant committed
an intentional murder of only one person or that, should you find an
intentional murder or two or more persons, that the state failed to prove
beyond a reasonable doubt that the murders of two or more persons were
not - - were pursuant to one scheme or course of conduct.
Now, if you find from the evidence the state has proved beyond
a reasonable doubt each of the above elements of the offense of murder
as charged, then you shall find the defendant guilty of murder, a lesser
included offense of capital murder.
If you find the state has failed to prove beyond a reasonable doubt
any one or more of the elements of the offense of intentional murder,
then you cannot find the defendant guilty of intentional murder.
Now, to the charge of capital murder, the defendant has entered
a plea of not guilty. And, of course, that applies to the charge of capital
murder and any lesser included offenses.
(Id. at 1286-87). Thus, the court’s guilt phase jury instructions sufficiently informed
the jury that Miller was not pleading guilty and provided the jury with the necessary
information to differentiate between capital and non-capital murder. Because the
court correctly instructed the jury, and the jury still found Miller guilty, this court
finds that Miller would not be entitled to habeas relief even if his claim were not
procedurally defaulted.

143

173a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 144 of 189

g)

Miller’s claim that trial counsel was ineffective for relying on
Dr. Scott as the sole mitigation witness during the penalty
phase of trial

Miller contends that appellate counsel should have argued that trial counsel
was ineffective for relying solely on Dr. Scott during the penalty phase. (Doc. 1, at
144). Miller first argues that Dr. Scott’s testimony was insufficient because he was
not hired as a mitigation expert and had not conducted a sufficient investigation to
present the full range of evidence that a mitigation expert would be expected to
present at trial.33 (Id. at 101). Next, Miller argues that trial counsel was deficient for
failing to call several members of Miller’s family, including “Mr. Miller’s mother,
Barbara Miller, half-sister, Cheryl Ellison, half-brother, Jeff Carr, Jeff’s wife, Sandra
Carr, Barbara’s brother, George Carr, aunt Hazel Miller, and cousin, Cindy Carr . .
. Mr. Miller’s brother, Richard Miller, niece, Alicia Sanford, nephew, Jacob Connell,
and cousin Brian Miller.” (Id. at 106). Miller contends that as a result of trial
counsel’s decision to present only Dr. Scott’s testimony during the penalty phase, the
jury never heard evidence of Miller’s character and upbringing, the extent of physical

33

Trial counsel did not employ Dr. Scott to put on a mitigation case. Instead, Dr. Scott was
hired for the purpose of establishing two mitigating factors under Alabama law – first, that Miller
was under the influence of an extreme mental or emotional disturbance at the time of the shootings,
and second, that Miller’s capacity to appreciate the criminality of his conduct or to conform his
conduct to the requirements of the law was substantially impaired. (R. Vol. 9, Tab 30, at 18).
144

174a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 145 of 189

abuse he suffered, his positive work history, his good character, and his positive
relationships with family members.
(1)

No Procedural Default

Respondent contends that this claim is not properly exhausted because Miller
never argued that trial counsel was ineffective for relying on Dr. Scott as the sole
mitigation witness. (Doc. 16). However, after reviewing the record, this court finds
that Miller did raise this claim in his Rule 32 petition, as well as on appeal to the
Alabama Court of Criminal Appeals. (Rule 32 C.R. Vol. 21, at 443-51; Rule 32 R.
Vol. 38, Tab 63, at 82-104). Thus, this court will review the state court’s rejection
of this claim under AEDPA deference.
(2)

Merits

In discussing this claim, the Rule 32 court addressed both the prejudice and
performance prongs of Strickland, and the Alabama Court of Criminal Appeals
affirmed the trial court’s reasoning as to both prongs. However, because lack of
prejudice is clear, this court will limit its analysis to the prejudice prong. The Rule
32 court found that Miller failed to establish prejudice because the evidence that
Miller alleges should have been presented through Miller’s family members or
through a mitigation expert would simply be cumulative of the evidence presented by
Dr. Scott and would have been insufficient to establish any other mitigating factor.

145

175a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 146 of 189

(C.R. Vol. 43, Tab 75, at 2085-95). The court concluded by stating that Miller failed
to show that the admission of additional mitigating evidence would have altered the
outcome of the proceeding in light of “the brutal nature of the crime, the
overwhelming and convincing evidence of guilt, and the strength of the aggravating
circumstance that [the murders were] heinous, atrocious, and cruel.” (Id. at 2096).
As discussed by this court in Part VI(B)(3)(e), Miller cannot show a reasonable
probability that the admission of additional mitigating evidence would have altered
the court’s decision to sentence Miller to death. Therefore, regardless of whether trial
counsel acted unreasonably in only calling Dr. Scott to testify during the penalty
phase, Miller cannot establish prejudice. See Crawford v. Head, 311 F.3d 1288, 1322
(11th Cir. 2002) (holding that even if trial counsel acted unreasonably, petitioner was
not entitled to habeas relief because no reasonable probability existed that additional
mitigating evidence would have led the jury to sentence the petitioner to life rather
than death). Accordingly, the state court reasonably determined that Miller’s trial
counsel was not ineffective, and, therefore, the state court reasonably determined that
Miller’s ineffective assistance of appellate counsel claim was also without merit.
h)

Miller’s claim that trial counsel was ineffective in failing to
move for a directed verdict during the penalty phase

Miller alleges that appellate counsel should have argued that trial counsel was
ineffective for failing to move for a directed verdict based on the state’s failure to
146

176a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 147 of 189

present comparative evidence necessary for the jury to determine that the killings
were “especially heinous, atrocious, or cruel compared to other capital crimes.” (Doc.
1, at 144). Miller argues that by its very terms, the “especially heinous, atrocious or
cruel” aggravating factor requires the jury to compare the heinousness of the crime
with the heinousness of “other capital offenses.” (Id. at 109). He explains that:
The jurors would have no way of performing such a comparison without
receiving and evaluating evidence concerning the heinousness, atrocity,
and cruelty of “other capital offenses.” This aggravating factor, by its
very terms, is not satisfied if the jurors simply conclude that the killings
under consideration were heinous, atrocious, or cruel in the abstract. The
factor requires a comparison, and such a comparison can be made only
if adequate evidence concerning the facts and circumstances of other
capital offenses is presented for the jury to consider. No such evidence
was presented by the State in Mr. Miller’s case.
(Id.). Miller argues that counsel should have made it clear to the judge that the state
had failed to present the necessary comparative evidence that the jury was require to
consider in order to determine if the sole aggravating factor had been proved.” (Id.
at 112).
(1)

Procedural Default

Respondent contends that this claim is procedurally defaulted from habeas
review based on Miller’s failure to comply with state rules. (Doc. 16, at 96-97). This
court agrees. When Miller raised this claim on appeal from the denial of his Rule 32
petition, he “suggest[ed] that because this particular claim was not addressed in the

147

177a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 148 of 189

circuit court’s order denying the Rule 32 petition, that the court’s ‘silence is a candid
admission that trial counsel’s failure to make this argument deprived Mr. Miller of
the effective assistance of counsel.’” Miller, 99 So. 3d at 421. The state, on the other
hand, argued that the claim was not properly before the appellate court because it was
not presented in Miller’s amended Rule 32 petition. Id. The Alabama Court of
Criminal Appeals agreed, holding that “this claim was not properly presented to the
circuit court and, thus, is not properly before this Court for appellate review.” Id.
The fact that the appellate court went on the address the merits of the claim in an
alternative holding has no effect on the court’s finding that the claim was
procedurally barred. See Bailey v. Nagle, 172 F.3d 1299, 1305 (11th Cir. 1999).
Thus, this claim is procedurally barred from review in this court.
(2)

Merits

Even assuming that this claim were not barred from review in this court, the
claim would be due to be denied on the merits. In addressing the claim in an
alternative holding, the Alabama Court of Criminal Appeals pointed out that in Ex
Parte Bankhead, 585 So. 2d 112, 125 (Ala. 1991), the Alabama Supreme Court had
previously rejected a defendant’s argument that the “especially heinous, atrocious or
cruel” aggravating factor required a comparative case. Miller, 99 So. 3d at 422-23.
In Bankhead, the Alabama Supreme Court stated that “[a]lthough a very narrow and

148

178a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 149 of 189

literal reading of the statute may suggest that such a comparison is required, it would
be virtually impossible for [trial courts] to implement.” Bankhead, 585 So. 2d at 125.
Instead, the Alabama Supreme Court instructed that the question under the
“especially heinous, atrocious or cruel” aggravating factor is whether the murder was
“conscienceless or pitiless” and “unnecessarily torturous to the victim,” and that the
statute did not require the state to present comparator cases to establish the
aggravating factor. Id. Relying on Bankhead, the Alabama Court of Criminal
Appeals concluded that trial counsel could not have been ineffective for failing to
move for a directed verdict on this ground because the state was not required to
present other capital cases for comparison under Alabama law.
In his reply brief, Miller argues that, although Bankhead recognized that
Alabama law did not require a comparative case to establish the aggravating factor,
subsequent cases have reached the opposite conclusion.

(Doc. 22, at 170).

Specifically, Miller points to Smith v. State, 756 So. 2d 892, 912-13 (Ala. Crim. App.
1998), aff’d, 756 So. 2d 957 (Ala. 2000).
The issue in Smith was whether the state improperly solicited testimony from
a police officer comparing the murder in that case with murders in other capital
crimes in terms of heinousness, atrociousness, and cruelty. Id. at 912. The Alabama
Court of Criminal Appeals determined that the police officer’s testimony was

149

179a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 150 of 189

properly admissible because “[i]n determining whether a capital crime is especially
heinous, atrocious, or cruel, the fact finder can compare the murder at issue with other
capital crimes.” Id. at 912 (emphasis added). However, contrary to Miller’s
contention, Smith does not stand for the proposition that Alabama law requires a
comparative case to establish the “especially heinous, atrocious, and cruel”
aggravating factor. Instead, Smith stands for exactly what it says it stands for – that
“the factfinder can compare the murder at issue with other capital crimes.” Id.
Indeed, subsequent to the Alabama Court of Criminal Appeals’ decision in Smith, the
Alabama Supreme Court affirmed its decision in Bankhead that the “especially
heinous, atrocious, and cruel” aggravating factor did not require that the state to
present comparative criteria for the jury to find the aggravating factor. See Ex parte
Key, 891 So. 2d 384, 389 (Ala. 2004).
Because Alabama law does not require the state to present a comparative case
to establish the “especially heinous, atrocious, and cruel” aggravating factor, Miller
was not entitled to a directed verdict based on the lack of a comparative case. See
Hallford v. Culliver, 379 F. Supp. 2d 1232, 1268-69 (M.D. Ala. 2004) (rejecting
argument that Alabama law requires a comparative case to determine whether a crime
was “especially heinous, atrocious, or cruel”). Trial counsel was not ineffective for
failing to argue that Miller was entitled to a directed verdict on this ground, and

150

180a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 151 of 189

appellate counsel could not be ineffective for failing to present this ineffective
assistance of trial counsel claim on appeal. Thus, the state court reasonably
determined this claim to be without merit.
Furthermore, even if the court were to review the merits of this claim de novo,
it would still be due to be denied because it is without merit for the reasons discussed
above.
i)

Miller’s claim that trial counsel was ineffective in connection
with his penalty phase closing argument

Miller next contends that appellate counsel should have argued that trial
counsel was ineffective in his penalty phase closing argument for failing to focus on
Miller’s good character and his diminished capacity at the time of the offense. (Doc.
1, at 144). Miller contends that trial counsel made numerous unreasonable statements
in his penalty phase closing argument. (Id. at 113-15).
First, Miller argues that trial counsel conceded the existence of the “especially
heinous, atrocious or cruel” aggravating factor when he stated:
[T]here is only one possible aggravating circumstance in this case and
that is that this is an extremely heinous, atrocious or cruel crime as
compared to other capital murders . . . . I can’t imagine any crime where
a life is taken that wouldn’t be cruel. I can’t imagine any crime where
victims don’t suffer and their families don’t suffer.
(Id. at 113). He contends that counsel made no attempt to explain why the judge or
jury should not find the existence of the sole aggravating factor. (Id.).
151

181a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 152 of 189

Next, Miller alleges that trial counsel was ineffective for failing to point out
that the state had failed to produce any evidence showing how Miller’s case compared
to other capital offenses. (Id.). He explains that in the absence of such evidence, and
coupled with trial counsel’s admission of the sole aggravating factor, the jury was
essentially “invited to find the existence of the aggravating factor and was provided
with no basis to do otherwise.” (Id.).
Additionally, Miller faults trial counsel for failing to make arguments that the
mitigating factors outweighed the only aggravating factor, making no argument based
on the limited evidence Dr. Scott had presented about Miller’s family and his mental
illness, and making no argument based on the fact that Miller spared the lives of two
eyewitnesses and made no attempt to evade capture or cover up his crimes. (Id. at
113-14).
Finally, Miller argues that the theme of trial counsel’s argument – that “no
matter what someone does, they don’t deserve to die” – was unreasonable given the
fact that ten out of the fourteen jurors and alternates had stated during voir dire that
they were not opposed to the death penalty. (Id. at 114).
(1)

Procedural Default

Respondent contends that this claim is procedurally barred because Miller
failed to comply with state procedural rules. (Doc. 16, at 96-97). The record supports

152

182a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 153 of 189

Respondent’s contention. The Rule 32 court held that Miller had abandoned this
claim because he failed to ask trial counsel a single question regarding why trial
counsel adopted this particular approach to his closing argument. (C.R. Vol. 43, Tab
75, at 2098-99). The court also pointed out that Miller failed to present any evidence
showing what a reasonable attorney would have argued during closing arguments or
how Miller suffered prejudice as a result of trial counsel’s actions. (Id. at 2099). The
Alabama Court of Criminal Appeals likewise found that this claim was procedurally
barred from review because Miller had abandoned the claim. Miller, 99 So. 3d at
425. Thus, this court finds that this claim is procedurally barred from habeas review.
See Brownlee v. Haley, 306 F.3d 1043, 1066–67 (11th Cir. 2002).
(2)

Merits

Even without the procedural bar, this claim would still be due to be dismissed
on the merits under de novo review. Miller’s argument is essentially that trial counsel
should have presented different arguments to the jury. However, because Miller
failed to question trial counsel about his strategy regarding his closing statement,
there is no evidence regarding why trial counsel adopted this particular approach to
his closing argument. This silent record cannot overcome the presumption that trial
counsel acted reasonably in choosing this approach to his closing argument. See
Kimmelman v. Morrison, 477 U.S. 365, 384 (1986) (“Counsel’s competence . . . is

153

183a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 154 of 189

presumed and the defendant must rebut this presumption by proving that his
attorney’s representation was unreasonable under prevailing professional norms and
that the challenged action was not sound strategy.”).
Additionally, a review of Miller’s closing statement demonstrates that it was
not so poor as to be objectively unreasonable. The following is the entirety of trial
counsel’s penalty phase closing argument:
May it please the court, ladies and gentlemen.
I know by now you have been sitting for a long time, a long
number of days and you don’t want anybody else to be long winded;
however, please grant me whatever time it takes, and I will be just as
brief as I can, to say what I’ve got to say and what I’m feeling about this
at this point.
We are at that stage where it is - - something of a balancing act
here and - - but there is a very mechanical part of this and it almost
seems to me to be obscene to talk about the mechanics of doing this, but
here are the mechanics and the judge will tell you what they are after we
get through here, but here are the mechanics.
You first have got to make a decision as a group and it has to be
a unanimous decision, the same way your verdict was unanimous, but
there is an aggravating circumstance in this case. The judge will tell you
if you cannot first unanimously agree that there is an aggravating
circumstance in this case, then you must simply say life, we recommend
life without parole.
If you unanimously agree that there is an aggravating
circumstance, then at that point the team effort is over, everything
you’ve done up until this point has been something of a team effort, you
had to have a unanimous verdict of guilt, you have to have a unanimous
verdict on the aggravating circumstance, but at that point you are one on
154

184a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 155 of 189

one with Alan Miller because at that point you are deciding what you in
your conscience to do with him.
And if it was humanly possible to make eye contact with twelve
people at once, that’s what I would be doing at this point because I want
to talk to you now about that decision if you get that far.
Remember to get that far you’ve got to unanimously decide that
there is an aggravating circumstance and there is only one possible
aggravating circumstance in this case and that is that this is an extremely
heinous, atrocious or cruel crime as compared to other capital murders.
There again, it seems obscene to me to talk about the atrocity of
crimes of the heinousness of the crime.
I can’t imagine any crime where a life is taken that wouldn’t be
cruel. I can’t imagine any crime where victims don’t suffer and their
families don’t suffer. But what you’re dealing with here now is not
whether a crime in and of itself is atrocious, heinous and cruel, it’s
whether this particular crime is extremely heinous, atrocious or cruel as
compared to other capital murders.
So already you’ve got a relative term there. If you find
unanimously that yes, this one is, then you consider mitigating
circumstances. Some of them are set out in the law. I have read to Dr.
Scott two of them. There is a third one, the judge will charge you that
there are three mitigating circumstances that have been presented to you
for your consideration. One of them has been - - at least one has been
agreed upon and that is that Alan Miller has no prior criminal history.
The law considers that a mitigating circumstance.
Another one has to do - - I will have to read them because I just
can’t recall them. Second one if it was committed while the defendant
was under the influence of extreme mental or emotional disturbance;
that is a mitigating circumstance.
The rational [sic] I don’t need to sit here and tell you. Greatest
injustice of all is the equal treatment of unequals. If you think that you
155

185a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 156 of 189

are dealing with an unequal here, don’t treat them equally, the same way
you would to me.
The third one of the statutory mitigating circumstances is whether
capacity of the defendant to appreciate the criminality of his conduct or
to conform his conduct to requirements of law which was substantially
impaired.
For reasons that Dr. Scott stated to you and he can present those
to you much more eloquently than I can and did. Those are three that at
this point I suggest to you are unrebutted.
Now, it’s not a mathematical test anyway. The fact that we have
three to possibly their one doesn’t mean that this - - that you can’t
impose the death penalty. But actually Mr. Ladner - - what I suggest to
you is the most mitigating of all circumstance is that we’re on the same
page on one thing, what Mr. Ladner said was the reason that you impose
this death penalty is to prevent Mr. Miller and others like him from
doing these kinds of things.
Now, think about that a minute. Is that going to prevent what Mr.
Miller did? Is it going to prevent anyone else from doing it? It has
nothing to do with prevention. But perhaps we can do something here
that might and wouldn’t that be the most mitigating circumstance of all
because the only way it seems to me that you can prevent an offense
from being committed is to impose the penalty before the crime and
surely we haven’t become that blood thirsty.
But there perhaps may be a way to use this to prevent something
and that would be somewhere we have to start, we have to work into our
national character, this notion that it really doesn’t matter what you do,
you deserve to live. That is not a sympathetic approach. That, I suggest
to you, is the only approach that keeps anyone from going out and doing
what we see and hear and read about in the papers day after day and we
keep pulling our hair out and we keep sitting around and saying, how in
the world, what is wrong. Because in all my young life, I grew up like
all of you did, I’m sure, around all types of people, some of them pretty
doggone mean, I wouldn’t fool with them.
156

186a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 157 of 189

But not one person in my young life do I ever remember
suggesting that they wanted to kill their parents, that they wanted to
blow up a school, that they wanted to just go in and mow down people
because they might belong into a particular group.
And that mentality, however, has become pervasive in our society.
And when I struggle, like I’m sure you must, with how do we stop this
stuff, I can only come to one answer and that is we have to set as our
number one priority when we define values for ourselves and our
children that no matter what someone does, they don’t deserve to die
because any other - - by any other definition, we get down to quantifying
this stuff which seems to me just not to make good sense.
Because if we believe, if we continue to believe that we can refine
our system here and we can sit here and use terms like I’ve used, I can’t
even remember the terms that I’ve already said here, and say, okay, this
is death, this is life, this is death, this is life, depends on whether these
words mean what they mean or this particular situation fits into these
words. As long as we’re willing to do that, and as long as we can
confine that analysis to the sophistication of a courtroom, then we’re
going to continue to see what we see every day. And we’re going to
struggle with children when we try to explain or understand how in the
world could you kill a classmate, well, they deserved to die.
Just like I said to you before, the only way to have prevented this
crime - - and I know everyone of you right now just like - - all of your
hearts have got to hurt, wishing that you could have prevented this
crime. Just like I wish I could have prevented this crime.
But I suggest to you that the only way this crime could have been
prevented was on the morning of August the 5th, I believe that if Alan
Miller, if I had known what was going to go on, and I’m sure everybody
in here would do the same thing, if you had known that this was about
to happen, you would have done what you could to prevent it.
So ask yourself this, if you had seen Alan Miller that morning and
had a clue that this was going to go on and you could have told him one
157

187a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 158 of 189

of two things, you could have said, Alan, if you go in there and do this,
you may lose your own life or you could have said, Alan, no matter what
anyone has done to you, they don’t deserve to die for it.
Now, which one of those two ideas would have prevented this
from happening. I will reiterate what I said earlier and that is that you’re
on a stage, there’s a crowd out here and the crowd is screaming for you
to kill him, but you have got to think long and hard, please, about what
I have said.
Now, you may have noticed that every time I have spoken here
the state has come up right behind me, they will do it again. That’s
because that’s the mechanics of a trial. And then I will sit there and I
will bite my tongue while they talk to you and bite my lip and I won’t
get a chance to stand back up, it won’t be because that I agree with what
they’re saying, it won’t be because I do not believe I have a better
answer for anything they might say, it will be because there has to be a
stopping point and that is it.
Please, all I ask of you is to consider those things that you have
heard in this courtroom in this phase of the hearing, consider those
things that I have suggested to you might not just mitigate this offense
but that might mitigate any future victims. Let’s think about those
people, okay.
Thank you very much.
(C.R. Vol 8, Tab 24, at 1409-17).
Trial counsel’s theme in his penalty phase closing argument echoed that of his
penalty phase opening statement – that no one deserves to die regardless of what he
has done or what the jurors might think about him. Although Miller contends that
this approach was unreasonable given that ten of the fourteen jurors and alternates
had stated they favored the death penalty, this court finds that such an approach falls
158

188a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 159 of 189

within the broad range of reasonable professional conduct. Additionally, given the
strength of the state’s case showing the brutal nature of Miller’s crimes, the court
finds that a different closing argument would not have resulted in a lesser sentence
or that the closing argument in any way undermined the reliability of the outcome of
the penalty phase. See Windom v. Sec’y, Dep’t of Corrs, 578 F.3d 1227, 1251-52
(11th Cir. 2009). Therefore, the ineffective assistance of trial counsel claim would
be due to be denied on the merits even if it were not procedurally barred.
j)

Miller’s claim that trial counsel was ineffective for failing to
object to the court’s penalty phase jury instructions

Miller alleges that appellate counsel should have argued that trial counsel was
ineffective for failing to object to the court’s instruction that the jury was making a
“recommendation.” (Doc. 1, at 144). Miller alleges that the trial court diminished the
jury’s sense of sentencing responsibility by repeatedly emphasizing that the jury
would be making only a recommendation to the court regarding the death sentence
and failing to advise the jurors that any aspect of their decision was binding on the
court. (Id. at 115-17). According to Miller, the
jurors were never advised that any aspect of their decision was binding
on the trial court, let alone that they were responsible for making a final
decision on the existence of an aggravating factor, without which Mr.
Miller could not be sentenced to death. The jurors simply had no way to
know of their determinative role. To the contrary, they were led to
believe just the opposite. By so diminishing the jury’s sense of
sentencing responsibility, the instructions and other judicial comments
159

189a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 160 of 189

in Mr. Miller’s case violated Miller’s Eighth Amendment rights under
Caldwell v. Mississippi, 472 U.S. 320, 328-29 (1985).
(Id. at 117-18).
(1)

Procedural Default

This claim is procedurally defaulted. Miller raised this claim in his Rule 32
petition, and that court found the claim to be “completely without merit.” (C.R. Vol.
43, Tab 75, at 2101). However, Miller did not raise the claim on appeal from the
denial of his Rule 32 petition. (See Rule 32 R. Vol. 38, Tab 63). Thus, this claim is
barred from habeas review. See Woodford v. Ngo, 548 U.S. 81, 92 (2006) (“A state
prisoner is generally barred from obtaining federal habeas relief unless the prisoner
has properly presented his or her claim through one ‘complete round of the State’s
established appellate review process.’”) (quoting O’Sullivan v. Boerckel, 526 U.S.
838, 845 (1999)).
(2)

Merits

Alternatively, this claim is due to be dismissed because the Rule 32 court, the
last state court to review the claim, denied the claim on the merits. In denying the
claim, the Rule 32 court stated:
This Court denies Miller’s claim because he has failed to meet his
burden of proof that his trial counsel were deficient for not objecting to
the trial court’s instructions and has failed to demonstrate how he was
prejudiced. Miller’s contention is completely without merit. Under
Alabama law, the jury’s sentencing determination in capital cases is
160

190a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 161 of 189

advisory only. Ala. Code § 13A-5-47(a). During the penalty phase
instructions, the trial court properly referred to the jury’s determination
as a recommendation. (R. 1427, 1428, 1441) Alabama courts have
routinely rejected claims that such an instruction is improper. See
Harris v. State, CR-04-2363, 2007 WL 4463947 at *20 (Ala. Crim. App.
December 21, 2007)(“Alabama courts have repeatedly held that a
prosecutor’s comments and a trial court’s instructions accurately
informing a jury that its sentencing verdict is advisory or is a
recommendation do not violate Caldwell v. Mississippi, 472 U.S. 320
(1985)”); Brown v. State, CR-04-0293, 2007 WL 1865383, at *46 (Ala.
Crim. App. June 29, 2007) (same).
Miller has presented no evidence that the jury in his case was “led
to believe that the responsibility for determining the appropriateness of
the defendant’s death rests elsewhere.” Caldwell, 472 U.S. at 328. To
the contrary, the trial court instructed the jury that “[i]t is your sole
responsibility to determine what the facts are and recommend the
punishment in this case.” (R. 1439) Therefore, trial counsel could not
be ineffective for failing to make an objection to the trial court’s
references to the sentencing recommendation of the jury because the
trial court’s instructions were proper and did not violate Caldwell. See
McNabb v. State, 991 So. 2d 313, 327 (Ala. Crim. App. 2007)
(“[C]ounsel could not be ineffective for failing to raise a baseless
objection.”) Accordingly, Miller has failed to meet his burden of proof
and his claim is denied.
(C.R. Vol. 43, Tab 75, at 2101-03).
In Caldwell v. Mississippi, 472 U.S. 320 (1985), the prosecutor “urged the jury
not to view itself as determining whether the defendant would die, because a death
sentence would be reviewed for correctness by the State Supreme Court.” 472 U.S.
at 323. The Court held that the comment sought to minimize the jury’s sense of
responsibility for determining the appropriateness of a death sentence, thereby

161

191a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 162 of 189

violating the Eighth Amendment. Id. at 341. The Court found that the prosecutor’s
argument was “inaccurate, both because it was misleading as to the nature of the
appellate court’s review and because it depicted the jury’s role in a way
fundamentally at odds with the role that a capital sentencer must perform,” and
because it was “not linked to any arguably valid sentencing consideration.” Id. at 336.
Miller claims that throughout the trial, the court “repeatedly informed the jurors
that their sentencing verdict was merely a ‘recommendation’ to the Court, which
would make the final determination whether Mr. Miller would live or die,” but never
advised the jury that “any aspect of their decision was binding on the trial court, let
alone that they were responsible for making a final decision on the existence of an
aggravating factor, without which Mr. Miller could not be sentenced to death.” (Doc.
1, at 115, 117-18). However, Miller has not cited a single instance in the trial
transcript where the judge instructed the jury that it was the court, and not the jury,
who would make the final determination as to Miller’s fate. Rather, a review of the
court’s instructions in both phases of the trial reveals that while the court made
several references to the fact that the jury would “recommend” the punishment in the
case, he never specifically stated that the penalty phase verdict would be merely
advisory, or gave the jury the impression that their verdict not final, would be
reviewed, or that the moral obligation of determining the sentence rested elsewhere.

162

192a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 163 of 189

(See C.R. Vol 7, Tab 16 and Vol. 8, Tab 26). Nonetheless, Alabama law provides that
a jury’s role in the penalty phase is “advisory.” Ala. Code § 13A-5-46 (1975). Thus,
any “instruction” to the jury that their verdict was advisory, or a recommendation,
was entirely consistent with Alabama Law. As the Eleventh Circuit Court of Appeals
stated in Duren v. Hopper, 161 F.3d 655 (11th Cir. 1998):
In outlining the jury’s proper sphere, the court did not mislead the
jury, diminish its importance, or absolve it of responsibility for its
decision. See Harich v. Dugger, 844 F.2d 1464, 1473 (11th
Cir.1988)(holding that informing jury of its “advisory” function does not
violate Caldwell). FN.
FN. This court in Harich held that “a Caldwell violation
should include some affirmative misstatement or
misconduct that misleads the jury as to its role in the
sentencing process.” Harich v. Dugger, 844 F.2d 1464,
1473 (11th Cir.1988). There was no such affirmative
misinformation in this case.
Rather, unlike the prosecutor’s comments in Caldwell, the instruction
given by the trial court in this court was accurate and in accordance with
Alabama law. Thus, Duren cannot satisfy the prejudice prong of
Strickland, and his ineffective assistance of counsel claim must fail.
Duren, 161 F.3d at 664.
Because the court’s instructions were proper, trial counsel could not have been
ineffective for failing to raise an objection. See Bearden v. State, 825 So. 2d 868, 872
(Ala. Crim. App. 2001) (“[C]ounsel could not be ineffective for failing to raise a
baseless objection.”); Chandler v. Moore, 240 F.3d 907, 917 (11th Cir. 2001)

163

193a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 164 of 189

(counsel is not ineffective for failing to raise a non-meritorious objection). It follows
that Miller cannot demonstrate that appellate counsel was ineffective based on his
failure to raise this claim. Accordingly, Miller fails to show that the state court’s
rejection of this claim was unreasonable, and he would not entitled to habeas relief
on this ground, even if the claim were not procedurally barred.
k)

Miller’s claim that trial counsel was ineffective in failing to
request a special verdict form

Miller next alleges that appellate counsel were ineffective for failing to argue
that trial counsel was ineffective regarding the verdict form the trial court provided
to the jurors. (Doc. 1, at 118-20, 144). At the close of the penalty phase, the court
provided the jurors a general verdict form that asked only the number of votes for life
imprisonment and the number of votes for the death penalty. (Id. at 118-19).
Miller alleges that trial counsel should have requested a special verdict form
that would have required the jurors to first explicitly indicate whether they had
unanimously found the existence of the aggravating circumstance – a prerequisite
finding necessary for Miller to be eligible for the death sentence – before determining
whether to recommend life or death. (Id. at 119). Miller highlights the fact that only
ten out of the twelve jurors voted for death, and argues that because of trial counsel’s
failure to request a special verdict form, the record is unclear whether all twelve
jurors found the existence of an aggravating factor. (Id.).
164

194a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 165 of 189

(1)

Procedural Default

Respondent correctly asserts that this claim is procedurally barred from review
because Miller failed to raise the claim in compliance with state procedural rules.
(Doc. 16, at 96). The Rule 32 court determined that Miller had abandoned this claim
by failing to ask trial counsel any questions regarding his decision not to request a
special verdict form and failing to ask any questions that would establish how he was
prejudiced by his trial counsel’s decision. (C.R. Vol. 43, Tab 75, at 2100-01). The
Alabama Court of Appeals also found that this claim was procedurally barred from
review because Miller abandoned the claim. Miller, 99 So. 3d at 425. Thus, the
claim is barred from habeas review. See Brownlee v. Haley, 306 F.3d 1043, 1066-67
(11th Cir. 2002).
(2)

Merits

Absent a procedural bar, this claim would still be due to be dismissed because
the ineffective assistance of trial counsel claim lacks merit. The trial court adequately
instructed the jurors that they must first unanimously find the existence of an
aggravating factor before determining whether to recommend the death penalty. The
court instructed the jury:
Now, as I stated to you before, the burden of proof is on the State
of Alabama to convince each of you beyond a reasonable doubt as to the
existence of any aggravating circumstance considered by you in
determining what punishment is to be recommended in this case. This
165

195a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 166 of 189

means that before you can even consider recommending the defendant’s
punishment to be death, each and every one of you must be convinced
beyond a reasonable doubt based on the evidence that an aggravating
circumstance exists.
....
In order to consider an aggravating circumstance, it is necessary
that the jury unanimously agree upon its existence. All twelve of you
must be convinced beyond a reasonable doubt that an aggravating
circumstance exists in order for any of you to consider that aggravating
circumstance in determining what the sentence should be.
However, it’s not necessary for there to be a unanimous
agreement upon the existence of a mitigating circumstance before you
can consider it in setting punishment.
....
There must be a unanimous agreement on the existence of a
particular aggravating circumstance before it can be considered by any
juror. There need not be a unanimous agreement on the existence of any
particular mitigating circumstance before it can be considered.
(R. Vol. 8, Tab 26, at 1433, 1438)(emphasis added).
Thus, the court adequately informed the jurors that they must first unanimously
find the existence of an aggravating circumstance before recommending death.
Additionally, the state’s penalty phase opening statement as well as Miller’s penalty
phase closing argument reminded the jurors that the existence of an aggravating
factor was a prerequisite to recommending a death sentence. (R. Vol. 8, Tab 19, at
1314-15; R. Vol. 8, Tab 24, at 1409-10). In the state’s opening statement, the

166

196a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 167 of 189

prosecutor stated that the state bore the burden of establishing beyond a reasonable
doubt the existence of the aggravating circumstance and that the jurors must first find
the “existence of an aggravating factor to even consider the imposition or the
recommendation of the death penalty in this case.” (R. Vol. 8, Tab 19, at 1315).
Miller’s trial counsel reiterated this rule in his closing argument when he stated,
“[t]he judge will tell you if you cannot first unanimously agree that there is an
aggravating circumstance in this case, then you must simply say life, we recommend
life without parole.” (R. Vol. 8, Tab 24, at 1410).
In the face of the instructions of the court, as well as the repeated reminders of
both the prosecution and defense, Miller has offered nothing to raise even a doubt
that the jurors understood the determinations they had to make during the penalty
phase deliberations. See Evans v. Sec’y, Fla. Dep’t of Corr., 699 F.3d 1249, 1260
(11th Cir. 2012) (“The jury’s verdict necessarily contained [findings than an
aggravating circumstance existed] because the jury was instructed that it could not
recommend a death sentence unless it found beyond a reasonable doubt that one or
more aggravating circumstances existed.”). The jury’s recommendation of death,
although not unanimous, proves that the jury must have unanimously found the
existence of the aggravating circumstance. Thus, regardless of whether a special
verdict form had been provided to the jury, the outcome of the proceeding would have

167

197a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 168 of 189

been the same. Because Miller suffered no prejudice under Strickland, the ineffective
assistance of trial counsel claim is without merit and appellate counsel cannot be
ineffective for failing to raise it. Therefore, the court concludes that this claim is due
to be dismissed.
l)

Miller’s claim that trial counsel was ineffective at the sentencing
hearing

Miller alleges that appellate counsel was ineffective for failing to argue that
trial counsel was ineffective for failing to present mitigating evidence at the
sentencing hearing. (Doc. 1, at 120-23, 145; Doc. 22, 172-78). He alleges that trial
counsel could have presented a wealth of readily available mitigating evidence,
including records and witnesses demonstrating Miller’s abusive and traumatic
childhood, mental health issues affecting Miller and members of his family, his hardworking and caring nature, and his excellent employment record. (Doc. 1, at 120).
He adds that trial counsel offered no evidence, called no witnesses, and failed to
arrange for anyone to appear on Miller’s behalf. (Id.). He contends that had counsel
called available witnesses to testify at the sentencing hearing, their testimony would
have provided the court with critical mitigating evidence not otherwise available to
the judge, providing a substantial basis for sentencing Miller to life imprisonment
rather than death. (Id.).

168

198a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 169 of 189

Miller asserts that he was severely prejudiced by counsel’s deficient
performance. (Id. at 121). Specifically, he points out that the pre-sentencing
investigative report prepared by the Alabama Board of Pardons and Paroles “woefully
understated the horrible abuse Mr. Miller had suffered at the hands of his father.”
(Id.). Miller also points out that trial counsel failed to introduce either Dr. Scott’s or
Dr. McDermott’s reports that contained detailed summaries of Miller’s family history
and background. (Id.). Miller argues that the prejudice he suffered as a result of trial
counsel’s failure to present additional mitigating evidence is apparent from Judge
Crowson’s statement at sentencing that his decision was “probably the most difficult
sentence that I’ve ever had to consider” and that “I’ve been wrestling with it for a
long time.” (Id. at 121-22).
(1)

No Procedural Default

Miller properly raised this claim on collateral appeal, and the Alabama Court
of Criminal Appeals addressed the claim on the merits. Miller, 99 So. 3d at 423-24.
Therefore, the court reviews the determinations of the state court under AEDPA
deference.
(2)

Merits

The Rule 32 court denied this claim, making the following determinations:
This Court denies Miller’s claim because he has failed to meet his
burden of proof of demonstrating that his trial counsels’ performance
169

199a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 170 of 189

was deficient under Strickland, 466 U.S. at 687. Ala. R. Crim. P.,
32.7(d). Alabama courts have held that “counsel does not necessarily
render ineffective assistance simply because he does not present all
possible mitigating evidence.” McGahee v. State, 885 So.2d 191, 221
(Ala. Crim. App. 2003). However, as noted above, trial counsel
presented a competent mitigating case concerning Miller’s mental health
and background during the penalty phase of the trial. The trial court
presided over Miller’s trial and heard all of the mitigating evidence
presented. Simply the fact that Miller’s trial counsel could have
presented more mitigation evidence during the sentencing hearing does
not establish deficient performance under Strickland. See McGahee,
885 So.2d at 221 (“Trial counsel could have called more witnesses at the
penalty-phase hearing before the trial judge, with the hope that the
additional information would have convinced the trial judge to agree
with the jury’s recommendation and to sentence McGahee to life
imprisonment without parole. The same can be said after any sentencing
hearing in a capital case in which a death sentence is imposed after the
jury recommended a sentence of life imprisonment without parole.”)
(emphasis in original).
Miller failed to ask trial counsel any questions regarding the
reasons why he did not call any witnesses or present evidence during the
sentencing hearing. (Rule 32 R. 200–01) Therefore, trial counsel’s
performance must be presumed to be reasonable. . . .
This claim is also denied because Miller has failed to meet his
burden of proof of demonstrating that he was prejudiced. See Strickland,
466 U.S. at 695; Ala. R. Crim. P., 32.7(d). Miller failed to establish
what additional evidence could have been submitted during the
sentencing hearing. Miller asked trial counsel whether he submitted Dr.
Scott or Dr. McDermott’s report during the sentencing hearing before
the trial court; however, the substance of both reports had been already
presented during the penalty phase. Furthermore, the trial court found
three statutory mitigating circumstances to exist. Miller, 913 So.2d at
1169. Miller has failed to demonstrate what additional mitigating
circumstances could have been proven during the sentencing hearing.
Accordingly, Miller has failed to establish proof that he was prejudiced,
and this claim is denied.
170

200a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 171 of 189

(C.R. Vol. 43, Tab 75, at 2103-05).
The Alabama Court of Criminal Appeals found that the Rule 32 court’s
findings of fact and conclusions of law were supported by the evidence; it concluded
that “[b]ecause [Miller] failed to establish that his ineffective-assistance-of-trialcounsel claim is meritorious, he has failed to prove by a preponderance of the
evidence that his appellate counsel was ineffective for failing to present this claim.”
Miller, 99 So. 3d at 424 (quoting Payne v. State, 791 So. 2d at 401-02)).
Although the state court addressed both the performance and prejudice prong
of Strickland, this court will limit its analysis to determining whether Miller suffered
any prejudice as a result of trial counsel’s performance. See Jones v. GDCP Warden,
815 F.3d 689, 715-16 (2016)(quoting Waters v. Thomas, 46 F.3d 1506, 1510 (11th
Cir. 1995) (“Notably, a court ‘may decline to reach the performance prong of the
ineffective assistance test if convinced that the prejudice prong cannot be satisfied.’”)
To establish prejudice under Strickland, Miller bears the burden of
demonstrating a “reasonable probability” that he would not have received a death
sentence if trial counsel had presented the mitigating evidence that was presented
during the Rule 32 hearings. This burden becomes even greater in the context of the
AEDPA, where Miller must demonstrate that no reasonable jurist could determine
that there was not a reasonable probability that the outcome of the proceeding would

171

201a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 172 of 189

have been different but for trial counsel’s performance. See Brooks v. Comm’r, Ala.
Dep’t of Corrs, 719 F.3d 1292, 1300 (11th Cir. 2013). Although the prejudice
question in this case may be close given the trial court’s statements about its struggle
in deciding to sentence Miller to death,34 this court is persuaded that a reasonable
jurist could conclude that Miller did not suffer any prejudice.
As this court discussed previously, the additional evidence Miller presented
during the Rule 32 hearings was largely cumulative of the evidence trial counsel
presented through the testimony of Dr. Scott in the penalty phase. Although the presentencing report did not accurately portray the abuse that Miller suffered at the
hands of his father, the trial judge heard Dr. Scott’s penalty phase testimony during
which he testified about the physical and emotional abuse that Miller suffered.
Although the court might not have heard of all of the specific examples of abuse that
Miller suffered, the court was aware that his father frequently hit Miller and had even
threatened him with a knife. (See R. Vol. 8, Tab 22, at 1350-51). The court was also
aware that Miller had observed his father using intravenous drugs and that Miller was
raised in poverty. (See Id. at 1350; see also Rule 32 C.R. Vol. 31, at 415-16).

34

The undersigned judge notes from personal experience that imposing a harsh sentence
frequently results from a “struggle.” Imposing the ultimate sentence of death should never be an
easy decision.
172

202a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 173 of 189

Given the largely cumulative nature of the mitigating evidence Miller presented
at the Rule 32 hearings, this court concludes a reasonable jurist could determine that
the “new” mitigating evidence – evidence of Miller’s loving relationships with his
family members, his strong work history, and his family’s history of mental illness
– would have been insufficient to sway the sentencing judge to recommend a different
sentence. Thus, a reasonable jurist could conclude that Miller’s trial counsel was not
ineffective, and, likewise, that appellate counsel was not ineffective for failing to
raise this claim.
Accordingly, Miller fails to show that the state court’s rejection of this claim
was unreasonable, and Miller is not entitled to habeas relief on this ground.
m)

Miller’s claim that trial counsel was ineffective in failing to
bring the Supreme Court’s decision in Apprendi v. New Jersey
to the trial court’s attention

Miller alleges that appellate counsel should have argued that trial counsel was
ineffective for failing to notify the trial court of the Supreme Court’s decision in
Apprendi v. New Jersey, 530 U.S. 466 (2000). (Doc. 1, at 145). In Apprendi, the
Supreme Court held that “any fact that increases the penalty for a crime beyond the
prescribed statutory maximum must be submitted to a jury and proved beyond a
reasonable doubt.” Apprendi, 530 U.S. at 492. Miller argues that if trial counsel had
presented this argument at the sentencing hearing, he would have been able to obtain

173

203a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 174 of 189

a new penalty phase trial before a jury that had been informed that their determination
regarding the aggravating factor was not merely a “recommendation.” (Doc. 1, at
122).
(1)

Procedural Default

Respondent correctly contends that this claim is procedurally defaulted because
Miller failed to comply with state procedural rules. (Doc. 16, at 96). In addressing
this claim, the Alabama Court of Criminal Appeals held that the claim was not
properly before that court, because the “assertion was neither presented in Miller’s
amended Rule 32 petition, nor was it addressed in the evidentiary hearing.” Miller,
99 So. 3d at 425 (citing Arrington v. State, 716 So .2d 237, 239 (Ala. Crim. App.
1997) (“An appellant cannot raise an issue on appeal from the denial of a Rule 32
which was not raised in the Rule 32 petition.”). Because the Alabama Court of
Criminal Appeals stated clearly that this claim is barred based upon Miller’s failure
to follow state procedural rules, the procedural default doctrine precludes federal
review of this claim. See Coleman v. Thompson, 501 U.S. 722, 731 (1991) (“When
a petitioner fails to raise his federal claims in compliance with relevant state
procedural rules, the state court’s refusal to adjudicate the claim ordinarily qualifies
as an independent and adequate ground for denying federal review.”); Cone v. Bell,
556 U.S. 449, 465 (2009).

174

204a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 175 of 189

(2)

Merits

Even without the procedural default, this claim lacks merit. If trial counsel had
brought Apprendi to the attention of the court, Miller still would not have been
entitled to a new penalty phase because the court and the attorneys notified the jurors
that they must find the existence of the aggravating factor – that the crime was
especially heinous, atrocious, or cruel – beyond a reasonable doubt before they could
even consider whether to recommend the death penalty.
The court instructed the jurors:
Now, as I stated to you before, the burden of proof is on the State
of Alabama to convince each of you beyond a reasonable doubt as to the
existence of any aggravating circumstance considered by you in
determining what punishment is to be recommended in this case. This
means that before you can even consider recommending the defendant’s
punishment be death, each and every one of you must be convinced
beyond a reasonable doubt based upon the evidence that an aggravating
circumstance exists.
(R. Vol. 8, Tab 27, at 1433).
Based on this instruction, the court submitted to the jurors the question of
whether the state proved the existence of the aggravating circumstance beyond a
reasonable doubt. This instruction reflects what Apprendi requires. See Apprendi,
530 U.S. at 490 (“[A]ny fact that increases the penalty for a crime beyond the
prescribed statutory maximum must be submitted to a jury, and proved beyond a
reasonable doubt.”). The fact that ten out of the twelve jurors recommended
175

205a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 176 of 189

sentencing Miller to death demonstrates that all of the jurors must have determined
that the aggravating circumstance existed beyond a reasonable doubt. See Brown v.
Jones, 255 F.3d 1273, 1280 (11th Cir. 2001) (“[J]urors are presumed to follow the
court’s instructions.”); Raulerson v. Wainwright, 753 F.2d 869, 876 (11th Cir. 1985
(“Jurors are presumed to follow the law as they are instructed.”); Ingram v. Zant, 26
F.3d 1047, 1053 (11th Cir. 1994). Therefore, because Miller was not entitled to a
new trial under Apprendi, trial counsel was not ineffective for failing to bring the case
to the attention of the court. Likewise, appellate counsel could not be ineffective for
failing to present this ineffective assistance of trial counsel claim. This court finds
this claim would be due to be denied on the merits even if it were not procedurally
defaulted.
5.

Claim B(vi): Miller’s Claim that Appellate Counsel was Ineffective
in the Appeal to the Alabama Court of Criminal Appeals

In this claim, Miller sets forth numerous arguments as to appellate counsel’s
ineffectiveness regarding the brief submitted to the Alabama Court of Criminal
Appeals by appellate counsel. (Doc. 1, at 145-49). Specifically, Miller alleges that
appellate counsel’s brief presented truncated and cursory challenges to trial counsel’s
guilt phase opening statement, trial counsel’s failure to present an insanity defense,
trial counsel’s failure to investigate and present mitigating evidence, and trial
counsel’s penalty phase opening statement. (Id.). Miller contends that but for
176

206a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 177 of 189

appellate counsel’s unreasonable representation, a reasonable probability exists that
he would have been granted either a new trial or a new sentencing hearing. (Id.).
a)

Procedural Default

Miller failed to present this claim before either the Rule 32 court or the
Alabama Court of Criminal Appeals. His failure to properly exhaust this claim bars
this court from granting habeas corpus relief. See Snowden v. Singletary, 135 F.3d
732, 735 (11th Cir. 1998) (“Exhaustion of state remedies requires that the state
prisoner ‘fairly presen[t] federal claims to the State courts to give the State the
opportunity to pass upon and correct alleged violations of its prisoners’ federal
rights.’”) (quoting Duncan v. Henry, 513 U.S. 364, 365 (1995)).
b)

Merits

Alternatively, this claim would also be due to be denied on the merits under a
de novo standard of review. This court has examined all of the ineffective assistance
of trial counsel claims that Miller alleges appellate counsel failed to adequately
present in his brief, and has determined each claim lacks merit. Therefore, this court
finds this claim of ineffective assistance of appellate counsel also lacks merit.

177

207a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 178 of 189

C.

MILLER’S CLAIM THAT HIS DEATH SENTENCE VIOLATES THE
SIXTH, EIGHTH, AND FOURTEENTH AMENDMENTS
Miller argues that Alabama’s advisory capital sentencing scheme violates Ring

v. Arizona, 536 U.S. 584 (2000) and Hurst v. Florida, 136 S. Ct. 616 (2016),35 and
effectively eliminated the jury’s role and responsibility for sentencing Miller to death
in several ways. (Doc. 1 at 149, Doc. 43). First, Miller alleges that although Ring’s
fundamental principle is that the jury occupies a determinative role in capital
sentencing, the trial court’s instructions misled the jurors into believing their
sentencing role was purely advisory. (Id. at 149-50).
Second, Miller argues that because Ring requires the jury to “find beyond a
reasonable doubt, ‘all facts essential to imposition of the level of punishment that the
defendant receives,’” Alabama juries are required to determine beyond a reasonable
doubt both that an aggravating circumstance existed and that the aggravating factors
outweighed the mitigating factors. (Id. at 150-52) (quoting Ring, 536 U.S. at 610).
He claims that the jury in his case was not instructed that it had to find that the sole
aggravating factor outweighed the mitigating circumstances beyond a reasonable
doubt to return a verdict for death. (Id. at 152). Rather, he asserts that the court’s
instructions explained to the jurors that they were required to apply a beyond a

35

The court granted Miller leave to cite Hurst in support of his petition. (See Doc. 42).
178

208a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 179 of 189

reasonable doubt standard only when determining the existence of the aggravating
factor, not in the weighing of aggravating and mitigating factors. (Id.).
Finally, Miller argues that his death sentence is “unsupported by any verifiable
jury findings as required by Ring.” (Id.). He maintains a “strong reason to doubt that
the Miller jurors were unanimous in finding the necessary aggravating circumstance.”
(Id.).
The Alabama Court of Criminal Appeals reviewed and rejected these
arguments on direct appeal:
the jury’s 10-2 recommendation of death during the sentencing phase
indicated that it must have found the existence of the aggravating
circumstance that the offense was “especially heinous, atrocious, or
cruel compared to other capital offenses.” § 13A-5-49(8), Ala. Code
1975. This was the only aggravating circumstance the court instructed
the jury on. Indeed, during the court’s penalty-phase instructions, the
court clearly instructed the jury that it could not proceed to a vote on
whether to impose the death penalty unless it first found beyond a
reasonable doubt the existence of at least one aggravating circumstance.
(R. 1433-35.) Thus, the jury’s 10-2 vote recommending death
established that the jury unanimously found the existence of the
“especially heinous, atrocious, or cruel” aggravating circumstance,
giving the trial judge the discretion to sentence Miller to death. See §
13A-5-46(e)(1)-(3), Ala. Code 1975; see also Ex parte Slaton, 680
So.2d 909, 927 (Ala. 1996), cert. denied, 519 U.S. 1079, 117 S.Ct. 742,
136 L.Ed.2d 680 (1997); Duke v. State, 889 So.2d 1, opinion on return
to remand, 889 So.2d 40 (Ala. Crim. App. 2002).
Miller, 913 So. 2d at 1168-69 (footnote omitted).

179

209a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 180 of 189

As discussed below, the state court’s rejection of these claims did not result “in
a decision that was contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court of the United States,”
and did not result “in a decision that was based on an unreasonable determination of
the facts in light of the evidence presented in the State court proceeding.” 28 U.S.C.
§ 2254(d)(1)-(d)(2).
Miller first argues that
Ring’s fundamental principle is that the jury occupies a determinative
role in capital sentencing. The trial court’s instructions in Mr. Miller’s
case misled the jurors into believing their sentencing role is purely
advisory, notwithstanding Ring.
The jurors were told no fewer than 20 times that their sentencing
decision was merely a recommendation to the court. The jurors were
never advised that any aspect of their decision was binding on the trial
court, let alone that they had final responsibility for making the
necessary predicate finding of the existence of an aggravating factor,
without which Miller could not be sentenced to death. The jurors simply
had no way to know of their determinative role. To the contrary, they
were led to believe just the opposite. By so diminishing the jury’s sense
of sentencing responsibility, the instructions in Miller’s case violated
Miller’s Eighth Amendment rights under Caldwell v. Mississippi, 472
U.S. 320 (1985) (holding it is constitutionally impermissible to rest a
death sentence on a determination made by a sentencer who has been led
to believe that the responsibility for determining the appropriateness of
the defendant’s death rests elsewhere).

180

210a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 181 of 189

(Doc. 1, at 149-50). Miller adds that Hurst and In re Bohannon v. State, No.
1150640, 2016 WL 5817692, at *5 (Ala. Sept. 30, 2016) confirm that his death
sentence violated Caldwell. (Doc. 41, at 8-9; Doc. 48).
To establish a Caldwell violation, “a defendant necessarily must show that the
remarks to the jury improperly described the role assigned to the jury by local law.”
Romano v. Oklahoma, 512, U.S. 1, 9 (1994) (quoting Dugger v. Adams, 489 U.S. 401,
407 (1989)). “The infirmity identified in Caldwell is simply absent” in a case where
“the jury was not affirmatively misled regarding its role in the sentencing process.”
Romano, 512 U.S. at 9. In this case, Miller’s claim of Caldwell error must fail
because the court correctly informed the jurors of their advisory function under
Alabama law.
Under Alabama law, the jury’s sentencing determination is “advisory.” See
Ala. Code § 13A-5-46 (describing the jury’s sentencing role as “advisory” ten
separate times). Thus, the court’s instruction informing the jury that they were
making a recommendation as to Miller’s sentence does not constitute a Caldwell
violation. See Davis v. Singletary, 119 F.3d 1471, 1482 (11th Cir. 1997) (“‘The
infirmity identified in Caldwell is simply absent’ in a case where ‘the jury was not
affirmatively misled regarding its role in the sentencing process.’”)(quoting Romano
v. Oklahoma, 512 U.S. 1, 9 (1994)). Therefore, this argument has no merit.

181

211a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 182 of 189

Miller further alleges that “Hurst confirms Ring’s holding that a jury must find
all facts that make a defendant eligible for the death penalty, and it illustrates that
under Ring an advisory jury verdict does not satisfy the Sixth Amendment’s
requirements.” (Doc. 41 at 4) (citing Hurst, 136 S. Ct. at 621-22). He asserts:
This holding eviscerates the Alabama Court of Criminal Appeals’
holding, in its decision affirming Mr. Miller’s conviction and death
sentence on direct appeal, that Ring was inapplicable because of the
jury’s advisory verdict: “It is unnecessary to address the [Ring]
argument because the jury’s 10-2 recommendation of death . . . indicated
that it must have found the existence of the aggravating circumstance.”
Miller, 913 So. 2d at 1168-69. Hurst explicitly holds that Ring is not
satisfied by any such inference from a jury’s advisory verdict:
Florida argues that when Hurst’s sentencing jury
recommended a death sentence, it “necessarily included a
finding of an aggravating circumstance.” The State
contends that this finding qualified Hurst for the death
penalty under Florida law, thus satisfying Ring. . . .
The State fails to appreciate the central and singular role
the judge plays under Florida law. . . . [T]he Florida
sentencing statute does not make a defendant eligible for
death until “findings by the court that such person shall be
punished by death.” Fla. Stat. § 775.082(1) (emphasis
added) . . . . The State cannot now treat the advisory
recommendation by the jury as the necessary factual
finding that Ring requires.
2016 WL 112683, at *6.
Alabama’s capital sentencing scheme similarly assigns a decisive,
central role to the trial court. Hurst thus confirms the correctness of Mr.
Miller’s argument that the jury’s advisory verdict cannot satisfy Ring.
Pet. ¶¶ 413-15.
182

212a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 183 of 189

(Doc. 41, at 4-5).
In Hurst, the Supreme Court held that in light of Ring, Florida’s death penalty
scheme violated the defendant’s Sixth Amendment right to an impartial jury because
it “required the judge alone to find the existence of an aggravating circumstance.”
Hurst, 136 S. Ct. at 624. Miller maintains that “Hurst confirms Ring’s holding that
a jury must find all facts that make a defendant eligible for the death penalty, and
illustrates that under Ring, an advisory jury verdict does not satisfy the Sixth
Amendment’s requirements.” (Doc. 41, at 4).
First, Hurst does not apply retroactively to Miller, because his conviction was
final before the decision in Hurst was announced. See Teague v. Lane, 489 U.S. 288,
310-11 (1989). The Supreme Court has not indicated that the rule announced in
Hurst is retroactive. Further, the Supreme Court has held that “Ring announced a
new procedural rule that does not apply retroactively to cases final on direct review.”
Schriro v. Summerlin, 542 U.S. 348, 358 (2004). Likewise, Hurst, which applied
Ring in Florida, is not retroactive. Lambrix v. Sec’y, Florida Dep’t of Corr., No.
16-10251, 2017 WL 992416 at *4 n.2 (11th Cir. March 15, 2017) (“Hurst, like Ring,
is not retroactively applicable on collateral review.”). See also Lotter v. Britten,
4:04CV3187, 2017 WL 744554 at *2 (D. Neb., Feb. 24, 2017) (“[T]here is no
precedent or reason to believe that Hurst would be made retroactive when Ring was

183

213a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 184 of 189

not made retroactive.”); McKnight v. Bobby, Case No. 2:09-cv-059, 2017 WL 631411
at *5 (S.D. Ohio, Feb. 15, 2017) (“Hurst does not apply to cases in which the
conviction became final on direct appeal before January 2016 . . .”); Chappell v.
Ryan, No. CV-15-00478-PHX-SPL, 2017 WL 432542 at *3 (D. Ariz., Feb. 1, 2017)
(“Hurst, which applies Ring in Florida, is also nonretroactive.”).
Further, even if Hurst were to apply retroactively to Miller, this claim lacks
merit. As the Alabama Supreme Court recently explained, Alabama’s capital
sentencing scheme complies with the Sixth Amendment:
As previously recognized, Apprendi holds that any fact that elevates a
defendant’s sentence above the range established by a jury’s verdict
must be determined by the jury. Ring holds that the Sixth Amendment
right to a jury trial requires that a jury “find an aggravating circumstance
necessary for imposition of the death penalty.” Ring, 536 U.S. at 585,
122 S.Ct. 2428. Hurst applies Ring and reiterates that a jury, not a
judge, must find the existence of an aggravating factor to make a
defendant death-eligible. Ring and Hurst require only that the jury find
the existence of the aggravating factor that makes a defendant eligible
for the death penalty – the plain language in those cases requires nothing
more and nothing less. Accordingly, because in Alabama a jury, not the
judge, determines by a unanimous verdict the critical finding that an
aggravating circumstance exists beyond a reasonable doubt to make a
defendant death-eligible, Alabama’s capital-sentencing scheme does not
violate the Sixth Amendment.
In re Bohannon v. State, No. 1150640, 2016 WL 5817692, at *5 (Ala. Sept. 30,
2016).

184

214a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 185 of 189

Next, Miller argues that Ring requires that the jury find beyond a reasonable
doubt both the existence of an aggravating circumstance and that the aggravating
circumstances outweigh the mitigating circumstances. (Doc. 1, at 150-51).36 Miller
contends that, because the jury was not instructed that it must find beyond a
reasonable doubt that the aggravating factor outweighed the mitigating factors, his
death sentence violates Ring. (Id. at 152). This claim also has no merit.
Ring only requires that “[i]f a State makes an increase in a defendant’s
authorized punishment contingent on the finding of a fact, that fact – no matter how
the State labels it – must be found by a jury beyond a reasonable doubt.” 536 U.S.
at 602. Under Alabama’s sentencing scheme, the jury’s weighing of the aggravating
and mitigating circumstances does not make a defendant eligible for a death sentence.
Instead, the jury’s finding of an aggravating circumstance is determinative. See Ala.
Code § 13A–5–45(f) (“Unless at least one aggravating circumstance as defined in
Section 13A–5–49 exists, the sentence shall be life imprisonment without parole.”).
The trial judge may disregard the jury’s balancing of the mitigating and aggravating
factors. See Ala Code § 13A–5–47(e) (“While the jury’s recommendation concerning
sentence shall be given consideration, it is not binding upon the court.”).
Accordingly, the jury’s determination of whether the aggravating factors outweighed
36

He adds that Hurst confirms that Ring requires the jury to find “all facts necessary to
sentence a defendant to death.” (Doc. 41, at 8).
185

215a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 186 of 189

the mitigating factors could not have increased the maximum sentence for which
Miller was eligible. Therefore, Ring does not require a jury to find beyond a
reasonable doubt that the aggravating factors outweigh the mitigating factors, and this
claim lacks merit.
Miller further argues that the “jury’s 10-2 vote, as reflected in the general
verdict form used in Mr. Miller’s case, failed to indicate what findings, if any, the
jury made in support of Mr. Miller’s death sentence.” (Doc 1, at 152). Miller argues
that verifiable jury findings do not support his death sentence as required by Ring
because the jury was not required to enumerate explicitly in its advisory verdict that
it unanimously found the existence of a statutory aggravating factor beyond a
reasonable doubt. (Id.; Doc. 41 at 7-8). Miller contends that the jury’s split
recommendation creates doubt as to whether all of the jurors found the aggravating
circumstance. In support of this contention, Miller points out that during the course
of the jury’s deliberations, the jury sent a note to the court that read, “can we have a
sentence if we have the appropriate number of required votes but we have one juror
undecided?” (Id.) (quoting R. Vol. 8, Tab 26, at 1446). Miller adds that “Hurst
confirms that a general verdict recommending the death penalty, without any specific
findings, violates Ring.” (Doc. 41 at 6). He maintains that the jury did not make a
specific factual finding that his crime was especially heinous. (Id. at 7).

186

216a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 187 of 189

This court recognizes that a system in which the jury must explicitly indicate
that it found the existence of an aggravating factor would be preferable. Indeed, the
Alabama Supreme Court has recognized as much. See Ex Parte McGriff, 908 So. 2d
1024, 1038 (Ala. 2004) (directing lower court to provide a jury form requiring the
jury to indicate whether it found the existence of an aggravating factor beyond a
reasonable doubt). However, as addressed previously, the trial court instructed the
jury that before determining whether to recommend the death sentence, the jury must
first unanimously find the existence of an aggravating factor beyond a reasonable
doubt. (R. Vol. 8, Tab 27, at 1433, 1439). The fact that ten out of the twelve jurors
recommended death supports the presumption that the jurors must have found the
existence of the aggravating circumstance beyond a reasonable doubt. See Evans v.
Sec’y, Fla. Dep’t Of Corr., 699 F.3d 1249, 1260 (11th Cir. 2012) (“The jury’s verdict
necessarily contained [findings than an aggravating circumstance existed] because the
jury was instructed that it could not recommend a death sentence unless it found
beyond a reasonable doubt that one or more aggravating circumstances existed . . .
.”); United States v. Townsend, 630 F.3d 1003, 1013-14 (11th Cir. 2011) (finding that
because the court instructed the jury that it must make a prerequisite finding as to the
existence of an element before convicting the defendant, the jury’s guilty verdict
necessarily meant the jurors found the element).

187

217a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 188 of 189

Because the jury must have found the existence of the aggravating factor
beyond a reasonable doubt before considering a recommendation of the death penalty,
Miller’s death sentence does not violate Ring. Therefore, the state court’s rejection
of this claim was reasonable, and Miller is not entitled to relief.
VII. CONCLUSION
Based on the foregoing, the petition for writ of habeas corpus is due to be
DENIED. A separate final judgment will be entered contemporaneously with this
Memorandum Opinion.
Rule 11(a) of the Rules Governing Section 2254 Cases requires the district
court to issue or deny a certificate of appealability when it enters a final order adverse
to the applicant. This court may issue a certificate of appealability “only if the
applicant has a made a substantial showing of the denial of a constitutional right.” 28
U.S.C. 2253(c)(2). To make such a showing, a “petitioner must demonstrate that
reasonable jurist would find the district court’s assessment of the constitutional
claims debatable and wrong,” Slack v. McDaniel, 529 U.S. 473, 484 (2000), or that
“the issues presented were adequate to deserve encouragement to proceed further.”
Miller-El v. Cockrell, 537 U.S. 322, 336 (2003) (internal quotations omitted).

188

218a

Case 2:13-cv-00154-KOB Document 53 Filed 03/29/17 Page 189 of 189

This court finds that Miller’s claims do not satisfy either standard. Accordingly,
a motion for a certificate of appealability is due to be DENIED.
DONE and ORDERED this 29th day of March, 2017.

___________________________________
KARON OWEN BOWDRE
CHIEF UNITED STATES DISTRICT JUDGE

189

219a

FILED

Case 2:13-cv-00154-KOB Document 54 Filed 03/29/17 Page 1 of 1

2017 Mar-29 AM 11:32
U.S. DISTRICT COURT
N.D. OF ALABAMA

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
ALAN EUGENE MILLER,
Petitioner,
v.
KIM T. THOMAS, Commissioner
of the Alabama Department of
Corrections,
Respondent.

)
)
)
)
)
)
)
)
)
)
)

CIVIL ACTION NO.
2:13-00154-KOB

FINAL JUDGMENT
For the reasons stated in the accompanying Memorandum of Opinion, the
court DENIES Alan Eugene Miller’s Petition for Writ of Habeas Corpus.
DONE and ORDERED this 29th day of March, 2017.

___________________________________
KARON OWEN BOWDRE
CHIEF UNITED STATES DISTRICT JUDGE

220a

Miller v. State, 99 So.3d 349 (2011)

Postconviction relief is even further removed
from the criminal trial than is discretionary direct
review; it is not part of the criminal proceeding
itself, and it is in fact considered to be civil in
nature.

99 So.3d 349
Court of Criminal Appeals of Alabama.
Alan Eugene MILLER
v.
STATE of Alabama.
CR–08–1413.
|
July 8, 2011.
|
Rehearing Denied Oct. 21, 2011.
|
Certiorari Quashed in Part and
Denied in Part June 22, 2012
Alabama Supreme Court 1110110.
Synopsis
Background: After defendant's convictions for capital
murder were affirmed, 913 So.2d 1148, defendant petitioned
for postconviction relief. The Circuit Court, Shelby County,
No. CC–99–792.60, G. Daniel Reeves, J., denied petition.
Defendant appealed.

[2]

Postconviction state collateral review itself is not
a constitutional right, even in capital cases.

[3]

[4]

Nature of Remedy

Criminal Law

Civil or criminal nature

Criminal Law
Matters which either were
or could have been adjudicated previously, in
general
Postconviction review is a narrow remedy, since
res judicata bars any claim that was or could have
been raised at trial or on direct appeal.

[5]

Criminal Law

Post-conviction relief

The plain-error standard of review does not apply
to a postconviction petition attacking a capitalmurder conviction and death sentence.

[2] defendant's appellate counsel was not ineffective; and

1 Cases that cite this headnote

[3] defendant's trial counsel was not ineffective.
[6]
Affirmed.

Criminal Law

Records

In reviewing defendant's claims in appeal of
denial of postconviction relief, Court of Criminal
Appeals may take judicial notice of the court's
records from defendant's direct appeal.

Joiner, J., recused himself.

West Headnotes (33)
[1]

Criminal Law

A postconviction proceeding is not an appeal of
a criminal conviction but, rather, a collateral civil
attack on the judgment.

Holdings: The Court of Criminal Appeals, Kellum, J., held
that:
[1] defendant's due-process rights were not violated by the
circuit court's adoption of the State's proposed order denying
his petition for postconviction relief;

Criminal Law
Constitutional, Statutory,
and Regulatory Provisions

[7]

Criminal Law

Nature of Remedy

Criminal Law

Civil or criminal nature

Constitutional Law
Criminal Law

Post-conviction relief

Findings

Defendant's due-process rights were not violated
by the circuit court's adoption of the State's

221a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

1

Miller v. State, 99 So.3d 349 (2011)

proposed order denying his petition for
postconviction relief; the circuit court did not
base its order denying defendant's petition upon
the State's initial answer to the petition, but,
rather, after numerous pleadings and after the
evidentiary hearing on defendant's claims, the
court allowed submission of post-hearing briefs,
and the circuit court did not issue its final order
until several months after defendant filed his
reply brief. U.S.C.A. Const.Amend. 14; Rules
Crim.Proc., Rule 32.1.

[11]

Criminal Law

New trial motion

Assuming defendant's appellate counsel was
deficient in asserting claims of ineffective
assistance of trial counsel in the motion for a new
trial without having sufficient time to prepare
a comprehensive case to support those claims,
defendant was not prejudiced by such conduct so
as to support a claim of ineffective assistance of
counsel. U.S.C.A. Const.Amend. 6.

[12]

Criminal Law

Appeal

Defendant's appellate counsel was not deficient
in investigating claim that trial counsel was
ineffective; appellate counsel went to great
lengths to fully investigate the issue of
ineffectiveness of trial counsel during the hearing
on defendant's motion for new trial. U.S.C.A.
Const.Amend. 6.

[13]

Criminal Law
sanity hearing

Competence to stand trial;

Defendant's trial counsel was not ineffective
for failing to provide psychiatrist with the
entire case file of other psychiatrist who
evaluated defendant for the purpose of assessing
defendant's competence to stand trial and his
mental state at the time of the murders, where
there was no evidence that counsel had access
to or could have obtained the underlying file.
U.S.C.A. Const.Amend. 6.

Competence to stand trial;

Criminal Law

Experts; opinion testimony

Defendant was not prejudiced by trial
counsel's failure to provide psychiatrist with
comprehensive information concerning the
trauma he suffered from his father so as to
support ineffective-assistance claim; the record
indicated that psychiatrist was aware of the
nature of father's physical abuse. U.S.C.A.
Const.Amend. 6.

2 Cases that cite this headnote
[10]

Criminal Law
sanity hearing

Defendant was not prejudiced by trial counsel's
failure to provide psychiatrist with defendant's
family's mental-health records so as to support
ineffective-assistance claim; there was no
evidence that specific psychiatric diagnoses
in defendant's family's medical records would
have changed psychiatrist's determination that
defendant was sane at the time of murders.
U.S.C.A. Const.Amend. 6.

1 Cases that cite this headnote
[9]

Competence to stand trial;

Defendant was not prejudiced by trial counsel's
failure to apprise psychiatrist with report
from state-appointed psychiatrist, who evaluated
defendant and concluded that defendant did not
meet Alabama's definition of “insanity” at the
time of the shootings, so as to support claim of
ineffective assistance, where the record indicated
psychiatrist had knowledge of substantially
the same information contained in the report.
U.S.C.A. Const.Amend. 6.

9 Cases that cite this headnote
[8]

Criminal Law
sanity hearing

[14]

Criminal Law

Experts; opinion testimony

Defendant's trial counsel did not render
ineffective assistance by not expending valuable,
limited resources in pursuit of a fifth mentalhealth expert who may or may not have found
that defendant met Alabama's legal definition
of “insanity” at the time of the shootings; trial
counsel had four opinions from mental-health

222a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

2

Miller v. State, 99 So.3d 349 (2011)

and his sisters with the specific focus of
uncovering general background information and
facts concerning defendant's relationship with
his father. U.S.C.A. Const.Amend. 6.

experts, each of whom had evaluated defendant
and concluded that he did not meet Alabama's
legal definition of “insanity” at the time of the
crimes. U.S.C.A. Const.Amend. 6.

[15]

Criminal Law

Experts; opinion testimony

[20]

Counsel is not ineffective for relying on an
expert's opinion. U.S.C.A. Const.Amend. 6.

[16]

Criminal Law

[17]

Criminal Law
Defense Counsel

Criminal Law
general

1 Cases that cite this headnote
[21]

Failure to investigate possible mitigating factors
and failure to present mitigating evidence at
sentencing can constitute ineffective assistance
of counsel under the Sixth Amendment.
U.S.C.A. Const.Amend. 6.

[22]

Deficient representation in

Presentation of evidence in

1 Cases that cite this headnote
[23]

Criminal Law
Adequacy of investigation
of mitigating circumstances
Trial counsel was not deficient in failing
to adequately interview defendant and his
family in capital-murder trial for purposes of
ineffective-assistance claim; trial counsel met
with defendant personally at least half a dozen
times, and counsel interviewed defendant's
family members such as his father, mother,

Criminal Law
sentencing phase

Trial counsel was not ineffective during
penalty phase of capital-murder trial by failing
to present additional mitigating evidence;
mitigation evidence presented by counsel was a
matter of trial strategy. U.S.C.A. Const.Amend.
6.

The American Bar Association Guidelines may
provide guidance as to what is reasonable in
terms of counsel's representation, but they are not
determinative. U.S.C.A. Const.Amend. 6.

[19]

Criminal Law
Adequacy of investigation
of sentencing issues
Criminal Law
Presentation of evidence
regarding sentencing

Argument and Conduct of

Trial counsel's opening statement at guilt
phase of capital-murder trial did not
constitute ineffective assistance; counsel's
opening statement was the product of a
reasonable, strategic decision to win favor with
the jury by not presenting frivolous arguments
in order to spare defendant's life. U.S.C.A.
Const.Amend. 6.

[18]

Trial counsel did not render ineffective
assistance in investigating potential mitigating
evidence for penalty phase of capital-murder
trial. U.S.C.A. Const.Amend. 6.

Right to counsel

A postconviction petition does not show
ineffective assistance merely because it presents
a new expert opinion that is different from the
theory used at trial. U.S.C.A. Const.Amend. 6.

Criminal Law
Adequacy of investigation
of mitigating circumstances

Criminal Law
Presentation of evidence
regarding sentencing
Trial counsel is afforded broad authority in
determining what evidence will be offered in
mitigation.

[24]

Criminal Law
Introduction of and
Objections to Evidence at Trial

223a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

3

Miller v. State, 99 So.3d 349 (2011)

The failure to present evidence that is merely
cumulative to that that was presented at
trial is, generally speaking, not indicative of
ineffective assistance of trial counsel. U.S.C.A.
Const.Amend. 6.

[29]

Criminal Law
Presentation of evidence
regarding sentencing
Counsel is not required to present all mitigation
evidence, even if the additional mitigation
evidence would not have been incompatible with
counsel's strategy; counsel must be permitted to
weed out some arguments to stress others and
advocate effectively. U.S.C.A. Const.Amend. 6.

[26]

Criminal Law

[27]

Criminal Law
sentencing phase

[30]

[31]

Criminal Law

Presentation of evidence in

Argument and comments

Trial counsel did not render ineffective
assistance during penalty-phase opening
statement in capital-murder trial; consistent
with counsel's trial strategy, counsel elected
to acknowledge doctor's conclusion that there
was no basis under Alabama law to support
an insanity defense in an effort to retain his
credibility before the jury and to secure an
advisory verdict of life imprisonment without
parole, rather than the death sentence. U.S.C.A.
Const.Amend. 6.

Argument and comments

Criminal Law

Post-conviction relief

Defendant's claim that appellate counsel should
have argued that his trial counsel were ineffective
because trial counsel did not move for a
directed verdict based on the State's failure
to present comparative evidence necessary to
determine that the killings were especially
heinous, atrocious, or cruel compared to other
capital offenses was not properly before the
appellate court for review, where he failed
to raise the claim in his postconviction-relief
petition. Rules Crim.Proc., Rule 32.1.

An attorney's performance is not per se
ineffective for failing to present mitigating
evidence at the penalty phase of a capital trial.

[28]

Criminal Law

Trial counsel did not render ineffective
assistance during guilt-phase closing argument
in capital-murder trial; counsel's decision to not
argue that defendant did not have intent to
commit capital murder during closing arguments
was consistent with his overall trial strategy
of focusing on the penalty phase of the trial.
U.S.C.A. Const.Amend. 6.

Death Penalty

When claims of ineffective assistance of counsel
involve the penalty phase of a capital-murder
trial the focus is on whether the sentencer would
have concluded that the balance of aggravating
and mitigating circumstances did not warrant
death. U.S.C.A. Const.Amend. 6.

Jury selection and

Trial counsel's voir dire examination in capitalmurder trial did not amount to ineffective
assistance; counsel strategically conducted voir
dire to determine whether any juror had a fixed
opinion, for any reason, of the case. U.S.C.A.
Const.Amend. 6.

1 Cases that cite this headnote
[25]

Criminal Law
composition

2 Cases that cite this headnote
[32]

Sentencing and Punishment

Sufficiency

State was not required to present pertinent facts
from other capital cases for comparison purposes
in order to sustain its burden of proving that
the defendant's offense was especially heinous,
atrocious, or cruel when compared to other
capital offenses.

[33]

Criminal Law
sentencing phase

Presentation of evidence in

224a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

4

Miller v. State, 99 So.3d 349 (2011)

Trial counsel was not ineffective in capitalmurder case for failing to present additional
mitigating evidence during sentencing; trial
counsel presented a competent mitigating
case concerning defendant's mental health and
background during the penalty phase of the trial.
U.S.C.A. Const.Amend. 6.
1 Cases that cite this headnote

Attorneys and Law Firms
*352 Robin Ann Adams and Audrey Y. Dupont,
Birmingham; James S. Whitehead and William Tran
(withdrew 12/09/2010), Chicago, Illinois; and Michael
Bartolic, Chicago, Illinois, for appellant.
Troy King, atty. gen., and Thomas R. Govan, asst. atty. gen.,
for appellee.
Opinion
KELLUM, Judge.
The appellant, Alan Eugene Miller, an inmate on death row
at Holman Correctional Facility, appeals the circuit court's
denial of his petition for postconviction relief filed pursuant
to Rule 32, Ala. R.Crim. P.
In June 2000, Miller was convicted of capital murder in
connection with the deaths of Lee Michael Holdbrooks,
Christopher S. Yancy, and Terry Lee Jarvis. The murders were
made capital because they were committed “by one act or
pursuant to one scheme or course of conduct.” See § 13A–
5–40(a)(10), Ala.Code 1975. Following the penalty phase of
Miller's trial, the jury recommended, by a vote of 10–2, that
Miller be sentenced to death. The circuit court accepted the
jury's recommendation and sentenced Miller to death.
This Court affirmed Miller's conviction and sentence
on direct appeal. See Miller v. State, 913 So.2d 1148
(Ala.Crim.App.2004). The Alabama Supreme Court denied
certiorari review on May 27, 2005, and this Court's certificate
of judgment was issued that same day. The United States
Supreme Court subsequently denied certiorari review in
January 2006. Miller v. Alabama, 546 U.S. 1097, 126 S.Ct.
1024, 163 L.Ed.2d 867 (2006).

*353 On May 19, 2006, Miller, through counsel, filed a
timely Rule 32 petition in the Shelby Circuit Court. The State
answered Miller's petition. On April 4, 2007, Miller filed the
amended Rule 32 petition that is the subject of this appeal,
in which he reasserted and expanded the claims asserted in
his original Rule 32 petition. In the amended petition, Miller
claimed, among other things, that he received ineffective
assistance of trial and appellate counsel.
On April 18, 2007, the State filed an answer and a motion
to dismiss Miller's amended petition, and Miller responded.
Following a hearing on the State's motion to dismiss, the
circuit court entered a written order dismissing all Miller's
claims, except his claims of ineffective assistance of appellate
counsel.
On February 11–14, 2008, an evidentiary hearing was
conducted on Miller's claims of ineffective assistance of
appellate counsel. Miller presented the testimony of the
following witnesses: Mickey Johnson, Miller's trial counsel;
Dr. Charles Scott, the psychiatrist retained to evaluate Miller
before trial; Barbara Miller, Miller's mother; George Carr,
Jr., Alicia Sanford, Cheryl Ellison, Samuel Brian Miller,
Richard Miller, and Jacob Connell, various Miller family
members; and Dr. Catherine Boyer, Miller's psychologist for
his Rule 32 proceeding. The State presented the testimony
of Dr. Harry McClaren, another psychologist who examined
Miller before trial who reviewed additional documents for the
Rule 32 proceedings, and Ronnie Blackwood, Miller's other
trial counsel. 1 Because more time was needed to present
evidence, the hearing had to be continued.
The evidentiary hearing resumed on August 6, 2008. Miller
presented the testimony of his appellate counsel, Billy Hill.
The State presented the testimony of Miller's other appellate
counsel, Haran Lowe.
Following the evidentiary hearing, counsel for the respective
parties submitted post-hearing briefs for the circuit court's
consideration. On May 5, 2009, the circuit court denied
Miller's petition in a 157–page order. Miller subsequently
filed an objection to the court's order, which the circuit court
denied. This appeal followed.
In the original opinion affirming Miller's conviction and death
sentence, this Court set out the facts of the crime. See Miller,
913 So.2d at 1154–57.

225a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

5

Miller v. State, 99 So.3d 349 (2011)

Standard of Review

of disproving its existence by a
preponderance of the evidence.”

[1]
[2]
[3]
[4] “ ‘Postconviction relief is even
(Emphasis added.) “Preponderance of the evidence” is
further removed from the criminal trial than is
defined as:
discretionary direct review. It is not part of the criminal
proceeding itself, and it is in fact considered to be civil
Fay v. Noia, 372 U.S. 391, 423–424,
in nature. See
83 S.Ct. 822, 841, 9 L.Ed.2d 837 (1963). It is a collateral
attack that normally occurs only after the defendant
has failed to secure relief through direct review of his
conviction. States have no obligation to provide this
avenue of relief....’
“ Pennsylvania v. Finley, 481 U.S. 551, 556–57,
107 S.Ct. 1990, 95 L.Ed.2d 539 (1987).
“ ‘[P]ostconviction state collateral review itself is
not a constitutional right, even in capital cases.

“The greater weight of the evidence,
not necessarily established by the
greater number of witnesses testifying
to a fact but by evidence that has
the most convincing force; superior
evidentiary weight that, though not
sufficient to free the mind wholly from
all reasonable doubt, is still sufficient
to incline a fair and impartial mind to
one side of the issue rather than the
other.”

Murray v. Giarratano (1989), 492 U.S. 1, 109
S.Ct. 2765, 106 L.Ed.2d 1;
Pennsylvania v.
Finley (1987), 481 U.S. 551, 107 S.Ct. 1990, 95
L.Ed.2d 539. A postconviction proceeding is not an
appeal *354 of a criminal conviction, but, rather, a
collateral civil attack on the judgment. See State
v. Crowder (1991), 60 Ohio St.3d 151, 573 N.E.2d
652. Postconviction review is a narrow remedy,
since res judicata bars any claim that was or could
have been raised at trial or on direct appeal.’
“State v. Steffen, 70 Ohio St.3d 399, 410, 639 N.E.2d
67, 76 (1994).”
James v. State, 61 So.3d 357, 362 (Ala.Crim.App.2010).
According to Rule 32.3, Ala. R.Crim. P., Miller has the sole
burden of pleading and proof. Rule 32.3, Ala. R.Crim. P.,
provides:

“The petitioner shall have the burden
of pleading and proving by a
preponderance of the evidence the
facts necessary to entitle the petitioner
to relief. The State shall have the
burden of pleading any ground of
preclusion, but once a ground of
preclusion has been pleaded, the
petitioner shall have the burden

Black's Law Dictionary 1220 (8th ed. 2004).
[5] Though we reviewed the claims on Miller's direct appeal
for plain error, the plain-error standard of review does not
apply to a postconviction petition attacking a capital-murder
conviction and death sentence. See Ferguson v. State, 13
So.3d 418, 424 (Ala.Crim.App.2008); Waldrop v. State, 987
So.2d 1186 (Ala.Crim.App.2007); Hall v. State, 979 So.2d
125 (Ala.Crim.App.2007); Gaddy v. State, 952 So.2d 1149
(Ala.Crim.App.2006). “In addition, ‘[t]he procedural bars
of Rule 32 apply with equal force to all cases, including
those in which the death penalty has been imposed.’ ”
Brownlee v. State, 666 So.2d 91, 93 (Ala.Crim.App.1995).
When reviewing the circuit court's ruling on the claims raised
in Miller's postconviction petition, we apply an abuse-ofdiscretion standard. Gaddy, 952 So.2d at 1154.
[6] Finally, we note that in reviewing Miller's claims in
appeal, this Court may take judicial notice of this Court's
records from Miller's direct appeal to this Court.
Hull v.
State, 607 So.2d 369, 371 n. 1 (Ala.Crim.App.1992).

I.
Miller argues that the circuit court erred in adopting, with only
minor modifications, the State's proposed order denying his

226a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

6

Miller v. State, 99 So.3d 349 (2011)

Rule 32 petition. (Miller's brief, at 14–18; Miller's reply brief,
at 8–11.)
Following the evidentiary hearing on Miller's Rule 32
petition, the parties submitted post-hearing briefs. The State
also submitted a proposed order denying Millers' Rule 32
petition, which was essentially a reformatted version of the
State's post-hearing brief. Miller filed a reply brief. In his
reply brief, Miller did not object to the fact that the State had
submitted a proposed order for the court's consideration, nor
did he file a proposed order.
On May 5, 2009—several months after the submission of the
post-hearing briefs and the State's proposed order—the circuit
court entered an order denying Miller's Rule 32 petition. The
court's order *355 adopted the State's previously submitted
proposed order, with very few modifications. Miller filed an
objection to the circuit court's adopting the State's proposed
order as its order. The circuit court denied Miller's objection
by the following written order:
“The Court denies ‘Petitioner's Objection to the Court's
Adoption of the State's Legal and Factual Assertions to
Deny the Amended Rule 32 Petition.’
“The Court spent many hours carefully listening to the
testimony presented in the hearing on the petition. The
Court read, and often re-read, each of the submissions
offered by the Petitioner and the State. The Court carefully
weighed each of the arguments put forth in all the
submissions. The Court found none of the Petitioner's
arguments persuasive when considered together with the
testimony given at the hearing and the argument made by
the State. Contrary to the assertions of the Petitioner, case
law is clear and unambiguous that adopting in whole or in
part an order proposed by the State is not error. Hooks v.
State [21 So.3d 772] (Ala.Crim.App.2008).
“For the Foregoing [reasons] the ‘Objection’ is denied.”
(C. 2117; 2131.)
[7] On appeal, Miller reasserts his argument that his dueprocess rights were violated by the circuit court's adopting the
State's proposed order denying his petition for postconviction
relief. Miller contends that because the circuit court adopted
the State's proposed order, which was filed before the circuit
court received Miller's post-hearing reply brief, neither he nor
this Court “can have any confidence in the trial court's afterthe-fact assurance that it read each of the submissions offered

by the parties and [that the court] carefully weighed the
arguments before finding ‘none of the Petitioner's arguments
[to be] persuasive.’ ” (Miller's brief, at 17–18.) Miller
maintains that the circuit court ceded its duty to independently
review and assess his claims; therefore, he asserts, this Court
should review his claims de novo and we should afford no
deference to the circuit court's findings.
In the recent case of
Ray v. State, 80 So.3d 965
(Ala.Crim.App.2011), this Court addressed the assertion that
the circuit court erred in adopting the State's proposed order
denying his Rule 32 petition. We rejected Ray's claim,
reasoning:
“ ‘While the practice of adopting the state's proposed
findings and conclusions is subject to criticism, the
general rule is that even when the court adopts proposed
findings verbatim, the findings are those of the court and
Anderson
may be reversed only if clearly erroneous.
v. City of Bessemer City, N.C., 470 U.S. 564, 105 S.Ct.
1504, 84 L.Ed.2d 518 (1985); Hubbard v. State, 584
So.2d 895 (Ala.Cr.App.1991); Weeks v. State, 568 So.2d
864 (Ala.Cr.App.1989), cert. denied, [498] U.S. [882],
498 U.S. 882, 111 S.Ct. 230, 112 L.Ed.2d 184 (1990);
Morrison v. State, 551 So.2d 435 (Ala.Cr.App.), cert.
denied, 495 U.S. 911, 110 S.Ct. 1938, 109 L.Ed.2d 301
(1990).’
“ Bell v. State, 593 So.2d 123, 126 (Ala.Crim.App.1991).
See also Dobyne v. State, 805 So.2d 733, 741
(Ala.Crim.App.2000);
Jones v. State, 753 So.2d 1174,
1180 (Ala.Crim.App.1999).
“More recently in
Hyde v. State, 950 So.2d 344
(Ala.Crim.App.2006), we stated:
“ ‘[T]his Court has repeatedly upheld the practice of
adopting the State's proposed order when denying a Rule
32 petition for postconviction relief. See, e.g.,
Coral
v. State, 900 So.2d 1274, 1288 (Ala.Crim.App.2004),
*356 overruled on other grounds, Ex parte Jenkins,
972 So.2d 159 (Ala.2005), and the cases cited therein.
“Alabama courts have consistently held that even when
a trial court adopts verbatim a party's proposed order,
the findings of fact and conclusions of law are those of
the trial court and they may be reversed only if they are

227a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

7

Miller v. State, 99 So.3d 349 (2011)

clearly erroneous.” McGahee v. State, 885 So.2d 191,
229–30 (Ala.Crim.App.2003).’
“

950 So.2d at 371.

“However, the Alabama Supreme Court has admonished
that ‘appellate courts must be careful to evaluate a claim
that a prepared order drafted by the prevailing party and
adopted by the trial court verbatim does not reflect the
independent and impartial findings and conclusions of the
trial court.’
(Ala.2010).

Ex parte Ingram, 51 So.3d 1119, 1124

“In
Ingram, the Supreme Court held that the circuit
court's adoption of the State's proposed order denying
postconviction relief was erroneous because, it said, the
order stated that it was based in part on the personal
knowledge and observations of the trial judge when
the judge who actually signed the order denying the
postconviction petition was not the same judge who had
presided over Ingram's capital-murder trial. ‘[T]he patently
erroneous nature of the statements regarding the trial
judge's “personal knowledge” and observations of Ingram's
capital-murder trial undermines any confidence that the
trial judge's findings of fact and conclusions of law are
the product of the trial judge's independent judgment....’
Ingram, 51 So.3d at 1125.
“Our first opportunity to consider this issue after the
Supreme Court's decision in
Ingram came in James
v. State, 61 So.3d 357 (Ala.Crim.App.2010) (opinion on
application for rehearing). We upheld a circuit court's order,
adopted verbatim from the State's proposed order, over a
claim that in adopting the State's order the circuit court had
violated

Ingram and the United States Supreme Court's

remanded Jefferson's habeas corpus proceedings to the
lower court for that court to determine whether the
state court's factual findings warranted a presumption of
correctness. The Supreme Court in granting relief stated:
“ ‘ “Although we have stated that a court's ‘verbatim
adoption of findings of fact prepared by prevailing
parties' should be treated as findings of the court,
we have also criticized that practice.
Anderson [v.
Bessemer City ], 470 U.S. [564] at 572, 105 S.Ct.
1504, 84 L.Ed.2d 518 [ (1985) ]. And we have not
considered the lawfulness of, nor the application of
the habeas statute to, the use of such a practice where
(1) a judge solicits the proposed findings ex parte, (2)
does not provide the opposing party an opportunity
to criticize the findings or to submit his own, or
(3) adopts findings that contain internal evidence
suggesting that the judge *357 may not have read
them. Cf.
id., at 568, 470 U.S. 564, 105 S.Ct.
1504, 84 L.Ed.2d 518; Ga.Code of Judicial Conduct,
Canon 3(A)(4) (1993) (prohibiting ex parte judicial
communications).” ’
“James v. State, 61 So.3d at 385 (on rehearing).
“Here, the circuit judge who signed the order denying
postconviction relief was the same judge who presided
over Ray's guilt and penalty proceedings—the judge who
sentenced Ray to death. None of the concerns the Supreme
Court stressed in
Ingram are present in this case.
Moreover, for the reasons detailed in this opinion, we hold
that the circuit court's findings are not ‘clearly erroneous.’ ”
Ray, 80 So.3d at 971–72.
Shortly after this Court released

Ray, the Alabama

opinion in
Jefferson v. Upton, 560 U.S. 284, 130 S.Ct.
2217, 176 L.Ed.2d 1032 (2010). We stated:

Supreme Court released its opinion in
Ex parte Scott,
[Ms. 1091275, March 18, 2011] ––– So.3d –––– (Ala.2011).

“ ‘The main concerns the Supreme Court found

In
Scott, the Alabama Supreme Court held that a circuit
court's order summarily dismissing a Rule 32 petition, which
adopted verbatim the State's answer to the Rule 32 petition,
violated the requirement that the order reflect the circuit
court's independent findings and conclusions of law.

objectionable in
Ingram are not present in this case;
here, the same judge presided over both James's trial
and the Rule 32 proceedings. Also, as we noted in our
previous opinion in this case, the circuit court allowed
both “parties to submit proposed orders.”
“ ‘In
Jefferson v. Upton, [560 U.S. 284, 130
S.Ct. 2217 (2010),] the United States Supreme Court

In
Scott, after the State filed its answer to Scott's Rule 32
petition, the circuit court requested and received an electronic
copy of the State's answer. The circuit court subsequently

228a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

8

Miller v. State, 99 So.3d 349 (2011)

issued a written order summarily denying Scott's Rule 32
petition. The circuit court's order essentially adopted verbatim
the State's answer to the Rule 32 petition.
Scott filed an objection to the circuit court's order, which
the circuit court denied. This Court affirmed the circuit
Scott v.
court's order denying Scott's Rule 32 petition.
State, [Ms. CR–06–2233, March 26, 2010] –––So.3d ––––
(Ala.Crim.App.2010). The Alabama Supreme Court granted
Scott's petition for a writ of certiorari and held that the circuit
court's adoption of the State's answer to the Rule 32 petition
conflicted with its decision in
Ex parte Ingram, 51 So.3d
1119 (Ala.2010). The Court reasoned:
“Scott argues that the trial court's order contains the same
citation to caselaw that had been overruled by this Court
two years before the entry of the trial court's order and
the same typographical errors as contained in the State's
answer. Moreover, Scott contends that because the trial
court adopted nearly verbatim the State's answer as its
order, the order is infected with the adversarial zeal of
the State's counsel. Thus, Scott argues that the trial court's
order cannot reflect the independent and impartial findings
of the trial court and cannot be the product of the trial
court's independent judgment. As for Scott's claim that the
presence in the trial court's order of the same typographical
errors contained in the State's answer is evidence that
the trial court's order is not a product of the independent
judgment of the trial court, we note that Scott has directed
this Court to only two examples of such typographical
errors appearing in the approximately 58 pages of text
that constitute the State's answer and the trial court's
order. This Court recognized in
Ex parte Ingram[, 51
So.3d 1119 (Ala.2010),] that sometimes minor errors find
their way into orders drafted by trial courts. We do not
consider the few typographical errors at issue here, by
themselves, as sufficient evidence upon which to base a
conclusion that the trial court's order is not a product of the
trial court's independent judgment. The fact that the same
typographical errors appear in the same locations in both
the State's answer and the trial court's order does, *358
however, bolster this Court's conclusion reached infra that
the trial court's order is not a product of its independent
judgment. We also note that the State's answer and the trial
court's order are both 58 pages in length. Again, although
this fact alone is insufficient evidence upon which to base a
conclusion that the order is not a product of the trial court's
independent judgment, it bolsters this Court's conclusion

reached infra that the trial court's order is not a product of
its independent judgment.
“Further, Scott notes that in adopting the State's answer
the trial court repeated in its order the State's citation to
and reliance upon
Williams v. State, 783 So.2d 108
(Ala.Crim.App.2000), a case that had been overruled by
this Court approximately two years before the trial court
entered its order in this case. In
Ex parte Taylor, 10
So.3d 1075 (Ala.2005), this Court by implication overruled
the Court of Criminal Appeals' holding in
Williams that
‘ “a finding of no manifest injustice under the ‘plain error’
standard on a direct appeal serves to establish a finding
of no prejudice under the test for ineffective assistance of
counsel provided in

Strickland v. Washington, 466 U.S.

668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984).” '

Williams,

783 So.2d at 133 (quoting
State v. Clark, 913 S.W.2d
399, 406 (Mo.Ct.App.1996) (footnote omitted)). The trial
court did not cite

Williams for purposes of that holding;

Williams was cited in support of
rather, it is clear that
the trial court's conclusion that Scott had failed to satisfy
his burden of pleading under Rule 32. There is no error in
citing and relying upon a case for a particular proposition
of law when that case has been reversed on a ground other
than the specific proposition of law being relied upon. The
trial court's citation to Williams in this case does not rise
to the level of a material and obvious error as contemplated
by the holding in

Ex parte Ingram, supra. Accordingly,

we do not consider the trial court's citation to
Williams
as evidence indicating that the trial court's order is not a
product of the trial court's independent judgment.
“More troubling is Scott's contention that because the trial
court adopted verbatim the State's answer as its order,
the order is infected with the same adversarial zeal of
the State's counsel as is the answer. Scott contends that,
although an order prepared by a party for the proposed
adoption by the trial court purports to be disinterested,
the adversarial zeal of counsel all too often infects
the adopted order of the trial court, which is supposed
to contain disinterested findings. See
Cuthbertson v.
Biggers Bros., Inc., 702 F.2d 454 (4th Cir.1983). Scott
contends that an answer is a pleading that never is prepared
with the pretense of impartiality. We agree. As Scott
contends, an answer, by its very nature, is adversarial and

229a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

9

Miller v. State, 99 So.3d 349 (2011)

sets forth one party's position in the litigation. It makes no
claim of being an impartial consideration of the facts and
law; rather, it is a work of advocacy that exhorts one party's
perception of the law as it pertains to the relevant facts. The
Court of Criminal Appeals acknowledged the nature of the
State's answer in this case, stating that ‘the pleading clearly
advocated and sought summary dismissal of the majority
of Scott's claims.’

Scott v. State, –––So.3d at ––––.

“This Court stated in Ex parte Ingram that the ‘appellate
courts must be careful to evaluate a claim that a prepared
order drafted by the prevailing party and adopted by the
trial court verbatim does not reflect the independent *359
and impartial findings and conclusions of the trial court.’
Ex parte Ingram, 51 So.3d at 1124 (emphasis added).
Here, we do not even have the benefit of an order proposed
or ‘prepared’ by a party; rather the order is a judicial
incorporation of a party's pleading as the ‘independent and
impartial findings and conclusions of the trial court.’ Id.
at 1124. The first and most fundamental requirement of
the reviewing court is to determine ‘that the order and the
findings and conclusions in such order are in fact those of
Id. at 1124. The trial court's verbatim
the trial court.’
adoption of the State's answer to Scott's Rule 32 petition as
its order, by its nature, violates this Court's holding in Ex
parte Ingram. Accordingly, we must reverse the Court of
Criminal Appeals' judgment insofar as it affirms the trial
court's adoption of the State's answer as its order, and we
remand the case to the Court of Criminal Appeals with
directions to remand the case to the trial court for that court
to reverse its order dismissing Scott's Rule 32 petition and
to enter a new order in light of this opinion.”
––– So.3d at ––––.
The fact situation in this case is distinguishable from the fact
situations in Ex parte Ingram and Ex parte Scott. Here,
the circuit judge who denied Miller's Rule 32 petition did
not preside at Miller's trial; however, in the order denying
Miller's Rule 32 petition the court did not profess to have
personal knowledge of the performance of Miller's trial
counsel. Furthermore, the circuit court in this case did not
base its order denying Miller's Rule 32 petition upon the
State's initial answer to the Rule 32 petition. Rather, after
numerous pleadings, and after the evidentiary hearing on
Miller's Rule 32 claims, the court allowed submission of

post-hearing briefs. The State submitted with its post-hearing
brief a proposed order denying the petition. As stated above,
Miller neither objected in his reply brief to the possibility
of the circuit court's adopting the State's proposed order, nor
did he file a proposed order. Although the State's proposed
order was filed before Miller submitted his reply brief, this
does not mean that the circuit court ignored the arguments
subsequently presented in Miller's reply brief. In fact, the
circuit court did not issue its final order until several months
after Miller filed his reply brief. Furthermore, in response to
Miller's objection to the court's adopting the State's proposed
order, the circuit court specifically affirmed that it had
considered all the pleadings filed by the parties and that it had
“carefully weighed each of the arguments put forth in all the
submissions” before rendering its decision. (C. 2117, 2131.)
In light of these facts, we are confident that the circuit court's
order is its own and not merely an unexamined adoption
of a proposed order submitted by the State. Moreover, for
the reasons set forth below, we hold that the circuit court's
findings are not “clearly erroneous.”

II.
During his direct appeal, Miller was represented by two
new attorneys who were appointed following his conviction.
Miller argues that his appellate counsel rendered ineffective
assistance in the motion-for-new-trial proceedings and on
appeal. Although Miller presents numerous claims and
subclaims of ineffective assistance of appellate counsel in
his brief, and even though he often commingles claims and/
or presents those claims in a different context in his brief
than he presented the claims in his amended petition, Miller's
arguments on appeal can essentially be grouped into four
parts.
*360 First, Miller claims that because of time constraints
and the lack of an available trial transcript when appellate
counsel filed the motion for a new trial, his appellate
counsel should not have presented ineffective-assistance-oftrial-counsel claims in the motion for a new trial. (Miller's
brief, II(A), at 24–28; Miller's reply brief, at 11.) Miller
maintains that his appellate counsel's ill-informed decision
to raise ineffective-assistance-of-trial counsel claims in the
motion for a new trial precluded those claims being later
considered in a Rule 32 petition, as evidenced by the fact
that the circuit court dismissed Miller's Rule 32 ineffectiveassistance-of-trial-counsel claims. (Miller's brief, at 27.)

230a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

10

Miller v. State, 99 So.3d 349 (2011)

omission of counsel was unreasonable. Cf.
Engle v.
Isaac, 456 U.S. 107, 133–34, 102 S.Ct. 1558, 71 L.Ed.2d
783 (1982). A fair assessment of attorney performance
requires that every effort be made to eliminate the
distorting effects of hindsight, to reconstruct the
circumstances of counsel's challenged conduct, and to
evaluate the conduct from counsel's perspective at the
time. Because of the difficulties inherent in making the
evaluation, a court must indulge a strong presumption
that counsel's conduct falls within the wide *361
range of reasonable professional assistance; that is,
the defendant must overcome the presumption that,
under the circumstances, the challenged action “might

Second, Miller argues that having made the decision to
present claims of ineffective assistance of trial counsel in
the motion-for-new-trial proceedings, appellate counsel had
an obligation to thoroughly investigate those claims, which,
Miller maintains, his appellate counsel failed to do. (Miller's
brief, II(B)(1) at 28–33; Miller's reply brief, at 11–13.)
Third, Miller asserts that his appellate counsel failed to
adequately argue and support the ineffective-assistance-oftrial–counsel claims that were presented in the hearing on the
motion for a new trial and on appeal. (Miller's brief, II(B)(2),
at 33–124; Miller's reply brief, at 13–38.) In that portion of
his argument, Miller incorporates a number of his claims of
ineffective assistance of trial counsel, and he argues that had
his appellate counsel properly presented those ineffectiveassistance-of-trial-counsel claims at the hearing on the motion
for a new trial, he would have prevailed on those claims.
Fourth, Miller contends that his appellate counsel failed
to present numerous additional allegations of ineffective
assistance of trial counsel in the motion for a new trial. Miller
alleges that had his appellate counsel properly raised and
supported those additional claims in the motion-for-new-trial
proceedings and on appeal, he would have been entitled to
relief. (Miller's brief, II(C), at 124–48; Miller's reply brief, at
39.)

be considered sound trial strategy.” See
Michel v.
Louisiana, [350 U.S. 91], at 101 [ (1955) ]. There are
countless ways to provide effective assistance in any
given case. Even the best criminal defense attorneys
would not defend a particular client in the same way.’
“ Strickland, 466 U.S. at 689, 104 S.Ct. 2052 (citations
omitted). As the United States Supreme Court further
stated:
“ ‘[S]trategic choices made after thorough investigation
of law and facts relevant to plausible options are virtually
unchallengeable; and strategic choices made after less
than complete investigation are reasonable precisely
to the extent that reasonable professional judgments
support the limitations on investigation. In other words,
counsel has a duty to make reasonable investigations
or to make a reasonable decision that makes particular
investigations unnecessary. In any ineffectiveness case,
a particular decision not to investigate must be directly
assessed for reasonableness in all the circumstances,
applying a heavy measure of deference to counsel's
judgments.’

Before addressing Miller's specific claims, we set forth the
general principles of law regarding ineffective-assistance-ofcounsel claims.
When reviewing claims of ineffective assistance of counsel,
we apply the standard articulated by the United States
Supreme Court in
Strickland v. Washington, 466 U.S.
668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984). To prevail on
a claim of ineffective assistance of counsel, the petitioner
must establish: (1) that counsel's performance was deficient;
and (2) that the petitioner was prejudiced by the deficient
performance. 466 U.S. at 687; Ex parte Lawley, 512 So.2d
1370, 1372 (Ala.1987).
“ ‘Judicial scrutiny of counsel's performance must
be highly deferential. It is all too tempting for a
defendant to second-guess counsel's assistance after
conviction or adverse sentence, and it is all too easy
for a court, examining counsel's defense after it has
proved unsuccessful, to conclude that a particular act or

“

Strickland, 466 U.S. at 690–91.

“In
Jones
v.
State,
(Ala.Crim.App.1999), we stated:

753

So.2d

1174

“ ‘While counsel has a duty to investigate in an attempt
to locate evidence favorable to the defendant, “this duty
only requires a reasonable investigation.” Singleton v.
Thigpen, 847 F.2d 668, 669 (11th Cir.(Ala.) 1988), cert.
denied, 488 U.S. 1019, 109 S.Ct. 822, 102 L.Ed.2d
812 (1989) (emphasis added). See

231a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

Strickland [v.

11

Miller v. State, 99 So.3d 349 (2011)

Washington ], 466 U.S. [668] at 691, 104 S.Ct. [2052] at
2066, 80 L.Ed.2d 674 [ (1984) ];
Morrison v. State,
551 So.2d 435 (Ala.Cr.App.1989), cert. denied, 495 U.S.
911, 110 S.Ct. 1938, 109 L.Ed.2d 301 (1990). Counsel's
obligation is to conduct a “substantial investigation into
each of the plausible lines of defense.”
Strickland,
466 U.S. at 681, 104 S.Ct. at 2061 (emphasis added). “A
substantial investigation is just what the term implies; it
does not demand that counsel discover every shred of
evidence but that a reasonable inquiry into all plausible
defenses be made.”
2063.

Id., 466 U.S. at 686, 104 S.Ct. at

“ ‘ “The reasonableness of counsel's actions may
be determined or substantially influenced by the
defendant's own statements or actions. Counsel's
actions are usually based, quite properly, on informed
strategic choices made by the defendant and on
information supplied by the defendant. In particular,
what investigation decisions are reasonable depends
critically on such information.”
“‘
“

Id., 466 U.S. at 691, 104 S.Ct. at 2066.’

753 So.2d at 1191.
“ ‘The purpose of ineffectiveness review is not to grade
counsel's performance. See Strickland [v. Washington
], [466 U.S. 668,] 104 S.Ct. [2052] at 2065 [ (1984) ];
see also
White v. Singletary, 972 F.2d 1218, 1221
(11th Cir.1992) (“We are not interested in grading
lawyers' performances; we are interested in whether the
adversarial process at trial, in fact, worked adequately.”).
We recognize that “[r]epresentation is an art, and an act
or omission that is unprofessional in one case may be
sound or *362 even brilliant in another.” Strickland,
[466 U.S. at 693,] 104 S.Ct. at 2067. Different lawyers
have different gifts; this fact, as well as differing
circumstances from case to case, means the range of
what might be a reasonable approach at trial must be
broad. To state the obvious: the trial lawyers, in every
case, could have done something more or something
different. So, omissions are inevitable. But, the issue is
not what is possible or “what is prudent or appropriate,
but only what is constitutionally compelled.”
Burger
v. Kemp, 483 U.S. 776, 107 S.Ct. 3114, 3126, 97 L.Ed.2d
638 (1987).’

“ Chandler v. United States, 218 F.3d 1305, 1313 (11th
Cir.2000) (footnote omitted).”
Ray, 80 So.3d at 975–76.
With the above principles in mind, we turn to Miller's specific
allegations of ineffective assistance of appellate counsel
presented on appeal.

A.
As noted above, Miller first claims that because of judicially
imposed time constraints and the lack of an available trial
transcript at the time the new-trial motion was filed, his
appellate counsel should not have presented ineffectiveassistance-of-trial-counsel claims in the motion for a new
trial. (Miller's brief, II(A), at 24–28; Miller's reply brief, at
11.) Miller maintains that appellate counsel's “ill-informed”
decision to assert claims of ineffective assistance of trial
counsel in the motion for a new trial precluded those claims
being later considered in a Rule 32 petition, as evidence by the
fact that the circuit court summarily dismissed Miller's Rule
32 ineffective-assistance-of-trial-counsel claims.
The State maintains that this claim is not properly before
this Court because it was not presented in Miller's amended
Rule 32 petition—Miller's claim in his amended Rule 32
petition was that his appellate counsel were ineffective in their
investigation and presentation of the claims of ineffective
assistance of trial counsel that were presented in the motion
for a new trial and on appeal, not that it was ineffective per
se to assert claims of ineffective assistance of trial counsel
in the motion for a new trial. (C. 352–56.) However, Miller's
present claim was addressed in the evidentiary hearing and
in the circuit court's order denying the petition. Accordingly,
under these circumstances, this claim is before this Court for
our consideration.
The circuit court found that Miller failed to prove that his
appellate counsel were ineffective for presenting ineffectiveassistance-of-counsel claims in the motion-for-new-trial
proceedings and that Miller failed to establish that he was
prejudiced by appellate counsel's decision to do so. We quote
extensively from the circuit court's order denying relief on
this claim:

232a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

12

Miller v. State, 99 So.3d 349 (2011)

“In
Ex parte Jackson, 598 So.2d 895 (Ala.1992), the
Supreme Court of Alabama created a mechanism through
which newly appointed appellate attorneys could raise
ineffective assistance of trial counsel claims in a motion for
new trial and on appeal. In particular, the court created an
exception to the requirement, set forth in Rule 24.1(b) of
the Alabama Rules of Criminal Procedure, that a motion
for new trial must be filed ‘no later than thirty (30) days
after sentence is pronounced.’ Id. at 897. The exception
provided that newly appointed appellate attorney could file
a motion, within fourteen days of being appointed to extend
the 30–day time period for filing the motion for new trial.
Id. Once that motion, known as a ‘ Jackson motion,’
was filed, the attorney automatically would have thirty
days ‘from *363 the date the reporter's transcript is filed’
to file a motion for new trial.
Id. The court reasoned
that this exception was necessary because it would enable
new counsel to raise ‘all appropriate issues before the trial
court,’ including claims alleging that the defendant's trial
counsel were ineffective.

Id. at 897–898.

“Acknowledging that the
Jackson mechanism had
created more problems in practical application than
it solved, the Supreme Court of Alabama, in
Ex
parte Ingram, 675 So.2d 863, 865 (Ala.1996), overruled
Jackson only ‘to the extent that it allows newly
appointed appellate counsel to move to suspend the Rule
24.1(b), Ala. R.Crim. P., 30–day jurisdictional time limit
for new trial motions.’ The Court did, however, strongly
encourage trial judges ‘to attempt to facilitate newly
appointed appellate counsel's efforts to make new trial
motions based upon an alleged lack of ineffective counsel
before the Rule 24.1(b) time limit expires.’

Id. Because

the Court overruled
Jackson only to the extent that it
permitted a newly appointed attorney to move to suspend
the Rule 24.1(b) time limit for filing a motion for new trial,
the Court, in
Ingram, left intact
Jackson's holding
that the ‘failure to include a reasonably ascertainable issue
in a motion for new trial will result in a bar to further
argument of the issue on appeal and in post-conviction
proceedings.’
added.)

Jackson, 598 So.2d at 897 (emphasis

“After the Supreme Court of Alabama issued its decision
Ingram, the Court amended Rule 32 of the Alabama
in
Rules of Criminal Procedure by adopting Rule 32.2(d).
That rule was adopted to address claims of ineffective
assistance of counsel. Rule 32.2(d) of the Alabama Rules of
Criminal Procedure provides that, ‘Any claim that counsel
was ineffective must be raised as soon as practicable, either
at trial, on direct appeal, or in the first Rule 32 petition,
whichever is applicable.’ See V.R. v. State, 852 So.2d 194,
199 n. 1 (Ala.Crim.App.2002).
“In Russell v. State, 886 So.2d 123, 125–26
(Ala.Crim.App.2003), the Alabama Court of Criminal
Appeals held that the appellant's ineffective assistance
of trial counsel claims were procedurally barred from
review, under Rule 32.2(a) of the Alabama Rules of
Criminal Procedure, because they reasonably could have
been presented in a motion for new trial and on direct
appeal. In reaching that result, the court held that a Rule
32 petitioner's ineffective assistance of trial counsel claims
will be procedurally barred from review if the transcript
of the trial was prepared in time for appellate counsel to
raise those claims in a timely filed motion for new trial.
Id. at 126. Cf. V.R., 852 So.2d at 202 ( [‘A] defendant is
not precluded ... from raising an ineffective assistance of
trial counsel claim for the first time in a Rule 32 petition
if the trial transcript was not prepared in time for appellate
counsel to have reviewed the transcript to ascertain whether
such a claim was viable and to present the claim in a timely
filed motion for a new trial.’).
“In short, Alabama law provides that a defendant must raise
ineffective assistance of trial counsel claims as soon as
‘practicable.’ See Ala. R.Crim. P. 32.2(d). In addition, a
Rule 32 petitioner's ineffective assistance of trial counsel
claims will be procedurally barred from review, under Rule
32.2(a) of the Alabama Rules of Criminal Procedure, if
newly appointed appellate counsel had the trial transcript
and raised (or reasonably could have raised) ineffective
assistance of trial counsel claims in the trial court. That is
precisely what occurred here.
*364 “On July 31, 2000, the trial court sentenced Miller
to death. [Direct Appeal, C. 89–90.] During the sentencing
hearing, the trial court stated that new counsel would be
appointed for Miller's appeal. [Direct Appeal, R. 1473–
74.] Mr. William R. Hill, Jr. and Mr. J. Haran Lowe,
Jr. (‘appellate counsel’) were subsequently appointed and
filed a motion for new trial on or about August 1, 2000.

233a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

13

Miller v. State, 99 So.3d 349 (2011)

[Direct Appeal, C. 93–94.] In addition, appellate counsel
filed a ‘Motion for the State of Alabama to Provide
Transcript of Record.’ [Direct Appeal, C. 91–92.] On
August 25, 2000, appellate counsel filed an amended
motion for new trial alleging various claims including a
claim that Miller's due process rights were violated because
of the ineffectiveness of trial counsel. [Direct Appeal, C.
7, 95–97.] On August 30, 2000, the trial court granted a
joint motion to continue the hearing on Miller's motion for
new trial until October 13, 2000 in order for the transcript
of Miller's trial to be completed. [Direct Appeal, C. 108–
10.] After the trial court granted Miller funds for expert
assistance, the hearing on the motion for new trial was
again continued until December 7, 2000. [Direct Appeal,
C. 7, 132.]
“The trial court conducted hearings on Miller's motion for
new trial on December 7, 2000 and January 31, 2001.
[Direct Appeal, Motion for New Trial Hearing, R. 4–176.]
During the December 7, 2000 hearing, Miller, through
appellate counsel, called his trial counsel, Mickey Johnson,
at the hearing and questioned him extensively regarding his
preparation for and performance during his trial as well as
his trial strategies. [Motion for New Trial Hearing, R. 4–
110.] On January 31, 2001, Miller presented the testimony
of Dr. Bob Wendorf, a clinical psychologist, to critique Dr.
Scott's testimony during the penalty phase of Miller's trial.
[Direct Appeal, Motion for New Trial Hearing, 111–156.]
Miller also called Aaron McCall from the Alabama Prison
Program to discuss the role and availability of mitigation
expert assistance. [Direct Appeal, Motion for New Trial
Hearing, R. 157–175.] After the hearing, Miller filed a brief
in support of motion for new trial and provided arguments
in support of his claims of ineffective assistance of counsel.
[Direct Appeal, C. 114–25.]
On February 21, 2001, the trial court denied Miller's
motion for new trial. [Direct Appeal, C. 132.] Miller
subsequently filed a brief on appeal in the Alabama Court
of Criminal Appeals, in which he raised a number of
ineffective assistance of trial counsel claims. On remand
from the Court of Criminal Appeals, the trial court entered
a written order providing specific findings of fact regarding
the claims raised in Miller's motion for new trial. 2 In
that order, the trial court addressed Miller's ineffective
assistance of trial counsel claims at length: 1) that trial
counsel admitted Miller's guilt during the guilt phase
opening statements, 2) that trial counsel failed to present an
insanity defense during the guilt phase, 3) that trial counsel
failed to move for a change of venue, 4) that trial counsel

failed to present a defense during the guilt phase of trial,
5) that trial counsel undermined the mitigation case during
the penalty phase *365 opening statement, 6) that trial
counsel failed to object to victim impact testimony during
the penalty phase, 7) that trial counsel failed to adequately
investigate and present a penalty phase defense, and 8) that
trial counsel failed to challenge the constitutionality of the
heinous, atrocious, and cruel aggravating circumstance.
“In reviewing those claims, the trial court found all of
Miller's claims of ineffective assistance of trial counsel
to be without merit.... Thus, the trial court thoroughly
reviewed and considered the evidence that was presented
at the hearing on Miller's motion for new trial. Based both
on the trial court's review of that evidence and personal
knowledge of what transpired during his trial, the trial
court rejected Miller's ineffective assistance of trial counsel
claims and denied relief.
“On return from remand, the Court of Criminal
Appeals affirmed Miller's capital murder conviction
and death sentence. Miller v. State, 913 So.2d
1148 (Ala.Crim.App.2004). In its decision, that Court
thoroughly reviewed and rejected his ineffectiveassistance-of-trial-counsel claims. Miller, 913 So.2d at
1161–63.
“As shown above, Miller, through appellate counsel,
moved this Court to continue the hearing on his motion
for new trial until the trial transcript was completed
to allow for a full review of his ineffective assistance
of trial counsel claims. [Direct Appeal, C. 108–09.]
Given that the trial court appointed appellate counsel
to represent Miller on or about August 1, 2000 and the
hearing on Miller's motion for new trial were not held
until December 7, 2000 and January 31, 2001, nearly six
months passed between the trial court's appointment of
appellate counsel and the completion of the hearing on
Miller's motion for new trial. As appellate counsel Hill
testified during the Rule 32 hearing, this lengthy period
of time was utilized to study the transcript of Miller's
trial, review trial counsel's files, conduct legal research,
discuss strategy with appellate counsel Lowe, interview
Miller, talk with Miller's mother and otherwise prepare
to litigate Miller's ineffective-assistance of-trial-counsel
claims. [August 2008 Rule 32 Hearing, R. 13, 60–62.]
“Thus, Miller's newly appointed appellate counsel had
a copy of his trial transcript, 3 engaged in an in depth

234a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

14

Miller v. State, 99 So.3d 349 (2011)

investigation of his ineffective assistance of trial counsel
claims, and fully litigated those claims at the hearing on
his motion for new trial.”
(C. 1959–67.) (Emphasis in original.)
[8] The circuit court's findings of fact and conclusions
of law are supported by the record. However, we need
not determine whether appellate counsel's performance was
deficient because even if we were to assume for the sake
of argument that Miller's appellate counsel should not have
asserted claims of ineffective assistance of trial counsel in
the motion for a new trial without having sufficient time to
prepare a comprehensive case to support those claims, Miller
is still due no relief because, as discussed throughout the
remainder of this opinion, Miller has failed to establish the
requisite prejudice.
“A defendant claiming ineffective assistance of counsel
in violation of the Sixth Amendment must demonstrate
that: (1) counsel's performance was deficient, and (2) the
deficient performance *366 prejudiced the outcome of
Strickland, 466 U.S. at 687, 104
the proceedings. See
S.Ct. at 2064. ‘Unless a defendant makes both showings, it
cannot be said that the conviction or death sentence resulted
from a breakdown in the adversary process that renders the
result unreliable.’

Id. ...

“Because the failure to demonstrate either deficient
performance or prejudice is dispositive of the claim against
the petitioner, ‘there is no reason for a court deciding an
ineffective assistance claim to ... address both components
of the inquiry if the defendant makes an insufficient
showing on one.’
Strickland, 466 U.S. at 697, 104
S.Ct. at 2069. Accordingly, we may consider whether the
petitioner suffered prejudice as a result of counsel's alleged
errors without first evaluating the adequacy of counsel's
id.; see also
McClain v. Hall, 552
performance. See
F.3d 1245, 1251 (11th Cir.2008) ( ‘We may decline to
decide whether the performance of counsel was deficient if
we are convinced that [the petitioner] was not prejudiced’).
In fact, the Supreme Court has made clear that ‘[t]he
object of an ineffectiveness claim is not to grade counsel's
performance’ and therefore, ‘[i]f it is easier to dispose of
an ineffectiveness claim on the ground of lack of sufficient
prejudice, which we expect will often be so, that course
should be followed.’
S.Ct. at 2069.”

Strickland, 466 U.S. at 697, 104

Windom v. Secretary, Dep't of Corr., 578 F.3d 1227, 1248
(11th Cir.2009), cert. denied, Windom v. McNeil, ––– U.S.
––––, 130 S.Ct. 2367, 176 L.Ed.2d 566 (2010).

B.
[9] In the second part of his argument, Miller contends that
having made the decision to present ineffective-assistance-oftrial-counsel claims in the motion for a new trial, appellate
counsel had an obligation to thoroughly investigate those
claims, which, he claims, appellate counsel failed to do.
(Miller's brief, II(B)(1), at 28–33; Miller's reply brief, at 11–
15.)
Specifically, Miller alleges that his appellate counsel's
investigation of trial counsel's representation was deficient
because, he claims: (1) appellate counsel did not speak with
trial counsel or review the court file or trial counsel's files, nor
did appellate counsel speak to any trial witnesses or members
of Miller's family in preparation for the motion for a new trial;
(2) appellate counsel met with Miller only twice before the
hearing on the motion for a new trial; (3) appellate counsel
did not spend adequate time preparing for the hearing on the
motion for a new trial; (4) appellate counsel did not interview
or speak with Miller's family, friends, or coworkers before
the hearing and therefore counsel did not learn of possible
mitigating evidence that could have been, but was not,
presented at trial; (5) appellate counsel failed to interview Dr.
Scott, who testified as the mitigation witness, and therefore
appellate counsel did not learn of trial counsel's alleged
incompetence in dealing with Dr. Scott; (6) appellate counsel
were ineffective in failing to gather and evaluate documents
that had not been gathered by trial counsel, including
Miller's medical records, educational records, employment
records, Department of Human Resources records, Miller
family mental-health and criminal records, and files and
reports of the State's psychological experts; and therefore, (7)
appellate counsel did not effectively evaluate trial counsel's
performance or establish prejudice based on trial counsel's
inadequate performance.
Although Miller limits this portion of his argument in his brief
to the adequacy of his appellate counsel's investigation of
the claims presented in the motion-for-new-trial proceedings,
in his amended Rule 32 *367 petition he alleged that
his appellate counsel's investigation and presentation of the
claims were deficient. (C. 352–56.) As a result, the circuit

235a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

15

Miller v. State, 99 So.3d 349 (2011)

court addressed the whole of appellate counsel's performance
with regard to the post-sentencing proceedings, i.e., the court
addressed appellate counsel's investigation, preparation, and
the presentation of the ineffective-assistance-of-trial-counsel
claims in the motion-for-new-trial proceedings and on appeal.
Because the portion of the circuit court's order addressing
this claim does not lend itself to piecemeal exception, we set
forth the circuit court's findings as a whole with regard to
the performance prong of appellate counsel's assistance in the
new trial proceedings:
“In paragraphs 280–288 [C. 352–56] of his amended
petition, Miller alleges that his appellate counsel were
ineffective during their investigation and preparation for
his motion for a new trial and on direct appeal. Miller
claims that his appellate counsel were ineffective in the
following areas: 1) that his appellate counsel did nothing
to independently investigate his case (Paragraphs 282–83)
[C. 352–53], 2) that appellate counsel were ineffective in
arguing that trial counsel was ineffective for withdrawing
the insanity defense and failing to present evidence in
the guilt phase to negate intent (paragraph 284) [C. 353–
54], 3) that appellate counsel failed to obtain medical
records for Miller and his family and failed to have
Miller independently examined by a mental health expert
(Paragraphs 285–86) [C. 354–55], 4) and that appellate
counsel failed to raise additional claims of error during
the motion for new trial such as trial counsel's allegedly
ineffective performance during voir dire (Paragraphs 287)
[C. 355–56.]
“Miller's claim is denied because he has failed to prove
that his appellate counsel's performance during the motion
for new trial hearing and on direct appeal was deficient
and unreasonable. Miller also failed to demonstrate that
appellate counsel's performance was not the product of a
strategic decision.
“Miller's appellate counsel went to great lengths to fully
investigate the issue of ineffectiveness of trial counsel
during the hearing on Miller's motion for new trial. After
being appointed as appellate counsel for Miller and filing
a motion for new trial, appellate counsel obtained several
continuances for the hearing on the motion for new trial in
order for the trial transcript to be prepared. [Direct Appeal,
C. 132.] Appellate counsel utilized this time to investigate,
research and prepare to present several claims of ineffective
assistance of trial counsel.

“Appellate counsel Billy Hill testified at the Rule 32
hearing that during this time before the trial transcript was
completed, he met with Miller in the Shelby County jail an
obtained general family background information. [August
2008 Rule 32 Hearing, R. 13, 15.] Hill also testified that
he reviewed reports of trial counsel's conduct in the local
newspapers and both Hill and appellate counsel Haran
Lowe testified that they interviewed and discussed the trial
with Barbara Miller, Alan's mother. [August 2008 Rule
32 Hearing, R. 22, 30, 84.] During the interview with
Ms. Miller, appellate counsel was alerted to the possible
history of mental illness in Miller's family. [August 2008
Rule 32 Hearing, R. 30–31.] As a result, appellate counsel
attempted to obtain access to the mental health records of
Miller's grandfather and father from Bryce Hospital but
was unsuccessful. [August 2008 Rule 32 Hearing, R. 34,
86.]
“Hill and Lowe received the trial transcript on November 2,
2000, studied the *368 transcript and identified potential
errors and defects in trial counsel's performance. [August
2008 Rule 32 Hearing, R. 23, 84–85.] After examining
the transcript, appellate counsel conducted legal research,
reviewed Dr. Scott's report of his evaluation of Miller,
acquired and reviewed [lead] trial counsel Johnson's entire
case file, and gathered newspaper articles about Miller's
trial that were written in the Shelby County area. [August
2008 Rule 32 Hearing, R. 60.] Finally, Hill testified that
they interviewed Johnson in preparation for the hearing on
the motion for new trial. [August 2008 Rule 32 Hearing,
R. 36.]
“Based on this investigation and after spending a great deal
of time thinking about Miller's case, Hill testified that he
identified several major concerns regarding trial counsel's
performance. [August 2008 Rule 32 Hearing, R. 41–43,
58.] Specifically, Hill stated that he was concerned about
trial counsel Johnson's failure to present a mental capacity
argument during the guilt phase, that Johnson dropped the
insanity defense, that Johnson had a ‘defeatist attitude’ and
that there was significant pre-trial publicity. [August 2008
Rule 32 Hearing, R. 41–42.] Accordingly, Hill testified that
he focused on preparing to present those claims that would
provide the strongest argument for relief during the hearing
on the motion for new trial. [August 2008 Rule 32 Hearing,
R. 63.]
“To address the specific concerns regarding trial counsel's
performance, Hill called Johnson to testify during the

236a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

16

Miller v. State, 99 So.3d 349 (2011)

December 7, 2000, hearing. [Direct Appeal, Motion for
New Trial Hearing, R. 4–110.] During the evidentiary
hearing, Hill stated his strategic purpose for calling
Johnson [was]: 1) to emphasize statements made by
Johnson before trial that were prejudicial, 2) to show that
essentially no mitigation testimony was presented, and 3)
that trial counsel did not present mental health evidence
during the case in chief. [August 2008 Rule 32 Hearing, R.
43.]
“A review of appellate counsel's questioning of Johnson
during the December 7, 2000 motion for new trial hearing
demonstrates that Hill thoroughly examined Johnson on
those issues. The focal point of Hill's examination of
Johnson centered on Johnson's strategy during the guilt
phase of Miller's trial. [Motion for New Trial Hearing, R.
14–17, 29–37.] Hill specifically asked Johnson whether
he actually had a theory of defense to the charge of
capital murder. [Motion for New Trial Hearing, R. 14.]
After Johnson stated that the evidence of guilt was too
overwhelming, Hill then probed Johnson on why he did
not have Dr. Scott ‘make an examination as to whether
or not his delusional diagnosis could have impacted his
ability to form a specific intent’ so that a manslaughter
defense could have been argued during the guilt phase.
[Motion for New Trial Hearing, R. 16.] Hill then elicited
testimony from Johnson that he did not use the readily
available evidence in Dr. Scott's report that Miller was in
a delusional state, made no attempts to shoot witnesses,
made no attempt to cover up the crime, and that Miller did
not understand what was going on to argue during the guilt
phase that Miller could not form specific intent necessary
to sustain a conviction for capital murder. [Motion for New
Trial Hearing, R. 28–29, 36–37.] Finally, in response to
Hill's questioning, Johnson agreed that he had ‘conceded
the guilt phase of this case.’ [Motion for New Trial Hearing,
R. 35.]
“Next, Hill introduced reports from a number of
newspapers, including the Birmingham News, which
preceded Miller's trial. [Motion for New Trial Hearing,
*369 R. 50.] Hill then questioned Johnson on why he
was not concerned that comments Johnson made in the
Birmingham News regarding the withdrawal of the insanity
plea could have been prejudicial. [Motion for New Trial
Hearing, R. 52.] Hill then asked Johnson whether he was
aware of the extensive coverage of Miller's case and why
Johnson did not move for a change of venue. [Motion for
New Trial Hearing, R. 54.]

“Finally, Hill questioned Johnson regarding his trial
strategy during the penalty phase, Johnson's investigation
of mitigating evidence and the presentation of mitigation
evidence during the penalty phase. [Motion for New
Trial Hearing, R. 17–25, 65–70.] Johnson testified that
his strategy during the penalty phase involved presenting
the testimony of Dr. Scott to demonstrate that Miller
suffered from a diminished capacity. [Motion for New
Trial Hearing, R. 17–18.] Hill then repeatedly questioned
Johnson on the reasons he did not present additional
mitigating evidence such as testimony concerning Miller's
bad relationship with his father, the testimony of Miller's
family members, specifically his mother, Barbara Miller,
concerning Miller's background and evidence of Miller's
grandfather's psychiatric issues. [Motion for New Trial
Hearing, R. 20–24, 65–68.]
“In a further attempt to prove the trial counsel was
ineffective in the presentation of mental health evidence,
appellate counsel sought and were granted funds to hire Dr.
Bob Wendorf, a clinical psychologist who testified at the
January 31, 2001 hearing on Miller's motion for new trial.
[Direct Appeal, C. 132.] Appellate counsel Hill stated that
he made a strategic decision to call Dr. Wendorf in order to
show that based on the information available in Dr. Scott's
report, there were additional psychological diagnoses that
could have pertained to Miller that were not pursued by
trial counsel. [August 2008 Rule 32 Hearing, R. 44, 70.]
Specifically, based on the information contained in Dr.
Scott's report that Miller described himself as being in a
dream state during the shootings, Dr. Wendorf testified
that such actions were consistent with symptoms of a
dissociative disorder such as post-traumatic stress disorder
or multiple personality disorder. [Motion for New Trial
Hearing, R. 144–46.] Hill then elicited from Dr. Wendorf
that the effects of such disorders could have had an impact
on the ability to form intent. [Motion for New Trial
Hearing, R. 147.]
“Finally, in an effort to prove that trial counsel had not
presented adequate mitigation evidence during the penalty
phase, appellate counsel called Aaron McCall, an employee
of the Alabama Prison Project to testify during the January
31, 2001 hearing. [Motion for New Trial Hearing, R. 157–
175.] Hill testified during the evidentiary hearing that
the strategic purpose for calling McCall was to prove
that a qualified mitigation expert witness was available
to conduct a full mitigation investigation of Miller's life.
[August 2008 Rule 32 Hearing, R. 49.] In fact, in an effort

237a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

17

Miller v. State, 99 So.3d 349 (2011)

to demonstrate that mitigation experts were available at the
time of Miller's trial, appellate counsel Lowe introduced a
letter sent by McCall to trial counsel Johnson in August of
1999 in which the Alabama Prison Project offered services
and assistance in providing mitigating evidence for the
trial. [Motion for New Trial Hearing, R. 158–60.]
“The evidence presented during the Rule 32 evidentiary
hearing demonstrates that both appellate counsel
vigorously investigated Miller's case in *370 preparation
for presenting a case of ineffective assistance of counsel
and adequately presented such claims during the December
7, 2000 and January 31 2001 hearings on Miller's
motion for new trial. Miller has not met the burden of
demonstrating that his appellate counsel's performance was
Strickland prong. Miller has
deficient under the first
failed to establish that appellate counsel's performance was
so unreasonable that no competent counsel would have
investigated and presented claims of ineffective assistance
of trial counsel during the motion for new trial hearing and
on direct appeal in the manner in which appellate counsel
Hill and Lowe presented Miller's case. See Grayson v.
Thompson, 257 F.3d 1194, 1216 (11th Cir.2001).
“Contrary to Miller's claims in paragraph 282 of his
amended petition that appellate counsel did not interview
family members, Hill and Lowe specifically stated that they
interviewed Barbara Miller in preparation for the hearing
on the motion for new trial. [August 2008 Rule 32 Hearing,
R. 30, 84.] Contrary to Miller's claims that appellate
counsel did not obtain any documents pertaining to Miller's
life and background, both of his appellate counsel testified
that they unsuccessfully attempted to obtain Miller's family
psychiatric records. [August 2008 Rule 32 Hearing, R. 34,
86.] Simply because appellate counsel were unsuccessful
in obtaining these records does not demonstrate deficient
performance. Furthermore, even if the mental health
records of Miller's family members were obtained, Miller
has failed to establish that a competent attorney would
have introduced such records. Both Hill and Lowe testified
that in their extensive experience defending capital murder
cases, neither had introduced the psychiatric or medical
records of a defendant's extended family. [August 2008
Rule 32 Hearing, R. 69, 103.]
“Furthermore, although Hill testified that he did not
interview other family members or accumulate other
documents, Miller failed to present any evidence during
the evidentiary hearing as to why appellate counsel did
not conduct further interviews or obtain more of Miller's

records. Miller failed to question appellate counsel on the
strategic reasons for how appellate counsel conducted their
investigation in this regard. There is a strong presumption
that counsel's performance was within the ‘wide range of
reasonable professional assistance.’ Grayson v. Thompson,
257 F.3d 1194, 1216 (11th Cir.2001). ‘An ambiguous
or silent record is not sufficient to disprove the strong
and continuing presumption [because] where the record
is incomplete or unclear about [counsel's] actions, [the
court] will presume that he did what he should have done,
and that he exercised reasonable professional judgment.’
Chandler v. United States, 218 F.3d 1305, 1315, n.
15 (11th Cir.2000). Because the record is silent as to
why appellate counsel did not interview more of Miller's
family members and obtain additional educational, mental,
or employment records, this Court must presume that
appellate counsel acted reasonably in representing Miller.
For that reason, Miller's claims should be denied.
“Although Miller claims that appellate counsel
ineffectively argued that trial counsel failed to present
mental health evidence during the guilt phase that would
have negated the intent for capital murder, Hill specifically
questioned Johnson on his failure to present evidence of
Miller's mental condition during the guilt phase. [August
2008 Rule 32 Hearing, R. 64.] Hill testified that *371
he and Lowe made a strategic decision to challenge
trial counsel's performance in this regard during the guilt
phase. [August 2008 Rule 32 Hearing, R. 66.] Hill's
strategy involved demonstrating that there was evidence
within Dr. Scott's report that suggested Miller did not
appreciate the nature and quality of his acts, that this
evidence would be significant in mounting a defense to
capital murder charges, and that this evidence was not
presented during the guilt phase. [August 2008 Rule 32
Hearing, R. 64–64.] Appellate counsel's strategic choices
after conducting extensive legal research and review of
the trial transcript and Dr. Scott's report should not be
found to be deficient. See
Boyd v. State, 746 So.2d
364, 375 (Ala.Crim.App.1999) (‘Strategic choices made
after a thorough investigation of relevant law and facts
are virtually unchallengeable.’) The ultimate result that
appellate counsel's strategy to attempt to demonstrate
ineffective assistance of trial counsel was unsuccessful
does not prove deficient performance of appellate counsel.
See Davis v. State, [9 So.3d 539, 550 (Ala.Crim.App.2008)
] (‘ “The fact that a particular defense was unsuccessful
does not prove ineffective assistance of counsel.” ’)

238a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

18

Miller v. State, 99 So.3d 349 (2011)

(quoting Chandler v. United States, 218 F.3d 1305, 1314
(11th Cir.2000)).
“Finally, Miller has not proved that appellate counsel
were deficient under
Strickland for failing to present
additional claims of ineffective assistance of trial counsel
during the motion for new trial hearing that have been
raised by current post-conviction counsel. [C. 355–56.]
To constitute effective assistance, ‘an attorney is not
required to raise every conceivable constitutional claim
Boyd, 746 So.2d at
available at trial and on appeal.’
376. Moreover, Hill testified during the evidentiary hearing
that he had strategic reasons for presenting specific issues
of ineffective assistance of trial counsel; Hill testified
that he focused on presenting the strongest claims during
the motion for new trial hearing. [August 2008 Rule
32 Hearing, R. 63.] Hill testified that he made strategic
decisions to focus on trial counsel's failure to present
evidence during the guilt phase, trial counsel's failure
to move for change of venue, and trial counsel's failure
to effectively challenge the aggravating circumstance
presented during the penalty phase. [August 2008 Rule 32
Hearing, R. 66–67.] Miller has failed to establish that no
competent counsel would have pursued such strategies.
“For these reasons mentioned above, Miller has failed to
meet his burden of proof of establishing that his appellate
counsel's performance was deficient under
Strickland;
therefore Miller's ineffective assistance of appellate claims
are without merit. Accordingly, these claims are denied.”
(C. 1977–1989.)
The circuit court's finding that Miller failed to prove that his
appellate counsel's performance was deficient is supported by
the record. In any event, the circuit court also denied Miller
relief on this claim because Miller failed to establish that he
was prejudiced by his appellate counsel's performance, which
bring us to the third part of Miller's argument.

C.
In the third portion of his argument, Miller claims that had
appellate counsel adequately argued and supported the claims
of ineffective assistance of trial counsel that were addressed in
the motion for new trial proceedings and on appeal, he would

have been entitled to relief. (Miller's *372 brief, II(B)(2)(a)(d) at 33–124; Miller's reply brief at 15–39.)
Before addressing Miller's specific allegations, we set forth
a summary of the evidence that was presented during the
hearing on the motion for a new trial:
“At the hearing on Miller's motion for a new trial, Mickey
Johnson, Miller's [lead] trial counsel, testified. Johnson
stated that when he was appointed to represent Miller on
the day of the shootings, he had been practicing law for
25 years. He met with Miller shortly after Miller was
apprehended and again later that night. That same day,
Johnson also met with several Pelham police officers and
with Miller's mother.
“Johnson had litigated five or six capital-murder cases
before he was appointed to represent Miller. Roger Bass
was initially appointed cocounsel; however, when Bass
withdrew, Ronnie Blackwood was appointed to serve as
cocounsel.
“Johnson met with Miller on a number of occasions
before trial. Before forming a strategy for Miller's case,
Johnson reviewed all of the investigative reports, diagrams,
statements, photographs, videotapes, and scientific reports;
he also talked with his client. Johnson filed a motion
requesting funds for an independent psychological
evaluation of Miller. The trial court granted his motion,
and Johnson retained Dr. Charles Scott from the University
of California to evaluate Miller. After talking with Dr.
Scott and reviewing Dr. Scott's written report, Johnson
determined that there was insufficient evidence to raise
an insanity defense during the guilt phase. In his opinion,
it was better to present Dr. Scott's testimony during the
penalty phase because presenting his testimony at the
guilt phase would have negated Dr. Scott's credibility and
lessened the potential impact of the evidence during the
penalty phase. Johnson made this decision after reviewing
the reports from other mental-health evaluations of Miller,
which were consistent with Dr. Scott's findings.
“After reviewing the evidence, Johnson made a strategic
decision to concentrate his efforts and defense on the
penalty phase of the trial. In his opinion, the State's
evidence of Miller's guilt ‘was too overwhelming to
seriously contest,’ given that he had no valid legal defense
for the guilt phase. Accordingly, Johnson decided to
concentrate on saving Miller's life.

239a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

19

Miller v. State, 99 So.3d 349 (2011)

“Johnson focused his efforts during the guilt phase on
maintaining credibility with the jury. In accordance with
this strategy, he admitted to the jury early on in the
proceedings that the evidence of Miller's guilt was strong
because he wanted to lessen the impact of the evidence
against Miller. Johnson felt that his duty during the guilt
phase was to make the State meet its burden of proof.
“During the penalty phase, Johnson presented a
diminished-capacity defense. Through Dr. Scott's
testimony, he presented two mitigating circumstances.
He also argued the undisputed mitigating circumstance
of no prior criminal history. During the penalty phase,
Johnson argued that the State had failed to prove any
aggravating circumstances. He also wanted to point out to
the jury that the mitigating circumstances were undisputed.
Johnson hoped that the jury was looking for a reason not
to recommend the death penalty, and that his arguments
would give the jury a sound legal basis for recommending
a sentence of life imprisonment without the possibility of
parole.
*373 “Before the penalty phase, Johnson talked with
Miller's parents and other family members. He considered
calling them as witnesses. However, after talking with
Miller's family, he determined that it was best to present
Miller's social and family history through Dr. Scott's
testimony. In Johnson's opinion, Dr. Scott was a credible
witness. Johnson also believed that the support Miller had
from his family members during trial was affecting the
jury in a positive way. Johnson believed that the jurors
sympathized with Miller's family and he did not want to
detract from this sympathy by putting family members on
the stand.
“Miller presented testimony from two other witnesses in
support of his motion for a new trial. Dr. Bob Wendorf,
a clinical psychologist, testified that based on his review
of Dr. Scott's report, he believed there were other possible
mitigating factors Johnson could have presented. Miller
also elicited testimony from Aaron McCall with the
Alabama Prison Project. McCall indicated that he had sent
Johnson a letter in August 1999, offering his services in
Miller's case. However, McCall testified, Johnson never
responded to his letter.”
Miller, 913 So.2d at 1159–60.
Miller maintains that his appellate counsel failed to properly
present and support the following claims in the motion for

a new trial: (1) that trial counsel were ineffective for not
presenting a mental disease-or-defect defense during the guilt
phase of the trial; (2) that trial counsel's opening statement
at the guilt phase of the trial prejudiced Miller; (3) that trial
counsel were ineffective in failing to adequately investigate
and present available mitigating evidence during the penalty
phase of the trial; and (4) that trial counsel's penalty-phase
opening statement prejudiced Miller.
In order to establish that his appellate counsel were
ineffective in the manner in which they presented the claims
of ineffective assistance of trial counsel in the new-trial
proceedings and on appeal, Miller had to first establish
that his underlying claims of ineffective assistance of trial
counsel had merit. See
Payne v. State, 791 So.2d 383, 401
(Ala.Crim.App.1999), cert. denied, 791 So.2d 408 (Ala.2000)
(“Because Payne has failed to establish that his ineffectiveassistance-of-trial-counsel claim is meritorious, he has failed
to prove by a preponderance of the evidence that his
appellate counsel was ineffective for failing to present this
claim.”). Therefore, even though Miller's claims of ineffective
assistance of trial counsel were precluded, Miller reasserted
many of those claims in support of his argument that had
his appellate counsel sufficiently presented and supported
those claims in the new-trial proceedings and on appeal, he
would have been entitled to relief. In fact, a majority of
the circuit court's order denying Miller's Rule 32 petition is
addressed to the underlying claims of ineffective assistance
of trial counsel. See Covington v. State, 671 So.2d 109, 110
(Ala.Crim.App.1995) (holding that even though a claim of
ineffective assistance of trial counsel is barred, the claim
must be examined in order to assess appellate counsel's
performance). Thus, we turn to Miller's specific claims
regarding his trial counsel.

1.
Miller contends that his trial counsel were ineffective for
“withdrawing the insanity defense and then failing to present
available mental health evidence during the trial's guilt
phase.” (Miller's brief, II(B)(2)(a), at 33–68; Miller's reply
brief, at 15–23.) As addressed above, appellate counsel
asserted in the hearing on the motion for a new trial that
Miller's trial counsel were ineffective for withdrawing *374
his plea of not guilty by reason mental disease or defect.
The circuit court denied Miller relief on this claim. On direct
appeal, this Court also rejected Miller's claim that his trial
counsel were ineffective for withdrawing his mental-disease-

240a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

20

Miller v. State, 99 So.3d 349 (2011)

or-defect plea because we found that Miller's trial counsel's
decision was “made after a thorough investigation of the
relevant law and facts of Miller's case.” Miller, 913 So.2d at
1161.
Trial counsel's decision to withdraw the plea of not guilty by
reason of mental disease or defect was made after his mentalhealth experts Dr. Scott and Dr. Barbara McDermott, the
psychologist Dr. Scott engaged to assist him, determined that
Miller did not meet Alabama's legal definition of “insanity”
at the time the crimes were committed. Miller argues that
Dr. Scott's and Dr. McDermott's evaluations were incomplete
because, he claims, trial counsel failed to provide them with
sufficient factual and legal information with which to conduct
their evaluations. Thus, he contends, trial counsel's decision
to withdraw the not-guilty-by-reason-of-mental-defect plea
was unreasonable because it was based upon incomplete
evaluations. He argues that had appellate counsel adequately
argued and supported this claim in the motion-for-new-trial
proceedings and on appeal, he would have been entitled to
relief.
When denying relief on this claim, the circuit court stated:
“In paragraphs 138–147 of his amended petition, Miller
claims that his trial counsels' decision to withdraw
the insanity defense was unreasonable. Miller alleges
that trial counsels' reliance on Dr. Scott and Dr.
McDermott's evaluations in deciding to withdraw the
not guilty by reason of insanity plea was ineffective
because he claims trial counsel did not provide Dr. Scott
with adequate background information to support the
evaluation. [Amended Rule 32 Petition, C. 308.] Miller
also claims that Dr. Scott's ultimate conclusion that Miller
was not insane was ‘equivocal’ and that trial counsel should
have provided additional information and documents to Dr.
Scott and sought additional expert opinion. [Amended Rule
32 Petition, C. 310.]
“This Court denies Miller's claim because he has failed to
meet his burden of proof of demonstrating that his trial
counsel's performance was deficient under
Strickland,
466 U.S. at 688, Ala. R.Crim. P. 32.7(d). Miller's trial
counsel could not be deficient for withdrawing the insanity
defense because none of the psychological or psychiatric
experts who evaluated Miller before trial concluded that
Miller met the legal definition for insanity.
“Miller, through counsel, originally pled not guilty by
reason of mental disease or defect. [Direct Appeal, C. 1.]

To qualify under the legal definition of insanity, Miller
bore the burden or demonstrating that he ‘was unable to
appreciate the nature and quality or wrongfulness of his
acts.’ Ala.Code § 13A–3–1. However, as demonstrated
during trial and the [Rule 32] evidentiary hearing, none
of the four mental health experts who examined Miller
concluded that he was unable to appreciate the nature and
quality of his actions. [Direct Appeal, R. 1384; Motion
for New Trial Hearing, R. 72–74; February 2008 Rule 32
Hearing, R. 248.]
“Dr. James Hooper, a psychologist at the Taylor Hardin
Medical Facility, first evaluated Miller and concluded
in his report on October 8, 1999 that Miller ‘does not
have a mental illness that would have compromised
his understanding of the nature, quality, or *375
wrongfulness of his behavior.’ [Miller's Rule 32 Exhibit,
29–0211.] Dr. Harry McClaren, a psychologist hired by
the State of Alabama, also evaluated Miller to determine
whether Miller qualified under Alabama's insanity statute.
On December 2, 1999, Dr. McClaren ultimately concluded
that Miller did not meet the legal definition of insanity and
that there was no evidence that he was unable to appreciate
the nature and quality of his actions. [Miller's Rule 32
Exhibit, 27–0033.]
“Finally, as noted above, trial counsel retained Dr. Charles
Scott, a psychiatrist, for the purpose of determining
whether Miller was legally insane at the time of the
shootings. Dr. Scott engaged in an extensive evaluation of
Miller including a three-day assessment of Miller himself,
interviews of family members, and the examination of
numerous documents and reports. [Direct Appeal, R. 1345–
48.] Dr. Scott also retained Dr. Barbara McDermott to
administer various psychological tests to Miller. [February
2008 Rule 32 Hearing, R. 316] However, after concluding
this investigation, Dr. Scott stated in his report that in his
opinion, Miller was not unable to appreciate the nature and
quality of his actions or the wrongfulness of his conduct.
[Miller's Rule 32 Exhibit, 29–0022; Direct Appeal, R.
1384, February Rule 32 Hearing, R. 251.]
“Thus, trial counsel could not have provided any expert
opinion testimony to credibly argue to the jury that Miller
was legally insane. Any argument that Miller was legally
insane could have been effectively rebutted from Miller's
own expert's conclusion that he was not insane. [Direct
Appeal, R. 1384.] Johnson testified that he was aware of
each of these reports and that neither Dr. Hooper's, nor
Dr. McClaren's, nor Dr. Scott's reports conflicted on the

241a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

21

Miller v. State, 99 So.3d 349 (2011)

issue of Miller's sanity at the time of the offense. [Motion
for New Trial Hearing, R. 73–74; February 2008 Rule 32
Hearing, R. 251.] Johnson testified that after receiving Dr.
Scott's report, he discussed the findings with Dr. Scott and
ultimately decided to withdraw the insanity defense on
May 24, 2000 [February 2008 Rule 32 Hearing, R. 91–92.]
Johnson stated during the [Rule 32] evidentiary hearing
that if any of the four doctors who evaluated Miller had
declared that Miller was insane at the time of the offense,
such a finding would have altered his strategy and that
he would have used that opinion as part of his defense.
[February 2008 Rule 32 Hearing, R. 248.]
“Trial counsel's decision to withdraw the insanity plea
was not an unreasonable decision. The withdrawal of the
insanity defense was the product of a strategic decision
made after both consultation with a mental health expert
hired for the express purpose of evaluating Miller's sanity
and consideration of additional investigation and expert
opinions. Based on the unequivocal conclusions of all four
examining doctors that Miller was not unable to appreciate
the wrongfulness of his actions at the time of the offense,
trial counsel's decision to withdraw the not guilty by reason
of insanity plea was not deficient and entirely reasonable
based on the information and evidence available to trial
counsel. Therefore, this claim should be denied.
“This claim is also denied because Miller has failed to meet
his burden of proof demonstrating that he was prejudiced
Strickland, 466
by his trial counsel's performance. See
U.S. at 695, Ala. R.Crim. P. 32.7(d). Miller was not
prejudiced by his trial counsel's withdrawal *376 of the
insanity plea because no evidence has been presented
during the evidentiary hearing that Miller could not
appreciate the wrongfulness of his actions and therefore
would have been eligible for a not guilty by reason of
mental defect or insanity plea.
“Although Miller now claims that his trial counsel should
have presented more information to Dr. Scott or obtained
additional expert opinion regarding Miller's sanity, the
record indicates that even if such additional measures were
taken, the result would be the same: that Miller does
not meet the requirements for insanity under Alabama
law. At the evidentiary hearing, Dr. [Catherine] Boyer
[Miller's Rule 32 psychologist] testified that in her opinion,
Miller experienced a dissociative episode at the time of the
shootings and that this opinion would be important as a
mental health professional in determining whether Miller

was sane or insane at the time of the shootings. [February
2008 Rule 32 Hearing, R. 719–20.]
“However, incredibly, Dr. Boyer never testified that in
her opinion, Miller was legally insane at the time of
the shootings. When pressed on this crucial question by
counsel for the State, Dr. Boyer stated ‘I really don't know
if I can answer it.’ [February 2008 Rule 32 Hearing, R.
757.] ) Most importantly, Dr. Boyer testified that after her
complete investigation, if she had been called to testify
as to Miller's sanity at the time of trial, she would have
had no opinion. [February 2008 Rule 32 Hearing, R. 758.]
Therefore, Miller has failed to present any evidence that a
mental health expert would have been available to testify
at trial that Miller was insane at the time of the shootings.
Miller also failed to present any evidence during the
evidentiary hearing that conflicts with the evidence and
expert opinion regarding Miller's sanity at the time of trial.
Dr. Scott never testified that his opinion at the time of
trial that Miller was not unable to appreciate the nature
and quality or wrongfulness of his actions had changed.
Although Dr. Scott stated that it was ‘possible’ that had he
obtained additional information and conducted additional
testing relating to a dissociated disorder his diagnosis could
have changed, he failed to testify that such information
did in fact change his opinion. [February 2008 Rule 32
Hearing, R. 364.] Like Dr. Boyer, Dr. Scott never testified
that in his opinion, Miller met the requirements for insanity
under Alabama law.
“Equally as important in determining that Miller was
not prejudiced by the withdrawal of the insanity plea
was the testimony of Dr. McClaren during the [Rule 32]
evidentiary hearing. Before trial in the fall of 1999, Dr.
McClaren was hired to conduct a forensic psychological
evaluation of Miller. [February 2008 Rule 32 Hearing,
R. 773.] After conducting his evaluation, Dr. McClaren
concluded that Miller was a ‘non psychotic man of average
intelligence.’ [February 2008 Rule 32 Hearing, R. 778.] Dr.
McClaren also concluded that Miller was not insane under
Alabama law at the time of the offense. [February 2008
Rule 32 Hearing, R. 780.]
After becoming involved in the case again for purposes
of this Rule 32 proceeding, Dr. McClaren testified that he
reviewed additional testimony, the reports of Dr. Scott and
Dr. McDermott, additional psychological testing, school
records as well as the testimony during the evidentiary
hearing. [February 2008 Rule 32 Hearing, R. 783–84.] Dr.

242a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

22

Miller v. State, 99 So.3d 349 (2011)

McClaren then testified that after his review of this new
information, nothing had changed his opinion that Miller
was *377 not legally insane at the time of the shootings.
[February 2008 Rule 32 Hearing, R. 792–93.]
“The testimony of all three mental health experts during the
evidentiary hearing as well as the evidence contained in the
mental health reports issued during the trial and the trial
record itself are consistent: all indicate that Miller was not
unable to appreciate the nature and quality or wrongfulness
of his actions. No testimony has even been presented during
trial or in this Rule 32 proceeding that Miller was insane
at the time of the shootings under Alabama law. Therefore,
Miller has failed to demonstrate a reasonable probability
that the outcome of his proceeding would have been
different had trial counsel not withdrawn the insanity plea
because the record resoundingly evidences that Miller was
in fact not insane at the time of the shootings. Accordingly,
because Miller has failed to demonstrate prejudice under
Strickland, this claim is denied.”
(C. 2029–2037.)
The record supports the circuit court's conclusion that trial
counsel made a strategic decision to withdraw the plea of not
guilty by reason of mental disease or defect after consulting
with a psychiatrist who evaluated Miller for the express
purpose of determining whether Miller suffered from a mental
disease or defect at the time of the shootings and after
also considering the results of evaluations by three other
mental-health experts, each of whom concluded that Miller
did not meet Alabama's definition of “insanity” at the time
of the shootings. “This is precisely the type of strategic
choice, based on counsel's examination of the relevant facts
and legal principles, that our cases have deemed to be
virtually unchallengeable.”

Key v. State, 891 So.2d 353,

376 (Ala.Crim.App.2002). As the circuit court in
noted:

Key aptly

“ ‘[T]he day a lawyer is supposed to come in here and make
motions and enter pleas for which he or she has no basis and
in fact their education, training, experience, and their life's
experience and their discussions with their [expert] provide
them with no basis and you can say that that's incompetency
[,] that's going to be a dark day in our legal system.’ ”
891 So.2d at 376.

a.
Within the argument that Miller's trial counsel were
ineffective for withdrawing his not-guilty-by-reason-ofmental-disease-or-defect plea, Miller lists various documents
and information that, he claims, his trial counsel should have
furnished to Dr. Scott in order for Dr. Scott's sanity evaluation
to be complete. Specifically, Miller contends that his trial
counsel should have provided Dr. Scott with: (1) Miller's
files from evaluation performed at the Taylor Hardin Secure
Medical Facility; (2) Dr. McClaren's report and files; (3)
the tape of Miller's police interrogation; (4) comprehensive
information concerning the Miller's family mental-health
history; and (5) comprehensive information concerning the
physical trauma inflicted on Miller by his father. (Miller's
brief, Issue II(B)(2)(a)(i)(A)-(E), at 38–50; Miller's reply
brief, at 15–23.)
Miller's claim that his trial counsel should have provided Dr.
Scott with the above-mentioned documents was presented in
a different context in the amended Rule 32 petition. In his
petition, Miller presented these allegations within his claim
that his trial counsel were ineffective because counsel failed to
investigate certain mental-health evidence. (Miller's amended
Rule 32 petition, claim I(A)(1)(d), C. 295– *378 305.) We
note this fact because that is the context in which this claim
was addressed by the circuit court in its order denying relief.
(C. 2009–26.)
Regardless, the gist of Miller's assertion is that his trial
counsel should have done more, i.e., trial counsel should have
provided more information to Dr. Scott for his consideration
in assessing Miller's mental health at the time of the crimes.
Accordingly, the circuit court correctly began its analysis by
examining what Miller's trial counsel did do. See Chandler
v. United States, 218 F.3d 1305, 1320 (11th Cir.2000)
(“Although Petitioner's claim is that his trial counsel should
have done something more, we first look at what the lawyer
did in fact.”). The circuit stated the following in this regard:
“Contrary to Miller's claims, as the Court of Criminal
Appeals has previously held regarding this issue on direct
appeal, ‘[t]his is not a case where counsel failed to
investigate a potential mental-health defense or neglected
to interview potential defense witnesses.’ Miller v. State,
913 So.2d 1148, 1161 (Ala.Crim.App.2004). Instead,
Miller's mental health was of chief concern, initially trial

243a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

23

Miller v. State, 99 So.3d 349 (2011)

counsel's main theory of defense and ultimately became the
central focus of Miller's penalty phase strategy.
“The record demonstrates that trial counsel conducted an
extensive and thorough investigation of Miller's mental
health. Miller, through trial counsel, originally pleaded not
guilty by reason of insanity. [Direct Appeal, C. 1.] Trial
counsel Johnson was familiar with mental disease defenses
based on his previous involvement in capital murder cases
in which psychological issues had been raised. [February
2008 Rule 32 Hearing, R. 211.] Based on the interviews of
his family, Johnson discovered Miller's family history of
mental illness. [February 2008 Rule 32 Hearing, R. 252.]
Johnson also was aware that Miller had difficulty early on
remembering specific facts relating to the actual shootings
and that Miller had been given a mental evaluation at Taylor
Hardin Medical Facility. [February 2008 Rule 32 Hearing,
R. 42, 44–45.]
“As a result, Johnson motioned the trial court to grant
additional funds to hire psychological expert assistance.
[Direct Appeal, C. 50–55.] The trial court granted the
motion and Johnson retained Dr. Charles Scott to conduct
psychiatric and psychological evaluations of Miller in
order to determine whether an insanity defense would
be justified. [February 2008 Rule 32 Hearing, R. 48.] In
preparation for Dr. Scott's evaluation, Johnson forwarded
over ninety three pages of materials to Dr. Scott including
numerous witness statements, statements from Miller's coworkers, police incident reports, and a copy of Dr. James
Hooper's evaluation of Miller at Taylor Hardin. [Direct
Appeal, R. 1345; February 2008 Rule 32 Hearing, R. 63,
318.]
“In response to Dr. Scott's request to interview Miller's
family members who were living with him at the time of
the shootings, Johnson arranged for Dr. Scott to interview
Miller's mother Barbara, and his brother Richard, and his
sister, Cheryl. [February 2008 Rule 32 Hearing, R. 314–
15.] Johnson also attempted to obtain the records of Miller's
grandfather Hubert Miller, but was unsuccessful. [February
2008 Rule 32 Hearing, R. 252.] Dr. Scott never testified that
he was not provided with any document that he specifically
requested from trial counsel; Johnson confirmed this fact
stating that ‘I don't think that Dr. Scott asked for anything
that he was not supplied.’ [February 2008 Rule 32 Hearing,
R. 76.]
*379 “After compiling this information, [Scott]
interviewed and evaluated Miller over a three day period.

[February 2008 Rule 32 Hearing, R. 314.] Dr. Scott
also enlisted the services of a psychologist, Dr. Barbara
McDermott, who conducted a psychological evaluation
of Miller. [February 2008 Rule 32 R. 315–16.] After the
evaluation was completed, Dr. Scott diagnosed Miller with
having a delusional disorder and a psychiatric personality
disorder; however, Dr. Scott concluded that Miller was not
unable to appreciate the wrongfulness of his actions and
therefore did not qualify under Alabama's legal definition
for insanity. [February 2008 Rule 32 Hearing, R. 325–26,
335.]”
(C. 2009–13.)
With the above in mind, we now direct our focus to the
specific information that Miller claims his trial counsel should
have provided to Dr. Scott in order for Dr. Scott's sanity
evaluation of Miller to be complete.

(i)
[10] Miller was evaluated by Dr. James F. Hooper at the
Taylor Hardin Secure Medical Facility on October 4, 1999, for
the purpose of assessing Miller's competence to stand trial and
his mental state at the time of the murders. Hooper concluded
that Miller was not suffering from a mental disease or defect
at the time of the crimes. Although trial counsel provided Dr.
Hooper's report to Dr. Scott, trial counsel did not provide Dr.
Hooper's entire case file to Dr. Scott. Miller contends that his
trial counsel was ineffective for not providing Dr. Hooper's
entire case file to Dr. Scott because the Taylor Hardin file
contained documents and notes indicating that Miller suffered
from memory loss at the time of the offenses. Miller maintains
that without that additional information, Dr. Scott's evaluation
was incomplete. (Miller's brief, II(B)(2)(a)(i)(A), at 39–41.)
The circuit court found that Miller failed to establish that his
trial counsel rendered ineffective assistance for not providing
Miller's entire Taylor Hardin file to Dr. Scott. The circuit court
stated:

“Although not alleged in the petition,
during the evidentiary hearing Miller
questioned Dr. Scott on whether
Johnson also provided Dr. Hooper's
backup or underlying file as part
of the documents Johnson provided

244a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

24

Miller v. State, 99 So.3d 349 (2011)

to Dr. Scott. [February 2008 Rule
32 Hearing, R. 320–21.] However,
Miller has failed to produce any
evidence that Johnson had access
to or could have obtained Dr.
Hooper's underlying file. Moreover,
Miller has failed to produce any
evidence that a reasonable attorney
would have provided another expert's
underlying file to an expert retained to
conduct psychiatric evaluations on a
defendant.”

(C. 2015.)
The circuit court's findings are supported by the record.

(ii)
[11] Miller was also evaluated by Dr. Harry A. McClaren,
a psychologist retained by the State of Alabama, who
concluded that Miller did not did meet Alabama's definition
of “insanity” at the time of the shootings. Miller argues that
his trial counsel rendered ineffective assistance by not sending
a copy of Dr. McClaren's written report and a copy of Dr.
McClaren's file to Dr. Scott. (Miller's brief, II(B)(2)(a)(i)(B),
at 41–45.)
In support of this assertion, Miller contends that Dr.
McClaren's report contained critical information indicating
that Miller suffered from periods of amnesia shortly before
and during the shootings and that Dr. McClaren hypothesized
that Miller may have suffered a period of dissociation *380
at the time of the shootings. (Miller's brief at 42, citing Miller's
Rule 32 Exhibit 27–0030 to –0031.) Miller additionally
asserts that trial counsel did not apprise Dr. Scott and Dr.
McDermott of Dr. McClaren's hypotheses, nor did trial
counsel request that Dr. Scott and Dr. McDermott administer
any tests to determine if Miller suffered from a dissociative
or trauma-related disorder.
Miller further argues that his trial counsel should have
furnished Dr. Scott with Dr. McClaren's file because the file
contained: (1) Dr. McClaren's annotation that Miller denied
any memory of the shootings; (2) Dr. McClaren's interview
notes with the arresting officer who confirmed that Miller was
confused at the time of the arrest; (3) Dr. McClaren's interview

notes with a Shelby Chilton Mental Health Center employee
who saw Miller a day after the shooting and who indicated
that Miller may have been in shock when the employee
saw him; and (4) the results of various tests performed by
Dr. McClaren that supported the hypothesis that Miller was
suffering a period of dissociation at the time of the shootings.
(Miller's brief, at 44, citing Miller's Rule 32 Exhibit 27.)
In denying relief on this claim, the circuit court wrote:
“Miller has failed to demonstrate prejudice under
Strickland because the record indicates that the
additional information he claims his trial counsel should
have provided to Dr. Scott did not contain any additional
information that Dr. Scott was not already made aware of
during his evaluation. For instance, Miller claims that his
trial counsel was ineffective for failing to provide Dr. Scott
a copy of Dr. McClaren's report of his evaluation of Miller.
[Amended Rule 32 petition, C. 297.] During the evidentiary
hearing, Miller attempted to show [that] Dr. McClaren's
report would have been significant to Dr. Scott because
Dr. McClaren documented that Miller claimed amnesia
during the shootings, that Dr. McClaren opined that a
period of dissociation was possible after Miller reported
experiencing ‘tunnel vision,’ and because the report noted
that Miller was confused as to why he was arrested.
“However, Dr. Scott was already aware that Miller
claimed to have difficulty remembering the events and
circumstances of the shootings. Dr. Scott testified during
the penalty phase of the trial that Miller ‘had difficulty
recalling what happened and questioned the events had
even occurred.’ [Direct Appeal, R. 1378.] Dr. Scott also
noted Miller's difficulty remembering the shootings in his
report and reported that Miller ‘wondered if it was a bad
dream.’ [Miller's Rule 32 Exhibit 29–0010.] Dr. Scott also
was provided with the psychological report of Dr. Hooper,
which stated that Miller ‘has no memory of the index
events.’ [Miller's Rule 32 Exhibit 29–0208.]
“Although Miller contends that it was significant that
Dr. McClaren listed the possibility of a brief period of
dissociation because of Miller's self-report of experiencing
‘tunnel vision,’ ultimately, Dr. McClaren did not diagnose
Miller with any type of dissociative disorder. [Miller's
Rule 32 Exhibit, 27–0039.] Moreover, Dr. Scott was also
aware that Miller claimed to experience ‘tunnel vision’
and included this fact in his own report. [Miller's Rule
32 Exhibit, 29–0010.] Thus, Dr. Scott had access to the

245a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

25

Miller v. State, 99 So.3d 349 (2011)

very same information that led Dr. McClaren to suggest the
possibility of a period of dissociation.
“Finally, Dr. Scott was also aware that Miller had a
confused state of mind at the time he was arrested by law
*381 enforcement officials. As Dr. Scott stated in his
report,
“ ‘[Miller] said that the first time he realized that police
were following him occurred when he heard the sirens
and he felt that his “thoughts were spinning.” When
asked to describe this he said that he had brief thoughts
of the shootings and thought that “this didn't make sense.
I couldn't explain it.” ’
“[Miller's Rule 32 Exhibit, 29–0010.] Dr. Scott also
reported that at the time he was arrested, Miller recalled
being ‘somewhat confused and thought that he might go
home and wondered “why was I going home” ’ and that
after being taken to jail ‘when he first woke up, he thought
he might be at home but when he recognized that he
was in jail he realized that the “[flashes] in my mind
might be real.” ’ [Miller's Rule 32 Exhibit, 29–0010–11.]
Because the record indicates Dr. Scott had knowledge
of substantially the same information contained in Dr.
McClaren's report, Miller has failed to demonstrate how
the failure to provide Dr. McClaren's report impacted Dr.
Scott's evaluation. Therefore, Miller cannot demonstrate
a reasonable probability that the result of his proceeding
would have been different.”
(C. 2016–19.)
The circuit court's findings are supported by the record.

counsel send him any statements Miller made near the time
of the shootings. (Miller's brief, II(B)(2)(a)(i)(C), at 45–46.)
Miller contends that the tape recording could have helped Dr.
Scott determine whether “Miller was actually fleeing because
he appreciated he had committed wrongful acts or if he was
genuinely surprised that he was being apprehended or charged
as a result of his alleged actions.” (Miller's brief, at 45, quoting
Miller's Rule 32 Exhibit, 29–0023.)
The circuit court denied Miller relief on this assertion, stating:

“Although not alleged in his amended
petition, Miller attempted to suggest
during the evidentiary hearing that
trial counsel was ineffective for not
submitting to Dr. Scott an audio/
videotape of Miller's statement to
the police. [February 2008 Rule 32
hearing, R. 78–80.] However, the
audio/videotape of Miller's statement
was not submitted into evidence
during the evidentiary hearing.
[February 2008 Rule 32 hearing, R.
529–30.] Miller also failed to present
any *382 proof of what actual
evidence was contained on the audio/
videotape. Therefore, because there
is nothing in the record indicating
what was contained in this evidence,
Miller cannot establish how he was
prejudiced by his trial counsel not
providing the audio/videotape to Dr.
Scott.”

(iii)
After Miller was arrested, he was interrogated by the police.
The interrogation was apparently recorded on either an
4

audiotape or videotape. Miller's trial counsel, Mickey
Johnson, was quoted in the press on the day of trial as
stating that “he ha[d] studied pictures and videotapes of
Miller made at his arrest ‘and there [was] this look of total
disconnect or total indifference, one or the other.’ ” (Miller's
brief at 45, citing Miller's Rule 32 Exhibit 35–0070.) Miller
asserts that his trial counsel rendered ineffective assistance
because Johnson did not provide Dr. Scott with a copy of the
interrogation tape that Johnson was presumably referencing
in his comments to the press, despite Dr. Scott's request that

(C. 2022–23.)
Miller contends that the circuit court's conclusion that there
was nothing in the record indicating what was contained
on the interrogation tape is clearly erroneous. Miller bases
this assertion on the fact Dr. McClaren noted in his file that
in a taped interview with police, Miller said, “ ‘I'm being
charged with something? ... I don't understand anything you're
saying’ while looking down at the floor without any eye
contact.” (Miller's reply brief, at 16 n. 2, citing Miller's Rule
32 Exhibit 27–0027.) Even assuming that Dr. McClaren is
referencing the same tape that trial counsel Johnson alluded to
in his statement to the press, Miller would still be due no relief

246a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

26

Miller v. State, 99 So.3d 349 (2011)

on this claim for the reasons discussed in Part II.C.1.a(ii),
supra.

(iv)
[12] Miller maintains that his trial counsel failed to
adequately “investigate the multi-generational history of
mental illness in the Miller family, which, if known, would
have played a crucial role in Dr. Scott's evaluation [of Miller's
sanity at the time of the crimes.]” (Miller's brief, Issue II(B)
(2)(a)(i)(D), at 46–48.)
The circuit court stated the following in denying relief on this
claim:
“Trial counsel's investigation into Miller's mental health
was reasonable and Miller has failed to meet his burden
of establishing deficient performance. Contrary to Miller's
claims, trial counsel attempted to obtain the mental health
records of [Miller's] grandfather, Hubert Miller, but was
unsuccessful. [February 2008 Rule 32 Hearing, R. 252.]
Miller has not presented any evidence that trial counsel's
attempts were unreasonable. Even if trial counsel had not
attempted to obtain Miller's family mental health records,
Miller cannot demonstrate that trial counsel's performance
in this regard was deficient. Miller failed to present any
evidence that Dr. Scott specifically requested such records
and Miller failed to prove that a reasonable, competent
attorney would have independently obtained and presented
the mental health records of a defendant's extended
family. Notably, the evidence indicates a reasonable
attorney would not have investigated and presented such
records. Miller's trial counsel, Mickey Johnson and Ronnie
Blackwood, as well as his appellate counsel, Billy Hill
and Haran Lowe, all testified in their numerous years of
criminal experience, none had ever introduced the mental
health records or medical records of a defendant's family.
[February 2008 Rule 32 Hearing, R. 253, 872; August 2008
Rule 32 Hearing, R. 68–69, 103.]
“....
“This Court also denies this claim because Miller has
failed to meet his burden of proof of establishing that
he was prejudiced by his trial counsel's alleged failure
to adequately investigate mental health evidence. See,
Strickland, 466 U.S. at 687; Ala. R.Crim. P., 32.7(d).
Even if Miller could have proven that his trial counsel's

performance were deficient in failing to provide certain
records to Dr. Scott, Miller failed to elicit any testimony
from Dr. Scott that his report was incomplete or inaccurate
due to a lack of necessary records or information. While
Dr. Scott testified that additional information ‘could’ have
been important in his evaluation, he failed to state how his
evaluation was inadequate, *383 specifically in regards
to documenting Miller's mental health problems. [February
2008 Rule 32 hearing, R. 362–65.]
“Furthermore, Miller has failed to demonstrate prejudice
under
Strickland because the record indicates that the
additional information he claims his trial counsel should
have provided to Dr. Scott did not contain any additional
information that Dr. Scott was not already made aware of
during his evaluation....
“....
“Dr. Scott ... had a knowledge of Miller's family history
of mental illness. In his report, Dr. Scott devoted a
section to Miller's ‘Family Psychiatric History’ and
discussed that Ivan Miller [Miller's father] exhibited
unusual behavior, that Miller's grandfather, Hubert Miller,
had been committed to a psychiatric institution, and that his
brother Richard was described as ‘slow.’ [Miller's Rule 32
Exhibit, 29–0006]. This information was then presented to
the jury during Dr. Scott's penalty phase testimony. [Direct
Appeal, R. 1362–63.] During the evidentiary hearing, Dr.
Scott testified that a family history of psychotic disorders
could impact the vulnerability and likelihood that an
individual would have a mental disorder. [February 2008
Rule 32 Hearing, R. 307.] Therefore, because he was aware
that Miller's family had a history of psychiatric problems,
Dr. Scott had readily available information suggesting
Miller would be more vulnerable to having a mental
disorder.
“Although Miller now claims that his trial counsel should
have also provided the mental health records of his greatgrandmother Victoria Granade, his father, Ivan Miller, and
his uncle James Miller, Miller has failed to present any
evidence that these individuals were diagnosed or how
such undiagnosed mental illnesses could have impacted
Miller's diagnosis. Similarly, although Miller claims the
records of his grandfather Hubert Miller, which report
a diagnosis of paranoid schizophrenia, and the records
of his uncle Perry Miller, which report a diagnosis of
bipolar disorder, should have been provided to Dr. Scott,
he failed to specifically present evidence regarding how

247a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

27

Miller v. State, 99 So.3d 349 (2011)

these precise diagnoses specifically impacted Dr. Boyer's
[Miller's Rule 32 psychologist] diagnosis of post-traumatic
stress disorder. [February 2008 Rule 32 hearing, R. 644–
48.] Nor did Miller demonstrate how the absence of
these specific records specifically distorted or affected Dr.
Scott's evaluation. Therefore, because trial counsel did
provide information to Dr. Scott to inform him of Miller's
family history of mental illness and because Miller has
failed to establish specific psychiatric diagnoses in his
family's mental records that would have changed Dr. Scott's
evaluation, Miller has failed to demonstrate that he was
prejudiced by the failure to provide family mental health
records to Dr. Scott.”
(C. 2014–21.)
The circuit court's findings are supported by the record. In
his brief, Miller suggests that, contrary to the circuit court's
finding that there was no evidence regarding how the absence
of the records impacted Dr. Scott's conclusion, Dr. Scott
did testify that the missing Miller family health records
would have played a “huge” role in assessing Miller's sanity.
(Miller's brief, at 46–47.) However, an examination of the
portion of the record referenced by Miller indicates that Dr.
Scott was testifying about the role familial mental health
plays in regard to building a mitigation case, not in assessing
Miller's sanity at the time of the crimes.

the penalty phase of Miller's trial. [Direct Appeal, R. 1350–
51.]
“Miller now claims that his trial counsel was ineffective
for not providing Dr. Scott more information on the details
of the abuse. However, Dr. Scott was aware of specific
incidents of abuse and testified during the penalty phase
about an occasion when Ivan tried to stab Miller. [Direct
Appeal, R. 1351.] Notably, Miller failed to present any
further evidence during the evidentiary hearing of specific
details or occurrences of physical abuse. In fact, none
of Miller's reported injures were linked to any form of
abuse; Miller's expert Dr. Boyer testified that there was
no indication in Miller's medical records how any of his
injuries occurred and that there were no serious wounds
that required overnight hospital stays. [February 2008 Rule
32 Hearing, R. 740.] The record indicates that Dr. Scott
was aware of the nature of Ivan's physical abuse; Miller has
failed to provide any evidence of other specific incidents
of abuse or how such undocumented incidents would
have impacted Dr. Scott's analysis. Accordingly, Miller has
failed to demonstrate that he was prejudiced.”
(C. 2021–22.)
The circuit court's findings are supported by the record.

b.
*384 (v)
[13] Miller maintains that his trial counsel were ineffective
because they did not provide Dr. Scott with “comprehensive
information concerning the trauma [he] suffered from his
father.” (Miller's brief, II(B)(2)(a)(i)(E), at 49–50.) Thus,
Miller contends, Dr. Scott's sanity evaluation was incomplete
because Dr. Scott was not provided with this “crucial
information.” (Miller's brief, at 50.)
In denying relief on this claim, the circuit court stated:
“Miller was also not prejudiced by his trial counsel's
provision of information to Dr. Scott regarding the extent
and nature of physical abuse that Miller suffered as a child.
Dr. Scott was informed and had knowledge that Ivan Miller
physically abused Miller. Dr. Scott noted in his report that
Ivan Miller was ‘physically abusive and frequently hit
[Miller] on various areas of his body with his hands or with
a belt.’ [Miller's Rule 32 Exhibit 29–0003.] Dr. Scott also
testified concerning Ivan's physical abuse of Miller during

Miller argues that he was “severely prejudiced” by his trial
counsel's failure to provide the information addressed in Part
II.C.1.a(i)-(v), supra, to Dr. Scott. (Miller's brief, II(B)(2)(a)
(1)(F), at 50–55; Miller's reply brief at 17–25.) Miller states
that when Dr. Catherine Boyer, a psychologist retained for
the Rule 32 proceedings, reviewed all the materials that he
contends his trial counsel should have provided to Dr. Scott
and administered additional tests on Miller, she concluded
that Miller suffered from post-traumatic stress disorder with
dissociative features. Dr. Boyer testified that she believed
Miller had experienced a “dissociative episode” during the
shootings that impaired his ability to appreciate the nature and
quality or wrongfulness of his acts. (February 2008 Rule 32
Hearing, R. 714–718.) Miller asserts that had trial counsel
furnished Dr. Scott with the information discussed in Part
II.C.1.a(i)-(v), supra, Dr. Scott may have determined that
Miller was suffering from a mental disease or defect at the
time of the shootings.
The circuit court stated:

248a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

28

Miller v. State, 99 So.3d 349 (2011)

“Miller has failed to demonstrate a reasonable probability
that the outcome of his proceeding would have been
different *385 had his trial counsel investigated more
mental health evidence because he has failed to prove that
he met the legal definition of insanity under Ala.Code
[1975] § [13A–3–1]. None of the five psychological
and psychiatric experts who evaluated Miller during the
course of his trial or his Rule 32 proceedings, including
Drs. Hooper, Scott, McDermott, McClaren, and Boyer
concluded that Miller was legally insane. Therefore, even if
trial counsel had conducted a more thorough mental health
investigation, the result would be the same: Miller could
not have proven that he did not appreciate the wrongfulness
of his actions and thus could not have sustained a not-guilty
by reason of insanity defense.
“Miller's failure to demonstrate prejudice is highlighted by
the testimony of Miller's own expert, Dr. Boyer, during
the evidentiary hearing. Despite her opinion that Miller
suffered from post-traumatic stress disorder, incredibly,
Dr. Boyer failed to testify that Miller was legally insane.
[February 2008 Rule 32 Hearing, R. 757–58.] Notably, Dr.
Boyer failed to even provide an opinion. Clearly evading
the issue of Miller's sanity, in response to a question
regarding whether she disagreed with Dr. Scott's testimony
during trial that Miller was not insane, Dr. Boyer testified ‘I
really don't know if I can answer it.’ [February 2008 Rule
32 Hearing, R. 757.]
“As Dr. Boyer stated in response to a question from counsel
for the State, if she had been called to testify on Miller's
behalf during trial, she would have had no opinion as
to whether he could appreciate the wrongfulness of his
conduct at the time of the shootings:
“ ‘Q: So in this case it's fair to say that had you been there
you would have said I have no opinion [as to Miller's
sanity] one way or the other?
“ ‘A: Yes.’
“[February 2008 Rule 32 Hearing, R. 758.] Without
offering an opinion, let alone an opinion that conflicted
with the evaluations performed during trial, even if a
mental health investigation was performed in the manner
in which Miller now alleges it should have been conducted,
Miller has failed to demonstrate a reasonable probability
that additional mental health evidence would have been
uncovered that would have affected the outcome of his trial.
It is also significant that Dr. Scott failed to state during

the evidentiary hearing that his opinion that Miller was
not insane at the time of the shootings had changed. No
evidence has been presented that Miller was legally insane
and ample mental health evidence was already available
for trial counsel to effectively argue during the penalty
phase that Miller satisfied the requirements for the statutory
mitigating circumstances under Ala.Code [1975] § 13A–
5–51(2) and (6).
“Three psychologists and one psychiatrist evaluated Miller
at the time of trial; none of these four doctors, whether
hired by the defense or appointed by the trial court, found
that Miller was insane. [February 2008 Rule 32 Hearing,
R. 248.] Miller has offered nothing in the testimony of
either Dr. Boyer or Dr. Scott to call these evaluations into
question. There is no evidence that Dr. Boyer's testimony
would have benefited Miller's defense, nor would it have
impacted the outcome of the proceedings. Miller has failed
to meet his burden of proof of demonstrating how he
was prejudiced under
Strickland by his trial counsel's
investigation into his mental health. Therefore, Miller
cannot demonstrate that his trial counsel's performance in
this regard was constitutionally ineffective....”
(C. 2023–26.)
The circuit court's findings are supported by the record. As
noted above, to *386 have been entitled to relief, Miller
not only had to show that his trial counsel rendered deficient
performance by not providing the additional information to
Dr. Scott for his consideration in assessing Miller's sanity at
the time of the offenses, but also had to prove that he was
prejudiced as a result of his trial counsel's failure to provide
the information to Dr. Scott. The fact that Dr. Scott might have
changed his conclusion regarding Miller's sanity at the time of
the offenses had he received the information is not sufficient
to establish the requisite prejudice.
“With respect to prejudice, a challenger must demonstrate
‘a reasonable probability that, but for counsel's
unprofessional errors, the result of the proceeding would
have been different. A reasonable probability is a
probability sufficient to undermine confidence in the
outcome.’
[Strickland, 466 U.S. at 694], 104 S.Ct.
2052. It is not enough ‘to show that the errors had some
conceivable effect on the outcome of the proceeding.’
Id., at 693, 104 S.Ct. 2052. Counsel's errors must be ‘so

249a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

29

Miller v. State, 99 So.3d 349 (2011)

serious as to deprive the defendant of a fair trial, a trial
whose result is reliable.’
“ ‘Surmounting

Id., at 687, 104 S.Ct. 2052.

Strickland's high bar is never an easy

task.’
Padilla v. Kentucky, 559 U.S. 356, ––––, 130
S.Ct. 1473, 1485, 176 L.Ed.2d 284 (2010). An ineffectiveassistance claim can function as a way to escape rules
of waiver and forfeiture and raise issues not presented at
Strickland standard must be applied
trial, and so the
with scrupulous care, lest ‘intrusive post-trial inquiry’
threaten the integrity of the very adversary process the
right to counsel is meant to serve.
Strickland, 466
U.S., at 689–690, 104 S.Ct. 2052. Even under de novo
review, the standard for judging counsel's representation
is a most deferential one. Unlike a later reviewing court,
the attorney observed the relevant proceedings, knew of
materials outside the record, and interacted with the client,
with opposing counsel, and with the judge. It is ‘all
too tempting’ to ‘second-guess counsel's assistance after
conviction or adverse sentence.’
2052; see also

Id., at 689, 104 S.Ct.

Bell v. Cone, 535 U.S. 685, 702, 122 S.Ct.

Lockhart v. Fretwell,
1843, 152 L.Ed.2d 914 (2002);
506 U.S. 364, 372, 113 S.Ct. 838, 122 L.Ed.2d 180 (1993).
The question is whether an attorney's representation
amounted to incompetence under ‘prevailing professional
norms,’ not whether it deviated from best practices or most
common custom.
2052.”

Strickland, 466 U.S., at 690, 104 S.Ct.

Harrington v. Richter, ––– U.S. ––––, ––––, 131 S.Ct. 770,
787–88, 178 L.Ed.2d 624 (2011).

c.
[14] Miller contends that even though his trial counsel
withdrew the plea of not guilty be reason of mental disease or
defect, his trial counsel should still have presented evidence
of Miller's mental illness during the guilt phase of the trial.
(Miller's brief, II(B)(2)(a)(ii), at 55–60.) Miller asserts that
although Dr. Scott concluded that Miller was not suffering
from a mental disease or defect at the time of the shootings,
Dr. Scott nevertheless found that Miller was suffering from a
mental illness. Thus, Miller asserts that when his trial counsel
received Dr. Scott's equivocal findings regarding Miller's

mental health, his trial counsel could have pursued several
options, namely: (1) trial counsel could have had Miller
evaluated by another mental-health professional to whom trial
counsel had supplied all of the materials discussed in Part
II.C.1a(i)-(v), supra, to determine if that mental-health expert
found Miller to be suffering from a mental *387 disease
or defect at the time of the crimes; 5 (2) trial counsel could
have had Dr. Scott testify during the guilt phase of the trial
that in his opinion Miller suffered from a mental illness; and
(3) trial counsel could have presented Miller's mental-health
evidence in support of an argument that Miller lacked the
requisite intent to be convicted of the capital offense of killing
two or more persons pursuant to one scheme or one course
of conduct and that he was guilty only of a lesser-included
offense, such as murder or manslaughter.
Although Miller presents this argument in his brief as part
of his claim that his trial counsel were ineffective for
withdrawing the not-guilty-by-reason-of-mental-disease-ordefect plea, this claim was presented in a different context
in his amended Rule 32 petition. (Miller's Amended Rule
32 petition, C. 319–22.) In his amended Rule 32 petition,
Miller claimed that his trial counsel were ineffective for not
presenting a defense in the guilt phase of the trial, and that is
the context in which the circuit court addressed Miller's claim.
The circuit court stated the following in its order:
“In paragraphs 173–85 of his amended petition, Miller
claims that his trial counsel were ineffective for failing to
present a defense theory or evidence during the guilt phase
of the trial. [Amended Rule 32 petition, C. 319.] Miller
argues that trial counsel could have presented the testimony
of Dr. Scott or arguments based on Dr. Scott's findings that
Miller could not form the intent to commit capital murder
based on his delusional disorder or that Miller should only
be convicted of manslaughter.
“This Court denies Miller's claim because he has failed to
meet his burden of proof of demonstrating that his trial
counsels' performance was deficient under
Strickland,
466 U.S. at 687, Ala. R.Crim. P., 32.7(d). Trial counsel
Johnson had reasonable strategic reasons for not presenting
evidence during the guilt phase of trial. Johnson testified
that his trial strategy focused on presenting the best
evidence and testimony that would save Miller's life.
[Motion for New Trial hearing, R. 80.] Based on the
facts and circumstances of his case, Johnson determined
that his best opportunity and most effective method of

250a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

30

Miller v. State, 99 So.3d 349 (2011)

presenting such testimony would be during the penalty
phase. [Motion for New Trial Hearing, R. 80; February
2008 Rule 32 Hearing, R. 219.] Part of this strategy also
involved gaining credibility and favor with the jury by
not presenting frivolous arguments during the guilt phase
such as challenging the blood spatter expert's testimony.
[February 2008 Rule 32 Hearing, R. 219–26.]
“Johnson testified that the prosecution's evidence was
strong, that he could not contest the fact that the shootings
were part of a single act, and that he made a strategic
decision to not put on frivolous evidence during the guilt
phase. [Motion for New Trial Hearing, R. 14; February
2008 Rule 32 Hearing, R. 99, 219.] Johnson felt that any
potential testimony about Miller's mental health during
the guilt phase would be less impactful or even frivolous.
[Motion for New Trial Hearing, R. 80.] However, Johnson
stated that he wanted Miller to testify on his own behalf
during the guilt phase and talked with Miller about this
possibility, but Miller refused. [February 2008 Rule 32
Hearing, R. 220.] Finally, Johnson acknowledged *388
that it was not uncommon to not present evidence during
the guilt phase and to focus solely on the penalty phase.
[February 2008 Rule 32 Hearing, R. 228.]
“Johnson's conclusions on the strength of the prosecution's
case in the guilt phase are well supported by the
evidence. As the Court of Criminal Appeals recognized
on direct appeal, ‘[g]iven the overwhelming evidence of
Miller's guilt—including eyewitness testimony identifying
Miller as the shooter—counsel has little choice but to
acknowledge Miller's guilt.’ Miller, 913 So.2d at 1162.
Johnson and cocounsel Blackwood faced the daunting task
during the guilt phase of defending Miller against strong
evidence which included two separate eyewitnesses to the
shootings at both Ferguson Enterprises and Post Airgas.
“Despite this evidence, this is not a case in which
trial counsel failed to investigate potential guilt phase
testimony. As noted above, Johnson initially hired Dr. Scott
to investigate Miller's mental health with the intention of
presenting evidence during the guilt phase that Miller could
not appreciate the wrongfulness of his actions. [February
2008 Rule 32 Hearing, R. 48.] However, after Dr. Scott
determined that Miller did not qualify for the insanity
defense under Alabama law, Johnson withdrew the not
guilty by reason of mental defect plea. [February 2008 Rule
32 Hearing, R. 91.]

“As the Court of Criminal Appeals noted, this decision was
made ‘after a thorough investigation of the relevant law and
facts of Miller's case’ and Johnson's focus on the penalty
phase ‘was part of his strategy to spare Miller's life.’ Miller,
913 So.2d at 1161 (holding that ‘[u]nder the circumstances
of this case, defense counsel made a well-reasoned decision
to focus his efforts on that part of the trial that he believed
offered the greatest chance of success. We see no reason
to second-guess defense counsel's decisions regarding this
strategy.’) Miller has failed to offer any proof that this trial
strategy was not the product of a reasonably competent
attorney.
“Contrary to Miller's claims, Johnson also had strategic
reasons for not presenting Dr. Scott's testimony during
the guilt phase in an attempt to argue that Miller did not
have intent to commit capital murder. [February 2008 Rule
32 hearing, R. 222.] First, Johnson testified that in his
opinion, Dr. Scott's testimony would have had more of an
impact during the penalty phase based on the information
available for Dr. Scott to present. [February 2008 Rule 32
Hearing, R. 285.] Johnson stated that much of Dr. Scott's
testimony during the penalty phase was based on hearsay
and therefore, Dr. Scott would have been more limited
in providing testimony in the guilt phase. [February 2008
Rule 32 Hearing, R. 284.] Johnson also determined that Dr.
Scott would have been subject to a more stringent crossexamination during the guilt phase. [February 2008 Rule
32 Hearing, R. 284.] Therefore, as Johnson acknowledged,
he could not have simply introduced the beneficial, limited
parts of Dr. Scott's report; instead the entire report could
have been subject to cross-examination. [February 2008
Rule 32 Hearing, R. 100.]
“Dr. Scott's own report contained opinions which could
have rebutted any argument that Miller did not have the
intent to commit murder as a result of a delusional disorder.
Despite the fact that Dr. Scott opined that Miller suffered
from a delusional disorder, Dr. Scott stated that:
*389 “ ‘because Mr. Miller followed a second victim,
shot the first victim again before he left Ferguson
Enterprises and because he went to a second work site, it
is my opinion that the evidence indicates he appreciates
the nature and quality of his actions toward each victim.’
“[Miller's Rule 32 Exhibit, 29–0022.] Miller's own expert's
opinion was consistent with the very same facts that the
prosecution presented during the trial to argue that Miller
intended to commit murder. [Direct Appeal, R. 1254–61,

251a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

31

Miller v. State, 99 So.3d 349 (2011)

1264–75.] Based on the facts of this case, trial counsel's
decision to not present evidence during the guilt phase
and instead focus on the penalty phase was reasonable and
Miller has failed to present any evidence demonstrating
how this strategy was deficient.”

29–0022.] Even if Miller could demonstrate that his trial
counsel were deficient during the guilt phase, which he
cannot, he has failed to demonstrate how he was prejudiced
under

Strickland by his trial counsels' strategy.”

(C. 2054–56.)

(C. 2049–54.)
The circuit court also found that Miller failed to meet his
burden of proving that he was prejudiced by trial counsel's
decision not to present mental-health evidence during the
guilt phase of the trial. The circuit court stated:
“Miller's expert, Dr. Scott, testified during the penalty
phase of trial that Miller was not unable to appreciate the
wrongfulness of his actions and therefore did not meet
the legal definition of insanity under Alabama law. [Direct
Appeal, R. 1384.] The only other possible strategy that
Miller has alleged that trial counsel could have pursued
during the guilt phase centered on arguing that Miller did
not have the intent to commit capital murder.
“However, such an argument would have run contrary to
the overwhelming evidence indicating Miller's intent to
commit murder. Johnny Cobb, an employee at Ferguson
Enterprises, heard shouting, witnessed Miller walk out of
the front door of the office with a pistol towards his truck,
and drive away. Miller, 913 So.2d at 1154. Cobb then
entered the building and saw Christopher Yancy and Lee
Holdbrooks on the floor. Id. Yancy was shot three times
and Holdbrooks was shot six times with the fatal shot being
fired as Holdbrooks looked up at Miller. Id. at 1156.
“Andy Adderhold witnessed Miller arrive at Post AirGas,
walk into the office, specifically call out to Terry Jarvis,
and then repeatedly shoot Jarvis. Id. at 1155. Miller then
ordered Adderhold out of the office, but Adderhold still
heard a final gunshot as he left the building. Id. Jarvis was
shot five times with the fatal shot to Jarvis' heart occurring
when Miller was standing directly over him. Id. at 1156.
“Miller cannot demonstrate a reasonable probability that
had trial counsel presented evidence in the guilt phase
to challenge Miller's intent that the outcome of his trial
would have been different in the face of these brutal
facts. Miller specifically sought out two victims, shot them
multiple times, proceeded to another location, specifically
sought out another victim, and shot him multiple times.
Miller's own expert indicated that such evidence indicates
that Miller could ‘appreciate the nature and quality of his
actions towards each victim.’ [Miller's Rule 32 Exhibit

[15] [16] The circuit court's findings are supported by the
record. Miller's trial counsel had four opinions from mentalhealth experts, each of whom had evaluated *390 Miller and
concluded that Miller did not meet Alabama's legal definition
of “insanity” at the time of the crimes. Accordingly, Miller's
trial counsel did not render ineffective assistance by not
expending valuable, limited resources in pursuit of a fifth
mental-health expert who may or may not have found that
Miller met Alabama's legal definition of “insanity” at the time
of the shootings.
“ ‘Counsel is not ineffective for relying on an
Smith v. State, 71 So.3d 12, 33
expert's opinion.’
(Ala.Crim.App.2008).
“ ‘[T]rial counsel had no reason to retain another
psychologist to dispute the first expert's findings.
“A postconviction petition does not show ineffective
assistance merely because it presents a new expert
opinion that is different from the theory used at trial.”
State v. Combs, 100 Ohio App.3d 90, 103, 652
N.E.2d 205, 213 (1994). See also State v. Frogge,
359 N.C. 228, 244–45, 607 S.E.2d 627, 637 (2005).
“Counsel is not ineffective for failing to shop around
for additional experts.” Smulls v. State, 71 S.W.3d 138,
156 (Mo.2002). “Counsel is not required to ‘continue
looking for experts just because the one he has consulted
gave an unfavorable opinion.’
Sidebottom v. Delo,
46 F.3d 744, 753 (8th Cir.1995).” Walls v. Bowersox, 151
F.3d 827, 835 (8th Cir.1998).'
“Waldrop v. State,
(Ala.Crim.App.2007).”

987

So.2d

1186,

1193

James v. State, 61 So.3d 357, 368–69 (Ala.Crim.App.2010).
Furthermore, after having made the strategic decision
to withdraw Miller's not-guilty-by-reason-of-mental-diseaseor-defect plea which, as discussed, was not unreasonable,
trial counsel was not ineffective for declining to introduce
evidence of Miller's mental illness during the guilt phase of
the trial. As Miller's trial counsel explained at the Rule 32

252a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

32

Miller v. State, 99 So.3d 349 (2011)

hearing, he thought that “the jury might have considered that
[evidence of Miller's mental-health problems] to be frivolous
because ... Alabama does not recognize diminished capacity
[as a defense] unless it's diminished to the point that it
becomes the defense of insanity.” (February 2008 Rule 32
Hearing, R. 263.)
Miller's trial counsel was correct that Alabama does
not recognize “diminished capacity” as a defense, as
addressed in the case of
(Ala.Crim.App.1988):

Barnett v. State, 540 So.2d 810

“Barnett argues that the issue of his mental state should
have been submitted to the jury under instructions that it
could negate the intent requirement for murder, thereby
reducing the killing to manslaughter. This contention
embodies the concept of ‘diminished capacity’ or
‘diminished responsibility,’ and was specifically rejected
by the draftsmen of our criminal code. See
[1975] § 13A–6–3 (Commentary at 158):

Ala.Code

“ ‘Under
§ 13A–6–3(a)(2), it was originally
proposed to replace the “heat of passion” due to
provocation criterion with “extreme mental or emotional
disturbance,” ... which approach is being adopted by
many modern criminal codes.... This standard originated
in the Model Penal Code § 210.3 and is discussed in
Commentary, (Tent. Draft No. 9) pp. 28–29.
“ ‘However, some members of the Advisory Committee
considered the proposal unsound, unclear and
susceptible of abuse, so it was not adopted, and
§
13A–6–3(a)(2) retains the “heat of passion” under
legal provocation defense.’
(emphasis added).

§ 13A–6–3 Commentary

“See also Neelley v. State, 494 So.2d 669, 682
(Ala.Cr.App.1985), affirmed, Ex *391 parte Neelley, 494
So.2d 697 (Ala.1986) cert. denied, Neelley v. Alabama, 480
U.S. 926, 107 S.Ct. 1389, 94 L.Ed.2d 702 (1987); Hill v.
State, 507 So.2d 554, 556 (Ala.Cr.App.1986), cert. denied,
Ex parte Hill, 507 So.2d 558 (Ala.1987).
“Although Alabama adopted the criterion for insanity
contained in § 4.01 of the Model Penal Code, it did
not adopt the accompanying section of the Model Penal
Code, § 4.02(1), which provided that ‘[e]vidence that
the defendant suffered from a mental disease or defect

is admissible whenever it is relevant to prove that the
defendant did or did not have a state of mind which is an
element of the offense.’ Compare Model Penal Code § 4.02
(A.L.I.1980) with Ala.Code § 13A–3–1 (1975). See § 13A–
3–1 Commentary.
“ ‘The rule applied in this jurisdiction is sometimes referred
to as the “all-or-nothing” approach.’ Hill, 507 So.2d at 556.
Under this approach, a ‘defendant must either establish his
insanity as a complete defense to or excuse for the crime, or
he must be held to full responsibility for the crime charged.’
Annot., 22 A.L.R.3d 1228, § 4 at 1236 (1968).
“Accordingly, Barnett was not entitled to a charge on
reckless manslaughter on the theory of diminished mental
capacity. This court's conclusion in Hill, 507 So.2d at 556–
57, is equally applicable here:
“ ‘If the jury in the present case had found that appellant
Hill was suffering from a mental disease or defect at
the time she shot the decedent and that that disease
or defect produced the act, then she could be found
not guilty by reason of mental defect. In that event,
a charge on the lesser included offense would not be
needed. If, on the other hand, she was found to be
sane at the time of the murder, a lesser included offense
charge on reckless manslaughter should be given only
if the facts of the particular case—facts unrelated to
any diminished mental capacity—would warrant the
giving of such a charge.... Here, the appellant admitted
taking the gun from a dresser drawer, pointing it at
the head of the decedent and shooting him in the
head repeatedly. Her actions were not consistent with
a finding of recklessness. Since there was no evidence
in the present case that would support an instruction
on reckless manslaughter, the trial court did not err in
denying the appellant's charge.’ 507 So.2d at 556–57
(citation omitted).”
540 So.2d at 812 (some emphasis in original; some
emphasis added). See also,
Sharifi v. State, 993 So.2d
907, 932–33 (Ala.Crim.App.2008), cert. denied, Sharifi v.
Alabama, 555 U.S. 1010, 129 S.Ct. 491, 172 L.Ed.2d
386 (2008) (finding no merit to appellant's contention that
Alabama's rejection of the diminished-capacity doctrine is
unconstitutional).
Miller failed to prove that he was entitled to a charge on
the lesser-included offense of manslaughter. The facts in this

253a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

33

Miller v. State, 99 So.3d 349 (2011)

particular case that are “unrelated to any diminished mental
capacity” did not warrant such a charge. In fact, on direct
appeal, this Court specifically rejected Miller's assertion that
his trial counsel were ineffective for not presenting evidence
during the guilt phase of “Miller's delusions to show the
murders were committed in a heat of passion, rather than as
part of a common scheme or plan.” Miller, 913 So.2d at 1161.
We reasoned:

“The fact that a victim may have
spread rumors about the defendant
or ‘smarted off’ to a defendant is
insufficient to mitigate an intentional
killing under any doctrine of
provocation or *392 heat of passion.
See, e.g., Bone v. State, 706 So.2d
1291, 1297 (Ala.Crim.App.1997)
(citing Harrison v. State, 580 So.2d 73,
74 (Ala.Crim.App.1991) (mere words
or gestures will not reduce a homicide
from murder to manslaughter)).”

As noted, this claim was raised in the motion for a new trial
and was rejected by the circuit court. On direct appeal to this
Court, Miller asserted that “his counsel's opening remarks [in
the guilt phase] indicated that counsel was serving ‘more like
a second prosecutor’ rather than defense counsel.” Miller, 913
So.2d at 1161. We rejected this claim, reasoning:

“Under the circumstances of this case,
defense counsel made a well-reasoned
decision to focus his efforts on that
part of the trial that he believed
offered the greatest chance of success.
We see no reason to second-guess
defense counsel's decision regarding
this strategy.”

913 So.2d at 1161.
Miller contends that had his appellate counsel effectively
argued in the post-sentencing proceedings that his trial
counsel's opening statement was ineffective, Miller would
have been entitled to relief.

913 So.2d at 1161.
Miller did not meet his burden of proving that his trial counsel
were ineffective for withdrawing his plea of not guilty by
reason of mental disease or defect for not presenting evidence
of Miller's mental illness during the guilt phase. Accordingly,
because Miller's underlying claim of ineffective assistance
of trial counsel has no merit, Miller failed to prove by a
preponderance of the evidence that his appellate counsel were
ineffective in the manner in which they presented this claim
of ineffective assistance of trial counsel in the post-sentencing
proceedings.

Payne, 791 So.2d at 401.

2.
[17]
Miller contends that his trial counsel rendered
ineffective assistance in his opening statement in the guilt
phase of the trial. Specifically, Miller maintains that rather
than focusing the jury on a defense theory, his trial counsel
invited the jury to feel only contempt for him. (Miller's brief,
II(B)(2)(b), at 68–70; Miller's reply brief, at 34–35.)

Defense counsel Johnson's opening statement was brief. After
introducing himself and his cocounsel, Johnson said:
“We are at a part of the process here that the law says
is necessary. We all, at this point, have been assigned
responsibilities. My responsibility and Mr. Blackwood's
responsibility is to make sure that in this case, as in any
other case, that we keep the burdens where the law says
the burdens belong, that we challenge any evidence or any
statement that is made that we think is wrong.
“Our responsibility, however, is not—and is not ever the
responsibility of a lawyer to do things frivolous. And we
will not do that in this case.
“Since August the 5th of 1999, I have probably had dozens,
if not hundreds, of cameras and microphones and tape
recorders stuck in my face asking me what happened here,
I guess presumably on the theory that I would disclose
something that would make all of this seem logical.
“I have not said anything that makes this seem logical and
reasonable because I don't know anything. You won't hear
anything coming from the defense that makes this seem

254a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

34

Miller v. State, 99 So.3d 349 (2011)

logical and reasonable. To present anything in that regard
would be frivolous. We will not engage in frivolity.
“The responsibility that Mr. Blackwood and I have we
accept and we will do what our responsibility is, but
we will *393 not do anything frivolous. That would be
irresponsible.
“I will not offer you any evidence in this case that would
make this act seem any less brutal and any less inhumane
than it was. If you want to know what happened in this
case, I think you just got a pretty good recitation of what
happened in this case. I think Mr. Owens [the prosecutor]
got most of it right. Some of it seems to me to be a little
embellished, but so what. Fundamentally, you heard what
happened.
“Now, the most serious responsibility in this case is placed
on you. And you have gone through the process of jury
selection and you are the ones who survived the process of
jury selection.
“And you did not survive because you don't have opinions
about this case. You would be—it would be unnatural, from
what most of you have seen and heard, not to have an
opinion in this case. You survived because you have said
we will not let our opinions affect the responsibility that is
placed on us in this case.
“The responsibility that is placed on you in this case will
be an awesome one, but I suggest this to you, at the end of
this case—you will have to make at least two decisions in
this case that places more responsibility on you than I will
ever have in any case I will ever stand for in a courtroom.
“But at the end, if you accept your responsibility in the
same way I—that everyone else, not just me, that everyone
else in this courtroom is accepting theirs, then at the end of
this, when this is all over, you will be proud. You won't be
ashamed, you will be proud of a least what you have done.
“I don't expect that at any point in this case you will ever be
anything but ashamed of what happened that caused us to
be here. I'm not going to ask—for me to suggest anything
to the contrary would be frivolous. You won't see anything
frivolous done in this case.
“You will see a lot of meaningful things, though, presented
to you. There will be a lot of meaningful evidence and a
lot of meaningful arguments made to you. The only thing
I ask at this point is that you accept your responsibility as

jurors and then we will all be proud that we participated in
this. Thank you.”
(Direct Appeal, R. 813–16.)
During the hearing on the motion for a new trial, Johnson said
that his primary emphasis was on saving Miller's life. Johnson
indicated that in order to reach that objective, in his opening
statement he sought to dispel the resentment the jurors might
harbor toward Miller because the jurors felt the trial was
a waste of time because of the overwhelming evidence of
Miller's guilt. Johnson explained that during voir dire at trial
a veniremember told the court that he had overheard other
veniremembers expressing their opinion that the trial was a
waste of time. 6
Johnson testified as follows at the hearing on the motion for
new trial:
“I believed that the only thing that the State could possibly
do wrong in this case would be to overkill. I was trying to
posture to make that seem to be the case, that we could not
do anything that would not seem to the jury to be frivolous,
especially on the heels of what I would have known, I think,
intuitively.
*394 “But this is the only time I've ever had a juror sit
there and tell me ‘that we all think this is a waste of time’
or something to that effect. So I thought it was important
that the jury understand, and I believe I asked the Court to
instruct the jury that this trial was not something that the
defendant was putting them through, but something that the
law was putting them through. So that was just sort of the
nature and the context in which [opening statement] was
presented.”
(Motion for New Trial Hearing, R. 59.)
Johnson said that he wanted to emphasize to the jurors that
the guilt phase of the trial process was very important and
that the jurors played a very significant role in that process
—a civic duty the jurors should take pride in performing—
and that the trial was not a waste of time despite the fact that
the “evidence was largely uncontradicted.” (Motion for New
Trial Hearing, R. 62–63.) Johnson's testimony in the Rule 32
hearing was similar in this regard. (February 2008 Rule 32
Hearing, R. 137–43.)
The circuit court held that Miller failed to meet his burden of
proving that his trial counsel rendered ineffective assistance

255a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

35

Miller v. State, 99 So.3d 349 (2011)

in what he said in his opening statement at the guilt phase of
the trial. The court stated in its order denying Miller's Rule
32 claim:

“Trial counsel Johnson's opening
statement was the product of a
reasonable, strategic decision to win
favor with the jury by not presenting
frivolous arguments in order to spare
Miller's life. Miller has not presented
any evidence to demonstrate Johnson's
strategy was unreasonable.”

(C. 2048.)
The circuit court also denied relief on this claim because
Miller failed to establish the requisite prejudice. The court
stated:
“Miller has presented no evidence concerning the impact
of Johnson's statements on the jury, nor has Miller
demonstrated a reasonable probability that the outcome of
the guilt phase would have been [different] had Johnson not
made these statements. In general, statements of counsel
‘are usually valued by the jury at their true worth and
are not expected to become factors in the formation
Minor v. State, 914 So.2d 372, 417
of the verdict.’
(Ala.Crim.App.2004). Miller has offered nothing more in
support of his claim than the bare, conclusory allegation
that Johnson's opening statement was improper and that
it prejudiced the jury, without proving specific facts that
demonstrate prejudice. Accordingly, Miller has not met his
burden of demonstrating prejudice under
therefore, this claim is denied.”

Strickland and

(C. 2048–49.)
We find no abuse of discretion in the circuit court's findings.
“Attorneys representing capital defendants face daunting
challenges in developing trial strategies, not least because
the defendant's guilt is often clear. Prosecutors are more
likely to seek the death penalty, and to refuse to accept a
plea to a life sentence, when the evidence is overwhelming
and the crime heinous. See Goodpaster, The Trial for
Life: Effective Assistance of Counsel in Death Penalty
Cases, 58 N.Y.U.L.Rev. 299, 329 (1983). In such cases,

‘avoiding execution [may be] the best and only realistic
result possible.’ ABA Guidelines for the Appointment and
Performance of Defense Counsel in Death Penalty Cases §
10.9.1, Commentary (rev.ed.2003), reprinted in 31 Hofstra
L.Rev. 913, 1040 (2003).
*395 “Counsel therefore may reasonably decide to focus
on the trial's penalty phase, at which time counsel's mission
is to persuade the trier that his client's life should be spared.
Unable to negotiate a guilty plea in exchange for a life
sentence, defense counsel must strive at the guilt phase
to avoid a counterproductive course. See Lyon, Defending
the Death Penalty Case: What Makes Death Different? 42
Mercer L.Rev. 695, 708 (1991) (‘It is not good to put on
a “he didn't do it” defense and a “he is sorry he did it”
mitigation. This just does not work. The jury will give the
death penalty to the client and, in essence, the attorney.’);
Sundby, The Capital Jury and Absolution: The Intersection
of Trial Strategy, Remorse, and the Death Penalty, 83
Cornell L.Rev. 1557, 1589–1591 (1998) (interviews of
jurors in capital trials indicate that juries approach the
sentencing phase ‘cynically’ where counsel's sentencingphase presentation is logically inconsistent with the guiltphase defense); id., at 1597 (in capital cases, a ‘run-ofthe-mill strategy of challenging the prosecution's case for
failing to prove guilt beyond a reasonable doubt’ can have
dire implications for the sentencing phase). In this light,
counsel cannot be deemed ineffective for attempting to
impress the jury with his candor and his unwillingness
to engage in ‘a useless charade.’ See
[United States
v.] Cronic, 466 U.S. [648], at 656–657, n. 19 [ (1984) ].
Renowned advocate Clarence Darrow, we note, famously
employed a similar strategy as counsel for the youthful,
cold-blooded killers Richard Loeb and Nathan Leopold.
Imploring the judge to spare the boys' lives, Darrow
declared: ‘I do not know how much salvage there is in these
two boys.... I will be honest with this court as I have tried
to be from the beginning. I know that these boys are not fit
to be at large.’ Attorney for the Damned: Clarence Darrow
in the Courtroom 84 (A. Weinberg ed.1989); see Tr. of Oral
Arg. 40–41 (Darrow's clients ‘did not expressly consent to
what he did. But he saved their lives.’); cf.
Yarborough
v. Gentry, 540 U.S. 1, 9–10 (2003) (per curiam).”
Florida v. Nixon, 543 U.S. 175, 191–92, 125 S.Ct. 551,
160 L.Ed.2d 565 (2004). (Footnotes omitted.)
Miller failed to meet his burden of proving that his trial
counsel's opening statement at the guilt phase constituted

256a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

36

Miller v. State, 99 So.3d 349 (2011)

ineffective assistance. Therefore, it follows that Miller has
also failed to prove by a preponderance of the evidence that
his appellate counsel were ineffective in the manner in which
they presented this claim of ineffective assistance of trial
counsel in the post-sentencing proceedings.
So.2d at 401.

Payne, 791

3.
Miller's appellate counsel argued in the motion-for-newtrial proceedings and on direct appeal that Miller's trial
counsel were ineffective for not adequately investigating and
presenting mitigating evidence in the penalty phase of the
trial. The circuit court denied Miller's claim, as did this Court.
In rejecting this claim, this Court wrote:
“Miller further contends that trial counsel's failure ‘to
adequately explore all possible mitigating routes' left
counsel unable to make well-informed decisions on the
question of mitigation. As set out above, counsel testified
at length regarding his representation of Miller, including
his investigation of the relevant law and facts, and his
strategy to save Miller from a sentence of death. Counsel
explained his reasons for presenting evidence regarding
Miller's family *396 and social history through Dr.
Scott's testimony, rather than through various family
members. Based on our review of the record, we fail to
see what other mitigating evidence counsel could have
offered. Moreover, despite Miller's allegations, he offers
no additional mitigating evidence that counsel did not
discover during his investigation or that counsel failed to
consider in formulating his defense strategy. Accordingly,
we are unable to say that counsel was ineffective as to
this claim. See
Lawhorn v. State, 756 So.2d 971, 986
(Ala.Crim.App.1999).”
Miller, 913 So.2d at 1163 (emphasis added).
Miller alleges that there was a “mountain of compelling
mitigating evidence available to trial counsel that was not
presented at trial,” and that, because of trial counsel's
“grossly inadequate” investigation, the mitigating evidence
was not discovered. (Miller's brief, II(B)(2)(c), at 71;
Miller's reply brief, at 23–34.) He argues that trial counsel's
investigation into the mitigating evidence failed to comply
with the American Bar Association (“ABA”) guidelines
for conducting an appropriate investigation into potential
mitigating evidence in death-penalty cases because: (1) trial

counsel failed to adequately interview Miller and Miller's
close relatives; and (2) trial counsel did not collect his
“employment, educational, and medical records, and medical
records of his numerous family members with documented
serious mental illness.” (Miller's brief, II(B)(2)(c)(i)(A) and
(B), at 73–82; Miller's reply brief, at 23–29.) As a result,
Miller maintains that his trial counsel did not learn about:

“Mr. Miller's family, social, and mental
health history, including (i) the extent
of instability, poverty and hardship
Mr. Miller suffered in childhood
as a result of his father's constant
uprooting of the family and erratic
employment history; (ii) the extreme
physical and psychological abuse Ivan
[Miller's father] inflicted on the family,
including the particular wrath he
reserved for Mr. Miller; (iii) the
well-documented history of mental
illness of at least four generations
of the Miller family; and (iv) Mr.
Miller's strong work ethic, good
employment history, financial support
for his family, and loving family
relationships.”

(Miller's brief, at 75.)
Miller alleges that had his trial counsel presented this
additional mitigating evidence at the penalty phase of the
trial, he may not have been sentenced to death. (Miller's
brief, II(B)(2)(c)(ii)(A)-(G), at 82–99; Miller's reply brief,
at 29–34.) Additionally, he asserts that had his appellate
counsel properly presented and supported this underlying
claim of ineffective assistance of trial counsel in the motionfor-new-trial proceedings and on appeal with this additional
information, he would have been entitled to relief. (Miller's
brief, II(B)(2)(c)(v), at 110–17.)

a.
[18] First, we note that whether Miller's trial counsel's
investigation into potential mitigating evidence adhered to
the ABA guidelines is not dispositive of whether counsels'
investigation was reasonable.

257a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

37

Miller v. State, 99 So.3d 349 (2011)

“We have held that the ABA Guidelines may ‘provide
guidance as to what is reasonable in terms of counsel's
representation, [but] they are not determinative.’

Jones

v. State, 43 So.3d 1258, 1278 (Ala.Crim.App.2007).

7

significant. A defendant must still show that he was
prejudiced by counsel's representation.’). We agree with
the United States Court of Appeals for the Fourth Circuit.
“Also, the United States Supreme Court in
[v. Smith, 539 U.S. 510 (2003),] stated:

“ ‘[C]ounsel has a duty to make reasonable
investigations or to make a reasonable decision that
makes particular investigations unnecessary.... [A]
particular decision not to investigate must be directly
assessed for reasonableness in all the circumstances,
applying a heavy measure of deference to counsel's
judgments.

*397 “The danger of adopting the ABA Guidelines as
determinative on the issue of a lawyer's effectiveness was
discussed by the United States Court of Appeals for the
Fourth Circuit:
“ ‘[T]o hold defense counsel responsible for
performing every task that the ABA Guidelines
say he “should” do is to impose precisely the “set
of detailed rules for counsel's conduct” that the
Supreme Court has long since rejected as being
unable to “satisfactorily take account of the variety
of circumstances faced by defense counsel or the
range of legitimate decisions regarding how best to
Strickland, 466
represent a criminal defendant.”
U.S. at 688–89, 104 S.Ct. 2052, 80 L.Ed.2d 674.
Such a categorical holding would lead to needless and
expensive layers of process with the unintended effect
of compromising process.... Recognition of the ABA
Guidelines as the minimum prevailing community
standard would transform defense lawyers' judgments
into mindless defensive reactions to a potential habeas
claim, divorced from the individualized needs of
professional representation. Those needs call for more
nuanced responses than can be provided by following
preestablished mechanical rules of representation....
“ ‘While the ABA Guidelines provide noble
standards for legal representation in capital cases
and are intended to improve that representation, they
nevertheless can only be considered as part of the
overall calculus of whether counsel's representation
falls below an objective standard of reasonableness;
they still serve only as “guides,”
Strickland,
466 U.S. at 688, 104 S.Ct. 2052, not minimum
constitutional standards.’
“Yarbrough v. Johnson, 520 F.3d 329, 339 (4th
Cir.2008). See also
Torres v. State, 120 P.3d 1184,
1189 (Okla.Crim.App.2005) (‘[W]e will not find that
capital counsel was per se ineffective simply because
counsel's representation differed from current capital
practice customs, even where the differences are

Wiggins

“ ‘... [O]ur principal concern in deciding
whether [counsel] exercised “reasonable professional
judgmen[t]” is not whether counsel should have
presented a mitigation case. Rather, we focus
on whether the investigation supporting counsel's
decision not to introduce mitigating evidence ... was
itself reasonable. In assessing counsel's investigation,
we must conduct an *398 objective review of their
performance, measured for “reasonableness under
prevailing professional norms,” which includes a
context-dependent consideration of the challenged
conduct as seen “from counsel's perspective at the
time.” ’
“

539 U.S. at 521–23.”

Ray, 80 So.3d at 982–83.
(i)
[19] With the aforementioned principles of law in mind,
we turn to Miller's allegation that his trial counsel failed to
adequately interview him and his family. The circuit court
stated the following in its order:
“In paragraphs 31–65 of his amended petition [C. 276–
88], Miller alleges that his trial counsel failed to adequately
investigate facts pertaining to his background and develop
a mitigation case to present to the jury. [C. 276.] Miller
claims that his trial counsel failed to utilize his family
members as a source of information concerning Miller's
unstable childhood and the physical and psychological
abuse he received.

258a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

38

Miller v. State, 99 So.3d 349 (2011)

“This claim is denied by this Court because it is
directly refuted by the record and its therefore without
merit. See Gaddy v. State, 952 So.2d 1149, 1161
Duncan v. State, 925 So.2d 245,
(Ala.Crim.App.2006);
266 (Ala.Crim.App.2005). Trial counsel Johnson testified
that he met with Miller personally ‘at least half a dozen
times.’ [Direct Appeal, Motion for New Trial Hearing, R.
10.] During the evidentiary hearing, Johnson stated that
he and co-counsel Bass interviewed Miller on numerous
occasions from the beginning of their representation in
August of 1999 up until the time of trial. [February 2008
Rule 32 Hearing, R. 32, 41, 45, 46.] Johnson stated that the
purpose of these meetings involved conducting ‘continued
preparation for trial.’ [February 2008 Rule 32 Hearing, R.
46–47.]
“Johnson also interviewed Miller's family members such
as his father, mother, and his sisters with the specific
focus of uncovering general background information and
facts concerning his relationship with his father. [Motion
for New Trial Hearing, R. 21–22.] Johnson met with the
family on the day of the shootings on August 5, 1999, and
spoke with his mother Barbara and his brother Richard
in order to get family background information. [February
2008 Rule 32 Hearing, R. 38–39.] Bass had a thirty minute
phone conversation with Barbara Miller on August 6, and
hour long conversation with Lisa Miller, Miller's sister on
August 29, and had discussions again with Barbara Miller
on October 24 and November 8. [February 2008 Rule 32
Hearing, R. 40, 42, 44, 45.] Johnson testified that these
meetings with Miller's family were part of an ‘ongoing
effort’ to get helpful information and that Bass would have
shared this information with him. [February 2008 Rule 32
Hearing, R. 41, 43–44.]
“Johnson himself met with Barbara Miller for a 90 minute
conference on March 1, 2000, and also talked with Brian
Miller, his cousin, and Lisa Carden, his sister. [February
2008 Rule 32 Hearing, R. 46, 163, 165.] Based on these
interviews, Johnson testified that he learned information
about Miller's background and upbringing. [February
2008 Rule 32, R. 165–66.] Additionally, trial counsel
discovered from the interviews evidence of a family history
of mental illness. [February 2008 Rule 32 Hearing, R.
80.] Johnson also recalled receiving information about
Miller's upbringing and background as well as positive
information about Miller from his brother Richard Miller.
[February 2008 *399 Rule 32 Hearing, R. 159.] Given
that the records of both the motion for new trial hearing

and the Rule 32 evidentiary hearing indicate that trial
counsel met with Miller and his family numerous time
for the purpose of developing information concerning his
background and upbringing and therefore directly refutes
Miller's allegation, this claim is denied. See Gaddy, 952
So.2d at 1161.
“This Court also denied Miller's claim because Miller
has failed to meet his burden of proof of demonstrating
that his trial counsel's performance was deficient under
Strickland, 466 U.S. at 687. Ala. R.Crim. P. 32.7(d).
As noted above, evidence was presented that trial counsel
Johnson and Bass repeatedly interviewed Miller and his
mother and spoke with his father, brother and sisters for
the purpose of discovering information relating to Miller's
upbringing and family background. [Motion for New Trial
Hearing, R. 21–22; February 2008 Rule 32 Hearing, R.
38–46.] Miller failed to present any evidence during the
evidentiary hearing that trial counsel failed to ask a specific
question regarding his unstable childhood or his childhood
history of abuse. Therefore, because the record is silent,
trial counsel's performance in regard to his investigation
and interviews of Miller and his family is presumed to be
reasonable. See
Williams v. Head, 185 F.3d 1223, 1228
(11th Cir.1999) (‘Where the record is incomplete or unclear
about [counsel's] actions, we will presume that he did
what he should have done and that he exercised reasonable
professional judgment.’);
Chandler v. United States,
218 F.3d 1305, 1315 n. 15 (11th Cir.2000) (En Banc).
“Trial counsel was not deficient in the scope of family
interviews conducted during his background information,
despite Miller's laundry list of family members he alleges
should have been interviewed: his father, Ivan Miller,
his sisters, Lisa Carden and Cheryl Ellison, his brother,
Richard Miller, his half-brother, Jeff Carr, his niece, Alicia
Sanford, his nephew, Jake Connell, his cousin, Brian
Miller, and his uncle, Perry Miller. [Amended Rule 32
Petition, C. 277–78.] Contrary to Miller's claims, trial
counsel met with and interviewed, Ivan Miller, Richard
Miller, Lisa Carden, and Brian Miller. [Direct Appeal,
Motion for New Trial Hearing, R. 21–22; February 2008
Rule 32 Hearing, R. 159, 163, 165.] Neither Jeff Carr
nor Perry Miller testified during the evidentiary hearing;
therefore, there is no record whatsoever of whether
these family members could have provided any relevant
information.

259a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

39

Miller v. State, 99 So.3d 349 (2011)

“Miller has failed to prove that trial counsel's investigation
of his family members was not reasonable, nor has he
demonstrated that all reasonably competent counsel would
have also interviewed the additional family members
Miller claims should have been interviewed.
“Regardless, trial counsel cannot be found deficient
for failing to interview the remaining family members
concerning information on Miller's life: Cheryl Ellison,
Alicia Sanford and Jake Connell. First, information
from Cheryl Ellison was ultimately obtained through
her interview with Miller's psychiatric expert Dr. Scott.
[February 2008 Rule 32 Hearing, R. 315.] Additionally,
the evidence presented during the evidentiary hearing
demonstrates that Ellison failed to provide any meaningful
information. Although Cheryl Ellison stated that she knew
of Miller since he was born, she also testified that she
did not grow up with the immediate Miller family and
stated that she spent ‘very little’ time with the Miller
family throughout her childhood. [February 2008 Rule
32 *400 Hearing, R. 501.] Ellison's testimony during
the evidentiary hearing provided virtually no additional,
relevant information concerning Miller's background other
than general testimony that Ivan Miller was a bad person
and irrelevant testimony concerning Miller's brother, Ivan
Ray Miller's death and funeral. [February 2008 Rule 32, R.
500–525.]
“Furthermore, trial counsel had no reason to interview
Miller's niece, Alicia Sanford and his nephew, Jake
Connell. Alicia Sanford testified that she was 14 years
old at the time of trial and did not attend Miller's trial,
nor did she attend any family meetings with trial counsel.
[February 2008 Rule 32 Hearing, R. 498–99.] Not only
could trial counsel not have been aware of whether Alicia
Sanford was available to testify, but it is unlikely that a
witness 14 years old at the time of trial could have provided
any background information whatsoever pertaining to
Miller who was over twice her age. Similarly, trial counsel
reasonably had no ability to be aware of Jake Connell's
availability as a witness, nor could Connell provide any
useful background information. Connell was 18 years old at
the time of Miller's trial, did not spend much time growing
up with Miller, and did not attend Miller's trial. [February
2008 Rule 32 Hearing, R. 584–85.]
“Finally, the investigation into Miller's childhood
background and history of abuse through the interviews of
family members was adequately performed by Dr. Charles

Scott, the psychiatrist who testified during the penalty
phase of Miller's trial. See Hall v. State, 979 So.2d 125,
163 (Ala.Crim.App.2007) ( ‘It is neither unprofessional nor
unreasonable for a lawyer to use surrogates to investigate
and interview potential witnesses rather than doing so
personally’) (referencing
Harris v. Dugger, 874 F.2d
756, 762 & n. 8 (11th Cir.1989)). Although Dr. Scott was
not originally engaged by trial counsel for the express
purpose of conducting a mitigation investigation, Johnson
felt that Dr. Scott did ‘a pretty thorough job of getting
family history that he felt was relevant, employment
history, all of those that you want to present some
information about to a jury.’ [February 2008 Rule 32
Hearing, R. 188, 222.] During the penalty phase of the trial,
Dr. Scott confirmed the importance of his role in learning
as much as he could about Miller's social background,
personal history, as well as facts of Miller's case. [Record
on Direct Appeal, R. 1348.]
“As part of his investigation, Dr. Scott met with Miller
over a period of three days and conducted extensive
interviews and examinations. [February 2008 Rule 32
Hearing, R. 314.] To confirm background information,
Dr. Scott also interviewed Barbara Miller, his brother,
Richard Miller, and his sister Cheryl Ellison. [February
2008 Rule 32 Hearing, R. 314–15.] After Dr. Scott's
investigation was completed, Johnson then discussed with
Dr. Scott the areas in which Dr. Scott could provide helpful
mitigation testimony during the penalty phase of Miller's
trial. [February 2008 Rule 32 Hearing, R. 190, 253–54.]
Therefore, because trial counsel, both through his own
investigation and through that of Dr. Scott, thoroughly
inquired into the background and history of abuse in
Miller's childhood, Miller has failed to meet his burden of
proof of demonstrating that his trial counsel's investigation
was deficient and this claim is denied.”
(C. 1992–2000.) The circuit court's findings are supported by
the record.
The circuit court also denied relief on this claim because the
court found that *401 Miller failed to establish the requisite
prejudice, stating:

“Even if Miller could have
demonstrated that his trial counsel's
investigation of his background was
deficient, he cannot prove that he

260a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

40

Miller v. State, 99 So.3d 349 (2011)

was prejudiced because extensive
testimony was nonetheless presented
during the penalty phase of his trial
regarding his unstable childhood and
the physical and emotional abuse
Miller suffered.”

1315 n. 15 (11th Cir.2000) (‘An ambiguous or silent record
is not sufficient to disprove the strong and continuing
presumption [because] “where the record is incomplete or
unclear about [counsel's] actions, [the court] will presume
that he did what he should have done, and that he exercised
reasonable professional judgment.” ’).”
(C. 2003–04.)

(C. 2000.) Miller's failure to prove prejudice is discussed in
more detail, infra.

(ii)
[20] As noted above, Miller also asserts that his trial counsel
were ineffective because, he claims, counsel did not gather
multiple “important mitigating documents” that could have
been presented in the penalty phase of the trial. However, in
his claim in his amended Rule 32 petition, Miller asserted only
that his trial counsel were ineffective for not gathering and
investigating Miller's medical records. (C. 288–90.) 8 That is
the specific allegation the court addressed.
The circuit court denied relief on this claim for several
reasons. First the court found that Miller failed to meet
the specificity requirements of Rule 32.6(b), Ala. R.Crim.
P., because Miller made only the vague allegation that
his trial counsel should have acquired records from three
unnamed hospitals and Miller failed to present evidence at
the evidentiary hearing of what specific hospital records his
counsel should have investigated. (C. 2002.)
The circuit court also denied relief because, it found, Miller
failed to meet his burden of proving that his trial counsel's
performance was deficient in this regard, or that he was
prejudiced by that performance. Specifically, the court stated:
“Although trial counsel Johnson testified that he did not
present Miller's medical records during trial, Miller failed
to elicit any testimony during the evidentiary hearing from
Johnson as to whether Johnson investigated or attempted
to obtain Miller's medical records. [February 2008 Rule 32
hearing, R. 184.] Therefore, because the record is silent
regarding trial counsel's investigation of Miller's medical
records, and because trial counsel's conduct is presumed
to be reasonable, this Court should also presume that trial
counsel's investigation of Miller's medical history was
reasonable.

Chandler v. United States, 218 F.3d 1305,

The circuit court found that Miller failed to establish the
requisite prejudice because, “[t]estimony was presented by
Dr. Scott during the penalty phase of trial regarding injuries
Miller received as a child—the exact information Miller now
claims his trial counsel failed to investigate and provide to Dr.
Scott.” (C. 2004.) The court additionally noted that Miller's
own Rule 32 expert, Dr. Boyer, “ ‘testified that she did not
have any indication of the cause of Miller's injuries and
was not aware of any medical records indicating that Miller
had any overnight hospital *402 stays as a result of his
injuries.’ [February 2008 Rule 32 Hearing, R. 739–40.]” The
court's findings are supported by the record.
Miller now expands his list of documents that, he claims,
his trial counsel should have gathered and investigated for
mitigating evidence to include: (1) Miller's education records;
(2) Miller's employment records; (3) mental-health records
of Miller's family; and (4) Department of Human Resources
records showing the poverty Miller experienced. (Miller's
brief, at 80.) Because of the manner in which Miller presented
this claim in his amended petition, the circuit court did
not specifically address the additional documents Miller
claims his trial counsel should have gathered and investigated
for potential mitigating evidence. However, the effect of
Miller's trial counsel's failure to gather these purportedly
mitigating documents was addressed in the context of Miller's
assertion that his trial counsel did not present readily available
mitigating evidence, which is discussed later in this opinion.
[21] The circuit court's conclusion that Miller failed to meet
his burden of proving that his trial counsel's performance in
investigating potential mitigating evidence was unreasonable
is supported by the record. As this Court has stated:
“ ‘ “[F]ailure to investigate possible mitigating factors
and failure to present mitigating evidence at sentencing
can constitute ineffective assistance of counsel under the
Sixth Amendment.”

Coleman [v. Mitchell ], 244 F.3d

[533] at 545 [ (6th Cir.2001) ]; see also
Rompilla
v. Beard, 545 U.S. 374, 125 S.Ct. 2456, 162 L.Ed.2d

261a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

41

Miller v. State, 99 So.3d 349 (2011)

360 (2005);
Wiggins v. Smith, 539 U.S. 510, 123
S.Ct. 2527, 156 L.Ed.2d 471 (2003). Our circuit's
precedent has distinguished between counsel's complete
failure to conduct a mitigation investigation, where we
are likely to find deficient performance, and counsel's
failure to conduct an adequate investigation where the
presumption of reasonable performance is more difficult
to overcome:
“ ‘ “[T]he cases where this court has granted the
writ for failure of counsel to investigate potential
mitigating evidence have been limited to those
situations in which defense counsel have totally failed
to conduct such an investigation. In contrast, if a
habeas claim does not involve a failure to investigate
but, rather, petitioner's dissatisfaction with the degree
of his attorney's investigation, the presumption of
reasonableness imposed by
to overcome.”

Strickland will be hard

“ ‘ Campbell v. Coyle, 260 F.3d 531, 552 (6th
Cir.2001) (quotation omitted) (emphasis added); see
also
Moore v. Parker, 425 F.3d 250, 255 (6th
Cir.2005). In the present case, defense counsel did
not completely fail to conduct an investigation for
mitigating evidence. Counsel spoke with Beuke's parents
prior to penalty phase of trial (although there is some
question as to how much time counsel spent preparing
Beuke's parents to testify), and presented his parents'
testimony at the sentencing hearing. Defense counsel
also asked the probation department to conduct a
presentence investigation and a psychiatric evaluation.
While these investigatory efforts fall far short of an
exhaustive search, they do not qualify as a complete
failure to investigate. See
Martin v. Mitchell, 280
F.3d 594, 613 (6th Cir.2002) (finding that defense
counsel did not completely fail to investigate where
there was “limited contact between defense counsel
and family *403 members,” “counsel requested a
presentence report,” and counsel “elicited the testimony
of [petitioner's] mother and grandmother”). Because
Beuke's attorneys did not entirely abdicate their duty
to investigate for mitigating evidence, we must closely
evaluate whether they exhibited specific deficiencies
that were unreasonable under prevailing professional
standards. See Dickerson v. Bagley, 453 F.3d 690, 701
(6th Cir.2006).’

“ Beuke v. Houk, 537 F.3d 618, 643 (6th Cir.2008).
‘[A] particular decision not to investigate must be directly
assessed for reasonableness in all the circumstances,
applying heavy measure of deference to counsel's
Wiggins, 539 U.S. at 521–22. ‘A defense
judgments.’
attorney is not required to investigate all leads....'
Bolender v. Singletary, 16 F.3d 1547, 1557 (11th
Cir.1994). ‘A lawyer can almost always do something more
in every case. But the Constitution requires a good deal
less than maximum performance.’ Atkins v. Singletary, 965
F.2d 952, 960 (11th Cir.1992). ‘The attorney's decision
not to investigate must not be evaluated with the benefit
of hindsight, but accorded a strong presumption of
reasonableness.’ Mitchell v. Kemp, 762 F.2d 886, 889 (11th
Cir.1985).
“ ‘The reasonableness of counsel's actions may
be determined or substantially influenced by the
defendant's own statements or actions. Counsel's
actions are usually based, quite properly, on informed
strategic choices made by the defendant and on
information supplied by the defendant. In particular,
what investigation decisions are reasonable depends
critically on such information.’
“ Strickland v. Washington, 466 U.S. at 691. ‘The
reasonableness of the investigation involves “not only the
quantum of evidence already known to counsel, but also
whether the known evidence would lead a reasonable
attorney to investigate further.” ’ St. Aubin v. Quarterman,
470 F.3d 1096, 1101 (5th Cir.2006), quoting in part
Wiggins, 539 U.S. at 527.”
Ray, 80 So.3d at 983–84.
This is not a situation where Miller's trial counsel conducted
no investigation, or where trial counsel, like counsel in
Wiggins v. Smith, 539 U.S. 510, 123 S.Ct. 2527, 156
L.Ed.2d 471 (2003), had information that alluded to the
defendant's troubled and difficult childhood but failed to
conduct a more thorough investigation. Because Miller failed
to prove that his trial counsel's performance in investigating
potential mitigating evidence was unreasonable, Miller also
failed to prove that the manner in which appellate counsel
asserted this claim was deficient.

262a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

Payne, 791 So.2d at 401.

42

Miller v. State, 99 So.3d 349 (2011)

b.
[22] Miller argues that his trial counsel failed to present
readily available mitigating evidence at the penalty phase
of the trial. Miller maintains that had his trial counsel
conducted a proper investigation into Miller's background,
trial counsel “would have been able to inform the jury about
the instability, violence and drug abuse to which [he] was
exposed throughout his early life,” and trial counsel could
have presented “positive evidence concerning [him], his life,
or his character.” (Miller's brief, II(B)(2)(c)(ii), at 82–99;
Miller's reply brief, at 29–34.)
Specifically, Miller contends that as a result of his trial
counsel's failure to present sufficient mitigating evidence,
neither the judge nor the jury learned of: (1) the extent of the
physical and emotional abuse inflicted on Miller by his father
(Miller's brief, at 87–90); (2) the poverty and rootlessness
Miller experienced as a child (Miller's brief, at 90–92); (3)
the unlawful behavior *404 to which Miller was exposed
during his upbringing (Miller's brief, at 92); (4) the Miller
family's history of mental abuse (Miller's brief, at 93); (5)
Miller's good employment history (Miller's brief, at 93–95);
(6) Miller's loving relationship with his family (Miller's brief,
at 95–98); (7) Miller's unusual behavior immediately before
the shootings (Miller's brief, at 98–99).
In a related vein, Miller contends that his trial counsel were
ineffective because they did not retain a mitigation expert,
who, Miller claims, could have conducted a comprehensive
mitigating investigation and who could have presented the
resulting information to the jury “in a way that would
allow the jurors to understand what caused [him] to shoot
his three co-workers.” (Miller's brief, II(B)(2)(c)(iii), at
99–104.) In support of this assertion, Miller argues that
the testimony of his Rule 32 expert Dr. Catherine Boyer
“demonstrated both the type of expert mitigation evidence
that Trial Counsel failed to present and the resulting prejudice
to [him.]” (Miller's brief, at 100.)
Miller maintains that had his trial counsel properly presented
the readily available mitigating evidence, there is “reasonable
probability” that the jury would not have recommended
the death penalty and/or that the court would not have
imposed the death penalty. Thus, Miller concludes, had his
appellate counsel properly argued and supported this claim of
ineffective assistance of counsel in the motion for a new trial
and on appeal, he would have prevailed.

The circuit court addressed these contentions in its order
denying Miller relief on these claims. We quote extensively
from the court's order:
“In paragraphs 238–64 of his amended petition [C. 338–
46], Miller claims that his trial counsel were ineffective
in presenting a mitigation case on Miller's behalf. Miller's
claim contained numerous reasons in which he alleges trial
counsel's mitigation presentation was ineffective. First,
Miller claims that Dr. Scott's testimony was insufficient
to present a mitigation case because Dr. Scott had not
been retained as a mitigation expert. [C. 338.] Miller also
claims that ‘the jury never heard about the emotional and
physical terror that Mr. Miller's father, Ivan, had inflicted
upon Mr. Miller and his family.’ [C. 339.] Miller alleges
that the jury never heard about his troubled childhood,
including the extent of the family's poverty, the family's
frequent relocations, and the unlawful behavior and drug
abuse that occurred in the Miller home. [C. 341.] Miller
also claims that his trial counsel were ineffective for
not presenting mitigation evidence through the following
family members: his mother, Barbara, his siblings, Richard,
Cheryl, and Jeff, his niece, Alicia, his nephew, Jake, and
his cousin Brian. [C. 343.] Finally, Miller claims that the
jury never heard positive information about his life such as
the fact that he worked to provide money for his family and
his good employment history. [C. 343–44.]
“This Court denies Miller's claim because he has failed
to meet his burden of proof of establishing that trial
Strickland,
counsel's performance was deficient under
466 U.S. at 687; Ala. R.Crim. P. 32.7(d). The basic thrust
of Miller's claim is that his trial counsel should have
done something more—i.e., that more mitigating evidence
concerning his mental history, his personal background,
and family background should have been presented during
the penalty phase. When a claim is raised that trial counsel
should have done something more, a court must first look
at what trial counsel did.
*405 Chandler [v. United
States ], 218 F.3d [1305] at 1320 [ (11th Cir.2000) ].
(‘Although Petitioner's claim is that his trial counsel should
have done something more, we first look at what the
lawyer did in fact.’) Moreover, ‘the mere fact that other
witnesses might have been available or that other testimony
might have been elicited from those who testified is not
a sufficient ground to prove ineffectiveness of counsel.’
Id. at 1316 n. 20.

263a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

43

Miller v. State, 99 So.3d 349 (2011)

“Johnson testified that he made a strategic decision to
focus on the penalty phase of Miller's trial and that his
specific theory of defense was that Miller suffered from
a diminished capacity. [Direct Appeal, Motion for New
Trial Hearing, R. 17, February 2008 Rule 32 Hearing, R.
219.] Accordingly, Johnson presented the testimony of Dr.
Scott for this purpose in an effort to establish the existence
of two statutory mitigating circumstances: that the capital
offense was committed while the defendant was under
the influence of extreme mental or emotional disturbance
under Ala.Code [1975,] § 13A–5–51(2) and that the
capacity of the defendant to appreciate the criminality of
his conduct or to conform his conduct to the requirements
of law was substantially impaired under Ala.Code [1975]
§ 13A–5–51(6). [Record on Direct Appeal, R. 1343–91;
February 2008 Rule 32 Hearing, R. 186–87.] Johnson had
originally retained Dr. Scott to evaluate Miller in regard to
an insanity plea; however, after Dr. Scott issued his report
and the insanity plea was dropped, Johnson discussed
with Dr. Scott the possibility of presenting the mental
health evidence from Dr. Scott's evaluation in support of a
mitigation case. [February 2008 Rule 32 Hearing, R. 181,
190, 253.]
“At trial, Dr. Scott provided testimony relating to Miller's
psychological background as well as Miller's verison of the
events on the day of the shooting in support of a diminished
capacity strategy. Dr. Scott testified that Miller reported
that he believed people were watching him and teasing
him at work and that these feelings weighed on his mind.
[Record on Direct Appeal, R. 1365–66, 1369.] Dr. Scott
stated that Miller said the pressure of these thoughts kept
building up in his mind and that the ‘straw that broke
the camel's back’ occurred when he arrived at work at
Ferguson Enterprises on August 5, 1999. [Record on Direct
Appeal, R. 1373–75.] Dr. Scott also testified that Miller
reported experiencing ‘tunnel vision’ and that Miller had
difficulty recalling the events of the crime. [Record on
Direct Appeal, R. 1375, 1378.] Based on this evidence, Dr.
Scott opined that Miller did have a mental illness at the time
of the shootings, specifically a delusional disorder, and
that his ability to appreciate his conduct was substantially
impaired. [Record on Direct Appeal, R. 1389–91.]
“Although the presentation of testimony supporting a
diminished capacity theory was Johnson's main strategy,
contrary to Miller's claims, Johnson also presented an array
of mitigating evidence concerning Miller's background,
family history, and positive information about his life

through the testimony of Dr. Scott. Johnson did not hire
Dr. Scott with the express purpose of investigating Miller's
background, and in fact, Johnson and Dr. Scott agreed
that he was not retained in the capacity of a mitigation
expert. [February 2008 Rule 32 Hearing, R. 189, 311.]
However, Dr. Scott did state that it was important for
him to learn as much as he could about Miller's social
background, educational background, and personal history
during his evaluation. [Record on Direct Appeal, *406
R. 1348.] Johnson testified Dr. Scott did a thorough job
of investigating relevant family history and background
information and could perform the role of presenting this
information he discovered to the jury. [February 2008 Rule
32 Hearing, R. 222, 254.]
“Contrary to Miller's claims, evidence concerning the
physical and emotional abuse inflicted on him personally
by Miller's father, Ivan, and on his family was presented
through the testimony of Dr. Scott. Dr. Scott testified that
Ivan was ‘verbally abusive’ to Miller, that Ivan told Miller
at a young age he would not amount to anything, and that
Ivan called him a ‘God damn son of a bitch.’ [Record on
Direct Appeal. R. 1350.] Dr. Scott also testified that Ivan
was ‘physically abusive’ to Miller and frequently hit Miller
which left bruises on him. [Record on Direct Appeal. R.
1350.] Dr. Scott told the jury about specific occurrences of
Ivan's abuse when Ivan threatened to harm Miller with a
large butcher knife. [Record on Direct Appeal, R. 1351.]
Dr. Scott also noted that Miller witnessed Ivan's verbal
and physical abuse to his mother, in which Ivan called her
a ‘whore’ and frequently hit her ‘very hard.’ [Record on
Direct Appeal, R. 1351.]
“Contrary to Miller's claim, evidence detailing Miller's
impoverished childhood and unstable home environment
was presented through Dr. Scott's testimony. Dr. Scott
stated that Miller had ‘an unusual early childhood’ because
his family frequently moved between Illinois, Alabama,
and Texas as many as 7 to 10 times. [Record on Direct
Appeal, 1349.] Dr. Scott testified that Ivan Miller often
quit or lost his job and that the family lived ‘on the edge
of poverty a lot.’ [Record on Direct Appeal, R. 1349.] Dr.
Scott also informed the jury that drug abuse was present
during Miller's childhood, noting that Ivan Miller ‘abused
marijuana quiet heavily’ and injected drugs intravenously
in Miller's presence. [Record on Direct Appeal, R. 1350.]
Dr. Scott also provided details of Ivan Miller's eccentric
behavior, testifying that Ivan thought he had the power
to heal and that his father laid hands on Miller's brother
and walked around the house spraying ‘holy water.’

264a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

44

Miller v. State, 99 So.3d 349 (2011)

[Record on Direct Appeal, R. 1350–51.] Additionally, Dr.
Scott presented evidence of the family psychiatric history.
[Record on Direct Appeal. R. 1362.] Dr. Scott noted Ivan
Miller's erratic behavior and also testified that Miller's
grandfather had been institutionalized and that his brother
was considered slow. [Record on Direct Appeal, R. 1362–
63.]
“Finally, contrary to Miller's claims, Dr. Scott provided
positive evidence of Miller's character. Dr. Scott noted that
Miller had a great, loving relationship with his mother,
Barbara. [Record on Direct Appeal, R. 1351–52.] Dr. Scott
told the jury that Miller quit school when he was in the
eleventh grade so that he could work and provide money
for his family. [Record on Direct Appeal, R. 1349–50.] Dr.
Scott noted that Miller did not have a history of aggressive
behavior and that Miller eventually graduated from high
school. [Record on Direct Appeal, R. 1352–53.] Dr. Scott
also testified that Miller did not have a history of any
serious drug or alcohol abuse. [Record on Direct Appeal,
R. 1356.] Dr. Scott also provided the jury with details
of Miller's employment history, testifying that Miller had
several jobs, usually left a job for a job that paid more
money, and kept to himself during work. [Record on Direct
Appeal, R. 1363.] In total, the scope of Dr. Scott's testimony
was broad and provided many details of events throughout
his lifetime *407 and extensively covered various areas
of his personal history.
“Based on the record of trial and the evidentiary hearing,
this Court finds that trial counsel made a strategic decision
to concentrate on presenting evidence during the penalty
phase on Miller's diminished mental capacity that would
support a finding of the existence of two statutory
mitigating circumstances. Trial counsel also presented a
wealth of evidence concerning Miller's background and
family history. Trial counsel's strategy was successful
in that two jurors recommended a sentence of life
imprisonment and the trial court found the existence of
three statutory mitigating circumstances. Miller, 913 So.2d
at 1169.
“Simply because Miller alleges that more mitigating
evidence could have been presented does not demonstrate
that his trial counsel was ineffective. Trial counsel's
decision was reasonable and strategic, and this Court will
not ‘second-guess' it. See, e.g., Crawford v. Head, 311
F.3d 1288, 1312 (11th Cir.2002) (‘This court agrees that
testimony from a mental health expert ... would have
been admissible and might be considered to be mitigating.

However, trial counsel chose to pursue a strategy of
focusing the jury's attention on the impact of a death
sentence on petitioner's family. This court will not second
guess trial counsel's deliberate choice.’);
Boyd v. State,
746 So.2d 364, 398 (Ala.Crim.App.1999) (‘Trial Counsel
stated that the defense strategy was to humanize Boyd
for the jury ... [W]e do not find counsel's efforts to be
ineffective.’)
“This Court also finds that the trial counsel had tactical
reasons for not presenting evidence or witnesses which
Miller now alleges should have been presented during
the penalty phase. See,
Payne v. State, 791 So.2d 383,
404 (Ala.Crim.App.1999) (‘When a decision to not put on
certain mitigating evidence is based on a ‘strategic choice,’
courts have always found not ineffective performance.')
Miller claims that a host of family members, particularly
his mother, Barbara, should have been presented as
witnesses during the penalty phase of trial.
“However, both trial counsel testified during the
evidentiary hearing that they had specific, strategic reasons
for not presenting Barbara Miller as a witness. Johnson
testified that he talked with Barbara Miller in preparation
for the penalty phase, considered calling her as a witness,
and discussed this possibility with cocounsel Ronnie
Blackwood. [February 2008 Rule 32 Hearing, R. 158, 229.]
Johnson explained that his reason for not calling Barbara
as a witness was that he felt she would not be effective as
a witness:
“ ‘I ... spent enough time with Alan's mother to be able to
draw some conclusions ... about how effective she might
be in that capacity ... I was concerned that with Alan's
mother['s] demeanor that it might diminish that natural
sympathy for a mother because I found her ... to be
somewhat emotionally detached from the circumstances
we were in.’
“[February Rule 32 Hearing, R. 177–78; 230–31.]
“Blackwood confirmed that trial counsel discussed the
possibility of putting Barbara Miller on the stand.
[February 2008 Rule 32 Hearing, R. 863–64.] Blackwood
testified he spoke with Barbara Miller about testifying
and that he talked with her about what she might testify
to in regard to saving Miller's life if called. [February
2008 Rule 32 Hearing, R. 864.] During this conversation,
*408 Blackwood testified that Barbara Miller was ‘very
matter of fact’ and also uttered a racially derogatory word.

265a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

45

Miller v. State, 99 So.3d 349 (2011)

[February 2008 Rule 32 Hearing, R. 864–65.] Blackwood
stated that Barbara Miller's demeanor and her use of this
language contributed to the strategic decision to not call her
as a witness. [February 2008 Rule 32 Hearing, R. 865.]
“Johnson provided another reason for not calling Barbara
Miller as a witness stating that ‘I didn't know that
she had any background information that might be
particularly important that wasn't already presented by
Dr. Scott.’ [February 2008 Rule 32 Hearing, R. 178.]
Furthermore, Johnson testified that he decided during the
penalty phase that there were not any other members
of Miller's family whose testimony could have made
an impact during the penalty phase. [February 2008
Rule 32 Hearing, R. 245.] Moreover, Johnson could not
have even been aware of two of the family witnesses
Miller now claims should have been called as witnesses
during the penalty phase. Miller's nephew, Jake Connell,
and his niece, Alicia Sanford, both testified during the
evidentiary hearing that neither of them attended Miller's
trial. [February 2008 Rule 32 hearing, R. 498, 585.] Trial
counsel had specific, strategic reasons for calling and not
calling the witnesses they did during the penalty phase and
Miller has failed to establish that trial counsel's choices
were deficient. Miller has not proved that no reasonably
competent attorney would have proceed during the penalty
phase in the manner in which Miller's trial counsel did.
“Finally, Miller has failed to demonstrate that his trial
counsel were deficient for not retaining and presenting the
testimony of a mitigation expert. As noted above, Dr. Scott
adequately presented an abundant amount of mitigating
evidence. Furthermore, Miller has failed to present any
evidence that establishes a reasonably competent attorney
practicing at the time of Miller's trial would have retained
and presented a mitigation expert. With over twentyfive years of experience litigating criminal cases and
participating in several capital murder trials before Miller's,
Johnson testified that he had never retained a mitigation
expert. [February 2008 Rule 32 Hearing, R. 210, 254.]
Blackwood also testified that in his experience as a criminal
defense attorney, he had never hired a mitigation expert.
[February 2008 Rule 32 Hearing, R. 868–69.] Accordingly,
Miller has failed to establish that his trial counsel were
deficient in this regard. Furthermore, Miller has failed to
meet his burden of proof of demonstrating that his trial
counsel's penalty phase strategy and performance were
unreasonable and deficient. Therefore this claim is denied.”

(C. 2073–85.)
The circuit court also denied relief on this claim because, the
court found, Miller failed to establish that he was prejudiced
by his trial counsel's penalty-phase performance. The court
stated:
“Even if Miller had demonstrated that his trial counsel were
deficient for not presenting sufficient mitigation evidence
during the penalty phase, Miller has failed to establish a
reasonable probability that the outcome of his proceedings
would have been different had such information been
presented.
“Miller has failed to establish that he was prejudiced by trial
counsel's decision to not retain and present the testimony
of a mitigation expert. As noted above, Dr. Scott presented
thorough testimony during the penalty phase detailing
*409 Miller's background and family history and also
focused much of his testimony on presenting evidence of
Miller's mental health problems. [Record on Direct Appeal,
R. 1343–91.] Similar to Dr. Scott, Dr. Catherine Boyer
testified during the evidentiary hearing in regard to what
type of investigation a mitigation expert would conduct.
[February 2008 Rule 32 Hearing, R. 592–93.]
“Dr. Boyer also stated that, like Dr. Scott, she met Miller
over a period of three occasions. [February 2008 Rule 32
Hearing, R. 598.] However, Dr. Boyer's testimony during
the evidentiary hearing covered essentially the same topics
and areas which Dr. Scott presented during the penalty
phase. Dr. Boyer testified concerning Miller's family
history of mental illness, that his family lived in poverty,
that Miller had a good employment history, that Ivan was
physically abusive, and that Miller had a good relationship
with his mother and siblings. [February 2008 Rule 32
Hearing, R. 643–75.] Additional evidence concerning
Miller's background and family history provided by
Dr. Boyer was simply cumulative of the testimony
provided by Dr. Scott during the penalty phase. However,
‘unpresented cumulative testimony does not establish that
counsel was ineffective.’ McNabb v. State, 991 So.2d
313, 322 (Ala.Crim.App.2007); see also Dobyne v. State,
805 So.2d 733, 755 (Ala.Crim.App.2000) (cumulative
evidence would not have affected appellant's sentence).
Therefore, this Court finds that Miller was not prejudiced
by trial counsel's failure to retain a mitigation expert.
“Similarly, this Court finds that Miller was not prejudiced
by his trial counsel's failure to present more details both

266a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

46

Miller v. State, 99 So.3d 349 (2011)

of the extent of physical abuse from his father, Ivan,
and of the poverty and unstable environment in which
Miller lived. Testimony regarding the extensive level of
physical and emotional abuse directed toward Miller as
well as the extreme level of poverty of Miller's childhood
home was presented during the trial. [Record on Direct
Appeal, R. 1349–52.] Miller has failed to present any
further significant and specific facts other than cumulative
evidence that simply expounds on general examples of
Ivan Miller's abuse and the Miller family poverty. Such
cumulative testimony does not demonstrate that Miller was
prejudiced by the presentation of testimony concerning
the level of abuse and poverty in Miller's childhood. See
McNabb, 991 So.2d at 322, Dobyne, 805 So.2d at 755.

(11th Cir.2005) (value of evidence regarding childhood
abuse ‘minimal’ where defendant was thirty-five when
he committed crime); Gilreath v. Head, 234 F.3d 547,
551 n. 10 (11th Cir.2000) (petitioner not prejudiced
when his attorney failed to present evidence concerning
his abusive and difficult childhood where petitioner
was forty years old when he committed the offense);
Mills v. Singletary, 63 F.3d 999, 1025 (11th Cir.1995)
(petitioner not denied effective assistance of counsel
because counsel failed to present evidence concerning
abusive childhood where petitioner was twenty-six years

“The record indicates that Miller failed to present any
further significant evidence of childhood abuse through the
testimony of his family members during the evidentiary
hearing. His mother, Barbara Miller, generally testified
that Ivan ignored Miller, called him names, and physically
abused Miller. [February 2008 Rule 32 Hearing, R. 402–
11.] However, she did not provide testimony of any
specific incidents of abuse or injuries as a result of abuse.
Miller's sister, Cheryl Ellison provided minimal testimony
regarding Ivan's abuse of Miller, admitting she did not grow
up in the same house as Miller. [February 2008 Rule 32
Hearing, R. 501.] Miller's brother Richard also provided
nothing but general statements Ivan would ‘[s]lap [Miller],
kick him, sometimes punch him.’ [February 2008 Rule
32, R. 546.] Regardless, even if the family could have
provided specific facts, simply the fact that Miller's family
members could have provided more details of the extent of
the abuse Miller suffered or of his childhood poverty does
not establish ineffective assistance of counsel. *410 See
Payne v. Allen, 539 F.3d 1297, 1317 (11th Cir.2008) (‘The
mere fact that the family members could have presented
more thorough and graphic detail about the physical abuse
Payne suffered and witnessed and his early substance abuse
does not render counsel's performance ineffective.’)

Miller has failed to establish prejudice under

“Moreover, had counsel presented evidence of Miller's
childhood poverty and abuse, it would not have altered the
balance of mitigation and aggravation under Strickland.
Miller was in his mid-thirties when he committed the
murders. [Record on Direct Appeal, C. 79.] It is well
established that evidence concerning a middle aged
murderer's childhood poverty, abuse and background
would have been entitled to little, if any, mitigating weight.
See

Callahan v. Campbell, 427 F.3d 897, 937–38

old);
Bolender v. Singletary, 16 F.3d 1547, 1561
(11th Cir.1994) (petitioner twenty-seven years old when
committed offense). Accordingly, this Court finds that
Strickland.

“Miller has also failed to establish that he was prejudiced
by his trial counsel's decision not to present additional
evidence of Miller's positive character through the
testimony of his family members during the penalty
phase. Trial counsel was not required to present
mitigating character evidence at all during the penalty
phase. See Gaddy v. State, 952 So.2d 1149, 1170–71
(Ala.Crim.App.2006). However, as noted above, trial
counsel did present positive evidence of Miller's life
through the testimony of Dr. Scott. [Record on Direct
Appeal, R. 1349–63.] The testimony of Miller's family
members during the evidentiary hearing was simply
cumulative of the positive evidence presented by Dr. Scott
during the penalty phase.
“Barbara Miller essentially offered no significant, positive
details of Miller's character during the evidentiary hearing
other than the fact that he helped pay for his younger
brother Ivan Ray's funeral expenses and that he cared for
his family and was quiet and hard working. [February 2008
Rule 32 Hearing, R. 424.] Miller's uncle, George Carr,
provided no noteworthy details of Miller's life and even
admitted that he was not around Miller that much as a child.
[February 2008 Rule 32 Hearing, R. 462.] Miller's sister,
Cheryl Ellison, gave minimal testimony concerning his
positive character, only stating that Miler was like a brother
to her son, Jake. [February 2008 Rule 32 Hearing, R. 505.]
Miller's brother, Richard, essentially did not provide any
positive character evidence at all during the evidentiary
hearing. The positive character evidence presented through
the testimony of Miller's family members during the
evidentiary hearing was not significant and was merely
cumulative to the positive evidence of Miller's life that

267a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

47

Miller v. State, 99 So.3d 349 (2011)

was presented during the penalty phase. See McNabb, 991
So.2d at 322; Dobyne, 805 So.2d at 755.

an event that involves death, injury, or a threat to the
physical integrity of another person.’

“Miller has also failed to show how he was prejudiced
by the failure to present *411 additional mental health
evidence during the penalty phase in the form of Dr.
Boyer's diagnosis that Miller suffered from post-traumatic
stress disorder. [February 2008 Rule 32 Hearing, R. 714.]
Dr. Scott presented testimony that Miller suffered from
a mental illness and the trial court found that Miller
was under the influence of extreme mental distress and
that the capacity to appreciate the criminality of his
conduct was substantially impaired. Miller, 913 So.2d at
1169. Therefore, the mitigating circumstances pertaining to
Miller's mental health were found to exist by the trial court
and therefore, the presentation of additional mental health
evidence would not have proven any additional statutory
mitigating circumstances.

“[February 2008 Rule 32 Hearing, R. 733.] With regard to
‘traumas' that are experienced directly, Dr. Boyer noted that
the DSM–IV–TR provides as follows:

“Furthermore, the evidence presented during the
evidentiary hearing casts serious doubt on the opinion
of Dr. Boyer that Miller suffered from a post-traumatic
stress disorder (‘PTSD’) at the time of the offense. Dr.
Boyer stated that the principle sources of information
that led her to conclude that Miller suffered from PTSD
were that Miller was exposed to routine abuse, that Miller
routinely zoned out, that Miller had certain elevated MMPI
[Minnesota Multiphase Personality Inventory] scales, and
that Miller had initial difficulty remembering the events of
the shootings. [February 2008 Rule 32 Hearing, R. 714–
16.]
“On cross-examination, Dr. Boyer agreed that the
Diagnostic and Statistical Manual of Mental Disorders,
Fourth Edition, Text Revision (DSM–IV–TR) is an
authoritative text in the field of psychiatry, and she
explained that the DSM–IV–TR is a guideline for mental
health professionals. [February 2008 Rule 32 Hearing,
R. 730–31.] Dr. Boyer agreed that a diagnosis of PTSD
must have an extreme traumatic stressor as opposed to a
generic trauma. [February 2008 Rule 32 Hearing, R. 733.]
Specifically, Dr. Boyer noted that with regard to PTSD, the
DSM–IV–TR provides, as follows:
“ ‘The essential feature of Post Traumatic Stress
Disorder is the development of characteristic symptoms
following exposure to an extreme traumatic stressor
involving direct personal experience of an event that
involves actual or threatened death or serious injury, or
other threat to one's physical integrity; or witnessing

“Traumatic events that are experienced directly include,
but are not limited to, military combat, violent
personal assault (sexual assault, physical attack, robbery,
mugging), being kidnapped, being taken hostage,
terrorist attack, torture, incarceration as a prisoner
of war or in a concentration camp, natural or
manmade disasters, severe automobile accidents, or
being diagnosed with a life-threatening illness.'
“[February 2008 Rule 32 Hearing, R. 733–34.] See
Diagnostic and Statistical Manual of Mental Disorders,
Fourth Edition, Text Revision, at pp. 463–464.
“However, Dr. Boyer noted that Miller had never
experienced military combat, a kidnapping, a sexual
assault, been taken hostage, been a prisoner of war, or
been involved in a terrorist attack, natural disaster or severe
automobile accident. [February 2008 Rule 32 Hearing,
*412 R. 734.] Dr. Boyer also noted that Miller had never
watched someone be seriously injured or killed, before the
shootings took place. [February 2008 Rule 32 Hearing,
R. 736.] Dr. Boyer admitted that none of Miller's hospital
records indicated that his injuries came from specific
incidents of abuse and did not indicate that Miller ever
received any serious gunshot or knife wounds. [February
2008 Rule 32 Hearing, R. 740.]
“Dr. Boyer stated that Dr. McClaren did not find that
Miller suffered from a dissociative disorder such as PTSD.
[First Rule 32 Hearing, R. 744.] Dr. Boyer also noted that
no other professional had diagnosed Miller with PTSD.
[February 2008 Rule 32 Hearing, R. 750.] In fact, none of
the other four doctors who examined Miller in connection
with his trial or evidentiary hearing determined that he
suffered from PTSD. Dr. Boyer also failed to provide any
specific examples from the testimony presented during
the evidentiary hearing of Miller re-experiencing bad
experiences. [February 2008 Rule 32 Hearing, R. 749–50.]
“Dr. Harry McClaren testified during the evidentiary
hearing that there was no evidence to indicate that Miller
was reliving anything at the time of the murders. [February
2008 Rule 32 Hearing, R. 787.] Dr. McClaren also stated
that he originally was of the opinion that Miller's self-

268a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

48

Miller v. State, 99 So.3d 349 (2011)

report that he had difficulty remembering events of the
shootings was of questionable veracity. [February 2008
Rule 32 Hearing, R. 775.] Dr. McClaren later stated that it
was unusual for someone with true amnesia to remember
certain events in question months later. [February 2008
Rule 32 Hearing, R. 852.] Finally, Dr. McClaren testified
that he was of the opinion that Miller was not suffering
from PTSD. [February 2008 Rule 32 Hearing, R. 787–88.]
The combination of the lack of a previous diagnosis of
PTSD from any mental health professional who examined
Miller, Dr. McClaren's opinion that Miller does not suffer
from PTSD, and the dissimilarity between the examples of
traumatic events contained in the DSM–IV–TR associated
with PTSD when compared to the facts presented during
the evidentiary hearing regarding Miller's life discredits Dr.
Boyer's opinion that Miller suffers from PTSD. Regardless,
this Court finds that there is no reasonable probability
that the presentation of any evidence regarding Miller's
alleged diagnosis of PTSD would have altered the jury's
recommendation of a death sentence of the trial court's
finding that the aggravating circumstances outweigh the
mitigating circumstances.
“Finally, in regard to this entire claim, Miller has not
shown a reasonable probability that the result of the penalty
phase would have been different had additional mitigation
evidence been presented based on the brutal nature of the
crime, the overwhelming and convincing evidence of guilt,
and the strength of the aggravating circumstances that this
murder was heinous, atrocious, and cruel. See Payne, 539
F.3d at 1318. Miller repeatedly and horrifically shot and
killed three people. The Court of Criminal Appeals found
that the evidence of guilt was ‘overwhelming,’ especially
in regard to the multiple eyewitnesses identifying Miller
as the shooter. Miller, 913 So.2d at 1162. In this particular
case, there is no reasonable probability that additional
mitigation testimony about Miller's background or his
mental health problems would have altered the balance
of aggravating and mitigating circumstances in this case.
See
*413 Payne, 539 F.3d at 1318 (‘Some more
detailed mitigating evidence about Payne's childhood,
family background, and substance abuse would not have
negated the aggravating nature of this abhorrent murder
proven beyond all doubt by the State.’) Therefore, Miller
has failed to establish that he was prejudiced under
Strickland and accordingly, this claim is denied.”
(C. 2085–97.)

[23] [24] [25] The circuit court's findings are supported
by the record and law. As the circuit court stated, Miller's
claim that his counsel failed to adequately present mitigating
evidence is essentially a claim that his counsel should have
presented more mitigating evidence. However, as we have
stated:
“ ‘[W]e “must recognize that trial counsel is afforded
broad authority in determining what evidence will be
offered in mitigation.”
State v. Frazier (1991), 61
Ohio St.3d 247, 255, 574 N.E.2d 483. We also reiterate
that post-conviction proceedings were designed to
redress denials or infringements of basic constitutional
rights and were not intended as an avenue for simply
retrying the case. [Laugesen ] v. State, [ (1967), 11 Ohio
Misc. 10, 227 N.E.2d 663] supra; State v. Lott, [ (Nov.
3, 1994), Cuyahoga App. Nos. 66388, 66389, 66390],
supra. Further, the failure to present evidence which
is merely cumulative to that which was presented at
trial is, generally speaking, not indicative of ineffective
assistance of trial counsel. State v. Combs (1994), 100
Ohio App.3d 90, 105, 652 N.E.2d 205.’
“

Jells v. Mitchell, 538 F.3d 478, 489 (6th Cir.2008).
“ ‘ “[C]ounsel is not required to present all mitigation
evidence, even if the additional mitigation evidence
would not have been incompatible with counsel's
strategy. Counsel must be permitted to weed out some
arguments to stress others and advocate effectively.”
Haliburton v. Sec'y for the Dep't of Corr., 342 F.3d
1233, 1243–44 (11th Cir.2003) (quotation marks and
citations omitted); see Herring v. Sec'y, Dep't of Corr.,
397 F.3d 1338, 1348–50 (11th Cir.2005) (rejecting
ineffective assistance claim where defendant's mother
was only mitigation witness and counsel did not
introduce evidence from hospital records in counsel's
possession showing defendant's brain damage and
mental retardation or call psychologist who evaluated
defendant pre-trial as having dull normal intelligence);
Hubbard v. Haley, 317 F.3d 1245, 1254 n. 16, 1260 (11th
Cir.2003) (stating this Court has “consistently held that
there is ‘no absolute duty ... to introduce mitigating or
character evidence’ ” and rejecting claim that counsel
were ineffective in failing to present hospital records
showing defendant was in “borderline mentally retarded
range”) (brackets omitted) (quoting

269a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

Chandler [v.

49

Miller v. State, 99 So.3d 349 (2011)

United States ], 218 F.3d [1305] at 1319 [ (11th Cir.2000)
] ).'
“Wood v. Allen, 542 F.3d 1281, 1306 (11th Cir.2008). ‘The
decision of what mitigating evidence to present during the
penalty phase of a capital case is generally a matter of
trial strategy.’
Cir.2005).”

Hill v. Mitchell, 400 F.3d 308, 331 (6th

F.2d 932, 941 (4th Cir.1990). Rather, the deciding
factor is whether additional witnesses would have
made any difference in the mitigation phase of the
trial.”

Smith v. Anderson, 104 F.Supp.2d 773, 809

348 F.3d 177 (6th Cir.2003).
(S.D.Ohio 2000), aff'd,
“There has never been a case where additional witnesses
could not have been called.” State v. Tarver, 629 So.2d
14, 21 (Ala.Crim.App.1993).’ ”

Dunaway v. State, [Ms. CR–06–0996, December 18,
2009] –––So.3d ––––, –––– (Ala.Crim.App.2009).

940
Hunt
v.
State,
(Ala.Crim.App.2005).

[26]

On direct appeal, this Court stated:

[27]

Additionally,

“ ‘When claims of ineffective assistance of counsel
involve the penalty phase of a capital murder trial the
*414 focus is on “whether ‘the sentencer ... would have
concluded that the balance of aggravating and mitigating
circumstances did not warrant death.’ ”
Jones v.
State, 753 So.2d 1174, 1197 (Ala.Crim.App.1999),
quoting Stevens v. Zant, 968 F.2d 1076, 1081 (11th
Cir.1992). See also
Williams v. State, 783 So.2d
108 (Ala.Crim.App.2000). An attorney's performance is
not per se ineffective for failing to present mitigating
evidence at the penalty phase of a capital trial. See
State v. Rizzo, 266 Conn. 171, 833 A.2d 363 (2003);
Howard v. State, 853 So.2d 781 (Miss.2003), cert.
denied, 540 U.S. 1197 (2004); Battenfield v. State, 953
P.2d 1123 (Okla.Crim.App.1998); Conner v. Anderson,
259 F.Supp.2d 741 (S.D.Ind.2003);

Smith v. Cockrell,

311 F.3d 661 (5th Cir.2002);
Duckett v. Mullin, 306
F.3d 982 (10th Cir.2002), cert. denied, 123 S.Ct. 1911
(2003);
Hayes v. Woodford, 301 F.3d 1054 (9th
Cir.2002); and Hunt v. Lee, 291 F.3d 284 (4th Cir.), cert.
denied, 537 U.S. 1045 (2002).'
“Adkins v. State, 930 So.2d 524, 536 (Ala.Crim.App.2001)
(opinion on return to third remand). As we also stated
in
McWilliams v. State, 897 So.2d 437, 453–54
(Ala.Crim.App.2004):
“ ‘ “Prejudicial ineffective assistance of counsel under
Strickland cannot be established on the general claim
that additional witnesses should have been called in
mitigation. See

Briley v. Bass, 750 F.2d 1238, 1248

(4th Cir.1984); see also

So.2d

1041,

1067–68

“With regard to the application of the aggravating
circumstance that the murders were especially heinous,
atrocious, or cruel, the circuit court made the following
findings of fact on remand:
“ ‘On the morning of August 5, 1999, [Miller] shot and
killed three men, namely, Christopher Yancy (“Yancy”),
age 28 years; Lee Holdbrooks (“Holdbrooks”), age 32;
and Terry Jarvis (“Jarvis”), age 39 years. Yancy and
Holdbrooks were both shot at one location and thereafter
Jarvis was shot at another location. Each of those victims
sustained multiple wounds.
“ ‘Yancy suffered three wounds to his body. It appears
the first shot entered his leg and traveled through his
groin and into his spine, paralyzing him. He was unable
to move, unable to defend himself and was trying to hide
from [Miller] under a desk. Yancy had a cell phone an
inch or two from his hand, but because of his paralysis
was unable to reach it and call for help. Yancy had to
have been afraid his life was about to be taken. Moments
elapsed. [Miller] appeared to have then stooped under
the desk and have made eye contact with Yancy before
shooting him twice more causing his death.
“ ‘Holdbrooks suffered six wounds to his body. [Miller]
shot Holdbrooks several times. Holdbrooks crawled
down a hallway for about twenty-five *415 feet.
Holdbrooks was uncertain whether he would live or die
as he crawled down the hallway and quite possibly his
life was flashing by in his mind. [Miller] took his gun
and within two inches of Holdbrooks' head, pulled the
trigger for the sixth and final time, the bullet entering
Holdbrooks' head causing him to die in a pool of blood.

Bassette v. Thompson, 915

270a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

50

Miller v. State, 99 So.3d 349 (2011)

“ ‘Jarvis was shot five times, the last shot being no more
than 46 inches away from his body. Before Jarvis was
shot, [Miller] had pointed a gun at him in the presence
of a witness. [Miller] had accused Jarvis of spreading
rumors about him which Jarvis had denied. [Miller]
shot Jarvis four times in the chest. [Miller] allowed
the witness to leave. No one knows at that point what
went through Jarvis' mind. Having denied he spread any
rumors, he must have wondered why [Miller] had not
believed him and as the witness was allowed to leave
that maybe there would be no more shooting and his life
would be spared. [Miller] then shot Jarvis through his
heart ending Jarvis' life.
“ ‘It appears all three of [Miller's] victims suffered for a
while not only physically, but psychologically. In each
instance, there appeared to have been hope for life while
they were hurting, only to have their fate sealed by a final
shot, execution style.
“ ‘Based upon the facts presented at this trial, these
murders were calculated, premeditated and callous, with
utter disregard of human life. The taking of these lives
was among the worst in the memory of this Court and
was well beyond the level of being especially heinous,
atrocious or cruel.’
“....

the manner in which they presented this claim of ineffective
assistance of trial counsel in the post-sentencing proceedings.
Payne, 791 So.2d at 401.

4.
[28] Miller contends his trial counsel rendered ineffective
assistance during his penalty-phase opening statement.
(Miller's brief, II(B)(2)(d), at 117–124; Miller's reply brief, at
34–38.) Specifically, Miller argues:

“Trial counsel made no attempt to
outline a coherent mitigation case, to
humanize Mr. Miller, or to provide a
context for the testimony of Dr. Scott,
the only mitigation witness. Instead,
Trial Counsel did the opposite: he
vilified Mr. Miller, undermined the
credibility of Dr. Scott, and effectively
conceded the only *416 aggravating
factor on which the State relied.”

(Miller's brief, at 117–18.)

“... [T]here was sufficient time between the initial gunshot
wounds and the final, fatal shots for each of the victims
to realize his fate. Given the circumstances, the trial court
properly concluded that the murder of the three victims was

The circuit court rejected appellate counsel's assertion in
the motion-for-new-trial hearing that Miller's trial counsel
“undermined the mitigation case in his opening argument
during the penalty phase of the trial.” (Circuit court's order
denying Miller's motion for new trial, at 17.)

‘especially heinous, atrocious, or cruel.’ See
Clark, 728 So.2d 1126, 1140 (Ala.1998).

On direct appeal, we affirmed the circuit court's order, stating:

Ex parte

Miller, 913 So.2d at 1165–67.
This Court has reviewed the mitigating evidence trial
counsel allegedly failed to discover and present against the
aggravating circumstances presented and we are confident
that there would be no change in the result in this case. See
Wiggins v. Smith, 539 U.S. at 534.
Accordingly, Miller was due no relief on his claim that his
trial counsel were ineffective for not presenting the additional
mitigating evidence in the penalty phase of the trial. Thus, it
follows that Miller has also failed to prove by a preponderance
of the evidence that his appellate counsel were ineffective in

“Miller contends that trial counsel's opening statement at
the penalty phase prejudiced his defense and any mitigating
evidence to be presented during the penalty-phase portion
of his trial. Specifically, Miller claims that counsel's
opening statement undermined the credibility of the only
defense witness being offered—Dr. Charles Scott. The
end result of counsel's opening statement, Miller claims,
suggested to the jury that Miller deserved to be sentenced
to death.
“We have reviewed trial counsel's opening statement
in its entirety. Consistent with counsel's trial strategy
—as testified to during the hearing on Miller's newtrial motion—counsel elected to acknowledge Dr. Scott's

271a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

51

Miller v. State, 99 So.3d 349 (2011)

conclusion that there was no basis under Alabama
law to support an insanity defense in an effort to
retain his credibility before the jury and to secure an
advisory verdict of life imprisonment without parole,
rather than the death sentence. Given the overwhelming
evidence of Miller's guilt—including eyewitness testimony
identifying Miller as the shooter—counsel had little choice
but to acknowledge Miller's guilt. Accordingly, counsel
attempted to gain the jury's sympathy by using Dr. Scott's
testimony to portray Miller as a ‘tortured soul’ whose
delusions drove him to commit a series of horrific acts.
Indeed, our review of counsel's argument reveals it to be an
impassioned plea that the jury spare Miller's life.”

[29] Miller maintains that his trial counsel's voir dire
examination was inadequate because, he claims, “[t]rial
counsel made no effort to determine juror bias or improper
influence from the prejudicial media coverage of the case”
and “[e]ven when bias was apparent, he failed to strike
the juror.” (Miller's brief, at 124.) Thus, he alleges that his
appellate counsel were ineffective for not pursuing this claim
in the post-trial proceedings and on appeal. (Miller's brief, at
124–28.)
The circuit court denied Miller's claim, stating:

Miller, 913 So.2d at 1163.
Miller contends that had his appellate counsel properly
presented and argued this claim in the motion-for-new-trial
proceedings and on appeal, he would have been entitled
to relief. In arguing this claim, Miller merely rehashes his
argument that his trial counsel rendered ineffective assistance
in his opening statement at the penalty phase of the trial.
The circuit court thoroughly addressed the rationale behind
Miller's trial counsel's opening statement, which “was to
convey that no matter what Miller had done, ‘whether [the
jury] thought he was atrocious or not’ and ‘whatever their
feelings [were] about Mr. Miller’ that Miller did not deserve
the death penalty.” (C. 2068, citing February 2008 Rule 32
Hearing, R. 151, 156.) The circuit court concluded that Miller
failed to prove that his trial counsel's strategy was deficient
or that he was prejudiced by his counsel's opening statement.
(C. 2067–73.) The circuit court's findings are supported by
the record.
Accordingly, it follows that Miller has also failed to prove by a
preponderance of the evidence that his appellate counsel were
ineffective in the manner in which they presented this claim
of ineffective assistance of trial counsel in the post-sentencing
proceedings.

1.

Payne, 791 So.2d at 401.

D.
In the fourth part of his argument, Miller presents a number
of claims of ineffective assistance of trial counsel that, he
contends, his appellate counsel should have presented in the
motion-for-new-trial proceedings and on appeal. (Miller's
brief, *417 II(C), at 124–48; Miller's reply brief, at 39.)

“In paragraphs 158–167 of his amended petition, Miller
claims that trial counsel Johnson's voir dire was inadequate.
[Amended Rule 32 petition, C. 314–17.] Miller alleges that
Johnson did not ask questions related to the jurors exposure
to media coverage of the trial and did not effectively ask
questions designed to uncover potential bias against Miller.
“This Court denies Miller's claim because he has failed to
meet his burden of proof of demonstrating that his trial
counsel's performance was deficient under
Strickland,
466 U.S. at 687. Ala. R.Crim. P., 32.7(d). Because
of the extensive publicity in this case, Johnson, along
with the District Attorney's office, developed a written
questionnaire that was provided to the entire jury panel.
[February 2008 Rule 32 Hearing, R. 236.] Within the
questionnaire, question # 68 specifically asked the jurors to
answer whether they had seen anything about the case in
any newspaper. [February 2008 Rule 32 Hearing, R. 237.]
Additional questions were included in the questionnaire to
determine whether a particular juror had such strong fixed
opinions about the case or could not be fair or impartial as
a juror. [February 2008 Rule 32 Hearing, R. 238.]
“Johnson testified that he had an opportunity to review the
responses to the questionnaires for all members of the jury
panel and that he knew the jurors' responses identifying
what they saw in the newspapers about the case. [February
2008 Rule 32 Hearing, R. 237–38.] During trial, the trial
court and counsel for both parties conducted an extensive
individual voir dire of the jury panel. [Direct Appeal, R.
130–763.]
As the record indicates, Johnson strategically conducted
voir dire to determine whether any juror had a fixed
opinion, for any reason, of the case. Johnson alerted the

272a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

52

Miller v. State, 99 So.3d 349 (2011)

trial court to questions # 68, # 69 and # 70 of the juror
questionnaire that pertained to the juror's opinions of the
case and implored the trial court to focus its questions on
whether the jurors had ‘fixed opinions' of the case. [Direct
Appeal, R. 146–47.] As a result, the trial court determined
that it would examine each juror's response to question # 68
and if the juror indicated they had heard something about
the case, the trial court would inquire what the juror heard
and whether the juror could set aside what they had heard.
[Direct Appeal, R. 148.]
“During the evidentiary hearing, Miller's [Rule 32] counsel
questioned Johnson about specific newspaper articles and
then questioned Johnson on whether he asked eight jurors
about what they had read about the case in the newspaper.
[February 2008 Rule 32 Hearing, R. 127–34.] However,
as the record indicates, as a result of Johnson's effort,
during individual voir dire, the trial court noted each of
the eight juror's responses to question # 68 indicating that
the juror had seen or read something about the case and
then asked *418 each juror whether they could set what
they had learned aside and base their verdict solely on the
evidence presented. [Direct Appeal, R. 337–38, 345–46,
376–77, 446–47, 449–50, 625–26, 638–39, 666–67.] All
eight jurors indicated that they could set aside what they
had learned and sit as a fair and impartial juror. Id.
“Therefore, information about the jurors' opinions about
the case was brought out during the voir dire and
Miller has failed to demonstrate that Johnson's method of
conducting voir dire was deficient. Miller has failed to
present any evidence that a reasonable attorney would have
asked these eight jurors about specific newspaper articles.
Furthermore, Miller failed to ask Johnson why he did not
strike these eight jurors from the panel, nor did Miller ask
any specific question regarding Johnson's strategy for using
the defense's peremptory strikes. Therefore, because the
record is silent, trial counsel's questioning of the jury panel
and the subsequent peremptory strikes is presumed to be
reasonable. See
Chandler [v. United States ], 218 F.3d
1305, 1315 n. 15 [ (11th Cir.2000) ].
“In paragraph 162 of his amended petition, Miller claims
that his trial counsel failed to question and remove Juror
[G.J.] who Miller alleges was biased because Juror [G.J.]
favored the death penalty. [Amended Rule 32 Petition, C.
315.] However, trial counsel's questioning of Juror [G.J.]
was not deficient and the record directly refutes Miller's
claim that Juror [G.J.] was biased. Juror [G.J.] stated during
voir dire that he could follow the trial court's instructions

and listen to the evidence in recommending a sentence
in Miller's case. [Direct Appeal, R. 377–78.] Juror [G.J.]
also stated that where it was appropriate under the law
and evidence he could vote for either life imprisonment or
the death penalty. [Direct Appeal, R. 378.] Furthermore,
trial counsel Johnson specifically questioned Juror [G.J.]
about his views on the death penalty and elicited from
Juror [G.J.] that he had no fixed opinions about what an
appropriate punishment should be. [Direct Appeal, R. 387–
90.] Accordingly, Miller's claim is directly refuted by the
record and is denied. See Gaddy v. State, 952 So.2d 1149,
1161 (Ala.Crim.App.2006).
“....
“This claim is also denied because Miller has utterly
failed to meet his burden or proof of demonstrating that
he was prejudiced by his trial counsel's performance
during voir dire. See
Strickland, 466 U.S. at 695;
Ala. R.Crim. P., 32.7(d). Although Miller claims that trial
counsel was ineffective for failing to asks eight of the
fourteen jurors seated in his case about what they read
or remembered about Miller's case, Miller has failed to
present any evidence whatsoever about what these eight
jurors actually read or remembered about Miller's case
prior to trial. [February 2008 Rule 32 Hearing, R. 134.]
None of the jurors who sat at Miller's trial testified
during the evidentiary hearing. Therefore, no evidence
was presented that the eight jurors actually read or were
exposed to the newspaper articles introduced into evidence
by Miller during the evidentiary hearing. [February 2008
Rule 32 Hearing, R. 127–34, 289–95.] Even if the eight
jurors had read these newspaper articles, no evidence was
presented that the jurors considered these articles harmful
to Miller or that they had fixed opinions about Miller
because of these articles.
“There is nothing in the record regarding what the jurors
read about Miller's case; accordingly, ‘[t]he mere fact that
some of the jurors that sat for *419 [Miller's] trial had
pretrial knowledge of his case is not enough to establish
they were biased against him.’
Duncan v. State, 925
So.2d 245, 267 (Ala.Crim.App.2005). Therefore, because
there is no evidence about what the jurors read and whether
they were actually biased against Miller because of what
they read, Miller has failed to demonstrate that he was
prejudiced by this trial counsel's performance during voir
dire. Miller's claim is denied.”

273a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

53

Miller v. State, 99 So.3d 349 (2011)

(C. 2039–45.)

ineffective for stating that he was not ‘proud’ to represent
Miller. [Amended Rule 32 petition, C. 330.]

The circuit court's findings are supported by the record and
Alabama law. As we stated on direct appeal:

“This Court denies Miller's claim because he has failed to
meet his burden of proof of demonstrating that his trial

“[T]he potential for actual juror
prejudice was addressed through voir
dire during the selection of the
jury. Through the use of juror
questionnaires and individual voir
dire, any potential jurors who may
have had fixed opinions regarding
Miller's guilt were excused from
service. Nor was there any showing
that media coverage created a
presumption of actual prejudice. See
Ex parte Travis, 776 So.2d 874, 879
(Ala.2000).”

Miller, 913 So.2d at 1162. 9
Accordingly, “[b]ecause [Miller] failed to establish that his
claim of ineffective assistance of trial counsel is meritorious,
he has failed to prove by a preponderance of the evidence that
his appellate counsel was ineffective for failing to present this
claim.”

Payne, 791 So.2d at 401–02.

2.
[30] Miller contends that his appellate counsel should have
argued that his trial counsel rendered ineffective assistance in
his closing argument at the guilt phase of the trial. (Miller's
brief, at 131–33.)
In the circuit court's order denying Miller relief on this claim,
the court stated:
“In paragraphs 209–13 of his amended petition, Miller
claims that his trial counsel was ineffective during the
guilt phase closing arguments. Miller claims that Johnson
conceded guilt and made no attempt to argue that Miller did
not have the intent to commit murder. [Amended Rule 32
petition, C. 329–331.] Miller also claims that Johnson was

counsel's performance was deficient under
Strickland,
466 U.S. at 687. Ala. R.Crim. P., 32.7(d). Johnson's
closing argument was reasonable based both on the tactical
decision to focus on the penalty phase of trial and his
overall strategy of not presenting frivolous arguments in
order to win credibility with the jury. [Direct Appeal, R.
1261–64.] As noted above, Johnson continually testified
that he strategically chose to focus on the penalty phase
of Miller's trial in order to save Miller's life. [Motion for
New Trial Hearing, R. 80; February 2008 Rule 32 Hearing,
R. 219.] In an attempt to bolster his chances of success
during the penalty phase, Johnson made a tactical decision
to emphasize to the jury that he would not be presenting
frivolous evidence or arguments during the guilt phase.
[February 2008 Rule 32 Hearing, R. 143, 219.]
“Similar to his comments during opening statements,
Johnson echoed to the jury during closing arguments that
he was not going to present a frivolous defense such as
arguing a second gunman *420 existed or challenging
the fact that the prosecution could not match the bullets
taken from the victims to Miller's gun. [Direct Appeal, R.
1261–62.] Johnson reminded the jury of the State's burden
and implored the jury to listen to the judge's instructions
on the law and render a verdict based on the facts and
consistent with their oath. [Direct Appeal, R. 1263.] Miller
has failed to present any evidence which would establish
that [Johnson's] continual effort during closing arguments
to gain credibility with the jury in order to make an effective
penalty phase argument was unreasonable.
“Johnson's decision to not argue that Miller did not have
intent to commit capital murder during closing arguments
was consistent with his overall trial strategy of focusing
on the penalty phase of the trial. [February 2008 Rule 32
Hearing, R. 219.] Moreover, Johnson's comments about his
representation of Miller were consistent with this strategy
as well. Johnson told the jury that he was proud of his
representation of Miller, but in an effort to win favor with
the jury, also stated he was still not proud of what happened
during the shootings:
“ ‘And I at least am proud at this point that I have
participated in this. It does not remove any degree the
shame of what happened. It does not make me proud

274a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

54

Miller v. State, 99 So.3d 349 (2011)

that I'm representing someone who the evidence is fairly
convincing, I must concede to you, did what he did.’
“[Direct Appeal, R. 1263–64.] During the evidentiary
hearing, Johnson explained that this statement could not
be viewed in isolation, but as part of a larger goal of not
alienating the jury during the guilt phase to attempt to win
favor with the jury. [February 2008 Rule 32 hearing, R.
142–43.]
“When viewed in the context of Johnson's entire trial
strategy, Johnson's closing argument was reasonable
attempt to gain credibility with the jury during the guilt
phase in order to attempt to get a favorable result in
the penalty phase—the focus of Johnson's strategy. Based
on this approach, Miller has failed to demonstrate that
trial counsel's decision was unreasonable or that his
performance during closing arguments was deficient under
Strickland. Therefore, this claim is denied.
“This claim is also denied because Miller failed to meet his
burden of proof of demonstrating that he was prejudiced
Strickland,
by his trial counsel's closing argument. See
466 U.S. at 695; Ala. R.Crim. P; 32.7(d). Miller has
presented no evidence concerning the impact of Johnson's
statements on the jury, nor has Miller demonstrated a
reasonable probability that the outcome of the guilt phase
of his trial would have been different had Johnson not
conducted his closing argument in this manner. In general,
statements of counsel ‘are usually valued by the jury at
their true worth and are not expected to become factors
in the formation of the verdict.’
Minor, 914 So.2d at
417. Miller offered nothing more in support of his claim
of ineffectiveness than the bare, conclusory allegation
that Johnson's closing argument was improper and that
it prejudiced the jury, without proving specific facts that
demonstrate prejudice. Accordingly, Miller has not met his
burden of demonstrating prejudice under
therefore, this claim is denied.”

Strickland and

(C. 2060–64.)
The circuit court's findings of fact and conclusions of law are
supported by the record. (See this Court's discussion, supra,
addressing and rejecting Miller's assertion *421 that his trial
counsel's opening statement at the guilt phase of the trial
was ineffective.) Accordingly, “[b]ecause [Miller] failed to
establish that his ineffective-assistance-of-trial-counsel claim
is meritorious, he has failed to prove by a preponderance of

the evidence that his appellate counsel was ineffective for
failing to present this claim.”

Payne, 791 So.2d at 401–02.

3.
[31] Miller alleges that his appellate counsel should have
argued that his trial counsel were ineffective because trial
counsel did not move for a directed verdict “based on the
State's failure to present comparative evidence necessary
to determine that the killings were ‘especially heinous,
atrocious, or cruel compared to other capital offenses.’
” (Miller's brief, at 139–42.) Miller suggests that because
this particular claim was not addressed in the circuit court's
order denying the Rule 32 petition, that the court's “silence
is a candid admission that trial counsel's failure to make this
argument deprived Mr. Miller of the effective assistance of
counsel.” (Miller's brief, at 142.)
The State maintains that this claim is not properly before
this Court because it was not presented in Miller's amended
Rule 32 petition, and the State asserts “ ‘[Miller] cannot raise
an issue on appeal from the denial of a Rule 32 petition
which was not raised in the Rule 32 petition.’ ” (State's
brief, at 140, quoting Arrington v. State, 716 So.2d 237,
239 (Ala.Crim.App.1997.)) We agree that this claim was
not properly presented to the circuit court and, thus, is not
properly before this Court for appellate review.
Although Miller raised numerous grounds of ineffective
assistance of trial counsel in his amended Rule 32 petition,
as best we can determine, Miller did not present a claim
that his trial counsel were ineffective because trial counsel
did not move for a directed verdict on the ground the State
failed to present comparative evidence for the jury to consider
in determining whether the aggravating circumstance that
the offense was especially heinous, atrocious, or cruel when
compared to other capital cases had been proven. During the
Rule 32 evidentiary hearing, the following exchange occurred
between Miller's Rule 32 counsel and Miller's trial counsel,
Mickey Johnson:
“Q. Now, at the conclusion of the penalty phase, Mr.
Johnson, you moved for a directed verdict and I believe that
you stated on the record that the ground was that the State
failed to prove an aggravating statutory circumstance. Do
you recall making that motion?

275a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

55

Miller v. State, 99 So.3d 349 (2011)

“A. I don't recall it but, here again, I don't dispute the
record.
“Q. ... But you didn't explain the basis for that motion to
Judge Crowson, did you?
“A. I don't know.
“....
“Q. We have discussed earlier that the sole aggravating
factor in this case the State was relying upon was that the
capital offense was especially heinous, atrocious or cruel
compared to other capital offenses; is that correct?
“....
“A. That's the way I recall it, yes.
“....
“Q. So the State didn't present the jury, which was going
to be making this recommendation on the death penalty,
with any information that would have permitted the jury to
compare the level of heinousness, atrociousness or cruelty
of this crime to other capital offenses, isn't that correct?
“A. I don't recall any efforts being made by the State in that
regard, no.
*422 “Q. And I am correct you did not argue to Judge
Crowson that the failure of the State to present such
compared evidence meant that the State had failed to prove
this aggravating factor as a matter of law? The record
contains no such argument. I just want to confirm that.
“A. I would aver to the record.”
(February 2008 Rule 32 Hearing, R. 193–94.)
Given the amount of testimony and evidence presented at
the Rule 32 hearings, the variety of issues addressed in
the hearing, the often random manner in which the claims
were addressed, and the convoluted nature of this claim and
the fact that it was not presented as a specific claim in
the amended Rule 32 petition, we do not consider Rule 32
counsel's “confirmation” that trial counsel did not “argue”
this ground for a directed verdict to be sufficient to alert the
circuit court to the very specific allegation that Miller now
presents on appeal. In other words, Rule 32 counsel did not
sufficiently present a “material issue of fact” in the Rule 32
hearing that required a finding of fact by the circuit court. See

Rule 32.9(d), Ala. R.Crim. P. Therefore, contrary to Miller's
suggestion, we will not interpret from the fact that this claim
was not addressed in the circuit court's order to mean that
the circuit court conceded the claim Miller now presents on
appeal.
Even so, Miller is entitled to no relief because his underlying
claim is without merit. The gist of Miller's argument is
the circuit court's instructions regarding the aggravating
circumstance that the offense was especially heinous,
atrocious, or cruel when compared to other capital offenses
obligated the jury to consider the facts of other capital cases
in order to determine whether the State met its burden of
proof. He contends that because the State did not present
facts from other capital cases for comparison purposes, the
State did not prove the sole aggravating circumstance that the
offense in this case was especially heinous, atrocious, or cruel
when compared to other capital cases. Thus, Miller argues,
he was entitled to a directed verdict imposing a sentence of
life imprisonment without the possibility of parole. Miller
concludes that because his trial counsel failed to move for a
directed verdict on this ground, he was sentenced to death.
In support of his argument, Miller cites the following portion
of the circuit court's instructions to the jury:
“What is intended to be included in this aggravating
circumstance is those where the actual commission of the
capital offense is accompanied by such additional acts as
to set the crime apart from the norm of capital offenses.
“For a capital offense to be especially cruel, it must be
a conscienceless or pitiless crime which is unnecessary
torturous to the victim. All capital offenses are heinous,
atrocious and cruel to some extent. What is intended to
be covered by this aggravating circumstance is only those
cases in which the degree of heinous, atrociousness or
cruelty exceeds that which will always exist when a capital
offense is committed.”
(Miller's brief, at 140, citing record on direct appeal, R. 1432–
33)(emphasis in Miller's brief).
The Alabama Supreme Court has stated:
“Bankhead suggests that the jury should have had the
opportunity to compare the capital offense in this case
with other capital offenses for purposes of § 13A–5–49(8)
[, Ala.Code 1975].

276a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

56

Miller v. State, 99 So.3d 349 (2011)

“Although a very narrow and literal reading of the statute
may suggest that such a comparison is required, it would
be virtually impossible for the court to *423 implement.
Charging the jury on pertinent facts of ‘other capital cases'
would unduly burden the court. It would be unworkable for
the court and would thoroughly confuse the jury.
“This Court has decided upon an approach for the purposes
of § 13A–5–49(8). In comparing capital offenses for the
purposes of determining whether a capital offense was
‘especially heinous, atrocious or cruel,’ the court uses

trial-counsel claim is meritorious, he has failed to prove by a
preponderance of the evidence that his appellate counsel was
ineffective for failing to present this claim.”
So.2d at 401–02.

Payne, 791

4.

Ex parte Bankhead, 585 So.2d 112, 125 (Ala.1991), aff'd on

[33] Miller contends that his appellate counsel should have
argued that trial counsel rendered ineffective assistance at
the sentencing hearing. (Miller's brief, at 144–146.) Miller
argues that the presentence investigative report prepared
by the Alabama Board of Pardons and Paroles “woefully
understated the abuse [he] suffered from his father.” (Miller's
brief, at 144.) Miller states that his trial counsel reviewed
the presentencing report, but that counsel did not present
any additional evidence for the circuit court's consideration.
He alleges that had his trial counsel presented the additional
mitigating evidence discussed elsewhere in this opinion, there
is a “reasonable probability that the trial judge would not have
sentenced [him] to death.” (Miller's brief, at 145.)

return to remand,

In denying relief on this argument, the circuit court stated:

[Ex parte ] Kyzer [, 399 So.2d 330 (Ala.1981),]
the
standard. Capital offenses falling under § 13A–5–49(8) are,
pursuant to the Kyzer standard, those ‘conscienceless or
pitiless homicides which are unnecessarily torturous to the
victim.’

Kyzer, 399 So.2d at 334. The trial court clearly

followed the
jury.”

Kyzer standard in its instructions to the

625 So.2d 1141 (Ala.Crim.App.1992),

rev'd on other grounds,

625 So.2d 1146 (Ala.1993).

[32] The State was not required to present pertinent facts
from other capital cases for comparison purposes in order to
sustain its burden of proving that the offense was especially
heinous, atrocious, or cruel when compared to other capital
offenses. Contrary to Miller's interpretation, the circuit court's
charge did not obligate the jury to consider other capital
offenses for comparison purposes when determining if the
State met its burden of proof. Rather, the circuit court's
charge followed the standard set out in
Ex parte Kyzer,
399 So.2d 330 (Ala.1981). (Record on Direct Appeal, R.
1432–35.) Furthermore, this Court affirmed the circuit court's
finding that the murders were especially heinous, atrocious,
or cruel. See Miller, 913 So.2d at 1165–67. Thus, Miller's
counsel would not have been entitled to a directed verdict
on the ground that the State did not sustain its burden of
proof because it did not present facts from other cases for
comparison purposes.
Accordingly, because Miller failed to prove that his
underlying claim had merit, he also failed to prove that
his trial counsel were ineffective for not moving for
a directed verdict on this ground. Therefore, “[b]ecause
[Miller] failed to establish that his ineffective-assistance-of-

“In paragraphs 277–79 of his amended petition, Miller
claims that trial counsel were ineffective for failing to offer
any additional evidence or witnesses in support of Miller.
[Amended Rule 32 Petition, C. 350–51.]
“The Court denies Miller's claim because he has failed
to meet his burden of proof of demonstrating that
his trial *424 counsels' performance was deficient
under
Strickland, 466 U.S. at 687. Ala. R.Crim.
P., 32.7(d). Alabama courts have held that ‘counsel
does not necessarily render ineffective assistance simply
because he does not present all possible mitigating
evidence.’
McGahee v. State, 885 So.2d 191, 221
(Ala.Crim.App.2003). However, as noted above, trial
counsel presented a competent mitigating case concerning
Miller's mental health and background during the penalty
phase of the trial. The trial court presided over Miller's
trial and heard all of the mitigating evidence presented.
Simply the fact that Miller's trial counsel could have
presented more mitigation evidence during the sentencing
hearing does not establish deficient performance under
Strickland, See
McGahee, 885 So.2d at 221 (‘Trial
counsel could have called more witnesses at the penaltyphase hearing before the trial judge, with the hope that

277a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

57

Miller v. State, 99 So.3d 349 (2011)

the additional information would have convinced the trial
judge to agree with the jury's recommendation and to
sentence McGahee to life imprisonment without parole.
The same can be said after any sentencing hearing in a
capital case in which a death sentence is imposed after the
jury recommended a sentence of life imprisonment without
parole.’ (emphasis in original)).
“Miller failed to ask trial counsel any questions regarding
the reasons why he did not call any witnesses or
present evidence during the sentencing hearing. [February
2008 Rule 32 Hearing, R. 200–01.] Therefore, trial
counsel's performance must be presumed to be reasonable.
Furthermore, Miller's trial counsel could not be ineffective
for failing to present additional mitigation evidence during
the sentencing hearing because ‘ Section 13A–5–47,
Ala.Code 1975, does not provide for the presentation
of additional mitigation evidence at sentencing by the
trial court.’
Boyd v. State, 746 So.2d 364, 398
(Ala.Crim.App.1999). Therefore, Miller has failed to
establish that his trial counsels' performance was deficient
and this claim is denied.
“This claim is also denied because Miller has failed
to meet his burden of proof of demonstrating that he
was prejudiced. See
Strickland, 466 U.S. at 695;
Ala. R.Crim. P., 32.7(d). Miller failed to establish what
additional evidence could have been submitted during the
sentencing hearing. Miller asked trial counsel whether he
submitted Dr. Scott or Dr. McDermott's report during the
sentencing hearing before the trial court; however, the
substance of both reports had already [been] presented
during the penalty phase. Furthermore, the trial court
found three statutory mitigating circumstances to exist.
Miller, 913 So.2d at 1169. Miller has failed to demonstrate
what additional mitigating circumstances could have been
proven during the sentencing hearing. Accordingly, Miller
has failed to establish proof that he was prejudiced and this
claim is denied.”
(C. 2103–05.)
The circuit court's findings of fact and conclusions of law
are supported by the evidence. Accordingly, “[b]ecause
[Miller] failed to establish that his ineffective-assistance-oftrial-counsel claim is meritorious, he has failed to prove by a
preponderance of the evidence that his appellate counsel was

ineffective for failing to present this claim.”
So.2d at 401–02.

Payne, 791

10

*425 Miller also asserts that his appellate counsel should
have argued that his trial counsel were ineffective for not
apprising the trial court of the United States Supreme Court's
Apprendi v. New Jersey, 530 U.S. 466, 490,
decision in
120 S.Ct. 2348, 147 L.Ed.2d 435 (2000). (Miller's brief, at
146–48.) This assertion was neither presented in Miller's
amended Rule 32 petition, nor was it addressed in the
evidentiary hearing. Accordingly, this claim in not properly
before this Court. Arrington v. State, 716 So.2d 237, 239
(Ala.Crim.App.1997).

5.
Miller presents several other claims of ineffective assistance
of trial counsel that he alleges his appellate counsel should
have presented in the post-sentencing proceedings; however,
the circuit court determined that Miller abandoned the
underlying claims of ineffective assistance of trial counsel
because he did not pursue the claims in the evidentiary
hearing and/or he did not pose questions or elicit evidence
to support his claims. See Brooks v. State, 929 So.2d 491,
497 (Ala.Crim.App.2005) (“We have held that a petitioner
is deemed to have abandoned a claim if he fails to
present any evidence to support the claim at the evidentiary
hearing.”);
Chandler v. United States, 218 F.3d at 1314
n. 15 (“An ambiguous or silent record is not sufficient to
disprove the strong and continuing presumption [of effective
representation.]”);
Payne, 791 So.2d at 399 (“Because it
appears that Payne did not present evidence at the evidentiary
hearing with regard to [Payne's claims], we will conclude
that he has abandoned these claims and we will not review
them.”).
Specifically, the circuit court found that Miller abandoned the
following underlying claims of ineffective assistance of trial
counsel:
a. “Trial counsel was ineffective in cross-examining
prosecution witnesses.” (Miller's brief, at 129–31)(C.
2059–69);
b. “Trial counsel ineffectively failed to request guilt-phase
jury instructions.” (Miller's brief, at 134–35) (C. 2066–
67);

278a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

58

Miller v. State, 99 So.3d 349 (2011)

c. “Trial counsel was ineffective in his penalty-phase
closing argument.” (Miller's brief, at 135–39) (C. 2098–
2100);
d. “Trial counsel failed to request a special penalty-phase
verdict form that was necessary to protect Mr. Miller's
rights.” (Miller's brief, at 142–44)(C. 2100–11).
Miller does not dispute the circuit court's conclusion that he
abandoned these claims. Accordingly, because Miller failed
to prove his underlying allegations of ineffective assistance
of trial counsel had merit, he has also failed to prove that
his appellate counsel were ineffective for not presenting these
claims in the post-sentencing proceedings.
So.2d at 401–02.

Payne, 791

*426 Last, we note that to the extent that Miller asserts
he is entitled to relief because of the “cumulative effect
of error” of his trial counsel and/or appellate counsel,
Miller is due no relief. As discussed above, Miller failed to
establish any one instance of ineffective assistance of trial/

appellate counsel, let alone cumulative error. See Ex parte
Woods, 789 So.2d 941, 943 n. 1 (Ala.2001) (“A correct
statement of the law would be that, when no one instance
amounts to error at all (as distinguished from error not
sufficiently prejudicial to be reversible), the cumulative effect
cannot warrant reversal. In other words, multiple nonerrors
obviously do not require reversal.”). McNabb v. State, 991
So.2d 313, 333 (Ala.Crim.App.2007), cert. denied, 991 So.2d
336 (Ala.2008).
For the reasons set forth above, the judgment of the circuit
court is affirmed.
AFFIRMED.

WELCH, P.J., and WINDOM and BURKE, JJ., concur.
JOINER, J., recuses himself.
All Citations
99 So.3d 349

Footnotes
1
2

3

4

5

6

Mickey Johnson's first cocounsel, Roger Bass, who withdrew during the pretrial phase, died in 2002. (R. 29.)
This Court initially remanded Miller's case to the circuit court for that court to enter specific written findings of
fact regarding each of the claims Miller raised in the hearing on the motion for a new trial and to enter specific
written findings of fact regarding the existence of the aggravating circumstance that the capital murder was
especially heinous, atrocious, or cruel, when compared to other offenses. Miller, 913 So.2d at 1153.
According to the testimony elicited at the Rule 32 hearing, the trial transcript was completed on October 20,
2000, and appellate counsel began reviewing the transcript on November 2, 2000. (August 2008 Rule 32
Evidentiary Hearing, R. 23.)
Miller's Rule 32 counsel requested that the State produce the recording of the interrogation. The State
contacted the Pelham Police Department, the agency that retained the evidence in this case, and requested
a copy of the tape. The State told the court hearing the Rule 32 petition that there was no record that the
referenced tape ever existed. The State informed the court that it had provided all existing tapes within the
district attorney's files to Miller, and Miller does not dispute that. (February 2008 Rule 32 hearing, R. 529–30.)
The State argues that this particular assertion is not properly before this Court because it was not presented
in the amended Rule 32 petition; however, this contention was addressed in the Rule 32 evidentiary hearing.
(Rule 32 Hearing, R. 94.)
The record from the direct appeal indicates that a veniremember informed the court that he had overheard
other veniremembers express that the trial was a waste of time because the facts were “cut and dried.” The
veniremember could not identify who made the statements. Johnson moved to quash the venire. The circuit
court denied Johnson's motion to quash the venire; however, the veniremember who told the court what he
had overheard was excused from service. (Direct Appeal, R. 691–97.)

279a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

59

Miller v. State, 99 So.3d 349 (2011)

7

Wiggins
“The ABA Guidelines were revised in 2003—after [Miller] was tried and convicted in [2000.] ‘After
[v. Smith, 539 U.S. 510 (2003) ], these Guidelines have been revised to be even more exacting insofar as
they require counsel “to seek information that ... rebuts the prosecution's case in aggravation,” ... and to
“determine at the earliest possible time what aggravating factors the prosecution will rely upon in seeking the
death penalty and what evidence will be offered in support thereof.” ’ United States v. Karake, 370 F.Supp.2d
275, 278 (D.D.C.2005). ‘[W]e recognize that we must measure counsel's performance in this case against the
prevailing standards at the time of [Miller's] trial.’

8

9
10

Hamblin v. Mitchell, 354 F.3d 482, 487–88 (6th Cir.2003).”

Ray, 80 So.3d at 982 n. 5.
At another place in his amended Rule 32 petition, Miller did make the bare assertion that his trial counsel
failed to collect and evaluate Miller's employment, educational, medical records, and his family's medical
records. (C. 275.)
In the quoted portion of our opinion on direct appeal, this Court was addressing Miller's allegation that his
trial counsel was ineffective for not moving for a change of venue.
To the extent that Miller is attempting to assert a claim that his trial counsel were ineffective for not objecting
to the purported inadequacy of the presentence report, this assertion is not properly before this Court. Miller
neither presented this as a claim in his amended Rule 32 petition nor specifically argued this as a ground for
relief during the Rule 32 evidentiary hearing. As we have stated earlier in this opinion, the rules of preservation
apply in Rule 32 proceedings, even if the death penalty is involved. Thus, even if the presentence report was
“woefully inadequate,” which it is not, Miller would be due no relief as he failed to argue this ground to the
circuit court. Cf. Ex parte Washington, [Ms. 1071607, April 15, 2011] ––– So.3d –––– (Ala.2011) (Supreme
Court implied in dicta that a presentence report, to which Washington objected, was inadequate because the
report contained almost no information about Washington's troubled upbringing or its effect on him, nor did
the report contain sufficient information about Washington's mental-health problems).

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

280a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

60

Miller v. State, 913 So.2d 1148 (2004)

913 So.2d 1148
Court of Criminal Appeals of Alabama.
Alan Eugene MILLER
v.
STATE of Alabama.
CR-99-2282.
|
Jan. 6, 2004.
|
On Return to Remand
Oct. 29, 2004.
|
Rehearing Denied Jan. 7, 2005.
|
Certiorari Denied May 27, 2005
Alabama Supreme Court 1040564.
Synopsis
Background: Defendant was convicted in a jury trial
in the Circuit Court, Shelby County, No. CC-99-792, D.
Al Crowson, J., of capital murder and was sentenced to
death. Defendant appealed. The Court of Criminal Appeals
remanded so that circuit court could correct sentencing order
and make specific findings of fact.

Affirmed.

West Headnotes (24)
[1]

Criminal Law
General

Necessity of Objections in

Plain-error doctrine applies only if the error is
particularly egregious and if it seriously affects
the fairness, integrity, or public reputation of
judicial proceedings.

[2]

Sentencing and Punishment
Presentation
and Reservation in Lower Court of Grounds of
Review
Although defendant's failure to object at trial
did not preclude Court of Criminal Appeals
from reviewing issue on direct appeal of capital
murder conviction and death sentence, the failure
weighed against any claim of prejudice.

[3]

Holdings: On return to remand, the Court of Criminal
Appeals, Wise, J., held that:

Criminal Law

Inferences from Evidence

Criminal Law
from Evidence

Inferences or Hypotheses

When there is legal evidence from which the jury
could, by fair inference, find defendant guilty, the
trial court should submit the case to the jury, and,
in such a case, appellate court will not disturb the
trial court's decision.

[1] evidence supported finding that defendant committed
intentional murder;
[2] defendant failed to establish ineffective assistance of
counsel during guilt phase;
[3] defendant failed to establish ineffective assistance of
counsel during penalty phase;

[4]

[6] imposition of death sentence was proper.

Intent or Mens Rea

Question whether a defendant intentionally
caused the death of another person is a question
of fact for the jury.

[4] victim impact testimony was relevant and admissible
during penalty phase;
[5] evidence supported finding of death penalty aggravator
that murder was especially heinous, atrocious, or cruel; and

Homicide

[5]

Homicide

Intent or Mens Rea

Evidence supported finding that defendant
intended to kill victims, thus supporting
convictions for intentional murder; witness
testimony and forensic evidence showed that

281a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

1

Miller v. State, 913 So.2d 1148 (2004)

Appellate court should avoid using “hindsight”
to evaluate effectiveness of defense counsel's
trial performance; instead, appellate court must
consider the circumstances surrounding the
case at the time of counsel's actions before
determining whether counsel's assistance was
ineffective. U.S.C.A. Const.Amend. 6.

defendant intentionally drew his pistol and shot
three victims multiple times.

[6]

Criminal Law
in General

Affidavits and Other Proofs

At a hearing on a motion for new trial, defendant
has the burden of proving the allegations of his
motion to the satisfaction of the trial court.

1 Cases that cite this headnote
[12]

[7]

Criminal Law

Motion for New Trial

Criminal Law
Judgment

New Trial and Arrest of

Criminal Law
Introduction of and
Objections to Evidence at Trial
Defense counsel's failure to put on insanity
defense or present evidence during guilt phase
of capital murder trial did not constitute
ineffective assistance of counsel; counsel's
decisions were made after thorough investigation
of defendant's case, and counsel's focus was to
maintain credibility with jury in order to spare
defendant's life at penalty phase of trial. U.S.C.A.
Const.Amend. 6.

Trial court's ruling on a motion for a new trial
is presumed to be correct and will be upheld on
appeal unless found to be clearly erroneous.

[8]

Criminal Law
Standard of Effective
Assistance in General
Defendant is not entitled to an error-free trial, and
the fact that trial counsel made a mistake is not
enough to show that counsel's performance was
ineffective. U.S.C.A. Const.Amend. 6.

[9]

[10]

[14]

Criminal Law

Determination

Strategy and Tactics in

Criminal Law
Standard of Effective
Assistance in General
Mere difference of opinion between a defendant
and his trial counsel is insufficient to render
counsel's performance ineffective. U.S.C.A.
Const.Amend. 6.

Raising Issues on Appeal;

Attorney is not required to raise every
conceivable claim available at trial or on appeal
in order to render effective assistance. U.S.C.A.
Const.Amend. 6.

Criminal Law
General

Strategic choices made after a thorough
investigation of relevant law and facts are
virtually unchallengeable in claim of ineffective
assistance of counsel. U.S.C.A. Const.Amend. 6.

Raising of Particular
Criminal Law
Defense or Contention
Criminal Law
Briefs

[11]

[13]

Criminal Law
Introduction of and
Objections to Evidence at Trial
Fact that trial counsel did not object at
every possible instance does not mean that a
defendant's counsel was incompetent. U.S.C.A.
Const.Amend. 6.

Criminal Law
Capacity to Commit Crime;
Insanity or Intoxication

2 Cases that cite this headnote
[15]

Homicide
Alone

Mere Language, or Words

Homicide
Defendant

Insulting or Defaming

282a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

2

Miller v. State, 913 So.2d 1148 (2004)

Execution by electrocution does not violate
Eighth Amendment's prohibition on cruel and
unusual punishment. U.S.C.A. Const.Amend. 8.

Fact that a victim may have spread rumors about
the defendant or “smarted off” to a defendant
is insufficient to mitigate an intentional killing
under any doctrine of provocation or heat of
passion.
[20]
[16]

Criminal Law

Particular Offenses

Capital murder defendant failed to establish
that he was entitled to change of venue due
to high profile nature of case; potential for
actual juror prejudice was addressed through voir
dire during the selection of the jury, and there
was no showing that media coverage created a
presumption of actual prejudice.

[17]

Criminal Law

[18]

Criminal Law
Sentencing Phase

[19]

5 Cases that cite this headnote
[21]

Sentencing and Punishment
Execution

Mode of

Sentencing and Punishment
Heinousness, or Atrocity

Vileness,

For aggravating circumstance for capital
offenses that are “especially heinous, atrocious,
or cruel” to apply, the particular offense must be
one of those conscienceless or pitiless homicides
which are unnecessarily torturous to the victim.
Code 1975, § 13A-5-49(8).
4 Cases that cite this headnote
[22]

Sentencing and Punishment
Heinousness, or Atrocity

Vileness,

Evidence supported finding that defendant's
capital offense was “especially heinous,
atrocious, or cruel,” thus supporting application
of aggravating circumstance; there was sufficient
time between the initial gunshot wounds and the
final, fatal shots for each of defendant's victims
to realize his fate. Code 1975, § 13A-5-49(8).

Presentation of Evidence in

Defendant failed to establish that trial counsel
provided deficient assistance during penalty
phase of capital murder trial; counsel's focus
was to maintain credibility with jury in order
to spare defendant's life, counsel explained
reasons for presenting evidence regarding
defendant's family and social history through
expert witness's testimony rather than through
various family members, and defendant offered
no additional mitigating evidence that counsel
did not discover or that counsel failed to consider
in formulating strategy. U.S.C.A. Const.Amend.
6.

Victim

“Victim impact” testimony in penalty phase of
capital murder trial, used to offer jury a glimpse
into lives taken by defendant, was relevant to
determination of appropriate punishment.

Argument and Comments

Defense counsel's opening statement in penalty
phase of capital murder prosecution did
not constitute deficient assistance of counsel;
counsel's acknowledgment that there was
insufficient evidence to support insanity defense
was designed to retain credibility with jury and to
secure an advisory verdict of life imprisonment
without parole through plea to jury's sympathy.
U.S.C.A. Const.Amend. 6.

Sentencing and Punishment
Impact

3 Cases that cite this headnote
[23]

Jury

Death Penalty

Sentencing and Punishment

Unanimity

Capital defendant's death sentence complied
with requirement that jury determine any facts
upon which an increase in his maximum
punishment was conditioned; jury was instructed
on aggravating circumstance that offense was
“especially heinous, atrocious, or cruel,” and
jury's 10-2 vote recommending death established
that jury unanimously found the existence of

283a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

3

Miller v. State, 913 So.2d 1148 (2004)

aggravating circumstance.
Code 1975, §§
13A-5-46(e)(1-3), 13A-5-49(8).

remand this case for additional action by the circuit court
so that we may adequately address the merits of several of
Miller's claims.

5 Cases that cite this headnote
[24]

Sentencing and Punishment
More Than
One Killing in Same Transaction or Scheme
Sentencing and Punishment
Heinousness, or Atrocity

Vileness,

Death sentence was appropriate for capital
defendant convicted of the murder of two or
more people by one act or pursuant to one
scheme or course of conduct; court found
aggravating circumstance that murders were
especially heinous, atrocious, or cruel, and
trial court found that aggravating circumstance
outweighed three mitigating circumstances.
Code 1975, §§ 13A-5-40(a)(10), 13A-5-49(8),
13A-5-53.
9 Cases that cite this headnote

I.
On June 17, 2000, the jury returned an advisory verdict
recommending that Miller be sentenced to death. Thereafter,
on July 31, 2000, the circuit court accepted the jury's
recommendation and orally sentenced Miller to death by
electrocution. However, the Court advised the parties that as
soon as it could it would enter written findings, as required
by Alabama law.
At the conclusion of the sentencing hearing, Miller's trial
counsel requested that the court appoint other counsel to
represent Miller on appeal, stating, “the reason being that I
need to be scrutinized as well as the facts in this case.” (R.
1473.) The court granted trial counsel's request, and it
appointed new counsel to represent Miller on appeal. On
August 1, 2000, Miller's newly appointed appellate counsel
filed a motion for a new trial on the ground that the verdict
was “contrary to law and the weight of the evidence.”

The appellant, Alan Eugene Miller, was convicted of capital
murder in connection with the deaths of Lee Michael
Holdbrooks, Christopher S. Yancy, and Terry Lee Jarvis. The
murders were made capital because they were committed “by
one act or pursuant to one scheme or course of conduct.”
See § 13A-5-40(a)(10), Ala.Code 1975. After a sentencing
hearing, the jury recommended, by a vote of 10-2, that
Miller be sentenced to death. The trial court accepted the
jury's recommendation and sentenced Miller to death by
electrocution.

On August 24, 2000, the circuit court entered its written order
sentencing Miller to death by electrocution. The following
day, Miller's appellate counsel filed an amendment to Miller's
previous motion for a new trial. Included in the amended
new-trial motion was a claim that Miller's trial counsel was
ineffective. The circuit court held an evidentiary hearing
on the motion. At the evidentiary hearing, Miller's new
attorneys focused on two issues: (1) the competency of
Miller's trial counsel; and (2) Miller's mental condition at
the time the murders were committed. Miller's trial counsel
testified at length concerning his representation of Miller.
New counsel also presented testimony from two mental health
professionals regarding Miller's mental state at the time of
the murders. Following the evidentiary hearing, the parties
were given the opportunity to brief the issues raised during the
hearing. On February 21, 2001, the circuit court summarily
denied Miller's motion for a new trial. The court entered no
written order and made no specific findings of fact as to
the evidence presented during the evidentiary hearing. The
case action summary merely indicated that Miller's new-trial
motion was being denied.

Miller raises a number of issues for this Court's review.
However, our initial review of the record reveals that we must

Because the circuit court summarily denied Miller's motion
for a new trial without making specific, written findings of

Attorneys and Law Firms
*1150 William R. Hill, Jr., and J. Haran Lowe, Jr., Clanton,
for appellant.
*1151 William H. Pryor, Jr., atty. gen., and Tracy Daniel and
Andy Scott Poole, asst. attys. gen., for appellee.
Opinion
WISE, Judge.

284a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

4

Miller v. State, 913 So.2d 1148 (2004)

fact, despite holding a hearing and receiving evidence and
briefs regarding the claims asserted in the motion, we must
remand this case to the trial court for it to make specific
written findings of fact regarding each of the claims Miller
raised during the hearing on his motion for a new trial. The
circuit court's failure to make such findings *1152 hampers
this Court's ability to fulfill its statutory mandate as set out
§ 13A-5-53, Ala.Code 1975. “Because the trial court
in
presided over the trial and the hearing on the motion for a
new trial, we believe that that court is in the best position to
make findings of fact regarding the appellant's claims.” Tubbs
v. State, 753 So.2d 1209, 1210 (Ala.Crim.App.1999); see also
Davis v. State, 826 So.2d 894, 896 (Ala.Crim.App.2000);
Stallings v. State, 793 So.2d 867, 869 (Ala.Crim.App.2000).

II.
Miller argues that the circuit court erred in determining that
the facts of this case warranted a finding that the offense
was especially heinous, atrocious, or cruel when compared
to other capital offenses. Specifically, Miller challenges the
constitutionality of this aggravating circumstance, on the
ground that this aggravating circumstance is “impermissibly
vague and overly broad.” He further argues that “[s]uch a
standard has become meaningless in recent years precisely
because the State has chosen to use this as a catchall
and effectively made every murder worthy of capital
punishment.”
Before we can address the merits of Miller's claim, however,
we must remand this case for the circuit court to make
specific findings of fact regarding its finding that the murders
committed by Miller were especially heinous, atrocious, or
cruel, when compared to other offenses.
When considering whether a particular capital offense was
“especially heinous, atrocious or cruel,” this Court adheres
Kyzer, 399 So.2d 330,
to the standard set out in Ex parte
334 (Ala.1981), namely, that the particular offense must be
one of those “conscienceless or pitiless homicides which are
unnecessarily torturous to the victim.”
Here, the circuit court found that the murders were especially
heinous, atrocious, or cruel as compared to other capital
murders. The court, in its sentencing order, stated merely:

“The Court finds the conduct of the
Defendant constituted an intentional
killing of two or more persons
pursuant to one scheme or course of
conduct [and] that this capital murder
offense committed by the Defendant
was especially heinous, atrocious or
cruel compared to other capital murder
offenses.”

The court's order fails to comply with Ex parte Kyzer, because
the trial court failed to make specific findings of fact as to
why it believed that this aggravating circumstance existed.
Although the circuit court made findings of fact in another
part of its three-part sentencing order, those facts do not
establish specific findings addressing the standard set forth in
Ex parte Kyzer. See, e.g.,
Stallworth v. State, 868 So.2d
1128, 1168 (Ala.Crim.App.2001).
This Court has approved the application of this aggravating
circumstance when the testimony has established that the
victims were stabbed multiple times and that they suffered
before they died. See Price v. State, 725 So.2d at 1062;
Barbour v. State, 673 So.2d 461, 471 (Ala.Crim.App.1994),
aff'd, 673 So.2d 473 (Ala.1995), cert. denied, 518 U.S. 1020,
116 S.Ct. 2556, 135 L.Ed.2d 1074 (1996);
Hallford v.
State, 548 So.2d 526, 546 (Ala.Crim.App.1988), aff'd, 548
So.2d 547 (Ala.1989), cert. denied, 493 U.S. 945, 110 S.Ct.
354, 107 L.Ed.2d 342 (1989). However, when a circuit court
has found this aggravating circumstance to exist, this Court
has required the court to make specific findings of fact
explaining why this aggravating circumstance was applicable.
We quote the circuit court's sentencing order in Barbour,
where the court stated:
“ ‘The Court does find that Roberts did suffer before she
was killed, because *1153 she was savagely beaten by
Barbour, Mitchell and Hester into a stupefied state or into
a state of unconsciousness. In any event, she was rendered
helpless. What Roberts's thoughts were during this attack,
we will never know. However, common sense dictates
that when attacked by three relative strangers, one must
be fearful of their ultimate fate. Thus, Roberts suffered
psychologically. In addition, the blows were surely painful.

285a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

5

Miller v. State, 913 So.2d 1148 (2004)

“ ‘The Court finds that based on a consideration of all
the circumstances from the moment the attack began
until Barbour, Mitchell and Hester left Roberts's home,
the State has proved beyond a reasonable doubt that the
capital offense was heinous, atrocious, or cruel. This legal
conclusion is based on an amalgam of the case law on this
subject....
“ ‘A summary of the facts is appropriate. Roberts was
beaten into a helpless state. She was then raped by Hester
as she lay helpless. Barbour concluded that she must
die because she knew who her attackers were, and he
stabbed her nine times with such force that two of the
blows penetrated Roberts'[s] back. Barbour left the murder
weapon protruding from Roberts'[s] chest. Barbour then
set a fire or fires in an attempt to hide the criminal act. The
fires resulted in some mutilation of Roberts's body.’ ”

the interest of judicial economy, we have simply chosen to
have a single remand so that the circuit court can comply with
Alabama law, in order that this Court may better review the
merits of each of Miller's arguments, without the need for
another remand.
The circuit court shall take all necessary action to see that
the circuit court makes *1154 due return to this Court at the
earliest possible time and within 90 days of the release of this
opinion.
REMANDED WITH DIRECTIONS.

McMILLAN, P.J., and COBB, BASCHAB, and SHAW, JJ.,
concur.
On Return to Remand

673 So.2d at 471 (emphasis in Barbour).
We do not wish to question the existence of this aggravating
circumstance. However, given that the circuit court found
only one aggravating circumstance to exist-that this offense
was “especially heinous, atrocious or cruel compared to other
capital offenses”-we must remand this case to the circuit court
for specific findings of fact as to why the court found that the
murders were “especially heinous, atrocious or cruel” when
compared with other capital murders.
For the reasons stated in Part I of this opinion, we remand
this case for the circuit court to make specific written findings
of fact as to the claims that Miller raised during the hearing
on his motion for a new trial. In addition to the findings of
fact, the circuit court shall include in its return to remand any
documentary evidence it considered in making these findings,
including, but not limited to, the mental health evaluation
conducted on Miller by psychologists at Taylor Hardin Secure
Medical Facility that was filed under seal with the circuit court
and the mental evaluation of Miller by his expert, Dr. Charles
Scott. 1
For the reasons stated in Part II of this opinion, this case is
remanded for the court to correct its sentencing order and
make specific findings of fact regarding the existence of
the aggravating circumstance that this offense was especially
heinous, atrocious, or cruel when compared to other capital
offenses. Our remand of this case for the circuit court to
correct its sentencing order should not be taken as a judgment
on the merits of Miller's guilt-phase arguments. However, in

WISE, Judge.
Alan Eugene Miller was convicted of capital murder in
connection with the deaths of Lee Michael Holdbrooks,
Christopher S. Yancy, and Terry Lee Jarvis. The murders were
made capital because they were multiple murders committed
“by one act or pursuant to one scheme or course of conduct.”
See § 13A-5-40(a)(10), Ala.Code 1975. After a sentencing
hearing, the jury recommended, by a vote of 10-2, that Miller
be sentenced to death. The trial court accepted the jury's
recommendation and sentenced Miller to death.
On January 6, 2004, we remanded this case for additional
action by the circuit court. See Miller v. State, 913 So.2d 1148
(Ala.Crim.App.2004). The circuit court has complied with
our instructions and on return to remand has submitted (1)
an amended sentencing order containing specific findings of
fact regarding the existence of the aggravating circumstance
that this offense was especially heinous, atrocious, or cruel
when compared to other capital offenses, and (2) an order
denying Miller's motion for a new trial making specific
written findings of fact regarding each of the claims raised
during the hearing on Miller's motion for a new trial.

Facts
The evidence presented at trial tended to establish the
following. Around 7:00 a.m. on August 5, 1999, Johnny Cobb
arrived at his place of employment, Ferguson Enterprises in

286a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

6

Miller v. State, 913 So.2d 1148 (2004)

Pelham. Cobb, the vice president of operations, recognized
several other vehicles in the company's parking lot as
belonging to sales manager Scott Yancy and delivery truck
drivers Lee Holdbrooks and Alan Miller. As Cobb prepared
to enter the building, he heard some loud noises and what
sounded like someone screaming. Cobb opened the front door
and saw Miller walking toward him. Miller, who was armed
with a pistol, pointed the pistol in the general direction of
Cobb and stated, “I'm tired of people starting rumors on me.”
Cobb tried to get Miller to put the pistol down, but Miller told
him to get out of his way. Cobb ran out the front door and
around the side of the building. Miller then left the building,
walked over to his personal truck, and drove away.
After Cobb heard Miller drive away, he went back inside the
building. He saw Christopher Yancy on the floor in the sales
office and Lee Holdbrooks on the floor in the hallway. Both
men were covered in blood and showed no signs of life. They
appeared to have been shot multiple times. Cobb used his
cellular telephone to summon the police, who were dispatched
at 7:04 a.m. Minutes later, officers from the Pelham Police
Department arrived to investigate the shooting.
After Cobb told the police officers what he had seen, the
officers entered the building. There, they found the body
of Christopher Yancy slumped to the floor, underneath a
desk in the sales office. Lee Holdbrooks was lying face
down in the hallway at the end of a bloody “crawl trail,”
indicating that he had crawled 20-25 feet down the hall in
an attempt to escape his assailant. The officers secured the
scene and waited for evidence technicians to arrive. Cobb
provided a description of Miller's clothing and the truck
he was driving. This description was transmitted *1155 to
police headquarters and sent out over the police radio by the
police dispatcher. Evidence technicians recovered nine .40caliber shell casings from the scene.
While officers began investigating the crime scene at
Ferguson Enterprises, Andy Adderhold was arriving for work
at Post Airgas in Pelham. Adderhold, the manager of the
Pelham store, arrived shortly after 7:00 a.m. Adderhold
entered the office and talked with Terry Jarvis, another
employee, for a few minutes before continuing to another
office. At this point, Adderhold noticed Miller-a former
employee of Post Airgas-enter the building. Miller walked
toward the sales counter and called out to Jarvis: “Hey, I hear
you've been spreading rumors about me.” As Jarvis walked
out of his office and walked into the area behind the sales
counter, he replied, “I have not.” Miller fired several shots

at Jarvis. As Jarvis fell to the floor, Adderhold crouched
behind the counter. Miller then walked behind the counter
and pointed the pistol at Adderhold's face. Adderhold begged
for his life. Miller paused, then pointed to a door, and told
him to get out. Adderhold stood up and, as he began to move
toward the door, heard a sound from Jarvis. When Adderhold
paused and looked back at Jarvis, Miller repeated his order
to “get out-right now.” At this Adderhold left the sales area.
As Adderhold was leaving the building, he heard another
gunshot. Adderhold proceeded out of the back of the building,
climbed over a fence to a neighboring building, where he used
someone's cellular telephone to summon the police.
The second emergency call came in to the Pelham Police
Department at approximately 7:18 a.m. Upon arrival, officers
entered the building housing Post Airgas and found Jarvis's
body on the floor behind the sales counter. Jarvis had
sustained several gunshot wounds to his chest and abdomen.
After securing the scene, officers recovered six .40-caliber
spent shell casings from the floor of the sales area. Adderhold
was interviewed, and he recounted the events surrounding
Jarvis's murder.
After a description of Miller and the vehicle he was driving
was transmitted over the police radio, law-enforcement
officers combed the area in search of Miller. Pelham police
sergeant Stuart Davidson and his partner were patrolling
Interstate 65 near Alabaster when word of the second shooting
was broadcast. Upon hearing that Miller was still in the
vicinity of Pelham, Davidson exited I-65 to head back to
Pelham. As Davidson turned back toward Pelham, he spotted
a truck matching the description of Miller's entering I-65 from
Highway 31 in Alabaster. Davidson radioed for backup and
followed the truck south on I-65 into Chilton County. Once
additional officers were in place as backup, law-enforcement
officers initiated a traffic stop of the truck. Following the
traffic stop, officers were able to positively identify the driver
as Miller. Miller was ordered to get out of the truck, and he
was forcibly subdued and handcuffed after resisting efforts
to place him in custody. After placing Miller in the back of
a patrol car, officers secured his truck. Inside the truck, they
found a Glock brand pistol lying on the driver's seat. The
pistol contained 1 round in the chamber and 11 rounds in the
magazine. An empty Glock ammunition magazine was found
on the passenger seat. Miller was transported to the Pelham
Police Department where he was charged with murder.
At trial, the State called various witnesses who testified
concerning the events of August 5, 1999. Evidence was

287a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

7

Miller v. State, 913 So.2d 1148 (2004)

also introduced regarding ballistics testing of the spent shell
casings found at both murder sites; the testing matched all
of the shell casings to the .40-caliber Glock pistol *1156
found on Miller. Dr. Stephen Pustilnik, a state medical
examiner with the Alabama Department of Forensic Sciences,
testified that the cause of death for all three victims was
multiple gunshot wounds. Lee Holdbrooks-whose body was
found in the hallway-was shot six times in the head and
chest; although several of the wounds were nonfatal, one of
the head wounds was fired at very close range and would
have been immediately incapacitating and fatal. Based on
“blood splatter” analysis and the positioning of the body, Dr.
Pustilnik concluded that Holdbrooks was turning his head and
looking up when the fatal shot was fired.
Scott Yancy was shot three times; one of the shots struck the
aorta, which would have caused Yancy to “bleed out” within
15-20 minutes, while another wound would have caused
paralysis. At the time he was shot, Yancy was underneath a
metal desk; there was no indication that he ever moved from
this position.
Terry Jarvis was shot five times; one of the shots struck
Jarvis's liver and another his heart. Jarvis had already fallen
to the floor when he was shot in the heart. Based on “blood
splatter” analysis, Dr. Pustilnik concluded that Miller was
standing over Jarvis as he shot him in the heart. Despite the
nature of this wound, Jarvis could have lived anywhere from
several minutes to 15 minutes after being shot.
Miller's defense counsel rested without putting on any
evidence. After both sides had rested and the trial court
instructed the jury on the law applicable to Miller's case, the
jury determined that the murders of Holdbrooks, Yancy, and
Jarvis were committed pursuant to a common scheme or plan,
and it convicted Miller of capital murder.
During the penalty phase of Miller's trial, the State
resubmitted all of the evidence it had introduced during the
guilt phase. The State also presented brief testimony from
three family members of the victims. One witness testified on
behalf of each victim.
Miller offered the testimony of one witness during the penalty
phase. Dr. Charles Scott, a forensic psychiatrist, testified
regarding Miller's mental state at the time of the offenses. In
preparing his report, Dr. Scott reviewed police records and
witness statements, interviewed Miller and various family
members, and arranged for psychological testing. Dr. Scott

also reviewed Alabama's statutory definition of insanity.
Based on this evidence, Dr. Scott determined that Miller was
mentally ill at the time of the offenses. In Dr. Scott's opinion,
Miller suffered from a delusional disorder that substantially
impaired his rational ability. This delusional disorder-coupled
with Miller's history as a loner-resulted in Miller's believing
the people he worked with talked about him and that they
had spread rumors about him. Miller believed that Terry
Jarvis had told other employees at Post Airgas that Miller
was a homosexual. However, Dr. Scott concluded, Miller's
condition did not rise to the level of mania necessary to
establish an insanity defense under Alabama law.
According to Dr. Scott, in the weeks immediately before the
shootings, Miller became more and more agitated about the
perceived harassment by his current and former coworkers.
On the morning of the shooting, Miller told Dr. Scott that
although he “felt an increased feeling of pressure” as he
entered Ferguson Enterprises, he was not thinking of shooting
Holdbrooks and Yancy. However, Miller recounted to Dr.
Scott, when Holdbrooks “smarted off” to him, it “was like
the straw that broke the camel's back” and he pulled out his
pistol and began shooting. Following the shooting, all Miller
could think of *1157 was shooting Terry Jarvis, so he drove
to Post Airgas and shot him. After that, Miller told Dr. Scott
that he felt as if the pressure had been lifted off him and that
everything was calm.
After both sides had rested and the trial court instructed the
jury on the law applicable to the penalty phase, the jury
returned an advisory verdict recommending that Miller be
sentenced to death.

Standard of Review
In every case where the death penalty is imposed, this Court
must review the record for any plain error, i.e., for any defect
in the proceedings, whether or not the defect was brought
to the attention of the trial court. Rule 45A, Ala.R.App.P.,
provides:

“In all cases in which the death
penalty has been imposed, the Court
of Criminal Appeals shall notice any
plain error or defect in the proceedings
under review, whether or not brought
to the attention of the trial court, and

288a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

8

Miller v. State, 913 So.2d 1148 (2004)

take appropriate appellate action by
reason thereof, whenever such error
has or probably has adversely affected
the substantial right of the appellant.”

Hall v. State, 820 So.2d
[1] As this Court stated in
113, 121-22 (Ala.Crim.App.1999), aff'd, 820 So.2d 152
(Ala.2001):
“The standard of review in reviewing a claim under the
plain-error doctrine is stricter than the standard used in
reviewing an issue that was properly raised in the trial
court or on appeal. As the United States Supreme Court
stated in
United States v. Young, 470 U.S. 1, 105
S.Ct. 1038, 84 L.Ed.2d 1 (1985), the plain-error doctrine
applies only if the error is ‘particularly egregious' and
if it ‘seriously affect[s] the fairness, integrity or public
reputation of judicial proceedings.’ See Ex parte
Price,
725 So.2d 1063 (Ala.1998), cert. denied, 526 U.S. 1133,
119 S.Ct. 1809, 143 L.Ed.2d 1012 (1999);
Burgess v.
State, 723 So.2d 742 (Ala.Cr.App.1997), aff'd, 723 So.2d
770 (Ala.1998), cert. denied, 526 U.S. 1052, 119 S.Ct.
1360, 143 L.Ed.2d 521 (1999);
Johnson v. State, 620
So.2d 679, 701 (Ala.Cr.App.1992), rev'd on other grounds,
620 So.2d 709 (Ala.1993), on remand,
620 So.2d 714
(Ala.Cr.App.), cert. denied, 510 U.S. 905, 114 S.Ct. 285,
126 L.Ed.2d 235 (1993).”
[2] Although Miller's failure to object at trial will not
preclude this Court from reviewing an issue in this case,
it will, nevertheless, weigh against any claim of prejudice
he makes on appeal. See
Dill v. State, 600 So.2d 343
(Ala.Crim.App.1991), aff'd, 600 So.2d 372 (Ala.1992), cert.
denied, 507 U.S. 924, 113 S.Ct. 1293, 122 L.Ed.2d 684
(1993).
Some of the issues Miller raises on appeal were not first
brought to the trial court's attention. Accordingly, this Court's
review of those matters is limited to review under the plainerror doctrine.

I.
Miller argues that his conviction and death sentence are due
to be vacated because, he says, he lacked the necessary
intent to commit murder. Specifically, Miller contends that
his mental instability at the time of the offenses prevented
him from forming the requisite mental intent to commit
intentional murder, as required by § 13A-5-40(a), Ala.Code
1975. Because this claim is presented for the first time on
appeal, it will be reviewed under the plain-error doctrine.
[3] [4] “ ‘In determining the sufficiency of the evidence
to sustain a conviction, a reviewing court must accept as
true all evidence introduced by the State, accord the State all
legitimate inferences therefrom, and consider all evidence in
a light *1158 most favorable to the prosecution.’ ” Ballenger
v. State, 720 So.2d 1033, 1034 (Ala.Crim.App.1998) (quoting
Faircloth v. State, 471 So.2d 485, 488 (Ala.Crim.App.1984),
aff'd, 471 So.2d 493 (Ala.1985)). “ ‘The test used in
determining the sufficiency of evidence to sustain a
conviction is whether, viewing the evidence in the light
most favorable to the prosecution, a rational finder of
fact could have found the defendant guilty beyond a
reasonable doubt.’ ” Nunn v. State, 697 So.2d 497, 498
(Ala.Crim.App.1997) (quoting O'Neal v. State, 602 So.2d
462, 464 (Ala.Crim.App.1992)). “ ‘When there is legal
evidence from which the jury could, by fair inference, find
the defendant guilty, the trial court should submit [the case]
to the jury, and, in such a case, this court will not disturb
the trial court's decision.’ ” Farrior v. State, 728 So.2d 691,
696 (Ala.Crim.App.1998) (quoting Ward v. State, 557 So.2d
848, 850 (Ala.Crim.App.1990)). “The role of appellate courts
is not to say what the facts are. Our role ... is to judge
whether the evidence is legally sufficient to allow submission
of an issue for decision [by] the jury.” Ex parte
Bankston,
358 So.2d 1040, 1042 (Ala.1978). “The question whether a
defendant intentionally caused the death of another person
is a question of fact for the jury. Carr v. State, 551 So.2d
1169 (Ala.Cr.App.1989).” Ex parte Carroll, 627 So.2d 874,
878 (Ala.1993), cert. denied, 510 U.S. 1171, 114 S.Ct. 1207,
127 L.Ed.2d 554 (1994). “The question of intent is hardly
ever capable of direct proof. Such a question is normally
a question for the jury. Loper v. State, 469 So.2d 707
(Ala.Cr.App.1985).”

Guilt-Phase Issues

Lucas v. State, 792 So.2d 1161, 1168

(Ala.Crim.App.1999), rev'd on other grounds,
1169 (Ala.2000).

289a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

792 So.2d

9

Miller v. State, 913 So.2d 1148 (2004)

During the guilt phase of the trial, Miller offered no evidence
in his defense. Although it appears that Miller initially
asserted a defense of not guilty by reason of mental disease or
defect, this defense was withdrawn before trial. Therefore, the
jury was not asked to determine whether Miller was mentally
capable of forming the requisite mental intent to intentionally
murder the three victims pursuant to a common scheme or
plan. Indeed, Miller's claim that he lacked the requisite mental
intent to commit murder is based on the testimony of Dr.
Charles Scott, which was not presented until the penalty
phase of his trial. Moreover, even Dr. Scott conceded that
Miller's mental condition did not rise to the level of mania
necessary to establish an insanity defense under Alabama
law. Here, the jury was charged on the capital offense of the
intentional murder of three persons pursuant to a common
scheme or course of conduct and the lesser-included offense
of the intentional murders of the three victims that were not
committed pursuant to a common scheme or plan. The trial
court instructed the jury that it must find the requisite intent
by proof beyond a reasonable doubt as an element of the
charged offense. Because no insanity defense was presented,
the jury was not asked to determine Miller's ability to form
the requisite intent to commit intentional murder. We know
of no caselaw requiring a trial court to charge the jury on an
affirmative defense that is withdrawn before trial begins.
[5] Based on the evidence presented during the guilt phase
of Miller's trial, the jury concluded that Miller's conduct
was intentional. The testimony of the surviving witnesses,
Johnny Cobb and Andy Adderhold-together with the forensic
evidence-established that Miller intentionally drew his pistol
and shot his three victims multiple times. Given these
circumstances, we find no merit to Miller's claim that the trial
court should have submitted his insanity defense to the jury
for its consideration, despite the fact that *1159 that defense
was withdrawn before trial. Accordingly, no basis for reversal
exists as to this claim.

II.
Miller next argues that he was denied the effective assistance
of counsel at both the guilt phase and the penalty phase
of his trial. Miller, who was represented by new counsel
appointed following his conviction and sentence, presented
his ineffective-assistance-of-counsel claims in his motion for
a new trial.

[6]
[7] “At a hearing on a motion for new trial, the
defendant has the burden of proving the allegations of his
motion to the satisfaction of the trial court.” Miles v. State,
624 So.2d 700, 703 (Ala.Crim.App.1993) (citing Anderson
v. State, 46 Ala.App. 546, 547, 245 So.2d 832, 833 (1971),
and Jones v. State, 31 Ala.App. 504, 507, 19 So.2d 81, 84
(1944)). “The trial court's ruling on a motion for a new trial
is presumed to be correct and will be upheld on appeal unless
found to be clearly erroneous.” Taylor v. State, 808 So.2d
1148, 1171 (Ala.Crim.App.2000), aff'd,
808 So.2d 1215
(Ala.2001), cert. denied, 534 U.S. 1086, 122 S.Ct. 824, 151
L.Ed.2d 705 (2002) (citing Ex parte Frazier, 562 So.2d 560,
570 (Ala.1989)).
At the hearing on Miller's motion for a new trial, Mickey
Johnson, Miller's trial counsel, testified. Johnson stated that
when he was appointed to represent Miller on the day of the
shootings, he had been practicing law for 25 years. He met
with Miller shortly after Miller was apprehended and again
later that night. That same day, Johnson also met with several
Pelham police officers and with Miller's mother.
Johnson had litigated five or six capital-murder cases before
he was appointed to represent Miller. Roger Bass was initially
appointed cocounsel; however, when Bass withdrew, Ronnie
Blackwood was appointed to serve as cocounsel.
Johnson met with Miller on a number of occasions
before trial. Before forming a strategy for Miller's case,
Johnson reviewed all of the investigative reports, diagrams,
statements, photographs, videotapes, and scientific reports; he
also talked with his client. Johnson filed a motion requesting
funds for an independent psychological evaluation of Miller.
The trial court granted his motion, and Johnson retained Dr.
Charles Scott from the University of California to evaluate
Miller. After talking with Dr. Scott and reviewing Dr. Scott's
written report, Johnson determined that there was insufficient
evidence to raise an insanity defense during the guilt phase.
In his opinion, it was better to present Dr. Scott's testimony
during the penalty phase because presenting his testimony
at the guilt phase would have negated Dr. Scott's credibility
and lessened the potential impact of the evidence during the
penalty phase. Johnson made this decision after reviewing the
reports from other mental-health evaluations of Miller, which
were consistent with Dr. Scott's findings.
After reviewing the evidence, Johnson made a strategic
decision to concentrate his efforts and defense on the penalty
phase of the trial. In his opinion, the State's evidence of

290a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

10

Miller v. State, 913 So.2d 1148 (2004)

Miller's guilt “was too overwhelming to seriously contest,”
given that he had no valid legal defense for the guilt
phase. Accordingly, Johnson decided to concentrate on saving
Miller's life.
Johnson focused his efforts during the guilt phase on
maintaining credibility with the jury. In accordance with this
strategy, he admitted to the jury early on in the proceedings
that the evidence of Miller's guilt was strong because he
wanted to lessen the impact of the evidence against Miller.
Johnson felt that his duty during *1160 the guilt phase was
to make the State meet its burden of proof.
During the penalty phase, Johnson presented a diminishedcapacity defense. Through Dr. Scott's testimony, he presented
two mitigating circumstances. He also argued the undisputed
mitigating circumstance of no prior criminal history. During
the penalty phase, Johnson argued that the State had failed
to prove any aggravating circumstances. He also wanted
to point out to the jury that the mitigating circumstances
were undisputed. Johnson hoped that the jury was looking
for a reason not to recommend the death penalty, and that
his arguments would give the jury a sound legal basis for
recommending a sentence of life imprisonment without the
possibility of parole.
Before the penalty phase, Johnson talked with Miller's parents
and other family members. He considered calling them as
witnesses. However, after talking with Miller's family, he
determined that it was best to present Miller's social and
family history through Dr. Scott's testimony. In Johnson's
opinion, Dr. Scott was a credible witness. Johnson also
believed that the support Miller had from his family members
during trial was affecting the jury in a positive way. Johnson
believed that the jurors sympathized with Miller's family and
he did not want to detract from this sympathy by putting
family members on the stand.
Miller presented testimony from two other witnesses in
support of his motion for a new trial. Dr. Bob Wendorf,
a clinical psychologist, testified that based on his review
of Dr. Scott's report, he believed there were other possible
mitigating factors Johnson could have presented. Miller also
elicited testimony from Aaron McCall with the Alabama
Prison Project. McCall indicated that he had sent Johnson a
letter in August 1999, offering his services in Miller's case.
However, McCall testified, Johnson never responded to his
letter.

To prevail on a claim of ineffective assistance of counsel, a
defendant must establish (1) that his counsel's performance
was deficient, and (2) that he was prejudiced by the deficient
performance. Strickland v. Washington, 466 U.S. 668, 687,
104 S.Ct. 2052, 80 L.Ed.2d 674 (1984); Ex parte Lawley, 512
So.2d 1370, 1372 (Ala.1987). “The performance component
outlined in Strickland is an objective one: that is, whether
counsel's assistance, judged under ‘prevailing professional
norms,’ was ‘reasonable considering all the circumstances.’
” Daniels v. State, 650 So.2d 544, 552 (Ala.Crim.App.1994)
(quoting Strickland, 466 U.S. at 688, 104 S.Ct. 2052). “[A]
court deciding an actual ineffectiveness claim must judge the
reasonableness of counsel's challenged conduct on the facts
of the particular case, viewed as of the time of counsel's
conduct.”

Strickland, 466 U.S. at 690, 104 S.Ct. 2052.

[8] [9] [10] A defendant is not entitled to an error-free
trial, and the fact that trial counsel made a mistake is not
enough to show that counsel's performance was ineffective.
See Cosby v. State, 627 So.2d 1059 (Ala.Crim.App.1993).
Moreover, the fact that trial counsel did not object at every
possible instance does not mean that a defendant's counsel
was incompetent. See O'Neil v. State, 605 So.2d 1247, 1250
(Ala.Crim.App.1992). An attorney is not required to raise
every conceivable claim available at trial or on appeal in order
Thomas v. State, 766 So.2d
to render effective assistance.
860 (Ala.Crim.App.1998), aff'd, 766 So.2d 975 (Ala.2000);
Holladay v. State, 629 So.2d 673 (Ala.Crim.App.1992).
[11] When reviewing a claim of ineffective assistance
of counsel, this Court indulges a strong presumption that
counsel's *1161 conduct was appropriate and reasonable.
Hallford v. State, 629 So.2d 6 (Ala.Crim.App.1992); Luke
v. State, 484 So.2d 531 (Ala.Crim.App.1985). Moreover, this
Court should avoid using “hindsight” to evaluate counsel's
performance. Instead, we must consider the circumstances
surrounding the case at the time of counsel's actions before
determining whether counsel's assistance was ineffective.
Hallford, 629 So.2d at 9; see also, e.g., Cartwright v. State,
645 So.2d 326 (Ala.Crim.App.1994).

A. Guilt-phase claims
[12] Miller contends that his counsel's opening remarks
indicated that counsel was serving “more like a second
prosecutor” rather than defense counsel. In a similar vein,

291a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

11

Miller v. State, 913 So.2d 1148 (2004)

Miller claims that he was prejudiced by his counsel's decision
not to put on an insanity defense during the guilt phase of his
trial. Miller also complains of counsel's admission during the
guilt stage of the trial that his defense was “feeble at best.”
Akin to this claim are Miller's allegations that his defense was
prejudiced by counsel's failure to adequately cross-examine
the State's witnesses and his failure to call any witnesses.
[13]
[14] However, as indicated by counsel's testimony
at the hearing on his new-trial motion, those decisions were
made after a thorough investigation of the relevant law and
facts of Miller's case. This is not a case where counsel
failed to investigate a potential mental-health defense or
neglected to interview potential defense witnesses. Instead,
Johnson's decision was part of his strategy to spare
Samra v. State, 771 So.2d 1108, 1120
Miller's life. See
(Ala.Crim.App.1999), aff'd, 771 So.2d 1122 (Ala.), cert.
denied, 531 U.S. 933, 121 S.Ct. 317, 148 L.Ed.2d 255 (2000).
“Strategic choices made after a thorough investigation of
relevant law and facts are virtually unchallengeable.” Ex
parte Lawley, 512 So.2d at 1372. Further, a mere difference
of opinion between a defendant and his trial counsel is
insufficient to render counsel's performance ineffective.
Patrick v. State, 680 So.2d 959, 962 (Ala.Crim.App.1996).
Under the circumstances of this case, defense counsel made a
well-reasoned decision to focus his efforts on that part of the
trial that he believed offered the greatest chance of success.
We see no reason to second-guess defense counsel's decisions
regarding this strategy.
[15]
Miller also contends that his trial counsel's
representation was deficient because counsel did not use
evidence regarding Miller's delusions to show the murders
were committed in a heat of passion, rather than as part of
a common scheme or plan. Miller cites no authority for this
contention. Likewise, our research has failed to locate any
Alabama authority that supports such a proposition. The fact
that a victim may have spread rumors about the defendant
or “smarted off” to a defendant is insufficient to mitigate an
intentional killing under any doctrine of provocation or heat
of passion. See, e.g., Bone v. State, 706 So.2d 1291, 1297
(Ala.Crim.App.1997) (citing Harrison v. State, 580 So.2d 73,
74 (Ala.Crim.App.1991) (mere words or gestures will not
reduce a homicide from murder to manslaughter)).
[16] Finally, Miller challenges counsel's decision not to
move for a change of venue. However, Miller has failed
to establish any basis for such a claim. Indeed, this court
rejected similar change-of-venue claims in two other high-

profile capital-murder prosecutions that occurred in Shelby
County. In one of those cases, this Court noted:
“ ‘The mere fact that publicity and media attention
were widespread is not sufficient to warrant a change
of venue. Rather, Ex parte
*1162 Grayson[, 479
So.2d 76 (Ala.1985),] held that the appellant must show
that he suffered actual prejudice or that the community
was saturated with prejudicial publicity.’ Slagle v. State,
606 So.2d 193, 195 (Ala.Cr.App.1992). ‘ “Moreover,
the passage of time cannot be ignored as a factor in
bringing objectivity to trial.” ’ Whisenhant v. State, 555
So.2d 219, 224 (Ala.Cr.App.1988), aff'd, 555 So.2d 235
(Ala.1989), cert. denied, 496 U.S. 943, 110 S.Ct. 3230, 110
L.Ed.2d 676 (1990) (citations omitted) (quoting Dannelly
v. State, 47 Ala.App. 363, 254 So.2d 434, cert. denied, 287
Ala. 729, 254 So.2d 443 (1971)).
“ ‘In connection with pretrial publicity, there are two
situations which mandate a change of venue: 1) when
the accused has demonstrated “actual prejudice” against
him on the part of the jurors; 2) when there is “presumed
prejudice” resulting from community saturation with
such prejudicial pretrial publicity that no impartial jury
can be selected.

Sheppard v. Maxwell, 384 U.S. 333,

Rideau [v.
86 S.Ct. 1507, 16 L.Ed.2d 600 (1966);
Louisiana, 373 U.S. 723, 83 S.Ct. 1417, 10 L.Ed.2d 663
(1963)];

Estes v. Texas, 381 U.S. 532, 85 S.Ct. 1628,

14 L.Ed.2d 543 (1965); Ex parte Grayson, 479 So.2d
76, 80 (Ala.), cert. denied, 474 U.S. 865, 106 S.Ct. 189,
88 L.Ed.2d 157 (1985);
541 (11th Cir.1983).’

Coleman v. Zant, 708 F.2d

“ Hunt v. State, 642 So.2d 999, 1042-43
(Ala.Cr.App.1993), aff'd, 642 So.2d 1060 (Ala.1994).”
Samra v. State, 771 So.2d at 1113; accord
State, 889 So.2d 1, 15 (Ala.Crim.App.2002).

Duke v.

Here, the potential for actual juror prejudice was addressed
through voir dire during the selection of the jury. Through
the use of juror questionnaires and individual voir dire,
any potential jurors who may have had fixed opinions
regarding Miller's guilt were excused from service. Nor
was there any showing that media coverage created a
presumption of actual prejudice. See Ex parte

292a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

Travis,

12

Miller v. State, 913 So.2d 1148 (2004)

776 So.2d 874, 879 (Ala.2000). Given these circumstances,
defense counsel cannot be said to have rendered ineffective
assistance by not seeking a change of venue where there
was insufficient evidence to show that he was entitled to
such a change. See, e.g. Bedwell v. State, 710 So.2d 493,
497 (Ala.Crim.App.1997) (“Counsel cannot be said to be
ineffective for failing to file a motion for which there is no
legal basis.”).

B. Penalty-phase claims
[17] Miller contends that trial counsel's opening statement
at the penalty phase prejudiced his defense and any mitigating
evidence to be presented during the penalty-phase portion of
his trial. Specifically, Miller claims that counsel's opening
statement undermined the credibility of the only defense
witness being offered-Dr. Charles Scott. The end result of
counsel's opening statement, Miller claims, suggested to the
jury that Miller deserved to be sentenced to death.
We have reviewed trial counsel's opening statement in its
entirety. Consistent with counsel's trial strategy-as testified
to during the hearing on Miller's new-trial motion-counsel
elected to acknowledge Dr. Scott's conclusion that there was
no basis under Alabama law to support an insanity defense in
an effort to retain his credibility before the jury and to secure
an advisory verdict of life imprisonment without parole,
rather than the death sentence. Given the overwhelming
evidence of Miller's guilt-including eyewitness testimony
identifying Miller as the shooter-counsel had little choice
but to acknowledge Miller's guilt. Accordingly, counsel
attempted to gain the jury's sympathy by using Dr. Scott's
testimony to portray Miller as a *1163 “tortured soul” whose
delusions drove him to commit a series of horrific acts.
Indeed, our review of counsel's argument reveals it to be an
impassioned plea that the jury spare Miller's life.
Miller also contends that counsel was ineffective because he
failed to exclude “victim impact” testimony offered by the
victims' family members. As will be discussed in Part IV of
this opinion, that testimony was admissible. See, e.g., Taylor
v. State, 808 So.2d 1148, 1167 (Ala.Crim.App.2000), aff'd,
808 So.2d 1215 (Ala.2001), cert. denied, 534 U.S. 1086,
122 S.Ct. 824, 151 L.Ed.2d 705 (2002);
So.2d 364, 383 (Ala.Crim.App.1999).

Boyd v. State, 746

[18] Miller further contends that trial counsel's failure
“to adequately explore all possible mitigating routes” left
counsel unable to make well-informed decisions on the
question of mitigation. As set out above, counsel testified at
length regarding his representation of Miller, including his
investigation of the relevant law and facts, and his strategy
to save Miller from a sentence of death. Counsel explained
his reasons for presenting evidence regarding Miller's family
and social history through Dr. Scott's testimony, rather than
through various family members. Based on our review of the
record, we fail to see what other mitigating evidence counsel
could have offered. Moreover, despite Miller's allegations,
he offers no additional mitigating evidence that counsel did
not discover during his investigation or that counsel failed
to consider in formulating his defense strategy. Accordingly,
we are unable to say that counsel was ineffective as to
this claim. See
Lawhorn v. State, 756 So.2d 971, 986
(Ala.Crim.App.1999).
Miller contends that trial counsel's performance was deficient
because he failed to challenge the constitutionality of the
statutory aggravating circumstance set out in § 13A-5-49(8),
that the capital offense of which he was convicted
was “especially heinous, atrocious, or cruel compared to
other capital offenses.” As will be discussed in Part V
of this opinion, this Court has consistently recognized
the constitutionality of this aggravating circumstance.
See, e.g.,
Ingram v. State, 779 So.2d 1225, 1277
(Ala.Crim.App.1999), aff'd, 779 So.2d 1283 (Ala.2000).
Because there was no merit to this claim, counsel's
performance was not deficient for failing to raise it. See, e.g.,
Thomas v. State, 766 So.2d at 950; Bedwell v. State, 710
So.2d at 497.

Penalty-Phase Issues
III.
Miller argues that his death sentence should be vacated
because, he says, “Capital punishment as practiced
throughout this nation, as well as in this State, is performed in
an arbitrary and capricious manner which violates the basic
principles providing the foundation of our legal system.”
Additionally, he argues that the “use of electrocution as a
means of execution is inherently cruel and inhumane.”

293a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

13

Miller v. State, 913 So.2d 1148 (2004)

This Court has consistently rejected broad general
allegations that Alabama's capital-punishment statute is

constitutional challenge to the method of execution in this
State moot.

Clark v. State, 896 So.2d
unconstitutional. See, e.g.,
584, 597 (Ala.Crim.App.2000) (opinion on return to
Williams v. State, 627 So.2d 985, 993
remand);
(Ala.Crim.App.1991), aff'd, 627 So.2d 999 (Ala.1993).

“There is an abundance of caselaw ...
that holds that the death penalty
is not per se cruel and unusual
punishment. Neither is electrocution,
as a means of capital punishment,
cruel and unusual punishment, in
violation of the Eighth Amendment.
Williams v. State, 556 So.2d 737,
741 (Ala.Cr.App.1986), aff'd in part,
rev'd in part on other grounds,

556

So.2d 744 (Ala.1987);
*1164
Proffitt v. Florida, 428 U.S. 242, 96
S.Ct. 2960, 49 L.Ed.2d 913 (1976);
Furman v. Georgia, 408 U.S. 238,
92 S.Ct. 2726, 33 L.Ed.2d 346 (1972);
Zant v. Stephens, 462 U.S. 862, 103
S.Ct. 2733, 77 L.Ed.2d 235 (1983);
Boykin v. State, 281 Ala. 659, 207
So.2d 412 (1968), reversed on other
grounds,
Boykin v. Alabama, 395
U.S. 238, 89 S.Ct. 1709, 23 L.Ed.2d
274 (1969).”

Scott v. State, 728 So.2d 164, 171 (Ala.Crim.App.1997), aff'd,
728 So.2d 172 (Ala.1998), cert. denied, 528 U.S. 831, 120
S.Ct. 87, 145 L.Ed.2d 74 (1999).
[19] Miller offers no novel arguments in support of his
contention. Accordingly, we rely on our previous holdings
and reject his contention that the manner of executionelectrocution-used by the State of Alabama constitutes cruel
and unusual punishment. We further note the enactment
by the Legislature of Act No. 2002-492, Ala. Acts 2002,
which provides for lethal injection as an alternate means
of execution. Act No. 2002-492 became effective July 1,
2002. The passage of this Act effectively rendered Miller's

IV.
During the penalty phase of Miller's trial, the State offered
testimony by Lee Holdbrooks's father, Scott Yancy's father,
and Terry Jarvis's sister, concerning each of the three victims.
Each witness offered a brief statement regarding how the
victims' deaths had affected the family members left behind.
No objection was made to this testimony.
[20] Miller now argues that the trial court erred in admitting
“victim impact” testimony because, he says, the sole purpose
of this evidence was to inflame the passions of the jury during
the penalty phase of his trial. Specifically, he argues that §
13A-5-45(c), Ala.Code 1975, mandates that to be relevant
and admissible during the penalty phase of trial victim-impact
testimony must relate to one of the aggravating circumstances
set out in § 13A-5-49, Ala.Code 1975.
Miller's contention is incorrect. The United States Supreme
Court has specifically recognized the admissibility of victimimpact testimony to offer the jury a “quick glimpse” of
Payne
the uniqueness of the life taken by the defendant.
v. Tennessee, 501 U.S. 808, 823, 830-31, 111 S.Ct. 2597,
115 L.Ed.2d 720 (1991). Moreover, this Court has followed
the holding in Payne v. Tennessee on numerous occasions,
recognizing the admissibility of evidence of this kind as
relevant to the determination of the appropriate punishment
to be imposed. See, e.g., Taylor v. State, 808 So.2d 1148, 1167
(Ala.Crim.App.2000), aff'd,
808 So.2d 1215 (Ala.2001),
cert. denied, 534 U.S. 1086, 122 S.Ct. 824, 151 L.Ed.2d 705
(2002).
“ ‘If a State chooses to permit the admission of victim
impact evidence and prosecutorial argument on that
subject, the Eighth Amendment erects no per se bar. A State
may legitimately conclude that evidence about the victim
and about the impact of murder on the victim's family is
relevant to the jury's decision as to whether or not the death
penalty should be imposed. There is no reason to treat
such evidence differently than other relevant evidence is
treated.’ ”

294a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

14

Miller v. State, 913 So.2d 1148 (2004)

Boyd v. State, 746 So.2d 364, 383 (Ala.Crim.App.1999)
(quoting

Payne v. Tennessee, 501 U.S. at 827, 111 S.Ct.

2597). See also

McNair v. State, 653 So.2d 320, 331

(Ala.Crim.App.1992), aff'd,
653 So.2d 353 (Ala.1994)
(“[A] prosecutor may present and argue evidence relating to
the victim and the impact of the victim's death on the victim's
family in the penalty phase of a capital trial.”).
*1165 Here, the glimpse into the lives taken by Miller was
properly presented to the jury by way of brief testimony
offered by the three family members. (R. 1345-51.) This
testimony was relevant to determining the appropriate
punishment. See Ex parte
Loggins, 771 So.2d 1093, 1103
(Ala.2000) (“ ‘evidence is relevant if it has any probative
value, however slight, upon a matter at issue in the case’ ”).
Accordingly, no basis for reversal exists as to this claim.

Miller argues that the trial court erred in finding that
the offense was especially heinous, atrocious, or cruel
when compared to other capital offenses. Specifically,
Miller challenges the constitutionality of this aggravating
circumstance, as well as the evidence upon which the court
based its finding that this aggravating circumstance was
applicable to this case. (Appellant's brief, parts II and V.)
This Court has addressed the constitutionality of the
“especially heinous, atrocious, or cruel” aggravating
circumstance on numerous occasions. We have consistently
upheld the constitutionality of this aggravating circumstance:

“To the extent that Ingram is claiming
that the ‘especially heinous, atrocious
or cruel’ statutory aggravating
circumstance found in § 13A-5-49(8)[,
Ala.Code 1975], is unconstitutionally
vague and overbroad on its face,
that contention is without merit.
Freeman v. State, 776
160 (Ala.Crim.App.1999);

Bui v. State, 551 So.2d 1094
(Ala.Crim.App.1988), aff'd,

(1991); Hallford v. State, 548 So.2d
526 (Ala.Crim.App.1988), aff'd, 548
So.2d 547 (Ala.), cert. denied, 493
U.S. 945, 110 S.Ct. 354, 107 L.Ed.2d
342 (1989).”

Ingram
v.
State,
779
So.2d
1225,
1277
(Ala.Crim.App.1999), aff'd, 779 So.2d 1283 (Ala.2000).
Duke
See also
(Ala.Crim.App.2002).

v.

State,

889

So.2d

1,

36

[21] When considering whether a particular capital offense
was “especially heinous, atrocious, or cruel,” this Court
adheres to the standard set out in Ex parte Kyzer, 399 So.2d
330, 334 (Ala.1981), namely, that the particular offense must
be one of those “conscienceless or pitiless homicides which
are unnecessarily torturous to the victim.”

V.

See
So.2d

So.2d 1125 (Ala.1989), judgment
vacated on other grounds, 499 U.S.
971, 111 S.Ct. 1613, 113 L.Ed.2d 712

[22] With regard to the application of the aggravating
circumstance that the murders were especially heinous,
atrocious, or cruel, the circuit court made the following
findings of fact on remand:
“On the morning of August 5, 1999, Defendant shot and
killed three men, namely, Christopher Yancy (‘Yancy’),
age 28 years; Lee Holdbrooks (‘Holdbrooks'), age 32; and
Terry Jarvis (‘Jarvis'), age 39 years. Yancy and Holdbrooks
were both shot at one location and thereafter Jarvis was
shot at another location. Each of those victims sustained
multiple wounds.
“Yancy suffered three wounds to his body. It appears the
first shot entered his leg and traveled through his groin and
into his spine, paralyzing him. He was unable to move,
unable to defend himself and was trying to hide from
Defendant under a desk. Yancy had a cell phone an inch or
two from his hand, but because of his paralysis was unable
to reach it and call for help. Yancy had to have been afraid
his life was about to be taken. Moments elapsed. Defendant
appeared to have then stooped under the desk and have
made eye contact with Yancy before shooting him twice
more causing his death.

551

295a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

15

Miller v. State, 913 So.2d 1148 (2004)

*1166 “Holdbrooks suffered six wounds to his body.
Defendant shot Holdbrooks several times. Holdbrooks
crawled down a hallway for about twenty-five feet.
Holdbrooks was uncertain whether he would live or die as
he crawled down the hallway and quite possibly his life was
flashing by in his mind. Defendant took his gun and within
two inches of Holdbrooks' head, pulled the trigger for the
sixth and final time, the bullet entering Holdbrooks' head
causing him to die in a pool of blood.
“Jarvis was shot five times, the last shot being no more
than 46 inches away from his body. Before Jarvis was shot,
Defendant had pointed a gun at him in the presence of a
witness. Defendant had accused Jarvis of spreading rumors
about him which Jarvis had denied. Defendant shot Jarvis
four times in the chest. Defendant allowed the witness to
leave. No one knows at that point what went through Jarvis'
mind. Having denied he spread any rumors, he must have
wondered why Defendant had not believed him and as the
witness was allowed to leave that maybe there would be
no more shooting and his life would be spared. Defendant
then shot Jarvis through his heart ending Jarvis' life.
“It appears all three of Defendant's victims suffered for
a while not only physically, but psychologically. In each
instance, there appeared to have been hope for life while
they were hurting, only to have their fate sealed by a final
shot, execution style.
“Based upon the facts presented at this trial, these murders
were calculated, premeditated and callous, with utter
disregard of human life. The taking of these lives was
among the worst in the memory of this Court and was well
beyond the level of being especially heinous, atrocious or
cruel.”

[728 So.2d 1126 (Ala.1998)], citing, Lindsey v. Thigpen,
875 F.2d 1509 (11th Cir.1989). The Alabama appellate
courts have considered the infliction of psychological
torture as especially indicative that the offense was
‘especially heinous, atrocious or cruel.’ Thus, the mental
suffering where a victim witnesses the murder of another
and then realizes that soon he or she will also be killed,
has been found to be sufficient to support a finding of this
Norris v. State, 793 So.2d
aggravating circumstance.
847, 854 (Ala.Cr.App.1999). As the trial judge pointed out
in his sentencing order, two of the victims here witnessed
Taylor kill another victim. Both tried to run and hide,
but were captured. Both begged and pleaded for their
lives; one offering money and property, the other pleading
for the sake of her children. Both were deliberately and
methodically executed with a gunshot to the head as
they pleaded for their lives. These murders were not
accomplished in a rapid-fire manner; there was sufficient
time between the three murders for the next victim to be
placed in significant fear for his or her life, and the evidence
*1167 is clear that each was well aware of what was about
to happen.”
808 So.2d at 1169.
Here, just as in Taylor, there was sufficient time between the
initial gunshot wounds and the final, fatal shots for each of the
victims to realize his fate. Given the circumstances, the trial
court properly concluded that the murder of the three victims
was “especially heinous, atrocious, or cruel.” See Ex parte
Clark, 728 So.2d 1126, 1140 (Ala.1998).

VI.

In Taylor v. State, 808 So.2d 1148 (Ala.Crim.App.2000), aff'd,

After this case was argued and submitted, the United States

808 So.2d 1215 (Ala.2001), cert. denied, 534 U.S. 1086,
122 S.Ct. 824, 151 L.Ed.2d 705 (2002), we addressed the
application of this aggravating circumstance. We find the
following language to be particularly relevant to this case:

Supreme Court released

“The Alabama appellate courts' interpretation of
‘especially heinous, atrocious, or cruel’ has passed
muster under the Eighth Amendment because those
courts have consistently defined the term to include only
‘those conscienceless or pitiless homicides which are
unnecessarily torturous to the victim.’ Ex parte

Atkins v. Virginia, 536 U.S. 304,

122 S.Ct. 2242, 153 L.Ed.2d 335 (2002), and
Ring v.
Arizona, 536 U.S. 584, 122 S.Ct. 2428, 153 L.Ed.2d 556
(2002)-two cases that dramatically impacted death-penalty
cases throughout the United States. We requested that Miller
and the attorney general brief the issue of the applicability
of Ring to Miller's conviction and death sentence. 1 We now
address those arguments. 2

Clark,

296a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

16

Miller v. State, 913 So.2d 1148 (2004)

In Ring, the United States Supreme Court applied its earlier
holding in
Apprendi v. New Jersey, 530 U.S. 466, 120
S.Ct. 2348, 147 L.Ed.2d 435 (2000), to death-penalty cases
and held that “[c]apital defendants ... are entitled to a jury
determination on any fact on which the legislature conditions
an increase in their maximum punishment.”
at 589, 122 S.Ct. 2428.

Ring, 536 U.S.

Miller argues that imposition of the death penalty in
Alabama requires fact-finding by a jury relating to both the
existence of aggravating circumstances and the weighing
of the aggravating circumstances against the mitigating
circumstances. Because only the trial judge made these
findings and the jury was not given the opportunity to return a
verdict on any of the aggravating circumstances in his case, he
argues that the Supreme Court's holding in Ring renders him
ineligible for the death penalty. Miller also argues that because
the jury was instructed that its verdict and findings were
advisory, no reliable finding as to aggravating circumstances
could have been made by the jury. Miller further argues that
the indictment against him is void because, he says, it failed
to specify the aggravating circumstances that supported the
capital offense. Finally, Miller argues that both Alabama and
federal law condemn the imposition of the death penalty by a
judge, rather than by a jury.
The State counters by arguing that Miller's death sentence
complies with Ring because the jury found at the guilt phase
that Miller had committed a capital offense, thus making
him eligible for the death sentence. Accordingly, the circuit
court had the discretion under Ring to impose either the
death sentence or a lesser sentence, with or without the jury's
approval.
In several recent decisions, both this Court and the Alabama
Supreme Court have agreed with the State's rationale that
Ring did not invalidate Alabama's law, *1168 which vests
the ultimate sentence determination in the hands of the
trial judge and not a jury. See, e.g., Ex parte Hodges,
856 So.2d 936 (Ala.2003); Ex parte Waldrop, 859 So.2d
1181 (Ala.2002);
Duke v. State, 889 So.2d 1, opinion
on return to remand, 889 So.2d 40 (Ala.Crim.App.2002);
Turner v. State, [Ms. CR-99-1568, November 22, 2002] --So.2d ---- (Ala.Crim.App.2002);
Stallworth v. State, 868
So.2d 1128, 1178 (Ala.Crim.App.2001) (opinion on return to
second remand). In each of these cases, we recognized the
narrowness of the holding in Ring, noting that “[t]he Ring
Court held that any aggravating circumstance that increased

a sentence to death must be proved to a jury beyond a
reasonable doubt”; however, we noted that the Ring Court
“did not reach the question whether judicial sentencing or
judicial override was constitutional.”
Stallworth v. State,
868 So.2d at 1183 (opinion on return to second remand).
Indeed, we quote the following language from a footnote in
Ring:
“Ring's claim is tightly delineated: He contends only
that the Sixth Amendment required jury findings on
the aggravating circumstances asserted against him. No
aggravating circumstance related to past convictions in his
case; Ring therefore does not challenge
AlmendarezTorres v. United States, 523 U.S. 224 (1998), which
held that the fact of prior conviction may be found by
the judge even if it increases the statutory maximum
sentence. He makes no Sixth Amendment claim with
Apprendi
respect to mitigating circumstances. See
v. New Jersey, 530 U.S. 466, 490-491, n. 16 (2000)
(noting ‘the distinction the Court has often recognized
between facts in aggravation of punishment and facts in
mitigation’ (citation omitted [in Ring] )). Nor does he
argue that the Sixth Amendment required the jury to make
the ultimate determination whether to impose the death
penalty. See
Proffitt v. Florida, 428 U.S. 242, 252
(1976) (plurality opinion) (‘[I]t has never [been] suggested
that jury sentencing is constitutionally required.’). He
does not question the Arizona Supreme Court's authority
to reweigh the aggravating and mitigating circumstances
after that court struck one aggravator. See
Clemons
v. Mississippi, 494 U.S. 738, 745 (1990). Finally, Ring
does not contend that his indictment was constitutionally
defective. See
Apprendi, 530 U.S. at 477, n. 3
(Fourteenth Amendment ‘has not ... been construed to
include the Fifth Amendment right to “presentment or
indictment of a Grand Jury” ’).”
536 U.S. at 597 n. 4, 122 S.Ct. 2428 (emphasis added).
[23] Here, the jury in the guilt phase entered a verdict finding
Miller guilty of capital murder. Miller's case, however, differs
from that of Waldrop, Hodges, Turner, and Stallworth because
at the time Miller committed these offenses, the fact that
the defendant “intentionally caused the death of two or
more persons by one act or pursuant to one scheme or
course of conduct” did not, alone, constitute an aggravating
circumstance. 3 However, this does not require that Miller's

297a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

17

Miller v. State, 913 So.2d 1148 (2004)

death sentence be set aside. The State argues that once
a jury returns a verdict finding the defendant guilty of
capital murder, that defendant becomes “death-eligible.” It
is unnecessary to address the State's argument because the
jury's 10-2 recommendation *1169 of death during the
sentencing phase indicated that it must have found the
existence of the aggravating circumstance that the offense
was “especially heinous, atrocious, or cruel compared to other
capital offenses.” § 13A-5-49(8), Ala.Code 1975. This was
the only aggravating circumstance the court instructed the
jury on. Indeed, during the court's penalty-phase instructions,
the court clearly instructed the jury that it could not proceed
to a vote on whether to impose the death penalty unless it
first found beyond a reasonable doubt the existence of at
least one aggravating circumstance. (R. 1433-35.) Thus, the
jury's 10-2 vote recommending death established that the jury
unanimously found the existence of the “especially heinous,
atrocious, or cruel” aggravating circumstance, 4 giving the
trial judge the discretion to sentence Miller to death. See
§ 13A-5-46(e)(1)-(3), Ala.Code 1975; see also Ex parte
Slaton, 680 So.2d 909, 927 (Ala.1996), cert. denied,
519 U.S. 1079, 117 S.Ct. 742, 136 L.Ed.2d 680 (1997);
Duke v. State, 889 So.2d 1, opinion on return to remand,
889 So.2d 40 (Ala.Crim.App.2002).
Based on the foregoing, we conclude that Miller's claims
regarding Ring v. Arizona are not supported by Alabama law.

VII.
[24] As required by § 13A-5-53, Ala.Code 1975, we will
now address the propriety of Miller's conviction and sentence
of death.
Miller was indicted and convicted of murdering two or more
people “by one act or pursuant to one scheme or course of
conduct.” § 13A-5-40(a)(10), Ala.Code 1975. The jury by a
vote of 10-2 recommended that Miller be sentenced to death.
The record reflects that Miller's sentence was not imposed
under the influence of passion, prejudice, or any other
arbitrary factor. See

§ 13A-5-53(b)(1), Ala.Code 1975.

The court found one aggravating circumstance-that the
murders were especially heinous, atrocious, or cruel when
compared to other capital offenses, see § 13A-5-49(8),

Ala.Code 1975. The trial court found the existence of three
mitigating circumstances: (1) that Miller had no significant
history of prior criminal activity, see § 13A-5-51(1), Ala.Code
1975; (2) that Miller committed the offense while he was
under the influence of extreme mental or emotional distress,
see § 13A-5-51(2), Ala.Code 1975; and (3) that the capacity
of Miller to appreciate the criminality of his conduct or
to conform his conduct to the requirements of law was
substantially impaired, see § 13A-5-51(6), Ala.Code 1975.
The trial court found that the aggravating circumstance
outweighed the mitigating circumstances and mandated that
Miller be sentenced to death.
With regard to the application of the aggravating
circumstance that the murders were especially heinous,
atrocious, or cruel, the trial court made detailed findings, as
set out in Part V of this opinion. These findings are supported
by the evidence.
Moreover, the fact that the circuit court found the existence
of only one aggravating circumstance and three mitigating
circumstances does not indicate that the court's decision
to sentence Miller to death *1170 was erroneous. In
Bush v. State, 695 So.2d 70 (Ala.Crim.App.1995), aff'd,
695 So.2d 138 (Ala.), cert. denied, 522 U.S. 969, 118 S.Ct.
418, 139 L.Ed.2d 320 (1997), this Court stated:
“ ‘[T]he sentencing authority in Alabama, the trial
judge, has unlimited discretion to consider any perceived
mitigating circumstances, and he can assign appropriate
weight to particular mitigating circumstances. The
United States Constitution does not require that
specific weights be assigned to different aggravating
and mitigating circumstances.
Murry v. State, 455
So.2d 53 (Ala.Cr.App.1983), rev'd on other grounds,
455 So.2d 72 (Ala.1984). Therefore, the trial
judge is free to consider each case individually and
determine whether a particular aggravating circumstance
outweighs the mitigating circumstances or vice versa.
Moore v. Balkcom, 716 F.2d 1511 (11th Cir.1983). The
determination of whether the aggravating circumstances
outweigh the mitigating circumstances is not a numerical
one, but instead involves the gravity of the aggravation
as compared to the mitigation.’
“Clisby v. State, 456 So.2d 99, 102 (Ala.Cr.App.1983).”

298a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

18

Miller v. State, 913 So.2d 1148 (2004)

695 So.2d at 94. As the Alabama Supreme Court stated
in Ex parte
Cook, 369 So.2d 1251, 1257 (Ala.1978): “We
can readily envision situations where several aggravating
circumstances may not be sufficient to outweigh only one
mitigating circumstance and, on the other hand, where
numerous mitigating circumstances may be present but
opposed to one aggravating circumstance so outrageous as to
justify the death penalty.” Accord Carr v. State, 640 So.2d
1064, 1074-75 (Ala.Crim.App.1994); Magwood v. State, 548
548 So.2d 516
So.2d 512, 514 (Ala.Crim.App.), aff'd,
(Ala.1988), cert. denied, 493 U.S. 923, 110 S.Ct. 291, 107
L.Ed.2d 271 (1989).
We find this to be the case here. The revised sentencing
order indicates that the trial court considered the mitigating
evidence Miller offered but determined that that mitigation
was outweighed by the “heinous, atrocious, and cruel”
method in which he killed three current or former coworkers
simply because he believed that they were spreading rumors
about him. The sentencing order shows that the court
weighed the aggravating circumstance and the mitigating
circumstances and correctly sentenced Miller to death. Its
decision is supported by the record, and we agree with its
findings.
Section 13A-5-53(b)(2), Ala.Code 1975, requires us to
weigh the aggravating circumstances and the mitigating
circumstances independently to determine the propriety of
Miller's death sentence. After independently weighing the
aggravating circumstances and the mitigating circumstances,
we find that the death sentence is appropriate in this case.
As required by
§ 13A-5-53(b)(3), Ala.Code 1975,
we must determine whether Miller's death sentence was

disproportionate or excessive when compared to the penalties
imposed in similar cases. Miller killed three people pursuant
to a common scheme or plan. Similar crimes have been
punished by death on numerous occasions. See, e.g.,
Duke v. State, 889 So.2d 1 (Ala.Crim.App.2002),
opinion on return to remand, 889 So.2d 40;

Samra v.

Taylor v. State, 666 So.2d
State, 771 So.2d at 1121;
36 (Ala.Crim.App.), opinion on return to remand, 666
So.2d 71 (Ala.Crim.App.1994), aff'd,
666 So.2d 73
(Ala.1995), cert. denied, 516 U.S. 1120, 116 S.Ct. 928,
133 L.Ed.2d 856 (1996); Holladay v. State, 549 So.2d 122
(Ala.Crim.App.1988), aff'd,
549 So.2d 135 (Ala.), cert.
denied, *1171 493 U.S. 1012, 110 S.Ct. 575, 107 L.Ed.2d
569 (1989); Siebert v. State, 555 So.2d 772 (Ala.Crim.App.),
aff'd, 555 So.2d 780 (Ala.1989), cert. denied, 497 U.S. 1032,
110 S.Ct. 3297, 111 L.Ed.2d 806 (1990).
Finally, as required by Rule 45A, Ala.R.App.P., we have
searched the record for any error that may have adversely
affected Miller's substantial rights and have found none.
Miller's conviction and death sentence for the murders of Lee
Michael Holdbrooks, Christopher S. Yancy, and Terry Lee
Jarvis are due to be, and they are, hereby affirmed.
AFFIRMED.

McMILLAN, P.J., and COBB, BASCHAB, and SHAW, JJ.,
concur.
All Citations
913 So.2d 1148

Footnotes
1
1

We note that these two reports were referenced at various stages of the trial proceedings; however, the circuit
clerk neglected to forward the reports to this Court as part of the certified record on appeal.
Atkins addresses the rights of mentally retarded persons sentenced to death. Nothing in the record suggests
that Miller was mentally retarded. Thus, because Atkins had no application to this case, we did not request
that the parties address the applicability of Atkins.

299a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

19

Miller v. State, 913 So.2d 1148 (2004)

2

3
4

Because Rule 45A, Ala.R.App.P., requires this Court to search the record for any plain error and because
Miller's case was not final when Ring was released, we have applied Ring to this appeal. See
Griffith v.
Kentucky, 479 U.S. 314, 107 S.Ct. 708, 93 L.Ed.2d 649 (1987).
Section 13A-5-49, Ala.Code 1975, was amended effective September 1, 1999, to make this an aggravating
circumstance. See § 13A-5-49(9), Ala.Code 1975.
We note that Ring requires only that the jury unanimously find the existence of an aggravating circumstance
in order to make the defendant death-eligible. Alabama law does not require that the jury's advisory verdict be
§ 13A-5-46(f), Ala.Code 1975. Nothing in Ring supports
unanimous before it can recommend death. See
Miller's claim that the jury's advisory verdict be unanimous.

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

300a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

20

USCA11 Case: 18-11630

Date Filed: 11/10/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-11630-P
________________________
ALAN EUGENE MILLER,
Petitioner - Appellant,
versus
COMMISSIONER, ALABAMA DEPARTMENT OF CORRECTIONS,
Respondent - Appellee.
________________________
Appeal from the United States District Court
for the Northern District of Alabama
________________________
ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
BEFORE: JORDAN, ROSENBAUM, and LUCK, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)

ORD-42

301a

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
ALAN EUGENE MILLER,
Petitioner,
Case No. 2:13-cv-00154-KOB

go

KIM THOMAS, Commissioner
of the Alabama Department of
Corrections,
Respondent.

VOLUME 8
State Court- Trial Transcript
LUTHER STRANGE
ATTORNEY GENERAL
AND

THOMAS R. GOVAN, JR.
ASSISTANT ATTORNEY GENERAL
ADDRESS OF COUNSEL:

Office of the Attorney General
Capital Litigation Division
501 Washington Avenue
Montgomery, AL 36130
(334) 242-7455

302a

1314

hard to tell how Lee Holdbrooks died because he
is laying in a pool of blood and he does have a
3

board in the top of the head, but we felt that

4

it was important that you know that Lee wasn’t

5

dead when he received that last shot,

6

was fighting for life when he took that last

7

shot.

8

that testimony and wants to be sarcastic about

9

it, we felt it was important that you hear

that he~

So even though Mr. Johnson doesn’t like

i0

that, because it’s important to the elements of

ii

this case.
But I wanted to present that testimony to

12

you during this phase because I wanted it to be
fresh in your mind.
15

died.
Mr. Owens, who’s got a lot more experience

16
17

It’s important how Lee

than I do,

I haven’t been in this very long,

pointed out that y’all will never forget that.
19

testimony.

2O

that regard.

So he made the right decision in

21

As it should be,

the state has the burden

22

of proof in this proceeding.

23

over.

This thing isn’t

We’ve got to prove beyond a reasonable

doubt during this phase of the trial the
25

existence of an aggravating circumstance.
303a

And

1315

0

1

we’re only submitting one for your

2

consideration.

3

books and it says this offense is especially

4

heinous,

atrocious and cruel.

And that’s our burden.

5

You have to find

6

the existence of an aggravating factor in order

7

to even consider the imposition or the

8

recommendation of the death penalty in this

9

case.

If you don’t find that to be a heinous,

10

atrocious and cruel, you automatically have to

ii

find for life without parole.

12

0

That is one that is on the law

We have proven already that this offense

13

was heinous,

14

going to bring anyone in to tell you any more

15

about it.

16

seen everything we have got to present.

17

atrocious and cruel, we’re not

You’ve seen the evidence and you’ve

Now, we will actually present a couple of

18

witnesses.

We have asked one member from each

19

victims’

20

question and it’s the only question that the

21

law allows us to ask in this phase and that is

22

we’re going to ask them to come up and stand

23

before you and tell you how the murder of their

24

loved one has affected the life of them and

25

their family.

family to come in and answer one

304a

1411

0

1

orcruel crime as compared to other capital

2

murders.
There again,

3
4

talk about the atrocity of crimes or the

5

heinousness of the crime.

6

0

it seems obscene to me to

I can’t imagine any crime where a life is

7

taken that wouldn’t be cruel.

I can’t imagine

8

any crime where victims don’t suffer and their

9

families don’t suffer.

But what you’re dealing

i0

with here now is not whether a crime in and of

ii

itself is atrocious, heinous and cruel,

12

whether this particular crime is extremely

13

heinous, atrocious or cruel as compared to

14

other capital murders.

it’s

So already you’ve got a relative term

15
16

there.

If you find unanimously that yes,

17

one is,

then you consider mitigating

18

circumstances.

19

law.

2O

There is a third one,

this

Some of them are set out in the

I have read to Dr.

Scott two of them.

the judge will charge you

that there are three mitigating circumstances

0

22

that have been presented to you for your

23

consideration.

24

least one has been agreed upon and that is that

25

Alan Miller has no prior criminal history.

One of them has been -- at

305a

The

1412

0

1

law considers that a mitigating circumstance.

2

Another one has to do -- I will have to

3

read them because I just can’t recall them.

4

Second one if it was committed while the

5

defendant was under the influence of extreme

6

mental or emotional disturbance; that is a

7

mitigating circumstance.
The rational I don’t need to sit here and

8
9

0

Greatest injustice of all is the

i0

equal treatment of unequals.

ii

you are dealing with an unequal here, don’t

12

treat them equally,

13

me.

14

If you think that

the same way you would to

The third one of the statutory mitigating

15

circumstances is whether capacity of the

16

defendant to appreciate the criminality of his

17

conduct or to conform his conduct to

18

requirements of law which was substantially

19

impaired.

2o

0

tell you.

For reasons that Dr. Scott stated to you

21

and he can present those to you much more

22

eloquently than I can and did.

23

that at this point I suggest to you are

24

unrebutted.

25

Now,

Those are three

it’s not a mathematical test anyway.
306a

1427

0

1

Thank you.

2

THE COURT:

time it’s my duty to relate to you the

4

instructions and the recommendation of the

5

sentencing.
I’ll state to you at the outset that your

7

recommendation will take the form that you do

8

recommend to the Court and that is one form

9

that you recommend that the Court sentence the

i0

defendant to death by electrocution.

Ii

The second one or the other one would be

12

that you recommend to the Court that the Court

13

sentence this man,

14

without parole or without the possibility of

15

parole for the remainder of his natural life.

16

These are the two choices that you have

17
18

0

at this

3

6

0

Members of the jury,

the defendant,

to life

in the event that you choose to do so.
At this time I will instruct you or

19

charge you as to the law.

20

want to remind you of the instructions that I

21

gave you previously during the guilt stage or

22

guilt phase of the trial,

23

I’ve already defined for you.

24
25

In charging you,

the basic laws that

The terms of reasonable doubt,

of course

evidence, where the evidence comes from,
307a

I

expert

1430

1

A mitigating circumstance is any

2

circumstance that indicates or tends to

3

indicate that the defendant should be sentenced

4

to life imprisonment without the possibility of

5

parole instead of death.

6

The issue at this sentence hearing

7

concerns circumstances of aggravation and

8

circumstance of mitigation.

9

consider and weigh against each other in

You should

10

deciding what the proper punishment in this

ii

case is.

12

In making a recommendation concerning

13

what punishment should be, you must determine

14

whether an aggravating circumstance exists; and

15

if so, you must determine whether any

16

mitigating circumstances exist.

17

In making your determination concerning

18

the existence of aggravating and mitigating

19

circumstances, you should consider the evidence

2o

presented at this sentence hearing.

21

also consider any evidence that was presented

22

during the guilt phase of the trial with

23

regards to the existence of any aggravating

24

circumstance or mitigating circumstance.

25

You should

The law of this state provides a list of
308a

1431

0

0

1

aggravating circumstances which may be

2

considered by a jury in recommending

3

punishment,

4

reasonable doubt from the evidence that one

5

such aggravating circumstance exists in this

6

case.

if you are convinced beyond a

7

The same definition that I gave you

8

earlier concerning reasonable doubt now applies

9

to this matter.

If the jury is not convinced

I0

to a reasonable doubt based upon the evidence

Ii

that,

12

exists,

13

defendant’s punishment be life imprisonment

14

without parole regardless of whether there are

15

any mitigating circumstances in this case.

one,

that an aggravating circumstance

then the jury must recommend the

Of the list of aggravating circumstances

16
17

provided by law,

18

you may consider in this case if you are

19

convinced beyond a reasonable doubt based upon

20

the evidence that such circumstance does

21

exist.

22

there is a circumstance which

The fact that I instruct you on such

23

aggravating circumstance or define it for you

24

does not mean that such aggravating

25

circumstance exists.
309a

Whether any aggravating

1433

0

1

the crime apart from the norm of capital

2

offenses.
For a capital offense to be especially

3

0

0

4

cruel,

5

crime which is unnecessarily tortuous to the

6

victim.

7

atrocious and cruel to some extent.

8

intended to be covered by this aggravating

9

circumstance is only those cases in which the

it must be a consciousness or pitiless

All capital offenses are heinous,
What is

I0

degree of heinous,

Ii

exceeds that which will always exist when a

12

capital offense is committed.

13

atrociousness or cruelty

Now, as I stated to you before,

the burden

14

of proof is on the State of Alabama to convince

15

each of you beyond a reasonable doubt as to the

16

existence of any aggravating circumstance

17

considered by you in determining what

18

punishment is to be recommended in this case.

19

This means that before you can even consider

2o

recommending the defendant’s punishment be

21

death,

22

convinced beyond a reasonable doubt based upon

23

the evidence that an aggravating circumstance

24

exists.

25

each and every one of you must be

In deciding whether the state has proven
310a

1439

1

0

2

aggravating and mitigating circumstances in a

3

case and in determining what to recommend as

4

punishment in a case, you must avoid any

5

influence of passion, prejudice or any other

6

arbitrary factor.

7

0

Your deliberations and verdict should be

8

based on what you’ve seen and heard and the law

9

that I’ve instructed you on.

i0

0

In reaching your findings concerning the

There’s no room for the influence of

II

passion, prejudice or any other arbitrary

12

factors in this case.

13

While it’s your duty to follow the

14

instructions which the Court has given to you,

15

no statement, question or ruling or remark or

16

any other expression that I made in the course

17

of this trial either during the guilt phase or

18

during the sentencing hearing is intended to

19

indicate any opinion that I might have as to

20

what the facts are or what the punishment

21

should be.

22

determine what the facts are and recommend the

23

punishment in this case.

24
25

It is your sole responsibility to

In doing so, you should not be influenced
in any way by what you imagine to be my views
311a

1443
In addition to the recommendation of either
2

death or life without parole, your verdict

3

forms contain the numerical vote,

4

the name of the person voting.
Now,

5

though not

if after a full and fair

6

consideration in this case you are convinced

7

beyond a reasonable doubt that at least one
aggravating circumstance does exist, and the

9

aggravating circumstance outweighs the

i0

mitigating circumstance or circumstances, your

ii

verdict would be as follows, of course, by this

12

form in the event you desire to return a

13

verdict of death.

14

defendant, Alan Eugene Miller, be punished by

15

death,

16

one verdict form.

17

We, the jury,

the vote is as follows.

find the

That will be

And I have that right here.

And you see up here on the form it has

18

blank spots, votes for life imprisonment

19

without parole and votes for death and you fill
the blanks in there, but not the names.

It’s

21

not my business which way you vote or who votes

22

which way.

23

foreperson and dated.

24
25

This would be signed by the

However,

if after a fair and full

consideration of all the evidence in this case
312a

1444

0

0

1

you determine that the mitigating circumstances

2

outweigh any aggravating circumstance that

3

exists or that no aggravating circumstance

4

exists or that you are not convinced beyond a

5

reasonable doubt that at least one aggravating

6

circumstance does in fact exist, your verdict

7

would be to recommend life imprisonment without

8

parole.

9

other verdict form that I have right here.
the jury,

And

I0

it would be that we,

ii

defendant, Alan Eugene Miller, be punished by

12

life imprisonment without parole and the vote

13

would be as follows.

14

find the

Again, you know, you put how many votes in

15

there for life imprisonment without parole and

16

then blank votes for death signed by the

17

foreperson and dated.

18

0

And that would be pursuant to this

Remember in each of the instances

19

regarding returning the verdict you must follow

20

my numerical count.

21

return both verdicts.

22

is what you did in the earlier part,

23

phase, you select one of .your numbers as the

24

foreperson and that foreperson will again

25

moderate the discussions and vote whenever it’s
313a

And of course you can’t
What you do in this case
the guilt

1448
1

JUROR DONNA JOHNSON:

2

THE COURT:

3

5

THE COURT:

O

Of course,

Yes,

sir,

it does.

did you sign that

verdict form?

7

JUROR DONNA JOHNSON:

8

THE COURT:

i0

it does.

correctly recommend the vote in this case?
JUROR DONNA JOHNSON:

9

sir,

Does the verdict form

4

6

Yes,

Yes,

sir,

I did.

Would you please read the

verdict form out in open court at this time.
JUROR DONNA JOHNSON:

We,

the jury,

find

Ii

the defendant, Alan Eugene Miller,

be punished

12

by death.

13

for life imprisonment without parole; ten votes

14

for death.

The vote is as follows: two votes

15

THE COURT:

16

to the bailiff.

17

at this,

18

was left blank;

If you would please hand that
I understand -- and I looked

that the other verdict form was not -is that correct?

19

JUROR DONNA JOHNSON:

20

THE COURT:

Yes,

sir.

What I need to do is I’m not

21

going to ask you how you voted,

22

to ask you at this time individually if it

23

reflects your vote.

I will begin over here at

the top and begin with you.
25

it reflect your vote?
314a

I’m just going

Mr. Brooks,

does

1449

1

JUROR WILLIAM BROOKS:

2

THE COURT:

Ms. Mire,

Yes,

sir.

does it reflect your

vote?
4

JUROR GAIL MIRE:

5

THE COURT:

6

JUROR MALAH WILLIAMSON:
THE COURT:

Ii

THE COURT:

14

THE COURT:

Yes.

Mr. Gersh, does it reflect

your vote?

16

JUROR BENJAMIN GERSH:

17

THE COURT:

Mr. Hines,

JUROR FLEETWOOD HINES:

20

THE COURT:

does it reflect

Yes .

Ms. Statham,

does it reflect

your vote?

22

JUROR BETTY STATHAM:

23

THE COURT:

25

Yes.

your vote?

19

24

sir.

vote?
JUROR JACKIE WOOD:

21

0

Yes,

MS. Wood, does it reflect your

13

18

sir.

your vote?
MR. GREGORY JOHNSON:

15

Yes,

Mr. Johnson,~ does it reflect

10

12

0

Ms. Williamson, does it

reflect your vote?

7

9

Yes.

Yes.

Mr. McGowin,

does it reflect

your vote?
JUROR JAMES MCGOWIN:
315a

Yes.

1450
THE COURT:

1

Mr. Brown,

does it reflect

your vote?
3

JUROR BOBBY BROWN:

4

THE COURT:

5

Yes.

Ms. Johnson,

does it reflect

your vote?

6

JUROR DONNA JOHNSON:

Yes.

7

THE COURT:

does

8

Mr.

Hale,

it

reflect your

vote?
JUROR WARREN HALE:

9

THE COURT:

I0

Yes.

Let the record reflect it’s a

ii

unanimous verdict -- I mean, unanimous vote

12

count.

Let me see the attorneys just for one

second before I excuse the jury.
(The following side bar was

14
15

held outside the hearing of

16

the jury.)
THE COURT:

17

Before I excuse the jury,

can

18

you think of anything else we need to take up?

19

I can’t think of anything.
MR. OWENS:

20
21

We need to

take some time and let the jury get out.
THE COURT:

22

Yes.

(Open court.

23

THE COURT:
25

Nothing legal.

jury,

Jury present.)

Ladies and gentlemen of the

let me again thank you for participating
316a

1471

0

1

that cannot be done.

2

this had never happened.

4

sentence that there will be no disruption in

5

the courtroom for whichever way I do this.

6

will have order in the courtroom whenever this

7

defendant is being sentenced.
This is not an easy situation.

8
9

is.

We

It never

This is probably the most difficult

i0

sentence that I’ve ever had to consider.

ii

Mr. Owens said,

12

thirty minutes approximately, you had never

13

been in trouble with the law,

14

that as a mitigating circumstance.

15

thirty minutes,

and I considered

And I understand further Mr. Owens
mentioned about the fact that whatever you

17

believed,

18

and killing somebody.

that that doesn’t justify going out

The Court does find that there is an

20

aggravating circumstance in this case,

21

was especially heinous,

22

compared with other capital murders.

23

As

except for that

16

19

0

I wish

And I will mention before I do announce my

3

0

I wish it could.

that it

atrocious or cruel

The Court does find there is mitigating

24

circumstances in this case.

25

might have been suffering from some delusion,
317a

I understand you

1472

0

1

but that didn’t justify taking these three

2

lives and taking them in the manner they were

3

taken,

4

I know that the jury in this case

5

deliberated long and hard over this matter.

6

You could see the expression over their face

7

whenever they came back and tell how much it

8

bothered them.

9

hand out punishment,

0

And, of course,

any time you

it bothers the judge,

i0

especially a severe one.

Ii

hand this down,

12

0

and I’ve considered that.

Either way,

I would

it would bother me.

But I have considered,

and I’ve been

13

wrestling with it for a long time,

14

you’ve been found guilty,

15

it again today.

ever since

and I wrestled with

16

It is the judgment of the Court the

17

defendant is guilty of the capital offenses as

18

set out in the indictment and provided under

19

Section 13A-5-40(a) (I0) , being murder by the

2o

defendant of two or more persons pursuant to

21

one scheme or course of conduct, and that

22

punishment be fixed at death by electrocution,

23

and that said Alan Eugene Miller, being asked

24

by the Court if he had anything to say,

that

25

sentence will now be imposed upon him.

The

318a

1473

0

1

defendant saying nothing,

2

and considered and adjudged by the Court that

3

the defendant, Alan Eugene Miller,

4

sentenced to death by electrocution.

5

Pursuant to the Alabama Rules of Appellate
Procedure 8(d) (i) ,

7

be set by the Alabama Supreme Court at the

8

appropriate time.

the date of execution is to

9

The Court is going to suspend sentence

i0

until the time as the Alabama Supreme Court

ll

does set that time.
The Court notes that there is an automatic

13

appeal from a death sentence heretofore

14

imposed,

15

the defendant is indigent.

16

0

is hereby

6

12

0

it is further ordered

and the Court does hereby find that

It is also ordered that the trial counsel

17

wishes to be appointed,

and I will ask that

18

trial counsel represent him on appeal,

19

represent Mr. Miller on appeal.

2o

MR. JOHNSON:

21

appoint other counsel.

22

about this.

23

understands the reason being that I need to be

24

scrutinized as well as the facts in this case.

25

I would prefer the Court
I talked with Alan

And, of course,

THE COURT:

All right.
319a

the Court

I am going to

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
ALAN EUGENE MILLER,
Petitioner,
V.

KIM THOMAS, Commissioner
of the Alabama Department of
Corrections,
Respondent.

)
)
)
)
)
)
)
)
)
)
)

Case No. 2: 13-cv-00154-KOB

VOLUME 31
State Court - Collateral Appeal
LUTHER STRANGE
ATTORNEY GENERAL
AND

THOMAS R. GOVAN, JR.
ASSISTANT ATTORNEY GENERAL
ADDRESS OF COUNSEL:
Office of the Attorney General
Capital Litigation Division
501 Washington Avenue
Montgomery, AL 36130
(334) 242-7455

320a

401

1

A.

Yes.

They would -- when they were little Ray and

2

Alan would tell him to leave my mama alone.

3

bless his heart, would run.

4

leave my mom alone and he would threaten to kill them

5

and, of course, they would run because they were small.

6
7

8
9

10
11

12
13

Q.

Richard,

But Ray and Alan would say

You mentioned your parents.

What was your

mother 1 s and father 1 s relationship like with Alan?

A.

My mother didn't have a relationship with Alan.

She didn't like Alan.

She didn't like any of my boys.

My daddy liked everybody.
Q.

How old -- what were -- how would she express

that dislike?
A.

Well when they would have a family reunion and

14

insist I come and she wouldn 1 t

15

house.

16

all the other grandkids running through the house and

17

getting something to drink and eat and messing and my

18

kids had to sit out on the porch or out in the yard and

19

I had to take them something to eat and to drink and to

20

eat.

21

22
23

24

25

Q.

let the boys in the

She would tell them they had to stay outside and

So she was open about this differential

treatment?
A.

Oh yes.

And I tried to get along with her so I

could see Cheryl and Jeff.
Q.

How was Ivan's father to Alan and his siblings?

321a
402

402

1

A.

He wasn 1 t.

He just ignored them.

He never took

2

time with them, he never -- he didn't want to buy

3

Christmas for them.

4

But he would go out and buy Easter baskets and things

5

for his brother 1 s kids and tell them they didn't need

6

them,

7

they would have them.

8

younger sister,

9

baskets.

He wouldn't buy Easter for them.

that if God wanted them to have Easter baskets
And his little sister, his

Debra, went out and bought them Easter

10

Q.

When out and bought who Easter baskets?

11

A.

Ray and Alan and Richard.

12

Q.

Because his father hadn't

13

A.

Because

14

15
16

17
18
19
20

21

Ivan wouldn't buy them,

he would buy them

for his nephews.
Q.

Would he be open about purchasing gifts and such

for other children besides them?
A.

Yeah.

He didn't -- he didn 1 t care about my

feelings, he didn't care about the kid's feelings.
Q.

You filentioned that he was physically abusive

toward you.
A.

Yes.

Did he ever hit Alan and his siblings?
Especially Alan.

Like I said he focused

22

more on Alan because he had that stupid notion that Alan

23

wasn't his and Alan looks like just him, bless his

24

heart.

25

knock him, punch him.

And he hit Alan and he'd punch him, slap him,
A boy came by one day -- this is

322a
403

403

1

an example -- and said that Alan threw a chair at the

2

music teacher.

3

about it.

4

and started punching him in the head and chest,

5

stomach, anywhere.

6

me Mama,

7

there and they were in the hall and got between them and

8

told him I didn't know what was going on but for him to

9

keep his hands off of him and then he told me and I said

10

well,

11

Q.

12

Well, he didn't even bother asking Alan

He just grabbed Alan when he came in the door
in the

And one of the kids called and told

Daddy's in there punching Alan.

you don't know that it's so.

Well,

And I

run in

I don't care.

How badly were Alan and the other children harmed

by these attacks?

13

A.

Like I said Richard was scared of him.

14

when he started Richard would go hide.

Richard

And Alan and

15

Ray might stay there for a little bit then they would go

16

hide too because you didn't ever know what he was going

17

to do.

18

sweet one minute and then fly off the handle the next

19

minute.

20
21

22

Q.

He was unpredictable.

He's liable to be real

You said he was unpredictable.

You didn't know

what would provoke his temper or violence?
A.

You never knew.

He thought people were after

23

him, people were trying to hurt him, people were

24

plotting against him,

25

and I was trying to poison him.

that we were plotting against him
All kinds of things.

323a
404

404

1
2

Crazy things.
Q.

Did he ever blame Alan and the boys for things

3

that were completely out of control, had nothing to do

4

with them?

5

A.

Yes.

My daughter,

Lisa, their youngest sister

6

had appendicitis and the night she was operated on he

7

went home and started beating on the kids, more so Alan

8

they said but I wasn't there, but more so Alan because

9

it was his fault that Lisa had appendicitis.

10
11
12
13

don't cause appendicitis.
Q,

And you

It just happens.

Did Ivan regularly beat Alan?

Did Ivan beat Alan

and the other children?
A.

Yes.

Every time he turned around.

Anything --

14

one of the kids, especially Lisa, could do something but

15

he would whup Alan for it because,

16

but my daughter is a spoiled brat and was.

I hate to stay it,

17

Q.

Did you do anything to stop Ivan?

18

A.

I

would get between them and then get the heck

19

beat out of me.

But that didn't really matter.

20

didn't want him hurting my kids.

21

Q.

Did you ever call the police?

22

A.

No.

23

Q.

Why not?

24

A.

Because they wouldn't do anything to him.

25

I

Maybe

keep him overnight and then come home the next day and

324a
405

405

1

2
3
4

5

then it would be ten times worse.
Q.

Did Ivan continue physically threatening Alan as

he got older?
A.

Yes,

until Alan got to be a teenageer -- well,

he

threatened him when he was a teenager.

6

Q.

Did he ever threaten Alan with a weapon?

7

A.

He threatened him with a knife, he threatened him

8

with a gun,

9

one day and said he didn't know which one of us he

he said was going to shoot him.

He got mad

10

wanted to kill and he started shooting the baseboards in

11

the house.

And he emptied the gun in the baseboards.

12

Q.

He fired a gun off in the house?

13

A.

Into the baseboard,

he emptied it in the

Then another time he shot in the

14

baseboard of my house.

15

wall of the house a few times.

But he would sit and

16

play with a gun and say I don 1 t

know if I

17

y'all now or wait a while.

18

was loaded or not because I didn't know anything about

19

guns.

20

Q.

21
22

want to kill

You never knew if the gun

You mentioned him knocking over furniture,

can

you think of any examples of that?
A.

He threw a coffee table up and broke it one time.

23

Then he threw it up and and it landed on his toe and

24

made

25

beat on for that.

I made the mistake of laughing about it and got
Then he threw the dinner table up

325a
406

413

1
2

3

4
5

forgotten that one.

Q.

When you lived with Ivan did he hold a steady

job?
A.

No.

It wasn't unusual for us to have 10 or 12 W2

forms to file on tax filing day.

6

Q.

Now,

why was he in and out of jobs so much?

7

A.

He 1 d get mad at somebody and quit work.

He

8

thought they were plotting against him or just wasn 1 t

9

treating him right and he'd get up and quit.

10

Q.

So he wasn 1 t

11

A.

No.

always fired by these jobs?

I don't know that he either really got fired

12

except one time,

that was a truck.

He left -- something

13

happened to him and he just left the truck in the middle

14

of the highway and got out and left it there with the

15

keys in it.

16

Q.

Was he a truck driver?

17

A.

Yes.

18

Q.

And so on one of his routes he left the truck

19

with the keys in it?

20

A.

Yes.

21

Q.

Why did he do that?

22

A.

I don't really know.
MS. COKER:

23
24
25

A.

We object.

Somebody said something to him and he just got

mad about it.

326a
414

414

MS. COKER:

1

Just going to object, Your

2

Honor 1 to -- we understand the leeway of what 1 s going on

3

here with relevance of different situations here with

4

Mr. Millerrs father 1

5

relevance.
THE COURT:

6
7

We just object to the

You may continue.

BY MS. SEGURA:

8

Q.

9

family?

10

Mr. Miller.

A.

Did Ivan provide any financial assistance in the

Some.

I

worked sporadically when

I

could but

I

11

couldn't keep a job because he would call me a hundred

12

times a day or he would come by and harass me and accuse

13

me of having an affair with people that I

14
15

Q.

worked with.

Did he ever take the household expenses or money

for himself?

16

A.

Yes.

17

Q.

What would he do with that money?

18

A.

Sometimes he would give it to the preacher and

19

20
21
22

sometimes he would go by drugs.
Q.

Now,

did Ivan ever take things around the house

and sell them at pawn shops or
A.

Anything we had that was of value which really

23

wasn't a whole lot of anything he would buy me something

24

and then go sell it.

25

but he would turn around -- in my name I will go sell

He would say I bought this for you

327a
415

415

1
2
3

4
5

it.

He sold my car to go buy drugs.
Q.

So how did the family get by financially aside

from your sporadic working sprees?
A.

We lived off food stamps.

If it hadn't been for

that we would have went hungry.

6

Q.

Did he ever discourage you from working?

7

A.

Yes.

Because,

I mean,

you couldn't work from

8

somebody calling you all day long if you were by a phone

9

or coming by just being a nusience.

10
11
12

13
14
15

16

You know people

won't put up with that at a job.
Q.

Now where did the family live for the first

18 years of Alan's life?
A.

All over.

Alan might have been 18 then.

to Texas.
Q.

Between here and Chicago and we moved

How many times do you approximate that you moved

during that time?

17

A.

Probably 18 or 20 times.

18

Q.

Why did the family move so often?

19

A.

He quit his job and then he wanted to go to

20

Chicago.

21

with my sister and I can get a job there because

22

everybody can get a job in Chicago which at the time you

23

could.

I can go stay with my sister -- we can stay

24

Q.

Now when you say he --

25

A.

Ivan

328a
416

415

1
2
3

4
5

it.

He sold my car to go buy drugs.
Q.

So how did the family get by financially aside

from your sporadic working sprees?
A.

We lived off food stamps.

If it hadn't been for

that we would have went hungry.

6

Q.

Did he ever discourage you from working?

7

A.

Yes.

Because,

I mean,

you couldn't work from

8

somebody calling you all day long if you were by a phone

9

or coming by just being a nusience.

10
11
12

13
14
15

16

You know people

won't put up with that at a job.
Q.

Now where did the family live for the first

18 years of Alan's life?
A.

All over.

Alan might have been 18 then.

to Texas.
Q.

Between here and Chicago and we moved

How many times do you approximate that you moved

during that time?

17

A.

Probably 18 or 20 times.

18

Q.

Why did the family move so often?

19

A.

He quit his job and then he wanted to go to

20

Chicago.

21

with my sister and I can get a job there because

22

everybody can get a job in Chicago which at the time you

23

could.

I can go stay with my sister -- we can stay

24

Q.

Now when you say he --

25

A.

Ivan

329a
416

422

1
2

involved in legal trouble or committed crimes?
A.

His brothers.

Both his brothers spent time in

One went to prison, I don't know how many

3

prison.

4

years, but he straightened up when we got out.

5

Q.

Can you name who those brothers where?

6

A.

Hubert was the one that went for armed robbery

7

when he was about 16.

8

spent.

9

straightened up.

I

don't know how many years he

He spent it at Draper.

10

to Draper.

11

his life.

12

out all his life.

And he got out and

Jim went for armed robbery.

But Jim had been in trouble in juvenile all
He's still in prison now.

13

Q.

What's Jim in jail now for?

14

A.

Murder,

15

Q.

Anyone else?

16

A.

I

17

He went

I think.

He's been in and

I'm not sure.

haven't had any contact with them.

And Terry,

his youngest brother.

18

Q.

Were these men around Alan much growing up?

19

A.

Yes.

20

Q.

Were you worried having these men around your

21
22
23

children?
A.

Well I stayed around to protect -- you know, to

be there so they didn't do anything crazy.

24

Q.

Why were you worried?

25

A.

They were on drugs and drinking and you don't

330a
423

423

1

know -- you don't know what people are going to do when

2

they are doing that.
So they didn 1 t modify their behavior around your

3

Q.

4

kids,

5

A.

No.

6

Q.

Was Alan close to his siblings?

7

A.

Yes.

8
9

10

they wouldn't refrain from cursing or doing drugs?

He was close to all of them especially Ivan

Ray, Ray, Ray Jr.

Q.

He was especially close to Ivan Ray.

Ray is older than Alan,

Now,

Ivan

right?

11

A.

Yes.

12

Q.

Ray passed away,

13

A.

Yes.

14

Q.

What was the cause of Ray's death?

15

A.

He was killed in a car accident and I was injured

16

didn't he?

in the same accident.

17

Q.

How did that impact Alan and your family?

18

A.

Badly.

Alan more so because he ended up having

19

to do the funeral arrangements because his daddy said he

20

was going to go do it but he didn't.

21

to Alan -- well, he and Cheryl went to see what kind of

22

arrangements were made and he ended up having to make

23

them.

24

Q.

What year was this?

25

A.

'91.

And it was left up

I was still in the hospital.
What year did Ray die?

331a
424

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION

)
)
)
)

ALAN EUGENE MILLER,
Petitioner,

)

go

KIM THOMAS, Commissioner
of the Alabama Department of
Corrections,
Respondent.

Case No. 2:13-cv-00154-KOB

)
)
)
)
)
)

VOLUME 32
State Court- Collateral Appeal
LUTHER STRANGE
ATTORNEY GENERAL
AND

THOMAS R. GOVAN, JR.
ASSISTANT ATTORNEY GENERAL
ADDRESS OF COUNSEL:
Office of the Attorney General
Capital Litigation Division
501 Washington Avenue
Montgomery, AL 36130
(334) 242-7455

332a

502

l

around that.

2

Q.

And who are you referring to by them?

3

A.

Lucy and George Cart.

4

Q.

Was Ivan a religious man9.

A.

Half and half.

6

He would be religious on Sunday

and then sin Monday through Saturday.

7

Q.

Can you explain what you mean by sin?

8

A.

Drink, smoke,

9

cuss, you know, do drugs, smoke

marij uana.

i0

Q.

Have you ever seen him do drugs?

ii

A.

I’ve seen him smoke marijuana.

12

Q.

How did you know it was marijuana?

13

A.

You could tell by the smell.

14

Q.

Would anyone else be around when you saw him

15
16
17

doing this?
A.

Oh, everybody would.

I would be -- and I refer

to the kids as Ivan Ray and Alan and Richard and Lisa.

18

Q.

Where would he smoke marijuana?

19

A.

In the house,

2O

to be in at the time.
Did he ever appear to try and hide it from the

21
22

kids?

23

A.

NO.

24

Q.

What else,

25

just whatever room he just happened

if anything, have you seen Ivan do

that appeared inconsistent with his religion?

333a

503

503
1

A.

Well, he would beat up on the children.

I refer

2

to -- not Lisa, but the boys, the three boys.

Because

3

he would hit them and punch them and tell them how

4

stupid they were and they were ignorant.

5

Q.

How often would you observe this?

6

A.

Probably about every time I was over there and

7

that was like maybe once a week.

8

older and got to working in Birmingham I would go by

9

because I didn’t have anything to do during the week and

i0
ii
12

13
14

15
16

That was when I got

I would go by and visit.
Q.

Did you see Ivan treat Alan any differently than

his brothers?
A.

He was probably harder on Alan than he was any of

the others.
Q.

Now focusing on the Miller children were you

close to any of the Miller children?

17

A.

Yes.

18

Q.

Who?

19

A.

In the order would be Ivan Ray and then Alan and

20
21
22

now Richard.
Q.

Have you ever lived with any of the Miller

childr4n?

23

A.

They lived with me.

24

Q.

Who did?

25

A.

Ivan Ray did for a while.

334a

They were -- Barbara

544

But while you were grown your father was around

2
3

Alan some?
A.

When I was grown?
Uh-huh.

5
6
7

A.

Yes.

After the 17, 18 year old?

Not much, but just occasionally.

He didn’t

hunt like I did.
Q.

But he was around the two of you when you were

together?

9

A.

Yeah.

i0

Q.

And you say your father would have been a good

II
12

14

influence on Alan?
A.

Absolutely.

He was a good influence on me.

Q.

Now, how about your contact with Alan now?

Are

you in touch with him now?

15

A.

No.

16

Q.

You write him at all?

17

A.

No.

18

Q.

Have you been to visit him in Holman since he’s

19

I haven’t been.

I don’t write anybody.

been down there?
A.

No.

21

MS. COKER:

No further questions.

22

THE COORT:

Any redirect?

23

MR. BARTOLIC:

24

THE COURT:

25

yOU,

No redirect, Your Honor.

Witness may step down.

Thank

sir.

335a

545

545

1

RICHARD WILLIAM MILLER,

2

Was duly sworn and testified as follows:

3
4

DIRECT EXAMINATION
BY MS. SEGURA:

5

Good morning.

6

Good morning.

7

Can you please state your name for the record?

8

Richard William Miller.

9

When were you born?

i0

11-26-65.

Ii

So Alan is older than you?

12

Yes, ma’am, by ten months.

13

Who are your parents?

14

Barbara and Ivan Miller.

15

And these are the same parents as Alan, correct?

16

Yes, ma’am.

17

Did you grow up in the same home as Alan?

18

Yes, ma’am.

19

Can you describe your childhood growing up?

20

Very violent and just terrible.

21

Can you describe your mother?

22

Very loving, always carrying, always take up for

23
24

Can you describe your father?

25

Very mean, a bully, very violent man.

336a

546

1
2

Q.

Can you -- now you mentioned your mother was

always sticking up for you?

3

A.

Yes, ma’am.

4

Q.

Against whom?

5

A.

My father.

6

Q.

Did you ever witness your father interacting with

7

9

i0

Alan as you were growing up?
A.

Very little.

Q.

Did you ever see how he -" did you ever witness

how he treated Alan while you were growing up?

II

A.

Be treated Alan kind of worse than all of us.

12

Q.

What are examples of that?

13

A.

He would yell at him more and call him more names

14

than he would everybody else.

15

Q.

What kind of names?

16

A.

Bastard and -- pardon my language but bastard and

17

idiot and moron and about any name that you can call

18

somebody.

19
20

Q.

Did you witness your father hitting Alan or

beating on Alan7

21

Yes, ma’am.

22

Can you describe what your father would do to

23

him?

24

A.

Slap him, kick him, sometimes punch him.

25

Q.

What would -- what would your mother do during

337a
547

558
1

They would just do it in front of you?

2

Yes, ma’am.

3

Would you characterize your father as a paranoid

Just say keep your mouth shut.

person?

5

A.

Yes, ma’am.

6

Q.

Can you give some examples of that?

7

A.

Se would always think somebody was talking about

8

them, somebody had his job, was trying to get his job or

9

that people was looking for him at all times and stuff

i0

like that.

Ii

Q.

Did you and your brothers make friends in school?

12

A.

Se tried ~o but we moved around so much you

13

really couldn’t.

14

Q.

How often did you think you moved as a child?

15

A.

I’d say nine to 12 times.

16

Q.

So you went to a lot of different schools?

17

A.

Yes, ma’am.

18

Q.

Did you ever witness Alan being made fun of in

19

school?

2o

A.

Yes, ma’am, they made fun of his clothes, they

21

used to call him tank head because we didn’t have good

22

clothes but my mother would wash them and stuff.

23

were poor.

25

Q.

Did they make fun of you in that way too?

A.

Yes, ma’am.

338a

But we

559

559
1

Q.

How would you describs Alan as a person?

2

A.

Be was a good person.

3

Q.

How would you describe him as a brother?

4

A.

He was a good brother.

5

Q.

What was he like as an uncle to his nephews and

6

nieces?

7

A.

Very loving.

He’d buy them happy meals and when

8

they would come down take them four wheeling and

9

fishing.

i0

Q.

II
12

13
14
15

Who were your nephews and nieces that he would do

these things for?
A.

Alicia, Christy and Junior and Jake and Jordan

and Kelly.
Q.

Now, who are the -- these are the children of

your brothers and sisters.
A.

Lisa has -- my sister Lisa has Alicia, Christy

17

and Junior.

iB

Kelly.

19

2O

Q.

Which brothers and sisters?

Cheryl has Jake and Jordan and Jeff has

Now, your brother Jeff didn’t live with you at

this point?

21

A.

Oh, no, ma’am.

22

Q.

Would he leave his d~ught~r in Alan’s care?

23

A.

Oh, yes, ma’am.

24

Q.

And this was just for a full day he would

25

leave --

He was on his own.

339a

All of them.

MR. HENRY JOHNSON:

1

2

Objection, Your Honor.

I don’t recall any such testimony.

3

MR. WHITEHEAD:

Judge,

we’ve never heard it

4

before it came out in court here today.

5

you the record will reflect --

6
7

8
9

i0

MR. HENRY MILLER:

So I can assure

Withdraw.

BY MR. WHITEHEAD:
Q.

Now, were there any references to -- these are

the records of Hubert Miller.

Am I correct that he is

the father of Ivan Ray Miller?

Ii

A.

Correct.

12

Q.

And Ivan Ray Miller is the father of the

13

defendant Alan Miller; is that correct?

14

A.

Yes.

15

Q.

And were there any references to Alan’s father

16

Ivan Ray Miller in his father Hubert’s Bryce file?

17

A.

Yes.

18

Q.

Would you look with me please at Exhibit 33 page

19

0114?

20

A.

Yes.

21

Q.

And what is this document?

22

A.

This is a letter written by Hubert Miller’s wife

23
24

25

Do you have that, Doctor?

to someone at Bryce.
Q.

It says dear sir.

Did you find a place in that letter in which

Hubert Miller’s wife and Ivan Miller’s father -- excuse

340a

648

648

1

me, Ivan Miller’s mother makes reference to her son,

2

Ivan?

3

A.

Yes.

4

Q.

Would you just briefly read the sentence or two

5

6

that says -A.

It actually looks like its to Dr. Tarwater it

7

looks like.

8

my son Ivan Ray Miller said that he was going to come

9

down there and check his daddy outside and leave with

"I am writing to you to let you know that

i0

him.

ii

much like his Daddy so please be careful about letting

12

him check his daddy out."

13

Q.

Dr. Tarwater my son is not normal.

Now,

He act very

do you recall earlier when you testified

14

that you reviewed the mental health records of Alan’s

15

uncle Perry Miller?

16

A.

That’s correct.

17

Q.

What did you learn about the mental health

18
19

history to Alan’s uncle Perry Miller?
A.

That he had a history of mental health treatment

20

and had evaluations through social security and was

21

diagnosed at one point with bipolar disorder and I

22

believe may have also been diagnosed with depression.

23

Q.

Let’s just look very quickly at a couple of

24

documents that establish this.

25

in front of you?

Do you have Exhibit 36

No, you do not.

It’s right here.

341a
649

649

1

This is in evidence as Perry Miller’s medical file and

2

mental health file.

3

Exhibit 36-0001.

Look at the very first page,

4

A.

All right.

5

Q.

Am I correct that this is a May 3rd 1993

6

comprehensive psychological evaluation of Mr. Perry

7

Miller?

8

A.

Correct.

9

Q.

And if you turn with me to the fourth page of

i0

that letter which is Exhibit 36-0004 am I correct that

ii

the -- the Gerald K. Anderson PhD, a clinical

12

psychogist, gives his diagnostic impressions of Perry

13

Miller?

14

A.

Yes.

15

Q.

His diagnoses.

NOW, does this 1993 evaluation

16

make reference to the mental health issues and history

17

of violence of other members of the Miller family?

18

A.

In the body of the letter?

19

Q.

Yes.

A.

Yes.

Q.

Draw your attention again back to the first page.

21
22

And you see the discussion about his family mental
health history and history of violence at the very

24

25

bottom of the second paragraph on the first page?
A.

That’s correct.

342a

650

MR. WHITEHEAD:

1

yourself later on.

Judge, you read it for

It’s in evidence.

I just wanted to

3

bring it -- highlight the documents that we’re

4

particularly relying upon.

5

BY MR. WHITEHEAD:
Q.

6
7

Now, did Perry Miller receive any subsequent

psychological evaluations after this one in May of 1993?

8

A.

Yes o

9

Q.

Is one reflected on Exhibit 36 at page 0005?

I0

A.

Yes.

11

Q.

And am I correct that that is the -- again a

comprehensive psychological evaluation dated
13

December 15, 1995 by a William B. Beidleman,

14

B-e-i- d-l-e-m-a-n, PhD?

15

A.

Yes.

16

Q.

And am I correct that if you went to Exhibit

17

36-0008 you will find Dr.

18

Ao

O9?

19

Q.

Thank you.

A.

Yes.

20
21

Beidleman’s diagnoses?

Actually it starts at the bottom of

08.

22

It talks about the diagnostic impression for Mr.

23

Miller?

24

A.

Yes.

25

Q.

And do you recall if there were any other

343a

651

666

1

this at this point?

2

MR. WHITEHEAD:

No, we are not, counsel.

If

3

you may please let me finish.

4

suggest to Your Honor that there are two appellate court

5

decisions sited in the memorandum that I think might be

6

of assistance to Your Honor.
THE COURT:

7

I simply was going to

Then we will take some further

8

look at it.

9

discussion will be fruitful and you will understand what

Thank you.

And I hope that at least our

l0

I am wrestling with and give you an opportunity to

ii

respond to that.
MR. WHITEHEAD:

12

13

to know what you are thinking.

14

15
16

It is always helpful to us

(Lunch recess taken.)
BY MR. WHITEHEAD:
Q.

Dr. Boyer, prior to the break for lunch we were

17

talking about what you had learned from the records and

18

the family interviews concerning some of Alan’s

19

relatives.

And we talked about Perry and Uncle James.

What did you learn from your review of the records from
21

your interviews with the family concerning Alan’s father

22

Ivan Ray Miller?

23

A.

Ivan Ray Miller did have a couple of criminal

24

offenses that I found in records there, I believe a

25

theft and larceny.

He, in terms of, you know -- are you

344a

667

667

1

tak±ng about all the information that I gathered in

2

total?

3
4

Q.

Did you learn anything about any psychiatric

record or mental health record for Ivan Ray?

5

A.

Of Ivan Ray Miller?

6

Q.

Do you recall whether or not he had seen a

7

psychiatrist at the Cooper Green Hospital?

8

MR. HENRY JOHNSON:

9

clarification are we talking about Ivan Miller or Ivan

I0

Ray Miller his son?

ii

MR. WHITEHEAD:

12
13
14

Your Honor, just for

Q.

I beg your pardon.

We are talking about the

senior, Alan Miller’s father.
A.

Yes.

Thank you.

He did have a history of treatment for

15

depression in particular as far as mental health

16

records.

17

Q.

Now were there any -- was there any information

18

of importance that you learned from the divorce file

19

concerning the marriage of Ivan and Barbara Miller

20

concerning Ivan’s activities?

21
22
23

A.

Yes, that violence was a factor that was sited in

the reason for the divorce or abuse.
Q.

Am I correct that Barbara applied for a

24

protective order based on the violence that she had

25

suffered from Ivan?

345a
668

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION

)
)
)
)

ALAN EUGENE MILLER,
Petitioner,

)

go

KIM THOMAS, Commissioner
of the Alabama Department of
Corrections,
Respondent.

Case No. 2:13-cv-00154-KOB

)
)
)
)
)
)

VOLUME 33
State Court- Collateral Appeal
LUTHER STRANGE
ATTORNEY GENERAL
AND

THOMAS R. GOVAN, JR.
ASSISTANT ATTORNEY GENERAL
ADDRESS OF COUNSEL:
Office of the Attorney General
Capital Litigation Division
501 Washington Avenue
Montgomery, AL 36130
(334) 242-7455

346a

CR-08-14~3

COURT OF CRIMINAL APPEALS NO.

,

APPEAL TO AL,~AMA COURT OF CRIMINAL APPEALS
FROM

Shelby

CIRCUIT COURT OF

,COUNTY’, ALABAMA

CC-1999-792,fi0
D~n Reeves
Rule 32 Pelion
Petition Denied

Alan Eugene Miller
Robin Ann Adams
(T,~ F~o,}

(Agpe~l~nr~ Attomey)

1901 6th Ave No Ste 2400
Birmngham, AL 35203

v,

State of Alabama

i
i
i

df

I
I

347a

669

1

certainly had some conduct problems at times.

2

were not specified.

3

quite variable.

4

an A to a D for example.

5

often see in the school histories of children who have a

6

lot of disruption in the home life is that kind of

7

variability.

8

9
i0
Ii
12

Q.

Those

And that at times his grades were

He might go during grading period from
And one of the things that you

You reviewed Alan’s employment records that were

marked into evidence earlier?
A.

Yes.

Q.

What do you recall learning about Alan’s work

performance and employment history from the records and
from the other interviews you conducted?

14

A.

In general that it was good, that he was

15

considered to be a good worker.

16

recall reading about a fight and if you are asking about

17

sort of what I learned more broadly than just the

18

records and it sounds like you did,

19

something that was very important to him,

2O

valued, he wanted to be a responsible person who was not

21

like his father.

22

Q.

He did have -- I do

that work was
that he

Do you recall learning anything about his job

23

performance at his most recent position in Ferguson

24

Enterprises the months just before the shooting?

25

A.

Yes.

There was a good report I believe that he

348a
670

670
1

had recently gotten a raise and was described as a good

2

worker.

3

Q.

Now,

you told us about your interviews with Alan

4

and his family members.

5

interviews with respect to Alan’s upbringing?

6

A.

What did yeu learn from those

Certainly one of the things that stands out

7

prominently and has been described by other witnesses is

8

the level of abuse that was present in the family from

9

Alan’s father that it was frequent, that it ranged from

i0

actual physical assaults to threats with guns and knives

Ii

to the point of shooting into the floor, shooting into

12

the wall, threats to harm, threats to kill the family,

13

intimidating, bullying, that kind of thing.

14

this element of unpredictability where he seemed that

15

his moods would suddenly shift.

16

we would get on religion and, you know, go around

17

preaching or anointing people or trying to heal people

18

that seemed sort of bazar in terms of the standards of

19

that family, that this was not what they were accustomed

There were periods that

to in terms of religious practices.
21

There is

They seemed very

erratic in terms of his work history, his jobs.

He was

not consistent -- consistently employed or providing for
23
24

the family financially.
Q.

I’m sorry.

I interrupted.

Go ahead.

A.

I was just going to go through the list of things

349a
671

671

I learned about the family unless you want to -2

Q.

No,

Go ahead.

A.

The family was certainly often in severe

financial stress in terms of the types of places they
lived or needed to stay from ti~e to time with a

6

relative.

7

uprooted the kids from one school to another or one

There were frequent moves which certainly

location to another.
9

Q.

What did -- what in particular did you learn

i0

about the frequency or the nature of the physical abuse

Ii

that Alan received from his father,

Ivan?

12

A.

13

family.

14

once every few years, that it was weekly often.

15

asked Alan how often that he Gould tell me how many

16

times his father actually hit him with his fists he said

17

at least a thousand times.

18

of the routine that you could walk by and he suddenly

19

reached out and just punch you for no reason.

2O

-- it was a feature of -- I wouldn’t say day-to-day life

21

but it was certainly a regular feature of life in that

22

family.

23

Q.

24

25

That it was sort of a regular thing in the
It’s not something that happened once a year or
When

It was just so much a part

But it’s

What did you learn as a result of this abuse, the

nature of the relationship between Alan and his father?
A.

That it was very, very poor.

He was afraid of

350a
672

672

1

him.

He believed that his father could potentially kill

2

him and other people in the family.

3

great deal of fear and anxiety and helplessness about,

4

you know, being stuck in that situation.

5

Q.

How did Alan cope with this?

6

A.

Well physically in terms of,

So there was a

you know, how could

7

he respond to it.

There wasn’t a lot,

8

understanding,

9

certain point in life and as he got older and bigger my

that he was able to do.

from my
When he got to a

i0

understanding is that the level of physical abuse

ii

changed up when he became in his late teens there was

12

not the kind of threats or beatings that he had when he

13

was younger.

14

Psychologically he has talked about what we call

15

dissociation, meaning he remembers times when his father

16

would beat him and his conscious awareness of what was

17

going on was not thsre.

18

himself and find that he was,

19

or had bruises and couldn’t remember how it happened.

2O

He sort of has the sense of mentally going away, going

21

elsewhere sometimes during the abuse.

22

happen, but it did happen at times.

23

that psychologically he dealt with it and we know that’s

24

common when people are exposed to abuse and trauma.

He would sort of come to
you know, sore in his ribs

It didn’t always
So that was one way

Otherwise he was in another aspect of him that is

351a
67.3

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
ALAN EUGENE MILLER,
Petitioner,
Case No. 2:13-cv-00154-KOB

go

KIM THOMAS, Commissioner
of the Alabama Department of
Corrections,
Respondent.

VOLUME 43
Opinions
LUTHER STRANGE
ATTORNEY GENERAL
AND

THOMAS R. GOVAN, JR.
ASSISTANT ATTORNEY GENERAL
ADDRESS OF COUNSEL:

Office of the Attorney General
Capital Litigation Division
501 Washington Avenue
Montgomery, AL 36130
(334) 242-7455

352a

IN THE SUPREME COURT OF ALABAMA

May 27, 2005
1040564
Ex parte Alan E. Miller. PETITION FOR WRIT OF CERTIORARI TO THE COURT
OF CRIMINAL APPEALS (In re: Alan Eugene Miller v. State of Alabama) (Shelby
Circuit Court: CC99-792; Criminal Appeals : CR-99-2282).

CERTIFICATE OF JUDGMENT
Writ Denied

The above cause having been duly submitted, IT IS CONSIDERED AND
ORDERED that the petition for writ of certiorari is denied.
SEE, J. - Nabers, C.J., and Lyons, Harwood, Woodall, Stuart, Bolin, and
Parker, JJ., concur. Smith, J., not sitting.

/bb

353a

ALAN EUGENE MILLER,

)

Petitioner,

STATE OF ALABAMA,
Respondent.

)
)
)
)
)
)

Case No. CC-99-792.60

7n a previous order o~I J~ly 31, 2007, this Court
summarily dismissed all claims raised in Miller’s amended
petition, with the exception of claim I(B) - that Miller
was denied effective assistance of appellate counsel.
Having thoroughly reviewed and considered Petitioner Alan
Miller’s amended Rule 3~- petition, the evidence that was
presented during the evldentiary hearing concerning his
amended petition on February 11-14~ 200S a~d on August ~,
2008, the evidence that was presented at Miller’s capital
murder trial, the record on direct appeal, and ali of the
other pleadings that were filed in the above-styled cause,
th~_~s COurt makes the following findings of facts and
conclusions of law and hereby DENIES all relief on Miller’s

amended Rule 3~ Petition.

354a

1952

On August 13, 1999, Mill~r was indicted for ~e capital
~rd~r of ~e Hol~r~k~, ~ist~her Y~cy, ~d
Ja~is, pursuit ~o one sc~ or c~n co~se of c~duc~
~er Ala. ~ ~ 13A-5-4~ (a) (10). ~C. 18)~ Mr. ~ger Bass
~d ~. Mick~ Jc~ ~re ap~inted to r~presen~ ~ll~r
for trial. (C. 12) Miller, ~rough c~l. pleaded not
~ilty ~ reason of ~ntal diseas~ or ~fect. (C. I)
Sas~d on Mill~r’s plea, the trial co~t ordered that
Mi11~r ~~o a ~nnal ~nation co~ucted by ~
~~ Dep~~t of M~tal Health ~d M~tal ~t~ti~.
(C. 19) Miller was ~~d by Dr. James Hooper, a
pSy~olog~st at Taylor H~n medical facility on Oct~er
4, 199s. (Rule 32 R. 6S) ~ter his e~mi~tion, Dr. Hooper
issu~ a re~ stating t~t Miller was ~et~t to stared
t~al ~ did ~t ~et the st~rd for ins~ty ~der
~ab~ law. {Petitioner’s Ex. 29-0206-02!1) Miller ~s
also ~amined ~ a psychologist retained on behalf of the

i References to the record shall appear as follows~ ~R." shall refer to
oo~ reporter’s transcript of M±ller’s tr±al; "R2." Shall refer to the court
reporte~’s transcript uf the hearing .on Millsr’a Motion for New Trial;
shall refer to the clerk’s ze=ord on direct appeal; "M.H." shall rsfer tc the
heazlng on the State’s motion to dismiss Miller,s amended petition held on
JL~E4~ 25, RODT; "K~le 32 R." shall refer to the record of the evidenti~ry
h~azln~ t.h~= w~s held on February 11-14, 2008; "Rule 32 P~." shall r~fer to
~-~ ~vi~i~ hmaring ~.t ws~ held o~ A~gu.8~. ~, 2~OOB.

355a

II

1953

State of Alabama, Dr. Harry McClaren, who also determined
that Miller did not ~eet the requirements of insanity at
the time of the offense under Alabama law. (Rule 3~ R. 773,
’7~o)

On M~rch 16, 2000, M~ller’s trial counsel filed an
application for f’i~le,-for expert psychiatric assistance in
support of M±11~r’s defense, which was granted by the trial
court ~n A~ril. 4, 2000. (C. 50-551 57) Trial counsel then
retained a psychiatrist, Dr. Charles Scott, to conduct
evaluations of ~iller to determine whether M111er qualified
~or the insanity plea. (Rule 32 R. 48) However, after an
eXtensive investigation which included document sathering,
i~%erviews of Miller’s family members, and a three day
.evaluation of. Miller, Dr. SCott concluded that Miller did
not meet the definition of insanity under Alabama law.
~Petltioner’ s Ex. 29-0000-0021~
After consultation with Dr. SCOtt, trial counsel
withdrew the not guilty by reason of mental defect plea and
entered a plea of ~o~ gullty. (R~le 32 R. 91-92)

On June

5, 2000, Rodger Bass filed a Motion to Withdraw from hls
representati~ of Miller and Mr. Ronnie Blackwood was
appointed to represent Miller in ~ass’ place. ~C. 4, 61-63)
3

356a

1954

Miller’s trial began on June 12, 2000.

After hsaring

all the evidance presented at trial, the Jury found Miller
~11ilty of capital ~trder under Ala. Code § 13A-5-40 (a) If0)
(C. 73} The trial then proceeded to the paualty phase in
whi~h the jury r~commend by a vote of 10-2 ~b_a.t Miller
should be sentenced to death. {C. 74) The trial court then
ordered the compilation of a pre-sentence report and
conducted a sentencing hearing, after which the trial court
upheld the recomme/adation of the jury and sentenced Miller
tO death. (C. 89) The trial court the~ issLled specific
written findings of fact in which it fotind the aggravat-~sg
circumstance th_-t the capital murder was especially
heinous, atrocious, and cruel to exist. ~C. 98-104)
on August 2, 20~0, Mr. Billy Hill and Mr. Haran Lowe
w~re appointed as appellate counsel for Miller after
J~hnson a~d Blackwood withdrew. (Rule 32 R2. 9) Miller,
through counsel filed a motion for new trial, which was
later amended to include numerous claims, including
imeffective assistance of Urial counsel. (c. 93-97)
Appellate counsml then sought and obtained a continuance of
the hearing on the motion for new trial so t!tat the
transcript of Miller’s trial could be completed. (C.
4

357a

1955

The trial court conducted hearings on Miller’s motion
for new. trial on Deuember 7,. 2000 and Jal~al~ 31, 2000.
During the hearings, appellate counselpresented the
teBt~Iny of trial counsel M~ckeyJohnso~, psycholuglst Dr.
B~bWer~orf, and Mr. ~-~on McCall of the Alabama P~ison
Project in support of .the in~ffectlve assistance Of trial
~claim. {R~. 4~174) On Pebruary21, 2001, the trial court
denied Miller’s m~±on for new trial. (C. 7)
0n direct ~p~eal, the Court of Crimi~l Appeal6
initially remanded Miller’s case to the trialcourt for two
r~aso~s: I} to enter specific ~rltten find!ngs of fact
regarding the claims raised in Miller’s motion for new
trial and 2) to. enter s~ecific written findingsof fact
regardin~ the existence o~ ~h~ a~ravati~g-circumstance
that the capital ~urderwas especially heinous, atrocious,
a~d cruel. Miller v. Stat~, 913 So. 2d 1148, 1153

Crlm. App. 2004).

On ~eturn from remand, the Court of

Criminal Appeals affirmed both Miller’s conviction and
sentence of death and ~fflrmed that the trial court’s
wrlt~en f~ndings that ~he aggravating circumstance under
AI&. Code ~-13A-S-40|a) (I0) and that three statutory
mitigating circumstances existed u~derAla. Code ~ 13A-5-

358a

51(a) (1.), (2), .and (6). Miller, 913 So. 2d at 1169.
Miller’s petition for writ of certiorari in the
Suprem~ Court was denied on May 27, 2005.

The United

States Supreme Court denied Miller’s petition for writ
certiorari o~ January 9, 2006. Miller v. Alabam~, 546 U.S.
1097 (20~6).
The instant post-convlction proceeding began on May 19,
2006 when Miller, through counsel, filed his ~Petitlon for
Rel~’ef f~om Juds~lent Plzrs1~a~ to Rule 32 of the Ala~
Rules of Criminal Procedure’.

The State of Alabama

.answered Miller’s petition on August 18, 2006.

Miller

filed his ~First Amended Petition for Relief from Jud~ent
Pursuant to Rule 32 of th~ Alaba~a Rules of Criminal
¯ Procedure~ on April 4, 2007, the current petition before
this Court’s consideration.

The State 8nswered Miller’s

amended petition and moved to dismiss the clai~ in
Miller’.s petition on Aprl! 17, 2007.
On June 25° 2007, this Court held a hearing on the
State’s motion to dlsntlss. (M.H. 2-103) After the hearing,
this Court issued an order summarily dlsmlsslng Miller, s
~neffectlve assistanc~ of trial counsel claim (Claim I(A)),
his claim that his death sentence violated ~Ring .v... Arizona,

359a

536 U.S. 584 (2002) (Claim If), and his claim that lethal
injection was unconstitutional . (Claim III). (see Appendix
A) In its order, the trial cour~ also determined that
Miller’s claim that the prosecution withheld evidence in
violation of B~rady_v. Maryl.a~d__, 373 U.S. 83 ~1963~ ~Clalm
IV) and Miller’s juror misconduct claim (Claim V) had not
been pleaded with specificity.

The trial court ordered

th~.t Claims I~ and V be summarily dismissed unless Hiller
a~ended Such claims within 60 days. (see Appendix A)

The

ozily remaining claim not dismissed by this Court’s order
was Miller’s claim of ineffective assistance of appellate
counsel. (Claim I (B)).
on February 11-14, 2008, an eviden~lary hearing was held
before this Court on Miller’s only remaining cl~im of
ineffective asslsta~ce of appellate counsel.

The

evldentlary hearing was then continued and c~npleted on
Auo~st 6, 2008.

sur~arily dlsmi~d by this Court’s in ~ts pr~vlous o~der
of J1zly 31,

360a

].958

I(A).

Mille~’s Xn~£fea~ive Assls~anue OE Trial Counsel
Cla~_q Are Procedu~ally Barred

In ~ssue ~ (A) of his amended petition, Miller raises a
number of claims alleging that his tr±al counsel w~re
ineffectiv~ during the guilt and penal~y phases of his
trial. (Pet. a~ 4-83)

As this Court previously ruled in

its July 31, 2007 order, Miller’8 ineffective assistance of
trial counsel claim~ are procedurally barred from review,
u~der Rule 32.2{a} of the Alabama Rules of Criminal
Procedure, because they were or could have been, but w~re
not raised at trial or on a~q~eal. (See Appendix A)
Rule 32.2 (a) of the Alabama Rules of Criminal Procedure
provides, in pertinent parg, as follows:
The Petitioner will not be given relief u~der this
rule based upon any ground:

(2) Which was raised or addressed at trial; or
(3) Which could have bean but was not raised at
~r~al, un!ess the ground for relief arises under
Rule ~2.1(b); or
{4) Whlchwas rai~ed or addressed on alTpeal or in
any previous collateral ~roc~eding; or,
(5) Which could have been bug w~s hog raised on
appeal, unless the ground for relief ar~se~ under
Rule

361a

O

1959

Ala. R. Crib. P. 32.2 (a).

Accordingly,. Miller’ s

In~ffectiv~ assistance of trial counsel claims are
s%mm~rily dlsm!ssed, ~_~_nder Rule 32.7 ~d) of the AI~
Rules of Crlminal Procedure.
In Ex patio Jacks ,o,,n.,., 599 So. 9d 895 (Ala. 1992), the
Suprem~ Cour~ of Alabmua created a ~ch~sm through which
newly appointed appellate attorneys could raise irmffective
assistance of trial counsel cl~im~ in a motion for new
trial and on appeal.

In particular° the court created an

~x~eptlon to the requir~_~t, set forth in Rule 24.1 ~b) of
the Alabama Rules of Criminal Procedure, that a mo~ion for
hew trial must be f~led "no later than thirty (30) days
after sentenco is pronounced."

Id___~. at 897.

Th~ exception

provided that a newly appointed appellate attorney could
flle a motion, within fourteen days of being appointed, to
ax~e~d the 30~day time p~riod for filing ~he ~o~ion for new
trial. Id.__~. Once tha~ motion, known as a ’~Jackson motion,"
was f~led, the attorney automanlcally would have thirty
days ~frc~ the date the reporter’s transcript is filed" to
file a motion for new ~rial. _Id.

The cou/t teaselled tha~

this exception was necessary because it would enable new

9

362a

counsel to raise "all appropriate issues before the trial
court, " including claims alleging that the defendant’s
trial counsel were ineffective. Id. at 897-898.
Acknowledging that the Jackson mechanism had created
more problems in practical application than it solved, the
Supreme CciTt of Alabama, in Ex parte Inwram, 675 So. 2d
865, 865 (Ala. 1996), overruled Jackson only ~to the extent
that it allow~ newly appointed appellate counsel to move
tO s~spend the Rule 24.1(b), Ala. R. Crim. P., 30-day
3urlsdlctlonal time limit for new trial motlons.~

The

Court did, however, strongly encourage trial judges ~to
attempt to facilitate newly appointed appellate counsel’s
efforts to make new trial motions based upon an alleged
lack of effective counsel before the Rule 24.1{b) time
limit expires." ..Id.

Because the court overruled Jackson

only to the extent thau it permitted a newly appointed
attorney to move to suspend the Rule 24.1 (b) ~im~ limit for
filing a motion for new trial, the court, in Ingr..a~., left
i~tact Jackson’s holding that the "~f]ailure to include a
reasonably ascertainable issue in a motion for new trial

will result in a bar to further argumen~ of the issue on

10

363a

appeal a/%d in post-conviction proceedings

Jackson., 598

SO. 2d at 897 (emphasis added).
After the Supreme Court of Alabama lasued its decision
in ~n__~q~_, the court amended Rule 32 of the Alabama Rules
of Criminal Procedure by adopting Rule 32.2 {d).

That rule

was adopted to address claims of ineffective assistance
of c~unsel.

Rule 32.2(d) of the Alabama Rules of Criminal

Procedure provides that, ~’Any claim that counsel was
ineffective must be raised as soon as practicable,

either

at trial, on direct appeal, or inthe first Rule 32
petition, whichever is applicable."
So. 2d 194, 199 n.l (Ala. Crim. App.
In Russell v.

Stat~,

886 SO.

Se__~e V.R.v. State, 852
2002).

2d 123,

125-126

IAla.

Crlm. App. 2003), the Alabama Court o~ Criminal Appeals
held that the appellant’s ineffective assistance of trial
counsel claims w~re procedurally barred from review, under
Rules 32.2 (a) of the Alabama Rules of Crlminal Procedure,
because they reasonably could have been presented in a
motion for new trial and on direct appeal.

In reaching

that result, the court held that a Rule 32 petitioner, s
ineffective assistance of trial counsel claims will be
procedurally barred from review if the transcript of the

364a

trial was prepared in time for appellate counsel to raise
~hose clalms in a ~imely filed motion for new trlal.
~ at 126.

Cf___~. V.R___=., 852 So. 2d at 202 I"~A] defendant

is not precluded . .. from raising an ineffective assistance
of trial counsel claim for the first time in a Rule 32
petition if the trial transcript was not prepared in time
for appellate counsel to have reviewed the transcript to
ascertain whether such a claim was viable an~ to present
the clalm in a timely filed motion for a new trial.").
In short, Alabama law provides that a defendant must
raise ineffective assistance of trial counsel claims as
soon as "practicable." ..~...ee Ala. R. Crim. P. 3~.2(d).

~n

addition, a Hule 32 petitioner’s ineffective assistance
of trial counsel claims wil! be procedurally barred from
review, under Rule 32.2 Is) of the Alabama Rules of Criminal
~rocedure, if newly appointed appellate counsel had the
trial transcript and raised (or reasonably could have
raised) ineffective assistance of trial counsel claims in
the trial court.

That is precisely what occurred here.

On J~iy 31, 2000, the trial court sentenced Miller to
death. (C. %0) During the sentencing hearing, the trial
cour~ stated that new counsel would be appointed for

~2

365a

Miller’s appeal. (R. 1473-74)

Mr. William R. Hill, Jr. and

Mr. J. Haran Lowe, Jr. (~appellate counsel"), were
s~bsequently appointed and filed a motion for new trial on
or abo~t Au~st I, 2000. (C. 93-94) In addition, ap~ellate
counsel filed a "Motion for The State of Alabama to Provide
T~anscript of Record.~ (C. 91-92) On Augllst 25, 2000,
appellate counsel filed an amended motion for new trial
alleging various claims including a claim that Miller’s due
process rights were violated because of the ineffectiveness
of trial counsel. (C. 7, 95-97) On Au~_st 30, ~000, the
trial court granted a joint motion to continue the hearing
on Miller’s motion for new trial until October 13, 2000 in
order for the transcript of Miller’s trial to be completed.
(C. 108-10)

After the trial court granted Miller funds for

~rt assistance, the hearing on th~ motion for ~ew trial
was again continued until December 7, 2000. (C. 7, 132)
The trial court conducted hearings on Miller’s motion
for new trial on December 7, 2000 and January 31, 2001.
(R2. 4-176.)

During the December 7, 2000 hearing, Miller,

through appellate counsel, call~d his trial counsel, Mickey
Johnson, at the hearing .and questioned him extensively
regarding his preparation for and performance during his

366a

trial as well as his trial strategies. (R2

4-110)

On

January 31, 2000, Miller presented the testimony of Dr. Bob
Wendor£, a clinical psychologist, to critique Dr. Scott’s
testimony during the penalty phase of Miller’s trial.
111-156)

Miller also called Aaron McCall from the Alabama

Prison Program to discuss the role and availability of
mitigation expert assistance. (R2. 157-175)

After the

hasting, Miller filed a Brief in Support of Motion for New
Trial and provided arguments in support of his claim of
ineffective assistance of counsel. (C. I14-I~.s]
On February 21, 2001, the trial court denied Miller’s
mo~ion for new trial. (C. 132)

Miller subsequently filed a

brief on appeal in the Alabam~ Court of Crlm!nal APpeals,
in which he raised a number of ineffective assistance of
trial counsel claims,
Criminal Appeals,

on remand from the Court of

the trial cortrt e-~tered a written order

providing specific

findings of fact regarding the claims
raised in Miller’s motion for new trial. In that order,

the trial court addressed Miller’s ineffective assistance
of trlal couzlsel claims at length: 1) that trial counsel
admitted Miller’s guilt during the g~ilt phase opening
statements, 2) that trial counsel failed to present an

~4

367a

1965

Insanity defense during the guilt phase, 3) that trial
c~unsel failed to move for a change of venue, 4) that trial
cuunsel failed to present a dafense during the guilt phase
of trial, 5) that trlal counsel undermined the mitigation
case during the penalty phase opening s~at~ment, 6) that
trial counsel failed to object to victim impact testimony
during the penalty phase, 7) that trial c~unsel failed to
adequately investigate and present a penalty phase defense,
and 8) that trial counsel failed to challenge the
constitutionality of the heinous, atrocious, and cruel
aggravating circumstance.
In reviewing those claims, the trial court found all of
Miller’s claims of ineffective assistance of trial counsel
tO be without merit. (See Appendix B)

Thus, the trial

court thoroughly reviewed and considered the evidence tb~t
was presented at the hearing on Miller’s motion for new
trial.

Based both on the trial court’s review of that

evidence and personal knowledge of what transpired during
his trial, the trial court rejected Miller’s ineffective
assistance of trial counsel clalms and denied relief.
On return from remand, the Court of Criminal Appeals
affirmed Miller’s capital murder conviction and death

368a

i966

sentence. Miller v. State, 913 SO. 2d 1148 (Ale. trim. App.
2004).

In its decision, that Court thoroughly reviewed and

rejected his ineffective assistance of trial couneel
claims. Miller, 913 So. 2d at 1161~63.
As shown above, Mill~r, through appellate counsel,
moved this Cc~r~ to continue the hearing on his motion for
new trial until the trial transcript was completed to allow
for a full review of his ineff~c~iv~ assistance of trial
counsel claims. (C. 108-0s}

Given tha~ the trial court

appointed appellate counsel to represent Miller on or about
August I, 2000 and the heariugs on Miller’s motion for new
trial were not h~iduntil December 7, 2000 and January 31,
2001, ~early six months passed between the trial court’s
¯appointment of appellate counsel and the completion of the
hearing on Miller’s motion for new trial,

As appellate

counsel Hill testified during the Rule 32 hearing, this
lengthy per~od of time was utilized to study the transcript
of Miller’s trial, review trial counsel’s files, conduct
l~al research, discuss strategy with appellate counsel
Lowe, interview Miller, talk with Miller’s mother and
otherwise prepare to litigate Miller’s ineffeotivs
assistance of trial counsel claims. (Rule 32 R2. 13,
16

369a

1967
Thus, Miller’s newly appointed appellate counsel had a
COpy of his trial transcript, engaged in a~ i= depth
izn~stlgatlon of his ineffe~tlve assistance of trial

counsel claims, and fully litigated those claims at the
hearing on his motion for new trial.

Miller also raised a

number of ineffective assistance of trial counsel claims on
appeal.

Accordingly, Miller’s claims of ineffective

assistance of trial counsel are proc@durally barred under
R~le 32.2 (a) (2) and (4) because they were raised at trial
and on appeal.

To the extent than Miller has expanded his

allegations of ineffective, asslst~-~ce of trial counsel
beyond those presented to. the trial court, the new
allegations .are procedurally barred frum this Court’s
review because t-hey could have been but were not raised in
Miller’s motion for a new trial and on appeal.. Ala. R.

crim. p. 32.2 (a) (3) amd (5); see Russell~v. S~ate, 886 So.
2d 125, 126 (Ala. Crim. App. 2003).
In the current post-convicticul proceeding, after
conducting a hearing on the state’s motlont~ dismiss
Miller’s amended petition, this Court dismissed Miller’s
ineffectiv~ assis~anoe of trial ~oumsel claims as
procedmrallybarredbecause such claims were raised during
~7

370a

1968

trial and on appeal. (See Appendix A, M.H. at 25-26) In
accordance with this Court’s order, Miller’s ineffective
assistance of tria! counsel claims are procedurally barred
fzomr~view add therefore, the following claims are

summarily dismissed under Rule 32.7 (d) of the Alabama Rules
of Criminal Procedure (these clalms include all~claims
listed as Claim I (A) in Miller’s amended petition):
Claim I(A) (1)(a) - The Claim That Miller’s Trial
Counsel Failed to Adequately Interview Him ~d His
Fancily tO Learn Critical Back~ro%u%d Facts
Concerning His D~bringing. Rule 32.2{a)~2) and
Rule 32.2(a) 5).
Claim I(A) (I) (b) - The Claim That Miller’s Trial
Counsel Failed to Obtain His Medical Records. Rule
32.2 (a) (2) a~ Rule 32.2 (a) (5).
Claim I.(.A..)L (i) {c) - The Claim That Miller’s Trial
Counsel Failed to ~nvestigate Evidence of Miller’s
Good Character and Family and Personal
Relationships. Rule 32.2 (a) (2) and Rule
32.2 (a) (5).
Claim I!A) (I) (d) - The Claim That Miller’s Trial
Counsel Failed to Investigate Me~ital Health
Evidence to Suppo~ Defense Theories In The Guilt
and Penalty Phases. Rule 32.2(a)(2) and Rule
32 ~2 (a)(5).
Claim I{A) (2) (a) - The Claim That Miller’s Trial
Counsel Failed to Seek a Contin~ulce When Mr. Bass
Withdrew A Few Weeks Before Trial. Rule 32.2(a) (2)
and Rule 32.2 {a) (5) .

Claim r (A] (2) (b..) - The Claim That Miller’s Trial
Counsel Erroneously Withdrew the Insanity Defense
18

[I

[

IIII

II

|iilll i

371a

969

Weeks Before Trial. Rule 32.2 la)(2) and Rule
32.2 (a) (4).
Claim I(A) (2) (c) - The Claim That Miller’s Trial
Counsel Failed to Move for a Change of venue
Despite Extensive, Prejudicial Pre-Trial
Publicity. Rule 39..2 {a) (2) and Rule 32.2 (a) (4).
Claim I(A) (3) (a) - The Claim That Miller’s Trial
C~unsel Conducted Ineffective Juror Volt Dire.
Rule 52.2(a) (2) ~nd Rule 32.2{a) (5) ,
Claim I(A) (3) (~ - The Claim That Miller’s Trial
Counsel’s Opening Statement in the Guilt Phase Was
Deficient and Prejudicial to Miller. Rule
32.2 (a) (2) and Rule 32.2 (a) (4) .
Claim I(A) (3) (c[ - The Claim That Miller’s Trial
Counsel Violated Miller’s Constitutional Rights by
Failing to Offer Any Defense Duringthe Guilt
Phase. Rule 32.2(a) {2) and Rule
Claim I(A.). (3)(d)_ - The Claim That Miller’s Trial
Counsel Failed to Object to the Admission of
Irrelevant and Prejudicial Testimmny and
Photographs by the State. Rule 32.2 (a)(2) and Rule
32.~ (a) (S).
Claim I (A) (3 ) (e)_ - The Claim That Miller’s Trial
Counsel ~ailed to Effectively Cross-Examine
Crucial Prosecution Witnesses. Rule 32.2(a)(2) and
Rule 32.2{a) {4).
Claim i(A)(3)(~,) - The Claim That Miller’s Trial
Counsel’s Closing Argument in the ~uilt Phase Was
Deficient and Prejudicial to Miller. Rule
32.2(a) (2) a/Id Rule 32.2{a) (5).
Claim I(A)- (3) (g) - The Claim That Miller’s Trial
Counsel Failed {o Object to Misleading Portions of
the State’s Closing Argument. Rule ~2.2
Rule 32.2 (a) {5).

19

372a

1970

Claim I(A)(3)(h) - The Claim That Miller’s Trial
Counsel Failed to Reques~ Jury Instructions
Necessary to Protect Miller’s Rights. Rule
32.2(a) (2) a/Id R~11e 32.2(a) (5).
claim I(A)(4)(a) - The Claim That Miller’s Trial
Counsel’s Penalty Phase Opening Statement Was
Deficient and Prejudicial. Rule 32.2(a)(2) and
Rule 32.2 (a) (4).
Claim I(A) (4) (b) - The Claim That Miller’s Trial
Counsel Failed to Adequately Present Readily
Available Mitigating Evidence to the Jury. Rule
32.2(a) (2) and Rule 32.2(a)
Claim I(A) (4) (c) - The Claim That Miller’s Trial
Counsel Failed to Object to Irrelevant and
Prejudicial Victim ~m~act Testimony Offered by the
State. Rule 32.2(a) (2) and Rule 32.2(a) (4).
Claim IIA) (4) (d) - The Claim That Miller’s Trial
Counsel’s Penalty Phase Closing Argument Was
Deficient and Prejudicial. Rule 32.a(a)(2) and
Rule 32.2 (a) (5).
Claim XIA)(4) (@) - The Claim That M~ller’s Trial
Counsel Failed to Request a Special Verdict Form
That Was Necessary to Protect Miller’s Rights.
Rule 32.2(a) (2) and Rule 32.2(a) (5).
Claim I(A)(4)(f] - The Claim That Miller’s Trial
Counsel Failed to Object to the Court’s
Description of the Verdict as a Mere
~Recommendation". Rule 32.21a)12) and Rule
32.2(a) (5).
Claim I(A)(5) - The Claim That Miller’s Trial
Counsel Failed to Investigate Mitigating
Circumstances, Prepare Adequately, or Offer
Available Mitigation Evidence at the Sentencing
Hearing. Rule 32.2(a) (3) and Rule 32.2(a) (5).

2O

373a

1971

Z~.

N£lle~’s Cla:~n That: Ris ~a~ S~~ V~ola~s ~

In cla!~ I~, para~s 289-98 of his ~~d ~tition,
Miller claims ~t his dea~ sent~ce vlolates ~
~iz~, 536 U.S. 5s4 (2~02).

H~ver, ~is Co~t

praviously dismissed ~s clai~ hachure it ~a~ rai~d
during the ~urse of Mill~r’s appeal. (See Appendix A] This
claim ~s s~cifically a~essed ~ re~c~ed ~ the C~rt
of Crlmi~l ~peals on direc~ appeal. Se~ ~iller v. State,
913 So. ~d 1148, 1167 (~a. ~Im. A~. 2004~.

~co~ngly,

this claim is pro~d~ally b~red ~der ~a. R. Crlm. P.
32.2(a) (4) Decause it ~s raised ~d a~ss~d on appeal
~ ~erefore.p~perly su~rily dis~ssed. ~a. R.
P. 32.7(d).
Le~l Xnjeeti~ C~Stltutes C~I ~

~is~t.
~ claim ~II, p~agraphs 299-302 of ~S ~ded
petition, Miller clai~ t~t lethal inJecti~ is
~constituti~l.

Ho~r, t~s Co~ p~vi~sly dis~ssed

this claim bacause it could ~ve been raised d~ing ~
course of Miller’s appeal. [See Appendix A) ~co~ingly,
this claim Is pr~edurally barred ~der Ala. R. Crim. P.
21

374a

32.2 (a) (5) because it could h~.ve been raised and addressed
ca appeal and therefore properly summarily dismissed. Ala.
R. Crim. p. 32.7(d).
Furthermore, this claim is completely without merit.
The Alabama Supreme Court has recently held that Alabama,s
use of lethal injection as a method of execution did not’
constitute cruel and unusual punishment. Ex parte Belisle,
No. 1061071, 2008 WL 4447593 (Ala. October 3, 2008).
I-~. Millez’ s Claim That The S~ W~thheld Favozable
@vlden~e I~ Violat~n Of Brady v.... Maz~land.
This claim fails to meet the pleading and specificity
requirements of Ala. R. Crim. P. 32.6 (b).

In its previous

order of J~ly 31, 2007, this Court ordered that this claim
was summarily dismissed u~less Miller amended the claim
within 60 days.

Miller failed to do so.

Therefore, this

claim is summarily dismissed. Ala. R. Crim. P. 32.7(d).
V.

M~llez’s C,].a4’m ~’a~ Juz’oZ Mis~n~nmt Oc.:nzz’z’~
Trial.
This claim fails to meet the pleading and specificity

requirements of Ala. R. Crim. P. 32.6(b).

In its previous

order of July 31, 2007, this Court ordered that this claim
was summ_._~rily dismissed unless Miller amended the claim

375a

within 60 days.

Miller failed to do so.

Therefore, this

claim is su~._~rily dismissed. Ale. R. Crim. P.

I(B).

~ll~’s Cla~ ~ ~la~ ~sel Was
~e~fecti~ ~ ~nti~ati~
D~.

The only remaining claim that is not subject to summary
dismissal is Miller’s allegation in claim I (B) of his
a~ed petition that his appellate counsel provided
ineffectiv~ assistance.

~n Strickland v. Washington, 466

U.S. 668 (19R4), the United States Supreme Court set forth
~he snandard by which ineffective assistance of counsel
claims are to be Judged.

To prevail on an ineffective

assistance of counsel claim, a petitioner must show ~ha~:
(I} counsel’s performance was deficient because it fell
below an objective snandard of reasonableness; and,
that the deficient performance prejudiced the p~titlc~_r.
~ at 687.

In promulgating that standard, ~he Court held:

First, the defendant ~ust show that couns~l’s
performance was deficient. This requires showing
~h__~t counsel made errors so serious tha~ counsel
was not functioning a~ the ~counsel’ guaranteed
the defendant by the .sixth Amendment. Second, ~he
defendant must show that the def±cient performance
prejudiced the defense. This requires shuwin~
~hat coun~el’s errors were so serious as to

376a

deprive the defendann of a fair trial, a trial
whose result is reliable.
Id.

This two-part feet also applies to claims of

ineffective assistance of appellate counsel. Johnson v.
Alabaza, 2S6 F.3d i156, 1187 (llth Cir. 2001).
The standard £or Judging counsel’s performance is
"Eeasonabieness under prevailing professional norms."
Strickland, 466 U.S. at 688.

There is a strong presum~tlon

that counsel’s conduot falls within the "wide range of
reasonable professional assistance.,, Id. at 689.
Otherwise, "lain attorney looking at a trial transcript can
always find places where objections could have been m~_de.
Himdslght is not always 20/20, but hindsight is always
ineffective in evaluatin~performance of trial counsel."
Tarv~r v. State, 629 So. 2d 14, 18-19 (Ala. Crim. App.
1993).

Accordingly, because counsel’s conduct is presumed

’to have been reasonable, the analysis under Strickland ."has
nothing to do with what the best lawyers would have done
¯ .. [or] what most good lawyers would have done."

~

v. Tho~oso~, 257 F.3d 1194, 1216 (11th Cir. 2001).
IDs~ead, the question is whether ~some reasonable lawyer at
the trial could have acted, in the circumstances, as
defense coumsel acted at trial.- Id.

377a

For that reason, "to show that counsel’s performance
was unreasonable, the petitioner must establish that no
c~petent counsel would have taken the action that his
counsel did take." ~_I..d.... (emphasis in original).

Thus,

counsel’s performance will not be found deficient if a
reasonable lawyer could have decided, under the same
circumstances, no~ to investigate or present particular
evidence. Sere Crawford v. Head, 311 F.3d 1288, 1312 (llth
Cir. 2002)(~This court agrees that testimony from a mental
health expert ... would hav~ been admissible and might be
considered to be mitigating.

However, trial counsel chose

to pursue a strategy of focusing the jury’s attention on
the impact of a death sentence on petitioner’s family.
This co~ur~ will not second guess trial counsel’s deliberate
choice.") ; Housel v. Head, 238 F.3d 1289, 1295 (lit!% Cir.
2001) (~ [A]bandonlng one defense in favor of another that
counsel reasonably perceives to be more meritorious is not
deficient performance, even if it means ~hat the jury dues
not hear certain kinds of mitigation evidence.").
Under the Prejudice prong of Strickl~!d, 456 U.S. a~
6%3, "lilt is not enough Zor the defendant to show that the
errors had some conceivable effect on the outcome of the

378a

proceeding."

Instead, ~[t]he question is whether there is

a reasonable probability that, absent the errors, the
sentencer .., would have concluded that the balance of
ag~ravaning and mitigating circumstances did not warrant
death."

~d. at 695.

Thus, in determining whether,

’~without the errors, there is a reasonable probability that
the balance of aggravating and mitigating circumstances
would have been different," a reviewing court must consider
the aggravating circumstances that were proved beyond a
reasonable doubt at trial..See also Bulender v. SingletarY,
16 F.3d 1547, 155611557 (llth Cir. 1994).
The Supreme Court’s decision in Strickland mandates
that Miller’s claims be reviewed with a presumption that
his counsel was effective.

~or that reason, where the

record is unclear or silent -- either because an issue was
not addressed or b~cause his co~m.sel could not recall this Court should presume that his counsel .acted in a
manner consistent with the counsel that is guaranteed by
the Sixth Amendment. Hooks v. State, CR-04-2220, 2008 WL
3989502 at "19 (Ala. Crim. App. Aug~s£ 29, 2008)
(referencing ~rayson v. Thompson, 257 F.3d 1194, 1218 (11th

2~

379a

Cir. 2001)~ see also Chandler v. on/ted States_,
218 P. 3d
1305, 1315 n.15 ~11th Cir. 2000].
In paragraphs 280-288 of his amanded petition, Miller
a11eges that his appellate counsel were ineffective during
~helr investigation and preparation for his moticul for a
new trlal and on direct appeal.

Miller claims that his

appel/a~e counsel were ineffective in the following areas:
I) that his appellate

counsel did nothing to independently

investigate his case

~Paragraphs 282-83), ~) that appellate
counsel were ineffective in arguing that trial counsel was
ineffective for withdrawing the insanity defense arid
failing to present evidence in ~he guilt phase tc negate
intent {Parasr~ph 284), 3) that appellate counsel failed to
obtain medical records for Miller and his family and failed
to have Miller independently examir~d by a Rental health
exp~rt (Paragraphs 285-86~, 4) and that appella~e counsel
failed to raise additional Claims of error d~ring the
motion for new trial such a~ trial counsel, s allegedly
ineffective performance during volr dire {Paragrap~ 28~).
{Pet. at 84-88)

M±11er, s claim is denied because he has f~iled to prove
that his appellate counsels, Performance during the motion
27

380a

1978

for n~w trial hearing and on direct appeal was deficient
and unreasonable.

Miller also failed to demonstrate that

appellate counsel’s performance was not the product.of a
s~ranegic decision.
Miller’s appellate counsel went to great lengths to
fully investigate the issue of the ineffectiveness of trial
counsel during the hearing on Miller, s ~otion for nsw
trial.

After being appointed as appellate counsel for

Miller _~_~d filing a ~otion for new trial, appellate counsel
obtained several continuances for the hearing on the motion
for ~new trial in order for ~he trlal transcript to be
prepared. (C. 1321 ~!late counsel utilized this time ~0
investigate, research and prepare to present several claims
of ineffective assistance of trial counsel..
Appellate counsel Billy Hill testified at the Rule 32
eviden~iary h~aring that during this time b~fore the trial
tr~ulscrlpt-was completed, he met wi~h Miller in the Shelby
County jall and obtained general family background
information. (Rule 32 R2. 13, 15) Hill also t~stlfled that
h~ reviewed reports of trial counsel’s conduct in the local
newspapers and both Hill and appella~e co~ns~l Haran Lowe
testified t~__~_tth~y interviewed an_e~ discussed the trial

381a

1979

with Barbara Miller, Alan’s mother.. (Rule 32 R2. 22, 30,
84)

During the interview with Ms. Miller, appellate

c~ns~l was alerted to the possible history of mental
illness in Miller’s family. (Rule 32 R2. 30)

As a result,

ap~ellate counsel attempted to obtain access to the mental
health records of Miller’s grandfather and father from
Bryce Hospital but was unsuccessful. (Rule 32 R2.
Hill amd Lowe received the trial transcript on November
2, 2000,. studied ~ transcript and identified ~otential
errors and defects in trial counsel’s performance. [Rule 32
R2. 23, 84)

After exam!ning the transcript, appellate

counsel conducted legal research, reviewed Dr. Scott’s
reI,Drt of his evaluation of Miller, acquired and reviewed
trial counsel Johnson’s entire case file, and gathered
newspaper a~ticles about Miller’s trial that were written
in the Shelby County area. (Rule 32 R2. 60) Finally, Hill
testified that they interviewed Johnson in preparat.~n f~r
the hearing on the motion for new trial. (Rule 32 R2. 36)
Based on this investigation and after spendlu~ a great
deal of time thinking about M.iller’s case, Hill testified
t!fat he identified several major concerns regardlmg trial
oounsel’s performance. (Eule 32 K2. 41-43, 58)

382a

1980

Specifically, Hill stated that he was concerned about trial
counsel Johnson’s failure to present a mental capacity .
argument during the guilt phase, that Johnson dropped the
insanity defense, that Johnson had a "defeatist attitude"
a~d that there was significant pre-trial publicity. (Rule
3~ R2. 41-42] Accordingly, Hill testified that he focused

on preparing to present those claims that would provide the
strongest argument for relief during the hearing on the
motion for new trial. (R111e 32 R/. 63)
To address the speclf~c concerns re~ardlng trlal
counsel’s performance, Hill called Johnson to testify
during the December 7, 2000 hearing. (R2. 4-110) During r.he
evidentlary hearing, Hill stated his strategic purpose for
calling Johnson: 1) to emphasize statements made by Johnson
before urial that were prejudicial, 2) to show that
essentially no mitigation testimony was presented, and 3)
that trial counsel did not present mental health evidence
during the case in chief. (Rule 32 R2. 43)
A review of appellate counsel’s questioning of Johnson
during the December 7, 9-000 motion for new trial hearing
demonstrates that Hill thoroughly examined Johnson on those
issues.

The focal point of aill’3 examination of Johnson

383a

1981

centered on Johnson’s strategy during the guilt phase of
Miller’s trial. (R2.. 14--17,. 29-37) Hill sp~cifically asked
Johnson whether he actuallyhad a theory of defense to the
charge of capital murder. (R2. 14) After Johnson stated
that the evidence of guilt was too overwhelming, Hill ~hen
probed Johnson on .why he did not have Dr. S0ott "make an
examinatloa as to whether or not his deluslonal diagnosis
could have impacted his ability to form a specific intent"
so that a manslaughter defense could have been argued
during the guilt phase. (R2. 16) H~II then elicited
testimony from. Johnson that he did not use the readily
a$ailable evidence in Dr. Scott’s report that Miller was in
a ~elus~mal state, made no attempts to shoot witnesses,
made ~o ~tte~ t-to c~er up the crime, and t~t Miller did
no~ understand what was going on to arg!~ during the guilt
;~ase t~.~t Miller could not form specific intent necessary
tO sustain a

onviction for capital murder. (R2. 28-29.,

37) Finally, in response to Hill’s q~estioning, Johnson
agreed that he had ~conceded the guilt phase of this case."

Next, Hill introduce~ reports from a number of
~spapers, izlcludlng the Birmingham News, which preceded
31

_

I I

illlllll

I

II
384a

II I

I II

il

.

..............

~filler’s trial. ~R2. 501

Hill then questioned 6ohnson on

why he was mot concerned that comments Johnson made in the
-Birmingham News regarding the withdrawal of the insanity
plea could have been prejudicial. (R2. 52) Hillthe~ asked
Johnson whether he was aware of the extensive coverage of
Miller’s case and why Johnson did not move for ~ change of

Finally, Hill questioned Johnson ~egarding his trial
s~rategy during the penalty phase, Johnson’s investigation
of mitigating evidence and the presentation of miti~atlon
~rldence .d~Iringthe penalty phase. (R2. 17-.25, 65-70)
Johnson .testified that his strategy during the penalty
phase involved.presenting the testimony of Dr. S~ott to
~strate that Miller suffered from a diminished
capacity. (R~. 17-18) Hill then repeatedly q~estioned
Johnson on the reasons he did not present additional
mitigating evidence such as testimony concerning Miller’s
bad relatlonship with his father, the testimony of Miller’s
fam~l¥ m~mbers, specifically his mother, Barbara Miller,
concerning Miller’s backgrottnd and evidence of Miller’s
grandfather, s psychiatric issues. (R2. 20-24° 65-68)

385a

1983

In ~ further attempt to prov~ that trial counsel was
ineffective in the presen~ation, of ment~l health evldence,
appellate c~Rel.sought ~n~ were granted funds to hire Dr.
Bob wendorf, a clinical psychologist who testified at the
January 31, 2001 hearing on Miller’s motion for new trial.
(C. 132) Appellate counsel Hill stated that hemade a
strategic decision to call Dr. Wendorf in order to show
that based on the information available in Dr. Scott’s
report, there w~r~ additional psychological diagnoses that
could have Detrained to Miller that were nct pursued by
trial counsel. (Rule 32 R2o 44, 70).

Specifically, based

on the information contained in Dr. Scott’s report that
Miller described himself as being in a dream state during
the shootings, Dr. Wendorf testified that such actions were
consistent with symptoms of a dissociative disorder such as
post-traumatic stress disorder or multiple personality
disorder. (E2. 144-46)

Hill then elicited from Dr. Wendorf

that the effects of such disorders could have had an impact
on the ability to form intent. (R2. 147)
Finally, in an effort to prove that trial counsel had
not presented adequate mitigation evidence during the
penalty phase, appellate counsel called Aaron McCall, an
33

386a

1984

employee of the Alabama Prison Project to testify during
the January 31, 2001 hearing. |R~. 157-175) Hill testified
during the eviden~iary hearing, that the strategic purpose
f~T calling McCall was to prove that a qualified mitigation
exl~e, rt witness was avails.ble to conduct a full mitigation
investigation of Miller’s life. (Rule 32 R2. 49) In fact,
in ~an effor~ to demonstrate that mitigation experts were
available at the time of Miller’s trial, appellate counsel
Lowe introduced a letter sent by McCall to trial counsel
JOhnson in August of 1999 in which the Alabama Prlso~l
Project offered services and assistance in providing
mitigating evidence for’the trial. (R2. 158-60)
The evidence presented during the Rule 32 evidentiary
hearing .demonstrates that both appellate counsel vigorously
investigated Miller’s case in preparation for presenting a
case of ineffective assistance of counselL and adequately
presented such claims during the December 7, 2000 and
January 31, 2000 hearings on Miller’s motion for new trial.
Miller has not met the b~rden of demonstrating that his
appellate, counsel’s performance was deficient under the
first Snrickland prong.

Miller has failed to establish

that appellate counsel’s performance was so unreasonable

387a

1985

that no competent counsel would ha~e investigated and
prese.~ted claims of ineffec~i~ assistance of trial co--el
d~ing the ~i~ for ~w ~rial hearing ~ ~ direct
a~l. in ~ ~r in w~ch a~11ate c~sel Hill
LOWe presented ~ller’s case. ~e~ Gra~ v. T~s~, 257
~.3d 11%4, 1216 (11~ Cir. 2001).
Contrary to Miller’S clai~ in p~a~a~ 282 of his
~~d ~tlti~ ~-~t ap~llate c~sel ~d ~t in~e~i~
f~ly m~rs, Hill ~d ~ Specifically stated t~t they
int~i~d B~r~ Mille~ in p~ati~ for t~
~ t~ ~tlon for new trial. [Rule 32 ~ 30, ~4) ~ntra~
to Miller’s cla~ that appellate co~sel did not obta~
~y docents pertaining to ~ller’s llfe end ~ckoro~d,
~£h of his ap~llat-e co~el Uestlfied t~t
unsuccessfully attired to obtain Miller’s f~ily
ps~hiatric reco~s. (Rule 32 ~. 34, 86) Silly
a~ellate c~el we~ ~Successful in obtaln~
~co~ ~s ~t ~~trate ~flcient perfo~,-~ce.
~rthe~re, even if the mental heal~ records of Miller’s
f~ily ~ers ~re obtained, Miller ~s failed
est~lish t~t a c~en~ atto~y ~d ~ int~uc~
s~h reco~.

II

II II

-

..

Both Hill ~ ~ testifi~ ~t ~ their

III III

III

I

II
388a

.Ill

II.I

li

,

extensive experience defending capital murder cases,
neither had introduced, the psychiatric or medlcal records
of a defendant’s extended family. (Rule 32 R2. 69, 103)
Furthermore, although Hill testified that he did not.
interview .other family members or accumulat~ other
doclmm.nts, Miller failed to present any evidence durin9 ~he
evidentlary hearing as to why appellate counsel did not
~ulduct further interviews or obtain more of Miller’s
records.

Miller failed to question appellate counsel on

the strategic reasons for how appellate counsel conducted
their investigation in this regard.

There is a strong

presumption that counsel’s performance was within the "wlde
range of reasonable professional assistance."
Thompson, 257 F.3d-1194, 1216 (11th Cir. 2001).

Grayson v.
~An

ambiguous or silent record is not sufficient to disprove
the strong and con~inuins presumption [because] where the
record is incomplete or unclear about [counsel’s] actions,
[the .court~ will presume that he did what he should
~ve-dmn~, and that he exercised reasonable professional
j~dgment.-

Chandler v. United States, 218 F.3d 1305, 1315,

n.15 (llth Cir. 2000).

Because the record is .silent as to

why appellahe counsel did not interview m_ors of Miller’s

389a

family members and obtain additional educational, mental,
or employment records, this Court must presume that
appellate counsel acted reasonably in representing Miiler.
For that reason, Miller’s claims should be denied.
Although Miller claims that appellate coum~sel
ineffectively argued that trial counsel failed to present
msmtal health evidence during the guilt phase that would
have negated the intent for capital murder, Hill
speclficaliy questioned Johnson on his failurs to present
e~idence of Miller’s mental condition during the guilt
phase. {Rule 32 R.~64) Hill testified that he and Lowe made
a strategic decision to challenge trial counsel’s
performance in this regard during the ~uilt phase. (Rule 32
R2!. 66) Hill’s strategy involved demonstrating that there
was evidence within Dr. Scott’s report that suggested
Miller did not appreciate ~he nature ~nd quality of his
acts, that this evidence would be s~gnlficant in mounting a
defense to capital murder charges, and that this evidence
was not presented during uh~ guilt phase. [Rule 32 ~2. ~465) Appellate counsel’s strategic choices after conducting
extensive legal research and review of the trial tr_a__n..scrlpt
and Dr. Scott’s report should not be found to be deficient.
37

I

III .

I

II ililli

,

,

390a

,.

.

,

1988

S~e Boyd v. State, ?46 So. 2d 364, 375 (Ale. Crlm. App.
i999) (~’Strategic choices made after a thorough
investigation .of relevant, law and facts are virtually
unchallengeahle."~

The U!tln~te result that appellate

counsel’s s~rateoy to attempt to demonstrate ineffective
assistance of trial counsel was unsuccessful does. not prove
deficient performance of appellate counsel. See Davis v.
state, 2008 WL 902884 air *8 (Ala. Crlm. APP. April 4,.
~008) (~The fact that a particular defense was unsuccessful
does not prov~ ineffective assistance of counsel")(quoting
Chandler v. I~lited States, 218 F.3d 1305, 1314 (llth Cir.
2000)).
Fi~ll¥, M!ller be8 not proven .~t aI~ellate co~u:sel
w~re daficien~ u~r Strlckl~d for faili~ to present
~Iditio~l cl~i~ of ineffacti~.~ assis~ce of trial

counBml during the motion for n~w trial hearing that have
been raised by current post-conviction counsel. (Pet. at
87) To constitute effective assistance, "~n attorney is not
required to raise every conceivable constitutional claim
available at trial and o~ appeal." ~___~, 746 so. ~.d at ~75.
Moreover, Hill testified during the evid~ntiary hearing
that he had strategic reasons for presenting specific

391a

1989

issues of ineffective assistance of trial .c~.n._-_el; Hill
~stif±ed ~ha~ he focueed on Presenting the strongest
claims during the motion for new trial hearing. (Rule 32
R2. 63) Hill testified t_h_~t h~ ~ade strategic decisions to
focus on trial counsel’ s failure to present evidence during.
the guilt phase,, trial counsel’s ~ailure to move for change
of venue, and trial counsel’s failure to effectively
challenge the aggravating circumsnance presented during the
~nalty phase., (Rule 32 R2. 66-67) Miller has failed ~o
esnabli~h tha~ no c~petent counsel would hav~ pursued such
strategies.
For these reasons mentioned above, Miller has failed ~o
m~et his burden of proof of ~stabllshlng that his appellate
counsel’s performance was deficient under Snrickland;
therefore Miller’s ineffective assistance of appellate
claims are without merit.

Accordingly, these claims are

’denied.
Additionally, this claim is d~nied because Miller has
failed to s.usRain his burden of proof of establishing than
he was prejudiced by his appellate counsels’ perfo~n~nce.
In paragraphs 280-88 of his amended pe~Inlo~, Miller
alleges both that his appellate counsel ineffectlvely
39

392a

1990

Presented claims of ineffective assistance of trial coumsel
during the hearing on his motion f~r new trial ~nd that his
appellate counsel were ineffective for failing to raise
additional claims of ineffective assistance of trial
counsel as contained in Miller’s current amended petition.
However, Miller has failed to establish that he was
prejudiced by his appellate counsel’s alleged failure to
effectively present the issue of the ineffactivaness of
trial counsel because his £rial counsel’s performance was
not ineffective under Strickland.

In order to prove that

appellate counsel was ineffective for failing to present
the issue of trial counsel’s alleged ineffectiveness,
Miller bears the burden of proving that his trial counsel
were indeed ineffective under Strickland.

Although

Miller’s ineffective assistance of trial counsel’s claims
.are procedurally barred, he failed to establish during the
evidentiaryhearing t.~.-t he is entitled to relief ~n any of
his claims of ineffective assistance of trial co%ulsel.
Therefore, because he has failed to establish ~hat his
trial counsel were ineffective, Mll~erhas also failed to
establish a reasonable probability that had his appellate
counsel presented claims of ineffective assistance cf trial

393a

1991

counsel more effectively the outcome of the motion for new
trial .would have been different. See Payne v. State, 791
so. 2d 383, 401 (Ala. Crim. App. 1999)(holding the because
petitioner’s claim of ineffective assistance of trial
counsel was rejected, appellate counsel was therefore not
ineffective).

Because Miller has incorporated all of his

ineffective assistance of trial counsel claims (paragraphs
25-279) into his claim of ineffectiv~ assistance of
appellate counsel, in order to demonstrate Miller’s f~ailure
to meet his burden of proof regarding the prejudice pron~
of Strickland for claim I(B) of his amended petition, this
Court will address Miller’s ineffective assistance of trial
counsel claims belcw~
MilleE’s Claim That His Trial C~un~el Faile~ To
C~n~uct an Ade~ate Znwem~iEati~n.
In paragraphs 25-132 of his amended petition, Miller
claims that his trial counsel failed to conduct an adequate
investigation and as a result, failed to discover relevant
evidence that could have led to him being found not guilty
of capital murder by the jury or that could have led to a
sentence of llfe imprisonment. (Pet. at 6) Miller claims
that trial counsels’ investigation was inadequate in the
following areas: 1) that trial counsel failed to interview
4~

394a

¯
Miller and his family to learn critical background ~acts,
2) that trial counsel failed to obtain Miller’s medical
records, 3) that trial counsel failed to investigate
evidence of Miller’s good character and personal
relationships, and 41 that trial counsel failed to
imvestigate mental heal~h evidence.

This Court denies each

of Miller’s claims because he has either failed to
establish proof of such claims, abandoned his claims, or
the claims are refuted by the record.
I.

Mill~T’s Claim That
, Learn Cri~i=al
~illm=’ s Up~=iugin~.

In paragraphs 31-65 of his amended petition, Miller
allegea that his trial =ounsel failed to adequately
investigate facts pertaining ~o his background and d~velop
a mitigation case to present to the jury. (Pet. at
Miller clalms that his ~rlal counsel failed to utilize his
family members as a source of information concerning
Miller’s unstable childhood and the physical and
Psychological abuse he received.
This claim is denied by thi~ Court because it is
directly r~fut~d by the record and is therefore without
~erlt. Se~ Gaddy v. Stat~, 952 So. 2d 1149, 1161 (Ala.

395a

1993

Crim. App. 2006); Dunca.n v. State., 925 So. 2d 245, 266
(Ala. trim. App. 2005).

Trial. counsel Johnson testLfled

t~at he met With Miller personally ~at least half a dozen
tames." (R2. I0) During the evidentiary hearing, Johnson
stated that he and co-counsel Bass interviewed Miller on
numerous occasions from the beginning of their
r~pres~ntation in A~ust of 1999 up until the tim~ of
trial. (Rule 32 R. 32, 41, 45, 46) Joh~so~ stated that the
purpose Of these meetings ~invo!ved conduuting ~conti~ued
pEeparatlon for trial." (Rule 32 R. 46-4?)
Johnson also interviewed Miller’s family members such
as his .father, mother, and his sisters with the specific
focus of ~ncovering general background informatio~ .and
facts co~cernlng his relationship with his father. (R2. 2122) Johnson met with the family on the day of the shootings
on August-5, 1999 and spoke with his mother Barbara @~d his
brother Richard in order to get family b~ckground
information. ~Rule 32. R. 38-39) Bass had a thirty minute
phone convezsatio~ with Barbara Miller on August 6, an hour
long conversation with Lisa Miller, Miller’s sls.ter on
Au~ist 29, and had discussions again with Barbara Miller ~n
October 24. a~d November 8, (Rule 39. R. 40, 42, 44,

396a

!1

II

la

im

i994

Johnson testified that these meetings with Miller’a family
were part of an ~.ongolng effort" to get helpful information
a~d t!~at Bass would have shared this informa~io~ with him.
(Rule 32 R. 41, 43-44)
Johnson himsel~ met with Barbara Miller’ for a 90 mi~ite
conference on March 1, 2000 and also talked with Brian
Miller, his cousin, and Lisa Carden~ his Bister. (Rule 32
R. 46, 163, 165)

Based on these interviews, Johnson

testified that he learned infoz~._.~tion about Miller’s
backgro%uld and upbringing. (Rule 32 R. 165-56)
A~dltlonally, trial counsel discovered from the interviews
e~idence of a family history Of mental illness. (Rule 32 R.
8~)

Johnson alao recall~d r~ei~ing information abo~t

Miller’s upbr-inging and background as ~ell as ~osltlve
i~formation about Miller from his brother, Rich-..~d Miller.
(Rule 3.2 R. 159) .Gi%~_n that the r~cords of both the motion
for new trial hearing and the Rule 32 evidentiary hearing
indicate ~hat trlal counsel met with Miller and his family
tumorous tim~s £or the purgose of developing information
conc~rnlng his background and upbringing and therefore
directly refutes Mill~r’s allsgatlon, this claim is denied.
S~ .Gaddy, 959-80. 2d at 1161.

397a

1995

This Court also denies Miller’s claim because Miller
~_".s failed to meet his b~rden of proof, of demonstrating
that his trial counsels" performance was deficient under
.S.~.rlckl~n~., 466 U,S. at 687. Ale. R. Crib. p. 32.7(d).
As noted above, evidence waspresented that trial counsel
J~hns~n and Bass repeatedly intezvlewed Miller and his
mother and spoke with his father, brother a~ sisters for
the purpose of discovering information relating to Miller’s
upbringing and family background. (1%2. 21-22, Rule 32 R.
38-46) Miller failed to present any evidence during the
evidentiary hearing that trial counsel failed to ask a
specific question regarding his unstable childhood or his
childhood history of abuse.

Therefore, because the record

is silent,, trial counsels’ performance in regards to his
i=vestigation ~nd_ interviews of Mill~r and his family is
presumed to be reasonable. Se__e Williams v. Head, 185 F.3d
1223, 1228 (11th Cir. 1999) (~[W]here the record is
incomplete or unclear about [counsel’s] actions, we will
presume that he did what he should h~ve done and that he
exercised reasonable professional Judgra~nt."} ; Chandler v.
United States, 218 F.3d 1305, 1315 n.15 (llth Cir. 2000)

398a

1996

Trial counsel was not deficient in the scope of family
interviews conducted during his background information,
despite Miller’s laundry list of family members he alleges
should have been interviewed: his father, Ivan Miller, his
sister~, Lisa Carden and Cheryl Elli~on, his brother,
Richard Hiller, his half-brother, Jeff Cart, his niece,
Alicia Sanford, his nephew, Jake Cozme11, his cousin, Brian
Miller, and his uncle, Perry Miller. (~et. at 9-10}
Contrary to Miller’s claims, trial counsel met with and
interviewed, Ivan Miller, Richard Miller, Lisa Carden, and
Brian Miller. (R2. 21-22, Rule 32 R. 159, 163, 165) Neither
Jeff C~rr nor Perry Miller testified during the evidentiary
hearing, therefore there is no record whatsuever of whether
these family members could have provided any relevant
background i~formatlon.
Miller has failed to prove that trial counsels’
investigation of his family members was not reasonable, nor
~__~_~ he demonstrated that all reasonably competent counsel
would have also interviewed the additional family members
Miller claims should have been interviewed.

Regardless,

trial cuunsel c~r~ot be found deficient for failing to
interview the remaining family members concerning

399a

information on Miller’s life: Cheryl Ellison, Alicia
Sanford, and Jake Connell.

First~ information from Cheryl

Ellis0n was ultimately obtained through her interview with
Miller’s psychiatric expert Dr. Scott. (Rule 32 R. 315}
Additionally, the evidence presented during the evldentiary
hearing demonstrates that Ellison failed to provide a.~_y
meaningful information.

Although Cheryl Elllson stated

that she knew of Miller since he was born, she also
testified that she did not ~row up with the immediate
Miller family and stated that she spent ~very little" time
with the Miller family throughout her childhood. (Rule 32
R. 501) Ellison’s testimony during the evidentlary hearing
provided virtually no additional, relevant information
concerning Miller’s background other than general testimony
that Ivan Miller was a bad person and irrelevant testimony
concerning Miller’s brother, Ivan Ray Miller’s death and
f%Izlaral. (Rule 32 R. 500-529)
Furthermore, trial counsel had no reason to interview
Miller’s niece, Alicla Sanford and his nephew, Jake
CoE~ell.

Allcla Sanford testified that she was 14 years

old at the time of trial and did not attend Miller, s trial,
nor ~id she a~tead anY family meetings with trial counsel.
47

400a

1998

I
(Rule 32 R. 498-99) Not o~iy could trial counsel not have

been aware of whether Alicia Sanford was available ~o
testify, but it is unlikely that a witness 14 years old at
the time of trial coul~ have provided any background
information whatsoever pertaining to Miller who was over
twiue her age.

Similarly, .trial counsel reasonably-had no

ability to be aware of Jake Connell"s availability as a
witness, nor could Connell provide _~_ny useful background
information.

Connell was 18 years old at the time of

Miller’s trial, did not spend much time growing up with
Miller, and did. not attend Miller’s trial. {Rule 32 R. 584-

Finally, the investigation into Miller’s. childhood
background ~D~ hls£ory of ~buse through the interviews of
family members was adequately performed: by Dr. Charles
S~ott,. the psychologist who testified during ~e penalty

phase of Miller’s trial. See Hall v. star_e, 979 so. 9d 125,.
163 |Ala. Crim. App. 2007)(~It is neither unprofessional
nor unreasormble for a lawyer to use suxxogates to
investigate _~._.rid interview potential witnesses rather
doing, so. pers~nally")~ (-referencing Harris v. Du~ger, 874
P~d 756, 762- & n. 8 (llth Cir.1989)).

401a

Although Dr. Scott

1999

was no~ originally engaged by trlal counsel for the e~press
purpose ’of conducting a mitigation investigation, Johnson
felt thatDr. Scott did "a pretty thorough job of getting
family history that he felt was relevant, employment
history, all of those that you want to present some
information about to a jury.
I
I

i

He was able to present those

things with the jury." (Rule 32 R. 188, 222) During the
penalty phase of Miller’s trial, Dr. Scott confirmed the
importance of his role in learning as much as he could
about Miller’s social background, personal history, as well
~s the facts of Miller’s case. (R. 1348)
As part of his investigation, Dr. SCOtt met with Miller
o~er ~a ~eriod of three days and conducted extensive
interviews and examinations. (Rule 32 R. 314) To-co~Ifizm
background information, Dr. Scott also interviewed Barbara
Miller, his brother, Richard Miller, and his sister Cheryl
Elilson. (Rule 32 R. 315) After Dr. Scott’S investigation
was co~pleted, Johnson then discussed with Dr. Scott the
az~as in which Dr, Scott could provide helpful miti@ation
testimony during the penalty phase of Miller’s trial. (Rule
32 R. 190, 253-54)

Therefore, because trlal counsel, both

through his ow~ investigation and through that of Dr.

402a

~ooo

~ott, ~ thoroughly inquired into the background and history
of abuse in Miller’s childhood,. Miller has .failed tO meet
his burden of proof of demo~stratlng that his trial
Oounseis’ i~vestlgatlon was deficient and this claim is
denied.
This claim is also denied by this Court because Mi.ller
has failed to meet his burden of proof of establishing that
he was prejudiced by his trial counsels’ performance under
S~rickland, 466 U.S. at 687. Ala. R. Crim. P. 32.7(d).
Ewen if Miller could have demonstrated that his trial
counsels’ investigation of his background was deficient, he
c@~ot ~rove that he was prejudiced because extensive
~estimony was nonetheless presented during the. penalty
phase of his trial regarding his unstable childhood and the
physical and ~motlonal abuse Miller suffered.
Dr. Sc0tt’s initial testimony during the penalty phase
focused squarely on Miller’s family background. (R. 13481353)

Dr. Scott testified that Miller had an "unusual"

childhood and was forced to uproot from Illinols, Alabama
and Texas at least seven to ten times. (R. 1349) Dr. Scott
stated that these frequent moves were the consequence in
part of Miller’s father, Ivan’s, inability to keep a steady

403a

¯

¯

Job. (R. 1349) As a result, Miller’s family was ~on the
edge of poverty" and Miller personally had to quit school
a~ early as the eleventh grade to get a J cb to suppor~ the
faT~ily. [R. 1349-50)
Dr. Scott also provided testimony on Ivan’s abusive
~behavior towards Miller.

Dr. Scott documented Ivan’s

verbal abuse, testifying that Ivan called Miller a ~son of
a bitch." (R. 1350)

Dr. Scott also gave specific accounts

of t~ physical abuse Miller suffered from his father
skating that Ivan ~frequently bullied and left bru±s~s on
[Miller] ; Dr. Scott also related a specific incident when
Ivan threatem~d to stab Miller with a butcher knife after
Miller returned from school. (R. 1350-51) Dr. Scott also
testified regarding Ivan’s drug use and his obsession with
c~It-like, h~alin9 practices. Id.

Finally, Dr. Scott

testified that Miller ofte~ witnessed Ivan’s verbal and
physical abuse of his mother, Barbara. (R. 1351)
As the trial record indlcates~, the information
concerning Miller’s abusive and unstable childhood that he
claims his trial counsel were inefZective for no~
adequately in~estigatingwas presented substantially during
the penalty phase of Miller’s trial.

404a

Miller cannot

2001

establish that he was prejudiced by his trial counsels’
performance amd accordingly, he has failed to meet his
burden of proof.
2.

Therefore, this claim is denied.

Millez’s Claim Tha~: Tzial C~unsel Faile~ T~
~%ain Millez’ s Mm~i=al Re~.

In paragraphs 66-74 of his amended petition, Miller
alleges that his trial counsel failed to obtain his medical
records. (Pet. at 20) Miller claims that had his trial
counsel obtained these records, they would have provided
information concerning injuries Miller received as a result
of physical abuse _~nd would have been useful medical
background information for Dr. Scott.
This claim is dismissed for failing no meet the
specificity requlreme/its of Rule 32.6 [b) of the Alabama
Rules of Criminal Procedure.

Miller has failed to state

which specific hospitals and what speclfi~ records his

trial counsel should have obtained.

Instead, Miller

vaguely alleges that his trial counsel should h-ve acquired
records from. thrcc unnamed hospitals.

Additionally, Miller

failed to present ~ny evidence during the evldentiary
hearing regarding what specific hospital records his trial
c~n~el should hav~ investigated.

405a

Because this Court finds

that this claim fails to meet the specificity requirements
oZ Rule 32.~(b), it is dismissed. Ala. R. Crlm. P. 32.7(d).
This claim is also denied because Miller has failed to
meet his burden of proof of establishing that his trlal
counsel were deficient under Stricklan~, 466 U.S. at 687.
Ala. R: Crlm. P. 32.7(d).

Although trlal counsel Johnson

testified that he did not present Miller’s medical records
during tri~l, Miller failed to elicit any testimony during
the evidentiary hearing from Johnson as to whether Johnson
investigated or attempted to obtain Miller’s medical.
records. (Rule 32 R. 184) Therefore, because the record is
silent regarding trial counsel’s investigation of Miller’s
medical records, and because trial counsels’ conduct is
presumed to be reasonable, this Court should also presume
that trial counsels’ investigation of Miller’s medical
history was reasonable. Chandler v. United States, 218 F.3d
1305, 1315 n.lS (llth Cir. 2000)(~An ar~blguous or silent
re=ord is not sufficient to disprove the strozlg and
continuing presumption [because] ’where the record is
incomplete or unclear about [counsel’s] actions, [the
court] will l~resume that he did what he should have do~e,
and that he exercised reasonable professional judgment.’")
~3

i

I

I

¯ |III

II I
406a

Ill

ill

i

,

2004

This claim is also denied by this court because Miller
has failed to meet his burden of proof of establishing that
he was prejudiced by his trial counsels’ alleged failure
obtain his medical records. See Strickl8~d, 466 U.S. at
687; Ala. R. Crlm. P. 32.7(d).

Testimony was presented, by

Dr. Scott during the penalty phase of trial regarding
injuries Miller received as a child - the exact information
Miller now claims his trial counsel failed to investigate
and provide .to Dr. Scott.

Dr. Scott not only testified

about head injuries Miller received as a child, but also
stated that there was no evidence of a current head injury.
specifically, Dr. Scott testified that Miller:
¯~had five or six different head injuries as a kid.
So we got a neuro-imaging scan, I asked for
and it came back that there wasn’t any evidence of
a head injury, that can come up on a neurological
scan o

So in my mind that is another reason that it’s
unlikely to be a mental defect explaining this
crime."
(R. 1360.] Miller also failed to present any evidence during
the evid~ntiary hearing pertaining to spmcific medical
records or specific injuries Miller sustained as a child.
Notably, Miller’s own expert, Dr. catherine Boyer ~estified
that she did not have any indication of the cause of
Miller’s injuries and was not aware of any medical records

407a

2005

indicating that Miller had any overnight hospitals stays as
a result of his injuries. [Rule 32 R. 739-40)

Accordlngly,

Miller has f~iled to establish that he was prejudiced by
his trial counsels’ investigation of his medical records
alld therefore, this claim is denied.
Miller’s Claim That Tzi~l C~an~el Tail~l To
l~westlgats ~wid~noe of Ris ~ Character And
Family and Personal Relationships.
In paragraphs 75-95 of his amended petition, Miller
claims that his trial counsel failed to adequately
interview family mitigation witnesses that could have
provided positive evidence of his good character.

Miller

alleges that such an investlgationwould have uncovered
mitigating evidence that he was a quiet, peaceful man, that
he provided for his family, that he was dependable and
loving, that he did not drink or do drugs, and that he kept
to himself. (Pet. at 22)
This Court denies Miller’s claim because he has Zailed
to meet his burden of proof of establishing that his trial
counsel were deficient under Strickland, 466 U.S. at 687.
Ala. R. Crlm. P. 32.7(d).

As noted above, Johnson and Bass

did interview multiple members of Miller’s family including
his mother Barbara, his brother, Richard, his sister, Lisa,

408a

2006

and his co~sln Bria~. (Rule 32. 38-39, 163-65} Johnson
testified that. in preparation for the penalty phase, he
spokewlth both Barbara and Richard Miller. (Rule 32 R.
158-59) Although Johnson had no specific recollection of.
questions he may have asked Miller’s family members
comcerning his positive attributes, Johnson testified that
he and co-counsel Bass would have talked with any family
member that .they thought might have .had helpful
information. (Rule 3-2 R. 160-61) Therefore, trial counsel’s
performance involving the investigation of Miller’s
character should be presumed to be reaso~-ble. See
Chandler, 218 F.3d a~ 1315 n.15.
In his amended petition, Miller still claims that trial
counsel should have conducted further interviews of family
members in order to discover possible Positive evidence,
mamely though the testimony of his niece, Allcla Sanford,
a~ .h-i-’s nephew Jack Connell. (Pet~ at 24-27). However,
contrary to Miller’s claims, "[a] defense attorney is not
re~ulred to investigate all leads" and there is "no
absolute duty to present mitlgating character evidellce at
all." ..Gaddy v. State, 952 so. 2d 1149, 1170-71 (Ala. Crira.
App. 2006).

Johnson testified during the evidentlary

409a

bearing that he was not familiar with either Alicia Sanfor~
or Jake colnlell. (Rul~ 39_ R. 162) AS noted above, Johnson
had good reason not to be aware of either Sanford or
Connell.

Sanford was 14 years old a~ the time of trial,

and neither Sanford nor Connell attended Miller’3 trial.
(Rule 32 R. 498~99, 5S4-85) Miller has failed to present
any evidence that a reasonable attorney should have been
aware of these witnesses and additionally, would have
c~nducted interviews of these witnesses.

Accordingly,

based on the evidence Dresented during the ~vide~tiary
hearing, tria,l counsels’ investigation of Miller’s
character through the interviews of family members was
reasonable, and Miller has failed to present ~ny evidence
to the contrary.

Therefore, this claim is denied.

This claim is also denied by this Court because Miller
has failed to meet his burden of proof of establishing that
he was prejudiced by his trial counsels’ alleged failure to
adequately investigate positive evidenc~ of his character.
See~ strlckland, 466 u.s. at 687; Ale. R. Crim. p. 32.7(d).
As Johnson testified during the evidentiary hearing, much
of the positive evidence of Miller’s life was presented
during the penalty phase though Dr. Scott’s testimony.
57

410a

2008

.(Rule 32 R. 174, 246) Dr. Scott testified that he
interviewed .Barbara Miller~ Richard Miller and Cheryl

Ellis.on. (Rule 32 R. 315)
Because of this investigation, Dr. Scott was able to
present evidence on the positive aspects of Miller’s
character intertwined throughout his testimony focusing o~
Miller’s mental health to the Jury.

The penalty phase

record of Miller’s trial demonstrates that Dr. Scott
presented in substance the exact evidence regarding his
good. character ~hat Miller now claims his trial counsel
failed to investigate.

Dr. SCO~

provided testimony on

Miller’s ¯demeanor and personality and noted that Miller did
not exhibit aggressive or v!olen~ behavior as a child and
d~d not get into many fights while in school. (g. 1352) Dr.
8uott also testified ~hat Miller had a great relationship
wi~h his mother, supported his family and used mos~ ofthe

money earned from his various Jobs to provide for his
family. (R. 1350, 1352, 13fi3) Evidence was also presented
that, despltehis father, Ivan’s behavior, Miller had no
signlfics~t history of drug or alcohol abuse and that. he
mostly ¯kept to himself. (R. 1354-56.) Because evidence of
his good ¢!laracter, his non-aggressive nature, and the
58

1

I

IIII

III I

IIIII
411a

III

II

I

I

I

I~

2009

absence of a significant substance history was presented
during trial, Miller has f~iled to establish how he was
prejudiced by his trial counsels’ investigation into his
character; therefore, this claim is denied.
4.

In paragraphs 96-139. of his amended petition, Miller
alleges that his trial counsel failed to investigate and
develop mental health evidence.

Miller claims that had his

trial counsel more adequately inv~stlgated his mental
health, such evidence could have supported an insanity
defense, could have negated elements of the capital murder
offense during the guilt phase and could have been
presented during the penalty phase as mitigation evidence.
(Pet. at 27)

Furthermore, Miller claims that trial counsel

failed to provide adequate mental health information to Dr.
Scott and Dr. McDermott and thus prevented a reasomable
assessment of his mental health. (Pet. at 27)
Bpeclfically, Miller alleges that his trial counsel were
ineffective for failing to investigate and provide to Dr.
Scott interviews of Miller’s co-workers, his medical
records, Dr. McClaren’s report of his evaluation of Miller,
59

412a

2010

~.4_ the medical records of his grandfather Hubert Miller,
his great-graz~_.._m_other Victoria Granade, .his father Ivan
Miller, his uncle Perry Miller, and his sister Lisa Carden.
(~t. 27-38)

This Court denies Miller’s claim because he failed to
meet .his burden of proof of establishing that his trial
counsel were deficient under Strlckland, 466 U.S. at 687.
~Ala. R. Crim. P. 32.7(d).. In essence, Miller is a11eging
that his trial counsel should hav~ do~ something more -i.e. ,. that they should have conducted more investigation of
his mental health ~story.

When a claim ~s raised that

trial counsel should have done something more, this Court
¯ m~st first look at what trial counsel did.

Chandler, 218

F,3d at 1320 (~Although Petitioner’s clalm is that his
t~ial counsel should have done something more, we first
10ok at what the lawyer did in fact. ").
Contrary to Miller’s claims, as the Court of Criminal
Appeals-_h_as previously held regarding this issue on direct
appeal, ~[t]his is not a case where counsel failed to
investigate a potential mental-h~alth dm£ense or neglected
to interview potential def~ns~ witnesses." Miller v. state,
913 .so. 2d iI~8, 1161. (Ala. Crlm. App. 2004).

413a

Instead,

2011

Miller’s mental health was-of chief concern, initially
trial counsels’ main theory of defense and.ultimately
became the central focus of Miller’s penalty phase
strategy.
The record demonstrates that trial counsel conducted an
extensive and thorough investigation of Miller’s mental
health.

Miller, through trlal counsel, originally pleaded

n~t guilty byreasonof insanity. (C. I)

Trial coualsel

Johnson was familiar with mental disease defenses based on
his previous involvement in capitaL murder cases in which
psychological issues had been raised. (Rule 32 R. 211)
Based on the interviews of his family, Johnson discovered
Miller’s family history of mental illness. (Rule 32 B. 252)
Johnson .also was aware that Miller had difficulty early-on
remembering ~9ecific facts relating to th~ actual shootings
an~ that Miller had been given a mental evaluation at
Taylor HardlnMedical Facility. (Rule 32 R. 42, 44-45)
As a result, Johnson motioned the trial court to grant
addltic~al funds to hire psychological expert assistance.
(C. so-ss.)

The trial oourt granted the motion~/%d Johnson

retained Dr. Charles Scott to conduct psychiatric and
psychological evaluations of Miller in order to determine

414a

whether an insanity defense would be justified. (Rule 32 R.
48.1 In preparation for .Dr. Scott’ s evaluatlon, Johnson
~ forwarded over ninety three pages of materials to Dr. gcOtt
includin~ numeroue witn~sQ s~a~e~ntB, statem~uts ~-rom
Miller’s co-workers, pollce incident reports, and a copy of
Dr. James Hooper’s evaluation of Miller at Taylor Hardin.
(R. 1345, RuI~ 32 Ro 63, 318)
in~ response to Dr. Scott’s requ~s~ to interview
Miller’s family ma~b~rs ~ho were flying with him at th~
ti~e of th~ shnotlngs, Johnson arranged for Dr. So.oft to
interview Miller’s mother B~rbara, his brother Richard, ~nd
hi~ sister, Cheryl. (Rule 32 R. 314-i~) Johuson also
at~e.~p~ed to obtain the records of Mi11~r’s grandfather
Hubert Miller, butwas unsuccessful. (Rule 32 R. 252) Dr.
Scott never testifle~ tha~ he was not provided w4th any
document that he specifically requested from t~i~l counsel;
Johnson confirmed this fact s~ating that ~I don’t thi~k
tha~ Dr. Scott asked for anything that was not supplied."
(Rule 32 R.
After compiling this information, Johus~ interviewed
and evaiuaued Mill~r over ~ ~hree day period. (Rule 32 R o
314) Dr. Scott also enllst~d the services of a

415a

psychologist, Dr. Barbara McDermott, who c~nducted a
~sychological evaluation of Miller. (Rule 32 R. 315-16)
After the evaluation was completed, Dr. Scott diagnosed
Miller with having a delusional disorder and a psychiatric
personal.ity disorder; however, Dr. Scott concluded that
Miller was not unable to’ appreciate the wrongfulness of his
actions and therefore did not qualify under Alabama’s iegal
definition for insanity. (R~le 32 i%. 325-26, 335.)
Still, after withdrawing the insanity plea, Johnson
discussed with Dr. Scott the prospect of providing
testimony on Miller’s behalf during trial. (Rule 32 R.
253. ) Johnson then presented Dr. Scott during the penalty
phase of Miller’s trial and elicited testimony concerning
both Miller’s social history and his opinion that Miller
suffered fro~ a delusional disorder. (R. 1343-13Si.)

Dr.

Scott also opined that due to his delusional disorder,
Miller met the requirements for two stanutory mitigating
circumstances: than his capacity to appreciate the
criminality of his conduct was substantially impaired under
Ale. Code ~ 13A-5-51(6) and t!let the capital offense was
committed while Miller was under the influence of extreme
mmntal disturbance under Ale. C~ ~ 13A-5-51(2). {R.

416a

1391.)

Subsequently, the trial court found both of these

m!tigating circumstances to exist in Miller’s case, Miller
v. Stat~, 913 So. 2d 1148, 1169 (Ala. Crim. App. 2004).
Trial counsels’ investigation into Miller’s mental
health was reasonable and Miller has failed to meet his
burden of establishing deficient performance.

Contrary to

Miller’s claims, trial counsel attempted to obtain the
mental health records of Iris grandfather, Hubert Miller,
but was ~nsuccessful. (Rule 32 R. 252)

Miller has not

presented any evidence that trial counsel’s attempts were
unreasonable.

Even if trial counsel had not attempted to

obtain Miller’s family mental health records, Miller cannot
demonstrate that trial counsels’ performance in this regard
was deficient.

Miller failed to present any" evidence that

Dr. Scott specifically requested such r~cords and Miller
failed to prove that a reasonable, competent attorney would
have independently obtained and presented the mental health
records of a defendant’s extended family.

Notably, the

evidence indicates a reasonable attorney would not have
investigated and presented such records.

Miller’s trial

counsel, Mickey Johnson and Ronnie Blackwood, as well as
his appellate counsel, Billy Hill and Harran Lowe, all

417a

20t5

testified ~hat in their numerous years of criminal
experience, nc~e had ~ver introduced the mantal health or
medical records of a defendant’s family. (Rule 32 E. 253,
872; Rule 32 R2. 68-69, 103)
Johnson also provided Dr. Scott a copy of Dr. Hooper’s
report of his psychological evaluation of Miller. (Rule 32
R. 318)

Although not alleged in the petition, during the

evidentiary hearing Miller questioned Dr. Scott on whether
Johnson also provided Dr. Hooper’s backup or underlying
file as part of the documents Johnson provided to Dr.
Scott. (Rule 32 R. 320)

However, Miller has failed to

p~oduce any evidence that Johnson had access to or could
have obtained Dr. Hooper’s underlying file.

Moreover,

Miller has not established t!tat a reasonable attorney wo~Id
have provided another expert’s underlying file to an expert
retained to conduct psychiatric evaluations on a defe~_~nt.
~or the foregoing reasons, Miller has failed to satisfy his
burden of proving deficient performance under Strlckland
with regard to his claim that his trial counsel failed to
investigate mental health evidence; therefore, Miller’s
claim i~ denied.

418a

2016

This Court also denies this claim
failed to meet

because Miller has

his burden of proof of establishing that he

was prejudiced by his trial counsels’ alleged failure to
adequately investigate mental health evidence. See
Strlckland, 466 U.S. at 687; Aia. R. Crim. P. 32.7(d).
Even if Miller could have proven that his tgial counsels’
performance were deficiemt in failing tO provide certain
records to Dr. Scott, Miller failed to elicit any testimony
from Dr. Scott that his report was incomplete or inaccurate
due to a lack of necessary records or information.

While

Dr.. Scott testified that additional information "cotlld"
have been important in his. evaluation, he failed to state
2~3w his ~valuation was inadequate, specifically, in regards
to documenting Miller’s mental health problems. (Rule 32 R.
362-65)

Furthermore, Miller has failed to demonstrate prejudice
u~der Strickl_a_~d because the record indicates that the
additional information he claims his trial counsel should
have provided to Dr. Scott did not contain any additional
information that Dr. Scott was not already made aware of
during his evaluation.

For instance, Miller claims that

his trial counsel was ineffective for failing to provide

419a

Dr. Scott a copy of Dr. McClaren’s report of his evaluation
of Miller. (Pet. at 29) DuriH~ the evidentiaryhearing,
Miller attempted to show Dr. McClaren’s report would have
been significant to Dr. Scott because Dr. McClaren
documented that Miller claimed amnesia during ~he
shootings, that Dr M~Clare~ opined that a period of
dissociation was possible after Miller reported
experiencing ~tunnel vision", and because the report noted
that Miller was confused as to why he was arrested.
However, Dr. Scott was already aware that Miller
claimed to have difficulty remembering the events and
circumstances of the shootings.

Dr. Scott testified during

th~ penalty phase of trial that Miller ~had difficulty
recalling what happened and questioned the events had even
occurred." IR. 1378) Dr. Scott also noted Miller’s
difficulty remembering the shootings in his report and
reported that Miller "wondered if it was a bad dream."
(Petitioner’s Ex. 29-0010) Dr. Scott also was provided with
the psychological report of Dr. Hooper, which stated that
Miller "has no memory of the index events." (Petitioner’s
Ex. 29-0208)

67

420a

O
Although Miller contends that it was significant that
Dr. McClaren llsted the possibility of a brief period of
dissociation because of Miller’s self-report of
experiencing ~tunnel vision", ultimately, Dr. McClaren did
not diagnose Miller with ~_y type of dissociative disorder.
(Petitioner’s. Ex 27-0039.)

Moreover, Dr. Scott was also

aware that Miller claimed to experience ~tunnel vision" and
included this fact in his own report. (~etitloner’s Ex. 290010.)

Thus, Dr. Scott _had access to the very same

information that led Dr. McClar~n to suggest the
possibility of a period of dissociation.
Finally, Dr. Scott was also aware that Miller had a
confused state of mind at the time he was arrested by law
enforcement officials.

As Dr. Scott stated in his report,

’~[Miller] said that the first time he realized
that police were following him occurred when he
heard the sirens and he felt that his ~thoughts
were spinning., When asked to describe this he
said that he had brief thoughts of the shootisgs
and thought that ~this didn’t make sense. I
couldn’ t explain it. ’ "
(Petitioner’s Ex. 29-0010) Dr. Scott also reported that a~
the time he was arrested, Miller recalled being ~’somewhat
confused and thought that he might go home and wondered
~why was I going home’" and that after being taken to jail,

421a
II

IN

m

¯

.

~when he first woke up, he thought he might be at home but
whe~ he recognized that he was in Jail he realized that the
’thoughts in my mind mlght be real.’" (Petitioner’s Ex. 290010-0011)

Because the record indicates Dr. Scott had

k~owledge of substantially the same information contained
in Dr. McClaren’s report, Miller has failed to demonstrate
how the fail~re to provide Dr. McClaren’s report impacted
Dr. Scott’s evaluation.

Therefore, Miller cannot

demonstrate a reasonable probability that the result of his
proceeding would have been different.
Dr. Scott also had knowledge of Miller’s family history
of mental illness.

In his.report, Dr. Scott devoted a

section to Miller’s "Fami!y Psychiatric History" and
discussed that ~vanMiller exhibited unusual behavior, that
Miller’s grandfather, Hubert Miller, had been committed to
a psychiatric institution, a~d that his brother Richard was
described as ~slow." (Petitioner’s Ex. 29-0006) This
informatlonwas then presented to the jury during Dr.
Scott’s penalty phase testimony. JR. 1362-63) During the
evidentiary hearing, Dr. Scott testified that a fa~tily
history of psychotic disorders could impact the
v%tlnerabilityand likelihood that an individual would have
69

II

I

i

II
422a

i ill

,,

a mental disorder. (Rule 32 R. 307) Therefore, because he
was aware that Miller’s family had a history of psychiatric
pz~blems, Dr. Scott had readily available information
suggesting Miller would be more vulnerable to having a
mental disorder.
Although Miller now claims that his trial counsel
should have also provided the mental h~alth records of his
great-grandmother Victoria Grenade, his father, Ivan Miller
and hls uncle James Miller, Miller has failed to present
any evidence that these individuals were diagnosed with
specific psychological or psychiatric disorders or how such
undiagnosed mental i11nesses could have impacted Miller’s
diagnosis.

Similarly, although Miller claims the records

of his grandfather Hubert Miller. which report a diagnosis
of paranoid schizophrenia, and the records of his uncle
Perry Miller, whichreport a diagnosis of bipo!or disorder,
should have been provided to Dr. Scott, he failed to
specifically present evidence resarding how these precise
diagnoses specifically impacted Dr. Boyer’s diagnosis of
post-traumatlc stress disorder. (Rule 32 R. 644-48)

Nor

did Miller demonstrate how the absence of these specific
records specifically distorted or affected Dr. Scott’s

423a

~valuation.

Therefore, because trial counsel did provide

information to Dr. Scott to inform him of Miller’s family
history of mental illness and because Miller has failed to
establish specifi~ ~sychiatric diagnoses in his family’s
mental records that would have changed Dr. Scott’s
evaiua~ion, Miller has failed to demonstrate that he was
Drejudiced by the failure to provide family mental health
records to Dr. Scott.
Miller was also not prejudiced by his trial counsels’
provision of information to Dr. Scott regarding the axtent
and nature of physical abuse that Miller suffered as a
child.

Dr. Scott was informed and had knowledge that Ivan

Miller physically abused Miller.

Dr. Scott noted in his

report that Ivan was "physically abusive and frequently hit

[Miller] on various areas of his body with his hands or
with a belt." (Petitioner’s Ex. 29-0003) Dr. Scott also
testified concerning Ivan’s physical abuse of Miller during
the penalty phase of Miller’s trial. (R. 1350-51.)
Miller now claims that his trial counsel was
ineffective for not providing Dr. Scott more information on
the details of the abuse.

However, Dr. Scott was aware of

spe~iflc incidents of abuse and testified during the
71

424a

penalty phase about an occasion when Ivan tried to stab
Miller. IR. 1351)

Notably, Miller failed to present any

further evidence during the evidentiary hearing of specific
details or occurrences of physlcal abuse.

In fact, none of

Miller’s reported injuries were linked to any form of
abuse; Miller’s expert Dr. Boyer testified that there was
no indication in Miller’s medical records how any of his
injuries occurred a~ that there were no serious wounds
that required overnight hospital stays. (R~le 32 R. 74~|
The record indicates that Dr. Scott was aware of the D__~_ture
of Ivan’s physical abuse; Miller has failed to provide any
evidence of other specific incidents of abuse or how such
tundocumented incidents would have impacted Dr. Scott’s
analysis.

Accordingly, Miller has failed to demonstrate

that he was prejudiced.
Although not .alleged in his amended petition, Miller
attempted to ~ggest during the evidentlary hearing that
trial counsel was ineffective for not submitting t~ Dr.
Scott an audio/videotape of Miller’s statement to police.
(Rule 32 R. 78-79)

However, the audio/videotape of

Miller’s statement was not subntitted into evidence during
the evidentiary h~aring. (Rule 32 R. 529) Miller also

425a

2023

failed to present any proof of what actual evidence was
contained on the audio/videotape.

Therefore, because there

is nothing in the record indicating what was contained in
this evidence, Miller cannot establish how he was
prejudiced by his trial counsel not providing the
audio/videotape to Dr. Scott.
Most importantly, Miller has failed to demonstrate a
reason_able probability that the outcome of his proceeding
would have been different had his trial counsel
investigated mmre mental health evidence because he has
failed to prove that he met the legal definition of
insanity under Ala. Code § 15-16-1.

None of the five

pgychological and psychiatric experts who evaluated Miller
during the course of his trial or his Rule 32 proceeding,
including Drs. Hooper, Scott, M~Dermott, McClaren, ~nd
Boyer concluded that Miller was legally insane.

Therefore,

even if trial counsel had conducted a more thorough mental
health investigation, the result would be the same: Miller
could not hav~ proven that he did not appreciate th~
wrongfulness of his actions and thus could not have
sustained a not-guilty by reason of insanity defense.

426a

2024

Miller’ s failure to demonstrate prejudice is
highlighted by the testimony of Miller’s own expert, Dr.
.Boyer, during the evidentiary hearing.

Despite her opinion

that. Miller suffered from post-traumatic stress disorder,
incredibly, Dr. Boy~r failed to testify that Miller was
.legally insane. (Rule 32 R. 757-58) Notably, Dr. Boy~r
failed to even provide ~n opinion.

Clearly evading the

issue of Miller’s sanity, in response to a question
regarding whether she disagreed with Dr. Scott’s testimony
during trial that Miller was not insane, Dr. Boy~r
testified ~I really don’t know if I can answer it." (Rule
32 R. 757)
AS Dr..Boyer stated ~n response to a question from
counsel, for the State, if she had bean call~d to testify on
Miller’s behalf during trial, she would have had no opinion
¯as to whether he could appreciate the wrongfulness of his
conduct at the time of the shootings:
Q: So in this case it’s fair ~to say that had you
been there you would have said I have no opinion
[as to Miller’s sanity] one way or the other?
A~. Yes

(Rule 32 R. 758) Without offering a opinion, let alone an
opinion that conflicted with the evaluations performed

I

I

I

lili

I

illlii

I

III Ill I

il

427a

I

II I

__

"

’

’

2025

dUring trial, even if a mental health investigation was
performed in the manner in which Miller now alleges it
should have been conducted, Miller has failed to
demonstrate a reasonable probability that additional mental
health evidence would h_~ve been uncovered that would have
affected the outcome of his trial.

It is ~iso significant

that Dr. Scott failed to state during the evidentiary
hearing that his opinion that Miller was not insane at the
time cf the shootings had changed.

No evidence has been

presenned that M~ller was legally insane and ample mental
health evidence was already available for trial counsel to
effectively argue during the penalty phase that Miller
satisfied the requirements for the statutory mitigating
circumstances u~der Ala. code S § 13A-5-51(2), (6).
Three psychologists and one psychiatrist evaluated
Miller at the time of trial; none of these four doctors,
whether hired by the defense or appointed by the trial
court, f~n%d that Miller was insane. (Rule 32 1%. 248)
Miller has offered nothing in the testimony of either Dr.
Boyer or Dr. Scott to call these evaluations into question.
There is no evidence that Dr. Boyer’s testimmny would have
benefited Miller’s defense, nor would it have impacted the
75

428a

2026

outcome of the proceedings.

Miller ~_~ failed to meet his

burden of ~roof of demonstrating how he was prejudiced
under Strickla~_d by his trial counsels’ investigation into
his mental health.

Thez~fore, Miller cannot demonstrate

that his trial counsel’s performance in this regard was
con~ti~utionally inaffective and thus, this claim is

denied.
B,

Millez’s ClaimThat K£s Tz£alC@unsels’ P:e-Trial
Perfoz~anoe Was Ineffective.

In paragraphs 133-155 of his ~mended petition, Miller
raises several instances in which he claims his trial
counsels’ performance was consti~utionally ineffective.
Each o~ Miller’s claims is addressed individually below:
i.

Miller’s CI~ Tha~ Eis Tzial C@unsel
To Seek A Conti~%~an~e When Co-Counsel
with~zew Before Trial.

In paragraphs 153-157 of his amended petition, Miller
claims that trial counsel Johnson was ineffective for
failing to requesU a continuance at trial after his coc~ln~el, Rodger Bass, withdrew from his representation of
Miller approximately a month before trial. (Pet. At 39)
Miller claims that because Bass’ time records indicate that
he spent more out-of-court time investigating Miller’s case
than Johnson, and because Bass" replacement, Ronnie

-

il

ill

i

IIIIIlill

III

429a

I

I

I

I

202?

Blackwood had less experience than Bass, Johnsun was not
prepared to effectively represent Miller.
This Court finds that Miller has failed-to present any
ar~umaut or evidence in support of this claim during the
mvldentiary hearing and therefore, this claim is denied.
Therefore, Miller has abandoned this claim. See Brooks v.
S~ate, 929 So. 2d 491, 498 (Ala. Crim. App. 200~)(holding
that a Rule 32 petitionsr’s failing to ask counsel "any
questions concerning her reasons for not pursuing any of
the claims" in the Rule 32 petition constitutes an
abandonment of those issues).

There is a strong

presumption that counsel’s performance was within the "wide
range of reasonab!e professional assistance." G~rayson ~.
Thompson, 257 F.3d 1194, 1216 (llth Cir. 2001).

During the

evldentiary hea~ing, Miller failed to ask trial counsel
Johnson why he did not seek ~ continuance Zor Miller’s
trial after Bass’ withdrawal.

Because Ala. R. Crim. P.

32.3 places the burden of proof squarely on Miller and
because the record indicates that Miller did not pursue
eh_~.s claim, this Court presumes that trial counsel acted
reasonably in proceeding to trial with Miller’s case. See
Chandler, 218 F.3d 1305~ 1315 n.15 (llth Cir. 2000) I~An

ambiguous or silent record is not sufficient to disprove
430a

2028

ambiguous or silen~ record is not sufficient ~o disprove
-the strong and continuing presumptio~ [because] ~where the
record is incomplete or unclear about ~co.unsel’s] actions,
[~he court] will presume that he did what he should have
donei and that he exercised reasonable profess±o~_a_1
J udgment.. ’ ")
¯n-th~ ~Iternative, even if Miller had pursued this
claim during the evldentiary hearing, the record
demonstrates that trial, counsel was adequately prepared for
trial and was not ineffective ~or ~ailin~ to ~k ~
continuance after Bass withdrew from representation.

While

BaSS conducted certain aspects of the pre-trial
investigation, Johnson testified that ~[i]f either one of
:

uS had information [that~ would have been relevant or
useful to Mr. Miller’s case we would have shared it." {Rule
3m R. 215)
Furthermore, Johnson stated that themajority of the
preparation for Miller’s defense was already comPl~ted by
the time Bass withdrew and that Bass "would have taken a
secondary role anyway." Id.

Johnson also testified that h~

w~s comfortable with Blackwood being appointed co-counsel
in Bass’ place and that Bass waS still accessible to _~.nswer

J

431a

II

II

II

"

IIIII

II

2O29

any questions concerning the caee~ (Rule 32 .R. 215-16)

Blackwood testified that trial counsel were prepared for
trial and would not have proceeded to trial if they felt
that they were not prepared, (Rule 32 R, 871) There is nO
evidence that trial counsel were deficient for proceeding
.~to trial after Bass withdrew from his representation of
Miller or that Miller"was prejudiced by his trlal counsel
not seeking a continuance of his trial after Bass’
withdrawal.

Therefore, this claim is de=led.
Miller’ a C~alm That ~is Tzi~l Comus@el
Z~ly W~h~zew The Zns.~’,~.t’y DeEense
Belize Trial.

In paragraphs 138-147 of his amended petitlom, Miller
claims that his trial counsels" decision to withdraw the
ins~nlty dmfe~se was unreasonable.. Miller alleges that.
trial counsels’ reliance on Dr. Scott and Dr. McDermott’s
e~al~atloms in deciding to withdraw the mot .guilty by
reason of insanity plea was ineffective because he claims
trial counsel did not provide Dr. Scott with. adequate
background ~nformatlon to support the evaluation. (Pet. at
40)

Miller also claims that Dr. Scott’s ultimate

conclusion that Mi!ler was not insane was "equivocal" and
that trial counsel should have provided additional

432a

IIIIIII

2030

information and documents to Dr. Scott and .sought
additional expert opinion. (Pet. at 42)
This Court denLes Miller’s claim because he has failed
~0 meet his burden of proof of demonstrating that his trial
counsels’ perfornlance was deficient u/Icier Strickland. 466
U.8. at 688; Ale. R. Crib. P. 32.7(d].

Miller’s trial

¢~nsel could not be deficient for withdrawing the insanity
defense because none of ~he psychological or psychiatric
~xperts who evaluated Miller before trial concluded that
Miller met the legal definition £or insanity.
Miller, through counsel, orig~.ally pled not guilty by
reason cf mental disease or defect. (C. I)

To q11alify

under the legal definition of insanity, Miller bore the
burden of demonstrating that he "~wa~ unable to appreciate
the nature and quality or wrongfulness of his acts." Ala.
code ~ 13A-3-I.

However, aQ demonstrated d%irlng trial and

the evidentiary hearing0 none of the four mental health
experts who examined Miller concluded ~hat he was unable~ to
appreciate the nature and quality of his actions. (R. 1384,
R~q. 72-74, R~le 3~ R. 248)
Dr. James F~X)per, a psychologist a~ the Taylor Hardin
Medical Facility, first evaluated Miller 8.nd concluded in

433a

2031

his repoz~ on OCtober 8, 19~9 that Miller ~does not have ~
mental illness ~hat would have compromised his
understanding of the nature, quality, or wrongfulness of
his behavior.~ (Petitioner’s Ex. 29-0211) Dr. Harry
McClaren~ a psychologist hired by the State of Alabama,
also evaluated Miller to determine whether Miller qualified
~der Alabama’s insanity statute.

On December 2, 1999, D~.

McClaran ultlma~ely concluded ~hat Miller did not w~et t.he
legal definition of insanity and that ther~ was no evidence
tha~ he was unable to appreciate the nature and quality of
his actions. (Petlt±oner’s Ex. 27-0033)
Finally, as noted above, trial counsel retained Dr.
_~h.~rle8 Sco~, a p~ychiatrlst, ~or th~ purpose of
determining whether Miller was legally insane a~ the ti~e
of the shootings.

Dr. Sco~t engaged in an ext~sive

evaluation of Miller including a three day-assessment of
Miller hi~self, interviews of. family ~nbers, a~d the
examination of numerous documents and r~ports. (R. 1345-~8~
Dr. Scott al~o retained Dr. Barbara McDermott to administer
various psychological tests to Miller. (Rule 32 R. 316)
However, after concluding this inves~igatlo~, Dr. Scott
sta~ed in his report that in his opinion, ~iller was not

434a

unable to appreciate the nature and quality of his actions
or the wrongfulness of his conduct. (Petitioner’s Ex. 290022, R. 1384, Rule 32 R. 251)
Thus, trial counsel could not have provided any expert
opinion testimony to credibly argue to the Jury that Miller.
was legally insane.

Any .ar~t t~hat Miller was legally

insane could have been effectively rebutted from Millar’e
own expert’.s conclusion that he was ~ot insane. (R. 1384)
Johnso~ testified that he was awar~ of each of these
reports and that neither Dr. Hooper’s, nor Dr. McClaren’s,
nor Dr. Scott’s reports conflicted on the issue of Miller"s
sanity at the ~:i~ of the offense. (R2. 73-74, R~le 32 R.
251) Johnson ,testified that after ~ceiving Dr. Scott’s
report he discussed the findings with Dr. Scot~ and
ultimate~y decided to withdraw the insanity defense on May
24, 2000. (Rltle 32 R. 91-92) Johnson s~ated during the
evidentiary hearing that if any of the four doctors who
.evaluated Miller had declared that Miller was insane at the
time of the offense~ such a finding would have altered his
strategy and that he would have used that opinion as part
of his d~fense. (Rule 32 R. 248)

435a

Trial counsels’ decision to withdraw the insanity plea
was not an 1~easonable decision.

The withdrawal of the

insanity defense was the product of a strategic decision
made after both consultation with a mental health expert
hired for the express purpose of evaluating Miller’s sanity
and consideration of additional investigation and expert
opinions.

Based on the unequlvocal conclusions of all four

examining doctors that Miller was not unable to appreciate
the wrongfulness of his actions at the time of the offense,
trial counsel’s decision to withdraw the not guilty by
reason of insanity plea was not deficient and entirely
reasonable based on the information and evidence available
to trial counsel. Therefore, this claim should be denied.
This claim is also denied because Miller has failed to
~t his burden of proof of demonstrating that he was
prejudiced by his trial counsels’ performance. See
S~rickland, 466 UoS. at 695; Ala. R. Crim. P. 32.?(di.
Miller was not prejudiced by his trial counsels" withdrawal
of the insanity plea because no evidence has been presented
during the evidentiary hearing that Miller could not
appreciate the wrongfulness of his actions and therefore

436a

wOuld have been eliglble for a not guilty by reason of
mental defect or insanity plaa.
Although Miller r~rg claims that his trial counsel
should have presented more information to Dr. Scott or
obtained an additional expert opinion regarding Miller’s
sanity, the record indicates that even if such additional
measures, were taken, the result would be the same: that
Miller does not meet the requiremanns for insanity under
Alabama law.

At the evldentlary hearing, Dr. Boyer

testified that in her opinion, Miller experienced a
dissociative episode at the time of the shootings and than
this opinion would be important as a mental health
professional in determining whether Miller was sane or
insane at the time of the shootings. (Rule 32 R. 719-20)
However, incredibly, Dr. Boyer never testified that in
her opinion, Miller was legally insane at the time of the
shootings.

When pressed on this crucial question by

counsel for the State, Dr. Boyer stated "~ really don’t
know if i can answer it." IRule 3.2 R. 757) Most
i~porta~tly, Dr. Boy~r testified that after her complete
investigation, if she had bee~ called to testify as to
Miller’s sanity at the time of trial, she would have had no

437a

opinion.. (Rule 32 R. 758) Therefore, Miller has failed to
present any evidence that a mental health expert would have
been available totestify at trial that Miller was insane
at the time of the shootings.
Miller also failed to present any evidence during the
evidentiaryhearing that c~nflicts with the evidence and
expert opinion regarding Miller’s sanity at the time of
trial.

Dr. Scott never testified that his opinion at the

time of.trial that Miller was not unable to appreciate the
nature and quality or wrongfulness of his actions had
changed~

Although Dr. Scott stated that it was ~possible"

tha~ had he obta!ned additional information and c~nducted
additional testing relating to a dissociative disorder his
diagnosis could have changed, he failed to testify that
such information did in fact change his opinion. (Rule 3~
R. 364)

Like Dr. Boyer, Dr. Scott never testified that in

his opinion, Miller met the requirements for insanltyunder
Alabama law.

Equally as important in determlnln~that Miller.wasnot
prejudiced by the withdrawal of the insanity plea was the
testimuny of Dr. McClaren during the evldentlary hearing.
Before trial in the fall of 1999, Dr. McClaren was hired to

II III

i

ii

,,,

438a

....

conduct a forensic psychological evaluation of Miller.
(E~le 3~ R. 773) After conducting his evaluat±on, Dr.
McClaren concluded that Miller was a ~non psychotic man of
average intelligence." [Rule 32 R. 778) Dr. McClaren also
concluded that Miller was not insane under Alabama law at
th~ time of the offense. (Rule 32 R.
After becoming involved in the case again for purposes
of this Rule 32 proceeding, Dr. McClaren testified that he
revia~ed additional testimony, the reports of Dr. Scott and
Dr. McDermott, addltion~l psychological testiag, school
records as well as the testimony during the evidentiary
hearing. (Rule 32 R. 783-84) Dr. McClaren then testified
that after his review of th~s new informatiun, nothing had
changed his opinion that Miller was not legally insane at
.the time of the shootings. (Rule 32 R. 784) In Dr.
McClaren’s opinion, Miller functioned as a non psychotic
m~ at the time of the shootings. (Rule 32 R. 792)
The testimony of all three mental health experts during
the evidentlary hearing as well as the evidence contained
in the mental health reports issued d~ring trial and the
trial record itself are c~nsistent: all indicate that
Miller was not unable to appreciate the nature azld quality

439a

or wrongfulness of his actions.

No testimony has even been

presented during trial or in this Rule 32 proceeding that
M~ller was i~sane at the time of th~ shootings u~nder
Alaba~a law.

Therefore, Miller has failed to demonstrate a

reasonable probability that the outcome of his proceeding
would have been different had trial counsel not withdrawn
the irmanlty plea because the r~cord resoundingly evidences
that Miller was in fact not insane at the time of the
shootings.

Accordlngly; because Miller has failed to

demonstrate prejudiced under Strickland, this claim is
denied.
3.

Miller, s Claim That His Trial ~sel Faile~
To Move For A Change Of Venue De~plte
Ex~enmive Pre-Trlal Publicity.

¯n paragraphs 148-155 of his amended petition, Miller
claims that his trial counsel were ineffective for falling
to move for a change of venue based on the amount of pretrial publicity.
This Court finds that Miller failed to pursue this
claim during the evidentiary hearing and offered no
evidence in support of his claim of ineffective assistance
of trial counsel on this issue.

In fact, Miller’s post-

conviction counsel specifically informed this Cour~ that
87

mllll

440a

potential exhibits purporting to contain n~wspap~r a~tlcles
regarding the shootings and Miller’s subsequent ~rial were
not b~ing offered into evidence as support for a change of
vanue argument. (Rule 32 R. 115, ~118)
Therefore, this claim is denied by this Court because
Miller has abandoned this claim. Sere Brooks v. State, 929
So. 2d 491, 498 (Ala. Crim. App. 2005)(holding that a Rule
32 petiti~ner’~ failing to ask counsel ’~a~y question8
concerning her reasons for not pursuing any of the claims"
in th~ Rule 32 pe~tition constitutes an abandonment of those
issues). See also Chandler v~ United States, 218 F.3d 1305,
1314 n. 15 (llth cir. ~000) ("An ambiguous or silent record
is not sufflcienn ~o disprove the strong and continuing
pr~su~pt±o~ ~bec~use~ ’where the r~cord is incom~let~ or
unclear about ~counsel’s~ actions, ~the court] will presume
that he did what he should have done, and that he exercised
reasonable professional judgment.’ ~) ~ Payne v. Sta~e. 791
So. 2d 383, 399 (Ala. Crimo App. 1999)(~Because it appears
that Payne did not present evidence a~ the evidentlary
hearing with regard ~o ~Payne’s claim~], we conclude tha~
he has ~bandoned these claims and we will not review
them. " ~ .

441a

There is a strong presumption that counsel’s
performance was within the ~wide range of reasonable
professional assistance." Grayson, 257 F.gd at 1216.
During the evidantiary hearing, Miller fa~led to ask trial
c~/nsel why he did not move for a chanse of venue.

Because

Ala. R. Crim. P. 32.3 places the burden of proof squarely
on Miller and because the record ir~icates that Miller did
not pursue this claim, this Court presumes that trial

counsel acted reasonably in proceeding to. trial with
Miller’s case. See Cha!Idler, 218 F.3d at 1315 n.15.
Accordingly, Miller’s claim is denied.
C.

Miller’s Claim That Trial Counsels" ~z£or,,,.nme
Du..,’ing The Guilt Phase of Trial Was 7-e~-fec~Ive.

In paragraphs 156-222 of his amended petition, Miller
raises several instances in which he alleges that his trial
counsel were ineffective during the guilt phase of trial.
Each claim of ineffective assistance of trial counsel
durins the guilt phase is addressed individually below:
I.

Miller’s Claim That Tzial C~un~el Condumt~d ~n
Ineffective And Inadequate Juror Voiz Dire.

In paragraphs 158-67 of his amended petition, Miller
claims that trial counsel John3on’s voir dire was
inadequate. (Pet. at 46) Miller alleges that Johnson did

442a

not ask questions related to the jurors’ exposure to media
coverage of the trial and did not effectively ask questions
designed to iulcover potential bias against Miller.
This Court denies Miller’s claim bscause he has failed
to maet his burden of proof of demonstrating that his trial
counsels’ performance was deZicient under Strickland, 466
U.S. at 687. Ala. R. trim. P. 32.7(d).

Because of the

extensive publicity in this case, Johnson, along with the
DistriCt Attorney’s office, developed a written
questionnaire that was provided to the entire Jury panel.
(Rule 32 R. 236) Within the qllestionnaire, question #68
specifically asked the jurors to answer whether they had
seen anything about the case in ~y newspaper. {Rule 32 R.
237) Additional questions were included in~nhe
questlo~o.~ire to determine whether a particular Juror had
such strong fixed opinions about the case or could not be
fair or impartial as a juror. (Rule 32 R. 238)
Johnson testified that he had an opportunity to review
the responses to the questionnaires for all members of the
jury panel and that he knew the jurors" responses
identifying what they saw in the newspapers about the case.
(Rule 32 R~. 237-38) During trial, the trial court and

443a

counsel for both parties conducted an extensive individual
voir dire of the jury panel. (R. 130-763)
AS the record indicates, Johnson strategically
conducted volt dire to determine whether any juror had a
fixed opinion, for any reason, of the case.

Johnson

alerted the trial court to questions #68, #69 and #70 of
the Juror questionnaire that pertained to the juror’s
opinions of the case and implored the trial court to focus
its questions on whether the jurors had ~fixed opinions" of
the case. IR. 146-47) As a result, the trial court
determined that it would examine each Juror’s response to
question #68 and if the juror ~ndicated they had heard
something about the case, the trial court would inquire
what the juror heard a~d whether the juror could set aside
what they had heard. {Rule 32 R. 148)
During the evldentiary hearing, Miller’s counsel
questioned Johnson about specific newspaper articles and
than questioned Johnson on whether he asked eight jurors
about what they had read about the case in the newspaper.
(Rule 32R. 127-34)

However, as the record indicates, as a

result of Johnson’s effort, during individual voir dire,
the trial court noted each of the eight Juror’s responses
9!

444a

to question #68 indicating that the juror had seen or read
something about the case and then asked each juror whether
they could set what they had learned aside _a.n4_ base their
verdict solely on the evidence prese!Ited. (R. 537-38, 34546, 376-77, 446-47, 449-50, 625-26, 638-39, 566-67)

All

eisht jurors indicated that they could set aside what they
had learned and sit as a fair and impartial juror. Id.
Therefore, information about the jurors’ opinions about
the case was brought out during the voir dire and Miller
has failed to demonstrate that Johnson’s method of
conducting voir dire was deficient.

Miller has failed to

present any evidence that a reasonable attorney would have
asked these eight ~’U rots about specific newspaper articles.
Furthermore, Miller failed to ask Johnson why he did not
strike these elgh~ jurors from the panel, nor did Miller
ask any specific question regarding Johnson, s strategy for
using the defense’s pere~ptory strikes. Therefore, because
the. record is silent, trial counsel’s questioning of the
Jury panel and the subsequent peremptory strikes is
presumed to be reasonable. See. Chandle_r, 218 F.3d 1305,
131S n. 15.

445a

2043

In paragraph 162 of his amended petition, Miller claims
that his trial counsel failed to question and remove Juror
Gregory Johnson who Miller alleges was biased because Juror
Johnson favored the death penalty. (Pet. at 47) However,
trial counsel’s questioning of Juror Johnson was not
deficient and the record directly refutes Miller’s claim
that Juror Johnson was biased.

Juror Johnson stated during

voir dire that he could follow the trial court’s
instructions and listen to the evidence in recommending a
sentence in Miller’s case. (R. 377-78) Juror Johnson also
stated that where it was appropriate under the law and
evidence he could vote for either life imprisonment or the
death penalty. (R. 578) Furthermore, trial counsel Johnson
specifically questioned Juror Johnson about his views on
the death penalty and elicited from Juror Johnson that he
had no fixed opinions about what an appropriate punishment
should be. (R. 387-88) Accordingly, Miller’s claim is
directly refuted from the record and is denied. See Gaddy
v. State, 952 So. 2d 1149, 1161 (Ala. Crlm. App. 2006).
Fin_~_lly, in paragraphs 164-65 of his amended petition,
Miller claims that trial counsel were ineffectlv~ for
failing to question prospective jurors about their

446a

2044

wili~ngness to consider lesser included offenses.

However,

boththe trial re.cordand evide~tiaryhearing demonstrate
that trial uctuasels’ strategy did not involve arguing that
Miller. was entitled to a lesser included o£fense.
Therefore, trial counsel had a strategic reason for not
questioning prospective jurors about lesser included
offenses and Miller has failed to demonstrate how trial
counsels~ vo±r dire strategy was deficient. See Boyd v.
State, 746 So. 2d 364, 375 (Ala. trim. App. 1999)
(~Stra~egic choices made after a thorough investigation of
r~levant law and facts are virtually unchallengeable.~)
This claim is also danied becauseMiller has utterly
failed to meet his burden of proof of demonstrating that he
was prejudiced by his trla~ counsels’ performance during
volt dire. ~ee Stricklan_d, 466 U.s. at 695; Ala. R. Crlm.
P. 32.7 (d).

Althollgh Mille~ claims ~hat trial counsel was

ineffective for faillng to ask eight of the fourteen juror~
s~ated in his case about what they read or remembered about
Miller’s c~se, Miller has failed to present ally evidence
whatsoever about what ~hese eight jurors actually had read
or remambered, about Miller’s case prior to trial. [Rule 32
R. 134) None of the jurors who sat at Miller’s trial

I

I I

447a

ll

I

I

ii

2045

testified-during the evidentiary hearing.

Therefore, no

evidence was presented that the eight jurors actually read
or were exposed to the newspaper articles introduced into
¯ evidence by Miller during the evldentiary heariug. (Rule 32
R. 127-34, 2.89-95) Even if the eight jurors had read these
newspaper articles, no evidence was presented that the
Jurors considered these articles harmful to Miller or that
i they had fixed opinions shout Miller because of

these

articles.
There is nothing in the record regardin~ what the
Jurors’ read about Miller’s case; accordingly, ~ It]he mere
fact that sums of the Jurors that sat for [Miller’s] trial
had pretri~l knowledge of his case is not enough to
establish-they were biased against him.~ Duncan v. State,
925 So. 2d 245, 267-68 (Ala. Crim. App. 2005).

Therefore,

because there is no evidence about what the Jurors read or
and whether they were actually biased against Miller
because of wh.et they read, Miller has fail%d to demonstrate
that he was prejudiced by his trial counsels’ performance
during voir dire.

Miller’s claim is denied.

448a

¯

¯

An~l P~e~udi~lal.
In paragraphs 168-172 of his amended petition, Miller
claim~ that his trial couns~l was ineffective during his
guilt phase opening statement.

Miller alleges th_~t his

trial counsel offered no defense ~heory and agreed with the
facts of the crime by stating that the prosecutlon’s
op~ning statement was a ~pret~y good recitation, of what
happened." (Pet. at 4~-50)
This Court denies M±11er’s claim because he has failed
~o meet his burden of proof of demonstrating that his trial
counsels’ performance was deficient under Strlckla~d, 466
u.B. at 687. Ala. R. Crlm. P, 32.?(d}..

Johnson

c~istently testified that because of th~ overwhelming
nature of ~he evidence, in this case, his, ~rial strategy
focused on the penalty phase of trial. (R. 14, Rule 32
219) Based on this strategy, Johnson formulated his opening
s~atenlent with the express purpose of attempting ~o win
favor wi~h the jurors withou~ alienating 5he Jury by
presenting frlvolo~s i~forma~ion. (Rule 32 R..145~
Trial counsel’s strategy was evidenced throughout his
opening ~s~atement during the guilt phase,

III

III

III

l I

II

I

i

449a
ml

,

.= ....

2046

2047

Joh_~_-.on told the Jury that th~ defense would keep the
burden where it belungs and challenge evidence that was
wr~ng. (R. 813) However, Johnson stated that ~ Ew]e will not
engage in frivolity~ and repe.atedly emphasized to the Jury
tha~ it would not present frivolous evidence. {R. 813, 814,
816) Johns.on then u~ged each Juror to "accept your
responsibility" and be proud of their service in the case,

Miller has failed to present any evidence to
demonstrate that trial counsel’s strategy was unreasonable,
The fact that Johnson agreed with many of the alleged facts¯
as provided during the prosecutlon’s opening statement was
c0~sis~ent with this strategy. Se__~e Saunder8 v. State, CR05-0281, 200? WL 4533441 at *33 (Ala. Crlm. App. December
21, 2007)(~When counsel fails to oppose the prosecution,s
case at specific points or cOncedes certain elements of a
c~se to foccs on others, he has made a tactical
decision,").

As the Court of Criminal Appeals noted in

rejecting Miller’s claim that his trial co%u%sel was
ineffective during his opening statement, ~Johnson’s
decision was .part of his strategy to spare Miller’s life.~
Miller v. St~_t_e, 913 So. 2d 1148, 1161 (Ale. Crim..App.

450a

2004) ; see also B_~, 746 So. 2d at 375 ("Strategic choices
made afner a thorough investigation of relevant law and
facts are virtually unchallengeable. "}.

Trial counsel

Johnson’s opening statement was the product oZ a
reasor~_h_le, strategic decision to win favor with the Jury
by not presenting frivolous arguments in order to spare
Miller’s life.

Miller has not presented any evidence to

demonstrate Johnson’s strategy was unreasonable. Therefore,
this claim is denied.
This claim is also denied because Miller has failed to
meet his burden of proof of demonstrating that he was
prejudiced by his trial counsel’s o~enlng statement. See
Strlckland, 466 U.S. at 695; Ale. R. Crim. P. 32.7(d).
Miller has presented no evidence concerning the impact of
Johnson’s statements on the Jury, nor has Miller
demonstrated a reasonable probability that the outcome of
the guilt phase would have been had Johnson not made these
statements.

In general, statements of counsel "are usually

valued by the jury at their true worth and are not expected
to becon%e factors in the formation of the verdlct,n Minor
v. Stat~, 914 So. 2d 372, 417 IAla. Crim. App. 2004).
Miller has offered nothing ~ore in support of his claim

451a

than the bare, conclusory allegation that Johnson’s opening
statement was improper and that it prejudiced the Jury,
without proving specific facts that demonstrate prejudice.
Accordingly, Miller has not met his burden of demonstrating
prejudice under Strickland and therefore, this claim is
de~ied.
3.

MilleE’s Claim That His Tzial C~unsel Wlola~
His Conmtitutlonal Rights By Failln~ TO Offer
Any Defense During The Guilt Phase.

In paragraphs 173-85 of his amended petition, Miller
claims that his trlal counsel were ineffective for failing
to, present a defense theory or evidence during the guil~
phase of trial. (Pet. at -~1) Miller argues that trial
counsel could have presented the testimony of Dr. Scott or
arguments based on Dr. Scott’s findings that Miller could
not form the intent to commit capital murder based on his
delusional disorder or that Miller should only be convicted
of manslaughter.
This Court denies Mlller’s claim because he has failed
to meet his burden of proof of demonstrating that his trial
counsels’ performance was deficient under Strickland., 466
U.S. at 687. Ala. R. Crim. P. 32.7(d).

Trial cotmsel

Johnson had reasonable, strategic reasons for not

452a

presenting evidence during the guilt phase of trial.
Johnson ~estifled that his trial strategy focus~ on
presenting the best evidence and testimony that would save
Miller’s life. {R2. 80) Based on the facts and
circu~stances of his case, Johnson determined that his best
opportunity and most effective method of presenting such
.testimony would be during ~he penalty phase. (R2. 8~, Rule
39_ R. 219) Part of this strategy also involved gaining
credibility and favor with the Jury bu~ not presenting
frivolous arguments during t_he guilt phase such ~s
challenging the blood spatter expert’s 5esti~ony. IRule 32

Johnson testified that the prosecution’s evidence was
strong, that he could not contest the fact that the
shootings were part of a single act, and ~hat he made a
strategic decision to not put on frivolous evlden~e during
the guilt phase. IR. 14, Rule 32 R. 99, 219) Johrlson felt
that any pot~tial testimony about Miller’s mental health
during, the guilt phase would be less Impactful or even
frivolous. IR2. 80) However, Johnson stated ~hat he wanted
Miller to testify .on his own behalf during the guilt phase
and talked with Miller about this possibility, bu~ Miller

453a

refused. (Rule 32 R. 220) Finally, Johnsum acknowledged
that it was not uncommon to not present evidence during the
guilt phase and to focus solely on the penalty phase. (R~le

Johnson’s conclusions on the strength of the
prosecution’s case in the guilt phase are well supported by
the ~vldence~

As the Cottrt of Criminal Appeals recognized

on direct appeal, "[gJiven the overwhelming evidence of
Miller’s guilt - incluslng eyewitness testimony identifying
Miller as the shooter - counsel had little choice but to
acknowledge Miller’s guilt." Miller, 913 So. 2d 1162.
Johnson and co-counsel Blackwood faced the daunting task
d%Lri~g the guilt phase of defending Miller agains~ strong
evidence which included two separate eyewitnesses to the
shootings at both Fer~usonEnterprises and Post Airgas.
Despite this evidence, this is not a case in which
trial counsel failed to investigate potential ~uilt phase
testimony.

As noted above, Johnson initially hired Dr.

Scott to investigate Miller’s mental health with the
intent±on of presenting evidence during the guilt phase
that Miller could not appreciate the wrongfulness of his
actions. (Rule 32 R. 48) However, after Dr. Scott

454a

determined that Miller did not qualify for the insanity
defense under Alabama law, Johnson withdrew the not guilty
by reason of mental defect plea. (Rule 32 R. 92)
As the Cour~ of Criminal Appeals noted, this decision
was made "after a thorough investigation of the relevant
law and facts of Miller,s case" and Johnson’s focus on the
penalty phase "was part of his strategy to spare Miller’s
life." Miller, 913 So. 2d at 1161 (holding that "lu]nder
the circumstances of this case, defense counsel made a
well-reasoned decision to focus his efforts on that part of
the trial that he believed offered the greatest chance of
success. We see no reason to seco~d-guess defense counsel,s
decisions regarding this strategy.~) Miller has failed to
offer any proof that this trial strategy was not the
product of a reasonably competent attorney.
Contrary to Miller’s claims, Johnson also had strategic
reasons for not presenting Dr. Scott’s testimony during the
suilt phase in an attempt to argue that Miller did not have
intent to commit capital murder. (Rule 32 R. 222) First,
Joh1%son testified that in his opinion, Dr. Scott’s
testimony would have had more of an impact during the
penalty phase based on the information available for Dr.

455a

¯ Scott to present. {Rule 32 R. 2851 Johnson stated that much
of Dr. Scott’s testimony during the penalty phase was based
o~ hearsay and therefore, Dr. Scott would have been mor~
llmited in providing testimony in the 9uilt phase. (Rule 32
R. 284)

Johnson also determined that Dr. SCott would ~8_ve

be~n subject to a more stringent cross-examlnation during
the ~u~lt ph-.se. (~ule 32 R. 284) Therefore, as Johnson
acknowledged, he could not have simply introduced the
beneficial, limited parts of Dr. Scott’s report; instead
the entire report could have been subject to crossaxamilzation. [Rule 32 R. I00)
Dr. Scott’s own report contained opinions which could
have rebutted any argument that Miller did not have the
intent to commit murder as a result of a delusional
disorder.

DesDite the fact that Dr. Scott opined that

Miller suffered from a delusional disorder, Dr. Scott
stated that :
~because Mr. Miller followed a second° victim, shut
the first victim again before he left Ferguson
Enterprises _a__~_d because he went to a second work
site, it is my opinion that th~ evidence indicates
he appreciate the nature and quality of his
actions towards each victim."
{Petitioner’ s Ex. 29-0022) Miller’ s own expert’s opinion
was consistent with the very same facns that the

456a

¯

¯

prosecution presented during trial to argue that Miller
intended to commit murder. ~R. 1254-61, 19-64-75) Based on
the facts of this case, trial cothnsels’ decision to not
p~esent evidenca durin~ the guilt phase and instead focus
o~ the penalty phase was reasonable and Miller has failed
to presentany evidence demunstrating how this strategy was
deficient. Therefore, this claim is denied.
This claim is also denied because ~iller has failed to
meet his burden of proof of demo~stratlng th__~t he was
prejudiced by his trial counsels’ decision not to present
evidence during the guilt phase. S~e Strickla/id, 466 U. S.
at .695; Ala. R. Crim. P. 32.7(d).

Miller’s expert, Dr.

Scott, testified during the penalty phase of trial thaD
Miller was not unable to appreciate the wrongfulness of his
actions .and therefore did not meet the legal definition of
insanity under Alabama law. (R. 1384) The only other
possible strategy that Miller has alleged that ~rial
counsel c~uld have pursued during the guilt phase centered
on arguing that Miller did not have the intent to. co~it
capital murder.
However, such an ar~t would have run contrary to
the. overwhelming evidence indicating Miller’s intent to

nnn

__

Ill

N

ul
457a

~

~

.....

¯
commit murder.

¯

Johnny Cobb, an employee at Ferguson

-Enterprise.s,’ heard shouting, witnessed Miller walk out of
the. front d~or of the office with a pistol ~owards his
tEuck, and drive away. Miller, 913 So. ~d at 1154. Cobb
then entered the building and saw Christopher Yancy and Lee
Hol~brook~ on th~ floor. ~d:

Yancy was shot three times

and Holdb~ooke was shot six times with the fatal shot being
fired as Holdbrooks looked up at Miller. Id. at 1156.
.Andy Adderhold witnessed Miller arrive at Post AirGas,
walk into the office, specifically call out to Terry
J.arvls, and then repeatedly shoot Jarvls. id. at 1155.
Miller. then ordered Adderhold out of the office, but
.Adderhold still heard a final gunshot as he left the

buildlng. Id.. ~arvis was shot five times with the fatal
shot ~to Jarvis’ heart occurring when Miller was standing
directly over him. I.d. at 1156.
Miller c_a..nnot demonstrate a reasonable probability that
bed trial counsel presented evidence in the guilt phase to
challenge Miller’s intent that the outcome of.his trial
Would h_a_ve been different in the face of these brutal
fa~Us.

Miller specifically sought out two victims, shot

them multiple times, proceeded to another location,

458a

2056

specifically sought out another victim, and shot him
multiple times.

Miller’s own expert indicated that such

evidence indicaues that Miller could "appreciate the nature
and quality of his actions towards each victim."
(~etitioner’s Ex. 29-0022) Even if Miller could demonstrate
that his trial counsel were deficient during the guilt
phase, which he cannot, he has failed to demonstrate h~whe
was preJudlcedunder Stricklandby his trial counsels’
strategy.

Accordingly, this clai~ is denied.
4.

Miller’ s Claim That Trial Counsel Fa~led to
Object To The Admissio~ Of Iz-rele~ml~ ~
Prejudicial Testimony And Pho~.ographs By ~
State.

In paragraphs 186-191 of his amended petition, Miller
claims than trial counsel were ineffective for failing to
object to the prosecution’s introduction of irrelevant and
inflammatory evidence during the guilt phase of trial.
Miller claims that the testimony of the prosecution’s
forensic scientists, Dr. Angello Della Manna, allowed the
state to introduce gruesome testimony and ph0tographs of
the victims and crime scene. (Pet. at 55)

Miller also

alleges that trial counsel failed to object to the
testimony uf Dr. Stephen Pustilnik pertaining to th~
gunshot wounds of the victims.

l

I

II

.J

I

I

459aI

III

,,..!.i .........

2057

HOwever, this Court finds that Miller failed to

present

evidence w~tsoever during the evidentlary hearing in
pursuit of this claim.

In fact, Miller failed to ask trial

counsel a single question regarding why trial counsel did
not object to certain testimony or alle~edly prejudicial
photographs.

Nor did Miller offer any evidence that would

establish that the te~tlu~Dny and ~hotcgraph8 of th~ victims
. and crime scene were actually irz~levant and inflammatory
i~ this case.

Therefore, this Court denies this claim

because Miller has abandoned the claim. See Brooks, 929 So.
2d at 498 (holdlng that a Rule 32 petitioner’s failing to
ask counsel ~’any questions concerning her reasons for not
Pursuing any of the claims" in the Rule 32 petition
constitutes an abandonment of those issues). See als____~o
~ler, 218 F.3d 1305, 1314 n. 15

(~An ambiguous or

silant record is not sufficient to disprove the strong and
coatinulng presumption [of effective representationS") ;
Payne., 791 So. 2d at 399 (~’Because it appears that Payne
did not present evidence at ~he evldentiary hearing with
regard to [Payne’s claims], we conclude that he has
abandoned these claims and we will not review them.")

460a

Additionally, this claim is denied because Miller’s
allegation is completely without merit; Miller’s trial
co%ulsel was not deficient for failing to object to
testimony and photographs relating, to the crime scene and
the gunshot wounds of the victims, nor was Miller
prejudiced by his trial counsels’ failure to object.

The

lo~g standing rule in Alabama states that:
"photographs which show external wounds in the
body of a deceased victim, even though they are
cumulative and based on undisputed matters, are
admisslble. The fact that they are sruesome is not
grounds to exclude them so long as they shed lisht
on the issues being tried. The fact that a
photogTaph is gruesome and ghastly is no reason to
exclude it fro~ the evidence, so long as the
photogTaphhas some relevancy to the proceedings,
ev~_D if the photograph may tend to inflame the

Jury."
Sneed v. State, CR-05-2033, 2007 WL 4463873 at *22 {Ala.
Crim. App. December 21, 2007)(inter~__al citations omitted).
The testimony and photographs of both the crime scene as
well as the gunshot wounds of the victims were relevant and
necessary to prove that Miller intended to kill each victim
in this case. (R. 1271-75) Therefore, under cl~arly
established law, even if trial counsel had objected, this
evidence would have Still b~en admissible.

Therefore,

Miller’s trial counsel could not be ineffective for failing

108

461a

to make such an obJectlon. Se__~ Mc!qabb v. State, 991 So. 2d
313, 327 (Ala., trim. App. 2007)(~[C]ounsel could not be
ineffective for failing to raise a baseless objection.")
Accordingly, this claim should be denied.

In paragraphs 192-208 of his amended petition, Miller
claims that his trial counsel were ineffective for failing
tc effectlvely cross-examine crucial prosecution witnesses.
This Court denies Miller’s claim because he has failed
topresent any evidence whatsoever during the evidentiary
hearing in pursuit of this claim.

In fact, Miller failed

to ask trial counsel a single question regarding trial
counsels’ strategy in cross-examining the prosecutlon’s
witnesses.

Miller did not identify any specific questions

that trial counsel could have asked each witness or
elicited during cross-examination.

Nor d!d Miller offer

any evidence that would establish how he was prejudiced by
his trial counsels’ cross-examination. Therefore, this
Court finds that Miller has abandoned this clalm. See
Brooks, 929 So. 2d at 498 (holding that a Rule 32
petitioner’s failing to ask counsel many questions

462a

concerning her reasons for not pursuing any of the claims"
in the Rule 32 petition constitutes an abandonment of those
issues), se__~e also Chandle~rr, 218 F.3d 1305, 1314 n. 15

I"An

ambiguous or silent record is not sufficient to disprove
the strong and continuing presumption [of effective
r~presentation~") ; Payne, 791 So. 2d at 399 ("Because it
appears that Payne did not present evidence at the
evidentiary hearing with regard to [Payne’s claimsl, we
conclude that he has abandoned these claims and we will not
review them.")

Mill~r has failed tu meek his burden of

proof of establishing that his trial counsel was
ineffective and therefore, this claim is denied.
6.

Miller’s Claim That Trial Counsel’s Closln~
Argument In The Guilt Phase Wa~ Deficient AT~.d
Pre~udia~al.

In paragraphs 209-13 of his amended 9etition, Miller
claims that his trial counsel was ineffective during the
guilt phase closing arguments.

Miller claims that Johnson

conceded guilt and made no attempt to argue that Miller did
not have the intent to commit murder. (P~t. at 61) Miller
also claims that his Johnson was ineffective for stating
that he was not ~proud" to represent Miller. (Pet. at 62)

110

463a

This Court denies Miller’s claim because he has failed
to meet his burden of proof of demonstrating that his ~rlal
counsels’ performance was deficient under Strlckland, 466
U.S. at 687. Ala. R. Crlm. P. 32.7(d).

Johnson’s closing

~t was reasonable based both on the tactical decision
to focus on the pe_~__~.ity phase of trial and his overall
s .trategy of not presenting ~rivolous arguments in order to
win credibility with the Jury. (R. 1261-64) As noted above,
Johnson continually testified that he strategically chose
to focus on the penalty phase of Miller’s trial in order to
save Miller’s llfe. (R2. 80, Rule 32 R. 219) In an attempt
to bolster his chances of success during the penalty phase,
Johnson made a tactical decision to emphasize to the jury
that he would not be presenting frivolous evidence or
arguments during t!le g~ilt phase. (Rule 32. R. 143, 219)
Similar to his comments during o~enlng s~atements,
Johnson echoed to the jury during closing arguments that he
was not going to present a frivolous defense such as
arguing a second sunman existed or challenging the fact
that the prosecution could not m_~_tch the bullets taken from
the victims to Miller’s gun. (R. 1261-62) Johnson reminded
the Jury of the State’s burden and implored the jury to

464a

listen to the Judge’s instructions on the law and render a
verdict based on th~ facts and consistent with their oath.
(~. 1263) Miller has failed to present any evidence which
would establish that Miller’s continual effort during
¯ closing ~nts to gain credibility with the ~ury in
order to make an effectiv~ penalty phase argument was
unreasonable.
Johnson’s decision to not argue that Miller did not
have inte~It to commit capital n~rder during closing
ar~mants was consistent with his overall trial strategy of
focusing on the penalty phase of trlal~ (Rule 32 R. 219)
Moreover, Johnson’s comments about his representation of
.Miller were consistent with this strategy as well.

Johnson

told the Jury tha~ he was proud of his representation of
Miller, but in an effort to win favor with the Jury, also
stated he was still not proud of what happened during t!le
shootings:
~And I at least am proud at this point that I have
Darticipated in this. It does no~ remove to any
degree the shame of what happened. It does not
make me proud that I’m representing someone who
the evidence is fairly convincing, I must concede
to you, did what he did."

(R. 1263-64) During the evldentiary hearing, Johnson
explained that this statement could not be viewed in

465a

isolation, but as part of a larger goal of not allenating
the Jury during the. guilt phase to atta~pt to ,in favor
with the jury. (Ru~e 32 R. 142-43~
When viewed in the context of Johnson’s entire trial
strategy, Johnson’s closing .argument was a reasonable
attempt to ga~__n, credibility with the jury during the guilt
phase in o~der to a~tempt to get a fa~rable result in the

penalty, phase - the focus of Johnson’s strategy.

Based on

this approach, Miller has failed to demonstrate that trial
counsel’s decision was unreasonable or that his .performance
-during clos~.~ arguments was deficient under Strickland.
Therefore, this claim is denied.
This ~lalm is also denied because Miller has failed to
meet hi~ burden of proof of demonstrating that he was
prejudiced by his trial cuunsel’s closing argument. See
8trickland~ 466 U.S. at 695; ~a. R. Crim. P. 32.7(d).
Miller has presented no evidence ~ncern_4ng the i~pact of
Johnson’s statements on the Jury, nor has Miller
d~monstrated a reasonable probability that’~he outcome of
the guilt phase of his trial would have been different had
Johnson not conducting his clo~ing argum~n~ in this ~ulner.
In general, statements of counsel ~are usually valued by
113

466a

2O64

the ~uryat their true worth and are not expected to become
factors in the formation of the v~rdict." Minor, 914 So. 2d
at 417. Miller offered nothing more in support of his claim
of ineffectiveness than the bare, conclusoryallegation
that Johnson’s closing argument was improper and t.hst it
prejudiced the jury, without proving specific facts that
demonstrate prejudice.

Accordlngly, Millsr has not met his

burden of demonstrating prejudice under Strickland and
therefore, this clalm is denied.
7.

Mil~eE’s Claim That Trial Counsel
F~iled To ObJeat To Mislea~Lng Portions

S~a~’s Closlng~~.
In paragraphs 214-16 of his amended petition, Miller
claims that his trial counsel were ineffective for failing
to object to part of the prosecution’s closing az!DLments.
Miller claims that the prosecution made arg~!ments based on
facts not in evidence that Holdbrocks and Yancy were facing
Miller when he shot them.
This Court finds that Miller failed to present any
evidence whatsoever during the evidentiary hearing in
pursuit of this claim.

Therefore, this Court denies all

teller on this claim.

In fact, Miller failed to ask trial

counsel a single question regarding why Johnso~ did not
ii4

IIII

II

I

¯

¯

,,,i

467a
,

__

2065

object to the prosecution’s closing argument. During the
evidentlary hearing, Miller did no~ identify any specific
s~atem~nt made by the prosecutor in closing arguments tu
which Miller ahould hav~ objected.

Miller did not ask what

trial counsel’s strategy was during the prosecution’s
closing arguments.

Nor did Miller offer any evidence than

wo~ld establish how he wa~ prej~iced by his trlal
counsels’ decision not to object.

Therefore, this Court

finds that Miller has abandoned this claim. See Brooks, 929
So. 2d at 498 (holding that a Rule 32 petitioner’s failing
to ask counsel ’~any q~estio.~s concerning her reasons for
not pursuing any of the claims~ in the Rule 32 petition
¯ cons~itunes an abandonment of those issues). See also
Chandler, 218 P.3d at 1314 n. 15 I’~An ambiguous or silent
record is not sufficient to di~pr~v~ the sgrong and
continuing p~esua~tion [of effective representation]");
PaYn.e., 791 so. 2d a~ 399 (~Because it .apl~ars that Payne
did not present evidence at th~ evldentlary hearing with
regard to ~Payne’s claims2, we conclude tha~ he has
abandoned these claims and we will not review them..")
Because Miller has "failed to meet his burden of proof of

468a

2O66

,,demonstrating that trial counsel was ineffea~ive, this
claim is denied.
8.

MilleE, s Claim That Trial (~unsel ~aile~ To

In ~a~ap~ 217-22 of his am~ed petition, Miller
clai~ ~t his trial c~el ~re i~ffectlve for~faillng
.to ~s~ ~t the j~ was pr~riy i~t~cted.
~Is Co~ f~dB t~t Miller failed Uo preset ~y
evince w~ts~r d~i~ t~ evldenti~ ha~ing in

p~s~t of ~ie clalm.

Miller failed to ask tr!al c~sel

a s~gle ~estion reg~ng why Jonson d~d or did ~t
~est cer~in i~t~ctions.

~ing ~e evi~nti~

h~Ing, Miller did not .identi~ ~y. specific i~t~tions
to whi~ Jonson sh~Id h~_~ ~ested.

Miller did not ask

w~t ~r~al c~el’s strategy w~s during the Jury
i~t~cti~ process.

Nor ~d Miller offer ~y evi~nce

~t w~ld eSt~lish ~w he was prejudiced by ~s ~rlal
counsels’ strategy in proposing jury instructions.
~e~fo~,. ’~is Co~ s~ld fi~ ~at Miller ~s ~don~
~le claim. See B~o~, 929 ~. 2d at 498 (holding ~t a
Rule 32 ~tltioner’s failing to ask counsel ~any ~est~on8
concern~n~ her reasons for not pursuing ~ny ofthe cla~"

469a

2067

in the Rule 32 petition constitutes an abandonment of those
issues). See also Chandler., 218 ~.3d at 1314 n. 15
ambiguous or silent record is not suff~clent to disprove
the strong and continuing presumption [of effective
representation]") ; Payne, 791 so. 2d at 399 (~Because it
a~ears that Payne did not present evidence at the
evidentiary hearing with regard to IPayne’ s claims], we
conclude that he has abandoned these claims and we will not
review them.") Therefore, this claim is denied.
D.
Constitutional Rightg.
In paragraphs 223-76 of his amended petition, Miller
raises several instances in which he alleges that his trial
counsel were ineffective during the penalty phase of trial.
Each claim of ineffective assistance of trial counsel
during the guilt phase is addressed individ~ally below:
I.

Miller’s ClalmTha~ TzialCx.z~sels, _l~__alt~2
Phase Opening statement Was Def~=ient And
Prejudicial.

In paragraphs 228-37 of his amended petition, Miller
claims that his trial counsel failed to present a coherent
mitigation case, failed to humanize Miller, and failed to
present a proper context for Dr. Scott’s testimony in his
117

470a

opening statement..(Pe~, at 67) Miller claims that Johnson
sugg~ested that Miller deserved to be executed and that
Johnson described Miller as being ~atrocious" and
[sic~. (Pet. at 69)
This Court denies Miller’s claim because he has failed
to meet his burden of proof of dem~nstratlng that his trial
counsels’ performance was deficient under Strickland, 466
U.S. at 687. Ala. R.-Crlm. P. 32.7(d).

A review of the

record indicates that Johnson had a specific message to
convey to the J~ry during o~enlng statements of the penalty
phase.. IR. IB24-34) Johnson explained that his strategy
opening statements was to convey that no ~tter what Miller
had done, ~whether [the jury], thought he was atrocious or
not" and ~whatever their feelings was about Mr. Miller"
that Miller did not deserve the death penalty. (Rule 32 R.
151, 156)
To emphasize this message, Johnson az~jued that the Jury
should not recommend a sentence of death because such a
sentence would not bring about justice and attempted to
lessen the impact of the prosecutlon’s sole .aggravating
circumstances by showing that all murders were heinous and
atrocious.

Johnson implored the j~ry that the death
118

471a

penalty was ~imperfect Justice" and stated that if the Jury
recommended, taking Miller’s llfe, the result would also be
"imperfect justice." (R. 1324-25) Instead, Joh_n..son stated
that ~I am asking you to recommend that the state not take
his life." (~. 1335) In support of his plea, Johnson urged
th~ Jury to c~nsider the testimony of Dr. Scott, who would
.attempt to explain ~why did all of this happen and what
meaning+ can we make of any o.f- this?" {R.. 1326-27)
Johnson then gave reasons why the jury should recommend
a s~nce of llfe Impriso~u~ut by s~ating that Dr. Scott
would explain that Miller was under "signi~ioant emotional
and psychological problams" at the time of the shootings.
{R. 1327.) Joh~so~ also told the jury that Dr. Scott’s
testimony would paint the picture of Miller as a ~tortured
soul" who believed and perceived eve~ts than were not real,
such as the work-place rumors and teasing, a~d that because
of these bellefs, Miller committed these acts. (R. 1329-30)
Additionally, Johnson informed the jury that he
accepted the prosecution’s challenge of showing that the
murder was not heinous, atrocious, and cru~l by stating
that ~’I’ve never seen a murder that wasn’t." (R. 13271
Johnso, also reminded the Jury that a capital murder which

472a

is cruel, heinous, and atrocious ~is something that goes
above and beyond ~hose facts which simply amount to capital
murder." (R. 1328)
Miller has failed to present any evidence that
establishes that trial counsel’s strategy and the
implementation of this strategy during opening penalty
phase statements was deficient.

The Court of Criminal

Appeals approvingly noted Johnson’s strategy of attempting
"to _portray Mi.ller as a ’tortured soul’ whose delusions
drGve him to commit a series of horrific acts." Miller, 913
So. 2d at 1162-63.
The record confirms that Court’s ultimate conclusion
.that ~counsel,s ~t reveals it to be an impassioned
plea that the jury spare Miller,s life." Id. at 1163
[rejecting claim that Johnson was ineffective during
penalty phase opening statements).

Johnson’s statement

that "there is only one way to get real Justice out of this
and that would be the taking of Alan Miller,i~...~.~..ifewouldrestorethose other three" was a reasonable attempt to show
the Jury tb~t sentencing Miller to death would still result
in imperfect Justice, (R. 1324) Likewise, Job/Iso~
reasonably attempted to de-e~hasize and lessen the impact

_

i

III

I If473a

i

I

,

2071

O~ overwhelming .~vid~nce towards the he~us~ss ~d.
a~!~sness of ~ sh~tlngs by ~glng ~t J~ ~ a
~er is al~ys ~in~s ~ a~ious. {R. 13~7, RuI~ 32

~~r, c~tr~ to hi~ claim, Jo~on did not call
~ller ~atroclous" and ~vial" [sic].

~ns~d, Jo~

silly ~o~ed the j~ ~ga~st t~ d~a~ ~Ity in
Miller~s case because ~no ~tter how atrocious, no ~ttor
how vial a ~rson i~, they don’t dese~e to die, they
dese~e to llve." (R. 1332] .This c~ent did not imply
t~ Jo~on ~e~f belie~ Miller to ~ atroci~s; as
J~s~ e~la~ed, ~s was a ~eral c~t a~inst ~e
de~th p~alty direct to the jury to show that ~an Miller
di~’ t .dese~e to die whether they thought he was atrocious
or not." .(Rule 32 R. 151)
Flatly, Joh~s~ effecti~ly p~ie~d for ~ JU~
during his opening statement Dr. Scott’s ~tlcipated
testi~ny. (R. 1327-29)~is p~view ~s ~istent wi~
the focus of Dr. S~tt’s ~s~ent testim~y and the. ~in
piece ~f Jonson’s penalty phase strate~:, that ~II~ ~
a ~rs~lity di~er ~ suffe~d f~ delusi~
c~tEi~ted to him c~itting ~e ~rs ~ ~at these
121

474a

facts constituted mitigating circumstances. (R. 1365-91)
Miller has failed to meet his burden of establishing that
no reasonably competent attorney would have pursued the
course of action Johnson undertook during the penalty phase
opening statements.

Johnson had strategic reasorm for

presenting his statement in this m~._ _~_ner a~d Miller failed
to establish this performance was deficient.

Therefore,

this claim is denied.
This claim is also denied because Miller has failed to
meet his burden of proof of demonstrating that he was
prejudiced by his trial counsel’s o~.ning statement during
the penalty phase..See Stricklan~d, 466 U.S. at 695; Ala. R.
Crim. P. 32.7 (d). Miller has presented no evidence
concerning the impact of Johnson’s statement on the Jury,
nor has Miller demonstrated a reasonable probability that
the. outcome of the penalty phase would have been different
had Johr~on not m~de these statements.

Miller has not

proven that the Jury did not consider Dr. Scott’s testimony
as strongly as the result of Johnson’s statement or it
affected the jury’s consideration of mitigating and
aggravating circumstances.

In fact, the record indicates

that Johnson’s strategy was successful and did have some,

475a

2O73

positive impac~ on the jury during the penalty phase based
on the fact that two jurors voted to recommend a-life
sentence. ~C. 74)
In general, statements of counsel would not have an
ultimate outcome of a trlal for they ~are usually valued by
the Jury at their true worth and are not aXp~ acted to become
factors-in the for,~tion of the verdict°" Minor, 914 So. 2d
at 417. Miller ~_~_s offered nothing more in support of hie
claim of ineffectiveness than the bare, conclusory
allegation that. Johnson’s opening statement was improper
~1~ ,~;h~t it prejudiced the ju~y, without proving specific

facts that demonstrate prejudice.

Accordingly, Miller. has

not met hi8 burden o~ demonstrating prejudice uuder
Strlckland and therefore, this claim is denied.

~Itlgatin~ ~vi~enoe T~ The Jllz’~.
In paragraphs 238-64 of his amended petition,

claims that his trial counsel were ineffective in
presenting ~ mitigation c~se. on Miller’s behalf.

Miller’s

cl~im contained numerous reasons in whichhe alleges trlal
counsels’ m~tlg~tlon presentation was ineffective.

First,

Miller claims that Dr. Scott’s testimony was insufficient
123

476a

2074

to presen~ a mitigation case because Dr. Scott had not been
retained as a mitigation expert. ~et. at 70) Miller also
claims that ~the Jury never heard about the emotional and
physical terror that Mr. Miller’s father, Ivan, had
inflicted upon Mr. Miller and his family.". (Pet at 71)
Miller alleges that the jury never heard about his troubled
childhood including the extent of ~he family’s poverty, the
family’s frequent relocations, and ~he unlawful behavior~
and drug abuse that occurred in the Miller home. (Pet. at
73~ Miller also claims tha~ his trial co~el were
ineffective for not pr~santing mitigation evidence through
the following family members:, his mother, Barbara, h~s
~iblings, Richard, Cheryl, _and Jeff, his niece, Alicia, his.
nephew, Jake, and his cousin, Brian. (Pet. at 75) Finally,
Miller claims that the jury never heard positive
information about his llfe such as the fact that he worked
to provide mmney for his family and his good empl~nt
history. (Pet. at 75-76)
This Court denies Miller’s claim because he has failed
to me_e~ his burden of proof of establishing t_h.~t trial
counsels’ performance was deficient under Strickla1%d, 466
U.S. at 687. Ala. R. Crim. P. 32.7(d).

The basic thrus~ of
124

II

IIII

IIII

477a

III Ill /

t~J

--

L

2075

Miller’s claim is that his trial counsel should have done
somethizlg more - i.e, tha~ more mitigating evidence
concerning his mental history, his-personal background, and
family background should have been presented during the
penalty phase.

When a claim is raised that trial counsel

should have d~ne Something more, a court must first-look at
what trial co~_msel did. Chandler, 218 F.3d at 1320
(’Although Petitioner’s claim is thau his trial co%ulsel
should have done so~thing more, we first look at what the
lawyer did in .fact.").

Moreover, "the mere fact that other

w~tnesses, might have been available or that other .testimony
might-have been elicited from those who testified is not a
sufficient ground to prove ineffectiveness of counsel."
at 1316 n. 20.
Johnson testified that he made a strategic decision to
focus on the ponalty phase of Miller’~ trial and that. his
specific theozy of defense was that Miller suffered from a
diminished capacity. (R2. 17, Rule 32 R. 219) Accordingly,
Johnson presented the testimony of Dr. Scott for this
purpose in an effort to establish the ~xlstence of two
statutory mitigating circumstances: that the capital
offense was committed while the defendant was under the

II

"

II

-

478a

I

I

¯

II

I II

I

till_.

II li

2076

influence of extreme mental or emotional disturbance under
Ala. Code ~ 13A-5-51(2) and that the capacity of the
defendant toappreciate the criminality of his conduct or
to conform .his co,duct to the requirements of law was
substantially impaired under Ala. Code § 13A-5-51(6). (R.
1343-91, Rule 32 R. 186-87) ~oh~son had origi~lly retained
Dr. Scot~ to evaluate Miller in regards ~o an insanity
plea; however, after Dr. Scott issued-.his r~por~ and
i~sanity plea was dropped, Johnson discussed with Dr. Scott
~he possibility of presenting the mental health evidence
from Dr. Scott’s evaluation in support of a mitlgatio~
case. (R~le 32 ~o 181, 190, 253)
At trial, Dr. Scott-provided testimony rela~ing to
Miller’s psychologlcal background as well as Miller’s
version of the avents on the day of t.he ~hooting in support
of a diminished capacity s~rate~y.

Dr. Scot~ testified

thatMillerreported ~ha~ he believed people were watching
hlm-and teasing him at work ~_d that these feelings weighed
on his mind. |R. 1365-66, 1369) Dr. Scott stated tha~
Miller said th~ pressure of these thoughts kept building up
in his mindand that the "straw that brok~ th~ c~n~el’s
back" occurred when he arrived at work at Ferguson

I

J

I

IIIII

I

II

III

I

llIl

479a ii

i

, ii

,

IiI

’ ’

I

2077

E~terprises on August 5, 1999. (R. 1373-75)

Dr. Scott also

testif±ed that Miller reported experiencing ~tunnel vislonH
_~_~.d that Miller had difficulty rscalling the events of the
crim~. (R. 1375, 1378)

Ba~ed on this evld~nc~, Dr. Scott

opined that Miller did have a mental illness at the time of
~he shootings, specifically ~ delusional disorder, and that
¯ his ability to appreciate his conduct was substantially
impaired. (R. 1389-91)
Although the presentation of testimony supporting a
diminished capacity theory was Johnson’s main strategy,
contrary to Miller’s claims, Johnson also presented ~._~_
array of mitigating evidence concerning Miller’s
.background, family history, an~ positive information about
his life though the testimony of Dr. Scott.

Johnson did

not hire Dr. Scott with the express purpose of
investigating Miller’s background, and in fact, Johnson and
Dr. Scott agreed that he was not r~tain~d in e__h~ ~apacity
of a mitlga~ion expert. (Rule 32 R. 189, 311) However, Dr.
Scott did state that it was important for-him to learn as
much as he could about Miller’s social background,
e4hlcational b~ckground, and personal history, during his
eval~ation. (R. 1348) Johnson testified Dr. Scott did a
127

480a

2078

¯ thorough job of investigating relevant family history ~d
background information a~d could perform the

role

present~ng th2s ~nformat~on he d!scovered to.the Jury.
(Rule 32 R.,222, 254)
Contrary to Miller’ s claims, evidence concerning the
physlcal and emotional abuse inflicted on him perso~lly by
Miller’s father, Iran, and on his family was presented
~gh. th~ testimony of Dr. Sco~t.

Dr. Scott testified

that 7van was "verbally abusive" to Miller, that Ivan told
Mlller ag a young age he would not amount to anything, and
that.lvan called him a ~God damn son of a bitch." (R. 1350}
D~. Scott also test±fled that Ivan was "physically abusive#
to Miller aiad frequently big Miller which le£t bruises ~n
him. {R. 135.0~ Dr. S~ott told the jury about a specific
occurrence of ~van.’s abuse when Ivan threagened to harm
Miller with a larue butcher kni£e. (R. 1351) Dr. Scott also
noted that M~ller witnessed Ivan’s verbal and physical
a~use to his mother, in which Ivan c~11ed her 8 "whore" and
frequently hit h~r ~very hard.~ (R. 1351)
Contrary ~o Miller’s claim, evidence deta!llng M±ller’s.
impoverished ehild_h__nod and unstable home environment was
presented through Dr. Scott’s testimony.. Dr. Scott stated
I28

481a

that Miller had "an unusual early childhood" because his
family frequently moved between Illinols, Alabama, and
Texas as ~any as seven to 10 times. (R. 1349) Dr. Scott
testified that Ivan Miller often quit or lost his Job and
that the. family lived ~on the edge of poverty a lot."
1349) Dr. SCOtt also informed th~ jury that drug use was
p~esent during Miller’s childhood, noting that Ivan Miller
~abused marijuana quite heavily- and injected drugs
intravenously in Miller’s presence. JR. 1350) Dr. Scott
also provided details of Ivan Miller’s eccentric behavior,
testi£ylng that ~van thought he had the power to heal and
that his father leid hands onMiller’s brother and walked
around the .house spraying ~holy water." JR. 135D-51)
Addltionally, Dr. Scott prese~Ited evidence of the family
psychiatric history. (R. 1362) Dr. Scott noted ~van
Miller’s erratic behavior and also testified that Miller’s
grandfa~ had baen institutlo~allzed and that his brother
was considered slow. (R.
Finally, contrary to Miller’s claims, Dr. Scott
provided positive evidence of Miller’s character.

Dr.

Scott .n~ted that that Miller had a great, lovingrelationship with his m~ther, Barbara. (R. 1352) Dr. S~ott

482a

told the ~urythat Miller quit school when he was in the
eleventh grade so that he could work and provide money
his family. (R. 1349-50) Dr. Scott noted that Miller did
not have a history of aggressive behavior and that Miller
eventually graduated from high school. (R. 1352-53) Dr.
SCott also testified that Miller did not have a history of
~uy serious drug or alcohol abuse. |R. 1356)

Dr. Scott

also provided the jury with details of Miller’s amployment
history, testifying that Miller had several jobs, usually
left a ~ob for a job that paid more money, and kept to
hi,%self during work. (R. 1363) in total, the scope of Dr.
Scott’s testimony was broad and provided many details of
events throughout his lifetime and extensively covered
various areas of his personal history.
Based on the record of trial and the evidentiary
hearing, this Court finds that trial counsel made a
strategic decision to concentrate on presenting evidence
during the penalty phase on Miller’s diminished mental
capacity that would support a finding of the existence of
two statutory mitigating circumstances.

Trial counsel also

presented a wealth of evidence concerning Miller’s
background and family history.

__

ill

llIl

Trial counsel’s strategy

483a

II

,m

~

was successful in that two ~urors recommended a sentence of
llfe imprisonment and the trial court found theexistence
of three s~atutorymiti~ating circumstances. Miller, 913
So. 2d at 1169.
Simply because Miller alleges that more mitigating
evidence could have been presented does no~ demonstrate
that his trial counsel was ineffective.

Trial counsels"

decision was reasonable and straueglc, and this Court will
not ~second-guess" it. See, e._~, Crawfordv. Head, 311
F.3d 1288, 1312 (11th Cir. 2002)("Thls court agrees that
testimony from a mental health expert ... would have been
admissible and might be considered to be mitigatlng.
However,trialcounsel chose to pursue a strategy of
focusing the Jury’s attention on the impact of a death
sentence on petitioner’s family.

This court will not

second guess, trial counsel’s deliberate choice.");
State, 746 So. 2d 364, 398 (Ala. Crim. App. 1999)I~Trial
Counsel statedthat the-defense strategy was to humanize
Boyd for the. Jury ... [W]e do not find counsel’s efforts to
be ineffective.").
This Cour~ also finds that trial counsel also
tautical reasons for not presenting evidence or witnesses

484a

which Miller now alleges should have been presented during
the penalty phase. See ~ayne v. State° 791 so. 2d 383, 404
IAla. Crim. App. 1999) (~When a decision to not put on
certain mitigating evidence is based on a ~strategic
choice,’ co%n:ts have always found no ineffective
performance.").

Miller claims that a host of family

members, particularly his mother, Barbara should have been.
presented as witness during the penalty phase of trial.
However, both trial co%msels testified d~ring the
evldentiary hearing that they had specific, strategic
reasons for not presenting Barbara Miller as a witness.
Johnson testified that he talked with Barbara Miller in
preparation for the penalty phase, considered calling her
as a witness, and discussed this possibility with
counsel Rorulle Blackwood. (R. 158, 229) Johnson explained
that his reason for not calling Barbara as a witness was
that he felt she would not be effective as a witness:
~I ... spent enough time with Alan’s mother to be
able to draw some conclusions ... about how
effective she might be in that capacity ....
I was concerned that with Alan’s mother[~s]
demeanor that it might diminish that natural
sympathy for a mother because I found her ... to
be somewhat emotionally detached from the
circumstances we were in."
{R~le 32 R. 177-78)(’see also Rule 32 R. 230-31)

485a

Blackwood confirmed that trial counsel discussed the
possibility of putting Barbara Miller on the stand, (Rule
32 R. 863) Blackwood testified he spoke with Barbara Miller
about testifying ~_~ that he talked with her about what she
might testify to in regards to saving Miller’s life if
called. (Rule 32 R. 864) Durlng.this conversation,
Blackwood testified that Barbara Miller was ~very matter oZ
fact" .and also uttered a racially derogatory word. {Rule 32
R. 864-65) Blackwood stated that Barbara Miller’s demeanor
and her use of this lanT!_age contributed to the strategic
decision to not call her as a witness. (Rule 32 R. 865)
Johnson provided another reason for not calling Barbara
Miller as s witness stating that ~I didn’t know that she
had any background information that might be particularly
important that wasn’t already presented by Dr. Scott."
(Rule 32 R. 178) Furthermore, Johnson testified that he
decided during the penalty phase tha~ there were not any
other members of Miller’s family whose testimony coul~, have
made an impact during the ;enalty phase. (Rule 32 R. 245)
Moreo~er~ Joh~.~on could no~ h~ even been aware of two of
the family witnesses Miller now claims should have bean
called as witnesses during th~ penalty phase.

Miller’s
].33

486a

..nephew, Jake Connell, and his niece, Alicia Sanford, both
testified during the evidentlary hearing that neither of
them even attended ~liller’s trial. (Rule 32 R. 498, 585)
Trial counsel had specific, strategic reasons for calling
a~d not calling the witnesses they did during the penalty
phase ~ Miller h~ failed to establish that trial
counsels, choices were deficient.

Miller has not proved

that no reasonably competent attorney would have proceeded
during the penalty phase in the manner in which Miller’ s
trial counsel did.
F-~nally, Miller has failed to demonstrate ~hat his
trial c~;.~.sel were deficient for not retaining and
presenting ~the testimony of a mitigation expert.

As noted

above, Dr. Scott adequately presented an abundant amount of
mitigating evidence.

~urthermore, Miller has failed to

present any evidence that establishes a reasonably
cor~petent attorneypracticing at the time of M~ller’s triel
wo~id have retained and presented a mitigation expert.
With over twenty-five years of experience litigating
criminal cases and par~ic~patLng in several capital muz~ler
~rials before Miller’s, Johnson testified that he had never
retained a mitigation ~q:~ert. (Rule 32 R. 210, 254~

487a

Blackwood also testified that in his experience as a
crim~_..nal defense a~torney, he had never hired a mitigation
e~erto (Rule 32 R. 868) Acco~dlngly, Miller has failed to
establish that his trial counsel were deficient in this
regard.

Furthermore, Miller has failed to meet his burden

of. proof of demonstrating that his trial counsels" penalty
phase strategy and performance were unreasonable and
deficient.

Therefore , ~ this claim is denied.

This claim is also denied because Miller has failed to
meet his burden of proof of demonstrating ~hat he was
prejudiced by his trial counsels" penalty phase
performance. See Strickl~, 466 u.S. at 695; Ala. R. Crim.
P. 32.7 (d).

Even if Miller had demonstrated that his nrial

counsel ware deficient for not presenting sufficieIlt
mitlgation .evidence during the penalty phase, Miller has
failedto establish a reason.able probability that the
outcome of his proceeding would have been different had
such information been presented.
Miller has failed to establish that he was prejudiced
by trial counsel’s decision to not retain and present the
testim~cly of a mitigatio~ expert.

As noted above, Dr.

Scott presented thorough ~estimony during the pazlalty phase

488a

detailing Miller’s background and f~ily history and also
focused much of his testimony on presenting evidence of
Miller’s mental health problem~. IR. 1343-91). Similar to
¯Dr. Scott, Dr. Catherine Boyer testified during the
eTidentiary hearing in regards to what type of
investigation a mitigation expert would conduct. (Rule 32
R. 59a-93)
Dr. Boyer also Stated that, like Dr. Scott, she met
Miller over a period of-three occasions. (Rule 32 R. 598)
However, Dr. Boyer’s testimony during the svidentiary
hearing covered essentially the sama topics and areas which
Dr. Scott presented during the penalty phase.

Dr. Boyer

testified concerning Miller’s family history of mental
illness, that his family lived in poverty, t/%at Miller had
a ~ood employment history, that Ivan was physically
abusive, and tha~ Miller had a good relationship with his
mother and siblings. (Rule 32 R. 643-74) Additional
evidence concerning Miller’s background and family history
pr~vlded by Dr. Boyer was simply cumulative of the
testimony provldmd by Dr. Scott during the penalty pha_se.
However, "unpresented cumulative testimony does not
establish that counsel was ineffective." McNabb v. Starts,
136

489a

2087

991 So. 2d 313, 322 (Ala. Crim. App. 2007); see also Dobyne
v~ Stat~, 805 So. 2d 733, 755 (Ala. Crim. App. 2000)
(cumulative ~videncewouldnot have affected appellant’s
sentence).

Therefore, this Court finds that Miller was not

prejudiced by trial counsel’s fa±lure to retain a
mitigation expert.
Similarly, this Court finds that Miller was not
prejudiced by his trial counsels’ failure to present more
details ~oth of the extent of physical abuse from his
father, Ivan, and of the pover~yand unstable ~nviromn~.nt
in which Miller lived.

Testimony regarding the extensive

level of physical and emotional abuse directed towards
~Miller as well as the extreme level of poverty of Miller’s
chil~hood home was presented during trial. (R. 1349-52}
Miller has failed to present any further significant
specific facts other than cumulative evidence that simply
expounds on general examples of Ivan Miller’s abuse and the
M~ller family pov~rty.

Such cumula~ivetestlmonydoes not

demonstrate that Miller was prejudiced by the presentation
of testimony concerning the level of abuse and poverty in
Miller’s childhood. See McNabb, 991 So. 2d at 322; ~_~,
805 So; 2d at 755.

490a

2088

The record indicates that Miller failed to present any
further~ significant evidence of childhood abuse through the
testimony of his~ family members during the evidentiary
hearing.

His mother, Barbara Miller, generally testified

that Xvan ignored Miller, called him names, and physically
abused Miller. (Rule 32 R. 402-11)

However, she did not

provide testimony of any specific incidents of ab~se or
injuries as a result of. abuse.

Miller’s sister, Cheryl

Ellison provided~mi.nimal testimony regarding Ivan’s abuse
of Miller, admitting she did not grow up in tb~ sa~e house
~s Miller. (Rule 32 R. 501)

Miller’s brother Richard also

provided no~hing bu~ general statements that Ivan WO~id
~[s]lap ~Miller3, kick him, sometimes punch him." (Rule 32
R. 546.) Regardless, even if his family could have provided
spec.iflc ~aCts, .simply the fact that Miller’s family
members could have ~rovided more details of the extent of
the abuse Miller_ suffered or of his childhood poverty does
not establish ineffective assistance of counsel. See Payne
v. All,n, 539 F.3d 1297, 1317 (llth Cir. 2008) (~The ~0ere

fact that the family members could have presented .more
thorough and graphic detall about ~he physical abuse Payne

491a

suffered and witnessed and his early substaace abuse does
not render counsel ’ s performance ineffective. ").
Moreover, had co%ulsel presented evidence of Miller’s
childhood poverty and abuse, it would not have altered the
balance of mitigation and aggravation ,!nder Str±ckland.
Miller was in his mid-thirties when he committed the
Ealrders.

(C. 79)

It is well established that evidence

c~cernins a middle aged murderer’s childhood poverty,
abuse and background would have been entitled to little, if
any, mitigating weight. See Callahan v. Campbel_!, 427 F. 3d
897, 937-38 (llth Cir. 2005)(value of evidence regarding
childhood abuse "~minimal" where defendant was thirty-five
when he committed crime); Gilreath v. Head, 234 F. 3d 547,
551 n. i0 (llth Cir. 2000) (petitioner not prejudiced when
his attorney failed to present evidence concerning his
abusive and difficult childhood where petitioner was forty
years old when he committed the offense); Mills v.
~, 63 F. 3d 999, 1025 (llth Cir. IS95)(petitioner

not denied effective assistance of counsel because counsel
failed to present evidence concerning abusive childhood
where petitioner twenty-slx years old); Bolender v.
Sing_ letary, 16 F. 3d 1547, 1561 (llth Cir. 1994)(petitioner

492a

2090

t~_nty.-seven y~ars old when committed offen~e).
AccordAngly, this Court finds tha~ Miller has failed to
establish prejudice under Snrickland.
Miller Ms also failed to establish that he was
prejudiced by his trial counsels’ decision not to present
additional evidence of Miller’s positive character through
~e testimony of his family members during the
phase.

Trial counsel was nou required to present

mltig~ting character evidance an all during the panalty
phase. Se~_Gaddy v. State, 952 So. 2d 1149, I170-?i (Ala.
CrAm. Ap~. 200~).

However, as noted above, trial counsel

did p~es~nt positive evidence of Miller’s llfe through the
testimony of Dr. Scott. (R. 1349-63) The testimony of
Miller’s f~mily members du~ing the evidentiary hearing was
simply cumulative of the positive evid~n~ presantedby Dr.
S~ott during the penalty phase.
Barbara Miller essen~ially offered no significant,
positive details of Miller’s character d~ring the
evidentiaryhearing other ~han the fact that he helped pay
for his younger brother, Ivan Ray’s funeral ~xp~nses and
~hat he cared fo~ his family ,~.~ was quie~ and hard
working. (Rule 32 R. 424) Miller~s uncle, ~eorg~ Carr,
140

493a

2091

provided no noteworthy details of Miller’s life and even
aclmltted that he was not aro.und ~£111er that much as a
child. (Rule 32 R.. 462) Miller’s sister, Cheryl E11ison,
gave minima! testimony concerning his positive character,
¯o~ly stating that Miller w~s like a brother, to her son,
Jake. (Rule 32 R. 505.1 Miller’s brother, Richard,
¯ e~sentially .did not provide ,n¥ positive character evidonce
at all during the evldentiary hearing.

The positive

character evidence pr~se~ated through the testlm~ny of
Miller’s family members during the ~videntiary hearing was
not significant and was mez~ly cumulative to .Khe positivm
evidence of Miller’s life that was presented during the
~.p~nlalty phase. See McNabb, 991 So. ~d at 322; ~, 805
So.- 2d at 755.
Miller has also failed to show how he was prejudiced by
the failure to present additional mental health evidence
during the penalty phase in the form of Dr. Boyer’s
diagnosis that Miller suffered from post-traumatic stress
disorder. CRule 32 R. 714)

Dr. Scott presented testimony

tha~ Miller suffered from a mental illness and the trial
" co~-"t found that Miller was under the influence of ~xtreme

mental distress and that the capacity to a~1~ec~ate the
I4;I

494a

2092

criminality of his conduce was substantially impairS.
Miller, 913 Be. 9.d at 1169. .Therefore, the mitigating
circumstances pertaining to Miller’s men~al health were
found, to exist by the trial court and therefore,
presentation o£ addltional mental health svldence would not
have proven any addltio_~_~l statutory mitigating
circumstances.
Furthermore, the evidence presenged during the
~rid~ntlary h~aring casts serious do~0t on Uhe opinion of
Dr. Boyer that Miller suffered from a post-traumatic stress
disorder ("PTSD~} at the time of the offense.
staged ~h~.g .the principal sollrces of Infor~ati.c~ thag led
her to conclude that Miller suffered from I~rSD wer~ that
Miller was-exposed to routine abuse that Miller routinely
zoned out, thag Miller had certain el~vage~ MMPI scales,
and the5 ~i~ler had initial difficulty r~mberlng the
ev~ngs of the shootings. (Rule 32 I%. 71~-16)
On cross-e~_m_i~i~n, Dr. Boyer agreed tha~
Diagnostic and Statistical Manual of Mental Disorders,
Forth Edition, Text Revisi~u (DSM-IV~TR) is an
author!~ativ~ ~ext. in the field of psychiatry, and she
explained that ~ DSM-IV-TR is a guid~lin~ for mental

495a

2O93

health professionals. (Rule 32 R. 730-31)

Dr. Boyer agreed

that a diagnosis of PTSD must have an extreme traumatic
stressor as opposed to a generic trauma. (Rule 39~ R. 733)
Specifically, Dr. Boyer noted that with regard to PTSD, th~
DSM-IV-TRprovides, as follows:
The essential feature of Post Traumatic Stress
Disorder is the dev~lopment of characteristic
symptoms following exposure to an extreme
traumatic stressor involving direct personal
experience of an event that ~nvolves actual or
threatened~death or serious injury, or other
threat to one’s physical integrity; or witnessing
an event that involves death, injury, or a threat
to the physical integrity cf another person.
{Rule 32 R. 733) With regard to ~traumas" that are
experienced directly, Dr. B~yer noted that the DSM-IV-TR
provides, as follows:
Traumatic events that are experienced directly
include, but are not limited.tu, military combat,
violent personal assault (sexual assault, physical
attack, robbery, mugging), being kidnapped, being
taken hostage, terrorist attack, torture,
incarceration as a prisoner of war or in a
concentration camp, natural or manmade disasters,
severe automobile accidents, or being diagnosed
with a life-threatening illness.
(Rule 32 R. 734) Se__e Diag~ostlc a~d Statistical Manual of

Mental Disorders, Fourth Edition, Text Revision, at pp.
463-464.

496a

However, Dr. Bcyer noted that Miller had never
e-~perienced military c~mbat, a kidnapping, a sexual
assault, been taken hostage, been a prisoner of war, or
been involved in a terrorist attack, natural disaster or
severe automobile accident. (Rule 32 R. 734) Dr. Boyer also
noted that Miller had never watched someone be seriously
~nJured or killed, before the shootings took place. (Rule
32. R. 736}

Dr. Boyer admitted that none of Miller’s

hospital records indicated that his injuries came from
specific incidents of abuse and did not indicate that
Miller ever received any serious gunshot or knife wounds.
(Rule 32 R. 740)
Dr. Boy~r stated that Dr. McClaren did not find that
Miller suffered from a dissociative disorder such as PTSD.
(Rule 32 R. 744) Dr. Boyer also noted that no other
professional had diagnosed Miller with PTSD. (Rule 32 R.
7S0) In fact, none of the other four doctors who e-~amined
Miller in connection with his trial or evidentiary hearing
determined that he suffered from PTSD.

Dr. Boyer also

failed to provide any specific examples from the testimony
presented during the evldentiary hearing of Miller reexperiencing bad experiences. (Rule 32 R. 749-50)

497a

2095

Dr..Harry McClaren testified during the evidengiary
hearing that there was no evidence to indicate that Miller
was reliving ~ything at the time of the murders. (Rule 32
R. 787)

Dr. McClaren also stated tb_~_t he originally was of

the opinion that Miller’s self-repurt that he had
dlfficulty remembering events of the shootings was of
questionable veracity. (Rule 32 R. 775i Dr. McClaren later
stated that iu was unusual for someone with true amnesia to
remember certain evants in questions months" later. (Rule 32
R. 85~-) Finally, Dr. McClaren testified that he was of the.
opinion that Miller was not suffering from PTSD. (Rule 32
R. 787-88) The combination of the lack of a previous
diagnosis of PTSD from any mental health professional who
examined Miller, Dr. McClaren’s opinion that Miller does
not suffer from PTSD, a~d the dissimilarity between the
exsm~les of traumatic events contained in th~ DSM-IV-TR
associated with PTSD when compared to the facts presented
during the evldentiary hearing regarding Miller’s life
discredits Dr. Boyer’s opinion that Miller suffers from
PTSD.

Regardless, this Court finds that ther~ is ~o

reason_~le probability that the presentation of any
evidence regarding Miller’s alleged diagnosls of PTSD would

498a

2096

have el.feted the Jury’s recommendation of a death sentence
or the trial court’s finding that the aggravating.
circumstances outweigh the mi~isatlng-circumstances.
Finally, in regards to this entlr~ clalm~ Miller has
not shown a reasonable probability that the result of the
penalty phase would have b~en differen~ had additlonal
mitigation evidence been presented based on the brutal
nat~e of the crime, the c~erwhelmin~ an~ convincing
evidence of guilt, and the strength of the ag~Tavating
circumstance that this murder was heinous, atrocious, a..n_.d
cruel. Se.e. ~, 539 F.3d at 1318.

Miller repeatedly and

hOrrlfically shot and killed three people.

The Cour~ of

Crlminal Appeals found that the evidence of guilt was
~ovsrwhelming", especially in regards to the multiple
eyewitnesses identifying Miller as the shooter.
So. 2d at 1162.

Mille__r, 913

In this particular case, there is no

reasonable probability that additional mitigation testimony
about Miller’s background or his mental health problems
would have altered the bale/ice of aggravating and
mitigating circumstances in this case. See .Payne, 539 F.3d
at 1318 {"So~e more detailed mitigatins ~vidence about
Payxle,s childhood, family background, and s~bstance abuse

499a

2097

would not have negated the aggravating nature of this
abhorrent murder proven beyond all dol%bt by the State~")
Therefore, Miller has failed to establish that he was
prejudiced under Strlckland and accordingly, this claim is

Offezed B~ The States.
In paragraphs 265-67 of his amended petition,. Miller
claims that his trial counsel were ineffective for failing
to object to the testimony of the victims’ family members
during the penalty phase.

Miller claims that this

testimony was hlghly prejudiclal and inflamed th~ Jury.
This claim is denied because this Court finds that
Miller failed to present any evidence whatsoever during the
evidentlary hearing in pursuit of this claim.

Miller

failed to ask trlal counsel a single question regarding why
Johnson did not object to the victim impact testimony.
During the evid~.ntiary hearing, Miller did no~ identify any
specific testimony from the victims’ family members to
which Johnson should have objected.

Nor did Miller offer

any evidence that would establish how he was prejudiced by
his trial counsels" decision not to object to this
147

II

III 1

I

_1

L I

I I ¯ I

500a

iill

,

i

2098

testimony.

Therefore, this ceurt finds that Miller has

abandoned this claim~ See Brooks, 929 So. 2d at 498
[holding that a Rule 32 petitioner’s failing to ask counsel
"any questions concerning her reasons for not pursuing any
of the claims" in the Rule 32 petition constitutes an
abandonment of those issues). See also Chandler, 218 F.3d
at 1314 n. 15

(~An ambiguous or silent record is not

s~fficlent to disprove the strong and continuing
presuu~tion [of effective representation]=) ; Pa_~, 791
2d at 399 (~Because it appears that Payae did nut present
evidence at the evldentlary hearing with regard to [Payne’s
claims], we conclude that he has abandoned these claims and
we will not r~view them.")

Accordingly, Miller is not

e~titled to ~y relief and this claim is denied.
Mill~z’s Claim That Tzial ~unsel’s Penal~
Phase Closing Ar~um~n~ Was Defimlen~ And
PreJudi=~al.
In paragraphs 268-72 of his amended petition, Miller
claims that his trial counsel wer~ ineffective du/ing
closing arg~uent of the penalty phase.
This claim is d~nied because this Court finds that
Miller failed to present any evidence whatsoever during the
evidentiaryhearlng in pursuit of this claim.

_

501a_

Miller

III

II

I

aa ~

2099

failed to ask trial.counsel a single question, regarding the
S~rategic reasons why Johnson cond%~c~ed his closing
argument in the manner he did.

The only question Miller’s

post-conviction coumsel asked Johnson regarding his closing
argument during the penalty phase ~nvolved verifying that
JOhnson included the theme in his closing argument ~hat
"even the worst of the worst did not deserve to die." (Rule
3~ R. 195) However, M~ller failed go ask nrial counsel why
he pursued this strategy.

Miller further failed to present

az~ evidence during the evidentiary hearing that
ostabllshed how trial counsel’ s theme was unreasonable.
Furthermore, Miller did. not present any evidence as to
~hat a reasonable~attorn~ would have argued during closing
arguments of Miller’s trial.

Nor did Miller offer a~y

evidence that would establish how he was prejudiced by his
trial counsels’ closing argument.

Therefore, this Court

finds that Miller has abandoned this claim. See Brooks., 929
So, 2d at 498 lholding that a Rule 32 petitioner’s failing
to ask counsel ’~any questions concerning bed reasons for
not pursuing any of the claims" in the Rule 32 petition
constitutes an abandonment of those issues). ~ee also
~-~_~er, 218 Fo3d at 1314 n. 15 (~An ambiguous or silent
149

IIII

II
502a

II

¯

,

,_

, .............

2100

r~cord is not sufficient to dlsprov~ the s~rong and
continuing presumption [of effective representation]") ;
Payne, 791 So. 2d at 399 ("Because it appears that Payne
did no~ present evidence at the evidentlsry hearing wi~h
regard to [Payne’s clalms~, we conclude that he has
abandoned these claims and w~ will not review nhem.")
Accordingly, Miller is not entitled to any relief and this
claim is denied.
5.

Miller’s Clai~ T~__.~ Trial Counsel ~ailed T~

~n paragraphs 273-74, ~iller claims that. his tri~l
counsel were ineffective for failing to request %hat
~trial court provide ~he ~ury with a special verdict form in
order to memoriallz~ the unanimous existence of
aggravating circumstances.
This claim is denied because this Court fizlds
Miller failed to presen~ any evidence whatsoever during th~
evidennlary hearing ~n pursuit of this claim.

Miller

failed no ask trial counsel a single question regarding why
Johnson did not request a special v~rdicn forml

Nor did

Miller offer any evidence that would ~stablish how he was
prejudiced by his tri~l counsels~ decision not to request a
special verdict form.

Therefore, ~his Cour~ finds that

503a

2101

Mlller has abandoned this claim, see Brooks, 929 So. 2d at
498 (holding that a Rule 32 petitioner’s failing to ask
counsel ~any questions concerning her reasons for not
pursuing any of the claims" in the Rule 32 petition
constitutes anab~ndo~m~nt of those issues). S~e also
Chandler, 218 F.3d at 1314 n. 15 (same); ~ayne0 791 so. 2d
at 399. Accordingly, Miller is not entitled to any rellef
and this claim is denied.
6.

Claim That TRial Counsel Taile~ To

In paragraphs 275-76, Miller claims that his trial
counsel were ineffective for not objecting to the trial
court’s instructions in which the trial court referred to
the jury’s ~recom~endation.=
This Court denies Miller’s claim because he has failed
tomeet his burden of p~oof that his trial counsel were
deficient for not objecting to the trial court’s
instructions and has failedto demonstrate how he was
prej.udiced.
merit.

Miller’s contention is completely without

Under Alaba~a law, the Jury’s sentencing

determination in capital cases is advisory only. Ala. code
s

During the penalty phase instructions, the

504a

2102

trial court properly referred to the Jury’s determination
a~ a recoEm~za¢.ation. (R. I~7, 1428, 1441) Alabama courts
have routinely rejected claims ~!~at such an inst~ctlon is
improper. Se__e Harris v. State, CR-04-2363, 2007 WL 4463947
at *20 ~Ala. trim. App. December 21, 2007)(~Alabama courts
have repeatedly held that a prosecutor,s comments add a
trial c~s i~uz~ruction~ accurately informing a Jury that
its sentencing verdict is advisory .or is a recommendation
do not violate Caldwell v. Misslss.ippl, 472 U.S. 320
(1985~"I; Browzz v. State, CR-04-0293, 2007 WL 1865383, at
*46 (Ala. trim..App. J~L~e 29~ 2007)
Miller has presented no evidenc~ that the jury in his
case was ~led to-believe that ~he responsibility for
determini=g the app~riateness of ~he defendant,s death
rests elsewhere." Caldw~ll, 4q2 U.s. at 528.

TO th~

contrary, the trial court instructed the Jury that ~[i]t is
your sole respun~ibility to deUermine wha~ the fac~s are
and recommend the punishment in this case." JR.
Therefore, trial counsel could not be ineffective for
~ailing to make an objection to the trial court’s
~Eerences to ~he .sent~ncin~ ~ecommandation of the Jury
~ecau~e the trial court’s .instructions w~re proper and did

152

505a

not violate Caldwell. See McNabb v. Stat~, 991 So. 2d 313,
327 IAla. trim. App. 2007) I~[C]ounsel could not be
ineffective for failing to raise a baseless objection.")
Accordingly, Miller has failed to meet his burden of proof
and his clalm is denied.
Miller’s ClalmThat Trial C~unsel Did Not
A&mqj~ately, Or Offer Available Mitlgatin~Evlden~e
At The Sentencing Heazlng.
In paragraphs 277-79 of his amended petition, Miller
claims that trial counsel were ineffective for failing to
offer any additional evidence or witnesses in support of
M~11er. (~e~. at 83)
This Court denies Miller’s claim because he has failed
to meet his burden of proof of demonstrating that his trial
counsels’ performance was deZiclent under Strickland, 46S
U.S. at 687. Ala. R. trim. p. 32.7(d).

Alabama courts have

held that ~counsel does not necessarily render ineffective
assistance simply because he does not present all possible
mitigating evidence.- McGahee v. Stat~, B85 So. 2d 191, 221
(Ala. trim. App. 2003).

However, as. noted above, trial

counsel presented a competent mltigating case concerning
Miller’s mental health and background during the penalty
phase of trial.

The trial court presided over Miller’s

506a

trial and ~h~ard all of the mitigating evidence presented.
Simply the fact that Miller’s trial counsel could have
presented more mitigation evidence during the sentencing
hearing doe~ not establish deficient performance under
Strickla~d. See McGahee, 885 So. 2d at 222 (~Trial cotlnsel
could have called more witnesses at the penalty-phase
hearing before the trial Judge, with the hope that the
addition_a_1 information would have convinced the trial judge
to agree with the jury’s recommendation and to sentence
McSahee to life imprisonment without parole. The same can
be said after any sentencing hearing in a capital case in
which a death sentence is imposed after the jury
recommended a sentence of llfe imprisonment without

parole.") (emphasis in original) .
Miller failed to ask trial counsel any questions
regarding the reasons why he did not call eny witnesses
present evidence during th~ sentencing hearing. (Rule 32 R.
200-01)

Therefore, trial counsels’ performance must be

presumed to be reasonable.

Furthermore, Miller’s trial

counsel could not be ineffective for failing to present
additional mitigation evidence during the sentencing
hsaring because ~’Section 13A-5-47, Ale. Code 1975, does

507a

prov-~de for the presentation of additional mitigation
evidence at sentencing by the trial c~urt." Boyd v, state.,
746 so. 2d 364, 398 ~Ala. Crim. App. 199~).

Therefore,

Miller has failed to establish that his trial counsels,
performance was deficient and this claim is denied.
This claim is a!so denied because Miller has failed to
meet his burden of proof of demonstrating that he was
prejudiced, See Strickland, 466 U.S. at 695; A1a. R. Crlm.
P. 32.7 (d).

Miller failed to establlsh what additional

evidence could have been submitted during the sent~nclng
hearing.

Miller asked trial counsel whether he submitted

Dr. Scott or Dr. McDermott, s report during the sentencing
hearing befor~ the trial court; however, the substance of
both reports had been .already presented during the pen_~_ity
phase.

Furthermore, the trial court found three statutory

mitigating circumstances to exist. _M!l.ler_, 913 So. 2d 1169.
M-~ller has failed to demonstrate what addltional mitigating
circumstances could have been proven during the sentencing
hearing.

Accordingly, Miller has failed to establish proof

that he was prejudiced and this claim is denied.

508a

VI~. Miller, s Claim That The Cumulative Effect Of All The
Above Errors ~ntltles Him To Relief.
In paragraphs 313-14, Miller claims that his conviction
and sentence were unconstitutional a~d that cumulative
errors entltled him to relief.

Miller has failed to

establish or alleges any facts that support these clalms.
Miller has not proven the existence on a single error
during his trial a_~d appeal; therefore, he c~nnot be
granted relief on c~mulatlve non-error. Accordingly, these
claims are dismlssed. Ala. R. Crimo P. 52.71d).

This Court has reviewed each of Petitioner Alan
Miller’s claims -~ndividually and cumulatively and found no
error.

For the reasons stated above, this court finds that

Miller is due no relief from his capital murder conviction
and death sentence.
It iS, hereby, ORDERRD, ADJUDGED, and DECREED that
Miller’s amended Rule 32 petition is DENIED.

It is further

ORDERED that Miller shall have forty-two days from the
filing of this order in the Shelby County Circuit Clerk’s
Office to file his r~otice of appeal.

156

509a

Circuit Judge
Robin A. Adams, Counsel for Petitioner
Audrey Y. Dupont, Counsel for Petitioner
James S. Whitehead, Counsel for Petitioner
Michael Bartolic, Counsel for Petitioner
William Tran, Counsel for Petitioner
Thomas R. Govan, Jr., ASsistant Attorney General

157

510a

IN THE SUPREME COURT OF ALABAMA

June 22, 2012
1110110
Ex parte Alan Eugene Miller. PETITION FOR WRIT OF CERTIORARI TO THE
COURT OF CRIMINAL APPEALS (In re: Alan Eugene Miller v. State of Alabama) (Shelby
Circuit Court: CC-99-792.60; Criminal Appeals : CR-08-1413).

CERTIFICATE OF JUDGMENT
WHEREAS, the appeal in the above referenced cause has been duly submitted and
considered by the Supreme Court of Alabama and the judgment indicated below was entered
in this cause on June 22, 2012:
Writ Quashed as to ground 1. Deny as to ground 2. No Opinion. Main, J. - Malone, C.J.,
and Woodall, Stuart, Bolin, Parker, and Shaw, JJ., concur. Murdock, J., dissents. Wise, J.,
recuses herself.
NOW, THEREFORE, pursuant to Rule 41, Ala. R. App. P., IT IS HEREBY ORDERED
that this Court’s judgment in this cause is certified on this date. IT IS FURTHER ORDERED
that, unless otherwise ordered by this Court or agreed upon by the parties, the costs of this
cause are hereby taxed as provided by Rule 35, Ala. R. App. P.
I, Robert G. Esdale, Sr., as Clerk of the Supreme Court of Alabama, do hereby certify that the
foregoing is a full, true, and correct copy of the instrument(s) herewith set out as same appear(s) of record
in said Court.
Witness my hand this 22nd day of June, 2012.

Clerk, Supreme Court of Alabama

511a

512a

513a

514a

515a

516a

517a

518a

